<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA


                                     




                             ANNUAL REPORT


                                     


                                  2013

=======================================================================

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2013

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                               _________

                    U.S. GOVERNMENT PRINTING OFFICE  


85-010 PDF                WASHINGTON : 2013

______________________________________________________________________


For sale by the Superintendent of Documents, U.S. Government Printing Office,
Internet: bookstore.gpo.gov. Phone toll free (866)512-1800; DC area (202)512-1800
Fax:(202)512-2104 Mail:Stop IDCC, Washington, DC 20402-0001




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

SHERROD BROWN, Ohio, Chairman        CHRISTOPHER H. SMITH, New Jersey, 
MAX BAUCUS, Montana                  Cochairman
CARL LEVIN, Michigan                 FRANK WOLF, Virginia
DIANNE FEINSTEIN, California         MARK MEADOWS, North Carolina
JEFF MERKLEY, Oregon                 ROBERT PITTENGER, North Carolina
                                     TIMOTHY J. WALZ, Minnesota
                                     MARCY KAPTUR, Ohio
                                     MICHAEL M. HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
              FRANCISCO J. SANCHEZ, Department of Commerce
     NISHA DESAI BISWAL, U.S. Agency for International Development

                    Lawrence T. Liu, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)
                             CO N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary.............................................     1

    Introduction.................................................     1
    Specific Findings and Recommendations........................    14
    Political Prisoner Database..................................    54

II. Human Rights.................................................    57

    Freedom of Expression........................................    57
    Worker Rights................................................    67
    Criminal Justice.............................................    77
    Freedom of Religion..........................................    86
    Ethnic Minority Rights.......................................    96
    Population Planning..........................................    99
    Freedom of Residence and Movement............................   105
    Status of Women..............................................   109
    Human Trafficking............................................   113
    North Korean Refugees in China...............................   118
    Public Health................................................   121
    The Environment..............................................   124

III. Development of the Rule of Law..............................   131

    Civil Society................................................   131
    Institutions of Democratic Governance........................   137
    Commercial Rule of Law.......................................   146
    Access to Justice............................................   157

IV. Xinjiang.....................................................   163

V. Tibet.........................................................   172

VI. Developments in Hong Kong and Macau..........................   187

VII. Endnotes....................................................   191

      Political Prisoner Database................................   191
      Freedom of Expression......................................   192
      Worker Rights..............................................   198
      Criminal Justice...........................................   206
      Freedom of Religion........................................   213
      Ethnic Minority Rights.....................................   221
      Population Planning........................................   224
      Freedom of Residence and Movement..........................   231
      Status of Women............................................   235
      Human Trafficking..........................................   239
      North Korean Refugees in China.............................   244
      Public Health..............................................   247
      The Environment............................................   251
      Civil Society..............................................   260
      Institutions of Democratic Governance......................   265
      Commercial Rule of Law.....................................   273
      Access to Justice..........................................   279
      Xinjiang...................................................   285
      Tibet......................................................   295
      Developments in Hong Kong and Macau........................   313
                          I. Executive Summary

                              Introduction

    The Commission notes China's lack of progress in 
guaranteeing Chinese citizens' freedom of expression, assembly, 
and religion; restraining the power of the Chinese Communist 
Party; and establishing the rule of law under the new 
leadership of President Xi Jinping and Premier Li Keqiang. 
Official rhetoric at the start of their tenure suggested 
openness to reforms and limits on the power of officials, 
sparking public discussion across China. But the new leadership 
soon cracked down on growing calls for human rights and the 
rule of law and reiterated the Party's dominance over public 
affairs. Despite widespread acknowledgement that loosening 
restrictions on society to encourage public participation, 
lessening state control over the economy, and enforcing the 
rule of law are essential to China's economic development, 
China continues to pursue economic modernization without 
political reform or guarantees to fundamental human rights.
    The Commission's reporting year, which covers the period 
from fall 2012 to fall 2013, began with some potentially 
hopeful signs. Statements starting in late 2012 by President 
Xi, Premier Li, and other top leaders pledged to crack down on 
corruption and rein in official abuses, promised major reforms 
to the abusive systems of reeducation through labor and 
household registration, and suggested an openness to giving 
greater authority to China's Constitution. New and revised laws 
that took effect, including the PRC Criminal Procedure Law and 
the PRC Mental Health Law, contained significant flaws but also 
had the potential to improve protection of citizens' rights. 
China's relatively open response to an outbreak of avian flu in 
early 2013 stood in marked contrast to its poor handling of the 
Severe Acute Respiratory Syndrome (SARS) crisis 10 years 
earlier, a point highlighted at a Commission hearing held in 
May 2013. Whether buoyed by statements from China's new leaders 
or the possibilities accompanying a transition of power, 
citizens from diverse sectors of society, from elements within 
the Party to individuals affiliated with the grassroots New 
Citizens' Movement, sought to engage in public discussion over 
China's future. They urged their government to give greater 
force to the Constitution as a check on official behavior, make 
good on its promise to combat corruption by requiring officials 
to disclose their assets, and ratify the International Covenant 
on Civil and Political Rights, which China signed in 1998.
    By spring, however, it became clear that hopes China's new 
leaders would engage with, or even tolerate, public discussion 
on issues such as constitutionalism and anticorruption would 
remain unfulfilled. In April, the Office of the Communist 
Party's Central Committee reportedly issued Document No. 9, 
which sought to marginalize and silence calls for 
constitutional checks, anticorruption, universal human rights, 
and press freedom as the products of ``Western anti-China 
forces'' and dissidents, rather than treat them as the 
legitimate concerns of China's own citizens and an obligation 
under China's commitments to international standards such as 
the Universal Declaration of Human Rights. By September 2013, 
authorities had detained, arrested, or ``disappeared'' nearly 
60 individuals in an ensuing crackdown on free expression, 
assembly, and association, including the prominent rights 
advocates Xu Zhiyong and Guo Feixiong. Pro-reform editorials 
and discussions on the Internet were censored. Citizens who 
sought information about the government's human rights action 
plan and the submission to the UN Human Rights Council's 
Universal Periodic Review of China's human rights record 
scheduled for October 2013 faced harassment, detention, and 
arrest.
    The Party's harsh response to calls for reform this past 
year echoed a consistent theme across the 19 issue areas 
covered in this report--that the Party's interest in 
maintaining control and dominance over Chinese society still 
trumps meaningful and lasting progress on transparency, human 
rights, the rule of law, and easing state control over the 
economy. To be sure, the Commission documented improvements at 
the margins throughout this report, including the issuance of a 
national anti-trafficking plan, the loosening of residency 
restrictions in some localities, the introduction of labor law 
amendments intended to curb abuse of subcontracted labor, and 
the discontinuation of reeducation through labor sentences in 
some provinces. But these took place against the backdrop of a 
Chinese state that still views its citizens with suspicion and 
still denies them basic freedoms.
    This was evident in many of the headline issues that 
captivated Chinese citizens this past year, from crippling 
pollution and corrupt political figures to widespread concerns 
over food safety and tensions in ethnic minority regions. 
Citizens clamored for more information about the safety of 
their environment and food, but authorities deemed soil 
pollution data a ``state secret.'' Corruption was a top concern 
for many in China, but authorities detained anticorruption 
advocates and censored foreign news stories about the finances 
of China's leaders and their families. Despite dozens more 
self-immolations in Tibetan areas of China and some of the 
worst unrest in Xinjiang since 2009, Chinese officials 
continued to rely on heavier security and tighter control 
instead of dialogue and reconciliation. Another year has passed 
without resumption of formal dialogue with representatives of 
the Dalai Lama, extending the longest break since talks resumed 
in 2002. On the surface, the August trial of Bo Xilai, former 
Party Central Political Bureau member and Chongqing Party 
Secretary, appeared relatively more transparent, but it also 
was a reminder that when the Party's interests are involved, 
China remains very much a country ruled by the Party and not by 
laws.
    In addition, China made little progress toward achieving 
the ``highly efficient modern government that operates under 
the rule of law'' recommended in the groundbreaking ``China 
2030'' report released by the World Bank and the Development 
Research Center of China's State Council in 2012. The ``China 
2030'' report, which the Commission raised in last year's 
annual report, underscored the strong relationship between the 
human rights and rule of law issues monitored by the Commission 
and China's long-term economic development and stability. The 
report urged China to take a number of steps to reach the next 
stage of economic development, including allowing Chinese 
people greater freedom of movement and public participation, 
and strengthening the rule of law. The report also urged China 
to reform its state-owned sector, a source of abuses that tests 
China's commitment to the rule of law. On this count, this 
report found that the state continues to play an outsized role 
in China's economy, unfairly subsidizing state-owned 
enterprises and coordinating an overseas investment strategy, 
employing policies that favor domestic companies over foreign 
firms, violating World Trade Organization obligations, 
undervaluing its currency, and failing to curb the massive 
theft of foreign intellectual property.
    China's new leaders must undertake significant reforms to 
meet China's human rights obligations under international 
standards and to strengthen the rule of law. To that end, the 
Commission provides the following main recommendations to 
Members of the U.S. Congress and Administration officials 
outlining ways to encourage such reforms.

                          Main Recommendations

    <bullet> International Covenant on Civil and Political 
Rights (ICCPR). China signed the ICCPR in 1998 but 15 years 
later has still not ratified the covenant despite repeatedly 
stating its intent to do so. China is the only permanent member 
of the UN Security Council not to have acceded to or ratified 
the ICCPR. China must take a number of concrete steps to come 
into conformity with the specific provisions of the ICCPR, 
including the following: Ending arbitrary arrest and detention 
of political dissidents (Article 9); allowing citizens the 
right to freely choose their place of residence (Article 12); 
ending the policy of denying passports and restricting the 
movement of activists and their families as political 
punishment (Article 12); allowing citizens the freedom to not 
only hold religious beliefs but also to practice them (Article 
18); ending press and Internet censorship of peaceful political 
content and allowing freedom of expression (Article 19); 
allowing citizens the right to freely associate with others, 
including through non-governmental organizations and trade 
unions (Article 22); and allowing genuine elections by 
universal and equal suffrage (Article 25).

    RECOMMENDATION: Members of the U.S. Congress and 
Administration officials should urge China to commit to a 
specific date for ratifying the ICCPR, including providing a 
concrete and transparent plan and timetable for ratification 
developed through genuine, democratic, and open public 
participation and comment from all sectors of civil society. 
The Administration should raise this recommendation during 
China's Universal Periodic Review before the UN Human Rights 
Council on October 22, 2013, and at future bilateral dialogues 
with China, including the Strategic and Economic Dialogue, the 
Human Rights Dialogue, and the Legal Experts Dialogue. The 
Administration should raise China's qualifications for 
membership on the UN Human Rights Council prior to and during 
the upcoming election for Council members at the UN General 
Assembly on November 12, 2013.

    <bullet> U.S.-China Trade and Connection to Rule of Law and 
Human Rights. One of the results of the United States' 
extensive trade ties with China is that China's domestic human 
rights and rule of law developments impact the public health 
and economic well-being of Americans to a greater degree than 
those of any other country. China is the world's second-largest 
economy and has been a member of the World Trade Organization 
(WTO) since 2001. China is the United States' second largest 
trading partner, and exports a large and growing volume of 
food, drugs, and products to the United States. The U.S. trade 
deficit with China reached a record US$315 billion in 2012 and 
topped US$30 billion in July 2013, the highest monthly deficit 
ever. China continues to be the world's largest producer of 
carbon dioxide emissions, while food continues to be grown in 
areas of China contaminated by water and soil pollution. In 
addition, pollutants originating in China, such as mercury and 
ozone, are reaching the United States. The extent to which the 
Chinese government is transparent, respects its international 
trading obligations, and protects Chinese citizens' human 
rights affects the safety and quality of goods imported from 
China, and the ability of American workers and companies to 
compete on a level playing field.
    This connection between China's domestic commercial rule of 
law and human rights developments and the health and economic 
prosperity of Americans as a result of trade is evident in many 
contexts. Without a free press and civil society, Chinese 
consumers cannot effectively uncover and respond to food and 
drug safety issues, environmental threats, and disease 
outbreaks that could be exported abroad. Unfair trading 
practices, such as industrial policies, currency manipulation, 
quotas and subsidies, forced technology transfer, and 
intellectual property theft--many of which contravene China's 
obligations as a member of the WTO--directly harm American 
businesses and workers. China's censorship of the Internet not 
only denies China's nearly 600 million Internet users their 
freedom of expression but also blocks companies such as 
Facebook, Twitter, Bloomberg, the New York Times, Google, and 
YouTube from accessing China's markets. The denial of the basic 
right of Chinese workers to organize independent unions and the 
lack of enforcement of minimum labor and environmental 
standards places American workers and companies at a 
competitive disadvantage. Over the last two years, the 
Commission has held a number of hearings that have highlighted 
how U.S. trade relations with China should not be viewed in 
isolation from China's restrictions on expression, labor 
rights, environmental and public health transparency, and civil 
society, including ``China's Censorship of the Internet and 
Social Media: The Human Toll and Trade Impact''; ``Ten Years in 
the WTO: Has China Kept Its Promises?''; ``Working Conditions 
and Worker Rights in China: Recent Developments''; ``Food and 
Drug Safety, Public Health, and the Environment in China''; and 
``Chinese Hacking: Impact on Human Rights and Commercial Rule 
of Law.''

    RECOMMENDATION: Members of the U.S. Congress and 
Administration officials should seek to include human rights 
and rule of law concerns as integral parts of their discussions 
over trade and commercial issues with their Chinese 
counterparts during the annual U.S.-China Strategic and 
Economic Dialogue, negotiations over a bilateral investment 
treaty, and other trade-related venues, pointing out the links 
between, for example, China's censorship of the Internet and 
market access, the rule of law and food safety, and China's 
industrial policies and weak enforcement of law and theft of 
American intellectual property. The Administration should also 
continue to ensure that China adheres to its WTO obligations, 
including by exercising the United States' rights under the WTO 
dispute settlement process when necessary.

    <bullet> Rule of Law and Democratic Institutions. Early in 
the Commission's reporting period, President Xi Jinping drew 
attention with comments such as, ``[N]o organization or 
individual should be put above the constitution and the law''; 
and, ``[T]he Constitution should be the legal weapon for people 
to defend their own rights'' and implemented in order to have 
``life and authority.'' In practice, China's rule of law 
development has stalled, as most laws and regulations are 
developed behind closed doors largely in the absence of 
democratic input; officials continue to arbitrarily apply laws 
to punish individuals they deem politically sensitive; and 
enforcement of laws, such as labor laws, remains uneven. China 
lacks meaningful safeguards, such as an independent judiciary, 
a free press, and an unrestricted civil society, to ensure that 
the state's restrictions on freedom are narrowly tailored to 
meet the requirements of international law.

    RECOMMENDATION: Members of the U.S. Congress and 
Administration officials should raise President Xi's statements 
with Chinese officials and urge them to adopt the true 
hallmarks of a society marked by the rule of law, including 
laws and policies developed through democratic institutions and 
public participation, and meaningful safeguards such as a free 
press, independent judiciary, and vibrant civil society. U.S. 
officials who wish to express support for the new Chinese 
leadership's attempts to combat corruption should insist that, 
in order for such efforts to be sustainable, they must be 
accompanied by democratic participation, public oversight, and 
the rule of law. U.S. officials should also cite the ``China 
2030'' report's assertion that the creation of a ``highly 
efficient modern government that operates under the rule of 
law'' is key to China's economic future.

    <bullet> Ethnic Minorities. China's current policy toward 
ethnic minorities, most notably with respect to Tibetans and 
Uyghurs, has proven ineffective and counterproductive. Instead 
of promoting the declared national goals of stability and a 
harmonious society, these policies have led in the opposite 
direction. Tibetans continue to engage in tragic acts of self-
immolation at an alarming rate, and the Xinjiang Uyghur 
Autonomous Region (XUAR) has witnessed some of the most severe 
unrest since 2009.

    RECOMMENDATION: Members of the U.S. Congress and 
Administration officials should note to Chinese officials that 
instability in Tibetan areas of China and the XUAR is likely to 
continue and could deteriorate further without a shift in the 
state's policy away from a top-down approach that belies 
China's constitutional commitment to ``ethnic autonomy,'' and 
instead relies on heavy-handed security measures and 
development policies that fail to provide for participation by 
ethnic minorities in decisionmaking and fail to protect their 
distinct cultural, linguistic, and religious identity. China 
should be encouraged to move toward a more inclusive, 
democratic approach that fully takes into account the views and 
values of Tibetans and Uyghurs and respects their culture, 
language, and religion. U.S. officials should take note of and 
seek to learn more about what appeared to be more tolerant 
policy suggestions on the Tibet issue that appeared within the 
Party this year and should call on the Chinese leadership to 
promote a more stable and inclusive society by allowing greater 
public dialogue and debate among all groups, especially groups 
such as Tibetans and Uyghurs that are among the most adversely 
affected by current policies.

    <bullet> Reeducation Through Labor, Population Planning, 
and Household Registration. Major policies such as the 
reeducation through labor system, the population planning 
policy, and the household registration system were the source 
of great public discontent in China this past year. These 
policies not only violate human rights but also contribute to 
social instability and hold back China's economy. The 
reeducation through labor system violates the rule of law by 
incarcerating citizens without trialor access to legal counsel, 
and high-profile cases of abuse have led to widespread calls 
for abolishing the policy in China. The population planning 
policy interferes with and controls the reproductive lives of 
Chinese citizens, especially women, and involves serious abuses 
such as forced sterilizations and forced abortions. The policy 
also exacerbates the country's demographic challenges, which 
include an aging population, diminishing workforce, and skewed 
sex ratio. The household registration system denies Chinese 
citizens the freedom to choose a permanent residence and leads 
to unequal treatment and discrimination against migrants from 
rural areas who move to cities, contributing to social tensions 
and instability.

    RECOMMENDATION: Members of the U.S. Congress and 
Administration officials should inquire about indications this 
past year of possible changes in these policies, including a 
government restructuring plan that moves population planning 
policy development to the National Development and Reform 
Commission and the announcements of possible major reforms to 
the reeducation through labor system and the household 
registration system by the end of 2013. Members of the U.S. 
Congress and Administration officials should request more 
details about the changes and proposed reforms and urge Chinese 
officials to undertake serious reform that would both remedy 
rights violations and lead to greater social stability by 
ending policies that are widely opposed in China.

                           Report Highlights

    This report is divided into 19 issue areas. Highlights of 
developments in each area are discussed briefly below.
    The Commission observed China's implementation of practices 
inconsistent with Article 19 of the International Covenant on 
Civil and Political Rights (ICCPR) and the Universal 
Declaration of Human Rights (UDHR), as noted in this year's 
Freedom of Expression section. As more and more Chinese 
citizens accessed the Internet to share information and express 
grievances, Chinese officials responded with overly broad and 
non-transparent policies to curb ``online rumors'' and expand 
the real-name registration requirement for online services. 
Censorship of peaceful political content, a violation of 
international standards, remained commonplace and targeted 
everything from foreign news articles on the wealth of former 
Premier Wen Jiabao's family to domestic online discussion of 
the 18th Party Congress. New research indicated China was 
expanding its censorship system and focusing on online activity 
that could lead to collective movements. The Party continued to 
exercise broad control over the press, and authorities punished 
journalists such as Du Bin, who exposed abuses at the Masanjia 
Women's Reeducation Through Labor Center, and Deng Yuwen, who 
criticized China's North Korea policy. In a rare act, 
journalists at the Southern Weekend staged a strike in January 
2013 over the removal of an editorial advocating freedoms and 
constitutional principles, news of which itself was censored.
    China continued to violate internationally recognized 
worker rights by not allowing workers the right to freely 
associate and form independent trade unions. As noted in the 
Worker Rights section, despite limited efforts to promote the 
direct election of worker representatives to state-controlled 
unions, union representatives remained generally ineffective in 
representing workers' interests. Without adequate channels to 
protect their rights and express workplace grievances, China's 
large migrant worker population, which has provided the low-
cost labor to drive China's growth, continued to suffer 
exploitation, with studies showing that less than 50 percent 
had labor contracts, and even fewer had pensions and medical 
insurance. At the same time, rising wages and a tightening 
labor market led companies in the electronics industry and 
elsewhere to hire, in some cases with local government 
cooperation, underage workers and to exploit subcontracted 
workers in violation of the law. In December 2012, the National 
People's Congress amended the PRC Labor Contract Law to address 
subcontracting abuses, but the effectiveness of implementation 
remains to be seen.
    In the Commercial Rule of Law section, the Commission noted 
heavy state coordination of outbound investment, which has 
grown significantly in recent years, as part of a ``go out'' 
strategy targeting ``strategic industries'' such as energy 
resources, metals, advanced technology, and ``famous brands.'' 
An official urged Chinese companies investing abroad to keep a 
low profile to avoid the appearance of state involvement, while 
the Chinese government offered preferential financing that 
created an uneven playing field in overseas markets. The yuan 
remained significantly undervalued, according to the U.S. 
Treasury Department. The WTO found that China had imposed 
antidumping and countervailing duties on U.S. grain-
oriented electrical steel, U.S. chicken products, and European 
x-ray inspection equipment in ways that were inconsistent with 
China's WTO obligations. Chinese officials continued to use 
technology transfer as a precondition for market access, in 
violation of China's WTO obligations and commitments made 
during the 2012 U.S.-China Joint Commission on Commerce and 
Trade. Weak protection of intellectual property (IP) rights and 
policies encouraging Chinese acquisition of technology have led 
China to account for a reported 50 to 80 percent of 
international IP theft. New information this year revealed a 
massive cyber theft operation controlled by the People's 
Liberation Army. Problems with the rule of law contributed to 
ongoing food and product safety problems, including the cross-
border movement of hazardous and illegal products.
    The Commission observed ongoing noncompliance with 
standards for fair trial rights and the right to be free from 
arbitrary detention and torture as set forth in the ICCPR and 
the UDHR, as described in this year's Criminal Justice section. 
The revised PRC Criminal Procedure Law (CPL) took effect on 
January 1, 2013; while the new CPL is, for the most part, an 
improvement over its predecessor, it fails to clearly stipulate 
the rights to remain silent and to be presumed innocent, and 
the right not to incriminate oneself. Article 73 of the new CPL 
legalizes enforced disappearance (up to six months) in 
contravention of international standards. Chinese authorities 
continue to use the criminal justice system to suppress dissent 
and punish activists and their family members--the criminal 
detention of prominent rights activist Xu Zhiyong and the 
jailing of Chen Kegui, the nephew of Chen Guangcheng, are just 
two examples. The issue of confessions coerced through torture 
and wrongful convictions was once again in the spotlight, but 
it remains to be seen whether the CPL's new rule excluding the 
use of illegally obtained evidence from criminal trials will 
actually curb the use of torture in criminal investigations.
    The Commission notes in the Freedom of Religion section 
that the Chinese government's legal and policy framework for 
religion violates international standards for freedom of 
religion, including Article 18 of the UDHR. The PRC 
Constitution limits citizens' ability to exercise their beliefs 
by protecting only ``normal religious activities,'' and the 
government continued to recognize only five religions--
Buddhism, Catholicism, Taoism, Islam, and Protestantism--for 
limited state protections for religious activity. The 
government and Party maintained strict ideological control and 
oversight over religious groups, and a top official announced 
all clergy would be registered with the government by the end 
of 2013. Chinese citizens who sought to practice their faith 
outside of state-approved parameters continued to face 
harassment and detention. For example, Chinese officials 
revoked the title of auxiliary bishop from bishop Thaddeus Ma 
Daqin after he publicly withdrew from the state-run Catholic 
Patriotic Association of China at his ordination ceremony. In 
April 2013, a China-based magazine reported on claims of 
torture and severe maltreatment of inmates at the Masanjia 
Women's Reeducation Through Labor (RTL) Center in Liaoning 
province, many of whom are believed to be Falun Gong 
practitioners. Muslims were warned against going on Hajj 
pilgrimages not organized by the government. The government 
also continued to harass members of the Beijing Shouwang 
Church, a Protestant house church in Beijing municipality, and 
detained house church pastor Cao Nan and others for holding a 
religious gathering in a public park in Shenzhen municipality.
    The Commission observed that Chinese officials continued to 
fail to respond to Tibetan grievances in a constructive manner, 
instead dealing with the 65 Tibetan self-immolations that 
occurred from September 2012 through July this year by 
strengthening a security crackdown that has infringed on 
Tibetans' freedom of expression, association, and movement, as 
noted in the Tibet section. The self-immolations peaked in 
November during the 18th Party Congress, prompting officials to 
launch a troubling campaign to hold relatives, friends, and 
associates of the self-immolators criminally liable. Some self-
immolators reportedly called for greater use of the Tibetan 
language as they burned--an apparent indication of the 
significant threat some Tibetans believe official policies pose 
to Tibetan culture's vibrancy and viability. Officials 
continued to emphasize economic development as the key to 
achieving ``social stability,'' even though some initiatives 
resulted in protests or alleged harm to local communities. 
Talks between China and the Dalai Lama remained stalled, but 
the publication of a Central Party School academic's remarks on 
the potential benefits of improved relations with the Dalai 
Lama suggested that some officials may be interested in greater 
public discussion on the matter.
    The Commission found that instances of unrest in the spring 
and summer resulted in numerous deaths, with reported death 
tolls ranging from dozens to 100 or possibly more, and raised 
concerns about the failure of ethnic policy in the Xinjiang 
Uyghur Autonomous Region to address the root causes of 
instability. As discussed in the Xinjiang section, authorities 
continued to rely on heavy-handed security measures, including 
overly broad security sweeps targeting the general population 
and top-down development that disproportionately excludes 
Uyghurs, instead of pursuing inclusive, democratic policies 
that respect religious, cultural, and linguistic rights. 
Chinese officials violated Uyghurs' freedom of movement, 
preventing Uyghur scholar Ilham Tohti from traveling abroad and 
denying passports to some Uyghurs. News surfaced that 
Mirhemitjan Muzepper had been sentenced to 11 years in prison 
for serving as a translator for a Hong Kong media organization 
reporting on the demolitions taking place in Kashgar's Old 
City.
    As discussed in the Ethnic Minority Rights section, some 
Mongols continued to face harassment and imprisonment for 
peaceful protest and assertions of cultural identity, and some 
nomadic populations were forced to resettle away from 
grasslands. Authorities continued to hold Mongol rights 
advocate Hada in extralegal detention, denying him treatment 
for serious mental health issues; and they ordered Batzangaa, a 
former medical school principal who organized demonstrations to 
protest the government's confiscation of campus property in the 
Inner Mongolia Autonomous Region, to begin serving a three-year 
prison sentence.
    China's policy of interfering with and controlling the 
reproductive lives of Chinese citizens, including through 
fines, withholding of benefits, and forced sterilizations and 
abortions, continued to violate international human rights 
standards, as noted in the Population Planning section. In 
March 2013, China's new leaders merged the National Population 
and Family Planning Commission with the Ministry of Health and 
transferred the responsibility of developing population 
planning policy to the National Development and Reform 
Commission, a move some viewed as an opening for reform while 
others saw it as strengthening the family planning system. 
Calls for relaxing family planning policy continued, but local 
authorities continued to aggressively push the policy, and news 
and social media continued to publicize cases of forced 
abortions and sterilizations across China.
    Chinese authorities continued to enforce a household 
registration (hukou) system that denies citizens their right to 
freely determine their permanent place of residence, and 
contributes to instability by discriminating against rural 
migrants living in cities by denying them social services 
because they lack urban hukous. As described in the Freedom of 
Residence and Movement section, top officials announced that a 
plan to reform the system would be unveiled by the end of 2013 
as part of a larger push for urbanization to sustain China's 
economic growth. Some officials experimented with policies to 
expand educational and employment opportunities for rural 
migrants in cities, but experts have said many local 
governments lack the resources to fully implement such reforms. 
China continued to deny its citizens the right to freely leave 
the country by denying passports to a growing number of 
politically sensitive individuals, including Tibetans, Uyghurs, 
and political activists and their family members. Human rights 
groups estimate that at least 14 million people may be 
affected. Liu Xia, the wife of the imprisoned 2010 Nobel Peace 
Prize laureate Liu Xiaobo, continued to be confined to her 
home, one of many ``politically sensitive'' individuals denied 
domestic freedom of movement.
    The Commission observed that China continued to fall short 
of commitments in the Convention on the Elimination of All 
Forms of Discrimination against Women to ensure female 
representation in government. As noted in the Status of Women 
section, female representation at all levels of government 
continued to be low and did not markedly improve following the 
leadership transition. Gender discrimination in education and 
employment remains widespread. New national-level domestic 
violence legislation promised in state-run media reports has 
not materialized, and young female rape victims received 
inadequate legal protection under the PRC Criminal Law.
    China has taken some steps to comply with the UN Protocol 
to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, including the issuance of a new 
national anti-trafficking action plan this year, as discussed 
in the Trafficking section. After nine consecutive years on the 
Tier 2 Watch List, China was in June automatically downgraded 
to Tier 3, the lowest tier ranking, in the U.S. State 
Department's 2013 Trafficking in Persons Report. Men, women, 
and children continue to be trafficked to, from, and within 
China for purposes including forced labor, forced marriage, and 
sexual exploitation.
    In the North Korean Refugees in China section, the 
Commission noted that China continued to violate the 1951 UN 
Convention relating to the Status of Refugees and its 1967 
Protocol by detaining and repatriating North Korean refugees to 
the Democratic People's Republic of Korea despite the severe 
punishments they face once returned. The Chinese government, in 
concert with North Korean officials, appeared to strengthen 
measures to stem the flow of North Korean refugees into China. 
North Korean women in China continued to be trafficked into 
forced marriage and commercial sexual exploitation. China 
continued to violate the Convention on the Rights of the Child 
by repatriating North Korean women and separating them from 
their children born in China.
    The Commission observed in the Environment section that 
China faced severe pollution problems but still refused to 
provide full transparency to its citizens or fully empower 
citizens through law to enforce their rights. China's open 
government information regulations require governments to 
release information on the environment. Officials were more 
forthcoming about the linkage between toxic chemicals and 
``cancer villages'' and began to disclose abridged versions of 
environmental impact statements, but they refused to release 
information on soil pollution, claiming such information was a 
``state secret'' in response to at least one citizen's request. 
Citizens continued to be largely marginalized in the 
policymaking process, as authorities detained environmental 
advocates such as Liu Futang and Chen Yuqian, suppressed anti-
pollution demonstrations, and narrowed provisions in a new 
draft of the Environmental Protection Law to allow only a 
single government-
affiliated environmental organization to file public interest 
suits under the law.
    China continued to deny citizens the right to participate 
in public affairs directly or through freely chosen 
representatives and to vote in genuine elections by universal 
and equal suffrage, a standard set forth in Article 21 of the 
UDHR and Article 25 of the ICCPR. As discussed in the 
Institutions of Democratic Governance section, China's new 
leaders were chosen in an opaque, non-democratic process. At 
all levels, from the judiciary and the National People's 
Congress to the media and universities, the Chinese Communist 
Party continued to dominate political affairs. Authorities 
continued to detain or sentence democracy advocates, including 
Cao Haibo and Liu Benqi, who joined a growing list of those 
punished in recent years. The Chinese government continued to 
show little tolerance for citizens considered to be politically 
sensitive who sought to participate in public affairs. For 
example, authorities arrested Peng Lanlan and harassed others 
for seeking information regarding China's submission for its 
Universal Periodic Review before the UN Human Rights Council in 
October 2013. Authorities also arrested at least 25 
anticorruption and social justice advocates who called for 
officials to make public their personal assets or advocated on 
other issues.
    In the Civil Society section, the Commission found that the 
Chinesegovernment'soverly broadrestrictionson non-governmental 
organizations (NGOs) and informal citizen networks continued to 
fail to comply with freedom of association standards, as 
provided under Article 20 of the UDHR and Article 22 of the 
ICCPR. The government and Party reaffirmed their control over 
the development of NGOs in China, expressing preference to 
groups perceived to support economic growth or provide social 
welfare services, but harassing those engaged in issue advocacy 
or matters the government deems politically sensitive. The 
government pledged to issue long-awaited regulatory changes by 
the end of 2013 to make it easier for certain types of groups 
to register with the government, but excluded political, legal, 
religious, and foreign NGOs.
    The Access to Justice section highlighted the Chinese 
government's lack of tolerance for citizens seeking effective 
remedies to official violations of their rights, contrary to 
Article 8 of the UDHR and Article 2 of the ICCPR. During the 
18th Party Congress in November 2012, officials reportedly 
ordered rights advocates, petitioners, and Falun Gong 
practitioners to serve reeducation through labor (RTL) to 
achieve ``zero petitioning'' and prevent protest in Beijing 
during that period. Widespread media, scholarly, and government 
attention has focused on the Chinese government's vague 
statements about reform of the RTL system, possibly by the end 
of this year. Harassment of rights defenders, political 
activists, and their families continued, and prominent human 
rights advocates Gao Zhisheng and Ni Yulan continued to serve 
prison sentences. In spite of the increasing number of 
individuals reportedly receiving legal aid, the arrest in 
August 2013 of legal advocate Xu Zhiyong on trumped-up charges 
of ``gathering a crowd to disrupt public order'' highlighted 
the government's concerns over independent efforts to secure 
justice. Xu had founded the non-governmental organization Open 
Constitution Initiative in 2003, which authorities banned in 
2009, and is a leading proponent of the New Citizens' Movement, 
a broad network of individuals promoting legal and political 
reforms, human rights, and social justice, among other causes.
    The Commission noted in the Public Health section that 
international health organizations commended China's effective 
response to the H7N9 avian influenza outbreak in March 2013 and 
China's progress in building an emergency response structure in 
the decade since the 2003 Severe Acute Respiratory Syndrome 
(SARS) outbreak. The Chinese public, however, continued to 
express concerns over the government's capacity to protect 
public health and regulate food and drug safety. China's first 
Mental Health Law was passed in October 2012 and took effect in 
May 2013. Concerns remained regarding the lack of a guaranteed 
right to appeal hospitalization and safeguards to prevent the 
continued abuse of psychiatric commitment to punish 
petitioners, political activists, and others. The government 
also issued draft revisions of regulations on education for 
persons with disabilities, for which civil society 
organizations urged more precise definitions and amendments to 
comply with the UN Convention on the Rights of Persons with 
Disabilities. Despite laws prohibiting it, health-based 
discrimination in access to education, medical treatment, and 
employment remained widespread.
    In the Developments in Hong Kong and Macau section, the 
Commission noted that Hong Kong officials dismissed calls for a 
early public consultation on electoral reform for the election 
of the Chief Executive (CE) by universal suffrage, which is set 
to occur in 2017, despite concern from the UN Human Rights 
Committee over the ``lack of a clear plan to institute 
universal suffrage.'' Statements from mainland Chinese 
officials ruled out a CE nominating process involving the 
broader voting public and stated that CE candidates in an 
election by universal suffrage would be required to be trusted 
by the central government. The Hong Kong government postponed a 
measure that would have made information about company 
directors less transparent. Mainland experts and officials 
continued to dissuade Macau from pursuing universal suffrage. 
The Chinese government and Macau officials reportedly stepped 
up efforts to regulate Macau's gambling industry as part of a 
larger campaign against corruption.
    To fulfill the Commission's mandate to compile and maintain 
lists of persons believed to be imprisoned, detained, placed 
under house arrest, tortured, or otherwise persecuted by the 
Chinese government due to the pursuit of internationally 
recognized human rights, the Commission maintains an extensive 
database of political prisoners in China. According to the 
Political Prisoner Database section, as of September 1, 2013, 
the Commission staff had documented 1,304 cases of political 
and religious prisoners currently known or believed to be 
detained or imprisoned, and 6,005 cases of prisoners who are 
known or believed to have been released or executed, who died 
while imprisoned or soon after release, or who escaped. The 
Commission notes that these numbers reflect the efforts by the 
Commission's staff to document cases for which information is 
publicly available and that the actual number of cases of 
current political and religious imprisonment in China is likely 
to be much higher.

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission. The content of 
this Annual Report, including its findings, views, and 
recommendations, does not necessarily reflect the views of 
individual Executive Branch members or the policies of the 
Administration.

    The Commission adopted this report by a vote of 14 to 
0.<dagger>

                 Specific Findings and Recommendations

    A summary of specific findings follows below for each 
section of this Annual Report, covering each area that the 
Commission monitors. In each area, the Commission has 
identified a set of issues that merit attention over the next 
year, and, in accordance with the Commission's legislative 
mandate, submits for each a set of recommendations to the 
President and the Congress for legislative or executive action.

                         Freedom of Expression


                                Findings

        <bullet> During the Commission's 2013 reporting year, 
        Chinese officials continued to maintain a broad range 
        of restrictions on free expression that do not comply 
        with international human rights standards, including 
        Article 19 of the International Covenant on Civil and 
        Political Rights and Articles 19 and 29 of the 
        Universal Declaration of Human Rights. While such 
        standards permit states in limited circumstances to 
        restrict expression to protect interests such as 
        national security and public order, official Chinese 
        restrictions covered a much broader range of activity, 
        including peaceful dissent and expression critical of 
        the Communist Party.
        <bullet> According to the China Internet Network 
        Information Center (CNNIC), the national-level 
        administrative agency responsible for Internet affairs 
        in China, there were over 590 million Internet users in 
        China by the end of June 2013, bringing the Internet 
        penetration rate (i.e., the total number of Internet 
        users divided by the total population) to 44.1 percent. 
        The Chinese government has pledged to expand access to 
        mobile technologies and to increase government control 
        over the Internet.
        <bullet> During the 2013 reporting year, China's 
        Twitter-like microblogging sites continued to see 
        strong growth in the number of users. China's 
        microblogging sites--including China's most popular 
        microblog site, Sina Weibo--experienced dramatic growth 
        with 309 million registered accounts at the end of 
        2012.
        <bullet> The Chinese government reportedly increased 
        pressure on certain popular users of microblogging 
        services, including those who have posted blunt social 
        criticisms or political commentaries. The growing 
        popularity of services has allowed some microbloggers 
        to reach millions of users and to potentially shape 
        public opinion. With growing concern about ``online 
        rumors,'' Chinese Internet authorities responded with a 
        crackdown on high profile accounts and with a list of 
        ``seven bottom lines'' for online activity. Some have 
        alleged the crackdown on prominent microblog users is 
        politically based.
        <bullet> While international and domestic observers 
        continued to note the vibrancy of Internet and cell 
        phone use in China, Chinese government and Communist 
        Party officials showed little sign of loosening 
        political control. Chinese officials remained non-
        transparent in disclosing content that is blocked or 
        why it is blocked, and officials continued to block 
        content arbitrarily for purposes impermissible under 
        international standards. The online censorship and Web 
        site closures, in some cases, appeared politically 
        motivated and appeared to counter international 
        standards on freedom of opinion and expression.
        <bullet> Officials continued to restrict expression 
        arbitrarily by abusing vague criminal law provisions, 
        and imposing broad regulations and registration 
        requirements on journalists, publishers, news media, 
        and Internet users.
        <bullet> Government and Party officials continue to 
        exercise control over the press in violation of 
        international standards. A January 2013 strike at the 
        Southern Weekend, a progressive weekly newspaper in 
        Guangdong province, sparked public outrage and 
        highlighted the media's lack of editorial independence.
        <bullet> This past year the Commission continued to 
        monitor harassment of domestic and foreign journalists 
        in China. Chinese authorities, for instance, took 
        actions to punish or suspend journalists for 
        independent reporting. In other instances, foreign and 
        Hong Kong journalists were harassed, intimidated, or 
        assaulted.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Raise concerns over and draw enhanced international 
        attention to the Chinese government's continued 
        insistence that its restrictions on freedom of 
        expression are consistent with international standards.
          Emphasize that the Chinese government's position 
        undermines international human rights standards for 
        free expression, particularly those contained in 
        Article 19 of the International Covenant on Civil and 
        Political Rights and Articles 19 and 29 of the 
        Universal Declaration of Human Rights.
          Emphasize to Chinese officials that Communist Party 
        and government censorship of the Internet and the press 
        can lead to instability by eroding public faith in the 
        media and government.
          Engage in dialogue and exchanges with Chinese 
        officials on the issue of how governments can best 
        ensure that restrictions on freedom of expression are 
        not abused and do not exceed the scope necessary to 
        protect national security, minors, and public order. 
        Emphasize the importance of procedural protections such 
        as public participation in the formulation of 
        restrictions on free expression, transparency regarding 
        the implementation of such restrictions, and the 
        independent review of such restrictions.
          Urge Chinese officials to implement their calls for 
        greater transparency and public participation in 
        lawmaking. Such discussions may be part of a broader 
        discussion on how the U.S. and Chinese Governments can 
        work together to ensure the protection of common 
        interests on the Internet, including protecting minors, 
        computer security, and privacy.
          Acknowledge the Chinese government's efforts to 
        expand access to the Internet and cell phones, 
        especially in rural areas, while continuing to press 
        officials to comply with international standards.
          Support the research and development of technologies 
        that enable Chinese citizens to access and share 
        political and religious content that they are entitled 
        to access and share under international human rights 
        standards. Support practices and Chinese-language tools 
        and training materials that enable Chinese citizens to 
        access and share content in a way that ensures their 
        security and privacy. Support the dissemination of 
        online Chinese-language information on the Internet, 
        especially through popular Chinese social media sites, 
        that discusses the rights and freedoms to which Chinese 
        citizens are entitled under international standards.
          Elevate concern over the increased harassment of 
        foreign journalists, who this past year have been 
        beaten. Raise concerns over reports that authorities 
        repeatedly have delayed or denied the approval of 
        journalists' visa applications.

                             Worker Rights


                                Findings

        <bullet> During the Commission's 2013 reporting year, 
        the Chinese government continued to prevent workers 
        from exercising their constitutional right to freedom 
        of association. Workers in China are not guaranteed, 
        either by law or in practice, full worker rights in 
        accordance with international standards, including the 
        right to organize into independent unions. The All-
        China Federation of Trade Unions (ACFTU), the official 
        union under the direction of the Communist Party, is 
        the only legal trade union organization in China. 
        Authorities continued this past year to promote direct 
        elections of trade union representatives, although 
        questions remained over the ability of elections to 
        engender genuinely representative unions because of 
        continued management influence over candidate selection 
        and restrictions on worker participation in the 
        election process.
        <bullet> Genuine collective bargaining remains limited 
        by the inability of local-level trade unions to 
        effectively represent and advance the rights of workers 
        in negotiations with employers and a lack of 
        alternative union organizations to the ACFTU. Despite 
        the ACFTU's promotion of collective contracts and 
        collective wage bargaining in recent years, the 
        collective contract and consultation process remains 
        problematic in part because trade unions lack autonomy 
        and genuine worker representation.
        <bullet> The Commission continued to observe reports in 
        the past year of workers organizing strikes and 
        demonstrations in a variety of industries and regions 
        across China, often prompted by systemic labor-related 
        grievances, such as factory closings or relocations, 
        nonpayment of wages and benefits, and abusive 
        management practices. Official unions at the local 
        level frequently opposed worker-led actions and did not 
        play an organizing role in them, while media reports 
        indicated that government officials in some cases used 
        force against or detained demonstrating workers.
        <bullet> Changing demographic and economic shifts in 
        recent years have provided workers with greater 
        bargaining power in the workplace, increasing their 
        determination to redress grievances with employers and 
        press for better pay and working conditions. Moreover, 
        growing expectations of younger generation migrant 
        workers with regard to working conditions and labor 
        rights are seen as a driving factor behind the 
        increased assertiveness of recent protests.
        <bullet> Migrant workers remained largely marginalized 
        and vulnerable to exploitation in the workplace, facing 
        problems such as wage arrears, social discrimination, 
        and low levels of labor and social welfare protection. 
        Working predominately in low-end industries requiring 
        little technical skill, migrants face increased risk 
        for occupational injury and disease.
        <bullet> Despite China's laws and commitments under 
        international standards prohibiting child labor, the 
        use of underage workers remained evident in the 
        electronics manufacturing industry, with instances also 
        reported in other sectors. Systemic problems in 
        enforcement and a lack of sufficient resources 
        reportedly continue to constrain efforts to reduce 
        child labor.
        <bullet> Subcontracted workers hired through labor 
        employment agencies remain particularly vulnerable to 
        exploitation in the workplace, often receiving lower 
        wages and fewer benefits than workers hired through 
        direct labor contracts with employers. A series of 
        amendments to the PRC Labor Contract Law, passed in 
        December 2012, contain provisions that could help 
        reform labor subcontracting practices. Continued poor 
        enforcement and opposition by some state-owned 
        enterprises and national- and local-level government 
        offices, however, could weaken those reforms.
        <bullet> Average wage levels in China continued to 
        increase this past year, with reports suggesting that 
        structural changes in China's labor market, in 
        particular a decline in the working age population, in 
        combination with sporadic labor shortages and the 
        relocation of manufacturing operations further inland 
        or to Southeast Asia, signify the decline of ``cheap 
        labor'' in China.
        <bullet> Despite continued wage growth, income 
        inequality among different regions and industrial 
        sections has also increased, greatly expanding the 
        disparity between rich and poor. China's State Council 
        released a long-awaited income distribution plan in 
        February 2013 that seeks to reduce income inequality 
        and increase household income. However, observers 
        questioned whether it can be fully implemented.
        <bullet> Wage arrears and nonpayment of wages remained 
        serious problems this past year, particularly for 
        migrant workers. International media reports throughout 
        2013 indicated that wage arrears were a primary factor 
        behind worker-led protests, especially in the weeks 
        prior to the Chinese Lunar New Year holiday.
        <bullet> Chinese workers, especially those in the coal 
        mining sector, continued to face persistent 
        occupational safety and health risks. Fatalities have 
        been consistently reduced over the past few years, but 
        officially reported cases of disease have increased 
        during the same period. Despite legal measures aimed at 
        preventing workplace accidents and establishing a 
        regulatory system to inspect and handle safety 
        violations, systemic problems in implementation and 
        enforcement, as well as the lack of meaningful worker 
        participation in workplace decisions that impact safety 
        and health, continue to constrain efforts to reduce 
        industrial accidents.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support projects promoting reform of Chinese labor 
        laws and regulations to reflect internationally 
        recognized labor principles. Prioritize projects that 
        not only focus on legislative drafting and regulatory 
        development but also develop knowledge, expertise, and 
        practical solutions to comply with internationally 
        recognized labor principles at the enterprise level.
          Engage in dialogue with government officials, 
        workers, and trade union officials in locations that 
        have achieved successful cases of collective 
        bargaining; identify ways to increase awareness of 
        those experiences; and convey those experiences to 
        officials and trade unions in areas that have had less 
        success with collective bargaining. Where possible, 
        prioritize programs that demonstrate the ability to 
        conduct collective bargaining pilot projects in 
        enterprises with no functioning union present.
          Convey support for the effective use of worker-
        management committees, functioning collective 
        bargaining, and direct elections of trade union 
        representatives. Engage in dialogue with government and 
        trade union officials, as well as employers to identify 
        opportunities to increase awareness of successful 
        experiences with direct elections of trade union 
        representatives and to provide elected trade union 
        officials with ongoing training and support. Support 
        the U.S. Department of Labor's (USDOL) exchange with 
        the China National Coal Association regarding industry 
        regulatory compliance, worker representation at coal 
        mines, and safety and health improvements.
          Encourage the expansion of exchanges between U.S. 
        collective bargaining practitioners and Chinese labor 
        rights advocates in non-governmental organizations, the 
        bar, academia, and the official trade union. Prioritize 
        exchanges that emphasize face-to-face meetings with 
        hands-on practitioners and trainers.
          Support capacity-building programs to strengthen 
        Chinese labor and legal aid organizations involved in 
        defending the rights of workers. Encourage Chinese 
        officials at local levels to develop, maintain, and 
        deepen relationships with labor organizations inside 
        and outside of China, and to invite these groups to 
        increase the number of training programs in China. 
        Support programs that train workers in ways to identify 
        problems at the factory-floor level, conducting skills 
        and problem-solving training so they can communicate 
        their concern to employers effectively.
          Where appropriate, share the United States' ongoing 
        experience and efforts in protecting worker rights--
        through legal, regulatory, or non-governmental means--
        with Chinese officials. Expand site visits and other 
        exchanges for Chinese officials to observe and share 
        ideas with U.S. labor rights groups, lawyers, the 
        USDOL, and other regulatory agencies at all levels of 
        the U.S. Government that work on labor issues.
          Support USDOL's exchange with China's Ministry of 
        Human Resources and Social Security with regard to 
        setting and enforcing minimum wage standards; 
        strengthening social insurance; improving employment 
        statistics; and promoting dialogue and exchanges with 
        China's State Administration of Work Safety (SAWS) 
        regarding improving workplace safety and health. 
        Support the annual labor dialogue with China that USDOL 
        started in 2010 and the annual safety dialogue started 
        in 2012. Support USDOL's technical cooperation program 
        with SAWS on workplace safety and health and the 
        expansion of mining cooperation into broad occupational 
        safety and health areas. Support pilot projects that 
        establish public-private partnerships to address 
        workplace safety and health concerns, and the 
        introduction of meaningful worker participation in 
        management decisions important to workplace safety and 
        health.

                            Criminal Justice


                                Findings

        <bullet> The revised PRC Criminal Procedure Law (CPL) 
        took effect on January 1, 2013. While the law as 
        written has many positive aspects, it fails to 
        stipulate an explicit right to remain silent and right 
        not to incriminate oneself; nor does it provide a clear 
        right to the presumption of innocence as required by 
        the Universal Declaration of Human Rights (UDHR) and 
        the International Covenant on Civil and Political 
        Rights (ICCPR).
        <bullet> If implemented effectively, the revised CPL 
        will enhance the ability of lawyers to better defend 
        their clients and further the rights of detained 
        criminal suspects and defendants, for example, by 
        facilitating meetings between lawyers and their 
        detained clients. Preliminary reports based on limited 
        data suggest that lawyers are finding it easier to meet 
        with their detained clients, but that some problems 
        remain.
        <bullet> Chinese authorities continue to use vaguely 
        defined crimes to suppress and punish dissent and 
        perceived challenges to Chinese Communist Party rule. 
        In addition to Article 105 of the PRC Criminal Law, 
        which criminalizes ``subversion'' and ``inciting 
        subversion,'' during this reporting year authorities 
        made ample use of vague crimes such as ``unlawful 
        assembly'' and ``gathering people to disturb public 
        order'' to suppress rights advocates and civil society 
        activists. Public security officers arrested prominent 
        rights activist Xu Zhiyong on August 22 on suspicion of 
        ``gathering people to disturb public order.''
        <bullet> Chinese officials continue to harass and 
        arbitrarily detain rights advocates, civil society 
        activists, writers, lawyers, bloggers, and ordinary 
        citizens who advocate for their own rights or the 
        rights of others. They may be sentenced to prison for 
        the peaceful exercise of their internationally 
        recognized human rights, or subjected to various forms 
        of arbitrary or extralegal detention, including 
        confinement in ``black jails,'' administrative 
        detention facilities including reeducation through 
        labor (RTL) centers, unlawful confinement in their 
        homes, or enforced disappearance.
        <bullet> The issue of confessions coerced through 
        torture and wrongful convictions garnered a great deal 
        of attention during this reporting year as case after 
        case surfaced and senior judicial officials condemned 
        the practice. The revised CPL contains new provisions 
        for the exclusion of illegally obtained evidence from 
        criminal trials, which, if implemented effectively, 
        could lead to a reduction in the number of coerced 
        confessions and wrongful convictions.
        <bullet> Despite the Chinese government's continued 
        efforts to address the problem, torture and abuse in 
        places of detention in China remain widespread. In 
        April, a Chinese magazine published a detailed account 
        of torture, abuse, and forced labor at the Masanjia 
        Women's Reeducation Through Labor Center in Liaoning 
        province, which fuelled calls for reform of the RTL 
        system. Torture and the abuse of individuals detained 
        in connection with the campaign against organized crime 
        in Chongqing municipality carried out by Bo Xilai, the 
        former Communist Party Secretary of Chongqing, have 
        gradually come to light. While some initial steps have 
        been taken to provide redress to some of those 
        wrongfully accused and convicted during the campaign, 
        much more remains to be done.
        <bullet> Although the Chinese government continues to 
        treat data on the use of the death penalty as a state 
        secret, estimates suggest that the number is steadily 
        decreasing. Organs are still harvested from executed 
        prisoners. In March 2013, the Ministry of Health and 
        the Chinese Red Cross formally launched a national 
        voluntary organ donation system, and in August, a 
        senior health official reportedly announced that within 
        two years China would cease relying on organs of 
        executed criminals for organ transplants.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to publicly commit to a 
        specific timetable for ratification of the 
        International Covenant on Civil and Political Rights 
        (ICCPR), which the Chinese government signed in 1998 
        but has not yet ratified.
          Encourage the Chinese government to move forward on 
        its stated goal to cease using the reeducation through 
        labor (RTL) system and urge the Chinese government to 
        also abolish other forms of extrajudicial 
        administrative detention, and ensure that the rights of 
        Chinese citizens to a fair trial and due process of law 
        under the UDHR and the ICCPR are guaranteed.
          Call on the Chinese government to release all Chinese 
        citizens who have been detained or imprisoned for the 
        lawful exercise of their fundamental human rights of 
        freedom of expression, association, and peaceful 
        assembly, as well as the right to be free from 
        arbitrary detention, including rights advocates Xu 
        Zhiyong, Ni Yulan, Gao Zhisheng, and Wang Bingzhang. 
        Press the government to release relatives of activists 
        who have been unlawfully confined or imprisoned because 
        of the lawful exercise of human rights by their family 
        members, such as Liu Xia, the wife of Liu Xiaobo, and 
        Chen Kegui, nephew of Chen Guangcheng.
          Press China to sign and ratify the International 
        Convention for the Protection of All Persons from 
        Enforced Disappearance and to extend an invitation to 
        the UN Working Group on Enforced or Involuntary 
        Disappearances to visit China, which issued a request 
        to visit in February 2013.
          Support programs and international cooperation on 
        issues relating to the investigation of crimes, 
        including evidence collection, in order to reduce 
        Chinese law enforcement agencies' reliance on 
        confessions in criminal cases.

                          Freedom of Religion


                                Findings

        <bullet> The Chinese government's legal and policy 
        framework for religion violates international human 
        rights standards for freedom of religion, including 
        Article 18 of the Universal Declaration of Human 
        Rights. Although the PRC Constitution states that all 
        citizens enjoy ``freedom of religious belief,'' it 
        limits citizens' ability to exercise their beliefs by 
        protecting only ``normal religious activities.'' The 
        government continued to recognize only five religions--
        Buddhism, Catholicism, Taoism, Islam, and 
        Protestantism--for limited state protections for 
        religious activity, and the government has continued to 
        outlaw some belief systems, thereby denying members of 
        these communities the right to practice their faith 
        openly and without fear of government reprisal.
        <bullet> Strict ideological control and government 
        oversight over religious groups was maintained through 
        religious affairs bureaus, the Communist Party's United 
        Front Work Department, and the five ``patriotic'' 
        religious associations, one for each of the recognized 
        religions. All clergy and religious organizations are 
        required to be registered with the government. A top 
        religious official announced that all clergy would be 
        registered by the end of 2013. This past year, central 
        government officials also announced a plan to loosen 
        some registration and administrative hurdles on social 
        organizations that explicitly excluded religious 
        organizations.
        <bullet> Officials continued to monitor, control, 
        restrict, and ``guide'' the religious activities of 
        Buddhists in non-Tibetan areas of China, with a top 
        official urging Buddhists to ``embrace the leadership 
        of the Party.'' At least three sects of Buddhism 
        continue to be banned as cults.
        <bullet> Observers contend Chinese policies have 
        divided Chinese Catholics into ``official'' and 
        ``underground'' churches. Catholics in China continue 
        to be denied the freedom to accept the authority of the 
        Holy See to select bishops, and a new regulation on the 
        selection of bishops that took effect in April 2013 
        expands the state's role in the selection process and 
        explicitly requires bishop candidates to ``endorse the 
        Chinese Communist Party's leadership and the socialist 
        system.'' Officials at state-run Catholic organizations 
        announced in December a decision to revoke the title of 
        auxiliary bishop from bishop Thaddeus Ma Daqin after he 
        publicly withdrew from the state-run Catholic Patriotic 
        Association at his ordination ceremony in July 2012. 
        Clergy continue to be detained for their underground 
        activity or refusal to join the patriotic association, 
        including priest Song Wanjun.
        <bullet> The Commission continued to observe reports of 
        officials sentencing Falun Gong practitioners to long 
        prison terms, harassing lawyers who attempted to assist 
        Falun Gong practitioners, and pressuring practitioners 
        to renounce their beliefs. The Commission also observed 
        reports this past year regarding official anti-cult 
        efforts that placed an emphasis on the need to educate 
        the public to ``resist'' Falun Gong. In April 2013, an 
        article published in the China-based Lens Magazine 
        reported on claims of severe torture and maltreatment 
        of inmates at the Masanjia Women's Reeducation Through 
        Labor Center in Liaoning province, many of whom are 
        believed to be Falun Gong practitioners.
        <bullet> Chinese authorities continued to place curbs 
        on Muslims' ability to practice their religion and to 
        emphasize the role of Islamic clergy in promoting state 
        policies. Authorities also continued to regulate the 
        confirmation of Islamic religious leaders and to 
        monitor overseas pilgrimages in furtherance of state 
        policy. Islamic clergy at a certification ceremony in 
        February 2013 were told to ``resolve to become 
        politically reliable,'' and local authorities 
        throughout the Xinjiang Uyghur Autonomous Region (XUAR) 
        warned religious believers against going on Hajj 
        pilgrimages not organized by the government. 
        Authorities in charge of religious affairs sought to 
        portray violent clashes that took place in the spring 
        and summer of 2013 throughout the XUAR as acts inspired 
        by ``religious extremism,'' and urged Muslim clergy to 
        work against ``religious extremist forces.''
        <bullet> The Chinese government continued to control 
        the doctrine and activities of its official Protestant 
        church and target members of unregistered house 
        churches for harassment, detention, and other forms of 
        abuse. The government continued its efforts to prohibit 
        worship gatherings of the Beijing Shouwang Church, a 
        house church of over 1,000 congregants in Beijing 
        municipality, denying the church's appeal against local 
        public security officials for preventing the church 
        from moving into property it had purchased. State-
        sanctioned raids on house churches continued. In April 
        2013, local authorities raided a house church in Alxa 
        League, Inner Mongolia Autonomous Region, firing tear 
        gas, detaining members of the congregation, and beating 
        others. Officials in Shenzhen municipality detained 
        house church pastor Cao Nan and others for holding a 
        religious gathering in a public park, and officials in 
        Shanxi province sentenced Li Wenxi and Ren Lancheng for 
        ``illegal business operations'' in connection with the 
        printing and selling of religious publications.
        <bullet> The Chinese Taoist Association continued to 
        work with the Chinese government to ensure that Taoist 
        religious groups ``uphold the leadership of the 
        Communist Party and the socialist system.'' At a 
        November meeting, a top religious official reminded 
        Taoist leaders that ``studying and putting into 
        practice the spirit of the 18th Party Congress is the 
        chief political task for religious communities for the 
        coming period of time.''
        <bullet> Despite lacking formal central government 
        recognition, some religious communities have been able 
        to operate inside China and continue to appeal to the 
        Chinese government for greater recognition.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to guarantee to all 
        citizens freedom of religion in accordance with Article 
        18 of the Universal Declaration of Human Rights and to 
        remove the government's framework for recognizing only 
        select religious communities for limited state 
        protections. Stress to Chinese authorities that China's 
        ideological ``guidance'' of religious groups and the 
        general public violates its citizens' freedom of 
        religious belief, and that China's limited protections 
        for ``normal religious activities'' do not meet 
        international standards for freedom of religion. Stress 
        to the Chinese government that the right to freedom of 
        religion includes: The right of Buddhists to carry out 
        activities in temples independent of state controls 
        over religion, the right of Buddhist clergy to select 
        monastic teachers under Buddhist procedures and 
        standards, and the right of Tibetan Buddhists to 
        express openly their respect or devotion to Tibetan 
        Buddhist teachers, including the Dalai Lama; the right 
        of Catholics to recognize the authority of the Holy See 
        in matters relating to the practice of their faith, 
        including to make bishop appointments; the right of 
        Falun Gong practitioners to freely practice Falun Gong 
        inside China; the right of Muslims to engage in 
        religious outreach and preaching activities independent 
        of state-set parameters and not face curbs on their 
        internationally protected right to freedom of religion 
        in the name of ``upholding stability''; the right of 
        Protestants to worship free from state controls over 
        doctrine and to worship in unregistered house churches, 
        free from harassment, detention, and other abuses; the 
        right of Taoists to interpret their teachings free from 
        government guidance.
          Call for the release of Chinese citizens confined, 
        detained, or imprisoned in retaliation for pursuing 
        their right to freedom of religion (including the right 
        to hold and exercise spiritual beliefs). Such prisoners 
        include: Sonam Lhatso (a Tibetan Buddhist nun sentenced 
        in 2009 to 10 years' imprisonment after she and other 
        nuns staged a protest calling for Tibetan independence 
        and the Dalai Lama's long life and return to Tibet); 
        Thaddeus Ma Daqin (the auxiliary bishop of the Shanghai 
        diocese who has been under confinement since July 2012 
        for renouncing his affiliation with the Catholic 
        Patriotic Association); Wang Zhiwen (a Falun Gong 
        practitioner serving a 16-year sentence for organizing 
        peaceful protests by Falun Gong practitioners in 1999); 
        Nurtay Memet (a Muslim man sentenced to five years' 
        imprisonment for ``superstition''-related activity 
        connected to his religion); Fan Yafeng (a legal 
        scholar, religious freedom advocate, and house church 
        leader kept under home confinement since November 2010 
        in connection with his advocacy for unregistered 
        Protestant communities and coinciding with a broader 
        crackdown on rights advocates); and other prisoners 
        mentioned in this report and in the Commission's 
        Political Prisoner Database.
          Call on authorities to allow Chinese lawyers to 
        freely take cases involving religious freedom.
          Call on officials to eliminate criminal and 
        administrative penalties that target religions and 
        spiritual movements and that have been used to punish 
        Chinese citizens for exercising their right to freedom 
        of religion. Specifically, call for officials to 
        abolish Article 300 of the PRC Criminal Law (which 
        criminalizes using a ``cult'' to undermine 
        implementation of state laws) and Article 27 of the PRC 
        Public Security Administration Punishment Law (which 
        stipulates detention or fines for organizing or 
        inciting others to engage in ``cult'' activities and 
        for using ``cults'' or the ``guise of religion'' to 
        disturb social order or to harm others' health).
          Promote legal exchanges that bring Chinese experts to 
        the United States and American experts to China to 
        increase knowledge of international human rights 
        standards for the protection of freedom of religion. 
        Promote cultural exchanges that engage Chinese 
        intellectuals in discussions regarding freedom of 
        religion. Support non-governmental organizations that 
        collect information on conditions for religious freedom 
        in China and that inform Chinese citizens how to defend 
        their right to freedom of religion. Support 
        organizations that help religious practitioners appeal 
        prison sentences and orders to serve reeducation 
        through labor stemming from citizens' exercise of 
        freedom of religion; challenge government seizure of 
        property; and challenge job discrimination based on 
        religion.
          Collaborate with the governments of countries that 
        have trade ties with China and that value freedom of 
        religion, to advocate for freedom of religion within 
        China.

                         Ethnic Minority Rights


                                Findings

        <bullet> During the 2013 reporting year, ethnic 
        minorities faced challenges to their rights as provided 
        in the PRC Regional Ethnic Autonomy Law and 
        international law. Authorities placed the strictest 
        controls over groups perceived as potential threats to 
        ``stability,'' including those living in the Tibet 
        Autonomous Region (TAR) and other Tibetan autonomous 
        areas, the Xinjiang Uyghur Autonomous Region (XUAR), 
        and the Inner Mongolia Autonomous Region (IMAR). 
        Authorities continued to detain, harass, and imprison 
        ethnic minority rights advocates who engaged in 
        peaceful protest and sought to assert their unique 
        cultural identity.
        <bullet> Government authorities continued to enforce 
        grasslands policies that require herders and nomads to 
        resettle in urban areas or in larger, compact rural 
        communities, portraying these developments as a move to 
        improve and ``modernize'' the lives of Mongols, 
        Tibetans, Kazakhs, and other minority groups and to 
        combat grasslands degradation.
        <bullet> In several instances in 2013, Mongol herders 
        protested the appropriation of their grazing lands for 
        military use and private development projects. Security 
        personnel detained and beat some of the herders, and 
        obstructed the protests.
        <bullet> Critics of official grasslands policies in the 
        IMAR have raised concerns over increased mining 
        activities and a corresponding loss of water and the 
        production of toxic wastewater.
        <bullet> During the 2013 reporting year, authorities in 
        the IMAR continued to hold Mongol rights advocate Hada 
        in extralegal detention and to deny him treatment for 
        serious mental health issues. Authorities in Hohhot 
        city, IMAR, tightened restrictions on the freedoms of 
        movement and communication of Hada's wife, Xinna, and 
        the couple's son, Uiles.
        <bullet> In April 2013, authorities arrested Batzangaa, 
        a former medical school principal who had been under 
        residential surveillance in Ordos municipality, IMAR, 
        since January 2011. Authorities alleged that Batzangaa 
        was attempting to flee the country with his wife and 
        two children. Following his April 2013 arrest, 
        authorities reportedly ordered Batzangaa, who organized 
        demonstrations in 2009 to protest against the 
        government's confiscation of campus property, to begin 
        serving a three-year prison sentence.
        <bullet> On July 4, 2013, authorities in Uzumchin Right 
        (Dongwuzhumuqin) Banner, Xilingol League, IMAR, 
        reportedly arrested Yunshaabiin Seevendoo, who had 
        advocated for the rights of Mongol herders, on fraud 
        charges. Family members reportedly said his health has 
        deteriorated during his detention.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support non-governmental organizations that address 
        human rights conditions for ethnic minorities in China, 
        enabling them to continue their research and develop 
        programs to help ethnic minorities increase their 
        capacity to protect their rights. Encourage such 
        organizations to develop training programs on promoting 
        economic development that includes consultation with 
        and the participation of ethnic minority communities; 
        to develop programs to protect ethnic minority 
        languages, cultures, and livelihoods; and to develop 
        programs that document conditions and research rights 
        abuses in the Inner Mongolia Autonomous Region, 
        Xinjiang Uyghur Autonomous Region, Tibet Autonomous 
        Region, and other autonomous ethnic minority areas.
          Support rule of law programs and exchange programs 
        that raise awareness among Chinese leaders of different 
        models for governance that protect ethnic minorities' 
        rights and allow them to exercise meaningful autonomy 
        over their affairs, in line with both Chinese law and 
        international human rights standards.
          Call on the Chinese government to examine the 
        efficacy of existing grasslands policies in 
        ameliorating environmental degradation and to take 
        steps to ensure that the rights of herders are also 
        protected.
          Call on the Chinese government to investigate the 
        loss of groundwater and the production of toxic 
        wastewater due to mining activities in the IMAR, and to 
        ensure that mining companies operating in the region 
        adhere to state environmental regulations.
          Call on the Chinese government to release people 
        detained, imprisoned, or otherwise held in custody for 
        advocating ethnic minority rights, including Mongol 
        rights advocate Hada, former medical school principal 
        Batzangaa, herders' rights advocate Yunshaabiin 
        Seevendoo, and other prisoners mentioned in this report 
        and in the Commission's Political Prisoner Database.

                          Population Planning


                                Findings

        <bullet> In March 2013, China's new leadership unveiled 
        a plan for restructuring agencies within the State 
        Council, and part of this plan involves merging the 
        National Population and Family Planning Commission 
        (NPFPC) and the Ministry of Health. The restructure 
        combines most of the responsibilities of the previous 
        two organizations into a new ``National Health and 
        Family Planning Commission,'' but transfers the 
        responsibility of creating population development 
        policies and strategies--previously held by the NPFPC--
        to the National Development and Reform Commission. The 
        full impact of these changes on China's family planning 
        policies and their implementation remains to be seen. 
        Meanwhile, government leaders, experts, scholars, and 
        citizens continued calls this year for population 
        policy reform.
        <bullet> Chinese government officials continued to 
        implement population planning policies that interfere 
        with and control the reproductive lives of Chinese 
        citizens, especially women. Officials employed various 
        methods including fines, withholding of social benefits 
        and permits, forced sterilization, forced abortion, and 
        arbitrary detention to punish policy violators.
        <bullet> The PRC Population and Family Planning Law is 
        not consistent with the standards set forth in 
        international agreements, including the 1995 Beijing 
        Declaration and the 1994 Programme of Action of the 
        Cairo International Conference on Population and 
        Development. Controls imposed on Chinese women and 
        their families, and additional abuses engendered by the 
        system, from forced abortion to discriminatory policies 
        against ``out-of-plan'' children, also violate 
        standards in the Convention on the Rights of the Child 
        and the International Covenant on Economic, Social and 
        Cultural Rights. China is a state party to these 
        treaties and has committed to upholding their terms.
        <bullet> Chinese law prohibits official infringement 
        upon the rights and interests of citizens while 
        implementing population planning policies but does not 
        define what constitutes a citizen's right or interest. 
        Chinese law does not stipulate punishment for officials 
        who demand or implement forced abortions. Provincial 
        population planning regulations in at least 22 of 
        China's 31 provinces explicitly endorse mandatory 
        abortions, often referred to as a ``remedial measure'' 
        (bujiu cuoshi), as an official policy instrument.
        <bullet> The Chinese government's population planning 
        policies continue to exacerbate the country's 
        demographic challenges, which include an aging 
        population, diminishing workforce, and skewed sex 
        ratio.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to seize the window of 
        opportunity provided by the government restructuring 
        and specifically the merger of the NPFPC and the 
        Ministry of Health to cease restrictive family planning 
        policies and population controls and begin to employ a 
        human rights-based approach to providing greater 
        reproductive freedom and privacy for all citizens, 
        especially women.
          Urge Chinese officials to reevaluate the PRC 
        Population and Family Planning Law and bring it into 
        conformance with international standards set forth in 
        international agreements, including the 1995 Beijing 
        Declaration and the 1994 Programme of Action of the 
        Cairo International Conference on Population and 
        Development, as well as the Convention on the Rights of 
        the Child and the International Covenant on Economic, 
        Social and Cultural Rights.
          Urge China's central and local governments to enforce 
        vigorously provisions under Chinese law that provide 
        for punishments of officials and other individuals who 
        violate the rights of citizens when implementing 
        population planning policies and to clearly define what 
        these rights entail. Urge the Chinese government to 
        establish penalties, including specific criminal and 
        financial penalties, for officials and individuals 
        found to commit abuses such as coercive abortion and 
        coercive sterilization--practices that continue in 
        China. Urge the Chinese government to bar material, 
        career, and financial incentives and disincentives that 
        motivate officials to use coercive or unlawful 
        practices in implementing family planning policies.
          Support the development of programs and international 
        cooperation on legal aid and training that help 
        citizens pursue compensation under the PRC State 
        Compensation Law and that help citizens pursue other 
        remedies against the government for injuries suffered 
        as a result of official abuse related to China's 
        population planning policies.

                   Freedom of Residence and Movement


                                Findings

        <bullet> The Chinese government continued to enforce 
        the household registration (hukou) system it first 
        established in the 1950s. This system limits the right 
        of Chinese citizens to freely determine their place of 
        residence. The hukou system classifies Chinese citizens 
        as either rural or urban and confers legal rights and 
        access to social services based on that classification. 
        The hukou system discriminates against rural hukou 
        holders who migrate to urban areas by denying them 
        equal access to public services and social security 
        benefits, as well as equal social, employment, and 
        educational opportunities. Such discrimination was 
        especially prevalent this past year with respect to 
        employment and access to urban higher educational 
        opportunities.
        <bullet> High- and local-level Chinese government 
        officials continued to emphasize the need for hukou 
        reform, including Premier Li Keqiang, who announced in 
        May 2013 an urbanization plan to be unveiled in late 
        2013 that would clarify the timing of proposed hukou 
        reforms. Reforms could include land management reform, 
        improvements to public services and social security 
        systems, the urbanization of rural residents, and 
        clarifying the application criteria for urban hukous.
        <bullet> Some local governments have proposed or 
        implemented policies that, for example, would abolish 
        hukou classifications and include people under a single 
        uniform hukou classification; expand access to school 
        entrance exams in urban areas for the children of rural 
        migrants; establish a points system to award rural 
        migrants more public services and opportunities; or 
        grant an urban hukou to graduates of local colleges. 
        However, scholars and journalists have expressed 
        reservations about hukou reform, citing local 
        government opposition to the financial burden an influx 
        of rural migrants would impose on public services and 
        infrastructure.
        <bullet> Chinese officials continued to deny citizens 
        who criticize the government their internationally 
        recognized right to leave the country. During the 
        Commission's 2013 reporting year, there were numerous 
        reports of political advocates and their family members 
        being denied exit from China or access to passports.
        <bullet> The number of Chinese subject to international 
        travel restrictions reportedly has jumped in recent 
        years, and human rights groups estimate that at least 
        14 million people may be affected. Restrictions 
        reportedly fall heaviest on Tibetans and Uyghurs, with 
        the U.S. State Department reporting that members of 
        these groups ``experienced great difficulty acquiring 
        passports.''
        <bullet> Chinese authorities continued to violate the 
        internationally recognized right which provides that 
        ``Everyone lawfully within the territory of a State 
        shall, within that territory, have the right to liberty 
        of movement . . .'' by restricting the domestic 
        movement of activists and their families as a form of 
        harassment. Restrictions on the movement of activists 
        reportedly increased during politically sensitive 
        periods this past year.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support programs, organizations, and exchanges with 
        Chinese policymakers and academic institutions engaged 
        in research and outreach to migrant workers in order to 
        advance legal assistance programs for migrant workers 
        and encourage policy debates on the hukou system.
          Encourage U.S. academic and public policy 
        institutions to consult with the Commission on avenues 
        for outreach to Chinese academic and public policy 
        figures engaged in policy debates on reform of the 
        hukou system.
          Stress to Chinese government officials that 
        noncompliance with international agreements regarding 
        freedom of movement negatively affects confidence 
        outside of China that the Chinese government is 
        committed to complying with international standards 
        more generally.
          Raise specifically Chinese authorities' restrictions 
        on the liberty of movement of rights defenders, 
        advocates, critics, and their families, including, 
        among others: Tibetan writer Tsering Woeser; Uyghur 
        academic Ilham Tohti; Liu Xia, the wife of imprisoned 
        Nobel Peace Prize laureate Liu Xiaobo; and Chen 
        Mingxian, the wife of democracy advocate Liu Xianbin.

                            Status of Women


                                Findings

        <bullet> Chinese laws, including the amended PRC Law on 
        the Protection of Women's Rights and Interests and the 
        amended PRC Marriage Law, contain provisions which aim 
        to protect women's rights; however, ambiguity and lack 
        of clearly outlined responsibilities in China's 
        national-level legislation limit progress on concrete 
        protections of women's rights.
        <bullet> In its domestic laws and policy initiatives 
        and through its ratification of the Convention on the 
        Elimination of All Forms of Discrimination against 
        Women (CEDAW), the Chinese government has committed to 
        ensuring female representation in government. After the 
        Chinese Communist Party and government leadership 
        transitions in November 2012 and March 2013, 
        respectively, some top Party bodies increased female 
        representation, while others decreased. Female 
        representation decreased in the newly appointed State 
        Council. Overall, female representation in the central 
        government still falls short of international standards 
        to which China has agreed. Female participation in 
        decisionmaking at the village level remains low, 
        underscoring long-held concerns about protection of 
        rural women's rights and interests.
        <bullet> China has committed under CEDAW to take ``all 
        appropriate measures to eliminate discrimination 
        against women in the field of employment.'' While 
        China's existing laws, such as the PRC Labor Law, the 
        amended PRC Law on the Protection of Women's Rights and 
        Interests, and the PRC Employment Promotion Law 
        prohibit gender discrimination in employment, women 
        continue to experience widespread discrimination in 
        areas including recruitment, promotion, wages, and 
        retirement.
        <bullet> Gender-based discrimination continues in 
        Chinese universities, despite provisions in China's 
        Constitution and the PRC Education Law that prohibit 
        it. Universities across China implement gender quotas 
        that require women to score higher than men on their 
        college entrance exams in order to be admitted into 
        certain majors.
        <bullet> Chinese national legal provisions on domestic 
        violence lack a clear definition of domestic violence 
        and do not specify the responsibilities of public and 
        private sector organizations in prevention, punishment, 
        and treatment. Domestic violence reportedly remains 
        pervasive, affecting men, women, and children. The 
        Supreme People's Court (SPC) announced plans to issue 
        standardized documents to guide adjudication in 
        domestic violence criminal cases, noting 
        insufficiencies in Chinese law. The SPC also 
        established several pilot programs to strengthen trial 
        procedures for domestic violence cases. Despite state 
        media reports that new domestic violence legislation 
        would be on the agenda in 2012, no drafts appear to 
        have been made publicly available.
        <bullet> Chinese law fails to adequately define, 
        prevent, and punish acts of sexual violence against 
        women, including rape, forced prostitution, and sexual 
        harassment. Chinese legislation does not provide a 
        clear definition of sexual harassment or specific 
        standards and procedures for prevention, reporting, and 
        punishment, presenting challenges for victims in 
        protecting their rights. Several widely reported cases 
        of sexual violence this reporting year exposed the need 
        for stronger legal protections and heightened awareness 
        among law enforcement.
        <bullet> Officials in localities across China continue 
        to employ coercion and violence against women--
        including forced abortions, forced sterilizations, and 
        forced contraceptive use--in their enforcement of 
        national and local population planning policies. 
        Chinese law leaves women unprotected against such 
        abuses. Authorities also continue to use violence and 
        abuse against women in the enforcement of anti-
        prostitution laws. Such treatment is in violation of 
        Chinese law.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support programs in China that increase women's 
        political participation and leadership through U.S.-
        China exchanges and international conferences. Support 
        exchanges, training, and legal programs that promote 
        women's land rights, especially in rural areas, and 
        urge higher levels of government to increase 
        supervision over village committees to ensure that 
        local rules and regulations are in accordance with 
        national-level laws and policies and to ensure adequate 
        protection of rural women's rights and interests.
          Urge the Chinese government to take steps to 
        faithfully enforce provisions in the PRC Labor Law, the 
        amended PRC Law on the Protection of Women's Rights and 
        Interests, and the PRC Employment Promotion Law that 
        prohibit gender discrimination. Urge Chinese officials 
        in cities across China to supplement these laws with 
        local regulations that address and provide punishments 
        for all forms of gender discrimination in employment. 
        Support programs that teach women how to protect and 
        advocate for their rights and interests in the 
        workplace.
          Urge Chinese officials to put an end to gender-based 
        quotas that allow preference for men over women in 
        certain fields of study in Chinese universities.
          Urge the Chinese government to follow through on 
        stated plans to enact comprehensive national-level 
        legislation that clearly defines domestic violence in 
        criminal and civil law, allocates adequate resources, 
        assigns responsibilities to government and civil 
        society organizations in addressing domestic violence, 
        and details punishments for offenders. Urge officials 
        to release drafts of such legislation for public 
        comment.
          Urge the Chinese government to further revise the PRC 
        Law on the Protection of Women's Rights and Interests 
        or enact new comprehensive national-level legislation 
        to provide a clear definition of sexual harassment and 
        specific standards and procedures for prevention and 
        punishment. Support technical assistance programs that 
        increase awareness among judicial and law enforcement 
        personnel of issues pertaining to violence against 
        women. One such area of U.S. technical assistance might 
        be in developing workplace protocols and reporting 
        mechanisms that ensure confidentiality and prevent 
        retaliation.
          Urge the Chinese government to stop coercion and 
        violence against women during population planning 
        implementation and to clarify provisions under Chinese 
        law that would protect women against such rights 
        abuses. Urge the Chinese government to establish 
        penalties, including specific criminal and financial 
        penalties, for officials and individuals who engage in 
        coercive or violent population planning enforcement, 
        including forced abortion, forced sterilization, and 
        forced contraceptive use.

                           Human Trafficking


                                Findings

        <bullet> China remains a country of origin, transit, 
        and destination for the trafficking of men, women, and 
        children. The majority of human trafficking cases are 
        domestic and involve trafficking for sexual 
        exploitation, forced labor, and forced marriage. The 
        full extent of the forced labor problem in China is 
        unclear.
        <bullet> The Chinese government acceded to the UN 
        Protocol to Prevent, Suppress and Punish Trafficking in 
        Persons, Especially Women and Children (UN TIP 
        Protocol) in December 2009 and has since taken steps to 
        revise legislation and update policy efforts. In the 
        Commission's 2013 reporting year, the State Council 
        issued a new national anti-trafficking action plan, 
        which appears to contain some improvements in 
        terminology and objectives, and clearly lays out which 
        government agencies are responsible for implementation. 
        It remains to be seen whether authorities will provide 
        adequate resources and training to local authorities 
        for implementing the plan's objectives.
        <bullet> As Chinese law conflates human smuggling, 
        illegal adoption, and child abduction with human 
        trafficking, accurate official statistics on the number 
        of trafficking cases the government investigated and 
        prosecuted during this reporting year are not 
        available. In cooperation with international 
        organizations, Chinese authorities took steps to 
        improve protection, services, and care for victims of 
        trafficking, but continued to focus efforts only on 
        women and children. Chinese authorities did not release 
        detailed information on services provided or the number 
        of victims identified and assisted.
        <bullet> The Chinese government does not offer legal 
        alternatives to deportation for foreign victims of 
        trafficking and continues to deport North Korean 
        refugees under the classification of ``economic 
        migrants,'' regardless of whether or not they are 
        victims of trafficking.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to abide by its 
        commitments under the UN Protocol to Prevent, Suppress 
        and Punish Trafficking in Persons, Especially Women and 
        Children; and to bring anti-trafficking legislation 
        into alignment with international standards. 
        Specifically, urge the Chinese government to legally 
        distinguish the crimes of human smuggling, child 
        abduction, and illegal adoption from that of human 
        trafficking, and to expand the current legal definition 
        of trafficking to include all forms of trafficking, 
        including offenses against adult male victims, certain 
        forms of non-physical coercion, and the commercial sex 
        trade of minors.
          Urge the Chinese government to implement goals in the 
        2013-2020 plan to combat trafficking that address root 
        cultural and societal factors contributing to China's 
        trafficking problem. These stated goals include 
        eliminating traditional notions of female inferiority, 
        improving women's education, and ensuring rural women's 
        property rights.
          Call on the Chinese government to provide more 
        protective services for trafficking victims. Support 
        expanding training programs for law enforcement 
        personnel and shelter managers that help raise 
        awareness and improve processes for identifying, 
        protecting, and assisting trafficking victims. Support 
        legal assistance programs that advocate on behalf of 
        both foreign and Chinese trafficking victims.
          Object to the continued deportation of North Korean 
        trafficking victims as ``economic migrants.'' Urge the 
        Chinese government to abide by its international 
        obligations under the 1951 Convention relating to the 
        Status of Refugees and its 1967 Protocol with regard to 
        North Korean trafficking victims and provide legal 
        alternatives to repatriation.

                     North Korean Refugees in China


                                Findings

        <bullet> During the Commission's 2013 reporting year, 
        the Chinese government persisted in detaining and 
        repatriating North Korean asylum seekers and refugees 
        to the Democratic People's Republic of Korea (DPRK), 
        despite the severe punishments refugees face once 
        returned. The Chinese government is obligated under the 
        1951 UN Convention relating to the Status of Refugees 
        (1951 Convention) and its 1967 Protocol to refrain from 
        repatriating North Koreans who left the DPRK for fear 
        of persecution or who fear persecution upon return to 
        the DPRK.
        <bullet> The Chinese government appeared to strengthen 
        measures to stem the flow of North Korean refugees into 
        China this past year, including reportedly increasing 
        security along the North Korean border and implementing 
        new campaigns to seek out and repatriate refugees.
        <bullet> Chinese authorities continue to collaborate 
        with North Korean security officials, allowing them to 
        operate within China to apprehend North Korean refugees 
        and disrupt organizations that attempt to assist them. 
        The number of refugees who reached South Korea in 2012 
        dropped by 50 percent to 1,508 compared with 2,706 in 
        2011. As of July 2013, the number of refugees entering 
        South Korea was slightly higher than for the same 
        period in 2012.
        <bullet> North Korean women in China continue to be 
        sold into forced marriage and commercial sexual 
        exploitation. The Chinese government's repatriation of 
        trafficked North Korean women contravenes the 1951 
        Convention and its 1967 Protocol, as well as Article 7 
        of the UN Protocol to Prevent, Suppress and Punish 
        Trafficking in Persons, Especially Women and Children 
        (UN TIP Protocol).
        <bullet> Children born to North Korean women and 
        Chinese men are increasingly being raised in China in 
        households where either the mother or both parents are 
        absent. In some instances, Chinese authorities 
        repatriate North Korean mothers to the DPRK, while 
        others flee to South Korea or other parts of China. 
        Several experts and academic studies contend household 
        registration (hukou) policies have largely changed in 
        recent years to allow for a greater majority of 
        children born to North Korean women in China to gain 
        access to public education and social services, but 
        general poverty and the continued threat of 
        repatriation leaves these children and their families 
        at risk. The Chinese government's repatriation of North 
        Korean women who have given birth to a child in China 
        violates its international obligations under the 
        Convention of the Rights of the Child, which prohibits 
        separating children from their mothers.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Raise the issue of North Korean refugees in bilateral 
        discussions with Chinese officials, particularly the 
        U.S.-China Human Rights Dialogue.
          Support the efforts of the United Nations High 
        Commissioner for Refugees (UNHCR) to gain unfettered 
        access to North Korean refugees in China. Encourage the 
        Chinese government to work with the UNHCR in enacting 
        its full mandate and to operate in conformity with 
        China's obligations under the 1951 Convention and its 
        Protocol, as well as immediately cease detaining and 
        repatriating North Korean refugees in China.
          Urge Chinese officials to grant residency status and 
        related social benefits to North Korean women married 
        to Chinese citizens. Urge the Chinese government to 
        allow greater numbers of North Korean refugees to have 
        safe haven and secure transit until they reach third 
        countries.
          Urge Chinese officials to abide by their obligations 
        under the UN TIP Protocol (Article 9) and CEDAW 
        (Article 6) to prosecute human traffickers in 
        northeastern China and along the border with the DPRK.
          Support the efforts of the United Nations Commission 
        of Inquiry on North Korea to document North Korean 
        human rights violations and determine the extent to 
        which they amount to crimes against humanity.

                             Public Health


                                Findings

        <bullet> The Chinese government's oversight of and 
        response to public health matters came into sharp focus 
        during the 2013 reporting year with an outbreak in 
        March of the H7N9 avian influenza. International health 
        organizations commended China's effective response to 
        the outbreak and China's progress in building an 
        emergency response structure in the decade since the 
        SARS outbreak in 2003. Two studies released in 2013 
        provided statistical evidence that link environmental 
        pollution in China to adverse health effects, including 
        cancer and shorter life spans. The Chinese public has 
        expressed concerns over the government's capacity to 
        protect public health and regulate food and drug 
        safety.
        <bullet> As part of the larger government restructuring 
        announced during the National People's Congress and 
        Chinese People's Political Consultative Conference in 
        March 2013, the Ministry of Health (MOH) and the 
        National Population and Family Planning Commission were 
        merged into a single entity, the National Health and 
        Family Planning Commission. Some medical professionals 
        expressed disapproval of the name change and the lack 
        of consultation prior to the announcement. Then-MOH 
        Vice-Minister Dr. Huang Jiefu commented that the merged 
        name might cause China ``difficulties in its 
        international exchanges,'' likely in light of 
        international controversy over China's population 
        planning policy.
        <bullet> China's first-ever Mental Health Law (MHL) was 
        passed in October 2012 and became effective on May 1, 
        2013, and aims to ``expand access to mental health 
        services.'' Another key goal is to prevent cases of 
        being ``misidentified as mentally ill'' (bei jingshen 
        bing), a practice which has been used by Chinese law 
        enforcement officials to involuntarily detain 
        petitioners and others in psychiatric facilities. 
        International and Chinese civil society organizations 
        and rights advocates have identified problematic 
        provisions in the new MHL that may continue human 
        rights violations.
        <bullet> The Chinese government issued draft revisions 
        to the Regulations on Education for Persons with 
        Disabilities (1994) for public comment in February 
        2013, as part of its ongoing legislative efforts to 
        strengthen the rights of persons with disabilities. 
        Civil society organizations identified language needing 
        more precise definition and amendments that need 
        further work in order to comply with human rights 
        standards in the UN Convention on the Rights of Persons 
        with Disabilities, which China has signed and ratified.
        <bullet> China's existing legislative framework 
        prohibits health-based discrimination in access to 
        employment, medical treatment, and education, but there 
        continues to be widespread discrimination due to a lack 
        of compliance with the laws and inconsistencies between 
        national laws and local regulations. Rights advocates 
        and non-governmental organizations continue to request 
        revisions to physical eligibility standards that 
        disqualify persons with disabilities and carriers of 
        infectious diseases from employment as civil servants 
        and teachers. Disability rights advocates lauded 
        Guangdong province for removing discriminatory 
        provisions in its teacher physical eligibility 
        standards in May 2013.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Commend the Chinese government for its response to 
        the H7N9 avian influenza outbreak and urge its public 
        health and food and drug safety agencies to maintain a 
        high level of vigilance and transparency in dealing 
        with infectious disease outbreaks and other public 
        health emergencies. Strengthen support to the U.S. 
        Centers for Disease Control and Prevention for 
        technical exchanges with China, not only on disease 
        surveillance and response but also on environment and 
        health monitoring and response mechanisms.
          Encourage the development of non-governmental 
        organizations (NGOs) and media groups that advocate for 
        consumer rights in food and drug safety, public health, 
        and disability rights. Support efforts to raise the 
        technical and operational capacity of such NGOs, and 
        provide opportunities for these organizations to 
        participate in international forums on the rights to 
        health, food safety, and education.
          Urge the Chinese government to supervise 
        implementation of the Mental Health Law to ensure that 
        petitioners and others are no longer ``misidentified as 
        mentally ill'' (bei jingshen bing) and involuntarily 
        committed to psychiatric facilities. Provide support to 
        Chinese civil society organizations and advocates and 
        legal and medical organizations in monitoring the 
        implementation of the Mental Health Law, such as 
        funding for training, research, and publication of 
        findings.
          Call on the Chinese government to include people with 
        disabilities and their representatives, and disability 
        rights organizations not necessarily affiliated with 
        the Chinese Federation of Disabled Persons, in the 
        revisions to the Regulations on the Education of 
        Persons with Disabilities. Urge officials to ensure 
        that the revisions are in accord with the UN Convention 
        on the Rights of Persons with Disabilities on 
        ``reasonable accommodation,'' ``inclusive education,'' 
        and other internationally recognized standards. Where 
        appropriate, share the United States' ongoing 
        experience and efforts in promoting the right to 
        education for persons with disabilities--through legal, 
        regulatory, and non-governmental means--with Chinese 
        officials. Expand site visits and other exchanges for 
        Chinese officials to observe and share ideas with U.S. 
        disability rights groups, lawyers, the U.S. Department 
        of Education, and other U.S. federal and state agencies 
        that work on ensuring educational opportunities for 
        persons with disabilities.
          Urge Chinese officials to focus attention on 
        effective implementation of the laws and regulations 
        that prohibit health-based discrimination in access to 
        employment, medical care, education, and a barrier-free 
        environment. Ask Chinese officials about cases in which 
        disability rights advocates have been rebuffed in their 
        applications for open government information.

                            The Environment


                                Findings

        <bullet> Despite some progress during the Commission's 
        2013 reporting year, pollution problems remained 
        severe, and the associated financial costs continued to 
        grow. News and other reports highlighted major winter 
        air pollution incidents, groundwater contamination, 
        soil pollution challenges, the link between toxic 
        chemicals and ``cancer villages,'' and problems 
        associated with the migration of polluting industries 
        to western and poorer regions. Authorities were more 
        transparent about the problems of air and groundwater 
        pollution, and toxic chemicals, than they were about 
        soil contamination.
        <bullet> During the reporting period, authorities 
        continued to develop a regulatory framework to address 
        environmental problems, despite significant 
        limitations. Chinese leaders highlighted environmental 
        protection as one of China's ``four basic principles,'' 
        and Party leaders added commitments to ``ecological 
        civilization'' to the Party constitution. Economic 
        development, however, remains the ``core concern.'' 
        Authorities released two versions of the draft 
        revisions to the Environmental Protection Law to the 
        public for comments, which contained some incentives 
        for greater transparency and official accountability. 
        Environmental groups, experts, and the environmental 
        ministry pointed out other problems with the drafts 
        related to environmental interest lawsuits and numerous 
        other issues. Authorities appeared to restart stalled 
        efforts to revise the PRC Air Pollution Law, and to 
        draft a major national soil pollution law. In addition, 
        the State Council issued ten policies on air pollution 
        and an air pollution action plan.
        <bullet> Significant challenges for the development of 
        rule of law in the sector remain, including legal 
        violations, lax or arbitrary enforcement, evaluation 
        criteria prioritizing economic growth, corruption, lack 
        of supervision, a weak environmental protection 
        apparatus, and insufficient monitoring and 
        environmental penalties. Development of environmental 
        public interest law came to a standstill when the June 
        draft of the revisions to the Environmental Protection 
        Law stipulated that only the government-supported All-
        China Environment Federation would be allowed to bring 
        public interest lawsuits. Legal remedies in 
        environmental cases continue to be unreliable for 
        several reasons, including the reluctance of courts to 
        accept cases, hesitation on the part of lawyers to 
        participate, mediation with a weak legal basis, and the 
        potential for forced mediation agreements. Citizens 
        continued to take to the streets in efforts to resolve 
        grievances.
        <bullet> During the reporting year, Chinese citizens 
        advocated for improvement of environmental quality, but 
        during the course of protecting their rights or 
        investigating claims of pollution, some people faced 
        detention (Liu Futang), extralegal home confinement 
        (Zhang Bing), harassment from officials (Chen Yuqian 
        and Mongolian herders), and beatings from unidentified 
        individuals (an environmental journalist). Officials 
        also questioned environmental advocates, took 
        extraordinary measures to prevent anti-pollution 
        demonstrations, and censored Internet postings, 
        including those critical of planned projects.
        <bullet> During the 2013 reporting year, citizens 
        called for greater environmental transparency, and 
        environmental authorities issued new internal rules to 
        improve proactive disclosure of abridged environmental 
        impact assessment reports and other information. 
        Authorities in select cities began to make public PM2.5 
        and air quality data using the revised air quality 
        index. Despite these new rules and measures, 
        authorities' proactive disclosure of information 
        remains irregular and censorship continues. According 
        to one study, while a greater percentage of 
        environmental authorities responded to information 
        requests, disclosure was less comprehensive in more 
        cases than in the previous year.
        <bullet> Grassland herder relocation programs, 
        reportedly conducted by authorities to address 
        grassland degradation as well as modernize the animal 
        husbandry industry, have also in some cases been 
        involuntary.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call upon the Chinese government to cease punishing 
        citizens for their grassroots environmental advocacy, 
        for investigating pollution incidents, or for utilizing 
        official and institutionalized channels to voice their 
        environmental grievances or to protect their rights. 
        Support efforts by Chinese and U.S. groups working in 
        China to expand awareness of citizens' environmental 
        rights and to promote the protection of those rights. 
        Include environmental law issues in the bilateral human 
        rights and legal expert dialogues. In addition, include 
        discussion of human rights dimensions of climate change 
        in the new U.S.-China Climate Change Working Group.
          Support multilateral exchanges regarding 
        environmental enforcement and compliance tools, 
        including environmental insurance, market mechanisms, 
        criminal prosecution of serious environmental 
        infringements, and public interest litigation 
        mechanisms. Encourage Chinese leaders to strengthen 
        environmental impact assessment processes and citizen 
        participation in those processes. Engage Chinese 
        officials and others who seek to devise a fair 
        compensation system for people harmed by pollution.
          Support continued expansion of environmental 
        information disclosure in China. Share U.S. Government 
        experiences with the Toxics Release Inventory Program 
        and other U.S. programs that seek to provide more 
        environmental transparency. Support programs that 
        educate Chinese citizens about China's system of open 
        government information. In addition, continue U.S. 
        Government engagement with relevant individuals and 
        organizations in developing China's capacity to 
        reliably measure, report, publicize, and verify 
        emissions reduction strategies and techniques.
          Encourage the development of environmental NGOs in 
        China, including by incorporating joint U.S.-China non-
        governmental participation into bilateral projects. 
        Support efforts to raise the technical and operational 
        capacity of Chinese environmental NGOs.
          Urge Chinese authorities to end nonvoluntary 
        relocation of nomadic herders and to conduct relocation 
        programs in a manner consistent with international 
        scientific and human rights norms. To this end, urge 
        authorities to consider the suggestions contained in 
        the 2012 Report of the Special Rapporteur on the Right 
        to Food; Addendum, Mission to China, to the United 
        Nations High Commissioner for Human Rights.

                             Civil Society


                                Findings

        <bullet> Millions of civil society organizations 
        operate in China, making contributions to public 
        interest advocacy and the provision of social services, 
        organizing leisure activities, and promoting farming 
        and business development. Government-registered non-
        governmental organizations (NGOs) make up a subset of 
        civil society organizations. Many NGOs are registered 
        as businesses or are unregistered due to a restrictive 
        regulatory environment. Individual advocates and 
        informal networks also engage on issues of public 
        interest in China.
        <bullet> During the 2013 reporting year, Chinese 
        government and Communist Party policy documents 
        reaffirmed government and Party leadership and control 
        over the development of ``social organizations,'' the 
        term commonly used to refer to NGOs. Chinese scholars 
        have observed differentiated treatment of NGOs; whereas 
        the government is willing to support groups that are 
        perceived to support economic growth or provide social 
        welfare services, the government continues to harass 
        groups and individuals involved in issue advocacy or 
        matters the government deems politically sensitive.
        <bullet> Human rights organizations have reported on a 
        crackdown beginning in spring 2013 on individual rights 
        advocates, some of whom have an affiliation with the 
        New Citizens' Movement, a loose network of individuals 
        who advocate for a range of issues, such as political 
        and legal reforms, human rights, and social justice. In 
        July, the Beijing municipality Bureau of Civil Affairs 
        shut down the Transition Institute, a think tank which 
        conducts research on public interest issues, reportedly 
        because the Institute is not registered as an NGO.
        <bullet> The government has pledged to issue long-
        awaited regulatory changes to the legal framework for 
        social organization registration and management by the 
        end of 2013, including permitting direct registration 
        to allow organizations to register at civil affairs 
        bureaus without first securing a governmental or quasi-
        governmental supervisory unit. Direct registration, 
        however, will be limited to business and industry 
        associations, technical and scientific associations, 
        charitable organizations, and community service groups. 
        Political, legal, and religious organizations, and 
        foreign NGOs with representative offices in China, will 
        continue to be required to find a supervisory unit and 
        operate under the existing ``dual management'' system.
        <bullet> Chinese government authorities at national and 
        local levels haveallocatedfunds toprocureservicesfrom 
        non-governmental organizations as part of the 
        development of a ``non-state services sector.'' 
        Scholars and civil society experts have expressed 
        concerns that the fragmentary development of the 
        regulatory framework for government procurement from 
        NGOs has created problems in the selection of service 
        providers, contract implementation, and oversight of 
        projects.
        <bullet> China's government-run charitable 
        organizations, such as the Red Cross of China, continue 
        to face a confidence gap in the eyes of Chinese 
        citizens due to reports of misused donated funds and a 
        lack of transparency in financial reporting. Private 
        (non-governmental) charities have benefited from the 
        credibility gap, as illustrated by the large amount of 
        donations to such organizations in response to the 
        Sichuan earthquake in April 2013. The Chinese 
        government reportedly is working on a national Charity 
        Law, but has not yet issued a draft for public comment.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to revise its regulatory 
        framework for social organizations in China to allow 
        all non-governmental organizations (NGOs) to benefit 
        from planned reforms in accordance with the rights to 
        freedom of association in Article 22 of the 
        International Covenant on Civil and Political Rights. 
        Stress to Chinese authorities that freedom of 
        association includes public advocacy on a range of 
        issues. Call on the Chinese government to cease 
        harassment of NGOs and civil society advocates who work 
        on rights protection and public advocacy.
          Encourage the Chinese government to establish a fair 
        and transparent framework for implementation and 
        regulation of government procurement of social services 
        from NGOs. Where appropriate, support technical 
        exchanges for central- and 
        provincial-level Chinese officials to visit the United 
        States to observe U.S. federal and state practice in 
        government procurement of services from NGOs.
          Take measures to facilitate the participation of 
        Chinese citizens who work in the NGO sector in relevant 
        international conferences and forums. Increase support 
        for training opportunities in the United States to 
        build their leadership capacity in nonprofit 
        management, public policy, and public interest 
        advocacy. Expand support to U.S. organizations that 
        partner with Chinese NGOs on projects to build the 
        capacity of civil society organizations in China.

                 Institutions of Democratic Governance


                                Findings

        <bullet> At the 18th National Congress of the Chinese 
        Communist Party in November 2012, a major political 
        power succession took place within the Party, which 
        happens at 10-year intervals, and involved the 
        extensive turnover of power to a slightly younger 
        cohort of political leaders in a non-transparent 
        process. New Party General Secretary and President Xi 
        Jinping appeared to act quickly in the first few months 
        to move forward with his agenda and leadership style. 
        Some international and Chinese scholars, journalists, 
        and commentators believe that under the new echelon of 
        top leaders, the prospects for political reform in 
        China appear dim.
        <bullet> At the 18th Party Congress, the Party amended 
        the Party constitution to embrace ``scientific 
        development'' (former Party secretary Hu Jintao's 
        socio-economic theory), to declare that ``socialism 
        with Chinese characteristics'' is the reason behind all 
        of China's achievements, and to affirm that ``reform 
        and opening up are the path to a stronger China.''
        <bullet> Following the 18th Party Congress, top Party 
        leaders assumed leading posts in the Chinese government 
        in a transfer of government power that took place in 
        March 2013. The newly installed government leaders 
        issued a plan for a major reshuffling of State Council 
        institutions and a ``transformation of government 
        functions.'' The goals of the plan include improving 
        government efficiency, pushing forward reform toward 
        ``super ministries,'' and resolving issues in the 
        relationships between the government and the market, 
        the government and society, and central and local 
        entities.
        <bullet> China's political institutions do not comply 
        with the standards defined in Article 25 of the 
        International Covenant on Civil and Political Rights, 
        which Chinese leaders have signed and declared an 
        intention to ratify. Nor do China's political 
        institutions comply with the standards outlined in the 
        Universal Declaration of Human Rights. The Communist 
        Party continues to dominate political affairs, allows 
        only limited independent political participation, and 
        exerts control over the courts, the National People's 
        Congress, the media, and state leadership appointments. 
        Officials took a variety of other actions to interfere 
        in local congress elections and to prevent independent 
        candidates from being nominated or elected as 
        delegates. Additionally, officials established 
        numerical requirements related to the composition of 
        National People's Congress delegates. During this 
        reporting year, the Party tried to exert greater 
        influence over university student groups and non-
        governmental and quasi-governmental organizations. In 
        addition, developments suggest that the new Party 
        Central Committee is exerting more efforts to control 
        currents in the ideological realm.
        <bullet> Authorities continued to detain, arrest, and 
        sentence democracy advocates who exercised their right 
        to freedom of speech, of assembly, of association, and 
        of demonstration as guaranteed in China's Constitution 
        and under international human rights standards. This 
        reporting year, authorities detained or imposed prison 
        sentences on democracy advocates Cao Haibo and Liu 
        Benqi. Other democracy advocates given long prison 
        sentences in recent years remain imprisoned, including 
        Chen Wei, Chen Xi, Li Tie, Zhu Yufu, Xue Mingkai, Liu 
        Xiaobo, Liu Xianbin, Guo Quan, Zhou Yongjun, Xie 
        Changfa, and Huang Chengcheng.
        <bullet> While top Chinese leaders have voiced support 
        for greater transparency, citizens continue to face 
        challenges in accessing information. In one example, 
        authorities have suppressed citizen efforts to obtain 
        information regarding China's submission for the 
        October 2013 United Nations Human Rights Council 
        Universal Periodic Review process. Individuals seeking 
        information reportedly were harassed, prevented from 
        leaving their homes, detained, or formally arrested.
        <bullet> Authorities have passed or are drafting major 
        laws that have a bearing on when and how citizens may 
        hold their authorities accountable, including the PRC 
        Civil Procedure Law, the PRC Administrative Litigation 
        Law, and the PRC Administrative Reconsideration Law. 
        The State Council issued plans to continue to 
        strengthen administrative enforcement of laws and 
        policies, partially by promoting administrative 
        evaluation systems at the local level and strengthening 
        support for ``enforcement responsibility systems.''
        <bullet> Chinese leaders and citizens continued to 
        express concern about official corruption, and many 
        foreign and domestic business people reportedly think 
        China's legal environment has deteriorated. Top leaders 
        link the Party's legitimacy to its ability to manage 
        corruption. Authorities continued to issue regulatory 
        measures to curb corruption. In September 2013, a court 
        sentenced Bo Xilai, the former Party Central Political 
        Bureau member and Chongqing municipality Party 
        Secretary, to life imprisonment for corruption. Central 
        leaders have not, however, fully supported requirements 
        for top officials to disclose their assets, and 
        continued to have little tolerance for non-
        governmental anticorruption efforts. Against the 
        backdrop of strong public demand for disclosure of 
        officials' finances, authorities criminally detained or 
        arrested dozens of advocates who made public appeals 
        for top officials to disclose their finances, including 
        anticorruption advocates such as Sun Hanhui, Ding 
        Jiaxi, Hou Xin, Yuan Dong, Zhang Baocheng, Ma Xinli, 
        Liu Ping, Zhao Changqing, and Wang Yonghong.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Take proactive steps to engage with the new cohort of 
        Chinese leaders and to understand their plans for the 
        future of governance in China. Conduct reciprocal, 
        high-level parliamentary exchanges to share information 
        and hold trainings regarding the congressional and 
        political systems in the U.S. and China. Support 
        efforts to research the implications of the Party and 
        government power transition and the restructuring of 
        State Council institutions, and to disseminate that 
        information widely. Support U.S. research programs that 
        shed light on the structure, functions, and development 
        of the Chinese Communist Party, including its roles 
        within government institutions, China's legislature, 
        the media, non-state-owned companies, and social 
        organizations (non-governmental groups, foundations, 
        and nonprofit organizations). Urge Chinese officials to 
        further increase the transparency of Party affairs.
          Call on the Chinese government to release people 
        detained or imprisoned for exercising their right to 
        freedom of association and assembly, for engaging in 
        peaceful demonstrations, for calling for transparency 
        of officials' personal finances, or for calling for 
        political reforms within China. Some of these prisoners 
        have associated themselves with the New Citizens' 
        Movement and others are democracy advocates who are 
        serving long prison sentences.
          Support projects of U.S. or Chinese organizations 
        that seek to work withlocalChinesegovernmentaland non-
        governmental organizations to improve transparency and 
        accountability, especially efforts to expand and 
        improve China's government information disclosure 
        initiatives. Such projects might include joint efforts 
        to better publicize the Open Government Information 
        (OGI) Regulations at local levels and to train citizens 
        and groups about how to submit OGI requests. Encourage 
        Party and government officials to ensure regulations, 
        rules, and policies are made public. In addition, 
        support projects that involve an exchange of 
        information about bottom-up mechanisms to evaluate and 
        hold government and Party officials accountable and 
        emphasize the links between efficiency and 
        accountability.
          Support programs that assist local governments, 
        academics, and the nonprofit sector in expanding 
        transparent public hearings and other channels for 
        citizens to participate in the policymaking process. 
        Such programs could include pilot projects in China in 
        which citizens' suggestions to authorities about draft 
        laws, regulations, or policies are made available to 
        the public.

                         Commercial Rule of Law


                                Findings

        <bullet> The Chinese government and Communist Party 
        continued to encourage state coordination of overseas 
        investment activity as part of a policy authorities 
        commonly referred to as the ``go out'' strategy. 
        Authorities continued to encourage Chinese businesses 
        to invest abroad in part as a way to increase 
        opportunities for Chinese enterprises to move up the 
        value chain. As part of the ``go out'' strategy, 
        authorities targeted ``strategic'' industries, such as 
        energy resources, metals, advanced technology, and 
        ``famous brands.''
        <bullet> This past year, authorities took measures to 
        reform China's banking system, which continued to give 
        state-owned enterprises preferential access to loans. 
        The People's Bank of China removed a lower limit on 
        loan interest rates but maintained an upper limit on 
        interest rates payable to depositors, which news media 
        noted could allow state-owned enterprises to secure 
        cheaper loans, as well as reduce the profits of smaller 
        banks and constrain the ability of households to 
        accumulate savings.
        <bullet> The yuan appreciated this past year, but the 
        U.S. Treasury Department reported that it ``remains 
        significantly undervalued.'' Some Chinese officials 
        called for a more market-based approach to exchange 
        rate policy, but the Chinese government continued to 
        interfere with the exchange rate through the 
        accumulation of foreign exchange reserves.
        <bullet> During the 2013 reporting year--more than a 
        decade after China's accession to the World Trade 
        Organization (WTO)--China continued to face allegations 
        of violations of its WTO obligations, including 
        antidumping and countervailing duties and subsidies 
        inconsistent with its WTO obligations. Since its 
        accession to the WTO, China has been a respondent in 31 
        WTO Dispute Settlement cases; this past year, the WTO 
        found in favor of U.S. claims in three cases that the 
        United States brought against China, as well as 
        European Union claims in one case that the European 
        Union brought against China.
        <bullet> The Chinese government continued to take steps 
        to improve protection for intellectual property rights 
        (IPR) this past year, but weak protection and 
        enforcement of IPR continued to contribute to theft of 
        intellectual property. Theft of trade secrets, in some 
        cases reportedly authorized by the Chinese government, 
        continued this past year, including the reported theft 
        of large amounts of data by an organization operating 
        under the People's Liberation Army. In addition, 
        Chinese officials continued to use technology transfer 
        as a precondition for market access.
        <bullet> This past year, the Ministry of Commerce 
        published two new draft regulations for public comment: 
        the Provisions on Additional Restrictive Conditions for 
        the Concentration of Business Operators and the Interim 
        Provisions Regarding the Application of Standards for 
        Simple Cases of Concentration of Business Operators. 
        Both reportedly are designed to clarify and streamline 
        the merger review and approval process, but expert 
        commentators expressed doubts that the provisions will 
        have such an effect in practice.
        <bullet> During this past year, food safety scandals 
        continued to emerge in different parts of China, and 
        hazardous and illegal Chinese products continued to 
        cross borders. Over a three-month period, Chinese 
        authorities took into custody 904 people allegedly 
        involved in selling rat, mink, and fox meat disguised 
        as mutton. Over a six-week period, authorities in Hong 
        Kong took into custody 879 people allegedly involved in 
        smuggling milk formula from Hong Kong into mainland 
        China, as the quality of milk formula in mainland China 
        remained a concern.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Develop and support a project surveying the role of 
        China's industrial policies in the Chinese economy, 
        including how the development of these policies and the 
        role they play in directing China's economy influence 
        transparency, rule of law, and China's compliance with 
        its international commitments.
          Include issues of commercial rule of law, investment 
        subsidies, and retaliation for excercising legal rights 
        in the U.S.-China Strategic and Economic Dialogue and 
        other commercial dialogues, negotiations, and exchanges 
        with China. Expand dialogue with China through the U.S. 
        Department of the Treasury, U.S. financial regulators, 
        and the Small Business Administration on financial 
        sector reform issues, such as access to capital for 
        small business, corruption, subsidies, and taxpayer 
        accountability. In addition, when necessary, continue 
        to enforce U.S. rights through mechanisms of the WTO. 
        File a counter notification to the WTO regarding 
        China's subsidies, including its failure to report 
        subsidies.
          Obtain details on the amount of Chinese investment 
        (other than in financial instruments) in the United 
        States--including information on the distribution of 
        that investment across different sectors of the 
        economy, the criteria Chinese authorities use in 
        approving such investments, and how such investment is 
        financed. Obtain these details through bilateral 
        dialogues between the U.S. Trade Representative and 
        U.S. Department of Commerce, and China's Ministry of 
        Commerce, National Development and Reform Commission, 
        and State-Owned Assets Supervision and Administration 
        Commission.
          Support capacity-building programs for Chinese 
        intellectual property regulators on U.S. best practices 
        in intellectual property rights protection. Obtain 
        information from Chinese officials on the overarching 
        goals and projected timeline of the Chinese 
        government's current efforts to reform intellectual 
        property laws and regulations and to curb intellectual 
        property theft, including cyber theft. Support a 
        project that seeks to quantify the scope of damages to 
        the U.S. economy from Chinese intellectual property 
        theft, and more aggressively investigate the links 
        between specific companies, organizations, and entities 
        within China and specific theft of U.S. intellectual 
        property. Conduct the project in a manner that protects 
        the privacy and confidentiality of companies, while 
        offering those companies incentives to participate.
          Strengthen and expand capacity-building programs for 
        Chinese food safety regulators on U.S. best practices 
        in food safety programs. Pass legislation authorizing a 
        larger U.S. Food and Drug Administration presence in 
        China, with additional inspectors; support training 
        programs conducted by U.S. inspectors, producers, and 
        food safety experts; and ensure that regulated products 
        imported from China into the United States are 
        certified by the relevant entities in China.

                           Access to Justice


                                Findings

        <bullet> At a January 2013 meeting, the new Secretary 
        of the Communist Party's Political and Legal Affairs 
        Commission reportedly announced plans for reform of the 
        justice sector, reeducation through labor (RTL), 
        petitioning, and the hukou (household registration) 
        system. Public calls for reform of the RTL system have 
        been particularly strong during the 2013 reporting 
        year, but observers are concerned that any changes will 
        be in name only.
        <bullet> During the 2013 reporting year, the Commission 
        observed the Chinese government and Communist Party's 
        widespread use of ``stability maintenance'' measures in 
        advance of and during the 18th National Congress of the 
        Chinese Communist Party. Government and Party officials 
        reportedly ordered rights advocates, petitioners, and 
        Falun Gong practitioners, including Mao Hengfeng, Pei 
        Fugui, Cui Fufang, Tong Guojing, Shen Yongmei, Shen 
        Lianman, and Qin Wei, to serve RTL sentences to achieve 
        ``zero petitioning'' and prevent protest in Beijing 
        during that period.
        <bullet> Harassment of weiquan (rights defense) lawyers 
        continued to follow the trend of past years with the 
        Chinese government using a variety of measures, 
        including license suspension, surveillance, and illegal 
        detention, to intimidate lawyers. Prominent human 
        rights advocates Gao Zhisheng and Ni Yulan continued to 
        serve harsh prison sentences; authorities arrested 
        rights advocate Xu Zhiyong in August 2013 following 
        several months of ``house arrest'' and criminal 
        detention.
        <bullet> Official sources reported that the number of 
        individuals who received legal aid in China exceeded 1 
        million in 2012, a 21 percent increase over 2011. The 
        Chinese government has steadily increased funding of 
        legal aid over the years, reportedly by almost 10 
        percent in 2012. The revised Criminal Procedure Law and 
        supporting regulations expand the scope and eligibility 
        of criminal suspects and defendants who may receive 
        legal aid, though scholars have raised concerns about 
        whether there are sufficient human, financial, and 
        institutional resources to support expected increases 
        in legal aid cases.
        <bullet> Official harassment of family members of 
        rights defenders and political activists continued to 
        take place during the 2013 reporting year. Chinese 
        authorities used a range of methods against family 
        members, restricting their rights to freedom of 
        movement, expression, and livelihood.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Object to the continued harassment of rights 
        defenders. Call for the release of lawyers, activists, 
        and others who have been ``disappeared,'' are 
        incarcerated, or are subject to unlawful home 
        confinement or other forms of extralegal detention, for 
        their activities to defend and promote the rights of 
        Chinese citizens, including Xu Zhiyong, Gao Zhisheng, 
        Ni Yulan, and others mentioned in this report and in 
        the Commission's Political Prisoner Database. Urge the 
        Chinese government to renew professional licenses to 
        the law firms and individual lawyers denied renewal in 
        2013 and in past years for their work on cases 
        officials deem to be sensitive.
          Monitor the Chinese government's stated plans to 
        reform the reeducation through labor and petitioning 
        systems by asking Chinese officials about the substance 
        of the reforms, and the timeframe and benchmarks to 
        assess progress. Recommend the establishment of 
        independent evaluation mechanisms that include the 
        participation of civil society representatives, rights 
        defenders, and public interest lawyers.
          Object to the ongoing harassment and abuse of the 
        family members of petitioners and rights defenders. 
        Call for the cessation of the denial of rights 
        (including the refusal to issue passports), physical 
        violence, and detention of family members, such as Liu 
        Xia, the wife of Nobel Peace Prize laureate Liu Xiaobo; 
        Chen Kegui, nephew of the prominent legal advocate Chen 
        Guangcheng; and Ablikim Abdureyim, one of the sons of 
        Uyghur rights advocate Rebiya Kadeer.
          Increase support to the U.S. Department of State's 
        International Visitors Leadership Program and other 
        similar bilateral exchange programs that bring Chinese 
        human rights lawyers, advocates, and scholars to the 
        United States for study and dialogue. Expand support to 
        legal research and exchange programs in the non-
        governmental and academic sector that partner with 
        China's human rights lawyers and public interest legal 
        organizations, and technical exchange and training 
        programs with China's official justice sector that 
        promote court independence.
          Encourage the Chinese government (in particular, the 
        Ministry of Justice and Ministry of Education) to 
        allocate more funding to local bar associations and law 
        school clinical legal education programs to build a 
        stronger foundation for legal aid and public interest 
        law, and enhance legal training to provide legal aid 
        services to persons with disabilities, petitioners, and 
        those seeking legal protection from domestic violence 
        (including children), among other at-risk populations.

                                Xinjiang


                                Findings

        <bullet> Clashes that took place in the spring and 
        summer of 2013 throughout the region resulted in 
        numerous deaths, with reported death tolls ranging from 
        dozens to 100 or possibly more, and raised concerns 
        about the failure of ethnic policy in the Xinjiang 
        Uyghur Autonomous Region (XUAR) to address the root 
        causes of regional instability. Overseas media and 
        rights groups reported instances involving security 
        forces shooting into crowds of Uyghurs, resulting in 
        deaths and injuries. In some cases, Uyghur residents of 
        the XUAR reportedly committed deadly attacks on members 
        of security forces, community workers, and others.
        <bullet> Authorities reportedly conducted pervasive 
        house searches throughout the region in order to 
        ``maintain stability'' and target peaceful expressions 
        of religious belief among the Uyghur population. Human 
        rights advocates assert that widespread security checks 
        have exacerbated tensions in the region.
        <bullet> XUAR authorities continued intensive controls 
        over religion, especially Islam, posing a challenge for 
        Uyghurs seeking to practice their religious beliefs 
        outside of state control. Authorities continued to 
        enforce tight restrictions over peaceful religious 
        practices among the Uyghur population and carried out 
        targeted surveillance over individual religious 
        believers.
        <bullet> State-led development initiatives intensified 
        during the Commission's 2013 reporting year, drawing 
        large amounts of state and private investment and 
        increased migration into the XUAR. Development projects 
        in the region raised concerns that they have brought 
        disproportionately fewer economic, social, and cultural 
        opportunities for Uyghurs and other ethnic minorities 
        in the region, as well as concerns over the effects 
        such projects have had on the cultures and languages of 
        these groups.
        <bullet> Increased migration to the XUAR in recent 
        years has reportedly heightened ethnic tensions in some 
        areas and sparked concerns among Uyghur residents 
        regarding land rights and employment opportunities. 
        Regional development initiatives brought increased Han 
        Chinese migration to the XUAR during the past year, and 
        state-led programs provided assistance to migrants and 
        workers from other provinces, often in southern areas 
        of the XUAR traditionally inhabited by Uyghurs and 
        other ethnic minorities.
        <bullet> In the past year, the XUAR government 
        broadened the scope of Mandarin-focused ``bilingual 
        education'' in the region, a policy some Uyghur 
        students in the XUAR fear is aimed at assimilating 
        young Uyghurs into Chinese society at the expense of 
        their Uyghur identity. Under ``bilingual education,'' 
        class instruction takes place primarily in Mandarin 
        Chinese, largely replacing instruction in languages 
        spoken by ethnic minority groups. In recent years, some 
        Uyghur students and teachers have expressed concern 
        over the compulsory nature of the region's 
        ``bilingual'' curriculum and the corresponding loss of 
        young Uyghurs' ability to speak the Uyghur language.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support legislation that expands U.S. Government 
        resources for raising awareness of human rights 
        conditions in the XUAR, for protecting Uyghur culture, 
        and for increasing avenues for Uyghurs to protect their 
        human rights.
          Call on the Chinese government to reexamine the 
        effectiveness of official policies toward ethnic 
        minorities in the XUAR and end its reliance on 
        heightened security to respond to clashes in the 
        region. Call on Chinese authorities to report 
        transparently on conflict in the region.
          Call on the Chinese government to end pervasive house 
        searches in Uyghur neighborhoods throughout the XUAR, 
        which human rights advocates assert have exacerbated 
        tensions in the region.
          Call on the Chinese government to adhere to its 
        domestic laws and regulations guaranteeing freedom of 
        religious belief, as well as international regulations 
        guaranteeing religious practice free from state 
        restrictions.
          Call on the Chinese government to support development 
        policies in the XUAR that promote democratic 
        decisionmaking processes among local communities 
        affected by development. Call on central and XUAR 
        authorities to ensure equitable development that not 
        only promotes economic growth but also respects the 
        broad civil and political rights of XUAR residents, and 
        engages these communities in democratic decisionmaking.
          Call on the Chinese government to ensure the rights 
        of ethnic minorities to protect property and enjoy 
        equal access to employment opportunities in areas of 
        the XUAR affected by development efforts. Call on 
        central and XUAR authorities to enact programs to 
        actively preserve and maintain the culture and 
        livelihoods of Uyghurs and other ethnic minorities in 
        the face of increased migration.
          Call on the Chinese government to consult with non-
        Han parents, teachers, and students regarding what 
        language or languages of instruction should be used in 
        XUAR schools, from the preschool to the university 
        level. Call on Chinese officials to provide parents and 
        students a choice of instruction in the Uyghur language 
        and other non-Chinese languages prevalent in the XUAR, 
        as mandated in Article 4 of the Chinese Constitution 
        and Article 10 of the PRC Regional Ethnic Autonomy Law 
        (REAL). Urge Chinese officials to support the 
        development of educational materials in the Uyghur 
        language and in other non-Chinese languages.

                                 Tibet


                                Findings

        <bullet> Formal dialogue between the Dalai Lama's 
        representatives and Chinese Communist Party and 
        government officials has been stalled since the January 
        2010 ninth round, the longest interval since such 
        contacts resumed in 2002. The Commission observed no 
        indication during the 2013 reporting year of official 
        Chinese interest in resuming a dialogue that takes into 
        account Tibetan concerns regarding the Tibetan 
        autonomous areas of China.
        <bullet> The Party and government failed this past year 
        to respond to Tibetan grievances in a constructive 
        manner or accept any accountability for Tibetan 
        rejection of Chinese policies. The frequency of Tibetan 
        self-immolation reportedly focusing on political and 
        religious issues increased during the Commission's 2013 
        reporting year, peaking in October-November with 38 
        self-immolations preceding and during the 18th National 
        Congress of the Chinese Communist Party. During the 
        period September 2012 through July 2013, 66 Tibetan 
        self-immolations (60 fatal) took place. As self-
        immolation frequency increased, authorities 
        strengthened a security crackdown infringing on 
        Tibetans' freedoms of expression, association, and 
        movement, and curtailed their ability to communicate or 
        share information. Self-immolations have shifted from 
        an initial pattern of less frequent self-immolations 
        mainly in Sichuan province with a majority of current 
        or former monastics, to a pattern of more frequent 
        self-immolations mostly outside of Sichuan with a 
        majority of laypersons.
        <bullet> Tibetan self-immolators this past year 
        continued to call for the Dalai Lama's return--a demand 
        that when voiced during a suicidal protest may signify 
        intense resentment toward Chinese government and 
        Communist Party intrusion into Tibetan Buddhist 
        affairs. The Party and government continued to create 
        new and unprecedented control over Tibetan Buddhism, 
        along with maintaining established repressive policies. 
        Effective December 2012, national measures required 
        Tibetan Buddhist monastic teachers to submit every five 
        years to a reassessment conducted by Party- and 
        government-controlled Buddhist associations. Criteria 
        include patriotism toward China, supporting Party 
        leadership, and accepting guidance from government- and 
        Party-run offices. Reappointed teachers must sign an 
        agreement acknowledging such obligations. Officials 
        characterize the result of such policies as the 
        ``normal order'' of Tibetan Buddhism.
        <bullet> This past year, some Tibetan self-immolators 
        reportedly called for greater use of the Tibetan 
        language as they burned--an apparent indication of the 
        significant threat some Tibetans believe Party and 
        government policies pose to Tibetan culture's vibrancy 
        and viability. In Qinghai province, thousands of 
        Tibetan tertiary students protested against issues 
        including government language policy after authorities 
        required students to study an official booklet that 
        some regarded as ``derogatory'' toward Tibetan language 
        and that promoted using Mandarin. A court sentenced 
        eight of the students to imprisonment. Reports of 
        unofficial Tibetan initiatives to promote Tibetan 
        language emerged in Qinghai, Gansu, and Sichuan 
        provinces.
        <bullet> Officials continued to emphasize economic 
        development as the key to achieving ``social 
        stability,'' even though some initiatives resulted in 
        protests or alleged harm to local communities. A Tibet 
        Autonomous Region (TAR) official said the Lhasa-
        Shigatse railway will begin operation by the end of 
        2014. Official media reported the TAR government had 
        settled (or resettled) ``nearly 2.1 million'' Tibetan 
        farmers and herders during 2006-2012, and that ``all 
        farmers and herders'' in the TAR would be settled by 
        the end of 2013. Media organizations reported on a 
        landslide disaster at a gold mine and on environmental 
        pollution that interfered with Tibetans' ability to 
        farm and maintain livestock. Government plans for 
        construction of hydroelectric projects along major 
        Tibetan rivers attracted the interest of news media and 
        analysts.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to resume contacts with 
        the Dalai Lama or his representatives and engage in 
        dialogue without preconditions. Such a dialogue should 
        aim to protect the Tibetan culture, language, religion, 
        and heritage within the Tibet Autonomous Region (TAR) 
        and the Tibetan autonomous prefectures and counties in 
        Qinghai, Gansu, Sichuan, and Yunnan provinces. As 
        tensions continue to rise in Tibetan areas and Tibetans 
        express their respect for the Dalai Lama, a Chinese 
        government decision to engage in dialogue can result in 
        a durable and mutually beneficial outcome for the 
        Chinese government and Tibetans that will benefit local 
        and regional security in coming decades.
          Urge the Chinese government to consider the role of 
        government regulatory measures and Party policies in 
        the wave of Tibetan self-immolations. Point out to 
        Chinese officials that, if the government and Party 
        address Tibetan grievances in a constructive manner, 
        the results could benefit state security and social 
        stability; point out to Chinese officials that 
        strengthening the measures and policies that Tibetans 
        resent is unlikely to promote ``social stability'' or a 
        ``harmonious society.''
          Convey to the Chinese government the urgent 
        importance of refraining from expanding the use of 
        intrusive management and legal measures to infringe 
        upon and repress Tibetan Buddhists' right to the 
        freedom of religion. Point out to Chinese officials 
        that government control over periodic review and 
        reappointment of Tibetan Buddhist teachers based on 
        criteria such as upholding Communist Party leadership 
        and accepting guidance from government- and Party-run 
        offices is inconsistent with state respect for 
        ``freedom of religious belief,'' and that increased 
        pressure on Tibetan Buddhists created by aggressive use 
        of regulatory measures, ``patriotic'' and ``legal'' 
        education, and anti-Dalai Lama campaigns is likely to 
        harm social stability, not protect it. Urge the 
        government to respect the right of Tibetan Buddhists to 
        identify and educate religious teachers in a manner 
        consistent with Tibetan Buddhist preferences and 
        traditions.
          Request that the Chinese government follow up on a 
        2010 statement by the Chairman of the TAR government 
        that Gedun Choekyi Nyima, the Panchen Lama whom the 
        Dalai Lama recognized in 1995, is living in the TAR as 
        an ``ordinary citizen'' along with his family. Urge the 
        government to invite a representative of an 
        international organization to meet with Gedun Choekyi 
        Nyima so that Gedun Choekyi Nyima can express to the 
        representative his wishes with respect to privacy; 
        photograph the international representative and Gedun 
        Choekyi Nyima together; and publish Gedun Choekyi 
        Nyima's statement and the photograph.
          Convey to the Chinese government the importance of 
        respecting and protecting the Tibetan culture and 
        language. Urge Chinese officials to promote a vibrant 
        Tibetan culture by honoring the Chinese Constitution's 
        reference to the freedoms of speech, association, 
        assembly, and religion, and refraining from using the 
        security establishment, courts, and law to infringe 
        upon and repress Tibetans' exercise of such rights. 
        Urge officials to respect Tibetan wishes to maintain 
        the role of both the Tibetan and Chinese languages in 
        teaching modern subjects and not to consign Tibetan 
        language to inferior status by discontinuing its use in 
        teaching modern subjects.
          Encourage the Chinese government to take fully into 
        account the views and preferences of Tibetans when the 
        government plans infrastructure, natural resource 
        development, and settlement or resettlement projects in 
        the Tibetan areas of China. Encourage the Chinese 
        government to engage with appropriate experts in 
        assessing the impact of such projects and in advising 
        the government on the implementation and progress of 
        such projects.
          Increase support for U.S. non-governmental 
        organizations to develop programs that can assist 
        Tibetans to increase their capacity to peacefully 
        protect and develop their culture, language, and 
        heritage; that can help to improve education, economic, 
        health, and environmental conservation conditions for 
        ethnic Tibetans living in Tibetan areas of China; and 
        that create sustainable benefits for Tibetans without 
        encouraging an influx of non-Tibetans into these areas.
          Urge the Chinese government to refrain from using 
        security and judicial institutions to intimidate 
        Tibetan communities by prosecuting and imprisoning 
        Tibetans with alleged links to a self-immolator or for 
        sharing self-immolation information. Continue to convey 
        to the government the importance of distinguishing 
        between peaceful Tibetan protesters and rioters; 
        condemn the use of security campaigns to suppress human 
        rights; and request the Chinese government to provide 
        complete details about Tibetans detained, charged, or 
        sentenced for 
        protest-related and self-immolation-related ``crimes.'' 
        Continue to raise in meetings and correspondence with 
        Chinese officials the cases of Tibetans who are 
        imprisoned as punishment for the peaceful exercise of 
        human rights. Representative examples include: Monk 
        Choeying Khedrub (sentenced to life imprisonment for 
        printing leaflets); Bangri Chogtrul (regarded by 
        Tibetan Buddhists as a reincarnated lama, serving a 
        sentence of 18 years commuted from life imprisonment 
        for ``inciting splittism''); and nomad Ronggye Adrag 
        (sentenced to 8 years' imprisonment for shouting 
        political slogans at a public festival).

                  Developments in Hong Kong and Macau


                                Findings

        <bullet> The Basic Laws of both Hong Kong and Macau 
        confirm the applicability of the International Covenant 
        on Civil and Political Rights (ICCPR) to both 
        territories. The Basic Law of Hong Kong provides 
        specifically for universal suffrage, while Macau's 
        Basic Law does not.
        <bullet> Public demand grew for a more specific plan 
        for election of Hong Kong's Chief Executive (CE) 
        through universal suffrage, which is set to occur in 
        2017. In July 2013, Hong Kong's current CE, CY Leung, 
        dismissed calls for early public consultation on 
        electoral reform. Mainland Chinese officials and 
        experts continue to dissuade Macau from pursuing 
        universal suffrage.
        <bullet> Concerns also grew over central government 
        interference in the nomination of CE candidates in 
        elections by universal suffrage, with statements from 
        mainland Chinese officials ruling out a nominating 
        process involving the broader voting public and stating 
        that candidates would be required to be trusted by the 
        central government.
        <bullet> Two incidents this year highlighted ongoing 
        challenges to Hong Kong's judicial and law enforcement 
        independence. Hong Kong authorities requested that Hong 
        Kong's highest court refer to the National People's 
        Congress Standing Committee in Beijing a key issue in a 
        case involving the right of foreign domestic helpers to 
        apply for Hong Kong permanent residence. In another 
        instance, former U.S. National Security Agency 
        contractor Edward Snowden was allowed to leave the 
        territory despite a U.S. request for his provisional 
        arrest. This incident raises concerns over whether this 
        was done at the request of the central government. If 
        so, it could be interpreted as the central government 
        interfering in what should have been a purely internal 
        Hong Kong law enforcement matter.
        <bullet> The Hong Kong government made uneven progress 
        toward maintaining transparency. The government 
        postponed implementation of a measure that would have 
        redacted from public corporate filings important 
        identifying information of company directors.
        <bullet> Self-censorship by journalists and strong 
        media ties to mainland China continued to threaten 
        press freedom in Hong Kong and Macau, although in 
        September 2012 Macau backed away from a controversial 
        plan to set up a ``press accountability board.''
        <bullet> The gambling industry in Macau is reportedly 
        tied to widespread corruption and the laundering of 
        large amounts of money out of mainland China. The 
        Chinese government and Macau officials reportedly 
        stepped up efforts to regulate Macau's gambling 
        industry as part of a larger campaign by the central 
        government against corruption.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge in meetings with Hong Kong and central 
        government officials for Hong Kong authorities to 
        prepare a clear plan with a specific timetable as soon 
        as practicable for instituting universal suffrage for 
        the election of the Chief Executive in 2017 that meets 
        the requirements of the International Covenant on Civil 
        and Political Rights (ICCPR) and is developed with full 
        public participation. Include stops in Hong Kong and 
        Macau during trips to mainland China. U.S. Government 
        delegations' meetings in Hong Kong should include 
        meetings with members of the Hong Kong Legislative 
        Council, officials with the Hong Kong government 
        administration, members of the judiciary, and 
        representatives of reporters' organizations. In Macau, 
        delegations should meet with members of the Legislative 
        Assembly, especially directly elected members, with the 
        Macau government administration, and with leaders 
        outside the government.
          Support and encourage agencies and organizations to 
        explore projects to monitor and strengthen democratic 
        practices, press freedom, and the rule of law in Macau.
          Commend Hong Kong for its commitment to transparency 
        in light of recent measures toward a public archives 
        law and maintaining public access to corporate 
        directors' identifying information, and emphasize the 
        critical importance of transparency for maintaining 
        confidence in business and U.S.-Hong Kong relations.
          Urge Macau to develop law enforcement mechanisms for 
        combating money laundering, such as a mechanism to 
        freeze suspicious assets, establishing cash declaration 
        requirements for visitors, lowering transaction 
        reporting thresholds for casinos, and enhancing legal 
        requirements for casino customer due diligence.

                      Political Prisoner Database


                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

        <bullet> Check the Political Prisoner Database (PPD) 
        (http://ppdcecc.gov) for reliable, up-to-date 
        information on a prisoner or groups of prisoners. 
        Consult a prisoner's database record for more detailed 
        information about the prisoner's case, including his or 
        her alleged crime, specific human rights that officials 
        have violated, stage in the legal process, and location 
        of detention or imprisonment, if known.
        <bullet> Advise official and private delegations 
        traveling to China to present Chinese officials with 
        lists of political and religious prisoners compiled 
        from database records.
        <bullet> Urge U.S. state and local officials and 
        private citizens involved in sister-state and sister-
        city relationships with China to explore the database, 
        and to advocate for the release of political and 
        religious prisoners in China.

                    A POWERFUL RESOURCE FOR ADVOCACY

    The Commission's 2013 Annual Report provides information 
about Chinese political and religious prisoners\1\ in the 
context of specific human rights and rule of law abuses. Many 
of the abuses result from the Chinese Communist Party's and 
government's application of policies and laws. The Commission 
relies on the Political Prisoner Database (PPD), a publicly 
available online database maintained by the Commission, for its 
own advocacy and research work, including the preparation of 
the Annual Report, and routinely uses the database to prepare 
summaries of information about political and religious 
prisoners for Members of Congress and Administration officials. 
The Commission invites the public to read about issue-specific 
Chinese political imprisonment in sections of this Annual 
Report, and to access and make use of the upgraded PPD at 
http://ppdcecc.gov. (Information about the PPD is available at 
http://www.cecc.gov/resources/political-prisoner-database.)
    The PPD received approximately 84,500 online requests for 
prisoner information during the 12-month period ending August 
31, 2013--an increase of approximately 36 percent over the 
61,900 requests during the 12-month period ending August 31, 
2012. During the 12-month period ending in August 2013, the 
United States was the country of origin of the largest share of 
requests for information, with approximately 31.9 percent of 
such requests--a decrease from the 51 percent reported for the 
United States in the Commission's 2012 Annual Report. China was 
second with approximately 29.2 percent (an increase compared to 
20 percent in the 2012 reporting period), followed by Japan 
with 19.1 percent (compared to 1 percent in the 2012 reporting 
period), Germany (4.1 percent), France (2.4 percent), the 
United Kingdom (2.2 percent), the Russian Federation (1.0 
percent), Hong Kong (0.8 percent), the Netherlands (0.8 
percent), and India (0.7 percent).
    Approximately 56.8 percent of the approximately 84,500 
requests for PPD information were from numerical Internet 
addresses that do not provide information about the name of the 
registrant or the type of domain. That figure represents a 
substantial increase over the 36 percent reported for such 
addresses during the period ending in August 2012 and may 
contribute to the proportional changes reported for the 
following types of Internet domains.
    Approximately 15.5 percent of the online requests for PPD 
information during the 12-month period ending August 31, 2013, 
originated from worldwide commercial (.com) Internet domains--a 
decrease from the 19 percent reported in the 2012 Annual 
Report. Worldwide network (.net) domains were second with 
approximately 8.8 percent (compared to 16 percent in the 2012 
reporting period), followed by U.S. Government (.gov) domains 
with 6.7 percent (compared to 11 percent in the 2012 reporting 
period), 2.8 percent from domains in Germany (.de), 1.5 percent 
from worldwide nonprofit organization (.org) domains, 1.4 
percent from domains in France (.fr), and 1.3 percent from U.S. 
education (.edu) domains.

                          POLITICAL PRISONERS

    The PPD seeks to provide users with prisoner information 
that is reliable and up to date. Commission staff members work 
to maintain and update political prisoner records based on the 
staff member's area of expertise. The staff seek to provide 
objective analysis of information about individual prisoners, 
and about events and trends that drive political and religious 
imprisonment in China.
    As of September 1, 2013, the PPD contained information on 
7,309 cases of political or religious imprisonment in China. Of 
those, 1,304 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
6,005 are cases of prisoners who are known or believed to have 
been released, or executed, who died while imprisoned or soon 
after release, or who escaped. The Commission notes that there 
are considerably more than 1,304 cases of current political and 
religious imprisonment in China. The Commission staff works on 
an ongoing basis to add cases of political and religious 
imprisonment to the PPD.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database. The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by non-
governmental organizations (NGOs), other groups that specialize 
in promoting human rights and opposing political and religious 
imprisonment, and other public sources of information.

                   MORE POWERFUL DATABASE TECHNOLOGY

    The PPD has served since its launch in November 2004 as a 
unique and powerful resource for the U.S. Congress and 
Administration, other governments, NGOs, educational 
institutions, and individuals who research political and 
religious imprisonment in China, or who advocate on behalf of 
such prisoners. The July 2010 PPD upgrade significantly 
leveraged the capacity of the Commission's information and 
technology resources to support such research, reporting, and 
advocacy.
    The PPD aims to provide a technology with sufficient power 
to cope with the scope and complexity of political imprisonment 
in China. The most important feature of the PPD is that it is 
structured as a genuine database and uses a powerful query 
engine. Each prisoner's record describes the type of human 
rights violation by Chinese authorities that led to his or her 
detention. These types include violations of the right to 
peaceful assembly, freedom of religion, freedom of association, 
and free expression, including the freedom to advocate peaceful 
social or political change and to criticize government policy 
or government officials.
    The design of the PPD allows anyone with access to the 
Internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.

                            II. Human Rights


                         Freedom of Expression


               International Standards on Free Expression

    While international standards permit states to restrict 
expression in limited circumstances, official Chinese 
restrictions during the Commission's 2013 reporting year 
covered a much broader range of activity--including peaceful 
expression critical of the Chinese Communist Party and 
independent news reporting.\1\ Many official Chinese 
restrictions on free expression fail to comply with 
international human rights standards. Article 19 of the 
International Covenant on Civil and Political Rights (ICCPR) 
and Articles 19 and 29 of the Universal Declaration of Human 
Rights permit officials to restrict expression so long as it is 
(1) for the purpose of respecting the rights or reputations of 
others or protecting national security, public order, public 
health or morals, or the general welfare; (2) set forth in law; 
and (3) necessary and the least restrictive means to achieve 
the purported aim.\2\ Regarding the first requirement, the UN 
Human Rights Council (UNHRC) has said restrictions on 
``discussion of government policies and political debate,'' 
``peaceful demonstrations or political activities, including 
for peace or democracy,'' and ``expression of . . . dissent'' 
are inconsistent with Article 19 of the ICCPR, which the 
Chinese government signed in 1998 but has not yet ratified.\3\ 
In June 2012, the UNHRC passed a resolution supporting freedom 
of expression on the Internet, affirming that ``the same rights 
that people have offline must also be protected online, in 
particular freedom of expression, which is applicable 
regardless of frontiers and through any media of one's 
choice.''\4\

                   Growth and Control of the Internet


         EXPANDING OVERALL ACCESS, INTRODUCING NEW RESTRICTIONS

    China's Internet usage has experienced dramatic growth in 
recent years, particularly in the number of Internet users 
accessing the Web through mobile devices. According to the 
China Internet Network Information Center (CNNIC), the 
national-level administrative agency responsible for Internet 
affairs in China,\5\ there were over 590 million Internet users 
in China by the end of June 2013, bringing the Internet 
penetration rate (the total number of Internet users divided by 
the total population) to 44.1 percent.\6\ By mid-2013, China 
had more than 464 million people accessing the Internet from 
mobile devices--amounting to 78.5 percent of the total Internet 
population.\7\ According to information from three of China's 
leading telecommunications operators, there were 1.15 billion 
mobile phone subscribers by March 2013.\8\
    The Chinese government has pledged to expand access to 
mobile technologies and the Internet, according to news 
reports.\9\ Chinese officials expect the number of Internet 
users to grow to more than 800 million people by 2015, 
including more than 200 million rural Internet users.\10\ In 
the 2012-2015 National Human Rights Action Plan, the Chinese 
government sets its target of increasing Internet penetration 
to more than 45 percent by 2015.\11\ During the Commission's 
2013 reporting year, the Chinese government continued steps to 
expand the country's telecommunications infrastructure. In 
February 2013, for instance, the Ministry of Industry and 
Information Technology announced plans to increase access to 
broadband services to cover 70 percent of Chinese Internet 
users by year's end.\12\
    Despite the stated goals of increasing online access, 
official statements and state-run publications continue to 
emphasize strengthening the legal limits and management of 
Internet information rather than protecting Internet 
freedoms.\13\ During the Commission's 2013 reporting year, 
Chinese officials and state-run media outlets consistently used 
the threat of ``online rumors'' (wangluo yaoyan) and 
``unhealthy information'' (buliang xinxi) as a basis for 
increased Internet controls and real-name registration 
requirements.\14\ In December 2012, the People's Daily, the 
official news media of the Chinese Communist Party, published a 
front-page commentary on Internet users' legal obligations.\15\ 
The commentary stated, ``Demanding that people all use the 
correct means to say the correct things is not practical, but 
they must have a consciousness of the law and take 
responsibility for their words--this is a must.''\16\ Officials 
emphasized controlling Internet content over the course of this 
past year.\17\ In May 2013, for instance, the State Internet 
Information Office (SIIO) said that it was ``waging a war 
against online rumors'' that ``have impaired the credibility of 
online media, disrupted normal communication order, and aroused 
great aversion among the public.''\18\
    State-run media organizations and Chinese officials called 
for stricter regulations in late 2012, promoting Internet 
regulations as a necessary step in ``protecting'' Internet 
users' privacy and online information.\19\ On December 28, 
2012, the National People's Congress Standing Committee adopted 
a 12-article decision, titled ``Decision on Strengthening 
Online Information Protection,'' with new regulations 
stipulating the collection of online personal information.\20\ 
According to multiple reports, new requirements mandating 
Internet users to register accounts by using their real names 
generated controversy.\21\ In early September, the Supreme 
People's Court and the Supreme People's Procuratorate also 
issued an official interpretation regarding re-posting 
defamatory content online purportedly to protect users' rights 
and reputations.\22\ The Interpretation states that Internet 
users could face up to three years' imprisonment if defamatory 
content is reposted 500 times or is viewed 5,000 times 
online.\23\
    Despite efforts to control Internet content and regulate 
account registration, Chinese activists and foreign media have 
noted the difficulties that officials face in completely 
controlling this emerging and vibrant space for expression, 
including criticism of government policies and discussion of 
politically sensitive topics.\24\ An April 2013 Economist 
article stated that the Internet in China, despite controls, 
has allowed new shifts of public consciousness and new 
pressures for authoritarian responses: ``. . . [E]ven casual 
users can be drawn into political debates online, and the 
internet is one place where people can speak their minds and 
criticise the government relatively freely. . . . [B]eing able 
to express diverging views collectively online is new. Millions 
of users are low-grade subversives, chipping away at the 
imposing edifice of the party-state with humour, outrage and 
rueful cynicism.''\25\

                      CENSORSHIP OF ONLINE CONTENT

    This past year, Chinese authorities appeared to maintain or 
enhance policies to block and filter online content, 
particularly sensitive information about rights activists, 
official corruption, or collective organizing.\26\ According to 
the Open Net Initiative, the Chinese government ``maintains one 
of the most pervasive and sophisticated regimes of Internet 
filtering and information control in the world.''\27\ Chinese 
officials remained non-transparent in disclosing content that 
is blocked or why it is blocked.\28\ The online censorship and 
Web site closures, in some cases, appeared politically 
motivated and appeared to counter international standards on 
freedoms of opinion and expression.\29\ For example, in October 
2012, Chinese censors blocked access to the New York Times' 
English- and Chinese-language Web sites in response to articles 
describing ``hidden'' wealth accumulated by former Premier Wen 
Jiabao's family members.\30\ Also, international news media and 
foreign Web sites reported that Chinese Internet censors 
blocked or partially blocked a range of political names and 
phrases related to the 18th National Congress of the Chinese 
Communist Party and to the anniversary of the 1989 Tiananmen 
protests.\31\
    International reporting and research continued to 
illustrate how Chinese officials, Internet companies, and 
state-sponsored agents are able to control access to and 
content on the Web.\32\ During the reporting year, the Chinese 
government allegedly enhanced its national system of 
surveillance and censorship (commonly known as the Great 
Firewall or GFW), especially leading up to and throughout the 
18th Party Congress.\33\ One U.S.-based study found that 
Chinese censors ``actively manipulated'' search results related 
to 18th Party Congress delegates.\34\ Another study argued that 
Chinese authorities censored comments online ``to reduce the 
probability of collective action by clipping social ties 
whenever any collective movements are in evidence or 
expected''--and ``not to suppress criticism of the state or the 
Communist Party.''\35\ Another study addressed the speed and 
efficiency of censors on China's popular microblog platforms, 
finding that 30 percent of the deletions took place within 30 
minutes and 90 percent within the first 24 hours.\36\ A 
different study demonstrated how the China-only version of 
Skype, the popular Internet-based communication software, 
allowed officials to intercept thousands of politically 
sensitive text messages, while monitoring users' 
communications.\37\
    Chinese regulatory and legal measures do not clearly define 
prohibited online content. Internet regulations contain vague 
and broad prohibitions on content that ``harms the honor or 
interests of the nation,'' ``spreads rumors,'' or ``disrupts 
national policies on religion.''\38\ Chinese law does not 
define these concepts, nor does it contain specific criteria to 
establish whether an action presents ``harm'' to the ``honor or 
interests of the nation.''\39\ Since the concepts remain 
undefined, Chinese authorities broadly apply these and other 
vague legal provisions to punish those seeking to express 
opinions or share information.\40\ At the same time, the 
Chinese government places the burden on Internet service and 
content providers to monitor and remove content based on these 
vague standards and to maintain records of such activity and 
report it to the government.\41\

                CITIZEN AND GOVERNMENT USE OF MICROBLOGS

    China's Twitter-like microblogging (weibo) sites continued 
to see strong growth in the number of users during this 
reporting year.\42\ By the end of 2012, according to the CNNIC, 
China's microblogging sites--including China's two leading 
microblog platforms Sina Weibo and Tencent (QQ) Weibo--had an 
estimated 309 million registered accounts, an increase of 58.73 
million users from the end of 2011.\43\ While most weibo users 
access the microblogging sites for entertainment or social 
purposes,\44\ many Chinese citizens continued to use the sites 
for individual expression, to raise issues of public 
accountability, and to publicize important political 
developments.\45\ Despite China's sophisticated censorship 
system, Chinese citizens have consistently used the 
microblogging sites to bypass conventional media constraints 
and circumvent censorship restrictions.\46\ In addition, 
businesses, journalists, and microbloggers used virtual private 
networks (VPNs), among other techniques, to access the U.S.-
based microblogging service provider Twitter (which has been 
blocked in China since July 2009\47\), as well as other 
foreign-based social networking sites blocked in China.\48\
    In the absence of independent domestic media, microblogging 
has emerged as an alternative outlet for a range of independent 
opinions and news reporting. During this reporting year, 
microblog users utilized the services to publicize various 
incidents or news events--from air quality monitoring in 
Beijing\49\ to the April 2013 earthquake in Ya'an municipality, 
Sichuan province.\50\ In November 2012, microblog users 
circulated information from a New York Times article on the 
financial assets of former Premier Wen Jiabao's family members 
while official censors blocked the newspaper's Web site and 
search terms related to the story.\51\ In response to the 
censorship, microblog users employed various related ``code 
words'' and posted screenshots of the article to circumvent 
restrictions.\52\
    The circulation of independent news and information on 
microblogs appears, in some instances, to have sparked outrage 
over official abuses, particularly over local-level 
corruption.\53\ Microbloggers and citizen journalists have 
increasingly used microblogging platforms to uncover official 
abuses or expose corruption, such as ill-gotten real estate 
assets or luxury items.\54\ In one of the highest profile 
cases, Chinese authorities investigated National Development 
and Reform Commission Vice Chairman Liu Tienan after a 
journalist publicly accused Liu of corruption and various 
wrongdoings on Sina Weibo.\55\ China's new leadership and 
state-run media appear to have acknowledged microblogging's 
growing utility in exposing corruption and in promoting 
transparency.\56\ In March 2013, for instance, Premier Li 
Keqiang said, ``There are already hundreds of millions of weibo 
users. If government information is not released in a timely 
manner this generates animated discussion and speculation, and 
this can easily cause resentment among the people and give rise 
to negative influences, ultimately putting the government on 
its back foot in doing its work.''\57\
    In mid-2013, international media organizations reported 
increased government pressure on certain popular users of 
microblogging services (commonly referred to as ``Big V's'' 
because of their large followings and verified status), 
including those who have posted blunt social criticisms or 
political commentaries.\58\ The growing popularity of services 
has allowed some microbloggers to reach millions of users and 
to potentially shape public opinion.\59\ With growing concern 
about ``online rumors,''\60\ Chinese Internet authorities 
responded with a crackdown on high-profile accounts\61\ and 
with a list of ``seven bottom-lines'' for online activity.\62\ 
The ``seven bottom-lines,'' according to state-run media, 
include upholding or maintaining: Laws and regulations, the 
system of socialism, the national interest, the people's 
legitimate rights and interests, social order, morality, and 
the accuracy of information.\63\ In an August 2013 Xinhua 
editorial, the official state-run news agency argued that, ``as 
recognizable figures in the online world, `Big V's' must have a 
stronger sense of social responsibility than ordinary 
users.''\64\ Some commentators, however, have alleged the 
crackdown on prominent microblog users is politically 
based.\65\ A September 2013 South China Morning Post article, 
for instance, reported that ``[the] clampdown has been widely 
interpreted as an attempt to silence prominent liberal 
commentators.''\66\

------------------------------------------------------------------------
             Seven Topics Off Limits for University Teaching
-------------------------------------------------------------------------
  In May 2013, Chinese microblog users circulated information about a
 reported official university directive, which outlined seven topics
 that university professors were prohibited from mentioning in their
 classes.\67\ According to multiple reports, the seven topics were
 universal values, press freedom, civil society, civil rights, the
 Communist Party's historical mistakes, crony capitalism, and judicial
 independence.\68\ One professor reportedly said the Chinese Communist
 Party's General Office had issued the order and that ``only a select
 group of teaching and administrative staff'' had been briefed on
 it.\69\ A Shanghai-based law professor questioned whether the
 prohibitions would undermine fundamental university responsibilities:
 ``Are we still a university if we are not allowed to talk about civil
 rights and press freedom?''\70\ Some observers later linked this
 directive to a Party memo referred to as ``Document No. 9,'' which
 identified seven similar areas of concern.\71\ [For more information on
 ``Document No. 9,'' see Section III--Institutions of Democratic
 Governance.]
------------------------------------------------------------------------

    While China's social media and microblogging sphere has 
provided space for citizens' voices, the Chinese government has 
also made use of the tools for official purposes. According to 
a report by the Chinese Academy of Governance, the Chinese 
government had more than 176,000 microblog accounts at the end 
of December 2012.\72\ The government microblogs were created 
``to communicate with the public and provide services,'' 
according to a research report cited by Xinhua.\73\ Official 
statements, in recent years, have emphasized enhancing 
government presence on social media sites and ``promoting 
social harmony and stability'' through microblogging 
accounts.\74\

                Punishment of Citizens' Free Expression


                          CRIMINAL PUNISHMENT

    Chinese authorities continued to use the criminal justice 
system to detain and punish citizens exercising their 
constitutional rights to ``freedom of speech, of the press, of 
assembly, of association, of procession and of 
demonstration.''\75\ Some of those punished during the 
reporting year had previous records of criticizing the Chinese 
government and Communist Party and of advocating for democracy 
and human rights.\76\ In addition, Chinese criminal defense 
lawyers and suspects in free speech cases continued to face 
substantial obstacles in ensuring that courts upheld procedural 
safeguards and the right to a fair trial, as required by the 
International Covenant on Civil and Political Rights.\77\ [For 
more information on rights abuses related to criminal suspects, 
see Section II--Criminal Justice.]
    Officials used vaguely worded criminal charges to detain 
rights advocates,\78\ Internet writers,\79\ human rights 
lawyers,\80\ and citizen journalists\81\ who engaged in 
peaceful expression and assembly. The following cases represent 
select detentions from the reporting year:

        <bullet> In November 2012, Beijing public security 
        authorities criminally detained blogger Zhai Xiaobing 
        on suspicion of ``spreading terrorist information'' 
        after he allegedly posted a satirical tweet about the 
        18th Party Congress.\82\ Authorities released him weeks 
        later.\83\
        <bullet> On August 2, 2013, Beijing state security 
        officials detained journalist Chen Min, also known as 
        Xiao Shu, after he helped to organize a petition 
        advocating the release of Xu Zhiyong, a legal scholar 
        and rights advocate criminally detained in July 
        2013.\84\ According to an online statement released 
        after the detention, Chen claimed authorities held him 
        for 48 hours and that ``[a]t no point were any legal 
        procedures undertaken.''\85\
        <bullet> In May 2013, Beijing officials detained 
        independent journalist, author, and filmmaker Du Bin 
        after he released a book on the 1989 Tiananmen protests 
        and a documentary exposing abuses within the Masanjia 
        Women's Reeducation Through Labor Center, located in 
        Liaoning province.\86\ According to statements made by 
        Hu Jia, a prominent human rights activist, authorities 
        allegedly criminally detained Du for his recent work 
        exposing human rights abuses.\87\ Authorities released 
        Du on bail five weeks after his detention.\88\ As of 
        September 2013, he was awaiting trial on charges of 
        ``creating disturbances,'' which can carry a criminal 
        sentence of up to 10 years' imprisonment.\89\

    During this reporting year, Chinese authorities released 
journalist and democracy advocate Shi Tao from prison in late 
August, after he served less than nine years of an April 2005 
10-year prison sentence for disclosing ``state secrets'' 
abroad.\90\

                          OFFICIAL HARASSMENT

    This past reporting year, the Commission observed a range 
of abuses related to the extralegal harassment of rights 
advocates,\91\ Internet writers,\92\ and family members of 
advocates,\93\ who sought to exercise their rights to freedom 
of speech and assembly.\94\ The following examples illustrate 
forms of official harassment:

        <bullet> In November 2012, Chinese authorities sent 
        journalist Li Yuanlong on forced ``vacation'' after he 
        published a story about children who died of carbon 
        monoxide poisoning in a Guizhou province dumpster.\95\
        <bullet> In June 2013, Beijing authorities placed 
        Tsering Woeser, a Tibetan writer, blogger, and rights 
        advocate, under ``soft detention,'' an extralegal form 
        of home confinement, reportedly in connection with her 
        efforts to highlight Chinese human rights abuses 
        against Tibetans. She was reportedly also held under 
        ``soft detention'' in March 2013.\96\
        <bullet> In August 2013, East China University of 
        Political Science suspended outspoken Professor Zhang 
        Xuezhong from teaching at the university, in apparent 
        connection with his advocacy for constitutionalism.\97\

    In suppressing free speech rights, Chinese authorities not 
only targeted Chinese citizens who sought to express their 
opinions peacefully but also targeted their family members and 
acquaintances.\98\ In December 2012, Associated Press (AP) 
journalists visited Nobel Peace Prize laureate Liu Xiaobo's 
wife, Liu Xia, whom authorities continue to hold under an 
extralegal form of home confinement.\99\ According to AP, ``Liu 
Xia trembled uncontrollably and cried as she described how 
absurd and emotionally draining her confinement under house 
arrest has been . . . .''\100\

                             Press Freedom

    Chinese government and Communist Party officials continue 
to exercise control over the press in violation of 
international standards. International experts have identified 
media serving ``as government mouthpieces instead of as 
independent bodies operating in the public interest'' as a 
major challenge to free expression.\101\ In its 2013 World 
Press Freedom Index, Reporters Without Borders ranked China 
173rd out of 179 countries in terms of press freedoms, noting 
that ``China shows no sign of improving. Its prisons still hold 
many journalists and netizens, while increasingly unpopular 
Internet censorship continues to be a major obstacle to access 
to information.''\102\
    In the reporting year, Chinese officials called for 
enhancing controls over traditional media, specifically 
domestic media organizations quoting or reproducing content 
from foreign media.\103\ In an April 2013 edition of the Red 
Flag Journal, a prominent Party publication, Ren Xianliang, 
Vice Chairman of the All-China Journalists Association and 
Deputy Director of the Shaanxi Provincial Chinese Communist 
Party Propaganda Department, argued that traditional media and 
new media tools form ``two distinct fields of public opinion'' 
and that the Party must ``have the courage to be hands on in 
its control'' of the media.\104\ Top-level Chinese officials 
reportedly took new steps to denounce press freedoms. For 
example, in an April 2013 internal Party document (referred to 
as ``Document No. 9''), central Party authorities reportedly 
warned against ``subversive trends,'' including the Western 
concept of press freedoms.\105\

------------------------------------------------------------------------
                 January 2013 Southern Weekend Protests
-------------------------------------------------------------------------
  In January 2013, Chinese editors and staff at the Southern Weekend, a
 progressive weekly newspaper based in Guangdong province, staged a rare
 strike after provincial propaganda authorities ordered the publication
 of a New Year editorial praising the Chinese Communist Party in place
 of a previously prepared editorial calling for guarantees to
 constitutional rights.\106\ The earlier editorial, titled ``China's
 Dream, the Dream of Constitutionalism,'' called on leaders to uphold
 constitutional principles and safeguard people's freedoms.\107\ After
 staff submitted the article for review by official censors, editors
 returned a pro-Party message that angered Southern Weekend staff and
 former staff members.\108\ Southern Weekend journalists responded with
 a strike to express outrage and to demand editorial independence.\109\
 In the days that followed, hundreds of supporters reportedly gathered
 outside the newspaper's Guangzhou municipality headquarters in
 protest.\110\ Academics and celebrities posted online messages of
 support, condemned the censorship, and called for Tuo Zhen, the
 provincial propaganda chief, to step down.\111\
  Chinese authorities took various steps to deescalate tensions related
 to the strike and protests. The Central Propaganda Department ordered
 that no media organization report, comment on, or forward any messages
 related to the article or the strike at Southern Weekend.\112\ On
 January 8, 2013, the Global Times published an editorial suggesting
 that activists, operating outside of the domestic media, were
 ``inciting some media to engage in confrontation,'' while the editorial
 cautioned the public to reject reforms that were ``out of step with
 [China's] political development.''\113\
  Following a reported compromise between Southern Weekend staff and
 government officials, a former Southern Weekend opinion writer wrote a
 January 2013 editorial for the New York Times on the incident, stating,
 ``The crisis has subsided, but there is little room for future
 optimism, because the deep-seated question has not been resolved: Is
 there, in fact, room for professional journalism to survive and develop
 within the system?''\114\
------------------------------------------------------------------------

     POLITICAL CONTROL OF MEDIA THROUGH REGULATION OF EDITORS AND 
                              JOURNALISTS

    China's media regulator, the State Administration of Press, 
Publication, Radio, Film, and Television, continued to enforce 
a system of strict controls and licensing requirements. (In 
2013, the General Administration of Press and Publications 
(GAPP) and the State Administration of Radio, Film, and 
Television merged to create the State Administration of Press, 
Publication, Radio, Film, and Television.\115\) All media 
organizations in China are subject to an extensive licensing 
system and government supervision.\116\ In order to report the 
news legally, domestic newspapers, magazines, Web sites, and 
journalists must obtain a license or accreditation from the 
government.\117\ Radio and television broadcast journalists, 
for instance, must pass a government-sponsored exam that tests 
them on subjects including basic knowledge of Marxist views of 
news and Communist Party principles.\118\
    In recent years, China's media regulator has issued a range 
of regulations to ``strengthen management'' and address 
official concerns over ``false information'' in news reports. 
In October 2011, the GAPP, the former government agency 
responsible for monitoring and regulating print-based media, 
released regulations on controlling use of ``unverified 
information'' by prohibiting journalists from directly 
referencing information obtained from the Internet or social 
media in their reporting.\119\ Less than two years later, in 
April 2013, the newly merged State General Administration of 
Press, Publication, Radio, Film, and Television issued a 
directive that officially bans journalists from using foreign 
media reports without authorization and forbids news editors 
from reporting information online that has not been verified 
through official channels.\120\ According to a Hong Kong-based 
media expert, officials may face challenges enforcing the 
regulations, as information often moves quickly on microblogs: 
``[Controlling press content] is very difficult to achieve when 
foreign stories are breaking over on Sina Weibo before 
[government agents] can put a stop to this whole 
process.''\121\

                   PUNISHMENT OF DOMESTIC JOURNALISTS

    While the 2012-2015 National Human Rights Action Plan 
announced official intentions to safeguard ``the legitimate 
rights and interests of news agencies, journalists, editors and 
other persons concerned,''\122\ during this reporting year, 
Chinese authorities took actions to punish, suspend, or remove 
outspoken and independent journalists and newspaper staff.\123\ 
In March 2013, Deng Yuwen, an editor at a prominent Chinese 
Communist Party journal, was ``suspended indefinitely'' after 
publishing an editorial that criticized China's ``outdated'' 
alliance with North Korea in the U.K.-based Financial 
Times.\124\ In August 2013, authorities in Chongqing 
municipality detained Liu Hu, a journalist for a Guangdong 
province-based newspaper,\125\ under suspicion of ``fabricating 
and spreading rumors'' in apparent connection with his online 
request that authorities investigate a former Chongqing 
official for corruption.\126\ In other instances, Chinese 
journalists faced threats or violence in attempting to 
investigate news stories.\127\ In July 2013, for instance, 
public security authorities in Hunan province threatened and 
then assaulted two journalists attempting to report on protests 
sparked by the death of a citizen assaulted by local chengguan, 
or urban management officials.\128\ According to the Beijing 
News, a popular newspaper, the public security officers 
threatened the journalists by saying, ``Take no photos, or if 
you take any, you will die here.''\129\
    Chinese journalists working for foreign-based Web sites and 
newspapers also faced the threat of official reprisals for 
independent news reporting. In April 2013, Chinese authorities 
detained journalist Sun Lin, a reporter with the foreign-based 
Chinese news Web site Boxun, after he distributed online 
footage of a protest over an elementary school's expulsion of a 
rights advocate's daughter.\130\

            HARASSMENT OF FOREIGN AND HONG KONG JOURNALISTS

    This past year, the Commission continued to monitor 
harassment of foreign journalists in China. In March 2013, 
unidentified men in Beijing beat two Hong Kong journalists who 
were filming a Hong Kong rights advocate's attempt to visit Liu 
Xia, wife of imprisoned Nobel Peace Prize laureate Liu 
Xiaobo.\131\ Reports claim that as many as a dozen unidentified 
men beat the journalists as they attempted to access the 
building where Liu Xia was being illegally detained.\132\ After 
the attack, police authorities took away the Hong Kong rights 
advocate.\133\ Also in March, Radio Free Asia reported that a 
television crew working for Germany's public broadcaster ARD 
was pursued, forced off the road, and attacked following 
investigative reporting on urbanization in Hebei province.\134\ 
Following these actions, the International Federation of 
Journalists issued a statement saying, ``The media should be 
allowed to carry out its professional responsibilities in a 
public place without fear of harassment, intimidation or 
assault--particularly if the media is investigating suspicious 
activity.''\135\ According to the Foreign Correspondent's Club 
of China (FCCC), foreign journalists overall continued to face 
challenging work conditions and various forms of 
harassment.\136\ In an FCCC annual survey released in July 
2013, 70 percent of journalists surveyed agreed that 
``conditions have worsened or stayed the same as the year 
before.''\137\

                             Worker Rights


                         Freedom of Association

    The Chinese government continued to prevent workers from 
exercising their constitutional right to freedom of 
association\1\ this past year. Although the PRC Trade Union Law 
provides workers with the right to participate in and form 
trade unions, it also restricts workers' rights to freedom of 
association by requiring that all union activity be approved by 
and structured under the All-China Federation of Trade Unions 
(ACFTU), an organization under the direction of the Chinese 
Communist Party.\2\ Leading trade union officials hold 
concurrent high-ranking positions in the Party and central and 
local government, undermining union autonomy and giving the 
Party and government undue influence over union policy and 
decisionmaking.\3\ The ACFTU constitution and the PRC Trade 
Union Law highlight the dual mandates of the ACFTU to protect 
the legal rights and interests of workers while supporting the 
leadership of the Party and broader goals and interests of the 
government,\4\ a problematic arrangement that labor experts 
claim constrains the ACFTU from protecting the interests of 
workers.\5\ Generally speaking, unions at the enterprise level 
remain weak and non-democratic, with the majority of union 
officials appointed directly or indirectly by employers and 
higher level trade unions.\6\ Increased labor activism in 
recent years has reportedly put mounting pressure on the ACFTU 
to institute union reform, yet continued structural weaknesses 
of trade union branches make improvements to union autonomy and 
worker advocacy difficult to achieve.\7\

                         Collective Bargaining

    Genuine collective bargaining remains limited by the 
inability of local-level trade unions to effectively represent 
and advance the rights of workers in negotiations with 
employers. The PRC Labor Law and related legislation provide a 
legal framework for trade unions to negotiate collective 
contracts and engage in collective consultations with employers 
on a wide range of issues.\8\ In recent years, the ACFTU has 
vigorously promoted collective contracts and collective wage 
bargaining as essential means for upholding ``harmonious'' 
labor relations and addressing workers' grievances.\9\ Despite 
these developments, collective contract and consultation 
mechanisms remain problematic, in part because trade unions 
lack autonomy and genuine worker representation.\10\ A 2013 
research study conducted by a Yunnan provincial government 
inspection group on the implementation of provincial measures 
for collective wage consultations identified a number of 
problems in the consultation process, despite an overall 
increase in collective wage contracts signed since 2011, 
including a lack of expertise in wage and contract negotiations 
by union officials and a general misunderstanding and 
shortsightedness by employers of the benefits of collective 
negotiations.\11\ An official with the Yunnan provincial Bureau 
of Human Resources and Social Security further asserted that 
because workers in general continued to occupy a weaker 
position in relation to employers in the collective 
consultation process, many choose not to push for collective 
negotiations, while in other instances employers and union 
officials were found to put more emphasis on negotiating than 
on signing collective contracts, leading to a process the 
official argued was ``heavy on form, light on results.''\12\ In 
one case in March 2013, workers at the Nanhai Honda automotive 
plant in Guangdong province rejected what they considered to be 
an unfair collective wage agreement negotiated by plant 
managers and the trade union, initiating a strike to pressure 
management to agree to higher wage increases.\13\ In other 
instances, workers lacked knowledge of union functions 
altogether, preventing them from accessing union 
representation. For example, a 2013 study jointly conducted by 
several Chinese universities found over 80 percent of workers 
polled at three different factories did not know who their 
union representatives were.\14\

------------------------------------------------------------------------
               Union Elections Expand as Problems Persist
-------------------------------------------------------------------------
  Authorities continued to promote direct election of trade union
 officials in pilot programs at several enterprises, mainly located in
 Guangdong province.\15\ In January 2013, Zhao Xiaosui, Chairman of the
 Guangzhou Municipal Federation of Trade Unions, announced plans to hold
 pilot trade union elections in 8 to 10 Guangzhou municipality-based
 enterprises.\16\ In other cases, officials called for expanding already
 established union election programs. In May 2013, Zhan Zhenbiao, Vice
 Chairman of the Guangdong Provincial Federation of Trade Unions, called
 on officials to strengthen existing union election programs at 162
 enterprises in Foshan municipality and further expand direct union
 elections to an additional 61 enterprises in the area.\17\ In addition,
 Foxconn, a Taiwanese-owned multinational electronics manufacturer,
 publicized plans in February 2013 to ``increas[e] the number of junior
 employee'' union representatives in its factories through direct
 elections.\18\
  Despite these developments, recognition by Chinese and international
 labor scholars of continued restrictions on worker participation in the
 nomination and election process have led to questions over the ability
 of direct elections to engender genuinely representative unions.\19\
 Moreover, individuals involved in organizing union elections have
 stated that significant challenges remain in educating workers on the
 election process and the responsibilities of the elected union
 committees.\20\ A number of observers have also indicated that recently
 elected union representatives lack necessary skills and experience
 needed to effectively run a union and represent and advance the rights
 of workers.\21\ In one case in February 2013, workers at the Ohms
 electronics factory in Shenzhen municipality demanded the recall and
 reelection of their union chairman after only recently electing him
 through direct elections in May 2012.\22\ According to a petition
 letter written by workers, demands for the recall of the union chairman
 stemmed from his inability to ``fulfill his duties'' and failure to
 effectively intervene in several contract disputes.\23\ A non-
 governmental labor organization based in Hong Kong suggested the
 chairman lacked the necessary skills and support needed to play an
 effective role, further stating that demands for his recall highlighted
 ``the importance of not just holding elections but of ensuring that the
 elected officials can actually perform the tasks they were entrusted
 with.''\24\
------------------------------------------------------------------------

                             Worker Actions

    During the past reporting year, the Commission continued to 
observe reports of workers organizing strikes and 
demonstrations in a variety of industries and regions across 
China.\25\ Strikes were often prompted by systemic labor-
related grievances, such as factory closings or relocation,\26\ 
nonpayment of wages and benefits,\27\ and abusive management 
practices.\28\ Official trade unions have played no role in 
organizing strikes or demonstrations; instead, unions 
frequently oppose worker-led actions and urge workers to 
resolve their grievances through established legal 
channels.\29\ In one case in March 2013, union officials at a 
Honda manufacturing plantinFoshanmunicipality, 
Guangdongprovince,criticized worker-organized protests as 
illegal and unproductive.\30\ Media reports indicated officials 
in some cases used force against or detained demonstrating 
workers. For example in January 2013, public security officials 
in Mayong city, Dongguan municipality, Guangdong, reportedly 
detained 27 worker representatives after they sought assistance 
from the local government in recovering wage arrears totaling 
1.38 billion yuan (US$224 million) on behalf of 3,000 migrant 
construction workers.\31\ The Commission has observed reports 
in 2013 of officials using force to stop worker demonstrations 
in locations including Shenzhen municipality;\32\ Guangzhou 
municipality, Guangdong;\33\ and Fengcheng city, Jiangxi 
province.\34\
    Commentators in China and abroad have argued that 
demographic and economic shifts in recent years have provided 
workers with greater bargaining power in the workplace, 
increasing their determination to redress grievances with 
employers and press for better pay and working conditions.\35\ 
Moreover, experts contend the growing expectations of younger 
generation migrant workers with regard to working conditions 
and labor rights is a driving factor behind the increased 
boldness of recent protests.\36\ Compared with earlier 
generations, younger generation migrant workers have higher 
levels of education, greater access to technology, and a deeper 
understanding of their rights.\37\ A number of reports indicate 
that these workers have been at the forefront of recent 
strikes, including a demonstration in September 2012 at a 
Foxconn factory in Taiyuan municipality, Shanxi province, in 
which over 40 people were hospitalized after clashes with local 
authorities.\38\

                            Migrant Workers

    Migrant workers--rural residents who have left their 
original place of residence to seek non-agricultural jobs in 
cities--remain largely marginalized and vulnerable to 
exploitation, facing problems such as wage arrears,\39\ social 
discrimination,\40\ and low levels of labor and social welfare 
protection.\41\ China's total migrant population grew 3.9 
percent in 2012 from the previous year to more than 262 
million.\42\ Working predominately in low-end industries 
requiring little technical skill, such as construction, mining, 
and manufacturing, migrants face increased risk for 
occupational injury and disease.\43\ According to a report 
published in May 2013 by the National Bureau of Statistics of 
China, over 50 percent of migrant workers in 2012 did not sign 
labor contracts with their employers,\44\ leaving them 
vulnerable to abuse in the workplace and severely disadvantaged 
should they seek to recover wages or injury compensation 
through the court system.\45\ The report also indicated that 
even with a slight overall increase from the previous year, 
only a minority of migrants in 2012 had pensions (14.3 
percent), medical insurance (16.9 percent), occupational injury 
insurance (24 percent), and unemployment insurance (8.4 
percent).\46\ Moreover, migrants often lack urban residency 
status, preventing them from accessing public services in the 
cities where they live and work.\47\ A study published in 
February 2013 by Renmin University found migrants continued to 
consider themselves outsiders despite having worked and lived 
in a city for many years, presenting a challenge to government 
efforts to improve migrant integration into urban society.\48\

                              Child Labor

    Despite China's laws and commitments under international 
conventions prohibiting child labor, employers continued to 
hire underage workers this past year. As a member of the 
International Labour Organization (ILO), China has ratified the 
two core conventions on the elimination of child labor.\49\ The 
PRC Labor Law and related legislation also prohibit the 
employment of minors under 16 years old.\50\ Despite these 
legal measures, systemic problems in enforcement and lack of 
sufficient resources reportedly continue to constrain efforts 
to reduce child labor.\51\ At a two-day high-level seminar on 
child labor held in September 2012, officials from the Ministry 
of Human Resources and Social Security acknowledged for the 
first time within China the challenge child labor posed, 
stating a need for improved legal enforcement and increased 
awareness of protection of children's rights.\52\ While the 
extent of child labor in China is unclear, in part because the 
government does not release data on the issue,\53\ domestic and 
international media reports from the past year indicate that 
the use of child labor remained evident in the electronics 
manufacturing industry, with instances also reported in other 
sectors.\54\ Apple's January 2013 Supplier Responsibility 
Report noted 74 cases of underage workers at one of its 
supplier facilities in Guangdong province, stating that a 
third-party labor agency had ``willfully and illegally 
recruited young workers,'' reportedly conspiring with families 
to forge age verification documents.\55\
    The perpetuation of child labor through the misuse of 
student workers in ``work-study'' programs and other related 
activities also continues to be a concern. National provisions 
prohibiting child labor provide that ``education practice 
labor'' and vocational skills training labor organized by 
schools and other educational and vocational institutions do 
not constitute child labor when such activities do not 
adversely affect the safety and health of students.\56\ The PRC 
Education Law also supports schools that establish work-study 
programs, provided they do not negatively affect normal 
studies.\57\ The Commission, however, has continued to observe 
reports\58\ of ``work-study'' programs that violate Chinese law 
and appear inconsistent with ILO standards that permit 
vocational training programs for young persons so long as they 
relate to a course of education under a school's supervision or 
facilitate choice of an occupation, among other 
requirements.\59\ Throughout the reporting year, Chinese and 
international media reported on vocational schools organizing 
compulsory internship programs of questionable educational 
benefit in which students worked long hours under physically 
demanding conditions. In March 2013, Chinese media reported on 
a compulsory internship program in Guangdong province where 
technical school students were tasked with working long hours 
at an electronics factory in violation of legal limits.\60\ 
According to reports, students who refused to participate in 
the internship program would not graduate from the technical 
school. The school's principal defended the program, stating 
that it strengthened students' ability to ``endure hardships 
and work hard.''\61\ In October 2012, a Foxconn subsidiary in 
Yantai municipality, Shandong province, was found to have hired 
56 underage interns.\62\ According to reports, students 
complained of working excessive overtime on tasks unrelated to 
their areas of study and receiving significantly lower wages 
than adult workers despite performing the same tasks.\63\ A 
vocational college, reportedly implicated in the Foxconn 
internship program, stated that students had been working at 
the factory since 2010 as part of a government initiative to 
alleviate labor shortages.\64\ Some observers have noted that a 
gradual tightening of the labor market in recent years has 
prompted many companies to increasingly rely on student workers 
to resolve labor shortages, often working with local 
governments to put pressure on vocational schools to provide 
student interns.\65\

                          Subcontracted Labor

    Subcontracted workers hired through labor employment 
agencies remain particularly vulnerable to exploitation in the 
workplace, often receiving lower wages and fewer benefits than 
workers hired through direct labor contracts with 
employers.\66\ Following implementation of the PRC Labor 
Contract Law in 2008, employers increasingly have used 
subcontracted workers, also known as dispatch labor, to 
circumvent the legal obligations and related financial costs 
associated with direct labor contracts.\67\ While the PRC Labor 
Contract Law stipulates that subcontracted workers generally 
should be used only for ``temporary, auxiliary, or substitute 
positions,'' they continue to be hired as long-term substitutes 
for regular employment in violation of the law.\68\ According 
to data released by the All-China Federation of Trade Unions 
(ACFTU) in 2011 and 2012, China has between 27 and 37 million 
subcontracted workers, working primarily in state-owned 
enterprises, in some cases accounting for two-thirds of the 
total workforce.\69\
    In December 2012, the National People's Congress passed 
amendments to the PRC Labor Contract Law, effective July 1, 
2013, focusing on provisions related to labor 
subcontracting.\70\ The amendments include clearer definitions 
of the three types of positions that subcontracted workers can 
be used for and requires employers to apply the same 
compensation standards to both directly hired and subcontracted 
laborers.\71\ Moreover, the amendments raise business standards 
for employment agencies, requiring them to obtain operating 
permits from local labor authorities.\72\ Despite these 
changes, Chinese labor experts and union officials have 
questioned whether upcoming regulations designed to implement 
the amendments may weaken reforms as a result of lobbying by 
state-owned enterprises.\73\ Poor regulation of the labor 
subcontracting industry also continues to be a problem. Labor 
employment agencies have been identified by observers in China 
and abroad as a common outlet through which child workers end 
up in factories.\74\ In May 2013, Chinese media reported on the 
death of a 14-year-old boy at an electronics factory in 
Dongguan city, Guangdong province, stating that the boy had 
been hired through an employment agency which knowingly forged 
his identification documents.\75\

                              Prison Labor

    The use of forced labor in China's prison system remains 
inconsistent with Chinese law and in violation of international 
standards. The International Labour Organization's (ILO) core 
conventions on forced and compulsory labor provide an exception 
for prison labor on condition that the use of such labor is 
consistent with ILO guidelines.\76\ While China has not 
ratified either of the core conventions on forced and 
compulsory labor, as a member of the ILO, it remains obligated 
to respect a basic set of internationally recognized labor 
rights, including those associated with forced and compulsory 
labor.\77\ Despite these obligations, exploitation of prison 
labor, particularly in reeducation through labor (RTL) 
facilities, remains widespread, in part due to official 
corruption and the economic incentives prison labor offers 
local government.\78\ During the reporting year, Chinese and 
international media have reported on abusive working conditions 
at RTL facilities throughout China, stating that inmates are 
routinely forced to work long hours under threat of physical 
abuse with little or no compensation.\79\ RTL officers 
reportedly solicit bribes from the families of inmates for 
their early release or better treatment.\80\ In a report 
published in May 2013 by Southern Weekend, a newspaper based in 
Guangzhou municipality, Guangdong province, former RTL 
officials acknowledged using ``high-pressure policies such as 
beatings and [other] corporal punishment'' to enforce larger 
production quotas on uncooperative prisoners, stating that the 
amount they could earn depended on whether or not prisoners 
could meet or surpass given production quotas.\81\
    The export of prison products from China reportedly 
continues despite China's 1991 Provisions Reiterating the 
Prohibition on the Export of Products Made by Prisoners 
Undergoing Reeducation Through Labor.\82\ While the extent of 
prison labor in China remains unclear, U.S. government 
assessments, as well as international media reports from the 
past year, indicate prison labor has been used to manufacture, 
among other products, toys, electronics, and clothing.\83\ The 
1992 Memorandum of Understanding on Prison Labor and 1994 
Statement of Cooperation between the United States and China 
established mechanisms to safeguard against the export of 
prison products to the United States.\84\ Despite these 
agreements, Chinese cooperation has reportedly been slow and 
irregular in responding to U.S. concerns.\85\

                                 Wages

    Average wage levels in China continued to increase this 
past year, continuing a trend over the decade from 2000 to 2010 
that saw real average wages more than triple.\86\ Reports 
suggest structural changes in China's labor market, in 
particular a decline in the growth of the working age 
population, are partially responsible for the upward pressure 
on wages.\87\ Sporadic labor shortages in 2013\88\ and the 
relocation of manufacturing operations further inland or to 
Southeast Asia to offset rising costs, among other factors, 
also suggest tightening labor market conditions.\89\ According 
to some Chinese and international observers this combination of 
factors suggests the decline of ``cheap labor'' in China, as 
wages will continue to increase for the foreseeable future.\90\
    Despite continued wage growth, income inequality among 
different regions and industrial sectors has also increased in 
recent years, greatly expanding the disparity between rich and 
poor people.\91\ Chinese and international economists indicate 
that the annual rate of wage growth in China continues to fall 
in proportion to gross domestic product,\92\ while wages for 
migrant workers remain far behind the national average.\93\ 
China's State Council released a long-awaited income 
distribution plan in February 2013 that seeks to reduce income 
inequality and increase household income through a series of 
measures, including doubling income levels by 2020 and 
broadening social welfare programs;\94\ however, observers from 
China and abroad have criticized the plan for its lack of 
binding commitments and questioned whether it can be fully 
implemented.\95\

                           MINIMUM WAGE RATES

    Local governments continued to raise minimum-wage levels 
this past year in keeping with growth targets outlined in the 
12th Five-Year Plan on Employment Promotion issued in 2011, 
which called for minimum-wage levels to increase annually by 13 
percent and reach 40 percent of the average wage of local urban 
workers by 2015.\96\ During the 2013 reporting year, the 
Commission observed reports from Chinese media of increases in 
the statutory minimum wage in 23 provincial-level jurisdictions 
and the Shenzhen Special Economic Zone.\97\ Despite these 
increases, minimum-wage levels in many locations continue to be 
below the 40-percent target outlined in the 12th Five-Year 
Plan.\98\ Moreover, reports indicate rising living costs 
continue to erode wage gains as workers spend a greater portion 
of their income on everyday necessities.\99\ In March 2013, 
more than 250 workers from a wide range of professions in 
Shenzhen municipality signed a petition protesting newly 
implemented minimum-wage standards, arguing that the increase 
was insufficient to cover rising living costs in Shenzhen.\100\

                  WAGE ARREARS AND NONPAYMENT OF WAGES

    Wage arrears and nonpayment of wages remained serious 
problems this past year, particularly for migrant workers.\101\ 
According to a report from the Ministry of Human Resources and 
Social Security, wage arrears cases increased 7.5 percent in 
2012 from the previous year, concentrated predominantly in the 
construction and manufacturing industries.\102\ Widespread use 
of subcontracting, among other factors, including tight credit 
controls and declining export demand, remain the underlying 
causes for wage arrears cases.\103\ As bank lending rates rise, 
debt-burdened industries face increased difficulty paying 
workers, delaying payments, and in some instances defaulting 
and declaring bankruptcy, leaving workers with little recourse 
to recover unpaid wages.\104\ Central- and provincial-level 
government officials have taken steps in the past year to 
reduce cases of wage arrears, including streamlining procedures 
for investigating and resolving wage arrears claims, 
establishing contingency funds,\105\ and pursuing criminal 
charges against employers guilty of nonpayment of wages.\106\ 
Despite these measures, international media reports throughout 
2013 indicated that wage arrears continued to be a primary 
factor behind worker-led protests, especially in the weeks 
prior to the Chinese Lunar New Year holiday.\107\

                          Occupational Safety

    Workers in China continued to face occupational safety 
risks this past year. The 2002 PRC Law on Production Safety and 
related legislation contains a number of occupational health 
and safety provisions aimed at preventing workplace accidents 
and establishing a regulatory system to inspect and handle 
safety violations.\108\ Despite these legal measures, systemic 
problems in implementation and enforcement, as well as the lack 
of meaningful worker participation in workplace decisions that 
have an impact on safety and health, continue to constrain 
efforts to reduce industrial accidents.\109\ Moreover, 
unregistered and illegal manufacturing and mining operations 
continue to be prevalent throughout the country.\110\ Chinese 
officials have indicated that corruption and government 
protectionism for local industries has also hindered effective 
safety oversight, causing many industrial accidents.\111\ 
Research published in the Harvard Business Review in 2013 found 
workers employed at enterprises in China with political 
connections were five times as likely to die in an industrial 
accident.\112\ At a forum held on production safety in May 
2013, Director of the State Administration of Work Safety, Yang 
Dongliang, emphasized that greater efforts were needed to 
``resolve problems of lax enforcement and 
implementation.''\113\
    Workers in the construction, manufacturing, service, and 
mining industries are most at risk for sustaining occupational 
injury or disease.\114\ Although officially reported deaths 
from industrial accidents declined by 4.7 percent to 71,983 in 
2012,\115\ Chinese scholars and labor activists suggest the 
actual number could be significantly higher due to 
underreporting.\116\ Chinese media continued to report on cases 
in which mine managers and local officials concealed 
information about mine accidents.\117\ Despite a claimed 33 
percent decline in reported mine deaths in 2012,\118\ the death 
toll for workers in China's coal industry remains more than 10 
times the rate in developed countries.\119\
    Reports from non-governmental labor organizations and 
Chinese and international media continue to highlight workplace 
abuses and poor working conditions throughout China. Workers 
often cited low wages, forced overtime, and harsh management 
practices as some of the major problems that they face.\120\ 
Allegations of abusive working conditions, for example, 
continued to surface at factories operated by Foxconn.\121\ 
While the Commission reported last year that Foxconn agreed to 
improve working conditions at its factories, including reducing 
overtime and ensuring overtime wages, a number of labor experts 
in China and abroad indicate changes have been minimal.\122\ 
Reports also indicated that some workers are exposed to 
chemicals known to be harmful.\123\ In June 2013, a fire at a 
poultry factory in Jilin province killed 120 people and left 77 
injured.\124\ According to an investigation by Chinese 
officials, locked emergency exits prevented workers from 
escaping, a problem that had been highlighted in previous 
industrial accidents. Investigators also identified poor safety 
supervision and insufficient safety equipment and fire 
prevention training for workers as factors in the high number 
of casualties.\125\

                          Occupational Health

    Officially reported cases of occupational disease have 
grown at increasing rates in recent years, particularly for the 
lung disease pneumoconiosis.\126\ According to figures from the 
Ministry of Health, out of a total of 749,970 reported cases of 
occupation-
related disease at the end of 2010, 90 percent, or over 
676,000, were cases of pneumoconiosis.\127\ According to 
Chinese labor experts and lawyers, the total number could be 
closer to six million.\128\ Inadequate government supervision 
of industry compliance with occupational health standards,\129\ 
illegal actions by employers,\130\ and a lack of knowledge 
among workers about health in the workplace reportedly have 
contributed to high rates of occupational disease.\131\

                         Workers' Compensation

    Obtaining compensation for work-related injury or 
occupational disease in general remains a difficult and 
protracted process. Chinese labor and occupational-disease 
advocates contend that the legal framework regulating 
compensation continues to be overly complicated and time-
consuming, taking anywhere between 2 to more than 10 years for 
compensation claims to be processed, with no guarantee of 
success.\132\ Moreover, illegal practices and intransigence by 
employers and local governments, including refusing to hand 
over documents required for processing compensation claims, 
failing to sign labor contracts or provide workers with 
statutory injury insurance, and refusing to accept liability 
for hazardous working conditions, further delay and complicate 
prospects for obtaining compensation.\133\ Occupational-disease 
advocates insist processing delays can be particularly harmful 
to workers suffering from pneumoconiosis--only 10 to 20 percent 
of patients reportedly obtain an official diagnosis needed to 
receive benefits--contributing to the high death rate among 
sufferers.\134\ In some cases, workers with pneumoconiosis 
settled for one-off compensation payments to pay for medical 
care, even though the compensation fails to cover costs for 
ongoing treatment.\135\ A health expert with the Chinese Center 
for Disease Control and Prevention stated that only 10 percent 
of employees in China receive regular occupational-health 
services.\136\
    Variations in local implementing regulations for national 
legislation on compensation also indicate that actual benefits 
can differ significantly from region to region. In October 
2012, the family of Zhang Tingzhen, an employee at a Foxconn 
factory in Shenzhen municipality who was severely disabled in a 
work-related accident, brought a case before a labor 
arbitration tribunal over the company's demands that Zhang 
travel to Huizhou municipality for a disability assessment, 
where compensation levels are substantially lower than in 
Shenzhen.\137\ Zhang's father reported that he received text 
messages from the company threatening to cut off funding for 
his son's treatment if they did not travel to Huizhou, and that 
he was beaten at one point by security officials when he tried 
to retrieve his son's personal items from the factory.\138\ 
Labor activists insist that Zhang's case underlines a common 
practice by companies in China, in which employers sign labor 
contracts with employees in areas where compensation levels are 
comparatively low, and then dispatch them to work in areas with 
higher compensation rates.\139\
    Amendments to the PRC Administrative Measures for the 
Diagnosis and Evaluation of Occupational Disease, effective 
April 10, 2013, contain provisions that could make it easier 
for workers to raise occupational disease claims, while also 
increasing the liability of employers.\140\ Most significantly, 
it gives workers the right to select the official hospital they 
will be diagnosed by, whereas previously local authorities 
would usually only accept a diagnosis from a hospital in the 
same jurisdiction as an employer, a prospect particularly 
problematic for migrant workers who may have already left the 
area after an illness developed.\141\

                            Criminal Justice


                              Introduction

    During the Commission's 2013 reporting year, as in previous 
years, developments in criminal justice were driven by the 
Chinese government's and Communist Party's top priorities: 
maintaining ``social stability'' and ensuring the Party's 
continued monopoly on political power.\1\ The Commission 
observed the politically motivated use of criminal law and 
police power to suppress dissent and perceived challenges to 
Party rule. The arrest of anticorruption campaigners and well-
known rights activist Xu Zhiyong, as well as the criminal 
detention of prominent human rights advocate Guo Feixiong (aka 
Yang Maodong), are just several examples from this reporting 
year of the Party's use of criminal law to silence its 
critics.\2\
    In a major legal development this year, the new PRC 
Criminal Procedure Law (CPL), which was adopted in March 2012 
after being discussed for many years, took effect on January 1, 
2013. While the revised law as written has numerous positive 
aspects, it fails to incorporate several key rights for 
suspects and defendants, such as a clear presumption of 
innocence and an explicit right to remain silent and not to 
incriminate oneself. Although it is too early to determine if 
the new CPL is being effectively implemented, preliminary 
reports suggest that new provisions aimed at enhancing the 
ability of lawyers to meet with detained clients are being 
implemented, albeit unevenly.\3\ The 2012 CPL also contains new 
provisions for the exclusion of illegally obtained evidence. If 
implemented, these measures could help address a major 
challenge for the judicial system--confessions coerced through 
torture and wrongful convictions--a problem that took center 
stage this year as numerous cases surfaced of individuals 
wrongfully convicted based on coerced confessions.

                         Abuse of Police Power

    As the Commission noted in its 2012 annual report, China's 
domestic security apparatus has grown significantly in stature 
and influence since 2007.\4\ Zhou Yongkang, who retired in fall 
2012 as the secretary of the Communist Party Central Committee 
Political and Legal Affairs Commission (PLAC), had amassed 
enormous power.\5\ The PLAC, which is responsible for 
maintaining law and order, has direct control over the police, 
prosecutors, and the courts.\6\ Meng Jianzhu, former Minister 
of Public Security, is the new PLAC secretary--a position that 
no longer has a seat on the downsized Standing Committee of the 
Political Bureau of the Communist Party Central Committee, a 
move likely designed to prevent any one leader from becoming 
too powerful.\7\
    Unchecked police power in Chongqing municipality under Bo 
Xilai (who had close ties with Zhou Yongkang) was a defining 
characteristic of his campaign against organized crime in 
Chongqing from 2008 to 2011.\8\ Over 3,000 people were 
convicted of various crimes during the campaign, and many were 
tortured.\9\ Bo used the law not just to crack down on major 
criminals in Chongqing but also to target his political rivals 
and seize private assets.\10\ Some efforts are being made to 
provide redress for those wronged by Bo and his former police 
chief Wang Lijun; for example, the Chongqing Public Security 
Bureau is reinstating or otherwise providing redress to 
approximately 900 police officers who suffered unjust treatment 
during the campaign.\11\ But, for those who have filed appeals 
claiming they were wrongfully convicted, the matter has been 
deemed ``sensitive,'' and there has been little progress in 
redressing these wrongs.\12\
    Chinese authorities continue to use vaguely defined crimes 
to suppress and punish dissent and perceived challenges to 
Party rule. In addition to Article 105 of the PRC Criminal Law, 
which criminalizes ``subversion'' and ``inciting 
subversion,''\13\ during this reporting year authorities made 
ample use of such vague crimes as ``gathering people to disturb 
public order'' and ``unlawful assembly'' to suppress rights 
advocates and civil society activists.\14\ In mid-July, the 
Beijing Public Security Bureau (PSB) detained Xu Zhiyong, a 
leading proponent of the New Citizens' Movement--a loose 
network of individuals promoting a broad range of ideas 
including legal and political reforms, human rights, and social 
justice--on suspicion of ``gathering people to disturb public 
order.''\15\ On August 22, the Beijing PSB arrested him on the 
same charge.\16\ Guangzhou-based activist Guo Feixiong was 
detained on the same charge on August 8.\17\ As of late August, 
dozens of anticorruption advocates and other citizens 
reportedly affiliated with the New Citizens' Movement had been 
detained or arrested for peaceful assembly on various charges, 
including ``unlawful assembly'' and ``inciting 
subversion.''\18\
    Authorities also continued to abuse their power to 
persecute relatives of activists.\19\ Chen Guangcheng's nephew, 
Chen Kegui, was sentenced in November 2012 to three years and 
three months in prison for the ``intentional wounding'' of 
several township officials in what international and domestic 
observers maintain was an act of self-defense, after a trial 
that one legal expert described ``as a judicial farce.''\20\ 
Liu Xia, the wife of imprisoned Nobel Peace Prize laureate Liu 
Xiaobo, remains unlawfully detained in her home.\21\ In June, 
Liu Xia's brother, Liu Hui, was sentenced to 11 years in prison 
for financial fraud; his appeal was denied in August.\22\
    A symbol of unchecked police power is the urban management 
law enforcement corps or ``para-police'' (chengguan), which has 
become synonymous with lawlessness and brutality in China.\23\ 
Chengguan enforce administrative regulations in the cities, 
often using violent methods.\24\ In 2009, the Commission 
reported on the increasing number of violent incidents 
perpetrated by chengguan against unlicensed street vendors and 
others.\25\ In July 2013, the issue of the unregulated power of 
chengguan was once again in the spotlight when chengguan in 
Linwu county, Hunan province, beat an unlicensed watermelon 
vendor to death, and, in a separate incident, when a man in a 
wheelchair, reportedly paralyzed by a chengguan beating in 
2005, detonated a bomb in the Beijing International Airport to 
draw attention to his unsuccessful efforts to seek redress.\26\ 
As in 2009, such incidents of chengguan violence have prompted 
calls for reform of the chengguan system.\27\

                          Arbitrary Detention

    The UN Working Group on Arbitrary Detention defines the 
deprivation of personal liberty to be ``arbitrary'' if it meets 
one of the following criteria: (1) There is clearly no basis in 
law for such deprivation; (2) an individual is deprived of his 
or her liberty for having exercised rights under the Universal 
Declaration of Human Rights (UDHR) and the International 
Covenant on Civil and Political Rights (ICCPR); or (3) there is 
grave noncompliance with fair trial standards set forth in the 
UDHR and other international human rights instruments.\28\
    In addition to the many democracy and human rights 
advocates who continue to be arbitrarily detained in prison 
under the second and/or third criteria of the Working Group's 
definition above (e.g., Liu Xiaobo, Chen Wei, Chen Xi, Guo 
Quan, Li Tie, Zhu Yufu, Liu Xianbin, Gao Zhisheng, Ni Yulan, 
Wang Bingzhang), authorities also detain Chinese citizens 
arbitrarily using other venues and methods.\29\ Forms of 
arbitrary detention include, among others, ``soft detention'' 
(ruanjin), ``black jails'' (hei jianyu), shuanggui (a form of 
Party discipline), enforced disappearance, and various forms of 
administrative detention such as reeducation through labor, 
``custody and education'' (for sex workers and their clients), 
and compulsory drug treatment centers. Many forms of arbitrary 
detention violate China's own laws.\30\

                             SOFT DETENTION

    Soft detention (ruanjin) includes a range of extralegal 
controls to which an individual may be subjected, such as home 
confinement, surveillance, restricted movement, and limitations 
on contact with others.\31\ During this reporting year, 
authorities continued to use ruanjin against individuals deemed 
``sensitive,'' such as dissidents, rights defense lawyers, 
activists, civil society actors, and sometimes their family 
members as well.\32\ Liu Xia's ongoing unlawful home 
confinement (since October 2010) is an example of the use of 
ruanjin against an activist's spouse.\33\ Before Xu Zhiyong was 
taken into custody in mid-July, he was unlawfully confined to 
his home for three months.\34\ Police aim to keep ``sensitive'' 
individuals under control and out of sight around major events 
or anniversaries such as the 18th National Congress of the 
Chinese Communist Party and the anniversary of the 1989 
Tiananmen protests.\35\

  SECRET DETENTION: ``BLACK JAILS,'' SHUANGGUI, ENFORCED DISAPPEARANCE

    According to the UN Committee against Torture, detention of 
individuals in secret detention facilities ``constitutes per se 
disappearance.''\36\ ``Black jails'' are secret detention 
facilities that operate completely outside of China's official 
judicial and administrative detention systems.\37\ Chinese 
authorities primarily use ``black jails'' to detain petitioners 
who leave their hometown to seek redress at higher levels for 
complaints they have relating to actions taken by local 
government officials, such as forced evictions and land 
seizures.\38\ Although Chinese officials have occasionally 
taken legal action against individuals involved in operating 
``black jails,'' the facilities continue to exist because, as 
the Economist observed in March, ``[b]lack jails serve the 
interests of every level of government.''\39\ The central 
government is determined to keep petitioners off the streets of 
Beijing in order to ``maintain stability,'' and local officials 
want to ensure that their careers are not adversely affected by 
disgruntled local residents causing ``trouble'' in Beijing.\40\
    There were several hopeful signs with respect to ``black 
jails'' during this reporting year.\41\ In a rare move, Chinese 
authorities released hundreds of petitioners detained in 
Jiujingzhuang, one of Beijing's largest ``black jails,'' in 
connection with Rule of Law Promotion Day on December 4.\42\ 
And, in February 2013, Xinhua reported that a Beijing court 
convicted 10 men from Henan province for illegally detaining 11 
petitioners from Henan in Beijing.\43\ Seven of the defendants 
received sentences ranging from six months to two years; the 
other three were juveniles and given suspended sentences. 
Global Times reported that the petitioners were not satisfied 
with the sentences, and believed that local officials who were 
responsible for their illegal detention should have been 
charged.\44\ Despite these and other efforts by the central 
government to rein in ``black jails,'' observers caution it is 
unlikely that the Chinese government will dismantle the system 
anytime soon.\45\
    Shuanggui (``double regulation'' or ``double designation'') 
is a form of extralegal detention used primarily for Chinese 
Communist Party officials who are suspected of corruption or 
other infractions, but also for ``cadres who have transgressed 
politically.''\46\ Detainees are held incommunicado with no 
access to a lawyer or family members.\47\ Secrecy and harsh 
interrogation methods further the main objectives of shuanggui: 
the extraction of confessions.\48\ Former Chongqing Party 
Secretary Bo Xilai was held under shuanggui from March 2012 at 
least until his case was turned over to prosecutors in late 
September 2012.\49\ During Bo's trial in late August 2013, Bo 
recanted confessions he had made while reportedly ``under 
pressure'' in shuanggui detention.\50\ On September 22, the 
Jinan Municipal People's Intermediate Court in Shandong 
province, convicted Bo of bribery, embezzlement, and abuse of 
power and sentenced him to life imprisonment; the court 
rejected Bo's argument that his earlier confessions should be 
excluded as unlawfully obtained.\51\ During this reporting 
year, three Chinese officials died within a three-month period 
while under shuanggui. Six Party investigators were put on 
trial in September for the ``intentional infliction of harm 
leading to death'' in connection with one of those cases.\52\
    Police relied on enforced disappearance (usually in the 
name of ``residential surveillance'') in the crackdown 
following the calls for Tunisian-style ``Jasmine'' protests in 
China in February 2011 to such an extent that the UN Working 
Group on Enforced or Involuntary Disappearances issued a 
statement in April of that year expressing ``serious concern'' 
about the wave of disappearances in China.\53\ The practice of 
enforced disappearance has not only continued since 2011, but 
is now codified in one of the most controversial revisions to 
the recently amended PRC Criminal Procedure Law (CPL), which 
took effect on January 1, 2013.\54\ Article 73, or ``the 
disappearance clause,'' provides that ``residential 
surveillance'' of up to six months may be carried out in a 
``designated residence'' (zhiding jusuo)--i.e., a place of the 
public security bureau's choosing that is not an officially 
recognized place of detention--when there is suspicion of the 
crime of endangering ``national security, terrorism, or serious 
bribery'' and residential surveillance at the suspect's 
domicile may impede the investigation.\55\ Family members must 
be notified within 24 hours only of the fact of ``residential 
surveillance in a designated location'' and not of the person's 
whereabouts or the basis of detention.\56\ Even this minimal 
notification requirement may be waived if there is no way of 
notifying the family (wufa tongzhi).\57\ The individual is thus 
held incommunicado, increasing the likelihood that he or she 
will suffer torture or abuse.\58\

                        ADMINISTRATIVE DETENTION

    There are several different forms of administrative 
detention in China, including reeducation through labor (RTL); 
``custody and education'' (shourong jiaoyu), which is applied 
to sex workers and their clients; and ``custody and 
rehabilitation'' (shourong jiaoyang), which targets juvenile 
delinquents (under the age of 16).\59\ These and other forms of 
extrajudicial administrative detention are arbitrary under 
international human rights standards because they permit the 
deprivation of personal liberty without trial or conformance 
with other fair trial standards.\60\ In addition, they violate 
China's own laws.\61\
    The most prominent form of administrative detention in 
China, RTL, has been the subject of intense public debate 
during this past year,\62\ and the Chinese government has vowed 
to reform RTL by the end of 2013.\63\ [See Section III--Access 
to Justice for more information.] Under the RTL system--which 
has become synonymous with rampant official abuses--Chinese 
public security officers are authorized to detain individuals 
without trial for a maximum term of three years, with the 
possibility of up to a one-year extension.\64\ There have been 
reports of RTL centers releasing detainees ahead of their 
scheduled release dates and of centers being repurposed as 
compulsory drug treatment centers.\65\ Compulsory drug 
treatment centers, however, present the same legal problems and 
human rights issues as RTL, and they violate both Chinese and 
international law.\66\
    Two other ``quasi-RTL'' measures are the relatively unknown 
``custody and education'' (C&E) and ``custody and 
rehabilitation'' (C&R). C&E is a form of administrative 
detention that permits Chinese police to send sex workers and 
their clients to detention facilities for up to two years 
without trial or judicial oversight.\67\ As with RTL and 
compulsory drug treatment, C&E inmates are subjected to forced 
labor, and rights abuses are rampant.\68\ Under C&R, police may 
send juvenile offenders under the age of 16 to detention 
facilities for periods between one and three years without due 
process of law. A recent editorial in the Southern Metropolitan 
Daily argued that, because C&E and C&R suffer from the same 
legal infirmities as RTL, they must be considered together in 
any discussion of RTL reform.\69\

                           Access to Counsel

    The 2012 PRC Criminal Procedure Law (CPL) contains several 
positive developments with respect to access to counsel. For 
example, it expands the circumstances under which legal aid 
must be provided for suspects and defendants (for example, if 
the suspect is facing a possible life sentence or death)--a 
revision that may raise the generally low rate of 
representation of defendants in criminal trials.\70\ The new 
CPL incorporates provisions from the 2007 PRC Lawyers' Law that 
seek to ameliorate the ``three difficulties'' defense attorneys 
typically face--gaining access both to detained clients and to 
prosecutor's case files, and collecting evidence.\71\ Because 
the CPL clearly applies to the public security apparatus (the 
police had argued previously that the Lawyers' Law only applied 
to lawyers), the new CPL may ease the ``three 
difficulties.''\72\ The new CPL stipulates that a lawyer need 
only show ``three certificates'' (i.e., a lawyers' license, a 
law firm certificate, and a client engagement letter), and the 
detention center must arrange for a meeting with the detainee 
within 48 hours of the request.\73\ Although it is too early to 
draw conclusions, preliminary research conducted by Shangquan 
Law Firm, a Beijing-based firm that specializes in criminal 
defense, suggests that there has been substantial improvement 
in the ability of defense lawyers to meet with their detained 
clients.\74\
    The Shangquan report notes, however, that some problems 
still exist in certain locations. For example, several 
detention centers in different jurisdictions require the 
presence of two lawyers before a meeting will be arranged.\75\ 
Reminiscent of the ``state secrets'' exception under the prior 
CPL, public security officials can rely on a vague exception in 
the new CPL to require defense attorneys to first obtain 
permission before they may meet with a detained suspect.\76\ 
Article 37 of the 2012 CPL requires prior permission in cases 
involving the crimes of endangering state security, terrorism, 
or serious bribery.\77\ The law firm's research found that 
public security agencies are interpreting these ``three 
categories of cases'' (sanlei anjian) broadly and are invoking 
sanlei anjian as an excuse to restrict or prohibit meetings 
between lawyers and their clients.\78\ The unevenness of 
implementation of the CPL provisions that address the ``three 
difficulties'' was highlighted in July by Cao Jianming, the 
president of the Supreme People's Procuratorate, who referred 
to ``local problems'' as the cause.\79\
    In ``politically sensitive'' cases, defendants still have 
difficulty not only gaining access to counsel but also 
retaining counsel of their own choosing. Authorities twice 
rejected requests by Xu Zhiyong's attorney, Liu Weiguo, to meet 
with Xu, and on one occasion even held Liu for six hours.\80\ 
Eventually a different attorney, Zhang Qingfang, was permitted 
to meet with Xu.\81\ In August, lawyers for Guo Feixiong were 
denied access to their detained client.\82\ Bo Xilai was denied 
access to counsel for many months while he was held in 
shuanggui,\83\ and lawyers retained by Bo's family were denied 
permission to represent him in court.\84\

                      Torture and Abuse in Custody

    Despite the Chinese government's continued efforts to 
address the problem, torture and abuse in police stations, 
detention centers, prisons, administrative detention 
facilities, and secret detention sites remain widespread in 
China.\85\ In April 2013, a Chinese magazine published a 
detailed account of torture, abuse, and forced labor at the 
Masanjia Women's RTL Center in Liaoning province, sparking a 
great deal of online commentary and fueling calls for the 
reform or abolition of RTL.\86\ In May, Southern Weekend 
published an expose on corruption and forced labor in RTL 
centers based on interviews with former RTL guards, one of whom 
is quoted as saying: ``The reality is that we force RTL 
detainees to work and make money [for us]. That's what every 
RTL center does.''\87\
    Torture by police in the course of criminal investigations 
remains a common problem.\88\ The government relies 
overwhelmingly on confessions as evidence in criminal 
cases.\89\ Sex workers interviewed by Human Rights Watch 
describe how police beat them after taking them into custody to 
try to force them to confess to prostitution.\90\ Many of the 
targets of Bo Xilai's crackdown on organized crime in Chongqing 
have alleged that police tortured them to confess.\91\ Gong 
Gangmo was reportedly tortured by police in part to coerce him 
to frame his lawyer, Li Zhuang, of the crime of suborning 
perjury.\92\ Gong has filed an appeal seeking to have his 
verdict overturned, as has Li. Gong, who has since apologized 
to Li Zhuang for setting him up, will be assisted by Li in his 
appeal.\93\
    The Chinese government has attempted to address the 
persistent problem of forced confessions since at least 1997, 
without much success.\94\ During the 2013 reporting year, the 
issue of coerced confessions and wrongful convictions garnered 
a great deal of public attention after a number of wrongful 
convictions came to light and high-level court officials made 
statements condemning the phenomenon.\95\ The 2012 PRC Criminal 
Procedure Law (CPL) contains new provisions that aim to prevent 
confessions obtained through torture.\96\ The law incorporates 
a June 2010 rule prohibiting the use of illegally obtained 
evidence in criminal proceedings.\97\ Moreover, Article 50 of 
the 2012 CPL contains a provision that prohibits police, 
prosecutors, and judicial personnel from forcing a suspect to 
incriminate himself.\98\ Article 50 is not framed as a right 
held by the suspect, however, and its potential for curbing 
abuse during interrogation is diminished by the retention of a 
provision from the prior CPL requiring that suspects have an 
obligation to answer the interrogator's questions 
``truthfully.''\99\ The absence of an explicit right to remain 
silent and a presumption of innocence may well undermine 
efforts to prevent coerced confessions, and the absence of a 
right to legal counsel during a detained suspect's first 
interrogation also increases the likelihood of abuse.\100\
    It remains to be seen how the provisions in the new CPL 
regarding the exclusion of illegally obtained evidence will be 
implemented in practice.\101\ Since the exclusionary rule was 
first issued in June 2010, there have been few reports of 
successfully excluded illegally obtained evidence.\102\ It was 
only in September 2012 that the media reported on the first 
case in Beijing in which a court excluded evidence that had 
been illegally obtained.\103\ At his trial Bo Xilai argued, 
without success, that his shuanggui confession had been 
illegally obtained and thus should be excluded.\104\
    Wrongful convictions, as the president of the Zhejiang 
Province High People's Court stated in a media interview in 
March, ``are basically all related to the coercion of 
confessions through torture.''\105\ At the time of the 
interview, his court was dealing with two high-profile wrongful 
conviction cases, both of which involved confessions obtained 
through torture. In March, the court reversed the convictions 
of Zhang Gaoping and his nephew, who had spent 10 years in 
prison for a rape and murder they did not commit.\106\ In July, 
the court also overturned the convictions of five men who had 
already served 18 years in prison for the robbery and murder of 
two taxi drivers based on fingerprint evidence that was 
uncovered in 2011.\107\ All five men said that their 
confessions were the result of torture.\108\
    In an article published in May, Shen Deyong, the Executive 
Vice President of the Supreme People's Court, wrote that 
wrongful convictions posed an ``unprecedented challenge'' to 
the court system.\109\ In addition to the harm wrongly decided 
decisions cause the parties involved, Shen wrote, they also 
damage judicial authority and the public's faith in the law and 
rule of law.\110\ In July, the head of the Guangdong Province 
High People's Court criticized the fundamental structure of the 
judicial system as outdated and reflecting a Soviet model in 
which courts are treated like any other government agency and 
thus are subject to various kinds of interference and 
influence.\111\ In August, reportedly in response to the spate 
of wrongful convictions that surfaced in 2013, the Communist 
Party Central Committee Political and Legal Affairs Commission 
issued, for the first time, guidelines on the prevention of 
wrongful judgments that mandate lifelong responsibility for 
police, prosecutors, and judges involved in judgments later 
demonstrated to be wrong.\112\

                             Death Penalty

    As in previous years, the Chinese government continues to 
treat data on the use of the death penalty as a state 
secret.\113\ Amnesty International concluded, based on 
available information, that the Chinese government executed 
more people in 2012 than the rest of the world combined.\114\ 
The number of executions in China is steadily decreasing, 
however. The Dui Hua Foundation estimates that 3,000 prisoners 
were executed in China in 2012, a decrease of 25 percent from 
the 4,000 cases estimated for 2011.\115\ Tsinghua University 
law professor Yi Yanyou puts the figure at over 2,000.\116\
    Despite the lack of transparency regarding many aspects of 
the death penalty, including the Supreme People's Court review 
of death penalty sentences,\117\ the Chinese media and public 
are paying increasing attention to fairness and procedural 
justice in death penalty cases.\118\ In a case that received a 
great deal of attention in the media and on the popular 
microblog site Sina Weibo, Zeng Chengjie, a businessman and 
property developer from Hunan province, was convicted of 
fraudulent fundraising and executed on July 12.\119\ In 
contravention of Chinese law, authorities failed to notify his 
family until after the fact.\120\ Within a few days after his 
daughter posted this news on Sina Weibo, it was forwarded more 
than 70,000 times and had generated nearly 50,000 
comments.\121\
    Organs are still harvested from executed prisoners in 
China,\122\ and the extent to which rules requiring prior 
informed consent are followed is unclear.\123\ In March 2012, 
then-Vice Minister of China's Ministry of Health, Huang Jiefu, 
wrote that, of the organ transplant operations performed in 
China using organs from deceased donors (the majority of such 
operations), more than 90 percent of the donors were executed 
prisoners.\124\ In March 2013, the Ministry of Health and the 
Chinese Red Cross formally launched a national voluntary organ 
donation system, but the number of organs donated during the 
three-year pilot program before the launch was low--only 659 
people donated a total of 1,804 major organs.\125\ According to 
the newly created National Health and Family Planning 
Commission (NHFPC), each year an estimated 300,000 people need 
organ transplants, but only about 10,000 transplants are 
performed annually.\126\ In August 2013, Huang Jiefu, now the 
director of a human organ transplant committee at the NHFPC, 
reportedly announced that China would cease relying on the 
organs of executed prisoners within the next two years.\127\

                          Freedom of Religion


                        International Standards

    The Chinese government's legal and policy framework for 
religion violates the protections for freedom of religion set 
forth in Article 18 of the Universal Declaration of Human 
Rights, Article 18 of the International Covenant on Civil and 
Political Rights, and other international human rights 
instruments.\1\ Although the PRC Constitution states that all 
citizens enjoy ``freedom of religious belief,'' it limits 
citizens' ability to exercise their beliefs by protecting only 
``normal religious activities,''\2\ a vaguely defined term that 
has been used to suppress forms of religious activity protected 
under international human rights standards.\3\ The government 
has created a regulatory framework that recognizes only five 
religions--Buddhism, Catholicism, Taoism, Islam, and 
Protestantism--for limited state protections for religious 
activity,\4\ and the government has continued to outlaw some 
belief systems,\5\ thereby denying members of these communities 
the right to practice their faith openly and without fear of 
government reprisal.

                    Regulatory and Policy Framework

    During the Commission's 2013 reporting year, the Chinese 
government continued to use law and policy as tools to restrain 
rather than protect Chinese citizens' right to freedom of 
religion. Although the 2005 Regulation on Religious Affairs 
(RRA) and local government regulations protect some religious 
activities, such protection is limited in scope and applies 
only to the five state-sanctioned religious communities.\6\ The 
RRA does not include criminal penalties for violation of its 
provisions,\7\ but authorities use the PRC Criminal Law,\8\ 
anti-cult regulations,\9\ and various administrative 
punishments, including reeducation through labor,\10\ to punish 
or detain citizens for forms of religious practice deemed to 
fall outside of approved parameters. Chinese government and 
Communist Party control over religious affairs is exercised 
through the State Administration for Religious Affairs (SARA) 
and lower level religious affairs bureaus (RABs) under the 
State Council,\11\ the Party's United Front Work Department 
(UFWD),\12\ and the five ``patriotic'' religious associations: 
The Buddhist Association of China (BAC), the Catholic Patriotic 
Association of China (CPA), the Islamic Association of China 
(IAC), the Three-Self Patriotic Movement of Protestant Churches 
in China (TSPM), and the Chinese Taoist Association (CTA).\13\ 
All religious clergy are required to be registered with the 
government.\14\ In January 2013, a top religious official 
announced that all clergy would be registered by the end of the 
year.\15\

     CONTINUING RESTRICTIONS ON RELIGIOUS ORGANIZATION REGISTRATION

    Registration requirements for religious organizations\16\ 
in China continue to be highly restrictive, limiting the growth 
of religious communities and the right to freedom of religion, 
assembly, and association.\17\ During the 2013 reporting year, 
the Chinese government announced an institutional reform plan 
that will loosen registration and administrative strictures on 
some social organizations, including charities and social 
services organizations, but which explicitly excludes religious 
organizations, among others.\18\ Religious organizations will 
continue to be required to operate under a legal framework that 
requires the approval and oversight of a supervisory unit and 
registration with the relevant level of civil affairs 
bureau.\19\ A February 2012 opinion issued by SARA, the UFWD, 
and four other government departments called for ``equal 
treatment'' of religious groups in establishing charitable 
organizations and noted that ``some localities and departments 
had not yet adequately recognized the positive significance of 
religious communities' participation in charitable 
activities.''\20\ It is unclear how the government will 
facilitate religious communities' legal participation in 
charitable and public interest activities given the exclusion 
of religious groups from the current social organization reform 
plan.\21\

                     China's Religious Communities


                         BUDDHISM (NON-TIBETAN)

    During the Commission's 2013 reporting year, the Chinese 
government and Communist Party, through the State 
Administration for Religious Affairs (SARA), local religious 
affairs bureaus, and the state-run Buddhist Association of 
China (BAC), continued to monitor, control, restrict, and 
``guide'' the religious activities of Buddhists in non-Tibetan 
areas of China.\22\ [For information on Tibetan Buddhists, see 
Section V--Tibet.] In a speech delivered at a ceremony 
commemorating the 60th anniversary of the BAC in August 2013, 
Vice Premier and member of the Political Bureau of the 
Communist Party Central Committee (Politburo) Liu Yandong 
stated her hope that Buddhists in China ``adhere to the 
tradition of loving the country and loving religion, embrace 
the leadership of the Party''; ``love deeply'' (re'ai) the 
Party, the nation, socialism, and the masses; and ``adhere to 
the road of socialism with Chinese characteristics.''\23\ In 
October 2012, SARA and nine other central-level government 
agencies issued a joint opinion on the handling of problems 
involved in the management of Buddhist monasteries and Taoist 
temples, calling for tighter control and regulation of 
religious sites and personnel, and prohibiting unregistered 
organizations and religious sites from conducting religious 
activities or collecting religious donations.\24\
    The Chinese government continues to ban at least three 
sects of Buddhism it has labeled as ``cults'' (xiejiao):\25\ 
Guanyin Famen,\26\ the True Buddha School (lingxian zhen 
fozong),\27\ and Yuandun Famen.\28\ A prominent Guangdong 
province-based Buddhist leader, Wu Zeheng, also known as Zen 
Master Xing Wu, has been monitored and harassed since his 
release from prison for ``economic crimes'' in 2010.\29\ The 
Chinese government has also refused to issue Wu a passport, 
thereby preventing him from lecturing abroad: ``It's just 
another way to punish people they don't like,'' Wu told the New 
York Times in February.\30\

                              CATHOLICISM

    Government control and interference. The Justice and Peace 
Commission of the Hong Kong Catholic Diocese raised concerns 
about the Chinese government's policies toward the Catholic 
Church in China in an ``Opinion on Religious Freedom in China 
for the UN Human Rights Council's October 2013 Universal 
Periodic Review'' of the Chinese government's human rights 
record. According to the opinion, the government's policy of an 
``independent, autonomous, and self-administered'' Church 
managed by two state-controlled entities--the Catholic 
Patriotic Association of China (CPA) and the Bishops Conference 
of the Catholic Church in China (BCCC)\31\--violates ``the 
consciences of the faithful and basic Catholic doctrine.''\32\ 
The opinion asserts, moreover, that Chinese government policies 
have divided Chinese Catholics into an ``official'' church and 
an ``underground'' church.\33\ An unofficial estimate of the 
total number of Catholics in China is approximately 12 million 
people, split more or less evenly between the official and 
underground churches.\34\
    The Chinese government and Communist Party deny Catholics 
in China the freedom to accept the authority of the Holy See to 
select bishops. Although the Commission reported that the Holy 
See has had a quiet role in jointly approving some bishops in 
recent years,\35\ four bishops were ordained in China between 
November 2010 and July 2012 without Holy See approval.\36\ In 
late 2012, the BCCC adopted a new national regulation on the 
selection and ordination of bishops that took effect in April 
2013; the Holy See and international observers suggest the new 
regulation strengthens a hardline approach.\37\ The regulation 
explicitly requires bishop candidates to ``endorse the Chinese 
Communist Party's leadership and the socialist system.''\38\ 
The new regulation also expands the authority of the BCCC and 
the role of provincial-level religious affairs bureaus in the 
selection and consecration process compared with an earlier 
(1993) regulation.\39\ In a recent example of government 
interference, the Union of Asian Catholic News reported that 
provincial-level officials in Hubei province overruled Wuhan 
city church leaders' November 2012 decisions on upcoming parish 
assignments and transfers, dismissed two priests from the CPA, 
and warned individual priests not to leave their parishes for 
their new assignments.\40\
    Detention of Catholic clergy. The detention of auxiliary 
bishop Thaddeus Ma Daqin from the diocese of Shanghai 
municipality, was a prominent focus of international media 
coverage during the 2013 reporting year.\41\ Bishop Ma has been 
confined to the Sheshan Seminary in Shanghai since his public 
withdrawal from the Catholic Patriotic Association of China 
(CPA) at his ordination on July 7, 2012.\42\ The CPA and the 
BCCC subsequently announced in December their decision to 
revoke Ma's title of auxiliary bishop and his membership as a 
clergyman in the CPA,\43\ noting their ``hope that the Shanghai 
diocese . . . learns a lesson from the incident.''\44\ The Holy 
See denounced the state-run church's action, stating that ``no 
episcopal conference, in any part of the world, has the power 
to overrule the pontifical mandate . . .,'' and asserted that 
the Holy See continues to recognize Ma as auxiliary bishop of 
Shanghai.\45\ Bishop Ma, whose selection and ordination were 
approved by both the Holy See and the CPA, was in line to 
succeed bishop Aloysius Jin Luxian.\46\ Bishop Jin's death in 
late April 2013 at the age of 96\47\ reportedly has left the 
Shanghai diocese--one of the largest in China--without a 
bishop.\48\
    The Justice and Peace Commission of the Hong Kong Catholic 
Diocese noted cases of underground clergy who have been 
detained and ``disappeared'' for their pastoral activity and 
refusal to join the CPA,\49\ such as priests Ma Wuyong, Liu 
Honggeng, Lu Genjun, and elderly bishops Su Zhimin and Shi 
Enxiang.\50\ In a recent example, the Cardinal Kung Foundation 
reported that, on August 7, 2013, 10 public security officers 
from Zhangjiakou city, Hebei province, took into custody Song 
Wanjun, a priest with the underground church.\51\ As of August 
2013, his whereabouts were unknown.\52\ Other priests 
reportedly serving prison sentences are Li Huisheng and Wang 
Zhong.\53\
    China-Holy See relations. The Chinese government does not 
maintain diplomatic relations with the Holy See, and there was 
no apparent progress in the normalization of relations during 
the 2013 reporting year.\54\ An October 2012 article by a 
senior cleric at the Holy See, Cardinal Fernando Filoni, 
however, raised his hope for ``sincere and respectful 
dialogue'' by invoking a 2007 pastoral letter from Pope 
Benedict XVI to Chinese Catholics that had launched a brief 
period of improved relations between China and the Holy 
See.\55\ During a press conference in March 2013, a Chinese 
Foreign Ministry spokesperson stated that China's policy has 
been ``consistent and clear'' that the Holy See must cut its 
ties with Taiwan and ``should not interfere in China's internal 
affairs under the name of religion.''\56\

                               FALUN GONG

    The Commission continued to observe reports of arbitrary 
treatment of Falun Gong practitioners by Chinese security and 
judicial authorities, in some cases involving physical and 
mental abuse. Courts continued to sentence Falun Gong 
practitioners to long terms in prison.\57\ Authorities detained 
and harassed persons who attempted to assist Falun Gong 
practitioners, including lawyers Wang Quanzhang\58\ and Cheng 
Hai.\59\ The Chinese Communist Party and government continued 
to pressure Falun Gong practitioners to renounce their belief 
and practice. The Party and government refer to this process as 
``transformation through reeducation,'' or simply 
``transformation.''\60\ From 2010 to 2012, the government 
implemented a three-year, national campaign to increase efforts 
to ``transform'' Falun Gong practitioners.\61\
    The Commission also observed reports this past year 
regarding official anti-cult efforts that placed an emphasis on 
the need to educate the public to ``resist'' Falun Gong.\62\ An 
All-China Women's Federation report stressed the need for the 
expansion of anti-cult campaigns directed against Falun Gong 
throughout Chongqing municipality, including through mobile 
schools and mobile teams of anti-cult educators.\63\ At an 
anti-cult symposium in Hangzhou city, Zhejiang province, held 
in May, a provincial official emphasized the need to bring 
anti-cult efforts ``deep into the grassroots and into the heart 
of the masses,'' and to ``vigorously carry out'' education 
against Falun Gong.\64\
    In April 2013, an article published in the China-based Lens 
Magazine reported on claims of torture and severe maltreatment 
of inmates at the Masanjia Women's Reeducation Through Labor 
(RTL) Center in Liaoning province.\65\ According to the New 
York Times, former detainees reported that approximately half 
of the people detained at the center are Falun Gong 
practitioners or members of underground churches.\66\ Former 
detainees at the center said authorities regularly tortured 
them with electric batons, handcuffed them in painful positions 
for long periods of time, and locked them in tiny ``punishment 
cells,'' among other forms of mistreatment.\67\ Beginning in 
June 2013, Beijing authorities detained journalist Du Bin for 
five weeks, on allegations he said were partly a result of his 
film about the abuses at the Masanjia Women's RTL Center.\68\
    At a Commission hearing on December 18, 2012, Falun Gong 
practitioner Hu Zhiming testified that, during the eight years 
and two months he spent in detention in several different 
locations in China for practicing Falun Gong, authorities 
allowed prisoners to beat him and subjected him to sleep 
deprivation, denial of medical care, and other types of 
abuse.\69\ At the same hearing, Bruce Chung, a Falun Gong 
practitioner from Taiwan, testified about how Chinese state 
security officials detained him for 54 days during a visit to 
Jiangxi province in the summer of 2012 and subjected him to 
lengthy interrogation sessions without access to a lawyer in 
connection with his earlier efforts to broadcast Falun Gong 
materials into China.\70\

                                 ISLAM

    Chinese authorities continued to place curbs on Muslims' 
ability to practice their religion and continued to emphasize 
the role of Islamic clergy in promoting state policies. In 
December 2012, at the conclusion of a training session for 
``Muslim patriotic religious figures,'' Xinjiang Uyghur 
Autonomous Region (XUAR) Party Committee member Shavket Imin 
stressed that ``patriotic religious figures'' should 
``relentlessly study the Party's general and specific 
policies'' and ``actively guide the broad masses of religious 
believers to continuously strengthen their national 
consciousness.''\71\ In August 2013, Ningxia Hui Autonomous 
Region (NHAR) Party Secretary Li Jianhua told local Muslims in 
Yongning county, Yinchuan city, to ``unite to respond 
positively to the call of the Party and the government,'' and 
stressed the role of Muslims in the NHAR in promoting ethnic 
unity, social harmony, and stability.\72\
    During the 2013 reporting year, Chinese authorities 
continued to regulate the confirmation of religious leaders and 
to monitor overseas pilgrimages in furtherance of state policy. 
Chinese authorities guided the training of imams at 10 state-
run Islamic institutes\73\ and conducted regular training 
courses for Muslim clergy that stressed adherence to Party 
religious and ethnic policies.\74\ Under the 2006 Measures for 
Accrediting Islamic Clergy, the first requirement listed for 
government recognition of imams is that they must ``love the 
motherland, support the socialist system and the leadership of 
the Communist Party of China, comply with national laws, [and] 
safeguard national unity, ethnic unity, and social 
stability.''\75\ At an Islamic Association of China (IAC) 
certification ceremony for Muslim religious clergy in February, 
Ma Jin, Deputy Director of the Islamic Department of the State 
Administration for Religious Affairs (SARA), told the newly 
accredited Islamic clergy he hoped they would ``resolve to 
become politically reliable.''\76\ The IAC worked to strengthen 
its system for organizing Hajj pilgrimages to Mecca,\77\ and 
local authorities throughout the XUAR warned religious 
believers against going on Hajj pilgrimages not organized by 
the government.\78\
    Authorities also continued to exert influence over the 
teachings of Muslim clergy, such as through the interpretation 
of Islamic scripture. SARA reported in February 2013 that 
Chinese authorities had engaged in efforts to interpret Islamic 
scripture for more than 10 years.\79\ SARA also reported that 
authorities had recently distributed copies of compilations of 
state-prescribed teachings of Islam to every mosque in the 
XUAR.\80\
    Authorities in charge of religious affairs sought to 
portray violent clashes that took place in the spring and 
summer of 2013 throughout the XUAR as acts inspired by 
``religious extremism,'' and urged Muslim clergy to work 
against ``religious extremist forces''\81\ and the ``three evil 
forces''\82\ of terrorism, separatism, and religious extremism. 
In an August 2013 article on ``religious extremism,'' XUAR 
United Front Work Department Deputy Inspector Azat Omer wrote 
that the ``struggle with religious extremist forces'' was a 
``serious political struggle to defend the unification of the 
motherland and safeguard ethnic unity.''\83\
    [For more information on state controls over Islam in the 
XUAR, see Section IV--Xinjiang.]

                             PROTESTANTISM

    The Chinese government continued to control the doctrine 
and activities of its official Protestant church and to target 
members of unregistered Protestant groups for harassment, 
detention, and other forms of abuse. The Three-Self Patriotic 
Movement of Protestant Churches in China (TSPM) and the China 
Christian Council (CCC) are the Protestant associations that 
manage registered Protestants on behalf of the government and 
Party.\84\ Protestants who choose not to affiliate with the 
TSPM must worship with unregistered ``house churches,'' which 
are often subject to interference, harassment, and abuses 
during peaceful religious activities. According to the United 
States Commission on International Religious Freedom's (USCIRF) 
2013 Annual Report, ``[t]he government largely tolerates groups 
that meet in homes or in small groups, but continues to view 
with suspicion religious organizations with extensive foreign 
ties, whose memberships grow too quickly, whose leadership 
becomes too popular or organizes across provincial lines, or 
whose religious activities allegedly disrupt ethnic or social 
`harmony.'''\85\
    Interference with places of worship. Authorities continued 
to interfere with the religious activities of registered and 
unregistered Protestant congregations by pressuring landlords 
to terminate their leases, conducting raids during religious 
gatherings, and threatening demolition of their buildings. The 
government continued its efforts to prohibit worship gatherings 
of the Beijing Shouwang Church, a house church of over 1,000 
congregants in Beijing municipality that has endured ongoing 
official harassment since at least 2006.\86\ In September 2012, 
the church's pastor applied for administrative review of 
actions the Beijing Public Security Bureau had taken against 
the church, including preventing the church from moving into 
property it had purchased.\87\ Two weeks later, the Beijing 
Municipal Government rejected the application, citing lack of 
evidence.\88\ In August 2013, the church reported that it was 
still being forced to meet outdoors in public spaces.\89\ [For 
additional information on the ongoing detention and harassment 
of Shouwang leaders and congregants, see Harassment and 
Detention below in this section.]
    Reports continued to emerge this year regarding state-
sanctioned raids on house churches across China. In Shandong 
province in April and May, for example, authorities raided two 
house churches in Linshu county, Linyi city, and Yutai county, 
Jining city, issued ban orders to both on grounds of ``illegal 
assembly,'' confiscated donations, and imposed fines on 
members.\90\ According to Radio Free Asia, these actions may 
have been part of an informal crackdown against Protestant 
house churches launched by Shandong authorities in March.\91\ 
Also during this reporting year, authorities conducted raids on 
house church meetings--in some cases threatening or questioning 
attendees, and in other cases fining, beating, or detaining 
them--in other areas of China, including Beijing,\92\ Guizhou 
province,\93\ Heilongjiang province,\94\ the Xinjiang Uyghur 
Autonomous Region,\95\ and the Inner Mongolia Autonomous 
Region.\96\
    Authorities in locations including Hubei,\97\ Jilin,\98\ 
and Henan provinces also reportedly threatened churches with 
demolition or eviction. In one case in Zhengzhou city, Henan 
province, authorities repeatedly threatened a registered TSPM 
church with eviction and demolition of their newly constructed, 
government-approved building.\99\ In connection with these 
threats, the church building has reportedly lost power and 
water, and has been rendered inaccessible twice after 
government-owned trucks blocked its doors with piles of dirt 
and rocks.\100\
    Harassment and detention. The Chinese government and 
Communist Party continued to harass and detain Protestants who 
worship outside of state-approved parameters. According to the 
USCIRF 2013 Annual Report (USCIRF Report), authorities detained 
close to 1,500 Protestants over the 2013 reporting period.\101\ 
Members of house church congregations in particular remained 
subject to official harassment and maltreatment. Throughout the 
reporting year, local- and national-level government offices 
issued directives calling for the need to further monitor and 
control house churches, in one case alluding to the alleged 
``instability'' posed by their proliferation in recent 
years.\102\ Reported cases of harassment throughout 2013 
suggest authorities have heightened pressure on house churches 
to register with local religious affairs bureaus and join 
state-sanctioned churches, in some instances leading to 
violence and the detention of house church members.\103\ In 
April 2013, local authorities raided a house church in Alashan 
(Alxa) League, Inner Mongolia Autonomous Region, firing tear 
gas, detaining members of the congregation, and beating others 
in a move observers contend was part of a greater push at the 
time by officials to pressure house churches into joining 
state-sanctioned churches.\104\ Authorities also continued to 
detain and harass members of Beijing's Shouwang Church. 
According to the USCIRF Report, authorities detained 900 
Shouwang Church members over the 2013 reporting period, while 
others faced eviction from their homes, dismissal from 
government jobs, and the confiscation of Beijing residency 
permits by authorities.\105\
    In other cases, authorities imposed criminal penalties or 
imprisoned Protestants who worshipped or promoted religious 
activities outside of state-approved parameters. The USCIRF 
Report indicated authorities sentenced up to 18 Protestant 
leaders to reeducation through labor or prison terms during the 
2013 reporting year.\106\ In December 2012, authorities in 
Shenzhen municipality, Guangdong province, detained house 
church pastor Cao Nan and several other house church members on 
two separate occasions for holding a religious gathering in a 
public park.\107\ In the second instance of detention, 
authorities ordered Cao to serve 12 days of administrative 
detention for ``falsely using the name of religion to disturb 
social order.''\108\ In June 2013, the Xiaodian District 
People's Court in Taiyuan city, Shanxi province, sentenced Li 
Wenxi to two years in prison and Ren Lacheng to a five-year 
prison term on charges of ``illegal business operations'' 
connected to the printing and selling of religious publications 
at the Taiyuan-based Enyu bookstore.\109\ According to media 
reports, the Enyu bookstore sold Christian literature and had a 
joint venture with a Beijing-based Christian bookstore, where 
Li was a deputy manager.\110\ Ren was also reportedly a central 
figure in unofficial university-based Christian associations in 
Taiyuan and had used Enyu as a meeting place.\111\
    Banned Protestant groups and designation of groups as 
``cults.'' The Chinese government and Party continue to 
prohibit categorically some Protestant groups from exercising 
their right to religious belief by criminalizing their 
communities as ``cult organizations'' (xiejiao zuzhi). The 
government has designated at least 18 Protestant groups as 
``cult organizations,'' banning their practice throughout the 
country.\112\ Moreover, the PRC Criminal Law includes 
provisions authorizing fines and imprisonment of up to seven 
years for forming or associating with ``cult 
organizations.''\113\ According to one Chinese freedom of 
religion advocate, authorities have increasingly utilized 
criminal law statutes, including those provisions related to 
``cult organizations,'' to detain and imprison house church 
leaders.\114\ In April 2013, authorities in Ye county, 
Pingdingshan municipality, Henan province, sentenced house 
church pastor Hu Linpo and congregation members Han Hai, Yang 
Lianbing, Zhang Mian, Cao Xia, Wang En, and Li Dan to prison 
sentences ranging from three years to more than seven years for 
``using a cult organization to undermine implementation of the 
law.''\115\ Authorities reportedly first detained all seven 
individuals in April 2012 during a house church raid.\116\ 
According to the Ye County Procuratorate indictment notice, 
authorities accused the defendants of belonging to the Local 
Church, referred to by authorities as the ``Shouters.''\117\
    In December 2012, authorities throughout the country 
engaged in a wide-ranging crackdown on followers of the Church 
of the Almighty God (CAG) in connection with their belief that 
December 21 was prophesied to be the date of the 
apocalypse.\118\ According to Chinese official media, 
authorities in 16 provinces detained more than 1,300 CAG 
followers in December 2012.\119\ In one case, authorities in 
Shaoguan city, Guangdong province, sentenced CAG adherent Lai 
Yiwa to seven years' imprisonment in April 2013 for reportedly 
photocopying and distributing pamphlets in December 2012 
related to the apocalypse prophesy.\120\

                                 TAOISM

    The Chinese government continued its control over Taoists 
and Taoist activities. As in the past, the Chinese Taoist 
Association (CTA) continued to work with the Chinese government 
to ensure that Taoist religious groups ``uphold the leadership 
of the Communist Party and the socialist system,'' ``actively 
participate in socialist material, political, and spiritual 
civilization,'' and ``make a contribution to the protection of 
religious harmony, ethnic unity, social harmony, unity of the 
motherland, and world peace.''\121\ Government agencies and the 
CTA continued to hold training sessions for Taoist leaders, 
including a November 2012 meeting of the CTA executive council 
to ``study the spirit of the 18th National Congress of the 
Communist Party of China''\122\ and a May 2013 study class led 
by the State Administration for Religious Affairs (SARA) and 
attended by over 130 Taoist leaders from localities across 
China.\123\ In the November meeting, SARA Director Wang Zuo'an 
reminded Taoist leaders in attendance that ``studying and 
putting into practice the spirit of the 18th Party Congress is 
the chief political task for religious communities for the 
coming period of time.''\124\ He further noted that he hoped 
the Taoist community would gain a ``deeper understanding of the 
greatness of the Chinese Communist Party,'' ``more 
conscientiously accept the leadership of the Chinese Communist 
Party,'' and ``take the path that conforms to socialist 
society,'' among other goals.\125\

                      OTHER RELIGIOUS COMMUNITIES

    In the past year, the central government maintained its 
framework for recognizing only select religious communities for 
limited government protections, and it did not enlarge this 
framework to accommodate additional groups. Despite lacking 
formal central government recognition, however, some religious 
communities have been able to operate inside China.\126\ The 
Orthodox Church holds services in some areas,\127\ and at least 
one provincial-level jurisdiction recognizes the Orthodox 
Church.\128\ In May 2013, the leader of the Russian Orthodox 
Church, Patriarch Kirill of Moscow and All Russia, made an 
official visit to China and met with top officials, including 
President Xi Jinping.\129\ During his visit, Kirill expressed 
his hope that Orthodox parishes would be permitted to register, 
and that a Chinese bishop would be appointed who could set 
locations for worship and ordain priests.\130\ Under current 
Chinese government regulations, foreign religious communities, 
including communities not recognized as domestic religions by 
the government, may hold services for expatriates, subject to 
certain limitations and government control.\131\

                         Ethnic Minority Rights

    During the 2013 reporting year, ethnic minorities faced 
challenges to their rights as provided in the PRC Regional 
Ethnic Autonomy Law and international law.\1\ Authorities 
placed the strictest controls over groups perceived as 
potential threats to ``stability,''\2\ including those living 
in the Tibet Autonomous Region (TAR) and other Tibetan 
autonomous areas, the Xinjiang Uyghur Autonomous Region (XUAR), 
and the Inner Mongolia Autonomous Region (IMAR). Authorities 
continued to detain, harass, and imprison ethnic minority 
rights advocates who engaged in peaceful protest and sought to 
assert their unique cultural identity. [See Section IV--
Xinjiang and Section V--Tibet for additional information on 
these areas. See text below for information on broader 
government policies toward ethnic minorities and on conditions 
in the IMAR.]

                   State Policy on Ethnic Minorities

    Government and private development projects in ethnic 
minority regions, together with the absence of 
institutionalized forums for ethnic minorities to discuss and 
seek redress for their grievances, led to tensions between 
local residents, railway workers, and government 
authorities.\3\ The expansion of top-down development 
initiatives\4\ in the IMAR, while bringing some economic 
improvement to areas inhabited by Mongols,\5\ has weakened 
Mongols' ability to preserve their unique culture, language, 
and livelihoods.\6\

            Grasslands Policy and Protests in Inner Mongolia

    Central and regional government authorities continued to 
enforce grasslands policies that require herders and nomads to 
resettle in urban areas or in larger, compact rural 
communities, portraying these developments as a move to improve 
and ``modernize'' the lives of Mongols, Tibetans, Kazakhs, and 
other minority groups, and combat grasslands degradation.\7\ 
Local governments throughout the IMAR carried out propaganda 
campaigns in 2013 to promote national and regional regulations 
regarding the protection of grasslands.\8\ The regulations 
stipulate penalties for unauthorized use of grasslands\9\ but 
lack protections for the rights of herders.\10\ Critics of 
official grasslands policies in the IMAR have raised concerns 
over increased mining activities and a corresponding loss of 
water in the region,\11\ while the policies are officially 
aimed at easing the degradation of grasslands.\12\ In a report 
published in July 2013, Greenpeace criticized state-owned coal 
mining company Shenhua Group for draining the water supply\13\ 
and causing the destruction of grasslands\14\ in areas 
inhabited by Mongol farmers and herders in the IMAR. The report 
states that Shenhua has extracted more than 50 million tons of 
groundwater since 2007 in an area encompassing five villages in 
Uushin (Wushen) Banner, Ordos (E'erduosi) municipality, 
IMAR,\15\ and produces an estimated 4.79 million tons of toxic 
industrial wastewater per year.\16\ This wastewater is 
reportedly dumped into open sand pits in Ulan Moron 
(Wulanmulun) township, Ejin Horo (Yijinhuoluo) Banner, Ordos 
(E'erduosi) municipality, IMAR,\17\ contradicting Shenhua's 
claims that its coal-to-liquid operations have ``low water 
consumption'' and ``zero discharge.''\18\ [For more information 
on rights abuses related to grasslands policies, see Section 
II--The Environment.]
    In several instances during the 2013 reporting year, Mongol 
herders sought to protest the appropriation of their grazing 
lands for military use and private development projects.\19\ On 
August 19 in Uushin (Wushen) Banner, workers from China Railway 
23rd Bureau reportedly beat to death Mongolian herder 
Bayanbaatar, who was one of several herders protesting the 
railway bureau's use of his and other herders' grazing 
land.\20\ In March 2013, herders from Durbed (Siziwang) Banner, 
Wulanchabu municipality, IMAR, reportedly gathered at the train 
station in Hohhot city, seeking to travel to Beijing to protest 
the appropriation of their land for the Beijing Military 
Command's Zhurihe military training base.\21\ Police and 
government officials from Durbed traveled to Hohhot to stop the 
herders\22\ and reportedly physically assaulted several herders 
who resisted their orders to return to Durbed.\23\ Local 
authorities reportedly had sold the land to Chinese firms, 
including two major mining companies.\24\ In July 2013, 38 
Mongol herders reportedly gathered at the train station in 
Tongliao city, IMAR, seeking to travel to Beijing to protest 
their community's September 2008 forced resettlement from the 
Khan Uul (Hanshan) Forest Area to Lubei township, Zaruud 
Banner.\25\ Security personnel reportedly detained the 38 
herders and beat those who resisted detention.\26\ In 2008, 
Tongliao city officials resettled 963 people from Khan Uul, a 
government-designated nature preserve, with the stated aim of 
creating an area free of people and livestock.\27\ However, 
resettled herders from Khan Uul reportedly complained in March 
2013 that miners had begun operations in the area.\28\ Local 
government officials have positively assessed the prospects for 
mining exploration in the area.\29\
    In July 2013, a herder in Ongniud (Wengniute) Banner, 
Chifeng municipality, reportedly killed the head of a 
``livestock grazing prohibition team'' and seriously injured 
another official while ``defending his right to graze his 
livestock on his grazing land,'' before committing suicide.\30\

                          Political Prisoners

    The continued extralegal detention of Mongol rights 
advocate Hada underscores the official repercussions Mongols 
may face for promoting their rights. During the Commission's 
2013 reporting year, authorities in Hohhot city, IMAR, 
tightened restrictions on the movement and communications of 
Hada's wife, Xinna, and the couple's son, Uiles.\31\ The 
heightened restrictions began after Xinna gave interviews to 
international media and rights groups about Chinese 
authorities' treatment of Hada in extralegal detention and its 
harmful impact on his mental health.\32\ Xinna stated in the 
interviews that Hada is suffering from depression and that 
authorities refused to allow him access to psychiatric care 
that was recommended by a physician.\33\ As of September 23, 
2013, the whereabouts of Xinna and Uiles are unclear.\34\ As of 
the same date, Hada remained in official custody without 
apparent legal basis\35\ despite his completion of a 15-year 
prison sentence on December 10, 2010.\36\ Authorities 
imprisoned Hada in 1995 after he organized peaceful protests 
for Mongols' rights.\37\ Additional representative cases 
follow:

        <bullet> On July 4, 2013, authorities in Uzumchin Right 
        (Dongwuzhumuqin) Banner, Xilingol League, IMAR, 
        reportedly arrested Yunshaabiin Seevendoo, who had 
        advocated for the rights of Mongol herders, on fraud 
        charges.\38\ Family members reportedly said his health 
        has deteriorated during his detention.\39\ Prior to his 
        detention, Seevendoo had organized Mongol herders to 
        protest against illegal government and corporate 
        expropriation of their grazing lands.\40\
        <bullet> On April 13, 2013, authorities in Guangzhou 
        municipality, Guangdong province, reportedly arrested 
        Batzangaa, a former medical school principal, after he 
        allegedly attempted to flee the country with his wife 
        and two children.\41\ Batzangaa had been under 
        residential surveillance in Dongsheng district, Ordos 
        (E'erduosi) municipality, IMAR, since January 2011. 
        According to Radio Free Asia, authorities ordered 
        Batzangaa to begin serving a three-year prison 
        sentence, starting on April 25, 2013, that had been 
        handed down as a suspended sentence in 2011.\42\ 
        Batzangaa had attempted to seek refugee status in 
        Mongolia in October 2009 after organizing 
        demonstrations to protest against the government's 
        confiscation of campus property.\43\
        <bullet> In November 2012, the Tongliao Municipality 
        People's Court in Tongliao city, IMAR, reportedly 
        convicted author and rights advocate Govruud Huuchinhuu 
        on charges of ``providing state secrets to a foreign 
        organization,''\44\ a crime under Article 111 of the 
        PRC Criminal Law that ordinarily is punishable by no 
        less than five years in prison and by life imprisonment 
        in ``especially serious'' cases.\45\ Authorities 
        originally placed Huuchinhuu under home confinement in 
        November 2010 after she published calls on the Internet 
        for Mongols to show support for the release of 
        Hada.\46\

    A number of other ethnic Mongols remain in prison or 
detention or are presumed to remain in prison or detention for 
political reasons, including Erden-uul (pen name Unaga), who 
was detained in December 2010, and Sodmongol, who was detained 
in April 2010.\47\

                          Population Planning


        International Standards and China's Population Policies

    Chinese officials continue to actively promote and 
implement population planning policies which, in both their 
nature and implementation, violate international standards. The 
PRC Population and Family Planning Law and provincial 
implementing guidelines limit couples' freedom of reproductive 
choice by stipulating if, when, and how often they may bear 
children.\1\ China's current population planning policies still 
require married couples to obtain a birth permit to lawfully 
bear a child.\2\ The population planning policies of all of 
China's 31 provincial-level jurisdictions limit couples to 
bearing one child.\3\ According to one team of demographic 
experts, ``[The Chinese government's] policy of allowing all 
couples to have only one child finds no equal in the world and 
it may be one of the most draconian examples of government 
social engineering ever seen.''\4\ Exceptions for couples who 
meet certain criteria vary province-by-province,\5\ and include 
some exceptions for ethnic minorities.\6\ Officials continue to 
coerce compliance with population planning targets using 
methods including heavy fines,\7\ forced abortions,\8\ and 
forced sterilizations.\9\
    Controls imposed on Chinese women and their families, and 
additional abuses engendered by China's population and family 
planning system, violate standards in the 1995 Beijing 
Declaration and Platform for Action\10\ and the 1994 Programme 
of Action of the Cairo International Conference on Population 
and Development.\11\ China participated as a state party in the 
negotiations and adoption of both.\12\ Acts of official 
violence committed in the implementation of population planning 
policies\13\ and the fact that these acts are not clearly 
punishable under Chinese law\14\ contravene provisions under 
the Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment,\15\ which China has signed 
and ratified.\16\ Further, discriminatory policies\17\ against 
``out-of-plan'' children are in violation of the Convention on 
the Rights of the Child\18\ and the International Covenant on 
Economic, Social and Cultural Rights.\19\ China is a state 
party to these treaties and has committed to uphold their 
terms.

                       Institutional Developments

    Amid calls by Chinese government leaders,\20\ experts and 
scholars,\21\ and citizens\22\ for the loosening or reform of 
China's population policies, China's new leadership unveiled a 
plan in March 2013 for restructuring agencies within the State 
Council, including merging the National Population and Family 
Planning Commission (NPFPC) and the Ministry of Health.\23\ The 
restructure combines most of the responsibilities of the 
previous two organizations into a new ``National Health and 
Family Planning Commission'' (NHFPC),\24\ but transfers the 
responsibility of creating population development policies and 
strategies--previously held by the NPFPC--to the National 
Development and Reform Commission.\25\ Some domestic and 
overseas experts say that the restructuring and transfer of 
certain population planning responsibilities suggests a 
significant loss of power for the nation's family planning body 
and a greater potential for population policy reform and 
eventual cancellation,\26\ while at least one Chinese academic 
expressed belief that the merger ``is in fact making the family 
planning body more powerful.''\27\
    The government restructuring plan itself has a stated aim 
to ``better uphold the basic national family planning 
policy,''\28\ and top-level officials have reinforced in 
speeches that family planning will be ``beefed up, not 
weakened.''\29\ The full impact of the dissolution of the NPFPC 
on family planning policies and local implementation remains to 
be seen. The NHFPC released an ``Action Plan'' in August which 
ignited afresh citizens' hopes for policy relaxation,\30\ but 
an NHFPC spokesman later clarified that the plan's call for 
``improving the family-planning policy'' should not be viewed 
``as a renewed sign of relaxing the policy to allow for a 
second child''\31\--a hope held by many Chinese citizens.\32\ 
The spokesman also restated that China would adhere to its 
basic family planning policies for the long term.\33\

                        Coercive Implementation

    Chinese law prohibits officials from infringing upon the 
rights and interests of citizens while implementing population 
planning policies but does not define what constitutes a 
citizen's right or interest.\34\ Chinese law reportedly does 
not stipulate punishment for officials who demand or implement 
forced abortion.\35\ Furthermore, provincial-level population 
planning regulations in at least 22 of China's 31 provincial-
level jurisdictions explicitly endorse the practice, often 
referred to as a ``remedial measure'' (bujiu cuoshi), as an 
official policy instrument.\36\ Officials also reportedly 
continue to use other coercive methods--including forced 
abortion under arbitrary detention,\37\ forced implantation of 
long-term birth control devices,\38\ and forced 
sterilization\39\--to implement population planning policies.

                           OFFICIAL CAMPAIGNS

    Language used in official speeches and government reports 
from jurisdictions across China continued to reflect an 
emphasis on strengthening enforcement measures with apparent 
disregard for restraint. Between October 2012 and July 2013, 
the Commission noted reports from at least eight provinces 
(Hubei,\40\ Guangdong,\41\ Anhui,\42\ Shandong,\43\ Henan,\44\ 
Guizhou,\45\ Hunan,\46\ and Fujian\47\) using phrases such as 
``spare no efforts'' (quanli yifu or fenli), ``use all means 
necessary'' (qian fang bai ji), ``implement `man-on-man' 
military tactics'' (shixing ``rendingren'' zhanshu), ``fight 
the family planning battle'' (dahao jisheng gongjianzhan), and 
``assault and storm the fortifications'' (tuji gongjian) to 
urge officials to implement family planning measures. The 
implementation measures promoted in these reports were harsh 
and invasive, including ``remedial measures,'' the ``two 
inspections'' (intrauterine device (IUD) and pregnancy 
inspections),\48\ the ``four procedures'' (IUD implants, first-
trimester abortions, mid- to late-term abortions, and 
sterilization),\49\ and the collection of ``social maintenance 
fees.''\50\ For example, one report regarding population 
planning work in Gangkou town, Chongyang county, Xianning 
municipality, Hubei province, recounted a local Party cadre's 
speech in which he urged officials to ``overcome the slackening 
of efforts and war-weariness'' and ``continue to maintain a 
situation of high temperatures and high pressure'' while 
implementing family planning work, which included the ``four 
procedures.''\51\ Following his speech, 13 ``team members'' 
went into local villages to ``find out the truth'' on 
population planning compliance, implement ```man-on-man' 
military tactics,'' retrieve those who had ``skipped town,'' 
and ``take backwards villages by storm,'' according to the 
report.\52\

------------------------------------------------------------------------
        Representative Cases of Coercion  (Arranged by Province)
-------------------------------------------------------------------------
Between July and September 2012, authorities in 23 of China's 31
 provincial-level jurisdictions published statements banning late-
 term\53\ abortions.\54\ Following the announcements, reports documented
 that officials in these jurisdictions continued to use forced late-term
 abortions to implement population planning policies:
 
<bullet> Guizhou. In July 2013, local family planning officials
 reportedly forced 18-weeks-pregnant Li Fengfei to the local family
 planning office for a forced abortion. After beating her and breaking
 one of her teeth, the officials reportedly forced her to fingerprint an
 abortion consent form and subsequently injected her with several
 medications to induce the abortion. The medications reportedly killed
 the fetus, but did not successfully induce labor. Nine days following
 the induction, reports indicated that Li remained in the hospital in
 critical condition, as her body had still not gone into labor.\55\
 According to a September ChinaAid report, authorities arrested Li on
 charges of embezzlement after she spread information about her forced
 abortion on the Internet.\56\
<bullet> Hubei. In May 2013, local family planning officials reportedly
 forced Zhang Yinping, who was six months pregnant with an ``out-of-
 plan'' child, to accompany them to the family planning office for an
 abortion. Following the surgery, Zhang reportedly suffered from severe
 hemorrhaging, which caused her to die the next day. Zhang's family
 reportedly protested at the family planning office following her death,
 and the county government mobilized public security personnel to stop
 the protest. Officials investigated the matter as a ``medical
 accident'' and ordered the surgery unit to suspend its practice.\57\
<bullet> Anhui. In March 2013, local family planning officials
 reportedly detained a woman surnamed Lu, who was seven months pregnant
 with an ``out-of-plan'' child, and took her to a local hospital for an
 abortion. Medical personnel at the hospital injected her with a
 substance that caused an abortion two days later.\58\ In an interview
 cited in a March 25 ChinaAid report, Lu's husband said that the family
 was seeking compensation from the government.\59\
<bullet> Shandong. In October 2012, seven local family planning
 officials reportedly detained a woman surnamed Song who was six months
 pregnant with her third child. The officials took her to a hospital,
 stripped her, tied her down, confiscated her belongings, forced her
 fingerprint onto an abortion consent form, and injected her with a
 substance that caused an abortion. Reports noted that the experience
 caused her to suffer severe psychological trauma.\60\
------------------------------------------------------------------------


------------------------------------------------------------------------
   Representative Cases of Coercion--Continued  (Arranged by Province)
-------------------------------------------------------------------------
Officials have also continued to implement forced contraceptive
 surgeries and sterilizations this reporting year:
 
<bullet> Guizhou. In February 2013, seven or eight local family planning
 officials took Nie Changmin to a local family planning office and
 forced her to undergo a sterilization procedure. Due to a mistake made
 during the procedure, Nie required several additional weeks of medical
 treatment in a nearby hospital. Nie reportedly had two ``in-plan''
 daughters and subsequently had an IUD inserted, all in compliance with
 local regulations.\61\
<bullet> Hubei. In March 2013, local family planning officials visited
 the home of 42-year-old Shen Hongxia and her husband and threatened
 court action if she did not undergo a surgical sterilization. Shen's
 doctor had declared her medically unfit for sterilization, but she and
 her husband consented to further examination at the local family
 planning office. Instead of examining her, officials performed a
 sterilization surgery on her, resulting in her death.\62\
<bullet> Henan. In March 2013, local family planning officials ordered
 Wan Liqiao to pay a 6,000 yuan (US$980) ``protection fee'' to avoid
 having to undergo a tubal ligation after her third pregnancy. One day
 later, and before she could come up with the fee, officials forced her
 into a van and took her to the local family planning office, where they
 performed a tubal ligation surgery on her without prior medical
 examination (she has a rare blood type) and without obtaining her or
 her family's written consent.\63\
<bullet> Yunnan. In July 2013, local family planning officials took away
 Guo Xingcong for a sterilization procedure. Later the same day, his
 wife found him dead at the door of their home after apparently having
 been severely beaten. Officials reportedly claimed that he had
 committed suicide and buried the body quickly without the family's
 approval. According to Guo's family, even though he had never violated
 population planning policies, authorities had targeted him for years,
 demanding that he be sterilized and that he pay a fine of 10,000 yuan
 (US$1,633) for exceeding the birth quota.\64\
------------------------------------------------------------------------

                     Punishments for Non-Compliance

    Chinese authorities continued to use various methods of 
punishment and reward to manage citizens' compliance with 
population planning policies. In accordance with national 
measures,\65\ local governments direct officials to punish non-
compliance with heavy fines, termed ``social maintenance fees'' 
(shehui fuyang fei), which force many couples to choose between 
undergoing an unwanted abortion and incurring a fine much 
greater than the average annual income of their locality.\66\ 
Furthermore, despite provisions in the PRC Population and 
Family Planning Law that prohibit infringements on citizens' 
personal, property, and other rights,\67\ officials in some 
cases threatened or imposed job termination,\68\ expulsion from 
the Communist Party,\69\ and violence\70\ for family planning 
violations. In past years, reports have documented officials' 
use of methods such as destruction of personal property and 
arbitrary detention to punish couples who did not comply with 
population planning policies.\71\
    Authorities in some cases deny hukous--household 
registration permits--to children based on their parents' lack 
of compliance with local population planning policies. Children 
who are born ``out-of-plan'' may go without hukous until their 
parents pay the necessary ``social maintenance fees'' 
associated with their birth.\72\ These children are commonly 
referred to as ``illegal residents'' (heihu)\73\ and face 
considerable difficulty accessing social benefits typically 
afforded to registered citizens, including health insurance, 
public education, and pensions.\74\ A December 2012 South China 
Morning Post report claimed that authorities in many Chinese 
cities also refuse to give hukous to ``in-plan'' newborns if 
their parents had not immediately implemented contraceptive 
measures following the birth.\75\ [For additional discussion of 
China's hukou system, see Section II--Freedom of Residence and 
Movement.]

                        Demographic Consequences

    The Chinese government's population planning policies 
continue to exacerbate the country's demographic challenges, 
which include an aging population, diminishing workforce, and 
skewed sex ratio. Affected in recent decades by government 
restrictions on the number of births per couple, China's total 
fertility rate has dropped from 6.1 births per woman in 
1949\76\ to an estimated 1.55 births per woman in 2013,\77\ 
resulting in a serious demographic imbalance with regard to 
China's growing elderly population and shrinking working-age 
population.\78\ Chinese authorities continue to implement a 
ban\79\ on ``non-medically necessary sex determination and sex-
selective abortion,''\80\ which some people reportedly continue 
to practice\81\ in response to government-imposed birth limits 
and in keeping with a traditional cultural bias for sons.\82\ 
As a result of ongoing violations of the ban on sex-selective 
abortion, China's male-female ratio at birth is severely 
skewed.\83\ While Chinese media reports that China's sex ratio 
at birth has decreased in the past few years,\84\ according to 
the UN Population Division, it remains the highest in the 
world.\85\ A 2010 study issued by the Chinese Academy of Social 
Sciences reported that by 2020, the number of Chinese males of 
marriageable age may exceed the number of Chinese females of 
marriageable age by 30 to 40 million.\86\ Reports have also 
suggested a link between China's large number of ``surplus 
males'' and an increase in the trafficking of women and 
children for forced marriage or commercial sexual 
exploitation.\87\
    Reports indicate that China's family planning policies and 
policy implementers have contributed in part to what the state-
controlled Global Times has called China's ``massive and 
lucrative baby market.''\88\ In one such case, state media 
reported in December 2012 that a family planning official in 
Anxi county, Quanzhou municipality, Fujian province, faced 
charges for selling four infants as part of a child laundering 
ring.\89\ Another local government official in Quanzhou was 
implicated in the same ring for purchasing a baby boy with his 
wife.\90\ A January 2013 Chinese investigative report uncovered 
a separate case of hospital, civil affairs, health bureau, and 
orphanage officials in Guixi city, Yingtan municipality, 
Jiangxi province, working together to illegally acquire babies 
from local hospitals or elsewhere and place them for either 
domestic or international adoption at a profit.\91\ An 
additional case emerged in August involving an obstetrician in 
Shaanxi province who allegedly convinced a mother to relinquish 
her newborn son, claiming he was seriously ill.\92\ The doctor 
reportedly sold the healthy newborn for 21,600 yuan (US$3,528) 
one day after his birth.\93\ Authorities detained the doctor 
and five other suspects, retrieved the baby from nearby Henan 
province, and launched an investigation into several similar 
cases connected to the same hospital.\94\ For years, reports 
have indicated that Chinese children are viewed as commodities 
which yield considerable profit in adoption\95\ or forced labor 
situations.\96\

                   Freedom of Residence and Movement


                          Freedom of Residence

    The Chinese government continued to enforce the household 
registration (hukou) system, established in the 1950s.\1\ 
Initially used to control migration of the rural population to 
China's cities, the hukou system has developed into a 
``mechanism determining one's eligibility for full citizenship, 
social welfare, and opportunities for social mobility.''\2\ The 
hukou system classifies Chinese citizens as either rural or 
urban and accordingly confers legal rights and access to social 
services.\3\ The implementation of these regulations 
discriminates against rural hukou holders who migrate to urban 
areas by denying them equal access to public services and 
social security benefits, as well as equal social, employment, 
and educational opportunities.\4\ China's hukou system 
conflicts with international human rights standards that 
guarantee freedom to choose one's residence and prohibit 
discrimination on the basis of ``national or social origin[,] . 
. . birth or other status.''\5\
    Government officials and journalists estimate that there 
are between 170 and 260 million rural migrants living in 
cities;\6\ these people face challenges accessing social 
services because they lack urban hukous. According to a 2013 
survey commissioned by the National Development and Reform 
Commission (NDRC), nearly 45 percent of migrant workers living 
in cities reported not receiving social benefits, including 
health care and unemployment benefits.\7\ In cities including 
Beijing, Nanjing, Shanghai, Xi'an, Hangzhou, and Zhengzhou, 
migrants (even those educated in the city) faced restrictions 
when seeking employment,\8\ such as hiring policies favoring 
local hukou holders\9\ or denial of employment due to lack of a 
local hukou.\10\ Similarly, migrants working alongside local 
urban hukou holders reportedly received lower salaries for 
performing similar work.\11\ Moreover, children of migrants 
continued to be denied equal access to urban public education 
and higher educational opportunities.\12\ Government efforts 
toward urbanization have fostered anger among rural 
residents\13\ at the same time that competition for public 
resources and systemic discrimination stemming from the hukou 
system has exacerbated tensions between urban and rural 
residents.\14\
    As in recent years, high-level officials and state-run 
media continued to emphasize the need for hukou reform as a 
part of a larger urbanization policy, and China's new 
leadership appeared to prioritize this urbanization policy with 
an aim to spur economic growth.\15\ In May 2013, Premier Li 
Keqiang announced that a reform plan will be unveiled in late 
2013 that will clarify the timing of proposed reforms and push 
``improvements to public services and the social security 
system.''\16\ In December 2012, the NDRC indicated that hukou 
reform, along with ``improving'' the land management system and 
research on measures to push the ``urbanization'' of rural 
migrants, would be accelerated in 2013.\17\ One expert 
predicted that these reforms would provide ``specific 
administrative measures'' to clarify application criteria for 
urban hukous.\18\ According to a June 2013 report on 
urbanization development delivered by the head of the NDRC, Xu 
Shaoshi, the government should ``gradually tear down household 
registration obstacles to facilitate the orderly migration of 
people from rural to urban areas.''\19\ An August 2012 report 
by the Chinese Academy of Social Sciences stressed the 
difficulty of incorporating an estimated 500 million rural 
residents into urban society over the next 20 years in part 
because of the increasing need for limited resources.\20\ 
Scholars and journalists have expressed reservations about the 
central government's approach to hukou reform, citing local 
government opposition to the financial burden an influx of 
rural migrants would impose on public services and 
infrastructure.\21\
    The Commission noted in its 2012 Annual Report a February 
2011 State Council General Office circular outlining a series 
of reforms including relaxing hukou registration standards in 
county- and prefectural-level cities, prohibiting coercive 
requisition and conversion of rural residents' land in exchange 
for urban hukous, and prohibiting any future policy attempting 
to use hukou status as a prerequisite for access to social 
services.\22\ During the 2013 reporting year, several 
prefectural- and provincial-level jurisdictions released 
implementation plans and opinions with respect to the 
circular.\23\
    The Commission has observed implementation and expressions 
of intent to implement hukou reform in the 2013 reporting year 
with varying degrees of reception and success. In November 
2012, the Ministry of Education expressed its intention to 
broaden education access to children of migrants and other non-
residents in urban areas.\24\ Some local governments continued 
to relax hukou restrictions consistent with ongoing reform 
efforts. Beijing, Guangzhou, and Shanghai municipalities issued 
measures to expand and promote equal access to educational 
opportunities for children of migrants.\25\ Despite efforts 
like these, thousands of migrant children continued to be 
prohibited from taking entrance exams in their locations of 
residence and returned to their hometowns to take these 
exams.\26\ In April 2013, authorities in Wuhan municipality, 
Hubei province, issued an opinion that allows college graduates 
who have been employed in Wuhan within two years following 
graduation to apply for a local hukou.\27\ In May 2013, 
Shanghai authorities issued measures that provided a points 
system designed to allow non-Shanghai residents to apply for a 
residence permit (juzhu zheng) if they meet certain criteria. 
The measures went into effect in July.\28\ In May 2013, 
Guangzhou municipal authorities issued measures to abolish 
hukou classifications and incorporate all residents under a 
single uniform hukou classification by 2014.\29\ At the 
provincial level, the Guangdong provincial government continued 
to promote a work plan calling for all residents of Guangdong 
province to be included under a single uniform hukou 
classification by 2014.\30\ The actual implementation and 
results of these policies remain unclear.

                          International Travel

    Chinese officials continued to deny citizens who criticize 
the government their internationally recognized right to leave 
the country. Article 12 of the International Covenant on Civil 
and Political Rights, which China has signed and committed to 
ratify, provides that ``[e]veryone shall be free to leave any 
country, including his own.''\31\ Under Article 12, countries 
may restrict this right but only in narrow circumstances to 
protect national security and certain other public 
interests.\32\ Chinese law allows officials to bar those who 
threaten state security from leaving the country,\33\ but in 
practice officials target a much broader range of activity, 
including the expression of views critical of the government, 
or having a family association with individuals expressing such 
views.\34\ A February 2013 article in the New York Times 
compared the Chinese government's use of passport restrictions 
on political opponents to the practices of the former Soviet 
Union.\35\ The number of Chinese subject to these restrictions 
reportedly has jumped in recent years, and human rights groups 
estimate that at least 14 million people may be affected.\36\ 
Restrictions reportedly fall heaviest on Tibetans and Uyghurs, 
with the U.S. State Department reporting that members of these 
groups ``experienced great difficulty acquiring 
passports.''\37\ Tsering Woeser, the noted Tibetan writer, told 
the New York Times that authorities feared these ethnic 
minorities, once abroad, would expose harsh ethnic policies or 
interact with exile groups.\38\ In March 2013, authorities 
blocked Woeser, who has been documenting Tibetan self-
immolations, from traveling to the United States to receive the 
U.S. Department of State's International Women of Courage 
Award.\39\ In February, public security officials prevented 
Ilham Tohti, the Uyghur academic and advocate for the reform of 
ethnic minority policies, from traveling to the United States 
for a fellowship at Indiana University.\40\
    During the 2013 reporting year, there continued to be 
numerous reports of political advocates and their family 
members being denied exit from China or access to passports. In 
April 2013, police prevented prominent legal scholar and rights 
advocate Xu Zhiyong from traveling to Hong Kong to attend a 
legal symposium.\41\ According to a February 2013 report, 
officials prevented the wife of imprisoned democracy advocate 
Liu Xianbin from obtaining her passport without 
explanation.\42\ Authorities also prevented the daughter of 
democracy advocate Lu Gengsong from traveling to Hong Kong in 
July 2013.\43\ The Chinese government granted passports to the 
brother and mother of legal advocate Chen Guangcheng on the eve 
of a meeting between President Barack Obama and President Xi 
Jinping in June 2013, after repeatedly denying their earlier 
passport requests.\44\

                           Domestic Movement

    Article 12 of the International Covenant on Civil and 
Political Rights provides that ``[e]veryone lawfully within the 
territory of a State shall, within that territory, have the 
right to liberty of movement and freedom to choose his 
residence.''\45\ Chinese authorities continue to violate this 
right by restricting the domestic movement of rights 
advocates\46\ and their families\47\ as a form of harassment, 
frequently under the guise of ``stability maintenance.''\48\ A 
combination of police and guards reportedly confined Liu Xia, 
the wife of imprisoned Nobel Peace Prize laureate Liu Xiaobo, 
to her home without a legal basis, a situation that has 
persisted for more than two-and-a-half years since her husband 
was awarded the prize in 2010.\49\ Roughly two dozen police 
guarded the home of Feng Zhenghu, a Shanghai human rights 
activist, and enforced his extralegal home confinement for 268 
days from February to November 2012. During that time Feng was 
allowed to leave his home only for police interrogations.\50\ 
Public security officials unlawfully confined prominent legal 
scholar and rights advocate Xu Zhiyong to his home for three 
months after police officers stopped him in the airport to 
prevent him from traveling to Hong Kong in April 2013.\51\ 
Authorities increased restrictions on freedom of movement 
during politically sensitive periods this past year, including 
the 18th National Congress of the Chinese Communist Party in 
November,\52\ the March meetings of the National People's 
Congress and the Chinese People's Political Consultative 
Congress,\53\ and the anniversary of the 1989 Tiananmen 
protests on June 4.\54\ For example, public security officials 
held Hubei-based rights defender Liu Feiyue in a hotel and only 
allowed him out for meals throughout the 18th Party 
Congress,\55\ while shifts of three to four guards monitored 
Anhui activist Wang Yixiang 24 hours a day around June 4.\56\

                            Status of Women


                    Women's Political Decisionmaking

    Through its international commitments and domestic laws and 
policies, the Chinese government has committed to ensure 
gender-equal political participation; however, women remained 
underrepresented in government and Communist Party positions 
after leadership changes during this reporting year. In 
accordance with its commitments under the Convention on the 
Elimination of All Forms of Discrimination against Women,\1\ 
the Chinese government has passed several laws\2\ and policy 
initiatives\3\ to promote gender equality in government. 
According to one UN expert, ``Gender balance in public 
administration ensures that a wide enough range of perspectives 
are consulted in policymaking to make tangible contributions to 
sustainable development.''\4\ During the Commission's 2013 
reporting year, female representation increased slightly at the 
highest levels of the central government but decreased in the 
Communist Party, and continued to fall far short of the 30 
percent target that China has agreed to under international 
standards.\5\ During the November 2012 meeting of the 18th 
Party Congress, the Communist Party appointed a new set of 
leaders for its top decisionmaking bodies, the Political Bureau 
of the Communist Party Central Committee (Politburo) and the 
Politburo Standing Committee. Men continued to hold all seven 
positions\6\ in the Politburo Standing Committee, as has been 
the case since the Party's establishment in 1949.\7\ Women held 
2 out of 25 positions in the Politburo, up from 1 in the 
previous 17th Party Congress in 2007.\8\ Female members in the 
205-person Communist Party Central Committee decreased from 13 
to 10,\9\ but the ratio of female to male delegates to the 18th 
Party Congress increased to 23 percent, up from 20 percent in 
the previous congress.\10\ Similarly, the percentage of female 
delegates to National People's Congresses has shown little 
growth since the early 1970s.\11\ In March 2013, the government 
appointed a new set of ministers to the State Council, with 
women holding 2 out of 35 ministerial-level positions, down 
from 4 in the previous State Council.\12\ On the 10-person 
State Council Standing Committee there is now 1 female vice 
premier, Liu Yandong.\13\
    Women's participation in decisionmaking at the village 
level remains low, underscoring long-held concerns about 
protection of rural women's rights and interests. Women 
reportedly led only 2.7 percent of local village committees as 
of November 2012.\14\ Women's rights advocates have continued 
to raise concerns regarding violations of women's land use 
rights in rural areas due in part to unlawful village rules and 
agreements,\15\ rapid urbanization,\16\ and low female 
representation in village committees.\17\

                      Gender-Based Discrimination


                       EMPLOYMENT DISCRIMINATION

    China has committed under international standards to taking 
``all appropriate measures to eliminate discrimination against 
women in the field of employment,''\18\ yet women in China's 
workforce continue to face many forms of discrimination. 
Several studies and reports released this year showed that 
gender discrimination in recruitment remained widespread and 
may have even increased,\19\ in some cases due to perceptions 
about gender differences in physical and mental capacities\20\ 
and in other cases due to women's ``pregnancy potential.''\21\ 
Reports also highlighted the intrusive gynecological 
examinations and related questioning that women face when 
applying for civil service positions.\22\ An October 2012 study 
documented continued and significant wage discrimination in 
favor of men,\23\ and Chinese law continues to subject women to 
mandatory retirement 5 to 10 years earlier than men.\24\ 
China's first local regulations on gender equality took effect 
in Shenzhen municipality, Guangdong province, in January 
2013,\25\ and, in February, China Daily reported that 
authorities in Beijing municipality released similar draft 
regulations for public comment.\26\ Such local provisions, if 
implemented, could fill significant gaps in national-level 
legislation as they stipulate punishments for employers who 
engage in discriminatory hiring practices.\27\ In January 2013, 
a company in Guangzhou municipality, Guangdong, paid the first 
reported compensation in a gender discrimination case in China 
after the local department of human resources and social 
security investigated Wen Yuxuan's (alias) complaint that 
recruiters denied her job application based on her gender. The 
case was resolved in mediation, and the company reportedly paid 
Wen 601 yuan (US$97) and issued an apology, but did not appear 
to offer her a job.\28\

                        EDUCATION DISCRIMINATION

    Gender-based discrimination remains a barrier for some 
young women pursuing a university education in China, despite 
provisions in the PRC Education Law that prohibit 
discrimination on several grounds including gender.\29\ Reports 
indicate that universities across China continue to implement 
long-administered gender quotas that require women to score 
higher than men on the college entrance exam (gaokao) for 
acceptance into certain majors.\30\ Advocates for gender 
equality in education reportedly filed an Open Government 
Information request in July 2012, asking the Ministry of 
Education to clarify which majors are permitted to have gender 
quotas for enrollment.\31\ In response, the Ministry of 
Education reported that gender quotas are permitted in military 
and national defense, marine and mining, and some less-commonly 
studied foreign language majors.\32\

                         Violence Against Women


                           DOMESTIC VIOLENCE

    Domestic violence is prohibited and punishable under 
Chinese law,\33\ yet the problem of domestic violence in China 
remains widespread.\34\ Current national-level legal provisions 
regarding domestic violence leave many victims unprotected by 
prohibiting domestic violence without defining the term or 
clarifying the specific responsibilities of public and private 
sector organizations in prevention, punishment, and 
treatment.\35\ As of December 2012, 28 provincial-level 
jurisdictions and more than 90 cities across China had 
instituted local anti-domestic violence regulations or policies 
that address gaps in national-level legislation.\36\ Amid 
several high-profile domestic violence cases involving women 
and children this year,\37\ Chinese advocates continued calls 
for national-level legislation that specifically addresses 
domestic violence.\38\ China's 2012-2015 National Human Rights 
Action Plan, issued in June 2012, included the goal to 
``formulate'' a domestic violence law.\39\ State media also 
reported in 2012 that domestic violence would be on the 
National People's Congress legislative agenda in 2012,\40\ but 
no drafts appear to have been made publicly available.\41\ A 
January 2013 Legal Daily article reported that the Supreme 
People's Court (SPC) plans to issue standardized documents to 
guide adjudication in domestic violence criminal cases. The 
article did not provide a timeline for the release of these 
documents, but reported that the SPC had set up pilot programs 
and trainings in six courts around the country to strengthen 
trial procedures in criminal cases involving domestic 
violence.\42\ A January 2013 Caixin Media report also noted 
that Chinese courts have issued 200 protection orders since 
pilot programs on civil law protection orders began in 
2008.\43\ Other Chinese state media and non-governmental 
organization (NGO) articles indicate, however, that many courts 
and law enforcement officials continue to treat reports of 
domestic violence as a private family matter and do not take 
legal action in response to those reports.\44\

                            SEXUAL VIOLENCE

    Women and children subjected to sexual violence\45\ in 
China face difficulties defending their rights. Reports 
regarding officials' or their associates' involvement in sexual 
violence against women and girls continued to emerge during the 
Commission's reporting year, igniting public fury at the lack 
of transparency and abuse of power displayed among China's 
elite.\46\ The May 2013 case of an official and a primary 
school principal sexually assaulting six primary school girls 
overnight at a hotel in Hainan province,\47\ as well as several 
similar cases reported shortly thereafter,\48\ exposed 
loopholes in China's criminal law that protect perpetrators 
from the more serious charges of rape if they claim the act was 
consensual or if money was involved.\49\ Authorities beat and 
detained women's rights activist Ye Haiyan after she carried 
out a peaceful protest outside of the Hainan principal's 
school.\50\ In response to these sexual abuse cases, a group of 
women lawyers from across China reportedly joined together to 
provide legal assistance to victims of sexual abuse.\51\
    Sexual harassment, considered a form of violence against 
women under international standards,\52\ is prohibited under 
Chinese law;\53\ however, due in part to the lack of a clear 
legal definition and standards for prevention, reporting, and 
punishment,\54\ legal experts continued calls this year for 
strengthened legislation on the issue.\55\ Chinese media 
reporting on sexual harassment this year included a survey 
showing a perceived increase of sexual harassment in urban 
areas,\56\ a case of sexual harassment involving Foxconn 
employees,\57\ and a case implicating a Guangdong province 
official.\58\

                STATE-AUTHORIZED VIOLENCE AGAINST WOMEN

    Officials in localities across China also continue to 
employ other forms of coercion and violence against women--
including forced abortions, forced sterilizations, and forced 
contraceptive use--in their enforcement of national and local 
population planning policies, in contradiction with 
international standards to which China has agreed.\59\ Chinese 
law leaves women unprotected against such abuses; for even 
though it prohibits officials from infringing upon citizens' 
rights and interests during population planning implementation, 
the law does not define what constitutes a citizen's right or 
interest,\60\ nor does it stipulate punishments for 
violations.\61\ Women engaging in sex work in China also report 
suffering frequent violence at the hands of authorities, 
including beatings and other forms of physical abuse, in order 
to coerce confessions.\62\ Although sex work is illegal under 
Chinese law,\63\ authorities are not permitted to use physical 
violence or abuse against suspects when enforcing these 
laws.\64\ According to a joint report issued by several 
international non-governmental organizations regarding the 
implementation of the Convention on the Elimination of All 
Forms of Discrimination against Women, in China ``[w]omen have 
few avenues for pursuing rights claims when their rights and 
interests conflict with those of the government or its 
officials, or when discriminatory treatment they have suffered 
is perpetrated by a government agency. . . . [T]he absence of 
legal remedies and restrictions on freedom of association and 
expression leave women with little opportunity for challenging 
lack of government action or violations of their own 
rights.''\65\ [For additional information on violence against 
women in the implementation of population planning policies, 
including specific case examples, see Section II--Population 
Planning.]

                           Human Trafficking


                                 Trends

    China remains a country of origin, transit, and destination 
for the trafficking of men, women, and children, as defined 
under the UN Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children (UN TIP 
Protocol).\1\ The majority of trafficking cases are 
domestic;\2\ however, human traffickers continue to traffic 
women and children from China to countries around the world.\3\ 
Women and girls also continue to be trafficked into China from 
countries across Asia, as well as from the Americas, Europe, 
and Africa, for the purpose of forced marriage, forced labor, 
and sexual exploitation.\4\ Cases of men and children in China 
working under forced or otherwise exploitative labor conditions 
that constitute human trafficking under the UN TIP Protocol\5\ 
also emerged during the Commission's 2013 reporting year.\6\ 
The full extent of the forced labor problem in China remains 
unclear, as the Chinese government has not traditionally 
released statistics on forced labor or trafficking of male 
victims.\7\ [See Section II--Worker Rights for more information 
on cases of forced labor and child labor this year.]

                        Anti-Trafficking Efforts

    Since its accession to the UN TIP Protocol in 2009,\8\ the 
Chinese government has steadily taken steps, in concert with 
other country governments\9\ and international non-governmental 
organizations,\10\ to revise domestic legislation, policies, 
and anti-trafficking efforts to come into compliance. For 
example, in 2011, the National People's Congress Standing 
Committee issued a revised PRC Criminal Law strengthening 
provisions on forced labor.\11\ In January 2013, the State 
Council took an additional step to bring government efforts 
into compliance with international standards by issuing the 
China Action Plan to Combat Trafficking in Persons (2013-
2020),\12\ which is a revised version of its predecessor, the 
China Action Plan to Combat Trafficking in Women and Children 
(2008-2012).\13\ The new Action Plan appears to contain some 
improvements in terminology and objectives, and clearly lays 
out which government agencies are responsible for 
implementation.\14\ It remains to be seen whether the State 
Council has provided adequate resources and training to local 
authorities for implementing the plan's objectives.
    Chinese authorities took limited steps this year to improve 
prevention, protection, and services for victims of 
trafficking, but did not release detailed information on the 
services provided or the number of victims identified and 
assisted.\15\ Chinese officials reportedly established two 
shelters dedicated to assisting foreign trafficking victims in 
Yunnan and Guangxi provinces, but did not provide data on the 
number of victims assisted at these shelters or the types of 
services provided there.\16\ While the government reportedly 
maintained four nationwide anti-trafficking hotlines,\17\ 
continued training for law enforcement officials,\18\ and 
stepped up efforts to cooperate with the governments of 
bordering countries such as Laos\19\ and Burma,\20\ it is 
difficult to assess China's progress in anti-trafficking 
efforts, as the government does not release data on the overall 
number of victims identified or assisted.\21\ After nine 
consecutive years on the Tier 2 Watch List, China was in June 
automatically downgraded to Tier 3, the lowest tier ranking, in 
the U.S. State Department's annual Trafficking in Persons (TIP) 
Report.\22\ The U.S. State Department's 2013 TIP report stated 
that China has been ``deemed not to be making significant 
efforts to comply with the minimum standards [for the 
elimination of trafficking].''\23\ As a Tier 3 country, China 
could be subject to certain U.S. government sanctions and 
penalties.\24\

------------------------------------------------------------------------
  Notable Changes in China's 2013-2020  Anti-Trafficking Plan of Action
-------------------------------------------------------------------------
General:
 
<bullet> Broadens the Chinese term for trafficking from ``abduction and
 sale of women and children'' (guaimai funu ertong) to ``abduction and
 sale of persons'' (guaimai renkou).\25\
<bullet> Presents ``protecting China's international image'' (weihu
 woguoji xingxiang) as one of the plan's guiding principles.\26\
<bullet> Calls for increased cooperation with UN organizations\27\ and
 cites carrying out the UN TIP Protocol as one of the plan's
 objectives.\28\
<bullet> Urges all levels of government to factor implementation funds
 into their budgets and to seek funding for anti-trafficking work from a
 variety of channels, including donations from civil society
 organizations, corporations, and individual donors, as well as
 international aid.\29\
<bullet> Calls for improvements to China's current laws, regulations,
 and policies to support anti-trafficking work. Specifically, the plan
 calls for revisions that will strengthen prosecution of buyers;\30\
 practically protect victims' lawful rights and interests;\31\ and
 improve regulations regarding temporary and permanent guardianship for
 children.\32\
 
Prevention:
 
<bullet> Calls for strengthening population planning services and
 management, while reducing unplanned pregnancies and ``out-of-plan''
 births as preventative measures in key regions of human
 trafficking.\33\ (The Commission notes that the Chinese government's
 usage of the term ``human trafficking'' here includes illegal
 adoption.\34\)
<bullet> Calls for the regulation of marriage registration and of
 adoption channels.\35\
<bullet> Calls upon specific government departments and the All-China
 Women's Federation to ``comprehensively tackle'' China's sex ratio
 imbalance;\36\ revise local regulations and launch trainings to protect
 women's rights and interests and promote gender equality;\37\ eliminate
 traditional notions of female inferiority and continuance of the family
 line (through male heirs);\38\ improve girls' education;\39\ and
 guarantee rural women's right to gender-equal land contracts, land
 distribution, compensation for land expropriation, and collective
 profit distribution.\40\
<bullet> Calls for greater awareness, education, and training, including
 adding anti-trafficking material to primary, middle, and secondary
 school curricula\41\ and strengthening public education campaigns in
 border areas.\42\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Notable Changes in China's 2013-2020  Anti-Trafficking Plan of Action--
                                Continued
-------------------------------------------------------------------------
Protection:\43\
 
<bullet> Clarifies responsibilities and calls upon officials not to
 abandon or cease investigations in child abduction cases;\44\ clarifies
 procedures for rescued children; and calls for the use of China's Anti-
 Trafficking DNA Database to help match parents with rescued children.
<bullet> Calls for an ``assistance and protection mechanism for vagrant
 minors,'' with reliance on experts in social work and other fields for
 services, including psychological counseling, behavioral correction,
 cultural education, skills training, and employment assistance.\45\
<bullet> Expands available rehabilitation services--such as employment
 skills training, guidance, and networking--to adult male trafficking
 victims.\46\ The previous plan had limited these employment services to
 women and minors over age 16.\47\
------------------------------------------------------------------------

                      Anti-Trafficking Challenges

    Additional revisions are needed to bring China's domestic 
legislation into compliance with the UN TIP Protocol.\48\ For 
example, while the PRC Criminal Law prohibits human 
trafficking,\49\ its provisions do not appear to cover all 
forms of trafficking, such as certain types of non-physical 
coercion\50\ and the commercial sex trade of minors.\51\ Nor 
does the definition of trafficking provided under Article 240 
of the PRC Criminal Law clearly include offenses against male 
victims,\52\ although other articles in the same law address 
some aspects of these crimes.\53\ Each of these forms of 
trafficking are covered under Article 3 of the UN TIP 
Protocol.\54\ The PRC Criminal Law's trafficking definition is 
also overly broad in some aspects compared with the UN TIP 
Protocol, as it includes the purchase or abduction of children 
for subsequent sale without specifying the end purpose of these 
actions.\55\ Due to these key inconsistencies between the 
Chinese legal definition and international standards on human 
trafficking, Chinese official reports and statistics on 
trafficking cases\56\ do not provide an accurate picture of the 
number of trafficking cases being handled through the criminal 
justice system in China.\57\
    Several Chinese media reports in the past year highlighted 
cases involving the purchase and sale of children--
misidentifying them as ``trafficking'' cases--and indicated 
that a significant amount of ``anti-trafficking'' work in China 
remains focused on these types of cases.\58\ Under the UN TIP 
Protocol, the purchase or abduction of children for subsequent 
sale constitutes trafficking only if the end purpose of the 
sale is exploitation, such as sexual exploitation, labor, or 
servitude.\59\
    In addition, Chinese officials' anti-trafficking work 
reflects a continued misalignment with international standards, 
especially in officials' conflation of human trafficking with 
human smuggling and their subsequent treatment of trafficking 
victims as criminals.\60\ According to the UN Office on Drugs 
and Crime, the main international body responsible for 
implementing the UN TIP Protocol, ``human trafficking'' and 
``migrant smuggling'' mainly differ with respect to consent, 
exploitation, and transnationality.\61\ Commonly, human 
trafficking involves the exploitation of an individual (either 
domestically or after they have crossed borders) without the 
individual's consent, or if the individual initially consented, 
the consent was ``rendered meaningless by the coercive, 
deceptive, or abusive actions of the traffickers,'' whereas 
migrant smuggling involves the cross-border transport of an 
individual with the individual's consent and ends when the 
migrant arrives at his or her destination.\62\ In conflating 
the two, Chinese officials may consider an individual's illegal 
entry into China to be a crime of ``human smuggling'' and 
punish the individual accordingly, while giving less 
consideration to the role exploitation may have played in the 
border crossing.\63\ The Chinese government continues to deport 
all undocumented North Koreans as illegal ``economic migrants'' 
and does not provide legal alternatives to repatriation for 
foreign victims of trafficking.\64\ [For more information, see 
Section II--North Korean Refugees in China.]

                              Risk Factors

    Chinese and international experts link China's ongoing 
human trafficking problem to several political, demographic, 
economic, and social factors. Reports indicate that China's sex 
ratio\65\--which has become severely skewed against the 
backdrop of China's population planning policies and Chinese 
families' preference for sons\66\--has increased the demand for 
trafficking of women for forced marriage and commercial sexual 
exploitation.\67\ A 2010 study issued by the Chinese Academy of 
Social Sciences reported that, by 2020, the number of Chinese 
males of marriageable age may exceed the number of Chinese 
females of marriageable age by 30 to 40 million.\68\ In recent 
years, domestic and international observers have also linked 
China's trafficking problem with a lack of awareness among 
potential victims, lack of education on trafficking prevention 
for vulnerable women and parents,\69\ challenging conditions in 
bordering countries such as poverty and limited job 
opportunities in Burma and the Democratic People's Republic of 
Korea,\70\ and corruption among Chinese law enforcement 
officials.\71\ [For additional information on China's skewed 
sex ratio, see Section II--Population Planning.]

------------------------------------------------------------------------
  Representative Human Trafficking Cases  From the 2012 Reporting Year
                         (Arranged by Province)
-------------------------------------------------------------------------
<bullet> Guangdong. In October 2012, officials in Guangdong province
 reportedly rescued four Colombian women who had been forced into sex
 work during a raid on local entertainment venues.\72\ The women had
 reportedly been trafficked into China by a criminal syndicate operating
 out of Colombia. The case raised concerns that trafficking syndicates
 are choosing new countries of origin as other countries' anti-
 trafficking efforts have strengthened.\73\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Representative Human Trafficking Cases  From the 2012 Reporting Year--
                    Continued (Arranged by Province)
-------------------------------------------------------------------------
<bullet> Guangdong. In December 2012, an Internet user posted on Sina
 Weibo that an employer from Dongguan city, Guangdong province, had
 lured seven Chinese female students between the ages of 11 and 14 into
 a van in Shaojue county, Sichuan province, to work in his toy factory.
 The post spread quickly on the Internet, with citizens across China
 pressuring the Shaojue government to take action. The Shaojue
 government investigated the case and reported that the girls were
 ``living well, under safe conditions,'' but that authorities would
 retrieve them and return them to school as soon as their whereabouts
 were confirmed.\74\
<bullet> Guangdong. In January 2013, a Vietnamese anti-trafficking
 worker and a Vietnamese policeman posed as tourists and rescued two
 Vietnamese girls, ages 17 and 19, from a brothel in Guangdong province.
 The girls had reportedly been ``kidnapped, severely beaten, raped and
 sold'' into sexual exploitation by members of an organized
 syndicate.\75\
<bullet> Yunnan. A December 2012 report released by international non-
 governmental organization TrustLaw highlighted the cases of three
 Burmese women whom traffickers lured into China with false promises of
 employment and subsequently sold into marriage to Chinese men. One of
 the women was trafficked as a minor and reported that she had lived in
 a village in Yunnan for nearly five years and had given birth to two
 children. She reported that there were many Burmese women in forced
 marriages in nearby villages in the area.\76\
<bullet> Jilin, Heilongjiang, etc. In September 2012, police in Jilin
 province reportedly arrested four North Koreans and one Chinese man for
 luring 12 North Korean women into China, forcing them to perform sexual
 services for clients via the Internet, and then selling the women to
 buyers in Heilongjiang province and other parts of China.\77\ Police
 reportedly rescued and later repatriated all 12 victims to North Korea,
 where, according to North Korean sources cited in a Chosun Ilbo report,
 they will face torture or death.\78\
------------------------------------------------------------------------

                     North Korean Refugees in China


                         Unlawful Repatriation

    During the Commission's 2013 reporting year, the Chinese 
government continued to detain and repatriate North Korean 
refugees to the Democratic People's Republic of Korea (DPRK), 
despite the severe punishments refugees reportedly face once 
returned. The Chinese government maintains that North Korean 
refugees in China are illegal economic migrants\1\ and 
continues its repatriation policy based on a 1961 treaty with 
the DPRK and a subsequent 1986 border protocol.\2\ China's 
repatriation of North Korean refugees, including those who 
leave the DPRK for fear of persecution, contravenes its 
international obligations under the 1951 UN Convention relating 
to the Status of Refugees (1951 Convention) and its 1967 
Protocol, to which China has acceded.\3\ While there is no 
reliable information available on the number of North Korean 
refugees living in China--Chinese authorities do not release 
information on refugees, nor do they permit the Office of the 
UN High Commissioner for Refugees to operate along China's 
northeastern border with the DPRK--international scholars and 
media estimate the total number is currently between 11,000 and 
50,000.\4\
    During this reporting year, the Chinese government appeared 
to strengthen measures to stem the flow of North Korean 
refugees into China, including increasing security along the 
North Korean border and continuing campaigns to seek out and 
repatriate refugees.\5\ Sources cited by Chinese and South 
Korean media reported that authorities in Yanbian Korean 
Autonomous Prefecture, Jilin province, initiated a program in 
March offering financial rewards of up to 2,000 yuan (US$326) 
to Chinese citizens who provide information leading to the 
arrest of refugees.\6\ According to official reports, the 
program specifically aimed to ``stop the illegal trans-boundary 
criminal situation at Yanbian . . . and strike at illegal 
border crossers.''\7\ Chinese villagers living in Yanbian 
attested to the success of such programs, stating that the 
number of refugees in the area had decreased significantly in 
comparison to previous years.\8\ While trans-border criminal 
activity, including drug and human trafficking, remains a 
serious concern,\9\ Chinese security officials do not 
distinguish between criminals and refugees, leaving North 
Koreans who enter China as asylum seekers and refugees at risk 
of detention and repatriation.
    International media reports also indicate Chinese 
authorities continued to collaborate with North Korean security 
officials, allowing them to operate within China to apprehend 
North Korean refugees and disrupt organizations that attempt to 
assist them.\10\ Sources cited by South Korean media noted the 
presence of North Korean security agents at places commonly 
frequented by North Koreans in China.\11\ One report further 
stated that four North Koreans were detained and repatriated by 
North Korean security agents near Shenyang municipality, 
Liaoning province, in late 2012.\12\ According to human rights 
and refugee advocates, coordinated efforts by China and North 
Korea have made it increasingly difficult for refugee advocates 
to operate on both sides of the border.\13\ In January 2013, 
the South Korean Ministry of Unification announced the number 
of refugees reaching South Korea dropped in 2012 by 50 percent 
to 1,508 compared with 2,706 in 2011.\14\ Experts suggest 
China's tougher border security and crackdowns were in part 
responsible for the decline.\15\ As of July 2013, the number of 
refugees entering South Korea was slightly higher than for the 
same period in 2012.\16\

                         Punishment in the DPRK

    North Koreans forcibly repatriated by the Chinese 
government face the threat of imprisonment, torture, and 
capital punishment in the DPRK.\17\ Under North Korean Criminal 
Law, citizens who leave the country without official permission 
can receive sentences of up to two years' imprisonment in a 
``labor-training camp.''\18\ The North Korean Ministry of 
Public Security adopted measures in 2010 making defection a 
crime of ``treachery against the nation,'' carrying a sentence 
of no less than five years' imprisonment.\19\ North Koreans 
sentenced to prison terms reportedly face a combination of 
forced labor, physical abuse, and induced malnutrition that 
results in a high number of deaths in detention.\20\ According 
to interviews with former refugees, the severity of 
interrogation, torture, and other punishments repatriated North 
Koreans face depends on North Korean authorities' assessments 
of their conduct while outside the country.\21\ North Korean 
authorities dispense harsher punishment, including long 
sentences and possible execution, to repatriated North Koreans 
deemed to have committed ``political'' crimes, which include 
attempted defection; conversion to Christianity; exposure to 
South Korean culture; and contact with religious groups, South 
Koreans, or Americans.\22\ According to most recent estimates, 
North Korea's prison population is believed to be between 
80,000 and 120,000 people.\23\
    The North Korean government's imprisonment and torture of 
repatriated North Koreans renders North Koreans in China 
refugees ``sur place,'' or those who fear persecution upon 
return to their country of origin.\24\ Under the 1951 
Convention and its 1967 Protocol, China is obligated to refrain 
from repatriating refugees ``sur place.'' China is also 
obligated under the UN Convention against Torture and Other 
Cruel, Inhuman or Degrading Treatment or Punishment to refrain 
from repatriating refugees if there are ``grounds for believing 
that they would be in danger of being subject to torture.''\25\

                   North Korean Women and Trafficking

    Lacking legal status and under constant threat of forced 
repatriation, North Korean women who stay in China and do not 
travel directly to a third country remain vulnerable to abuse, 
trafficking, and exploitation. Independent experts estimate a 
majority of North Korean refugees in China are women, of which 
some have been trafficked into forced marriages or commercial 
sexual exploitation.\26\ Traffickers have used false promises 
to lure North Korean women into China and in some cases have 
resorted to kidnapping.\27\ In some regions of northeast China, 
particularly in rural areas, a shortage of marriageable women 
has created a market for trafficked North Korean brides.\28\ 
Some women reportedly have been sold and resold multiple times, 
and trafficked North Korean women have testified to being 
beaten and sexually abused.\29\
    The Chinese government's repatriation of trafficked North 
Korean women contravenes the 1951 Convention and its 1967 
Protocol.\30\ China is obligated under Article 7 of the UN 
Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children (UN TIP Protocol) to 
``consider adopting legislative or other appropriate measures 
that permit victims of trafficking to remain in its territory, 
temporarily or permanently . . . giving appropriate 
consideration to humanitarian and compassionate factors.''\31\ 
[See Section II--Human Trafficking for more information.]

              Children of North Korean and Chinese Parents

    Children born to North Korean women and Chinese men are 
increasingly being raised in China in households where either 
the mother or both parents are absent.\32\ In some instances, 
Chinese authorities repatriate North Korean mothers to the 
DPRK, while others flee to South Korea or other parts of 
China.\33\ One demographic study published in 2013 estimated 
the population in northeast China of children born to North 
Korean women and Chinese men since the late 1990s was between 
15,000 and 25,000.\34\ Several experts and academic studies 
contend household registration (hukou) policies have changed in 
recent years to allow for a greater majority of children born 
to North Korean women in China to obtain official documentation 
needed to attend public school and gain access to other social 
services.\35\ Despite these changes, general poverty and the 
continued threat of repatriation leaves these children and 
their families at risk.\36\ China's repatriation policy is in 
violation of its international obligations under the Convention 
of the Rights of the Child, which prohibits separating children 
from their mothers.\37\

                             Public Health


                        Public Health Challenges

    The Chinese government's oversight of and response to 
public health matters came into sharp focus during the 
Commission's 2013 reporting year with an outbreak in March of 
the H7N9 avian influenza.\1\ Despite initial questions about 
possible delays in government reporting,\2\ international 
experts favorably assessed the Chinese government's response to 
the outbreak and its coordination with international health 
agencies,\3\ and remarked on China's overall progress in 
building an infrastructure for emergency response to epidemics 
since the Severe Acute Respiratory Syndrome (SARS) outbreak in 
2003.\4\ Adverse health effects of environmental pollution 
continue to be a public health challenge in China;\5\ research 
studies published in 2013 confirmed links between water 
pollution and higher cancer rates along the Huai River,\6\ and 
between air pollution and shorter life spans in north China.\7\ 
In addition, citizens' increasing concerns over food safety\8\ 
and the quality of medical care\9\ have ``eroded trust in the 
government's ability to regulate state and private enterprises 
and protect public health.''\10\ Some government officials and 
a state-run media outlet reportedly have attempted to censor 
information\11\ or deny the severity of the public's 
concerns.\12\

               Institutional and Legislative Developments

    During the annual meetings of the National People's 
Congress and the Chinese People's Political Consultative 
Conference (CPPCC) in March 2013, the State Council announced 
the merger of the Ministry of Health (MOH) and the National 
Population and Family Planning Commission into the National 
Health and Family Planning Commission, as a part of its larger 
governmental restructuring plan.\13\ At least 90 medical 
professionals from the CPPCC reportedly disapproved of the 
change and the lack of public consultation over the selected 
name, arguing that the name ``Ministry of Health'' should be 
kept as is, since population planning is only one part of the 
larger public health system.\14\ Dr. Huang Jiefu, then-MOH Vice 
Minister, reportedly commented that using the combined name 
might cause China to ``encounter difficulties'' in its 
international exchanges,\15\ because of international 
controversy over China's population planning policy.\16\ [For 
further information on the organizational merger, see Section 
II--Population Planning.]
    China's first-ever Mental Health Law (MHL) became effective 
on May 1, 2013,\17\ and aims to ``expand access to mental 
health services,'' though one international expert noted that 
the MHL does not sufficiently address the ``stigma associated 
with mental illness'' and the ``low rate of care-seeking.''\18\ 
A Chinese civil society report released in mid-May 2013 
highlighted concerns with rights protections in the new MHL for 
persons with mental illness, such as guardians' legal authority 
in the commitment process and the lack of a guaranteed right to 
appeal hospitalization.\19\ Discrepancies between the MHL and 
national and local legislation, according to the U.S.-based Dui 
Hua Foundation, create ``the potential for continued use of 
abusive psychiatric commitment against petitioners, dissidents, 
and others deemed to threaten China's social and political 
order.''\20\ Local Chinese officials reportedly committed a 
petitioner from Hunan province, Zhang Zhi, to a psychiatric 
facility sometime around October 31, 2012,\21\ despite passage 
of the MHL in October 2012.
    Strengthening the rights of persons with disabilities 
continued to be an ongoing legislative focus in China.\22\ In 
February 2013, the State Council Legislative Affairs Office 
released a draft revision of the 1994 Regulations on Education 
for Disabled Persons for public comment.\23\ Chinese and 
international non-governmental organizations (NGOs) submitted 
recommendations and comments in response, many of which 
incorporated input from Chinese disability rights advocates and 
persons with disabilities.\24\ Human Rights Watch noted in its 
submission that use of ``reasonable accommodation'' in the 
draft, a term that promotes the right to equality for persons 
with disabilities,\25\ lacks the clarity needed to comply with 
the Convention on the Rights of Persons with Disabilities 
(CRPD) standard of ``necessary and appropriate modification and 
adjustments not imposing a disproportionate or undue burden . . 
. to ensure to persons with disabilities the enjoyment or 
exercise on an equal basis with others of all human rights and 
fundamental freedoms.''\26\ Chinese domestic organizations 
raised a concern that the local-level advisory committees, 
which are responsible for assessing students, do not require 
the inclusion of legal experts, or disabled persons and their 
representatives.\27\ In addition, these organizations 
identified potential problems with mechanisms to remedy parent 
grievances.\28\ The UN committee that reviewed China's 
compliance with the CRPD in September 2012 recommended that the 
Chinese government ``reallocate resources from the special 
education system to promote . . . inclusive education in 
mainstream schools, so as to ensure that more children with 
disabilities can attend mainstream education.''\29\

           Rights Protection and Health-Based Discrimination

    China's existing legislative framework prohibits health-
based discrimination,\30\ yet discrimination in employment,\31\ 
access to medical treatment,\32\ and access to education\33\ 
continued during the 2013 reporting year, partially due to a 
lack of compliance with the laws\34\ and inconsistencies 
between national laws and local regulations.\35\ A 2012 
National People's Congress report found that, between 2007 and 
2011, government departments in 29 provinces had hired a total 
of only 92 persons with disabilities for civil servant jobs, 
far below the government's mandated provision that 1.5 percent 
of government and private enterprise jobs go to persons with 
disabilities.\36\ In spite of compulsory education regulations 
and rights protections for disabled persons, official Chinese 
statistics from 2010 estimate only 71 percent of children with 
disabilities attend school.\37\
    Employment: During the 2013 reporting year, NGOs and 
disability rights advocates continued to focus attention on 
physical eligibility standards that have been used to refuse 
employment to persons with disabilities and those living with 
infectious diseases.\38\ In a November 2012 letter to the State 
Council Legislative Affairs Office, a group of lawyers wrote 
that discriminatory provisions in the Civil Servant Recruitment 
Physical Examination Standards contravene the Chinese 
Constitution's protection of citizens' right to work.\39\ A 
local court reportedly upheld a decision that cited state 
secrets as the reason to refuse an application for open 
government information on the number of civil servants with 
disabilities.\40\ As a State Party to the UN Convention on the 
Rights of Persons with Disabilities, China has agreed to ``take 
appropriate measures to employ teachers, including teachers 
with disabilities'' and ``[p]rohibit discrimination on the 
basis of disability with regard to all matters concerning all 
forms of employment.''\41\ Although Guangdong province removed 
discriminatory provisions against people with disabilities and 
people living with HIV/AIDS in its physical standards for 
teachers in May 2013,\42\ according to a 2011 study, at least 
19 provinces reportedly maintain discriminatory provisions in 
physical standards for teachers.\43\ Human Rights Watch pointed 
out that an amended article in the national draft Regulations 
for the Education of Persons with Disabilities may allow 
government departments and schools to ``discriminate against 
individuals on the basis of physical requirements.''\44\
    Access to Medical Treatment: Discrimination in access to 
medical treatment for people living with HIV/AIDS (PLWHA) 
continues to be a challenge in China.\45\ In October 2012, a 
Chinese NGO in Tianjin reported on a local man who had been 
denied treatment for lung cancer at several hospitals due to 
his HIV-
positive status.\46\ In November 2012, the Ministry of Health 
(MOH)--reportedly at the behest of Premier Li Keqiang\47\--
issued a directive ordering hospitals to ``take steps to 
guarantee the right to medical treatment'' for PLWHA.\48\ 
Beijing Aizhixing Institute, a public health advocacy 
organization, however, raised a concern that the MOH directive 
lacked enforcement provisions, such as punishments for 
hospitals that refuse treatment to PLWHA.\49\

                            The Environment


             Pollution Challenges and Government Disclosure

    Despite some progress in protecting the environment,\1\ 
environmental problems remain a major challenge, and in recent 
years, the associated costs reportedly have increased.\2\ 
During 2012, there were 542 environmental accidents, five of 
which were serious.\3\ News reports emphasized the highly 
visible ``foggy and hazy'' skies that affected 20 provinces in 
early 2013,\4\ and which reportedly reached Japan.\5\ The 
pollution events reportedly garnered extraordinary attention 
from citizens, the media, the government,\6\ and deputies at 
the March meeting of the National People's Congress,\7\ as well 
as increased forward momentum on some relevant legislation.\8\ 
These were not isolated incidents; outdoor air pollution has 
been an ongoing challenge, posing serious health risks.\9\
    Authorities irregularly disclosed information on pollution 
problems and their health impacts. Continuing a positive trend, 
the Ministry of Environmental Protection (MEP) acknowledged 
that toxic chemicals have caused numerous acute air pollution 
incidents,\10\ posed a danger to numerous drinking water 
sources, and led to the emergence of ``cancer villages,'' among 
other health problems.\11\ Groundwater pollution continued to 
present difficulties,\12\ and officials publicly disclosed some 
groundwater contamination data.\13\ Authorities reportedly 
classified as bad nearly 60 percent of the groundwater tested 
at monitoring sites in 198 cities during 2012.\14\ Soil 
pollution reportedly is also widespread. It possibly affects as 
much as one-fifth of China's arable land based on 2010 data\15\ 
and its possible impact on the food supply has been cause for 
some concern,\16\ but authorities have so far been much less 
forthcoming with soil contamination data.\17\
    The problems created by the migration of polluting 
industries to China's western and poorer areas continue, 
including fast-paced scaling up of mining in Tibet.\18\ 
Migration practices leave behind contaminated sites,\19\ as 
well as create new problems in areas where major pollutant 
reduction targets may be lower, and environmental protection 
capacity may lag behind more developed coastal areas.\20\ 
Reportedly, only 2.8 percent of China's 600,000 villages are 
included in environmental comprehensive control efforts.\21\

       Regulatory Developments and Challenges to Rule of Law and 
                             Accountability


              CONSTITUTIONAL AND OTHER LEGAL DEVELOPMENTS

    During the reporting period, top Chinese Communist Party 
and government leaders highlighted ``ecological civilization'' 
(shengtai wenming) (apparently a complex concept that includes 
ecological and environmental protection, resource conservation, 
and sustainable development), as being tied to the four basic 
goals of a ``xiaokang'' society (an all-around well-off 
society), and mandated the establishment of ``target systems,'' 
``assessment measures,'' and ``rewards and punishment 
mechanisms'' related to the concept.\22\ Economic development, 
however, remains the ``core concern.''\23\ At the 18th Party 
Congress in November 2012, leaders revised the Chinese 
Communist Party Constitution to include one new sentence and a 
new paragraph that urge the promotion of ``ecological 
civilization'' within the overall context of ``China's special 
socialist enterprise.''\24\ In addition, former President Hu 
Jintao\25\ and Premier Li Keqiang\26\ gave prominence to 
``ecological civilization'' and environmental quality in 
national speeches.
    In June, court and procuratorate authorities issued a joint 
interpretation clarifying the application of criminal 
provisions to environmental violations; it outlines specific 
standards for classifying the severity of the impacts of 
environmental pollution, which then determines application of 
the sentencing guidelines in the PRC Criminal Law.\27\ Other 
authorities focused some regulatory measures on issues of 
concern to Chinese citizens, including air pollution and soil 
pollution. In December, MEP mandated that 117 cities will be 
responsible for specified pollutant reduction targets not 
already listed in the 12th Five-Year Plan, including PM2.5 and 
PM10.\28\ These reduction targets will be included in 
government responsibility assessments.\29\ After the winter air 
pollution events, authorities reportedly restarted\30\ stalled 
efforts to revise the PRC Air Pollution Prevention and Control 
Law.\31\ In June, the State Council reportedly issued ten 
policies intended to strengthen control over air pollution and 
in September issued the Atmospheric Pollution Prevention and 
Control Action Plan.\32\ During the reporting period, while 
authorities were not forthcoming with soil contamination data, 
legislators appeared to resuscitate efforts to draft a major 
national soil pollution law by establishing a new drafting 
group,\33\ and the State Council announced designs for a new 
soil contamination survey and a partial monitoring network,\34\ 
and plans for soil cleanup efforts.\35\
    In addition, leaders took regulatory steps to address 
climate change, some outlined in the ``China 2012 Annual Report 
on Policies and Actions To Address Climate Change''\36\ and in 
the white paper, ``China's Energy Policy 2012.''\37\ Shenzhen 
Special Economic Zone passed local legislation to restrict 
greenhouse gas emissions, the first location in China to do 
so.\38\ Authorities also began to ``research and establish'' a 
national carbon emissions trading scheme and pilot trading 
markets.\39\ China also issued its first greenhouse gas 
bulletin.\40\ In April 2013, China and the United States signed 
a joint statement on climate change announcing the formation of 
a Climate Change Working Group,\41\ and in June, agreed to work 
together to reduce hydrofluorocarbons.\42\
    Authorities opened the Environmental Protection Law (EPL) 
draft revision for public comment in September 2012\43\ and 
collected 11,748 comments.\44\ The draft revisions reportedly 
were widely criticized.\45\ Governmental and non-governmental 
organizations (NGOs) submitted suggestions regarding the draft, 
some urging for provisions providing for greater transparency 
and strengthening enforcement of laws and regulations and 
channels for public participation.\46\ One Chinese 
environmental group commented that a June 2013 draft of the 
revised EPL contained language in line with the group's 
previous suggestions, including ones that related to the 
pollution permit management system and daily penalties.\47\ The 
group and environmental experts, however, found other areas in 
need of improvement and suggested placing greater emphasis on 
protecting citizens' environmental rights; modifying the 
article related to public interest lawsuits to bring it more in 
line with the Civil Procedure Law; strengthening public 
participation in environmental impact assessments; and 
disclosing enterprise pollution monitoring information.\48\

              CHALLENGES TO RULE OF LAW AND ACCOUNTABILITY

    Significant challenges hinder the development of rule of 
law in the area of environmental protection. Official reports 
highlighted the number of environmental legal violations 
investigated and handled during 2012.\49\ Government 
interference, local protectionism, and lax or arbitrary 
enforcement are problematic.\50\ Related and additional 
challenges include:

        <bullet> Official evaluation criteria and incentives 
        that overemphasize economic development;\51\
        <bullet> Inept or unethical behavior, disregard for 
        environmental regulations, and corruption;\52\
        <bullet> The lack of supervision over governments and 
        individual officials acting above the law;\53\
        <bullet> Investment in environmental protection is 
        lower as a percent of GDP than some Chinese scientists 
        believe it should be (it hovers around 1.3 to 1.5 
        percent of GDP) and environmental protection officials 
        lack authority in some cases;\54\ and
        <bullet> Insufficient monitoring as well as 
        environmental penalties that are too light to deter 
        polluting behavior.\55\

 Development of Environmental Public Interest Law Comes to a Standstill

    The PRC Civil Procedure Law issued in August 2012 contained 
an article permitting public interest suits by ``agencies and 
relevant organizations stipulated by law.''\56\ The general 
legal foundation for these types of cases, however, remains 
vague,\57\ the number of environmental cases remains 
minimal,\58\ and the June 2013 draft of the Environmental 
Protection Law stipulated that only one government-supported 
environmental group, the All-China Environment Federation, will 
be allowed to bring environmental public interest lawsuits.\59\ 
Other barriers to the development of public interest law 
persist,\60\ including difficulties in obtaining evidence,\61\ 
the costs of pursuing such suits by organizations,\62\ and the 
lack of authority and capacity of the courts that take these 
cases.\63\
    Despite these barriers, during the reporting period, the 
Chinese media noted key environmental public interest cases. In 
a first, in late September 2012, the Qingzhen Environmental 
Tribunal of the People's Court in Qingzhen city, Guizhou 
province, heard a case brought by an individual citizen, 
``supported'' by the local procuratorate.\64\ A second case 
involving illegal dumping of chromium sludge in Yunnan 
province, brought in part by two NGOs not directly affiliated 
with government agencies,\65\ is pending. The parties to this 
case reached an initial pre-trial agreement in late 2012,\66\ 
but the defendant refused to sign the mediation decision at the 
last moment.\67\ In a third case, officials reportedly 
pressured lawyers representing an association to withdraw two 
cross-provincial cases against a company linked to an aniline 
chemical spill in Shanxi province; local news called the cases 
``harmonized.''\68\

       Role of Environmental Courts and Unreliable Legal Remedies

    China's specialized environmental courts continue to 
proliferate--reportedly reaching at least 95 by 2013. These 
courts appear to be providing different functions from place to 
place\69\ and some of them are not handling many cases.\70\ 
Legal remedies in environmental cases continue to be unreliable 
as courts remain unwilling to accept some cases.\71\ Over 70 
percent of grassroots environmental disputes reportedly are 
handled through mediation, which has an ambiguous legal 
foundation and which may be forced upon disputants.\72\ 
Sometimes citizens have taken to the streets in an effort to 
resolve grievances. Pollution and degradation problems 
reportedly are among the primary triggers of environmental mass 
incidents,\73\ and such incidents increased 30 percent in 
2012.\74\ Environmental protests continued to be the largest in 
scale among incidents of unrest, and over 70 percent of the 47 
environmental protests tracked by one organization involved 
clashes with police.\75\ In some cases, authorities halted 
plans for projects after public protests.\76\

          Suppression of Environmental Advocates and Protests

    Chinese citizens advocated for the improvement of 
environmental quality, but during the course of protecting 
their rights or investigating claims of pollution, some people 
faced detention, harassment from officials, or beatings:

        <bullet> In December 2012, authorities gave former 
        forestry official and environmentalist Liu Futang a 
        three-year suspended sentence for allegedly engaging in 
        ``illegal business activities'' linked to his self-
        publication--with a Hong Kong publication number--of 
        environmental exposes that may have embarrassed local 
        government leaders.\77\
        <bullet> In January 2013, a journalist was reportedly 
        beaten when he went with staff from the All-China 
        Environmental Federation--a government-funded non-
        governmental organization (NGO)\78\--to take pictures 
        of pollution linked to a paper company in Hunan 
        province.\79\ County leaders investigated the delayed 
        dispatch of police officers and inadequate 
        environmental oversight in the case,\80\ and police 
        later detained two suspects in the beating.\81\
        <bullet> In February, Chen Yuqian, an environmental 
        advocate in Zhejiang province, reported being attacked 
        in his home and beaten by more than 40 unidentified men 
        after he publicly challenged a local environmental 
        official to swim in a polluted local river.\82\ Chen 
        had campaigned for years to get officials to address 
        water pollution problems.\83\ He blamed officials for 
        the five beatings he has endured over the last 10 
        years.\84\
        <bullet> As of late July 2013, farmer and 
        environmentalist Zhang Bing's case remains in limbo. 
        Zhang claimed pollution killed nearly 2,000 kilos of 
        his fish in 2009, and when he was not compensated, he 
        petitioned higher level authorities and talked to the 
        press.\85\ Authorities sentenced Zhang to two years in 
        prison and three years' probation on the charge of 
        ``extortion'' linked to his petitioning activities, but 
        a higher court overturned that sentence twice.\86\ The 
        procuratorate in Lujiang county, Anhui province, as of 
        July 2013, had not yet issued an official decision 
        declaring that it was not granting an indictment 
        against Zhang, even though the Lujiang court had issued 
        a decision granting the procuratorate permission to 
        withdraw the suit against Zhang.\87\

    Officials also questioned environmental advocates, took 
extraordinary measures to prevent anti-pollution and other 
demonstrations, and censored Internet postings.

        <bullet> In November 2012, authorities questioned Chen 
        Zuoliang about giving foreign reporters pictures of the 
        protests over construction of a paraxylene (PX) plant 
        in Ningbo city, Zhejiang province, and forced rights 
        defender Wu Bin to return to his home, possibly because 
        he went to Ningbo to investigate the protests.\88\
        <bullet> In May, authorities in Chengdu municipality, 
        Sichuan province, reportedly took a variety of 
        measures\89\ and amassed a strong police presence to 
        prevent a ``walk'' to protest against a petrochemical 
        plant in nearby Pengzhou city,\90\ although they 
        claimed the police deployment was an exercise to 
        ``support earthquake relief.''\91\ Officials reportedly 
        restricted the freedom of movement of a number of 
        rights advocates,\92\ deleted weibo postings opposing 
        the plant, and also warned a Chengdu blogger to delete 
        a petition voicing opposition to the plant, which she 
        had posted on the public comment page of the U.S. White 
        House Web site.\93\

    During the reporting period, officials in various locations 
in the Inner Mongolian Autonomous Region reportedly suppressed, 
sometimes using force, protests and appeal efforts by herders 
who were unhappy about the loss of grasslands, land 
confiscation, and mine pollution.\94\ Authorities reportedly 
also deleted Internet postings regarding herders' 
grievances.\95\

          Environmental Transparency and Public Participation

    During the 2013 reporting year, citizens called for greater 
environmental transparency, and environmental authorities took 
steps to improve proactive disclosure of information. In March, 
23 environmental groups issued a plea for greater transparency 
regarding pollution sources.\96\ The MEP issued an internal 
rule that environmental protection agencies at all levels post 
the abridged version of environmental impact assessment (EIA) 
reports online as of September 1, 2012,\97\ and in October, 
rescinded a 2008 decision to exclude construction project EIA 
documents from the list of information subject to Open 
Government Information (OGI) requests.\98\ In the same month, 
MEP issued a circular,\99\ which if implemented, could 
potentially improve proactive disclosure of certain types of 
EIA documents, ``supervisory type'' monitoring data, and 
information about specified types of environmental 
accidents.\100\ The circular, however, has numerous 
limitations.\101\ In steps forward, in 2012, select cities 
began to make public PM2.5 and air quality data using the 
revised air quality index\102\ and in 2013 officials released 
some information from an environmental impact assessment report 
for a refinery project in Kunming municipality.\103\
    Despite these new rules and some progress, authorities' 
proactive disclosure of information remains irregular. 
According to one report, while there has been ``definite'' 
progress in disclosing air quality data, the number of cities 
that performed poorly outnumbered the cities that performed 
relatively well.\104\ In January 2013, the State Council 
outlined plans to ``actively push forward with orderly 
hydropower development,''\105\ including projects on the Nu 
River.\106\ In relation to the plans, articles highlighted 
concerns about transparency,\107\ as well as environmental 
protection,\108\ social impacts, downstream and cross-border 
impacts,\109\ and seismic risks.\110\
    During the reporting period, instances of environmental 
news censorship include the following:

        <bullet> In March, officials in Changzhi city, Shanxi 
        province, waited for five days to report an aniline 
        chemical spill at a fertilizer factory that affected 
        more than one million people downstream.\111\
        <bullet> In May, authorities reportedly censored news 
        of anti-pollution protests over construction of a 
        lithium-ion battery plant in Shanghai,\112\ and the 
        ``walk'' in protest of a petrochemical plant poised to 
        open in Chengdu, Sichuan province.\113\
        <bullet> Authorities in Kunming, Yunnan province, 
        allowed a protest of hundreds of people against 
        construction of an oil refinery in May, but they 
        reportedly censored critical comments about the project 
        and told state-owned enterprise employees not to 
        participate or post comments online about the 
        protest.\114\ Kunming officials also blocked access to 
        a related EIA report on the grounds that it involved 
        ``secret documents.''\115\

                      OPEN GOVERNMENT INFORMATION

    Since the passage of the Open Government Information 
Regulation (OGI) in 2007,\116\ citizens have become more 
proactive in requesting environmental data, with some success, 
but barriers to transparency remain. In April 2013, the 
Ministry of Land and Resources responded to an OGI request 
regarding groundwater quality by sending 400 pages of 
data.\117\ In another positive development, a government-funded 
environmental group won a court case against an environmental 
protection bureau for not releasing information.\118\ One OGI 
study found that a greater percentage of environmental 
authorities responded to information requests than in the 
previous year; however, the depth of transparency dropped in 35 
percent of the locations surveyed.\119\ In some cases, city 
government officials refused to provide lists of companies that 
had been punished for polluting behaviors.\120\ Despite public 
calls by Premier Li Keqiang to proactively disclose 
environmental pollution information that affects citizens' 
interests,\121\ central officials refused to provide 
information about soil contamination in response to a request, 
stating that the data was a ``state secret,''\122\ which 
reportedly prompted criticism.\123\

   PUBLIC PARTICIPATION IN ENVIRONMENTAL IMPACT ASSESSMENT PROCESSES

    Central authorities expressed aspirations to expand public 
participation in decisions about environmental assessments of 
projects. In fall 2012, central authorities issued guiding 
opinions\124\ or measures\125\ stipulating that specified 
agencies should establish social risk assessment mechanisms 
during the preparatory phase of domestic large-scale fixed 
asset investment projects, reportedly at least in part to 
reduce the number of environmental mass incidents.\126\ During 
the reporting period, MEP announced plans in August 2012\127\ 
and in January 2013\128\ to clarify processes for public 
participation and expanding transparency of EIA processes. The 
2012-2017 MEP work plan for key projects, however, did not 
appear to contain concrete mechanisms to achieve these goals, 
although it included the aims of ``mobilizing'' and 
``proactively guiding participation by all people.''\129\ 
Despite authorities' declarations of support for participation, 
considerable barriers remain.\130\

                  III. Development of the Rule of Law


                             Civil Society


                              Introduction

    Chinese non-governmental organizations (NGOs) number in the 
millions,\1\ and illustrate wide breadth and increasingly 
complex levels of organization on issue advocacy,\2\ social 
service provision,\3\ and shared interests,\4\ as well as in 
business promotion\5\ and farming.\6\ Government-registered 
social organizations\7\ (shehui zuzhi) make up a subset of 
Chinese NGOs: Official statistics reported 491,961 registered 
social organizations in 2012, an increase of approximately 13.3 
percent over 2011,\8\ that consist of 268,000 social 
associations (shehui tuanti) such as membership groups and 
trade associations, 221,000 non-governmental, nonprofit 
organizations (minban feiqiye danwei) such as community 
development and social services providers, and 2,961 
foundations (jijinhui) such as public and private organizations 
engaged in charitable and philanthropic work.\9\ Many Chinese 
NGOs are registered as business entities or remain unregistered 
due to obstacles in registering as social organizations,\10\ 
yet they play an active role in promoting the public interest 
in environmental protection, protecting the rights of migrant 
workers, and fighting health-based discrimination, among other 
advocacy issues.\11\ Chinese scholars estimate between 3 to 10 
million unregistered NGOs.\12\ Nor is civil society activity 
found only within organizations: During the 2013 reporting 
year, the Commission observed individuals and informal networks 
engaging the government on issues of public interest.\13\

                      Government and Party Control

    The Chinese government and Communist Party continue to 
acknowledge the developing role of social organizations in 
China, yet an April 2013 Party document leaked in August 
portrays civil society and public participation as threats to 
the government and Party for which stricter ideological control 
is necessary.\14\ The senior leadership's public policy 
statements during the 2013 reporting year repeat earlier policy 
guidance in the government and Party's approach toward control 
of social organization growth: The government should (1) ``lead 
in the healthy and orderly development of social 
organizations''\15\ and (2) accelerate the ``establishment of 
Party leadership, government responsibility, societal support 
and public participation.''\16\ A Central Party School 
researcher, however, anticipates a potentially more dynamic 
relationship between the government and non-governmental 
organizations based on the 18th Party Congress report's 
instruction that the government and Party ``accelerate the 
formation of a system of modern social organizations in which 
government functions are separated from those of social 
organizations, rights and responsibilities are clearly 
delineated, and social organizations exercise autonomy in 
accordance with the law.''\17\
    Chinese scholars and civil society advocates describe a 
system of ``graduated control,'' or differentiated treatment by 
the government, based upon where an organization falls along a 
spectrum of political sensitivity, which can range from ``low-
level'' and ``infrequent'' monitoring to ``ruthlessly 
crack[ing] down'' on operations, activities and 
individuals.\18\ One aspect of this control can be illustrated 
by efforts to build up the presence of the Communist Party 
(``Party-building'') to guide and monitor social 
organizations,\19\ and potentially exert influence that might 
compromise organizations' decisionmaking and activities.\20\ 
For example, in May 2013, Foshan city, Guangdong province, 
issued draft regulations on government procurement of services 
that suggest authorities will give preference in awarding 
contracts to social organizations which meet Party-building 
requirements, such as having Party members among the 
organizations' full-time staff or establishing an internal 
Party branch.\21\ [See Section III--Institutions of Democratic 
Governance for further examples.]
    Civil society organizations that the government perceives 
as politically sensitive face government interference under the 
guise of ``stability maintenance,'' particularly during 
anniversaries and large-scale political events.\22\ In advance 
of the 18th National Congress of the Chinese Communist Party in 
November 2012\23\ and the annual meetings of the National 
People's Congress and Chinese People's Political Consultative 
Conference in March 2013, international media reported on 
heightened surveillance, harassment, and extralegal detention 
of civil society advocates.\24\ Chinese and international human 
rights organizations have drawn attention to a government 
crackdown on citizen rights' advocates beginning in spring 
2013.\25\ Chinese authorities reportedly have detained or 
arrested dozens of rights advocates, including Xu Zhiyong, a 
leading proponent of the New Citizens' Movement, a loose 
network of individuals who advocate for legal and political 
reforms, human rights, and social justice.\26\ On July 18, 
officials from the Beijing municipality Bureau of Civil Affairs 
(BCA) shut down the Transition Institute, a think tank 
established in 2007 that researches public interest issues such 
as the taxation system, industry regulation, public 
participation, and economic development.\27\ The BCA officials 
reportedly shut down the think tank because it had not 
registered with the BCA, although the think tank's founder 
noted that it was registered as a business entity, similar to 
many other think tanks in China.\28\
    During the 2013 reporting year, several civil society 
organizations sought legal or administrative redress in 
response to government harassment. A public interest 
organization that works on anti-discrimination advocacy won a 
legal case in March 2013 against a hotel in Suzhou city for 
breach of contract due to the cancellation of the group's hotel 
reservation for a public interest lawyers' workshop in the 
spring of 2012.\29\ Local police acknowledged that they had 
demanded the cancellation because of a ``stability 
maintenance'' order.\30\ In contrast, in December 2012, a court 
in Shenzhen municipality dismissed a lawsuit brought by a 
migrant workers' services organization in Shenzhen that had 
been forcibly evicted from multiple locations during a 
crackdown on labor NGOs in 2012.\31\ The Beijing Shouwang 
Church, an unregistered Protestant house church in Beijing 
municipality, took legal action against the Beijing police in 
late September 2012 for preventing the congregation's worship 
for more than one year, but the Beijing government's legal 
affairs office reportedly rejected the church's application for 
administrative review.\32\

                Regulatory and Legislative Developments

    The central government's institutional reform plan 
(fang'an) issued in March\33\ has scheduled the release of 
long-awaited revisions\34\ to the three key administrative 
regulations on social organization management\35\ for the end 
of 2013.\36\ An official from the Ministry of Civil Affairs 
(MCA) stated in an interview that the revisions will address 
registration,\37\ lay out a division of functions between the 
government (e.g., inter-bureau coordination, policy and 
guidance, oversight, and legal enforcement) and social 
organizations (e.g., sector-based codes of conduct), and 
encourage self-
regulation and mutual support.\38\ MCA officials reportedly are 
encouraging local governments to formulate implementation 
policies in advance of the forthcoming revisions.\39\ In July, 
the Yunnan provincial government, for example, released drafts 
of four regulatory documents that include provisions to forbid 
current government officials to be the ``responsible person'' 
(i.e., a person with legal responsibilities) for non-
governmental organizations; bar the government from engaging in 
public fundraising, except in case of natural disaster; and 
increase the number of representatives from social 
organizations in Yunnan's provincial leadership entities, e.g., 
the Party, the People's Congress, and the People's Consultative 
Congress.\40\
    At the March 2013 session of the National People's Congress 
(NPC), Vice Premier Ma Kai announced that direct registration--
whereby social organizations would no longer require a 
government or quasi-governmental sponsor for registration as 
required under the current regulations (``dual 
management'')\41\--will be permitted for business and industry 
associations, technical and scientific organizations, 
charities, and rural and urban community development groups 
under the government's institutional reform plan.\42\ The plan, 
moreover, may allow the registration of more than one social 
organization per jurisdiction working on a particular 
industry,\43\ which is a limitation on registration in the 
current regulations.\44\ Yet Ma added that ``[p]olitical and 
legal groups, religious groups, and foreign NGOs with [a] 
domestic representative office . . . will continue to be 
required to secure sponsor organizations'' for the existing 
dual management process.\45\ The exclusion of political and 
legal groups\46\ from the new policy appears to contradict 
comments made in March 2012 by Minister of Civil Affairs Li 
Liguo on equal treatment for human rights and political groups 
in the registration and review process.\47\ The Chinese 
government's limitations on NGO registration contravene the 
right to freedom of association provided in China's 
constitution and in Article 22 of the International Covenant on 
Civil and Political Rights, which provides that: ``No 
restrictions may be placed on the exercise of [the freedom of 
association] other than those which are prescribed by law and 
which are necessary in a democratic society in the interest of 
national security or public safety . . .''\48\
    Local authorities began experiments in direct registration 
of social organizations in Shenzhen municipality and Guangdong 
province in 2009, and in 19 provinces\49\ in 2011,\50\ though 
reports suggest that the implementation of direct registration 
has been uneven. Guangdong reportedly experienced a 15.1 
percent increase in the number of social organizations by the 
end of 2012,\51\ but a university survey in 2012 of public 
interest organizations that were newly registered as non-
governmental, nonprofit organizations in Guangdong found that 
many faced increased taxes, expenses, and administrative work 
following registration.\52\ While some of these post-
registration challenges may derive from ``growing pains'' 
related to NGO operational capacity,\53\ local civil affairs 
bureaus reportedly face challenges due to insufficient staffing 
and regulatory guidance on how to process applications for 
registration.\54\ According to NGO advocates, some bureaus are 
not registering public interest groups and service providers 
because of a ``conservative''\55\ approach in authorizing 
registration. For example, organizations working on rural 
women's rights, service provision to persons with developmental 
disabilities, and outreach to populations at greater risk of 
HIV/AIDS infection, have reported being unable to directly 
register as social organizations in Beijing despite Beijing 
municipality's early participation as a direct registration 
site.\56\

          GOVERNMENT PROCUREMENT OF PUBLIC SERVICES FROM NGOS

    Over the past decade, several Chinese municipalities 
launched experiments in government procurement of public 
services (e.g., elder care, community corrections, and poverty 
alleviation) from social organizations,\57\ reflecting the 
Chinese government's efforts to transfer some government 
functions to NGOs\58\ and develop a ``non-state social service 
sector.''\59\ Local governments have begun formulating project 
catalogues and budgets, selection and oversight processes, and 
standards of transparency and accountability.\60\ The piecemeal 
development of the regulatory framework, however, has 
negatively affected the implementation and supervision of 
procurement processes and service delivery, according to some 
commentators.\61\ In a May 2013 speech, Premier Li Keqiang 
urged officials to ``increase efforts to purchase basic public 
services, and promptly formulate and introduce guiding opinions 
for the government to purchase services from social 
organizations.''\62\ The central government reportedly has 
allocated about 200 million yuan (US$32.08 million) to procure 
services and training from NGOs in 2013, approximately the same 
amount of funding allocated in 2012.\63\
    Some civil society advocates have raised concerns that 
direct registration and the expansion of government procurement 
of public services from NGOs will not necessarily benefit 
grassroots (caogen) NGOs. NGOs unable to register as social 
organizations are ineligible for government contracts, tax-
exempt status, and public fundraising, among other possible 
benefits of formal registration.\64\ Some grassroots NGOs in 
Foshan city, Guangdong province, for example, believe that 
eligibility requirements for government procurement projects 
are too difficult to meet, current policy is unclear, and 
communication channels are lacking.\65\ In an analysis of 60 
grassroots organizations in 2011 and 2012, scholars from the 
Chinese University of Hong Kong speculated that grassroots NGOs 
may be ``further marginalized by losing out in the new game of 
competing for official funding and support.''\66\

                   DEVELOPMENTS IN THE CHARITY SECTOR

    Chinese legal scholars have identified ``conspicuous 
problems'' in the regulatory framework for charities, despite 
central and local government efforts in 2012 to improve 
transparency and accountability.\67\ These problems, such as a 
lack of a ``[legal] definition and identity'' for charitable 
organizations or uniform legal rules in fundraising; haphazard 
approaches to handling volunteers and their services; a high 
threshold for charitable organizations' registration and 
management; and a tax exemption policy without supporting 
mechanisms for implementation,\68\ have hindered the 
development of the charitable sector.\69\ Registration for 
religious organizations, many of which have made charitable 
contributions to disaster relief and poverty alleviation, 
remains a ``forbidden zone,'' according to a scholar from Anhui 
province.\70\ A national charity law has been on the State 
Council and National People's Congress legislative agenda for 
several years\71\ and China's state-run media agency Xinhua 
reported in December 2012 that a draft is under way.\72\ The 
Commission has not observed official announcements on a 
timeframe for the Charity Law's completion. Wang Zhenyao, 
director of the Philanthropy Research Institute at Beijing 
Normal University, has recommended that the draft be made 
public in order to benefit from public opinion.\73\
    Reports of financial mismanagement at the Red Cross of 
China\74\ and other state-run foundations\75\ since the 2008 
earthquake in Sichuan province have diminished the credibility 
of China's 
government-run charitable organizations,\76\ and prompted calls 
for stronger regulation of the charitable sector.\77\ Official 
statistics from the Ministry of Civil Affairs China Charity 
Donation Information Center showed an almost 20 percent overall 
reduction in charitable donations in 2012 from 2011.\78\ 
Despite information disclosure regulations, 60 percent of 
China's foundations reportedly ``failed to make public their 
annual financial report, although they are legally obliged to 
do so.''\79\ In the wake of the April 2013 earthquake in Ya'an 
city, Sichuan province, public debates on the lack of 
transparency and accountability in state-run charities 
reportedly led to the Hong Kong Legislative Council's initial 
refusal to donate HKD100 million (US$12,887,300)\80\ to relief 
efforts and to Hong 
Kongers'launchofa``NotOneCent''campaign.\81\ ``Non-
governmental'' charitable organizations have benefited from 
government-run charities' credibility crisis;\82\ the Global 
Times, an English-language arm of China's state-run media 
agency Xinhua, reported that in the days after the Ya'an 
earthquake, donations to a private foundation were more than 10 
million yuan (US$1,592,230) compared to 30,000 yuan (US$4,783) 
donated to the Red Cross of China.\83\

------------------------------------------------------------------------
                    HIV/AIDS Grassroots Organizations
-------------------------------------------------------------------------
  China's grassroots (caogen) organizations working on HIV/AIDS issues
 are of particular relevance during the 2013 reporting year in light of
 the cessation of major international funding from The Global Fund to
 Fight AIDS, Tuberculosis and Malaria (The Global Fund) at the close of
 2013.\84\ Grassroots NGOs have played a significant role in China in
 HIV/AIDS health prevention and control, and the protection of the legal
 rights of people living with HIV/AIDS (PLWHA), yet UNAIDS reported in
 2012 that ``to date, only a small fraction of HIV [NGOs] have legal
 status.''\85\ Although The Global Fund spurred the Chinese government
 to engage more deeply with domestic civil society organizations over
 the past decade,\86\ resulting in some successful cooperation between
 the government and grassroots organizations,\87\ grassroots HIV/AIDS
 NGOs reportedly are ``heavily dependent'' on funding from international
 organizations.\88\ The government gradually has acknowledged the
 importance of HIV/AIDS non-governmental organizations,\89\ notably on
 November 26, 2012, when then-Vice Premier Li Keqiang met with HIV/AIDS
 NGO representatives\90\ and reportedly stated ``non-governmental
 organizations, `grassroots organizations,' best understand the
 conditions and needs of PLWHA'' and play an ``indispensable'' role in
 the fight against HIV/AIDS.\91\ An October 2012 report from The Global
 Fund, however, raised concerns that ``there is still no strong and
 sustainable national funding mechanism or technical support for
 ensuring service quality is in place to support CBOs [community-based
 organizations].''\92\
------------------------------------------------------------------------

                 Institutions Of Democratic Governance


    18th Party Congress: Leadership Transition, Party Constitution 
                         Amendment, and Reform

    During the Commission's 2013 reporting year, a major 
political power succession took place within the Chinese 
Communist Party, which happens at 10-year intervals.\1\ This 
top leadership transition, timed with the 18th National 
Congress of the Chinese Communist Party in November 2012, 
involved the extensive turnover of power to a slightly younger 
cohort\2\ of political leaders in a non-transparent process.\3\ 
Propaganda officials dictated how news outlets were to cover 
the 18th Party Congress and the transfer of power.\4\ Some 
international scholars called the transition peaceful and 
orderly, and a ``step forward in the institutionalization of 
Chinese leadership politics.''\5\ The transition took place 
amid factional struggles and a scandal resulting in the 
downfall of Bo Xilai, a high-ranking official many believed was 
in contention for a top leadership position, and his wife Gu 
Kailai.\6\ [See Corruption and Anticorruption Measures in this 
section.] One international scholar believes the transition 
denoted an advance in the ``institutionalization of leadership 
politics,'' and reinforced collective leadership at the top of 
the Party, meaning Xi Jinping--Party General Secretary, 
President, and Chairman of the Military Commission--is the 
``first among equals.''\7\ The former Prime Minister of 
Australia believed that Xi would be a strong leader and a key 
political player.\8\ Xi appeared to act quickly in the first 
few months to move forward with his agenda and leadership 
style,\9\ although some sources point out that retired Chinese 
leaders still may play a role in political affairs.\10\
    At the 18th Party Congress, Party leaders also passed a 
resolution\11\ to amend the Party constitution to include the 
following revisions, among others:\12\

        <bullet> To uphold ``scientific development'' (former 
        Party General Secretary Hu Jintao's socio-economic 
        theory that ``puts people first and calls for 
        comprehensive, balanced and sustainable 
        development''\13\) as a guiding ideology;
        <bullet> To adhere to the idea that ``the fundamental 
        reason behind all of China's achievements and progress 
        since the reform and opening up policy was introduced 
        is, in the final analysis, that the Party has blazed a 
        path of socialism with Chinese characteristics . . . 
        .''

    Some international and Chinese scholars, journalists, and 
commentators believe that under the new echelon of top leaders, 
the prospects for political reform in China appear dim, 
although there is some variance of opinion,\14\ and some note 
that it is too early to tell.\15\ In speeches, leaders have 
defended the Party's hold on power,\16\ promised to combat 
corruption,\17\ pledged to make the government more 
efficient,\18\ and vowed to promote the ``China dream,'' which 
includes ``national rejuvenation'' and a more pronounced role 
for China in the international arena.\19\ While early in 2013, 
Xi Jinping reportedly emphasized that ``no organization or 
individual should be put above the constitution and the 
law,''\20\ he also ``demanded a return to traditional Leninist 
discipline'' in a talk in a private setting.\21\ Xi said the 
Party should be able ``to put up with'' criticism and correct 
mistakes,\22\ but he also urged officials not to ``allow any 
subversive errors when it comes to the fundamental 
issues.''\23\ An international scholar pointed out that 
authorities appear not to have abandoned the Party's 
fundamental Maoist approach to divide people into the vague and 
undefined categories of friend or foe and to deal with 
perceived enemies harshly,\24\ which may lead to the abuse of 
authority.

       New Government Leadership and Government Structural Reform

    After the fall 2012 political power transition within the 
Party, the new cohort of top Party leaders assumed the most 
senior posts in the government in March 2013 during the 
National People's Congress (NPC) and the Chinese People's 
Political Consultative Conference (CPPCC) meetings (Two 
Sessions).\25\ During the Two Sessions, Chinese leaders also 
passed a plan for a major reshuffling of State Council 
institutions and a ``transformation of government functions,'' 
after the plan had been approved by the Party Central Committee 
in November 2012.\26\ Authorities provided numerous reasons for 
the restructuring, including:\27\

        <bullet> Improving government efficiency;
        <bullet> Reducing special transfer payments and fee 
        collections;
        <bullet> Eliminating overlapping government 
        responsibilities;
        <bullet> Pushing forward reform toward ``super 
        ministries''; and
        <bullet> Reducing micro-management.

    At the heart of the reforms are plans to complete 72 
changes to government functions and other tasks,\28\ which are 
assigned to specific government organizations for completion 
over the next three to five years.\29\ As part of the plan, 
authorities made the following major changes:\30\

        <bullet> Reduced by 2 the number of ministries and 
        commissions that make up the State Council, bringing 
        the total to 25, and reduced by 2 the number of other 
        ministerial-level organs;
        <bullet> Separated the commercial and non-commercial 
        aspects of managing China's railways;
        <bullet> Merged the National Population and Family 
        Planning Commission and the Ministry of Health into a 
        new National Health and Family Planning Commission;
        <bullet> Established the State Food and Drug 
        Supervision and Management Administration; and
        <bullet> Reorganized the National Oceanic 
        Administration and the National Energy Administration.

                Reach of the State Under One-Party Rule

    China's political institutions continue to be out of 
compliance with the standards defined in Article 25 of the 
International Covenant on Civil and Political Rights,\31\ which 
China has signed and declared an intention to ratify;\32\ nor 
have Chinese officials complied with the standards outlined in 
the Universal Declaration of Human Rights.\33\
    The Communist Party continues to dominate political 
affairs, allows only limited independent political 
participation, and exerts control over the courts,\34\ the NPC, 
the media,\35\ and state leadership appointments.\36\ For 
example, this can be seen at the NPC meeting this year where 
nearly 35 percent of the delegates concurrently held positions 
as leading officials in the Party and government.\37\ In 
another example, in September 2012, centralParty leaders issued 
anopinion thatmay further strengthen the Party's control over 
human resources affairs.\38\ Party-building and Party-loyalty 
efforts focused on accounting firms,\39\ the People's Armed 
Police,\40\ and Internet companies, such as the Sina 
Corporation.\41\
    The Party also exerts influence over non-governmental and 
quasi-governmental organizations, including university student 
groups,\42\ in part through its Party-building efforts within 
these organizations, as well as by establishing its own Party-
organized social organizations.\43\ For example, various Party 
organizations in different locations over the last few years 
have established, are running, or are supporting ``social 
affairs (or work) committees''\44\ and Party-sponsored 
community service and nonprofit organizations, among 
others.\45\ Through these organizations, the Party may engage 
in the monitoring of groups and activities.\46\
    In addition, developments suggest the Party is exerting 
more effort to control the ideological realm. In April, the 
Office of the Party Central Committee reportedly issued a 
circular to select Party officials around China, titled 
Document No. 9, which discusses seven ideological threats to 
the Party's grip on power that ``require attention.''\47\ These 
threats are preaching about Western constitutional democracy, 
universal values, civil society, neo-liberalism, journalistic 
freedom, historical nihilism--negating the history of the 
Party, and questioning socialism with Chinese 
characteristics.\48\ One account of the circular said officials 
need to ``cut off at the source channels for disseminating 
erroneous currents of thought.''\49\ In addition, state media 
suggests that the Party believes China is in a ``struggle in 
the ideological sphere''\50\ and the Party has initiated an 
ideological ``rectification campaign.''\51\ For example, in May 
and August 2013, a wave of articles, which one report 
considered to have some powerful political backing, appeared on 
the Internet attacking constitutionalism, after other articles 
were posted that had more positive views of 
constitutionalism.\52\ Also in May, Party and education leaders 
jointly issued an additional opinion with 16 requirements to 
``strengthen the ranks of young university teachers and improve 
(their) ideological and political qualities . . . .''\53\

          ``Social Stability'' and ``Social Risk Assessments''

    In August 2012, to prevent and resolve ``social 
contradictions''\54\ and apparently to ``maintain social 
stability,'' the National Development and Reform Commission 
(NDRC) issued a provisional measure that stipulates central and 
provincial authorities should establish and utilize ``social 
stability risk assessment'' mechanisms to investigate and 
analyze the ``social stability'' risks associated with large-
scale fixed asset investment projects that affect the interests 
of citizens.\55\ If implemented, the NDRC will not examine and 
approve projects assessed to be of medium or high social 
risk.\56\ In Nanjing municipality, enterprises reportedly do 
their own assessment reports for their own projects and send 
them to the government for examination and approval.\57\ 
Nanjing officials reportedly conduct these assessments for 700 
to 900 ``incidents'' or projects annually.\58\

              Official Actions Against Democracy Advocates

    During the reporting period, authorities detained or 
arrested more than 60 citizens\59\ exercising their right to 
freedom of speech, association, and assembly, some of whom 
reportedly associated themselves with the New Citizens' 
Movement. The New Citizens' Movement is a loose network of 
individuals promoting a broad range of ideas including legal 
and political reforms, human rights, and social justice.\60\ 
Some people who associated themselves with the Movement 
assembled in groups for meals and engaged in advocacy or 
peaceful demonstration activities.\61\ One international non-
governmental organization linked these detentions and arrests 
with a notice issued by the Supreme People's Procuratorate 
calling on prosecutors to combat activities construed as 
``unlawful assembly and gathering a crowd to disrupt social 
order,'' which are associated with the ``goal of subverting 
state power.''\62\ Another news article linked these detentions 
to the central Party Document No. 9 issued in April, which 
reportedly says activists ``have stirred up trouble about 
disclosing officials' assets, using the Internet to fight 
corruption, media controls and other sensitive topics, to 
provoke discontent with the party and government.''\63\ [See 
Official Corruption and Anticorruption Measures in this 
section.] Authorities also continued to harass, detain, and 
impose prison sentences on democracy advocates and their 
families who exercised their rights to freedoms of speech, 
assembly, association, and demonstration. A list of 
representative cases follows:

        <bullet> Democracy advocate Zhu Yufu, jailed in 
        February 2012 for ``inciting subversion of state 
        power,'' reportedly is seriously ill, but authorities 
        have denied him access to medicine and turned down 
        repeated requests for medical parole.\64\ Reports also 
        suggest Zhu may be being abused in prison.\65\ 
        Officials reportedly have kept some members of Zhu's 
        family under surveillance, and harassed and warned them 
        to keep quiet about Zhu's case.\66\
        <bullet> In December 2012, villagers Song Jianzhong, 
        Luo Yonghong, Ma Zhizheng, Hao Sen, Zhao Daqing, Zhao 
        Zhenhai, and Ma Huimei lost their court case contesting 
        their sentences imposed in relation to 2010 protests 
        against alleged voting irregularities in a village 
        committee election in Raolefu, a village in suburban 
        Beijing. On appeal, however, the court reduced their 
        prison terms.\67\ Authorities also changed the charges 
        against them from ``gathering to assault state organs'' 
        to the lesser crime of ``gathering to disturb social 
        order.''\68\
        <bullet> In October 2012, court officials sentenced Cao 
        Haibo, an Internet cafe owner in Kunming municipality, 
        Yunnan province, who founded an online discussion group 
        that discussed democracy and constitutionalism, to 
        eight years in prison on the charge of ``subversion of 
        state power.''\69\ The case involved questionable legal 
        procedures and officials warned Cao's wife not to talk 
        about her husband's situation.\70\
        <bullet> Authorities indicted democracy advocate Liu 
        Benqi in March 2013 on the charge of ``inciting 
        subversion of state power.''\71\ Reports asserted he 
        had been tortured and abused while in detention.\72\ In 
        addition, authorities ordered Liu Benqi's ex-wife, Liu 
        Ying, to serve one year of reeducation through labor, 
        possibly in connection to her conversations with 
        international media about her ex-husband's case.\73\

    In addition, officials restricted the movements of, 
harassed, or beat up several other democracy and human rights 
advocates, including Guizhou province resident Liao 
Shuangyuan.\74\ Yao Lifa, an independent elections advocate, 
went missing on March 4 for more than 13 days and authorities 
reportedly have restricted his movements since February 
2013.\75\ Officials also intimidated or detained family members 
of other advocates, including Zhang Anni, the daughter of 
democracy activist Zhang Lin.\76\ In July, authorities 
criminally detained Zhang Lin on charges of ``gathering a crowd 
to disrupt social order'' and questioned him about who was 
organizing and funding rights defender activities on behalf of 
his daughter.\77\ In August, authorities formally arrested 
Zhang on the same charge.\78\

          Party and Government Accountability and Transparency


           LIMITS OF TRANSPARENCY AND OPEN GOVERNMENT AFFAIRS

    While top Chinese leaders have voiced support for greater 
transparency, citizens continue to face challenges in accessing 
government information. In a speech in March 2013, Premier Li 
Keqiang reportedly raised six demands for anticorruption and 
clean government work for 2013, including open government 
affairs and making the exercise of authority transparent.\79\ 
Some ministries and local governments reportedly improved 
communications with the public,\80\ but according to one 
Chinese research institute's report, several problems persist, 
including officials who do not proactively offer information, 
do not provide information when rules say they should, or do 
not provide full information.\81\ In October 2012, the Ministry 
of Foreign Affairs (MFA) denied a request under the Open 
Government Information (OGI) regulation regarding China's 
report for its UN Human Rights Council Universal Periodic 
Review (UPR) in October 2013, saying some of the information 
was ``secret'' and not ``suited'' to be released.\82\ Beijing 
resident Shi Hongping tried to sue the MFA, but the Beijing 
Municipal No. 2 Intermediate People's Court refused to accept 
the case on the grounds that submitting a report for the UPR is 
a diplomatic action involving foreign affairs and legislation 
dictates that courts ``cannot accept litigation brought by 
citizens against state actors [in areas] such as national 
defense and foreign affairs.''\83\ Authorities also reportedly 
harassed, prevented from leaving their homes, or detained 
individuals seeking information about the formulation of 
China's second National Human Rights Action Plan (2012-2015) 
(HRAP).\84\ Authorities eventually lifted the restrictions on 
all of these individuals except for Peng Lanlan, whom they 
formally arrested on charges of ``obstructing official 
business'' and held in detention for a year before releasing 
her.\85\ Peng surveyed petitioners for their opinions about 
human rights conditions in China and collected signatures as 
part of the OGI application for information about the HRAP.\86\

                          PEOPLE'S CONGRESSES

    Towards the end of 2012, China completed the most recent 
cycle of direct elections for local people's congress 
delegates. During the election cycle the Internet provided a 
new platform for ``independent candidates,'' but authorities 
took a variety of steps to suppress their election efforts. At 
the lowest administrative levels, including the county and 
township levels, citizens, in theory, directly vote for 
people's congress delegates.\87\ Above this level, people's 
congresses elect delegates for congresses at the next highest 
level.\88\ Ten or more citizens may nominate ``independent 
candidates,'' otherwise known as ``voter-nominated'' 
candidates.\89\ One source reported that during the 2011-2012 
election cycle there were thousands of independent candidates, 
known partially because of their presence on the Internet.\90\ 
Reports surfaced, however, noting that authorities in some 
locations did not accept the nomination of some of these 
``voter-nominated'' candidates.\91\ In this election cycle, as 
in previous cycles, large numbers of ``independent candidates'' 
were winnowed out, leaving few to compete in elections.\92\ One 
source considers this cycle of elections the darkest (for 
independent candidates) in the last 30 years.\93\
    In 2012, Chinese authorities issued a draft decision with 
numerical requirements related to characteristics of delegates 
to be chosen for the 12th National People's Congress in March 
2013. Four main goals reportedly guided the numerical 
requirements for the composition of the Congresses' delegates: 
equity among rural and urban areas, equity among regions, 
equity among nationalities, and that they ``should be broadly 
representative'' and ``include an appropriate number of 
grassroots, worker, farmer, and intellectual delegates.''\94\ 
The resulting composition of the Congress's delegates roughly 
mirror the requirements.\95\ For example, the numerical 
requirement for delegates from minority populations was 
``around 12 percent'' with at least one delegate from each of 
China's official minority groups.\96\ After selection processes 
were completed, nearly 13.7 percent of the delegates were from 
minority populations and all 55 of the minority groups were 
represented.\97\ The percentages of ``front line workers and 
farmers, and professional and technical delegates'' were slated 
to increase, which they did by over 5 and 1.2 percent 
respectively.\98\
    This year at the meetings of the National People's Congress 
and Chinese People's Political Consultative Conference (Two 
Sessions), delegates voted on six work reports and overall, 
there were 30 percent more negative votes for all of the 
reports combined than there were last year.\99\ In one example, 
out of 2,948 delegates, 120 delegates abstained from voting on 
the work report of the Supreme People's Court and 605 delegates 
voted to oppose the report, which received the highest number 
of negative votes during the Two Sessions.\100\

                       GOVERNMENT ACCOUNTABILITY

    Authorities are drafting or have passed national laws that 
regulate when and how citizens may hold authorities 
accountable. Work to discuss and revise the PRC Administrative 
Litigation Law\101\ is ongoing and the State Council work plan 
for the upcoming year reportedly includes the task of reviewing 
the PRC Administrative Reconsideration Law.\102\
    During the reporting period, the State Council issued plans 
to improve top-down accountability systems and strengthen 
administrative enforcement of laws and regulations. In April, 
the State Council issued an opinion that included the goal of 
``improving a system to constrain and supervise the operation 
of authority.''\103\ The State Council also reported that it 
took steps to strengthen evaluations of local governments and 
officials, incorporated administrative work into the 
comprehensive government work assessment systems, and 
``guided'' local governments and ministries to introduce 
administrative ``enforcement responsibility systems.''\104\
    In line with these goals, central authorities continued to 
take steps to promote the use of only legal and standardized 
``red letter documents'' (``hongtou wenjian'')--rules issued by 
local governments.\105\ During 2012, the State Council 
reportedly registered 1,393 regulations and rules of local 
congresses, governments, and departments, and took steps to 
resolve conflicts between the local rules and major laws.\106\ 
One international academic report noted that citizens have the 
right to request a review of legislative conflicts, but 
relevant agencies have not formally responded to such 
requests.\107\ In some cases, however, central authorities 
reportedly have reacted by amending the regulations in 
question, by making statements in the media about the requests, 
or by inviting the citizens who made the request to participate 
in consultations.\108\

            OFFICIAL CORRUPTION AND ANTICORRUPTION MEASURES

    Chinese leaders\109\ and citizens\110\ continued to express 
concern about official corruption, and some foreign and local 
business people reportedly believe China's legal environment 
has deteriorated.\111\ Top leaders link the Party's legitimacy 
to its ability to manage corruption. In a speech to the Central 
Committee on November 19, 2012, President Xi Jinping said, 
``facts have shown that if corruption becomes increasingly 
severe, it will ultimately lead to the ruin of the Party and 
the country!'' and ``[c]orruption was among the most important 
of the reasons'' for ``social contradictions'' leading to 
social unrest and the collapse of political power in some 
countries.\112\ The corruption case against Bo Xilai, former 
Party Central Political Bureau member and Chongqing Party 
Secretary, who was charged with bribery, embezzlement, and 
abuse of power, opened for trial on August 22, 2013.\113\ On 
September 22, 2013, the Jinan Municipal People's Intermediate 
Court, Shandong province, sentenced Bo to life imprisonment, 
deprivation of political rights for life, mandatory return of 
specified stolen monies, and confiscation of all personal 
assets.\114\ Authorities reportedly denied Bo his choice of a 
lawyer and he was held by Party disciplinary officials for 
months under shuanggui,\115\ a form of arbitrary detention 
utilized by the Party to investigate officials.\116\
    Authorities continued to highlight anticorruption efforts 
and to issue regulatory measures to curb corruption. Premier Li 
Keqiang reportedly indicated that anticorruption work would be 
included in local government, administrative departments, and 
leading cadre performance evaluations.\117\ In addition, in 
November 2012, procuratorate provisions included a new standard 
for the crime of ``especially serious bribery,'' and stipulated 
heavier sentences for this crime.\118\ In January 2013, two 
judicial interpretations issued jointly by the Supreme People's 
Court and the Supreme People's Procuratorate came into force; 
one regarding the application of the law in handling criminal 
bribery cases,\119\ and the other an interpretation on the 
handling of dereliction of duty criminal cases, which 
reportedly clarified the standards for categorizing specific 
crimes.\120\

 SUPPRESSION OF WHISTLEBLOWERS & DEMANDS FOR DISCLOSURE OF OFFICIALS' 
                                 ASSETS

    During the reporting period, officials have detained a 
number of online corruption whistleblowers\121\ and have had 
little tolerance for citizens and non-governmental 
organizations in various locations that have expressed demands 
for disclosure of officials' assets. As of mid-September 2013, 
officials in various locations reportedly had detained nearly 
60 people who participated in petition drives or demonstrations 
calling for more transparency of government officials' 
finances, who called for the release of detained advocates, or 
who engaged in other related political advocacy efforts, and 
authorities formally arrested 29 of those people.\122\ 
Information on some of those cases follows:

        <bullet> In November 2012, a group of petitioners sent 
        a letter to former Premier Wen Jiabao asking him to 
        disclose his financial assets. At least one of the 
        petitioners reported being locked in a detention center 
        in Beijing municipality for 40 days for signing the 
        letter.\123\
        <bullet> In December 2012, more than 2,000 people took 
        to the streets of Shanghai municipality calling on 
        officials to disclose their personal assets, income, 
        and investments, as well as those of their spouses and 
        children.\124\
        <bullet> Officials detained anticorruption advocates 
        Sun Hanhui and Ding Jiaxi,\125\ who reportedly were 
        involved in collecting thousands of signatures for an 
        open letter to the National People's Congress, urging 
        members of the Party Central Committee to disclose to 
        the public their family assets to reassure citizens 
        that they are not corrupt.\126\ Authorities reportedly 
        censored the letter and deleted blog postings by the 
        organizers.\127\
        <bullet> In late March, Beijing officials criminally 
        detained anticorruption advocates Hou Xin, Yuan Dong, 
        Zhang Baocheng, and Ma Xinli on suspicion of ``unlawful 
        assembly'' for unfurling a banner with anticorruption 
        slogans in a busy shopping area along with a number of 
        other people.\128\ Authorities later released Hou Xin 
        on bail pending investigation.\129\
        <bullet> In April, officials detained other 
        anticorruption advocates, including Zhao Changqing and 
        Wang Yonghong, on suspicion of ``unlawful 
        assembly,''\130\ and Li Wei, another anticorruption 
        advocate.\131\ In response, individuals and a group 
        issued open letters demanding that authorities release 
        the anticorruption advocates.\132\ In addition, public 
        security personnel detained former independent people's 
        congress candidate Liu Ping and in July indicted Liu on 
        charges of ``unlawful assembly,'' ``gathering a crowd 
        to disrupt public order,'' and ``using a cult to damage 
        enforcement of the law.''\133\

    Despite strong public demand for disclosure of officials' 
finances,\134\ some of China's elite appear to be resistant to 
moving forward with requirements for top officials to disclose 
their assets.\135\ One member of the Central Commission for 
Discipline Inspection reportedly pointed to the extensive 
wealth of officials and noted that ``to publicize any of them 
would lead to public anger.''\136\ A limited number of 
locations have initiated pilot projects wherein officials 
disclose their assets within the Party or to their own 
organizations, but rarely to the public at large.\137\ Many 
local governments and administrative institutions also have not 
disclosed information on expenditures for overseas trips, 
official receptions and entertainment, and vehicles, otherwise 
known as the ``three publics,'' despite requirements to do 
so.\138\

                         Commercial Rule of Law

    During the Commission's 2013 reporting year, the Chinese 
government and Communist Party continued to promote and develop 
a state-led growth model, 12 years after China's accession to 
the World Trade Organization (WTO) and 5 years after the onset 
of the global financial crisis. Authorities encouraged national 
coordination of overseas investment activity, including 
targeted investment in industries they deemed strategic, and 
China's state-owned enterprises continued to play a leading 
role in that investment activity. Authorities implemented 
banking reforms, although state-owned enterprises maintained 
preferential access to loans. China's currency--the yuan--
appreciated during the past year, but it remained undervalued, 
and the Chinese government continued to interfere with the 
exchange rate. The United States and other countries continued 
to pursue action against China through WTO mechanisms, and 
China faced allegations of trade violations, including 
antidumping and countervailing duties and subsidies 
inconsistent with its WTO obligations. Intellectual property 
rights violations, including state-authorized theft of trade 
secrets, remained a significant issue of concern this past 
year, and problems with the rule of law contributed to ongoing 
food and product safety problems, including the cross-border 
movement of hazardous and illegal products.

                          Outbound Investment

    China's outbound investment continued to grow during the 
Commission's 2013 reporting year, setting new records. Based on 
data provided by the Heritage Foundation, China's outbound 
investment grew by an average of 39.59 percent per year from 
2005 to 2012,\1\ reaching a record annual high of US$79.7 
billion in 2012.\2\ Some sources reportedly estimated different 
outbound investment figures for 2012;\3\ for example, the 
Economist Intelligence Unit estimated a figure of US$115 
billion in 2012.\4\ According to the same Economist 
Intelligence Unit report, from 2011 to 2012, China's outbound 
investment (excluding tax havens) jumped from 16th place to 3rd 
place worldwide, behind the United States and Japan.\5\
    The Chinese government and Communist Party continued to 
encourage state-led coordination of overseas investment 
activity as part of a policy authorities commonly referred to 
as the ``go out'' strategy (``zou chu qu'' zhanlue). As GDP 
growth in China has largely slowed since 2007,\6\ authorities 
have encouraged Chinese businesses to invest abroad in part as 
a way to increase opportunities for Chinese enterprises to move 
up the value chain.\7\ In a January 2013 Caixin article, Yi 
Gang--Deputy Governor of the People's Bank of China\8\ and 
Administrator of the State Administration of Foreign 
Exchange\9\--said that the ``go out'' strategy ``was elevated 
to the level of national strategy'' between 2000 and 2008, and 
that, beginning in 2008, the ``go out'' strategy became a way 
to guard against the vulnerability of China's export-led growth 
model and take advantage of cheaper, post-financial crisis 
assets in developed countries.\10\ Yi added that Chinese 
enterprises should ``be low profile . . . and minimize the 
appearance of government involvement to avoid policy resistance 
and barriers to approval.''\11\ The 12th Five-Year Plan on 
National Economic and Social Development (``12th Five-Year 
Plan'')--a Party-initiated plan that outlines broadly, inter 
alia, strategies for economic growth for the period from 2011 
to 2015\12\--outlined the ``go out'' strategy at the national 
level.\13\ State-owned enterprises continued to account for the 
majority of China's overseas investment,\14\ although the role 
of private enterprises reportedly increased last year.\15\
    The government and Party also continued to emphasize the 
importance of investment abroad in certain ``strategic'' 
industries this past year. The 12th Five-Year Plan noted the 
importance of ``fostering the development of strategic emerging 
industries,''\16\ such as new information technology and new 
energy,\17\ as well as the importance of overseas investment 
generally in energy resources, technology, and ``famous 
brands.''\18\ According to state-run broadcaster China Central 
Television, Chen Yuan, Vice Chairman of the Chinese People's 
Political Consultative Conference,\19\ Chairman and Party 
Secretary of the China Development Bank,\20\ and head of the 
China Enterprises Investment Association (CEIA)\21\--an 
organization that operates under the ``guidance and 
supervision'' of the Chinese Academy of Social Sciences and the 
Ministry of Civil Affairs\22\--emphasized at a December 2012 
CEIA meeting that sectors such as energy, mining, electricity, 
telecommunications, petrochemicals, and machinery manufacturing 
were important.\23\ Chinese enterprises reportedly continued to 
seek investment opportunities abroad in at least some of the 
above sectors this past year.\24\ In 2012, China invested more 
money overseas in the energy sector than in any other 
sector,\25\ followed by the metals sector.\26\ In April 2013, 
China signed a free-trade agreement with Iceland,\27\ a 
development that some sources described as an attempt to gain 
access to energy reserves, rare earths and other minerals, and 
strategic shipping lanes.\28\
    State-controlled organizations continued to offer 
preferential terms for investment and export project financing 
in locations around the world this past year. In July 2012 
testimony before the U.S. Senate Foreign Relations Committee, 
Fred Hochberg, Chairman and President of the Export-Import Bank 
of the United States, argued that the state-owned Export-Import 
Bank of China\29\ (``China Exim Bank'') was able to create an 
uneven ``playing field'' in Africa in part by offering 
financing on ``terms and conditions better than commercial 
banks''\30\ and by requiring ``preferential access to natural 
resources'' in the host country in return for financing.\31\ 
This past year, construction continued on a reported US$5 
billion project to build a city near Minsk, the capital of 
Belarus, for which Chinese authorities agreed to provide low-
interest financing.\32\ Both China Exim Bank and the China 
Development Bank--which operates under the State Council\33\--
reportedly agreed to provide financing for the project.\34\ One 
former Belarusian official reportedly said that Chinese 
authorities agreed to provide low-interest financing on the 
condition that half the value of that financing was spent on 
Chinese materials, technology, or labor.\35\ The same former 
official said, ``The loan conditions are highly advantageous . 
. . . It doesn't make sense for us to even consider financing 
from other banks.''\36\

                           Financial Reforms

    This past year, authorities took measures to reform China's 
banking system, which continued to give state-owned enterprises 
(SOEs) preferential access to loans. For example, in late July 
2013, the People's Bank of China (PBOC) removed a lower limit 
on loan interest rates,\37\ but it maintained an upper limit on 
interest rates payable to depositors.\38\ Chinese and non-
Chinese media noted that this combination of policies could 
allow SOEs--who reportedly already enjoyed preferential access 
to loans compared to smaller borrowers\39\--to secure cheaper 
loans, as well as reduce the profits of smaller banks and 
constrain the ability of households to accumulate savings.\40\ 
Faced with difficulties securing financing, some smaller 
businesses in recent years reportedly have relied on lending 
outside the regulated banking system,\41\ some forms of which 
are referred to as ``shadow banking.''\42\ A May 2013 report by 
JPMorgan Chase Bank, Hong Kong, estimated ``shadow banking'' in 
China at 69 percent of GDP and 27 percent of bank assets at the 
end of 2012.\43\ In some cases, small businesses that turned to 
loans outside the regulated banking system paid significantly 
higher rates than those with access to formal bank loans.\44\ 
For example, one financial analyst estimated that small 
businesses pay a premium of 20 to 30 percent over a base 
lending rate, while state-owned borrowers typically borrow at a 
discount from the base rate.\45\
    In a July 28, 2013, announcement, the National Audit Office 
said that it would ``organize auditing offices nationwide to 
conduct auditing of government debt.''\46\ The announcement did 
not elaborate further, but according to international media 
sources, the audit may reflect official concerns over debt held 
by SOEs and local governments,\47\ which some sources estimated 
at US$2 trillion to US$3 trillion.\48\ From late 2008 to August 
2013, authorities reportedly made ``[US$6.2] trillion of bank 
loans available to state-owned companies and local 
governments.''\49\ In one case, in early August 2013, the 
state-owned Agricultural Bank of China reportedly agreed to 
lend 250 billion yuan (US$40.8 billion)\50\ to Shanghai 
municipality.\51\ According to unidentified sources reportedly 
within the Shanghai city government, the loan was part of an 
``unofficial economic stimulus'' that would support projects 
including the establishment of a Disneyland theme park and a 
``free-trade zone'' in Shanghai.\52\ Many local governments, 
which retain 25 percent of value-added tax revenue--75 percent 
goes to the central government--and whose officials depend on 
economic growth for political success, reportedly continued to 
borrow heavily to finance local development projects without 
devising plans to avoid default.\53\

                        Foreign Exchange Control

    The yuan remained undervalued this past year, despite an 
increase in its value and calls by Chinese authorities to 
liberalize exchange rate controls. In an April 2013 report, the 
U.S. Treasury Department said that the yuan ``remains 
significantly undervalued''\54\ and that the ``process of 
exchange rate adjustment remains incomplete,''\55\ although the 
yuan reportedly appreciated against the U.S. dollar this past 
year.\56\ The Wall Street Journal reported that the yuan 
appreciated 1 percent against the U.S. dollar in 2012 and 1.6 
percent from January to May 2013.\57\ In a report to the 
National People's Congress in March 2013, then-Premier Wen 
Jiabao said that the government ``should steadily carry out 
reforms to make interest rates and the RMB exchange rate more 
market-based,''\58\ but exchange rate policy this past year did 
not necessarily reflect a more market-based approach. For 
example, the U.S. Treasury Department cited accumulations of 
foreign exchange reserves--reportedly US$34.7 billion in the 
fourth quarter of 2012\59\ and US$128 billion in the first 
quarter of 2013\60\--as signs of increasing Chinese government 
intervention in the exchange rate.\61\ In March 2013, Xia Bin, 
then-adviser to the People's Bank of China (PBOC)--the central 
bank of China, which operates under the State Council\62\--
reportedly called for ``more power [for the PBOC] in the areas 
of some short-term and specific monetary policy adjustment and 
operations,''\63\ although he did not call for a more market-
based approach in these areas.
    This past year, the State Administration of Foreign 
Exchange (SAFE) issued the Circular Regarding Improving and 
Adjusting Policies on the Management of Direct Investment and 
Foreign Exchange,\64\ which loosened several aspects of foreign 
exchange control in an attempt to facilitate trade and overseas 
investment.\65\ For example, the circular removed the 
requirement that SAFE approve the establishment of several 
kinds of foreign exchange accounts,\66\ as well as the 
requirement that SAFE approve the reinvestment of yuan revenues 
by foreign investors.\67\ The circular also allowed foreign-
invested enterprises to make loans to their foreign parent 
companies under certain conditions.\68\

                 China in the World Trade Organization

    During this reporting year--more than a decade after 
China's accession to the World Trade Organization (WTO)\69\--
China continued to face allegations from multiple countries of 
violations of its WTO obligations. Since its accession to the 
WTO, China has been a respondent in 31 WTO Dispute Settlement 
cases;\70\ this past year, the WTO found in favor of U.S. 
claims in three cases that the United States brought against 
China, as well European Union claims in one case that the 
European Union brought against China.\71\ WTO panels found that 
the Ministry of Commerce (MOFCOM) had imposed antidumping and 
countervailing duties on U.S. grain-oriented electrical steel, 
U.S. chicken products, and European x-ray inspection equipment 
in ways that were inconsistent with China's WTO 
obligations.\72\ China did not appeal the findings in the 
chicken case or x-ray case this past year;\73\ in the steel 
case, the WTO's Appellate Body upheld the panel report's 
findings in October 2012 upon appeal.\74\ A July 2013 MOFCOM 
statement announced MOFCOM had ``re-examined some procedures 
and physical issues, on which the original antidumping measures 
and the original countervailing measures were based.''\75\ The 
statement announced a revised set of antidumping and 
countervailing duties on U.S. grain-oriented electrical steel, 
but it did not identify or discuss the ``issues'' in the 
original examination.\76\ In July 2012, the United States 
requested consultations with China regarding antidumping and 
countervailing duties affecting U.S. automobiles,\77\ while a 
case involving alleged subsidies to Chinese manufacturers of 
automobiles and automobile parts remained in consultations.\78\ 
In February 2013, the WTO Secretary General composed a panel to 
consider the claims of the United States.\79\ In another case, 
a WTO panel found that China acted inconsistently with its WTO 
obligations by maintaining China UnionPay--a Chinese company--
as a monopoly supplier for yuan-denominated transactions with 
bank cards issued in China and used in Hong Kong and Macau.\80\ 
According to the WTO, China reported in July 2013 that it had 
``fully implemented'' the findings in this case, but the United 
States ``did not agree'' and ``would monitor and review China's 
actions.''\81\
    China did not fulfill its notification obligations under 
the WTO's Agreement on Subsidies and Countervailing Measures 
(SCM Agreement) this past year. The SCM Agreement requires WTO 
members to submit notifications of their subsidies by June 30 
of each year,\82\ but a February 2013 joint report by the 
Office of the United States Trade Representative and the U.S. 
Department of Commerce found that China's most recent 
notification was in 2011, covering the period 2005 to 2008, and 
was incomplete.\83\ On September 17, 2012, the United States 
requested consultations with China regarding alleged subsidies 
in the automobile and auto parts industries,\84\ including 
``grants, reduced corporate income tax rates and low-cost 
lending from state-owned banks.''\85\
    Non-Chinese companies continued to report an unequal 
business environment in China when competing against Chinese 
companies. For example, according to a US-China Business 
Council (USCBC) report from 2012, some U.S. companies surveyed 
by the USCBC reported their Chinese competitors ``may have 
preferential access from licensing approvals to government 
contracts to financing and other areas, giving them a 
competitive edge.''\86\ According to the USCBC, ``nearly half'' 
of U.S. companies surveyed reported that they ``see 
protectionism in the way the administrative licensing process 
is managed,''\87\ some reported that they experienced unequal 
enforcement of laws when compared to Chinese companies,\88\ and 
some reported they continued to face market access barriers in 
the investment and service sectors.\89\ Such practices appear 
to violate the core WTO principle of national treatment.\90\ 
[See Antitrust Developments below for discussion of possible 
unequal treatment in pricing and bribery investigations.]

------------------------------------------------------------------------
            Fifth U.S.-China Strategic and Economic Dialogue
-------------------------------------------------------------------------
  Chinese officials reportedly announced plans to undertake several new
 commercial reforms during the fifth U.S.-China Strategic and Economic
 Dialogue (``the Dialogue''), held in July 2013. For example, Chinese
 officials pledged to negotiate a bilateral investment treaty (BIT) with
 the United States and address market access issues in the
 negotiations.\91\ Chinese officials reportedly committed to negotiate
 using a ``negative list'' approach, through which China would begin
 with a ``presumption of openness'' and then create exceptions to open
 market access on a case-by-case basis.\92\
------------------------------------------------------------------------


------------------------------------------------------------------------
       Fifth U.S.-China Strategic and Economic Dialogue--Continued
-------------------------------------------------------------------------
  In addition, Chinese officials reportedly pledged to include
 ``substantial improvements'' in their next offer to join the Government
 Procurement Agreement (GPA), which they said they planned to submit
 later in 2013.\93\ The GPA is a WTO agreement designed to increase
 transparency in government procurement, prevent protection of domestic
 products or suppliers, and prevent discrimination against foreign
 products or suppliers.\94\ The United States, the European Union, and
 other parties to the GPA previously called for several improvements to
 China's proposal to join the GPA, including coverage for state-owned
 enterprises, expanded coverage for businesses below the central-
 government level, and lower thresholds for the application of non-
 discrimination provisions.\95\ During the Dialogue, Chinese officials
 reportedly said ``they would be responsive to U.S. requests [. . .] to
 increase the coverage of sub-central entities in [the] new offer, and
 [. . .] might lower the thresholds above which the GPA's non-
 discrimination disciplines apply.''\96\ According to a May 2013 Global
 Times article, the total government procurement market in China was an
 estimated US$1 trillion, growing at over 20 percent per year.\97\
------------------------------------------------------------------------

                      Intellectual Property Rights

    The Chinese government continued to take steps to improve 
intellectual property rights (IPR) protections this past year, 
but weak protection and enforcement of IPR continued to 
contribute to IPR violations. This past year, the State 
Intellectual Property Office outlined broad guidelines for 
protecting intellectual property (IP) as part of its 2013 
National Intellectual Property Strategy,\98\ and the number of 
civil and criminal IPR cases, as well as county-level courts 
that can hear IPR cases, reportedly increased this past 
year.\99\ IPR violations remained widespread, however. In a May 
2013 report, the Commission on the Theft of American 
Intellectual Property noted that efforts to improve IPR 
protections were too slow to prevent increasing theft\100\ and 
that Chinese policies encouraging the acquisition of technology 
created incentives for IPR violations.\101\ According to the 
same report, China accounted for an estimated 50 to 80 percent 
of international IP theft.\102\ This year, China remained on 
the Priority Watch List of the Office of the United States 
Trade Representative (USTR),\103\ where it has been every year 
since 2006.\104\ Countries on the Priority Watch List are the 
``focus of increased bilateral attention'' regarding problems 
with ``IPR protection, enforcement, or market access for 
persons relying on intellectual property.''\105\ USTR noted 
this past year that ``sales of IPR-intensive goods and services 
in China remain disproportionately low when compared to sales 
in similar markets that provide a stronger environment for IPR 
protection and market access.''\106\
    Theft of trade secrets, in some cases reportedly authorized 
by the Chinese government, continued this past year. USTR noted 
in its 2013 Special 301 Report that the theft of trade secrets 
is a growing area of concern\107\ and that such theft continued 
to occur in China through circumstances involving ``departing 
employees, failed joint ventures, cyber intrusion and hacking, 
and misuse of information submitted to government entities for 
purposes of complying with regulatory obligations.''\108\ U.S. 
information security company Mandiant noted in a February 2013 
report that, since 2006, an organization operating under the 
People's Liberation Army that the Mandiant report referred to 
as ``Unit 61398''\109\ stole ``hundreds of terabytes of data 
from at least 141 organizations''\110\--of which 115 were 
located in the United States\111\--from a ``wide range of 
industries.''\112\ The 12th Five-Year Plan on National Economic 
and Social Development designated several industries as 
``strategic emerging industries,''\113\ and the Mandiant report 
noted that, of the seven industries in which Mandiant observed 
cyber-attacks from Unit 61398, four matched those ``strategic 
emerging industries.''\114\ [See Outbound Investment above for 
more information.]
    Chinese officials continued to use technology transfer as a 
precondition for market access this past year. According to a 
2013 report by the American Chamber of Commerce, in the 
People's Republic of China, 35 percent of companies surveyed 
reported they were ``still concerned about de facto technology 
transfer as a requirement for market access.''\115\ The 
percentage of survey respondents that said de facto 
requirements for technology transfer were increasing rose from 
27 percent in 2012 to 37 percent in 2013.\116\ Using technology 
transfer as a precondition for certain forms of market access 
violates commitments in China's Protocol of Accession to the 
WTO\117\ and commitments that China reportedly made during the 
23rd U.S.-China Joint Commission on Commerce and Trade in late 
December 2012.\118\
    The Chinese government continued to revise a wide variety 
of IP laws and regulations this past year as part of a process 
that USTR referred to as a ``sweeping legal reform 
effort.''\119\ In January 2013, the State Council amended the 
PRC Copyright Law Implementing Regulations,\120\ the 
Information Network Broadcasting Rights Protection 
Regulations,\121\ and the Computer Software Protection 
Regulations,\122\ increasing the administrative penalties 
authorized under each.\123\ The State Intellectual Property 
Office (SIPO), National People's Congress Standing Committee, 
and National Copyright Administration reportedly continued to 
deliberate on draft amendments to the PRC Patent Law,\124\ PRC 
Trademark Law,\125\ and PRC Copyright Law,\126\ respectively, 
this past year. The draft amendment to the Trademark Law 
contains provisions that require trademark applicants to adhere 
to the ``principle of good faith,''\127\ and it increases 
maximum damages in cases where violations are deemed 
``serious.''\128\ The draft amendment to the Patent Law expands 
the role of administrative authorities responsible for managing 
patents. For example, under the proposed amendment, 
administrative agencies would have the authority to investigate 
cases of patent violations that ``allegedly disrupt market 
order,''\129\ as well as additional authority to fine 
perpetrators in certain cases.\130\ According to SIPO, granting 
additional authority to administrative authorities would, among 
other things, help reduce ``litigation fatigue''\131\ and high 
costs\132\ associated with bringing patent infringement cases 
to court. Some commentators, however, expressed concern that 
the amendment would shift authority away from the courts to 
administrative authorities. For example, Liu Chuntian, 
Professor at the Renmin University of China Law School,\133\ 
reportedly said the proposed amendments might ``hurt the 
balance of power and the rule of law. . . . If the 
administrative agencies are given more power, then there is 
some concern that the courts might become more like an 
administrative agency instead of acting as an independent 
judiciary.''\134\ Other examples of legislative reform include 
SIPO's November 2012 publication for public comment of a draft 
of the Service Invention Regulations\135\--designed to clarify 
and protect the rights of inventors and their employers\136\--
and the State Administration for Industry and Commerce's August 
2012 release of the fifth draft of the Guide on Antimonopoly 
Enforcement in the Field of Intellectual Property Rights (the 
Guide).\137\ The Commission did not observe an official draft 
of the Guide, but according to the Legal Daily, the fifth draft 
of the guide, inter alia, prohibits price fixing of products 
with intellectual property by competing companies.\138\

------------------------------------------------------------------------
                  Amendment to the Civil Procedure Law
-------------------------------------------------------------------------
  An amendment to the PRC Civil Procedure Law took effect on January 1,
 2013,\139\ and some expert commentators noted it could bring greater
 clarity, transparency, and efficiency to commercial litigation and
 arbitration in China.\140\ For example, the amended law requires courts
 to write out judgments and rulings and explain in writing the reasoning
 behind them;\141\ the amended law also provides that the public may
 look up judgments and rulings, but not those that concern state
 secrets, trade secrets, or personal privacy.\142\ In addition, the
 amended law provides that parties to a dispute may apply to a court for
 measures designed to preserve assets and evidence prior to litigation
 or arbitration.\143\ The amended law also allows parties to apply to a
 court to freeze the assets of another party or order another party to
 take or not take certain actions in the event that a judgment will be
 difficult to enforce or that one party's interests may be harmed;\144\
 and it allows the courts to take such measures on their own, if
 necessary.\145\
------------------------------------------------------------------------

                         Antitrust Developments

    This past year, the Ministry of Commerce (MOFCOM) published 
for public comment two new draft regulations--the Provisions on 
Additional Restrictive Conditions for the Concentration of 
Business Operators (``Restrictive Conditions Provisions'')\146\ 
and the Interim Provisions Regarding the Application of 
Standards for Simple Cases of Concentration of Business 
Operators (``Simple Cases Provisions'')\147\--both reportedly 
designed to clarify and streamline merger review and approval 
processes.\148\ This past year, expert commentators continued 
to criticize the merger review and approval processes for being 
long and for advancing industrial policy,\149\ and noted that 
the two new provisions had shortcomings. For example, law firm 
Clifford Chance noted in an April 2013 analysis that it is 
unclear whether or not the Restrictive Conditions Provisions 
will shorten the merger review process, given that in at least 
two recent cases reviews have exceeded statutory limits.\150\ 
The Simple Cases Provisions outline criteria by which MOFCOM 
may or may not classify certain kinds of mergers as ``simple 
cases,''\151\ but, as law firm Herbert Smith Freehills noted in 
a May 2013 analysis, the Simple Cases Provisions do not provide 
guidelines for the treatment of cases after they are classified 
as ``simple cases.''\152\
    This past year, the National Development and Reform 
Commission (NDRC) imposed penalties on companies operating 
outside of China, reportedly the first time it had done 
so.\153\ On January 4, 2013, the NDRC reported that it had 
fined six companies a total of 353 million yuan (US$56.5 
million)\154\ for participating in a cartel (``LCD Cartel'') to 
fix prices of liquid crystal display (LCD) screens sold into 
the Chinese market.\155\ According to the NDRC report, during 
the period from 2001 to 2006, representatives of the six 
companies--LG and Samsung of South Korea and Chimei, AU 
Optronics, Chunghwa Picture Tubes, and Hannstar of Taiwan--met 
in Taiwan and South Korea a total of 53 times to exchange 
information on the worldwide LCD market and to set prices for 
LCD screens.\156\ The NDRC reported that it brought the action 
against the LCD Cartel under the 1998 PRC Pricing Law\157\--
which covers collusion to manipulate market prices\158\--rather 
than the 2008 PRC Antimonopoly Law,\159\ because the 
Antimonopoly Law did not come into effect until 2008,\160\ 
after the activities in question allegedly took place.
    The NDRC action raised certain issues concerning the NDRC's 
adherence to the letter of the law. For example, Article 2 of 
the Pricing Law provides that it shall apply to pricing acts 
carried out inside China.\161\ The Pricing Law does not forbid 
extraterritorial application, but it does not provide for such 
extraterritoriality. In addition, under the PRC Administrative 
Punishment Law, the applicable statute of limitations within 
which authorities would have needed to take action is two 
years,\162\ but the NDRC brought this action long after the 
conduct occurred. Regarding when the limitation period begins 
if the conduct has not been discovered, antitrust lawyer Marc 
Waha reportedly said, ``At least in other legal systems, when 
one speaks of a two year limitation period you are talking 
about a four year maximum period. That is how it would work in 
other jurisdictions, but the rules are not clear in 
China.''\163\ Finally, the NDRC reportedly announced that the 
members of the LCD Cartel ``proposed'' corrective actions 
reportedly similar to those the Ministry of Commerce (MOFCOM) 
has imposed in merger filing cases under the Antimonopoly 
Law.\164\ As a January 7, 2013, commentary by O'Melveny & Myers 
noted, however, the NDRC had not issued measures that 
``[govern] the enforcement of remedial commitments in the 
merger context.''\165\
    China's pricing and bribery investigations in subsequent 
cases involving dairy suppliers and drug manufacturers 
reportedly have raised concerns over unequal treatment in favor 
of Chinese businesses and, in particular, large state-owned 
enterprises. In September the President of the European Union 
Chamber of Commerce in China, David Cucino, said, ``In pricing 
investigations, some of the chamber's member companies believe 
there is disproportion in how foreign companies are covered on 
this issue when compared with Chinese rivals.''\166\ Jeremie 
Waterman of the U.S. Chamber of Commerce, said that Chinese 
authorities had initiated cases against Chinese companies, but 
that ``nearly all large State-owned enterprises have been 
exempt from enforcement actions to date.''\167\ [For more 
information on unequal treatment of Chinese and non-Chinese 
businesses, see China in the World Trade Organization in this 
section.]

                        Consumer Product Safety

    During this past year, food safety scandals continued to 
emerge in different parts of China. For example, the Ministry 
of Public Security reported that, over the course of a three-
month campaign that began on January 25, 2013, public security 
authorities took into custody 904 people allegedly involved in 
various ``meat product offenses,'' including the sale of fake 
meat products.\168\ Later reports from Chinese and 
international media revealed that those involved were suspected 
of selling rat, fox, and mink meat disguised as mutton and 
beef, among other offenses.\169\ In another case, authorities 
in Guangzhou municipality, Guangdong province, reportedly found 
that over 44 percent of rice and rice products they tested 
contained unsafe levels of cadmium.\170\ Authorities at the 
Guangzhou Municipal Food and Drug Supervision and Management 
Bureau reportedly said that it was ``not convenient to reveal'' 
which brands carried the affected rice.\171\ In another case, 
the Nanchang County People's Court, in Nanchang municipality, 
Jiangxi province, reportedly sentenced six people to up to five 
years in prison for disguising used cooking oil--which 
reportedly can contain carcinogens--as new and selling it.\172\ 
Similarly, a court in Guangdong reportedly sentenced three 
people for buying and reselling used oil.\173\
    Hazardous and illegal Chinese products continued to cross 
borders into other markets during this past reporting year. In 
May 2013 testimony before the Commission, Steven Solomon, 
Associate Director for Global Operations and Policy in the 
Office of Global Regulatory Operations and Policy of the U.S. 
Food and Drug Administration, reported that 3 percent of food, 
8 percent of animal food, and 5 percent of drugs and biologics 
imported into the United States came from China.\174\ In one 
case, according to a report from U.S. Immigration and Customs 
Enforcement (ICE), authorities in New York reportedly charged 
five individuals and five corporations after they allegedly 
imported ``hazardous and counterfeit'' toys from China into the 
United States.\175\ One ICE official reportedly said, ``The 
people and companies involved in this illegal trade not only 
allegedly infringed on intellectual property rights, they 
placed the lives of innocent children in danger. . . . They 
allegedly sold toys with high lead content and cheap knock offs 
with substandard parts that break easily and pose a choking 
hazard.''\176\ According to an October 2012 Der Spiegel 
article, hazardous Chinese products--including glass chips 
among pumpkin seeds, maggots in pasta, cadmium in dried 
anchovies, contaminated strawberries, and antibiotics in 
shrimp--reached a variety of European Union countries in late 
2012.\177\
    In addition, concerns over contaminated milk powder in 
mainland China\178\ prompted mainland Chinese travelers to 
bring illegal quantities of milk powder from Hong Kong back to 
mainland China. Between March 1 and April 23, 2013, authorities 
in Hong Kong reportedly took into custody 879 people allegedly 
involved in smuggling milk powder from Hong Kong into mainland 
China.\179\ According to an April 2013 Bloomberg article, on 
March 1, Hong Kong authorities limited the amount of milk 
powder that travelers may take out of Hong Kong after concerns 
about the quality of milk powder in mainland China prompted 
large numbers of Chinese travelers to buy milk powder in Hong 
Kong and take it back to mainland China.\180\ According to 
central government news agency Xinhua, the State Council 
announced plans to increase safety measures in China's milk 
industry.\181\ Under the plan, the government reportedly would 
adopt new quality standards and would ``intensify the crackdown 
on milk powder-related violations.''\182\

                           Access to Justice


                              Introduction

    Chinese citizens face formidable obstacles in seeking 
remedies to government actions that violate their legal rights 
and constitutionally protected freedoms. International human 
rights standards require effective remedies for official 
violations of citizens' rights. Article 8 of the Universal 
Declaration of Human Rights states that ``Everyone has the 
right to an effective remedy by the competent national 
tribunals for acts violating the fundamental rights granted him 
by the constitution or by law.''\1\ Article 2 of the 
International Covenant on Civil and Political Rights (ICCPR), 
which China has signed but not yet ratified, requires that all 
parties to the ICCPR ensure that persons whose rights or 
freedoms are violated ``have an effective remedy, 
notwithstanding that the violation has been committed by 
persons acting in an official capacity.''\2\

                              Legal Reform

    During the 2013 reporting year, the Commission observed key 
leadership changes in the Chinese Communist Party and 
government's legal sectors, and official statements on the 
potential reform of controversial mechanisms within the legal 
system. The new Supreme People's Court (SPC) President Zhou 
Qiang has academic and professional training in legal affairs, 
unlike his predecessor, Wang Shengjun, who had a security 
background.\3\ The new Secretary of the Communist Party Central 
Committee's Political and Legal Affairs Commission (PLAC), Meng 
Jianzhu, does not have a concurrent government appointment as 
head of public security or a seat among the seven-member 
Standing Committee of the Central Committee's Political Bureau 
as did his predecessor, Zhou Yongkang, which suggests a 
downgrade of the PLAC after a decade of powerful growth.\4\ At 
a January 2013 meeting of the PLAC, four areas of legal reform 
for the coming year were announced: The justice sector,\5\ the 
reeducation through labor (RTL) system,\6\ citizen petitioning, 
and the household registration (hukou) system.\7\ [For 
information on hukou system reform, see Section II--Freedom of 
Residence and Movement.]

                         JUSTICE SECTOR REFORM

    While China's Constitution provides for the exercise of 
judicial independence in Article 126, the Constitution's 
preamble establishes the leadership of the Communist Party over 
all other institutions.\8\ An academic report on justice sector 
reform during the latest round of judicial reforms (2008-2012) 
concludes that ``fundamentally, there has been no progress in 
judicial fairness, credibility, or authority'' and ``judicial 
independence has deteriorated,'' even though there was some 
progress on technical matters, such as court fee guarantees, 
uniformity of adjudication, disclosure, and regulatory 
constraints.\9\ Achieving judicial independence, it goes on to 
say, will require ``clarifying'' (liqing) the relationship 
between the judiciary and the Party.\10\ The State Council's 
October 2012 white paper on judicial reform in China states 
that the ``objectives of China's judicial reform'' include 
``ensur[ing] that the people's courts and people's 
procuratorates exercise adjudicative power and procuratorial 
power fairly and independently'' and ``establish[ing] an 
impartial, efficient and authoritative socialist judicial 
system,''\11\ but makes no mention of the Communist Party or 
the role of the Party's Political and Legal Affairs Commission 
(PLAC) over the courts.\12\ References to judicial independence 
in the departing Supreme People's Court (SPC) president Wang 
Shengjun's work report in March,\13\ led at least one 
commentator to suggest that judicial independence may be a key 
agenda item for future judicial reform.\14\ The focus of the 
next round of judicial reforms will likely be spelled out in 
the SPC's next five-year plan covering 2014-2019\15\ as well as 
in forthcoming PLAC announcement(s) on its institutional 
priorities for legal reform.\16\

                       REEDUCATION THROUGH LABOR

    The reeducation through labor (RTL) system operates 
entirely outside of the judicial system and is influenced but 
not constrained by the PRC Criminal Law. RTL is a system of 
administrative punishment that enables law enforcement 
officials to incarcerate Chinese citizens at RTL centers for a 
maximum initial period of three years, with the possibility of 
an extension of up to one year.\17\ Chinese and international 
legal commentators state that RTL not only violates China's 
international human rights obligations,\18\ but also violates 
its own laws and constitutional protections.\19\ With a 
reported 350 RTL detention centers nationwide and estimates of 
more than 100,000 detainees,\20\ authorities use the RTL system 
to detain petitioners seeking redress for official abuses, 
practitioners of the Falun Gong spiritual movement,\21\ and 
minor offenders--including drug users and sex workers--whose 
alleged misconduct is not a criminal offense under Chinese 
law.\22\
    During the 2013 reporting year, high-profile individual 
cases\23\ and an expose on harsh conditions at a women's RTL 
center in Liaoning province\24\ focused national attention in 
China on the use of RTL and strengthened calls for its reform 
and even abolition.\25\ Although several provinces reportedly 
began to ``transition'' RTL centers into compulsory drug 
treatment facilities,\26\ to discontinue issuing RTL 
sentences,\27\ and to operate rehabilitation and corrections 
pilot sites,\28\ the government and Party's position on RTL 
reform, nevertheless, remains ambiguous. PLAC Secretary Meng 
Jianzhu's reported comment in January to ``halt'' RTL has 
shifted to vague plans for reform,\29\ as when Premier Li 
Keqiang told a March press conference in Beijing that plans to 
reform China's RTL system ``might be unveiled'' by the end of 
the year.\30\ Similarly, the government's submission to the UN 
Human Rights Council for the October 2013 Universal Periodic 
Review affirms an intention to reform RTL but provides no 
timeframe for reform.\31\ The vagueness of official 
pronouncements has raised concerns that extralegal detention 
may continue, albeit under a different name.\32\

                          CITIZEN PETITIONING

    The petitioning, or xinfang (letters and visits), system 
exists to provide a channel, outside court challenges, for 
citizens to appeal government, court, and Communist Party 
decisions and to present their grievances.\33\ Citizens often 
turn to petitioning as a means to seek redress for a wide range 
of disputes--such as forced evictions and land 
expropriation,\34\ wage arrears,\35\ unpaid pensions to 
military veterans,\36\ and unpaid compensation required under 
health-related regulations\37\--due to institutional weaknesses 
in the judiciary and limits on citizens' ability to air 
grievances. A prominent Chinese economist reportedly estimated 
20 million petitioners in 2012, including repeated filings and 
petitions at various levels of government.\38\ Chinese 
authorities, however, announced an 11-percent decrease in the 
total number of petitions during 2012 at a teleconference of 
the heads of Letters and Visits Bureaus in January 2013, a 
continuation of an eight-year decrease from 2005, when 12.6 
million petitions were officially reported.\39\
    Prior to and during the 18th Party Congress in November 
2012, the Commission observed nationwide ``petitioning 
stability maintenance work'' (xinfang weiwen gongzuo) to 
achieve ``zero petitioning,'' particularly targeting potential 
petitioners' travel to Beijing.\40\ While some localities 
advised officials to mobilize into work teams\41\ and resolve 
petitioner grievances with more service-oriented attitudes,\42\ 
some official guidance also suggested 24-hour surveillance of 
long-time petitioners and other ``stability maintenance'' 
measures.\43\ A Chinese rights advocate described the control 
of petitioners for the 18th Party Congress as ``comparatively 
much bigger than in the past,''\44\ borne out by reports of 
evictions from ``petitioner villages'' in Beijing,\45\ 
detention in ``black jails,''\46\ and RTL detention for several 
Shanghai petitioners\47\ and rights advocates, including Mao 
Hengfeng,\48\ Cui Fufang,\49\ Tong Guojing,\50\ Shen 
Yongmei,\51\ and Shen Lianman.\52\ Caixin Media, a domestic 
Chinese news organization known for its investigative work, 
reported on the beating death of a petitioner from Henan 
province as he was taken from Beijing by provincial ``black 
security guards'' on the eve of the Party Congress.\53\
    Even with increased repression of petitioners throughout 
the fall of 2012\54\ and in early 2013 prior to the annual 
meetings of the National People's Congress (NPC) and China 
People's Political Consultative Conference (CPPCC) (Two 
Sessions) in March,\55\ government officials at the Two 
Sessions nevertheless discussed possible reform of the 
petitioning system. Former CPPCC head Jia Qinglin called for 
establishing a mechanism to end ``abnormal petitioning,''\56\ a 
broad term that denotes repeated petitioning, disruptive 
conduct, multiple participants, or ``leap-frogging 
administrative levels'' to complain to higher level 
officials.\57\ One CPPCC official recommended hearings or 
assessments for complex cases.\58\ Petitioning bureaus and 
other agencies with petitioning offices appear to be 
strengthening prohibitions against intercepting ``ordinary'' 
petitioners, characterizing interceptions as an ``incorrect 
practice'' (cuowu zuofa).\59\ In May, Chinese state media 
reported that, beginning in March 2013, the State Letters and 
Visits Bureau had temporarily suspended issuance of the monthly 
ranking of provinces based on the number of ``abnormal 
petitioning'' incidents each month.\60\ A journalist from 
Yunnan province, however, illustrated the lack of central-local 
policy coordination by reporting on the Anhui Provincial 
Communist Party Standing Committee's recommendation to start 
``abnormal petitioning'' rankings for Anhui county- and 
district-level governments on June 1, 2013.\61\

            Harassment of Human Rights Lawyers and Defenders

    The Commission observed instances of government 
harassment,\62\ detention,\63\ and physical violence against 
weiquan (rights defense)\64\ lawyers during the 2013 reporting 
year, continuing a pattern of human rights violations against 
rights defenders documented in prior years.\65\ During the 
annual license renewal period in May 2013, the Beijing Justice 
Bureau reportedly did not renew licenses of approximately 10 
law firms and possibly dozens of weiquan lawyers,\66\ many of 
whom have provided legal counsel in religious freedom, state 
security, and reeducation through labor cases.\67\ 
International news media also reported that authorities have 
shut down the blogs of lawyers involved in rights defense,\68\ 
and placed at least one lawyer on a government list of so-
called ``key persons'' (zhongdian renyuan, i.e., a person of 
``key'' interest to security authorities).\69\ Local law 
enforcement also reportedly detained and beat a group of 
weiquan lawyers who went to Sichuan province in May 2013 to 
investigate an allegedly illegal detention center.\70\
    The Commission continues to monitor the cases of Chinese 
lawyers and rights defenders detained and imprisoned for their 
human rights advocacy, such as Xu Zhiyong,\71\ Gao 
Zhisheng,\72\ and Ni Yulan.\73\ In July 2013, authorities 
detained and subsequently arrested prominent rights advocate, 
Xu Zhiyong, reportedly in connection with his advocacy of 
citizen rights and official transparency.\74\ Gao Zhisheng, 
well-known for his legal defense of marginalized citizens and 
religious practitioners,\75\ is serving a prison term in Akesu 
(Aksu) prefecture, Xinjiang Uyghur Autonomous Region, on the 
charge of ``inciting subversion of state power.''\76\ His 
brother and father-in-law visited him in January 2013 at the 
prison--the first time authorities permitted them to do so in 
nine months\77\--but authorities prohibited any discussion of 
Gao's prison conditions, legal case, or wife and children.\78\ 
In April 2012, authorities in Beijing sentenced Ni Yulan, a 
housing rights advocate, and her husband Dong Jiqin, to two 
years and eight months\79\ and two years in prison, 
respectively, following a crackdown on rights defenders and 
others in spring 2011.\80\ Authorities refused a medical parole 
request for Ni submitted in October 2012:\81\ Ni is permanently 
disabled as a result of police abuse,\82\ and reportedly 
suffers from thyroid disorders.\83\

                      Efforts To Expand Legal Aid

    The Chinese government continues to increase funding 
available for legal aid in order to expand access to 
institutions that assist citizens with legal claims and 
disputes.\84\ According to official statistics, in 2012 there 
was a 21-percent increase over 2011 in the provision of legal 
aid in China, with more than 1,140,000 recipients of legal aid 
and total national funding of 1.4 billion yuan (US$224 
million), an increase of 9.9 percent.\85\ Although 
approximately 60,000 persons with disabilities received legal 
aid in 2012--an increase of 11.5 percent\86\--the UN Committee 
on the Rights of Persons with Disabilities raised concerns that 
China has not allocated sufficient ``human and financial 
resources'' to provide legal aid services to persons with 
disabilities in its review of China's compliance with the 
Convention on the Rights of Persons with Disabilities in 
September 2012.\87\ Scholars currently estimate that the rate 
of legal representation for defendants in criminal cases is 
less than 30 percent,\88\ yet the expansion of legal aid under 
the revised Criminal Procedure Law (CPL) is likely to multiply 
the number of criminal cases, thus resulting in a need for even 
more funding and criminal defense lawyers.\89\ Under the 
Regulations Regarding Criminal Procedure Law Legal Aid Work 
issued in February 2013 (effective on March 1)\90\ that provide 
guidance to legal practitioners on implementation of the 
revised CPL,\91\ investigating agencies (e.g., the 
Procuratorate or public security bureau) are required to inform 
defendants of their right to counsel; and defendants--and their 
family members--may apply for legal aid at all stages of a 
case.\92\ The new regulations also stipulate that criminal 
suspects or defendants will not have to show economic need to 
apply for legal aid in cases where there is evidence of mental 
disability; where other defendants in the same case have 
employed defense counsel; where the ``procuratorate has 
appealed''; or where the case may have ``significant social 
impact.''\93\

------------------------------------------------------------------------
   Abuse of Family Members of Rights Defenders and Political Activists
-------------------------------------------------------------------------
  During the 2013 reporting year, the Commission observed reports of
 ongoing official harassment of family members of rights defenders and
 political activists. Chinese authorities used a range of methods, such
 as intimidation, extralegal detention, imprisonment, and physical
 violence against these individuals.\94\
 
<bullet> Chen Guangcheng.\95\ Multiple family members of the prominent
 legal advocate Chen Guangcheng have suffered abuse in connection with
 Chen's rights advocacy in China and his departure to the United States
 in 2012.\96\ These include his nephew, Chen Kegui, who was sentenced in
 2012 to three years and three months in prison for an alleged assault
 on a group of plainclothes officials and hired personnel who broke into
 his home in the middle of the night;\97\ his elder brother, Chen
 Guangfu;\98\ his sister-in-law, Ren Zongju;\99\ and his mother, Wang
 Jinxiang.\100\
<bullet> Hada.\101\ Xinna, the wife of rights advocate Hada, and the
 couple's son, Uiles, have spent years under surveillance, sometimes in
 detention centers,\102\ in connection to Hada's efforts to preserve
 Mongolian ethnic identity in Inner Mongolia.\103\ During this reporting
 year, authorities limited their rights to freedom of movement and
 communication.\104\
<bullet> Liu Xiaobo.\105\ Liu Xia, wife of Nobel Peace Prize laureate
 Liu Xiaobo, reportedly has been confined to her home under 24-hour
 surveillance since October 2010, without cell phone or Internet
 access.\106\ In June 2013, Chinese authorities sentenced Liu Xia's
 brother, Liu Hui, to 11 years in prison for fraud, but Liu Xia and
 others assert that Liu Hui's sentence is retribution against Liu Xiaobo
 and Liu Xia.\107\
------------------------------------------------------------------------


------------------------------------------------------------------------
  Abuse of Family Members of Rights Defenders and Political Activists--
                                Continued
-------------------------------------------------------------------------
<bullet> Rebiya Kadeer.\108\ Family members of Uyghur human rights
 activist Rebiya Kadeer have faced official persecution,\109\ including
 home eviction,\110\ loss of livelihood,\111\ and extralegal
 detention.\112\ One of her sons, Ablikim Abdureyim, is serving a nine-
 year prison term on the charge of ``instigating and engaging in
 secessionist activities.''\113\
 
  Other family members of rights defenders and political activists who
 have been harassed and are mentioned in this report include Zhang Anni,
 the daughter of Zhang Lin;\114\ Liu Ying, the ex-wife of Liu
 Benqi;\115\ and some relatives of Zhu Yufu.\116\ [For further
 information, see Section III--Institutions of Democratic Governance.]
------------------------------------------------------------------------

                              IV. Xinjiang

    Human rights conditions in the Xinjiang Uyghur Autonomous 
Region (XUAR) remained poor during the Commission's 2013 
reporting year. Central and regional Chinese Communist Party 
and government authorities carried out campaigns focused on 
security and stability to enforce harsh security controls and 
limit the freedoms of movement and expression throughout the 
XUAR. Deadly clashes that took place in the spring and summer 
raised concerns about the failure of ethnic policy in the XUAR 
to address the root causes of regional instability. Overseas 
media and rights groups reported instances during which 
security forces shot into crowds of Uyghurs, resulting in 
deaths and injuries. In some cases, Uyghur residents of the 
XUAR reportedly committed deadly attacks on members of security 
forces, community workers, and others. Pervasive house searches 
throughout the region, as well as surveillance of individual 
religious believers, reportedly targeted peaceful expressions 
of religious belief among the Uyghur population, heightening 
tensions in the region. Intensified regional development 
projects raised concerns over disproportionate economic, 
social, and cultural opportunities for Uyghurs and other ethnic 
minorities in the region, as well as concerns over the effect 
such projects have had on the cultures and languages of these 
groups.

                     Security Measures and Conflict

    XUAR officials strengthened security measures in a bid to 
``maintain stability'' and ``fight terrorism'' in the region, 
using methods some observers criticized as repressive and 
counterproductive.\1\ In November 2012, on the sidelines of the 
18th National Congress of the Chinese Communist Party in 
Beijing, XUAR government chairperson Nur Bekri warned of the 
``three evil forces'' (terrorism, separatism, and religious 
extremism) in the region, saying the fight against separatism 
in the region would be ``long-term, complicated and 
fierce.''\2\ According to official statistics released in 
January 2013, regional authorities allocated 9.34 billion yuan 
(US$1.5 billion) to the public security sector in 2012, a 23-
percent increase over 2011.\3\
    Instances of violence throughout the spring and summer 
reportedly resulted in numerous deaths, both Han Chinese and 
Uyghur, with reported death tolls ranging from dozens to 100 or 
possibly more. An April 23, 2013, clash between local 
residents, community workers, and police in Siriqbuya 
(Selibuya) township, Maralbeshi (Bachu) county, Kashgar 
prefecture, reportedly resulted in the deaths of 21 people.\4\ 
Official media accounts of the incident described it as a 
terrorist attack during which the attackers killed 15 community 
workers and police.\5\ Some reports from overseas media and 
human rights groups questioned authorities' portrayal of events 
as terrorist in nature.\6\ A Uyghur rights advocate reportedly 
asserted that a search of residents' homes had sparked the 
violence.\7\ Similar searches are routinely conducted 
throughout the XUAR to ``maintain stability.''\8\ On August 12, 
2013, the Kashgar Prefecture Intermediate People's Court 
sentenced two Uyghur men to death and three others to terms 
ranging from nine years to life for taking part in the 
violence.\9\
    Xinhua reported that on June 26, 2013, in Lukchun (Lukeqin) 
township, Pichan (Shanshan) county, Turpan prefecture, ``knife-
wielding rioters'' attacked police stations and other 
government buildings before police fired on them.\10\ Official 
media reported on June 28 that 35 people had died, including 24 
killed by assailants and 11 shot and killed by police, and 21 
people had been injured in the incident.\11\ Regional officials 
reported that on August 15, attackers killed Turpan Islamic 
Association Vice Chairman Abdurehim Damolla in front of his 
home.\12\ According to Radio Free Asia (RFA), attackers 
targeted Damolla for supporting a government crackdown in the 
wake of the June 26 violence.\13\
    Some overseas media reports and human rights advocates 
questioned the official narrative regarding the incident on 
June 26 in Turpan prefecture, including the death toll\14\ and 
details of what took place,\15\ and raised concerns about the 
role that repressive policies had played in contributing to 
deadly clashes in the region.\16\ Media reports and human 
rights advocates cited religious repression,\17\ house 
searches,\18\ and housing redevelopment policies\19\ among the 
factors exacerbating regional tension.
    House searches were reportedly also related to two separate 
deadly incidents in May and June. On May 9, a Uyghur farmer, 
whom authorities believed had been involved in an earlier 
deadly clash, reportedly stabbed two village officials to death 
in Uchar (Wuqia) township, Yengisar (Yingjisha) county, Kashgar 
prefecture, while they were conducting house searches, and 
authorities subsequently beat the farmer to death.\20\ On June 
30, authorities reportedly shot and killed a Uyghur man in 
Artush (Atushi) city, Qizilsu Kyrgyz (Kezilesu Kirghiz) 
Autonomous Prefecture, after he fatally stabbed a police 
officer and injured two others during a house search.\21\ 
Additionally, on June 28, security forces reportedly shot and 
killed a Uyghur man in Uchturpan (Wushi) county, Aksu 
prefecture, after he stabbed and injured two people, including 
at least one police officer, when they pressed him to shave off 
his beard.\22\
    On June 28, 2013, President Xi Jinping reportedly convened 
a meeting of the Standing Committee of the Political Bureau of 
the Communist Party Central Committee (Politburo) to discuss 
the clashes in the XUAR, and two Politburo members, Meng 
Jianzhu and Yu Zhengsheng, subsequently traveled to the 
region.\23\ In June and July, in the lead-up to the anniversary 
of demonstrations and riots that took place on July 5, 2009, in 
Urumqi city,\24\ officials carried out displays of military and 
paramilitary force in Urumqi and other areas of the XUAR, and 
instituted 24-hour security patrols in some locations.\25\ Some 
human rights advocates and international observers expressed 
concern about the security buildup, together with what they 
viewed as authorities' failure to address the root causes of 
violence.\26\
    In June and August, several incidents reportedly occurred 
involving security forces' deadly use of force against crowds 
of Uyghurs. According to official media, on June 28, security 
forces detained people involved in a ``group disturbance'' in 
Hanerik (Hanairike) township, Hotan county.\27\ Overseas media 
and rights groups reported that security forces fired on a 
crowd of Uyghurs in Hanerik, resulting in a number of deaths 
and injuries, with reported death tolls ranging from up to 15 
people to more than 100.\28\ RFA reported that on August 8, a 
clash between police and local residents in Aykol township, 
Aksu city, Aksu prefecture, over religious restrictions led to 
the deaths of at least three Uyghurs when security forces fired 
on a crowd of protestors.\29\ [See Freedom of Religion in this 
section for more information on the clash in Aksu.] Overseas 
media reported that on August 20 in Yilikqi township, Kargilik 
(Yecheng) county, Kashgar prefecture, Chinese police shot and 
killed 22 Uyghurs they suspected of terrorism, while the 
Uyghurs were performing prayers.\30\ Official media confirmed 
the raid, providing information about a Chinese police officer 
killed in the incident, but did not confirm or deny the 22 
Uyghur casualties.\31\
    On August 23, in Kuybagh (Kuiyibage) township, Poskam 
(Zepu) county, Kashgar prefecture, security forces reportedly 
shot and killed 12 Uyghurs and injured 20 authorities said were 
engaging in building and testing explosives at a ``terrorist'' 
facility.\32\
    Official media reported in March that courts in Kashgar 
prefecture and the Bayangol Mongol Autonomous Prefecture had 
sentenced 20 Uyghurs to prison terms ranging from five years to 
life for their involvement in ``terrorist'' and ``separatist'' 
activities.\33\ Chinese authorities stated that the 20 men had 
used the Internet and cell phones to commit ``terrorist'' and 
``separatist'' crimes, in addition to organizing religious 
activities, buying weapons, and planning to attack police 
officers.\34\ Some overseas media and human rights groups 
criticized the sentences given to the 20 men, questioning 
official accusations of terrorism and expressing doubts over 
authorities' use of criminal charges to prosecute Internet and 
cell phone use.\35\

                   Criminal Law and Access to Justice

    Chinese government and official media reports in 2013 
underscored the XUAR criminal justice system's frequent use of 
charges of ``endangering state security'' (ESS).\36\ An article 
published by the Dui Hua Foundation, a human rights advocacy 
organization, in March 2013 stressed that, while ESS trials had 
declined in the XUAR, the number of these trials in the XUAR 
continued to represent a highly disproportionate ratio of the 
total number of ESS trials throughout China.\37\ According to 
Dui Hua estimates, based on official statistics, the XUAR 
accounted for half of first-instance ESS trials throughout 
China between 2008 and 2010, although less than 2 percent of 
China's population lives in the XUAR.\38\ According to the 
second annual work report of the XUAR High People's Court, 
issued in January 2013, 314 criminal trials involving ESS 
crimes were conducted in 2012, a 24 percent decline from 2011 
figures.\39\
    Authorities reportedly detained 12 students in early May 
2013 at Tarim University, located in Ala'er city, Aksu 
prefecture.\40\ On May 27, authorities reportedly released all 
12 students.\41\ Ablimit, Dilshat, Alimjan, Ekber, and 
Abdureshit were released on bail.\42\ The conditions of their 
bail, which will remain in place until May 27, 2014, include 
restrictions on their movement.\43\ Alimjan was reportedly 
detained again by Ala'er public security officials for about a 
day beginning on June 21,\44\ and was beaten during both 
periods of detention.\45\

                           Development Policy

    During the 2013 reporting year, XUAR officials accelerated 
large-scale development plans throughout the region, including 
in the areas of infrastructure,\46\ transportation,\47\ energy 
exploitation,\48\ urban and rural construction,\49\ 
education,\50\ and employment.\51\ XUAR authorities oversaw 
billions of yuan in investment in state-led development 
projects and sought to attract private domestic and foreign 
investment in the region, touting it as an economic hub for 
central, western, and southern Asia.\52\ Regional officials 
reiterated development goals first announced at the Xinjiang 
Work Forum in 2010\53\ and reiterated strategies for economic 
and political development that prioritize state economic and 
political goals over respecting the rights of XUAR 
residents,\54\ including those outlined in the PRC Regional 
Ethnic Autonomy Law.\55\ International observers have expressed 
concerns over the expropriation and destruction of ethnic 
minority residents' property and a lack of protections for 
cultural heritage related to urban development initiatives in 
the region.\56\
    In 2013, regional officials oversaw the growth of 
``counterpart support'' programs that bring funding and 
personnel assistance to the XUAR for development initiatives 
from provinces and cities outside of the region,\57\ stressing 
the patriotic nature of promoting regional economic 
development.\58\ Counterpart provinces and cities reportedly 
provided 149.3 billion yuan (US$24.3 billion) in aid to the 
XUAR in 2012, a 37.3-percent increase over the previous 
year.\59\
    Increased migration to the XUAR in recent years has 
reportedly heightened ethnic tensions in some areas and sparked 
concerns among Uyghur residents regarding land rights and 
employment opportunities.\60\ Regional development initiatives 
brought increased Han Chinese migration to the XUAR during the 
past year, often into southern areas of the XUAR traditionally 
inhabited by Uyghurs and other ethnic minorities, and state-led 
programs provided assistance to migrants and workers from other 
provinces.\61\ This past year, reports cited Uyghurs' concerns 
over government authorities' expropriation of their land,\62\ 
inadequate government compensation for expropriated land then 
sold at a higher price to Chinese buyers,\63\ and government 
subsidies given only to new Han Chinese migrants that allowed 
them to save money to purchase more land.\64\ The growth of the 
Xinjiang Production and Construction Corps (XPCC)\65\ in 
southern areas of the XUAR, billed by Chinese leaders as a 
conduit for regional development in the aftermath of the July 
2009 demonstrations and riots, has brought thousands of Han 
Chinese migrants into areas near the majority-Uyghur city of 
Hotan.\66\
    During the reporting period, authorities intensified 
housing construction and demolition projects in rural and urban 
areas of the XUAR, in areas inhabited by Uyghurs and other 
ethnic minorities.\67\ ``Counterpart support'' projects 
provided hundreds of millions of yuan for construction and 
resettlement efforts.\68\ In 2013, regional authorities 
continued work to relocate and resettle farmers and herders 
away from grasslands, as part of programs that XUAR authorities 
publicize as improving farmers' and herders' living 
conditions.\69\ These policies have impacted affected groups 
with livelihoods based on traditional nomadic herding 
practices.\70\ According to official statistics released in May 
2013, authorities resettled 136,800 herders in the XUAR between 
2010 and 2012, comprising 49.2 percent of the total population 
of herders in the XUAR.\71\

                   Demolitions in Kashgar's Old City

    Authorities continued to demolish and redevelop the Old 
City section of Kashgar city,\72\ raising concerns over the 
corresponding loss of unique cultural heritage\73\ and the 
resettlement of 220,000 Uyghur residents.\74\ The Old City 
demolitions, along with demolitions in other areas of the XUAR, 
have been carried out in line with broader development 
initiatives and a five-year demolition project launched in 
2009.\75\ Since demolitions began in 2009, authorities have 
reportedly disregarded Uyghur residents' concerns over 
demolition efforts,\76\ in spite of official pledges to consult 
residents for their opinions.\77\ Groups promoting the 
protection of cultural heritage have outlined concerns over a 
lack of transparency in the process of planning and 
implementing the demolitions, and have expressed concern over 
officials' failure to consider alternatives to the wholesale 
demolition of Old City buildings.\78\

                                 Labor


                             DISCRIMINATION

    Some government and private employers in the XUAR continued 
to discriminate against non-Han job candidates. As in past 
years, some job announcements reserved positions exclusively 
for Han Chinese in civil servant posts and private-sector jobs, 
in contravention of provisions in Chinese law that forbid 
ethnic discrimination.\79\ Private and public employers also 
continued to reserve more positions for men, leaving non-Han 
women to face both ethnic and gender discrimination in the 
employment process.\80\ A study conducted by the University of 
Melbourne, Australia, and published in November 2012, found 
that Han Chinese residents of the XUAR are much more likely 
than Uyghur residents to secure employment in high-paying, 
high-status occupations, a trend that has exacerbated ethnic 
tensions in the region.\81\

                    LABOR TRANSFERS AND FORCED LABOR

    Regional officials continued to carry out programs that 
send young non-Han men and women outside of the XUAR for 
employment, under the slogan of ``transferring the excess rural 
labor force.'' According to a January 2013 official news 
report, more than 2.7 million people had been transferred to 
jobs outside of their home area or outside of the XUAR in 
2012,\82\ an increase from 2.58 million people in 2011.\83\ As 
documented by the Commission in recent years, some participants 
and their family members have reported coercion to participate 
in the programs, the use of underage workers, and exploitative 
working conditions.\84\ XUAR authorities also reportedly forced 
some Uyghur farmers to perform road-building and agricultural 
work without pay, although such ``free labor'' programs 
officially had been abolished.\85\

                         Freedom of Expression

    Local governments in the XUAR continued to implement 
censorship campaigns focused on religious and political 
publications during the reporting period. The campaigns have 
targeted pirated and pornographic items in addition to 
publications deemed ``illegal'' solely because of their 
religious or political content.\86\ For instance, in March 
2013, the XUAR Transportation Department published a statement 
indicating that, in 2012, regional transportation officials had 
uncovered 4,469 copies of ``illegal religious publications,'' 
as part of a campaign to ``sweep away pornography.''\87\
    Uyghurs continued to serve prison sentences as a result of 
exercising their right to free speech. In February 2013, Uyghur 
Online, a Web site focused on Uyghur issues, reported that, in 
April 2009, the Kashgar Municipality Intermediate People's 
Court sentenced Uyghur translator Mirhemitjan Muzepper to 11 
years in prison for ``inciting splittism of the state,'' 
information that authorities had not publicized.\88\ The court 
had connected Muzepper's sentence to his work as a temporary 
translator for a Hong Kong media organization reporting on the 
demolitions taking place in Kashgar's Old City.\89\

                     Passport and Exit Restrictions

    During the reporting year, Chinese officials implemented 
restrictions on passports and international and domestic travel 
for Uyghurs, highlighting official restrictions on Uyghurs' 
freedom of movement.\90\ In February 2013, Chinese authorities 
reportedly detained Beijing-based Uyghur scholar Ilham Tohti, 
who founded the Web site Uyghur Online, at the Beijing Capital 
International Airport, preventing him from boarding a flight to 
the United States.\91\ Tohti reportedly held a valid passport 
and had been issued a visa for educational exchange to the 
United States, where he planned to take up a visiting scholar 
position at Indiana University.\92\ Authorities also held and 
interrogated Uyghur university student Atikem Rozi in February 
2013, after she attempted to apply for a passport for the 
second time in order to study abroad.\93\ The Toqsu (Xinhe) 
County Foreign Affairs Office in Aksu prefecture reportedly 
informed Rozi that the passport denial was due to the fact that 
she was ``politically unqualified.''\94\ In July 2013, Rozi 
reported her belief that police had detained her friend 
Mutellip Imin--a Uyghur studying abroad in Turkey who had 
performed volunteer work for Uyghur Online\95\--on July 15 at 
the Beijing Capital International Airport as he prepared to fly 
back to Turkey from Beijing.\96\ As of September 23, 2013, the 
Commission had not observed any news regarding Mutellip's 
release from detention. [See Section II--Freedom of Residence 
and Movement for additional information on freedom of movement 
in China.]

          Forced Return of Uyghur Asylum Seekers and Migrants

    The deportation and reports of the sentencing of Uyghur 
asylum seekers this past year highlighted the dangers facing 
Uyghur refugees and asylum seekers in neighboring countries 
that are under the influence of Chinese economic and diplomatic 
power. In December 2012, Malaysian authorities deported six 
Uyghur asylum seekers to China, although the UN High 
Commissioner for Refugees was still reviewing their asylum 
claims.\97\ Malaysian authorities reportedly had detained the 
six Uyghurs earlier in 2012 for allegedly attempting to leave 
Malaysia on forged passports.\98\ Two international human 
rights groups raised questions regarding the Chinese 
government's role in the forced return, one of several 
documented cases of forced deportation of Uyghurs to China in 
recent years.\99\ In another case, Radio Free Asia (RFA) 
reported in December 2012 that, according to a Malaysian 
lawyer, 11 Uyghurs previously deported from Malaysia in August 
2011 had been charged with terrorism and separatism; according 
to relatives and friends, the men had been sentenced to prison 
for terms of up to 15 years on charges of separatism.\100\

                          Freedom of Religion

    XUAR authorities continued intensive controls over 
religion, especially Islam, posing a challenge for Uyghurs 
seeking to maintain their religious beliefs outside of state 
control.\101\ Authorities continued to enforce tight 
restrictions over peaceful religious practices among the Uyghur 
population, and carried out targeted surveillance of individual 
religious believers.\102\ A report issued by a Uyghur human 
rights organization in April 2013 outlined concerns over 
religious policies implemented by central and local 
authorities, which the group said ``have progressively narrowed 
the definition of lawful [religious] activity'' among 
Uyghurs.\103\ The report also highlighted concerns over a lack 
of transparency in religious regulations, official limitations 
on religious pilgrimages, and other issues related to official 
restrictions on Uyghurs' religious practices.\104\
    On August 7, on the eve of the Eid holiday marking the end 
of the Muslim holy month of Ramadan, police in Aykol township, 
Aksu prefecture, reportedly sought to prevent residents from 
another village from engaging in cross-village worship,\105\ 
and detained several Uyghur men for engaging in ``illegal 
religious activities.''\106\ In the early morning hours of 
August 8, after hundreds of people gathered in protest, 
throwing stones and bricks, security forces reportedly fired on 
the crowd, killing at least three Uyghurs and injuring at least 
a dozen.\107\ Around 10 to 12 police officers reportedly also 
sustained injuries in the clash.\108\ Police reportedly 
arrested more than 90 people after the incident.\109\ Central 
government propaganda authorities reportedly forbade Chinese 
media from reporting on the confrontation, which officials 
described as ``rioting and looting.''\110\
    Together with widespread security checks, police raids, and 
house searches among the Uyghur population aimed partially at 
cracking down on ``illegal religious activities,''\111\ 
authorities in the XUAR reportedly subjected Uyghurs practicing 
traditional Islamic customs to close scrutiny. Authorities in 
Bulaqsu township, Shufu county, Kashgar prefecture, reportedly 
kept registers related to ``stability maintenance'' efforts 
that detailed the personal information of local religious 
believers and their family members.\112\ The registers included 
information such as whether or not female Muslims wore a veil 
and when they started wearing it, as well as what time a 
student of the Quran received Quranic instruction.\113\ A 
Uyghur resident of Keriya (Yutian) county, Hotan prefecture, 
told RFA in May 2013 that local officials in his township 
maintained registration books documenting religious 
believers,\114\ and a resident of Urumqi city reportedly told 
RFA that officials maintained such documents throughout the 
XUAR.\115\
    Regional authorities carried out training sessions for 
religious clergy throughout the XUAR, placing an emphasis on 
reinforcing patriotism and opposing ``illegal religious 
activities.''\116\ At a training session for ``patriotic 
religious figures'' in Urumqi in March 2013, XUAR government 
chairperson Nur Bekri expressed hopes that attendees would 
become ``politically reliable'' ``patriotic religious figures'' 
who would ``guide religion to adapt to socialist 
society.''\117\ Chinese government- and Communist Party-led 
ideological campaigns encouraging students and youth in the 
XUAR to refrain from engaging in ``illegal religious 
activities'' were frequent and widespread throughout this 
reporting period.\118\
    Local governments in 2013 also continued to train women 
religious specialists, known as buwi,\119\ using legal 
restrictions that place them under strict state control.\120\ 
According to an official media report, in December 2012, the 
Kashgar Women's Federation sent 19 buwi and other female 
religious figures to trainings in six eastern Chinese cities, 
stressing that the women should, upon their return, transmit 
the Party's policies on ethnic minorities and religion, and 
propagate ethnic unity.\121\
    Authorities in Kashgar city reportedly detained 23-year-old 
Uyghur Nurmemet Ismail without charge for 63 days beginning on 
March 1, 2013, for selling the Quran and Quranic study 
aids.\122\ Authorities' exact reasons for detaining Ismail are 
unclear,\123\ but regional religious regulations stipulate that 
government approval is required for the sale and distribution 
of religious material, and these regulations may have been a 
factor in Ismail's detention.\124\
    Some Uyghur Muslims and Christians continued to serve 
prison sentences as a result of exercising their faith.\125\ 
According to a January 2013 RFA report, authorities reduced 
family visits to jailed Uyghur pastor Alimjan Yimit from once a 
month to once every three months.\126\
    As in 2012,\127\ local government officials throughout the 
XUAR reportedly maintained restrictions over Uyghurs' 
observance of Ramadan, prohibiting minors from entering 
mosques,\128\ and forbidding government officials, students, 
and teachers from fasting.\129\ According to Uyghur Online, in 
July 2013, county officials fired Abduhelil Ablimit, a staff 
member at a county government office in Shule county, Kashgar 
prefecture, for fasting.\130\ Local officials also placed 
restrictions on cross-village worship during the Ramadan 
period.\131\ [See Section II--Freedom of Religion for 
additional information on religion in China, including cases of 
religious repression in the XUAR.]

              Language Policy and ``Bilingual Education''

    In the past year, the XUAR government broadened the scope 
of Mandarin-focused ``bilingual education'' in the region, a 
policy some Uyghur students in the XUAR fear is aimed at 
assimilating young Uyghurs into Chinese society at the expense 
of their Uyghur identity.\132\ The expansion of the policy was 
carried out in line with targets set in 2010 to universalize 
and develop ``bilingual education'' in preschool through 
secondary school instruction throughout the region.\133\ Under 
``bilingual education,'' class instruction takes place 
primarily in Mandarin Chinese, largely replacing instruction in 
languages spoken by ethnic minority groups.\134\ In recent 
years, some Uyghur students and teachers have expressed concern 
over the compulsory nature of the region's ``bilingual'' 
curriculum and the corresponding loss of young Uyghurs' ability 
to speak the Uyghur language.\135\
    The number of students enrolled in ``bilingual education'' 
has increased rapidly in the past several years. According to 
the People's Daily, at the end of 2012, 1.41 million students 
were enrolled in ``bilingual education'' from the preschool 
through the secondary school level in the XUAR, making up 55 
percent of the XUAR ethnic minority student population.\136\ 
This represents a 41.6-percent increase in the ``bilingual'' 
student population over 2009.\137\ According to China News 
Service, from 2008 to 2012, central and regional authorities 
invested 5 billion yuan (US$816 million) on preschool 
``bilingual education'' initiatives, establishing 2,237 
``bilingual'' nursery schools throughout the region.\138\

                      Population Planning Policies

    Government authorities throughout the XUAR promoted family 
planning campaigns targeting Muslim ethnic minorities, and 
compelling Islamic religious figures to promote state family 
planning policies. Authorities continued to issue monetary 
rewards to ethnic minority households who have fewer children 
than allowed under XUAR population and family planning 
regulations.\139\ The rewards are issued according to a 
``special rewards system'' for non-Han households that includes 
a ``fewer births, faster wealth'' (shaosheng kuaifu) 
program.\140\ The system is one of the reward mechanisms 
present throughout China's population planning system, though 
with special focus on ethnic minority households.\141\
    In 2013, authorities in the XUAR and some other regions of 
China with Muslim populations continued to report on the 
implementation of a program entitled ``Muslim Reproductive 
Health Project'' (musilin shengzhi jiankang xiangmu).\142\ 
Official reports have described the project's aims as providing 
reproductive health information and health checks for Muslim 
women of reproductive age while ``creating a harmonious happy 
family.''\143\ Official media reports this past year emphasized 
the need to improve the effectiveness of project efforts, 
including through Islamic religious leaders' promotion of the 
project among local Muslims.\144\

                                V. Tibet


  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    Formal dialogue between the Dalai Lama's representatives 
and Chinese Communist Party and government officials has been 
stalled since the January 2010 ninth round,\1\ the longest 
interval since such contacts resumed in 2002.\2\ The Commission 
observed no indication during the 2013 reporting year of 
official Chinese interest in resuming a dialogue that takes 
into account Tibetan concerns in the Tibetan autonomous areas 
of China.\3\ In December 2012, then-U.S. Department of State 
Special Coordinator for Tibetan Issues Maria Otero called on 
the Chinese government to ``engage in dialogue with the Dalai 
Lama or his representatives without preconditions.''\4\
    In June 2013, Professor Jin Wei, with the Central Party 
School, stated in an interview that, if the Party ``can use 
creative ideas to break the impasse'' in dialogue, it would 
``promote social stability and prevent the creation of long-
lasting nationality wounds.''\5\ Jin noted that the Party 
``cannot simply treat [the Dalai Lama] as an enemy,'' 
recommended ``restarting the talks,'' and suggested discussing 
that the Dalai Lama visit Hong Kong ``in his capacity as a 
religious leader.''\6\

                        Tibetan Self-Immolation

    The frequency of Tibetan self-immolation reportedly 
focusing on political and religious issues increased during the 
Commission's 2013 reporting year, peaking in October-November 
2012 with 38 self-immolations\7\ preceding and during the 
Communist Party Central Committee's 18th Congress.\8\ Reports 
of self-immolators' calls for Tibetan freedom and the Dalai 
Lama's return continued\9\ and remained concurrent with 
government use of regulatory measures to control and repress 
principal elements of Tibetan culture, including Tibetan 
Buddhist monastic institutions,\10\ and with the apparent 
collapse of the China-Dalai Lama dialogue.\11\ Tibetans have 
self-immolated in 10 of 17 prefectural-level areas of Tibetan 
autonomy and 1 ordinary prefecture.\12\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For a list of Commission summaries on Tibetan self-
immolations that contain maps such as this one, please visit 
http://www.cecc.gov/tibetan-self-immolations-0.
    The Party and government failed this past year to respond 
to Tibetan grievances in a constructive manner or accept any 
accountability for Tibetan rejection of Chinese policies. 
Officials characterized the crisis as the result of an external 
conspiracy to undermine China's internal security and social 
stability.\13\ In response, officials maintained policies and 
practices that exacerbate tension.\14\ In December 2012, then-
Special Coordinator for Tibetan Issues Maria Otero cited 
examples:\15\

        <bullet> ``Severe government controls on Tibetan 
        Buddhist religious practice and monastic 
        institutions'';
        <bullet> ``Education practices that undermine the 
        preservation of Tibetan language'';
        <bullet> ``Intensive surveillance, arbitrary detentions 
        and disappearances of Tibetans, including youth and 
        Tibetan intellectual and cultural leaders'';
        <bullet> ``Escalating restrictions on news, media and 
        communications''; and
        <bullet> ``The use of force against Tibetans seeking 
        peacefully to exercise their universal human rights.''

    A Ministry of Foreign Affairs spokesperson in December 2012 
denied that issues regarding Tibetan culture, language, and 
religion had a role in what a reporter called ``the current 
tense situation.''\16\ The spokesperson blamed ``the Dalai 
clique''--the Dalai Lama and organizations and individuals the 
Party associates with him--asserting that ``Tibet-related 
issues are not issues of ethnicity, religion, or human rights'' 
but of ``China's sovereignty and territorial integrity.''\17\ 
Officials continued to use state-run media to discredit self-
immolators, depicting them in a pejorative manner (e.g., as a 
weak, flawed, or distressed individual,\18\ ``copy-cat,''\19\ 
or terrorist\20\).



Tibetan Self-Immolations Reported or Believed To Focus on Political 
         and Religious Issues (September 2012-July 2013)

See CECC 2012 Annual Report for Self-Immolations 1-50 (February 2009-August 2012)\21\

------------------------------------------------------------------------
                                                     Self-
                                                   Immolation
     Date of Self-   Name Sex /    Occupation       Location
No.    Immolation   Approx. Age    Affiliation      (Prov. /     Status
                                                     Pref./
                                                    County)
------------------------------------------------------------------------
     2012           ...........  ..............  .............  ........
------------------------------------------------------------------------
51   September 29   Yungdrung    Layperson       Qinghai /      Deceased
                    M/27                          Yushu TAP /    \22\
                                                  Zaduo county
------------------------------------------------------------------------
52   October 4      Gudrub       Layperson       TAR / Naqu     Deceased
                    M/43          (writer)        pref. / Naqu   \23\
                                                  county
------------------------------------------------------------------------
53   October 6      Sanggye      Layperson       Gansu /        Deceased
                     Gyatso                       Gannan TAP /   \24\
                    M/27                          Hezuo city
------------------------------------------------------------------------
54   October 13     Tamdrin      Layperson       Gansu /        Deceased
                     Dorje                        Gannan /       \25\
                    M/early 50s                   Hezuo
------------------------------------------------------------------------
55   October 20     Lhamo Kyab   Husband and     Gansu /        Deceased
                    M/27          father          Gannan /       \26\
                                                  Xiahe county
------------------------------------------------------------------------
56   October 22     Dondrub      Husband         Gansu /        Deceased
                    M/about 65                    Gannan /       \27\
                                                  Xiahe
------------------------------------------------------------------------
57   October 23     Dorje        Husband and     Gansu /        Deceased
                     Rinchen      father          Gannan /       \28\
                    M/58                          Xiahe
------------------------------------------------------------------------
58   October 25     Tsepo, M/20  Laypersons      TAR / Naqu /   Deceased
59                  Tenzin, M/    (cousins)       Biru county   Unknown\
                     25                                          29\
------------------------------------------------------------------------
60   October 26     Lhamo        Layperson       Gansu /        Deceased
                     Tseten                       Gannan /       \30\
                    M/24                          Xiahe
------------------------------------------------------------------------
61   October 26     Thubwang     Layperson       Gansu /        Deceased
                     Kyab                         Gannan /       \31\
                    M/23                          Xiahe
------------------------------------------------------------------------
62   November 4     Dorje        Husband,        Qinghai /      Deceased
                     Lhundrub     father,        Huangnan TAP /  \32\
                    M/25          artist           Tongren
                                                  county
------------------------------------------------------------------------
63   November 7     Dorje, M/15  Monks           Sichuan / Aba  Deceased
64                  Samdrub, M/  Ngoshul          T&QAP / Aba   Hospital
65                   16           Monastery       county         ized
                    Dorje Kyab,                                 Hospital
                     M/16                                        ized\33
                                                                 \
------------------------------------------------------------------------
66   November 7     Tamdrin Tso  Mother          Qinghai /      Deceased
                    F/23                          Huangnan /     \34\
                                                  Tongren
------------------------------------------------------------------------
67   November 7     Tsegyal      Father          TAR / Naqu /   Deceased
                    M/27                          Biru           \35\
------------------------------------------------------------------------
68   November 8     Kalsang      Former monk     Qinghai /      Deceased
                     Jinpa       Rongbo           Huangnan /     \36\
                    M/18          Monastery       Tongren
------------------------------------------------------------------------
69   November 10    Gonpo        Layperson       Gansu /        Deceased
                     Tsering                      Gannan /       \37\
                    M/19                          Hezuo
------------------------------------------------------------------------
70   November 12    Nyingkar     Husband         Qinghai /      Deceased
                     Tashi                        Huangnan /     \38\
                    M/24                          Tongren
------------------------------------------------------------------------
71   November 12    Nyingchag    Layperson       Qinghai /      Deceased
                     Bum                          Huangnan /     \39\
                    M/16                          Tongren
------------------------------------------------------------------------
72   November 15    Tenzin       Layperson       Qinghai /      Deceased
                     Drolma                       Huangnan /     \40\
                    F/23                          Tongren
------------------------------------------------------------------------
73   November 15    Khabum Gyal  Layperson       Qinghai /      Deceased
                    M/18                          Huangnan /     \41\
                                                  Tongren
------------------------------------------------------------------------
74   November 17    Chagmo Kyi   Mother          Qinghai /      Deceased
                    F/26                          Huangnan /     \42\
                                                  Tongren
------------------------------------------------------------------------
75   November 17    Sangdrag     Husband and     Qinghai /      Deceased
                     Tsering      father          Huangnan /     \43\
                    M/24                          Tongren
------------------------------------------------------------------------
76   November 19    Wangchen     Layperson       Qinghai /      Deceased
                     Norbu                        Haidong        \44\
                    M/25                          pref. /
                                                  Xunhua SAC
------------------------------------------------------------------------
77   November 20    Tsering      Husband and     Gansu /        Deceased
                     Dondrub      father          Gannan /       \45\
                    M/35                          Xiahe
------------------------------------------------------------------------
78   November 22    Lubum Gyal   Layperson       Qinghai /      Deceased
                    M/18                          Huangnan /     \46\
                                                  Tongren
------------------------------------------------------------------------
79   November 22    Tamdrin      Former monk     Gansu /        Deceased
                     Kyab        Shitsang         Gannan /       \47\
                    M/23          Monastery       Luqu county
------------------------------------------------------------------------
80   November 23    Tamdrin      Head of         Qinghai /      Deceased
                     Dorje        household       Huangnan /     \48\
                    M/29                          Zeku county
------------------------------------------------------------------------
81   November 25    Sanggye      Nun             Qinghai /      Deceased
                     Drolma      Mindrol          Huangnan /     \49\
                    F/17          Dargyling       Zeku
                                  Nunnery
------------------------------------------------------------------------
82   November 26    Wanggyal     Student         Sichuan /      Unknown\
                    M/about 20                    Ganzi TAP /    50\
                                                  Seda county
------------------------------------------------------------------------
83   November 26    Konchog      Husband         Gansu /        Deceased
                     Tsering                      Gannan /       \51\
                    M/18                          Xiahe
------------------------------------------------------------------------
84   November 26    Gonpo        Husband and     Gansu /        Deceased
                     Tsering      father          Gannan /       \52\
                    M/24                          Luqu
------------------------------------------------------------------------
85   November 27    Kalsang      Nomad           Sichuan / Aba  Deceased
                     Kyab                         / Ruo'ergai    \53\
                    M/24                          county
------------------------------------------------------------------------
86   November 27    Sanggye      Layperson       Gansu /        Deceased
                     Tashi                        Gannan /       \54\
                    M/18                          Xiahe
------------------------------------------------------------------------
87   November 28    Bande Khar   Layperson       Gansu /        Deceased
                     (Wangden                     Gannan /       \55\
                     Khar)                        Hezuo
                    M/21
------------------------------------------------------------------------
88   November 29    Tsering      Husband and     Gansu /        Deceased
                     Namgyal      father          Gannan /       \56\
                     (Tsering                     Luqu
                     Tashi)
                    M/31
------------------------------------------------------------------------
89   November 30    Konchog      Father          Sichuan / Aba  Deceased
                     Kyab                         / Ruo'ergai    \57\
                    M/29
------------------------------------------------------------------------
90   December 2     Sungdu Kyab  Husband and     Gansu /        Hospital
                    M/17          father          Gannan /       ized\58
                                                  Xiahe          \
------------------------------------------------------------------------
91   December 3     Lobsang      Monk            Qinghai /      Deceased
                     Gedun       Penag            Guoluo TAP /   \59\
                     (Lobsang     Monastery       Banma county
                     Geleg)
                    M/29
------------------------------------------------------------------------
92   December 8     Pema Dorje   Farmer          Gansu /        Deceased
                    M/23                          Gannan /       \60\
                                                  Luqu
------------------------------------------------------------------------
93   December 8     Konchog      Monk            Sichuan / Aba  Deceased
                     Phelgyal    Sumdo            / Ruo'ergai    \61\
                     (Konchog     Monastery
                     Phelgye)
                    M/24
------------------------------------------------------------------------
94   December 9     Wangchen     Student         Qinghai /      Deceased
                     Kyi                          Huangnan /     \62\
                     (Rinchen                     Zeku
                     Kyi)
                    F/17
------------------------------------------------------------------------
     2013
------------------------------------------------------------------------
95   January 12     Tsering      Husband         Gansu /        Deceased
                     Tashi                        Gannan /       \63\
                     (Tsebe)                      Xiahe
                    M/22
------------------------------------------------------------------------
96   January 18     Tsering      Husband and     Sichuan / Aba  Deceased
                     Phuntsog     father          /              \64\
                     (Drubchog)                  Hongyuan
                    M/28                          county
------------------------------------------------------------------------
97   January 22     Konchog      Husband,        Gansu /        Deceased
                     Kyab         father,         Gannan /       \65\
                    M/23          farmer          Xiahe
------------------------------------------------------------------------
98   February 3     Lobsang      Monk            Sichuan / Aba  Deceased
                     Namgyal     Kirti            / Ruo'ergai    \66\
                    M/37          Monastery
------------------------------------------------------------------------
99   February 13    Drugpa Khar  Husband and     Gansu /        Deceased
                    M/26          father          Gannan /       \67\
                                                  Xiahe
------------------------------------------------------------------------
100  February 17    Namlha       Husband and     Gansu /        Deceased
                     Tsering      father          Gannan /       \68\
                    M/49                          Xiahe
------------------------------------------------------------------------
101  February 19    Rinchen, M/  Laypersons      Sichuan / Aba  Both
102                  17                           / Ruo'ergai   deceased
                    Sonam                                        \69\
                     Dargye, M/
                     18
------------------------------------------------------------------------
103  February 24    Phagmo       Farmer          Qinghai /      Deceased
                     Dondrub                      Haidong /      \70\
                    M/early 20s                   Hualong HAC
------------------------------------------------------------------------
104  February 25    Tsezung      Farmer and      Gansu /        Deceased
                     Kyab         nomad           Gannan /       \71\
                    M/27                          Luqu
------------------------------------------------------------------------
105  February 25    Sangdrag     Monk            Sichuan / Aba  Hospital
                    M/unknown    Diphu            / Aba          ized\72
                                  Monastery                      \
------------------------------------------------------------------------
106  March 13       Konchog      Wife and        Sichuan / Aba  Deceased
                     Wangmo       mother          / Ruo'ergai    \73\
                    F/28-31
------------------------------------------------------------------------
107  March 16       Lobsang      Monk            Sichuan / Aba  Deceased
                     Thogme      Kirti            / Aba          \74\
                    M/28          Monastery
------------------------------------------------------------------------
108  March 24       Kalkyi       Wife and        Sichuan / Aba  Deceased
                    F/30          mother          / Rangtang     \75\
                                                  county
------------------------------------------------------------------------
109  March 25       Lhamo Kyab   Forest ranger   Gansu /        Deceased
                    M/43                          Gannan /       \76\
                                                  Xiahe
------------------------------------------------------------------------
110  March 26       Konchog      Monk            Gansu /        Deceased
                     Tenzin      Mogri            Gannan /       \77\
                    M/28          Monastery       Luqu
------------------------------------------------------------------------
111  April 16       Chugtso      Wife and        Sichuan / Aba  Deceased
                    F/20          mother          / Rangtang     \78\
------------------------------------------------------------------------
112  April 24       Lobsang      Monks           Sichuan / Aba  Both
113                  Dawa, M/20  Tagtsang Lhamo   / Ruo'ergai   deceased
                    Konchog       Monastery                      \79\
                     Oezer, M/
                     23
------------------------------------------------------------------------
114  May 27         Tenzin       Layperson       Qinghai /      Deceased
                     Sherab                       Yushu /        \80\
                    M/31                          Qumalai
                                                  county
------------------------------------------------------------------------
115  June 11        Wangchen     Nun             Sichuan /      Deceased
                     Drolma      Dragkar          Ganzi /        \81\
                    F/31          Nunnery         Daofu county
------------------------------------------------------------------------
116  July 20        Konchog      Monk            Sichuan / Aba  Deceased
                     Sonam       Sogtsang         / Ruo'ergai    \82\
                    M/17          Monastery
------------------------------------------------------------------------
------------------------------------------------------------------------

   
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                 
                            THE ``OPINION''

    Information in this report and the Commission's 2012 Annual 
Report\83\ demonstrates a shift from an initial pattern of less 
frequent self-immolations mainly in Sichuan with a majority of 
current or former monastics,\84\ to a pattern of more frequent 
self-immolations mostly outside of Sichuan with a majority of 
laypersons.\85\ The shift was pronounced during the October-
November surge: of 38 self-immolations reported, 32 were 
outside Sichuan, and 29 of the 32 were laypersons.\86\
    Coinciding with that shift, on or about December 3, 2012, 
the Supreme People's Procuratorate, the Supreme People's Court, 
and the Ministry of Public Security jointly issued the 
``Opinion on Handling Self-Immolation Cases in Tibetan Areas in 
Accordance With the Law'' (the Opinion).\87\ The Opinion called 
for persons officials characterize as ``principal culprits'' 
linked to self-immolation to face prosecution for ``intentional 
homicide,'' as well as for criminal prosecution for activities 
including gathering at self-immolation sites to mourn, or 
offering donations to self-immolators' relatives.\88\ The 
relative sizes of the Tibetan monastic and secular communities 
suggest one basis for official concern over the spread of self-
immolation from one community to the other. The lay Tibetan 
population is about 44 times greater than the monastic 
population--approximately 140,000 monks and nuns\89\ among a 
total Tibetan population of approximately 6.28 million.\90\
    By early February 2013, official media reported nearly 90 
formal arrests linked to self-immolation cases since October-
November 2012 in Gansu and Qinghai provinces.\91\ Indicative 
examples of Tibetans detained (some imprisoned) for alleged 
links to a self-immolator or self-immolation, or for sharing 
self-immolation information, with timelines at least in part 
after the Opinion's issue, follow.

        <bullet> October 23, 2012. Officials detained six 
        Tibetans at the site of Dorje Rinchen's self-immolation 
        in Xiahe (Sangchu) county, Gannan Tibetan Autonomous 
        Prefecture (TAP).\92\ On January 31, 2013, the Gannan 
        Intermediate People's Court sentenced four of them to 
        up to 12 years' imprisonment for ``intentional 
        homicide'' and two to up to 4 years for ``picking 
        quarrels and provoking troubles.''\93\
        <bullet> After November 19. Following his detention, on 
        February 8, 2013, the Huangnan Intermediate People's 
        Court in Huangnan (Malho) TAP sentenced a monk to 13 
        years' imprisonment for ``inciting'' homicide and 
        separatism in a case where someone decided not to self-
        immolate.\94\
        <bullet> Likely December. Officials detained at least 
        nine Tibetans in connection with Tsering Namgyal's 
        November 29 self-immolation in Luqu (Luchu) county, 
        Gannan.\95\ On February 28, 2013, the Gannan 
        Intermediate People's Court sentenced three of them to 
        up to 15 years' imprisonment for ``intentional 
        homicide.''\96\
        <bullet> Possibly December. Officials detained three 
        Tibetans in Haidong prefecture, Qinghai.\97\ On March 
        18, 2013, the Haidong Intermediate People's Court 
        sentenced them to up to six years' imprisonment for 
        using ``self-immolation incidents'' to disseminate pro-
        independence information.\98\
        <bullet> December 3. After the December 2 self-
        immolation of Sangdu Kyab in Xiahe on December 3, 
        security officials reportedly detained five Bora 
        Monastery monks for interrogation.\99\
        <bullet> After December 9. After the December 9 self-
        immolation of Wangchen Kyi in Zeku (Tsekhog) county, 
        Huangnan, officials detained five Tibetans described as 
        friends or family of self-immolators.\100\
        <bullet> Around December 24. Following the November 29 
        self-
        immolation of Tsering Namgyal in Luqu county, security 
        officials reportedly detained eight Tibetans for 
        sharing information on the self-immolation.\101\
        <bullet> Possibly early 2013. Following the detention 
        of four Tibetans in Huangnan, on April 13, 2013, the 
        Huangnan Intermediate People's Court sentenced the 
        Tibetans to up to six years' imprisonment for 
        ``inciting separatism'' by sharing self-immolation 
        information with domestic and overseas groups.\102\
        <bullet> January. Officials detained seven Tibetans in 
        connection with Sanggye Gyatso's October 6, 2012, self-
        immolation in Hezuo (Tsoe) city, Gannan.\103\ Police 
        characterized the case as ``organized and premeditated 
        homicide'' because three detainees allegedly discussed 
        self-immolation, contacted a Tibetan organization in 
        India, and sent self-immolation information out of 
        China.\104\
        <bullet> July. In a Sichuan province case, officials 
        reportedly detained six Tibetans, including five monks, 
        after monk Konchog Sonam self-immolated on July 20 in 
        Ruo'ergai (Dzoege) county, Aba (Ngaba) Tibetan and 
        Qiang Autonomous Prefecture.\105\

    The examples above are among 112 cases\106\ in the 
Commission's Political Prisoner Database as of September 1, 
2013, of detention or imprisonment linked to self-immolation or 
the issue of self-
immolation since August 2012.\107\

                             THE CRACKDOWN

    As self-immolation frequency increased, authorities 
strengthened a security crackdown based on the premise of 
``stability maintenance''\108\ that infringed on Tibetans' 
freedoms of expression, association, and movement, and 
curtailed their ability to communicate or share 
information.\109\ Examples follow.

        <bullet> Expression. The Opinion established a legal 
        pretext for punishing Tibetans who expressed views 
        sympathetic to self-immolators or self-immolation\110\ 
        by providing a broad basis for characterizing such 
        expression as ``inciting'' self-immolation.\111\
        <bullet> Association, movement. Authorities interfered 
        with Tibetans' right to associate with other Tibetans 
        within local communities,\112\ within wider Tibetan 
        areas,\113\ and with persons living abroad.\114\ Human 
        Rights Watch reported establishment of neighborhood 
        security ``grids'' in the TAR,\115\ and a program to 
        classify Tibetan villagers individually based on 
        religious and political factors.\116\
        <bullet> Communication, information. Authorities 
        interfered with communication,\117\ preventing Tibetans 
        from sharing or receiving information on self-
        immolations and other topics deemed harmful to ``social 
        stability,''\118\ as well as accessing international 
        news.\119\

                Religious Freedom for Tibetan Buddhists

    Tibetan self-immolators this past year continued to call 
for the Dalai Lama's return\120\--a demand that when voiced 
during a suicidal protest may signify intense resentment toward 
Chinese government and Communist Party intrusion into Tibetan 
Buddhist affairs. The trend of creating new and unprecedented 
control\121\ over the religion continued,\122\ along with 
maintaining established repressive policies.\123\ Officials 
characterize the result of such policies as the ``normal 
order'' of Tibetan Buddhism.\124\
    Unofficial reports in June 2013, if accurate, indicated a 
potentially positive development. Beginning in August 2013, 
officials in Hainan (Tsolho) Tibetan Autonomous Prefecture 
(TAP), Qinghai province, said they would ``experiment'' with 
allowing monks and nuns to ``revere, respect, and follow'' the 
Dalai Lama in his capacity as a religious leader.\125\ The 
reports emerged the same month as remarks by a Central Party 
School professor calling for engagement with the Dalai Lama in 
his capacity as ``a religious leader'' and ceasing to treat him 
``as an enemy.''\126\
    By July 2013 official reports discounted prospects for a 
less hostile policy toward the Dalai Lama.\127\ A July 11 
notice reportedly issued by the Guoluo (Golog) TAP United Front 
Work Department warned Tibetans not to believe ``rumors'' of a 
``new policy'' permitting ``freedom to venerate the Dalai 
Lama's portraits, and so on.''\128\ The notice cited Yu 
Zhengsheng, a member of the Standing Committee of the Political 
Bureau of the Communist Party Central Committee\129\ and Head 
of the Central Committee Coordinating Group for Tibet 
Affairs,\130\ stating that the Dalai Lama is ``always engaged 
in secessionist activities.''\131\ The notice instructed 
Tibetan Buddhists to ``separate themselves politically'' from 
the Dalai Lama,\132\ but did not address the Dalai Lama's 
status as a religious figure.
    On July 6, 2013, the Dalai Lama's birthday, People's Armed 
Police (PAP) in Daofu (Tawu) county, Ganzi (Kardze) TAP, 
Sichuan province, reportedly ``opened fire'' on ``hundreds'' of 
Tibetans returning from a hillside location where they 
conducted religious observances.\133\ PAP reportedly wounded 
10-16 Tibetans with what may have been anti-riot projectiles 
and beat or tortured other Tibetans.\134\
    Developments consistent with established policies this past 
year include the following examples.

        <bullet> Reassessment, reappointment of Tibetan 
        Buddhist teachers. Effective December 2012, national 
        measures required Tibetan Buddhist monastic 
        teachers\135\ to submit, every five years, to a 
        reassessment\136\ conducted by Party-\137\ and 
        government-controlled Buddhist associations.\138\ 
        Criteria include patriotism toward China,\139\ 
        supporting Party leadership,\140\ and accepting 
        guidance from government- and Party-run offices.\141\ 
        Reappointed teachers must sign an agreement 
        acknowledging such obligations.\142\ Teachers who 
        ``forfeit'' appointment credentials are deemed 
        unqualified to teach.\143\
        <bullet> More ``harmonious model monastery'' awards. 
        Following the May 2012 initial round of such 
        awards,\144\ officials recognized 100 TAR monasteries 
        and nunneries and over 7,500 ``patriotic, law-abiding, 
        and advanced monks and nuns'' in December.\145\ An 
        abbot speaking at the ceremony described patriotism 
        toward China as ``an unshirkable responsibility'' of 
        Tibetan Buddhists and likened ``safeguarding the 
        unification of the motherland'' to a duty of 
        ``disciples of Buddha.''\146\
        <bullet> Aggressive ``legal education'' campaigns. 
        Officials continued to enforce ``education'' focusing 
        on government legal measures to pressure Tibetans into 
        complying with policies that obstruct their freedom of 
        religion.\147\ On January 14, 2013, authorities 
        reportedly ``detained'' or ``disappeared'' 14 senior 
        monastic officials from four of Lhasa's premier Tibetan 
        Buddhist institutions after summoning them to a local 
        meeting. Authorities removed them to a monastery in 
        Naqu (Nagchu) prefecture for ``political 
        education.''\148\

                       Status of Tibetan Culture

    This past year, some Tibetan self-immolators reportedly 
called for greater use of the Tibetan language as they 
burned\149\--an apparent indication of the significant threat 
some Tibetans believe Party and government policies pose to 
Tibetan culture's vibrancy and viability. The Commission's 2012 
Annual Report noted that a senior Party official\150\ advocated 
in February 2012 for ethnic ``amalgamation,''\151\ ending 
minority-language education programs to achieve 
``desegregation,''\152\ and ``popularizing'' the use of 
Mandarin Chinese ``without fail.''\153\ In December 2012, then-
Special Coordinator for Tibetan Issues Maria Otero observed 
that ``official rhetoric that denigrates the Tibetan language'' 
is a factor that ``has further exacerbated tensions.''\154\
    Indicative developments this past year include the 
following examples.

        <bullet> More language protests in Qinghai 
        Province.\155\ On November 26\156\ and 28,\157\ 2012, 
        thousands of Tibetan tertiary students protested 
        against issues including government language policy. 
        Authorities had required students to study an official 
        booklet that some regarded as ``derogatory'' toward 
        Tibetan language and that promoted using Mandarin.\158\ 
        According to the booklet, bilingual education\159\ 
        would help ``ethnic minorities to promote their culture 
        and reach its pinnacle.''\160\ A November 9 protest 
        involving thousands of Tibetan middle school students 
        at another Qinghai location also involved language 
        rights, among other things.\161\
        <bullet> Qinghai student protesters imprisoned. On 
        April 10, 2013, the Gonghe (Chabcha) County People's 
        Court sentenced eight Hainan Professional Training 
        School\162\ students to imprisonment\163\ for ``illegal 
        assembly''\164\ during the November 26 protest.\165\ 
        One report described them as ``school prefects or class 
        monitors''\166\ and noted that students resented the 
        booklet's use in ``political education'' classes.\167\ 
        An unidentified Qinghai court reportedly sentenced a 
        middle school student accused of ``organizing'' the 
        November 9 protests to four years' imprisonment.\168\
        <bullet> Citizens promote Tibetan language. Reports of 
        unofficial Tibetan initiatives to promote Tibetan 
        language emerged in Qinghai, where organizers of the 
        Mother Tongue Protection Association observed UN-
        recognized International Mother Language Day;\169\ in 
        Gansu, where posters described the language as ``the 
        golden cup that holds the essence of Tibetan culture'' 
        and urged Tibetans to ``give up impure mixed speech 
        forever'';\170\ and in Sichuan, where township 
        authorities banned informal classes on Tibetan language 
        and culture.\171\

             Economic Development Policy and Implementation

    Officials continued to emphasize economic development as 
the key to achieving ``social stability''\172\ even though some 
initiatives resulted in protests\173\ or alleged harm to local 
communities\174\--including a reported self-immolator's call 
for protection of Tibet's ``fragile environment.''\175\ The 
Party and government maintained the development strategy 
announced at the January 2010 Fifth Tibet Work Forum\176\--
adherence to a model based on ``Chinese characteristics'' and 
retaining ``Tibetan traits.''\177\ Government ``investment'' in 
China's western areas--a program launched in 2000 as ``Great 
Western Development'' (xibu da kaifa)\178\--almost tripled in 
2012 compared with 2011, state-run media reported.\179\
    Indicative developments this past year include the 
following examples.

        <bullet> Railroad construction. A Tibet Autonomous 
        Region (TAR) official said the Lhasa-Shigatse railway 
        will begin operation by the end of 2014.\180\ Previous 
        estimates ranged from 2010\181\ to 2015.\182\ TAR 
        officials expressed concern that a National People's 
        Congress decision to dismantle the Ministry of 
        Railroads\183\ could hinder railroad construction on 
        the Tibetan plateau by making unprofitable services 
        harder to finance.\184\
        <bullet> Forced settlement.\185\ Official media 
        reported that the TAR government would settle 460,000 
        farmers and herders in 2013, and that ``nearly 2.1 
        million'' had been settled (or resettled) during 2006-
        2012.\186\ Party Secretary Chen Quanguo said in 
        September 2012 that ``all farmers and herders'' in the 
        TAR would be settled by the end of 2013.\187\ A 2011 
        government opinion called for nationwide settlement of 
        herders to be ``basically'' accomplished by 2015.\188\
        <bullet> Mining. International media organizations 
        reported on a March 2013 landslide disaster at a TAR 
        gold mine in Lhasa municipality,\189\ and on 
        environmental pollution that interfered with Tibetans' 
        ability to farm and maintain livestock.\190\ In a May 
        2013 protest, 3,500 Tibetans in Biru (Driru) county, 
        Naqu (Nagchu) prefecture, reportedly confronted 
        arriving workers they suspected to be miners and asked 
        them to ``leave our resources where they are.''\191\ 
        Such reports are concurrent with TAR policy to increase 
        the mining share of TAR GDP from about 3 percent in 
        2010 to between 30 and 50 percent by 2020.\192\
        <bullet> Hydropower. Government plans for construction 
        of hydroelectric projects along major Tibetan rivers 
        attracted the interest of news media and analysts.\193\ 
        A blog maintained by a Canada-based Tibetan published 
        detailed information in March 2013 on each project's 
        location, capacity, and status.\194\

         Summary: Tibetan Political Detention and Imprisonment

    As of September 1, 2013, the Commission's Political 
Prisoner Database (PPD) contained 1,531 records--a figure 
certain to be far from complete--of Tibetan political prisoners 
detained on or after March 10, 2008, the beginning of a period 
of mostly peaceful political protests that swept across the 
Tibetan plateau.
    Among the 1,531 PPD records of Tibetan political detentions 
reported since March 2008 are 28 Tibetans ordered to serve 
reeducation through labor (23 are believed released upon 
completing their terms) and 328 Tibetans whom courts sentenced 
to imprisonment ranging from six months to life (142 are 
believed released upon sentence completion).\195\ Of the 328 
Tibetan political prisoners sentenced to imprisonment since 
March 2008, sentencing information is available for 315 
prisoners, including 309 with fixed-term sentences averaging 4 
years and 8 months, based on PPD data as of September 1, 2013.

          CURRENT TIBETAN POLITICAL DETENTION AND IMPRISONMENT

    As of September 1, 2013, the PPD contained records of 642 
Tibetan political prisoners believed or presumed currently 
detained or imprisoned. Of those, 622 are records of Tibetans 
detained on or after March 10, 2008;\196\ 20 are records of 
Tibetans detained prior to March 10, 2008. PPD information for 
the period since March 10, 2008, is certain to be far from 
complete.
    Of the 622 Tibetan political prisoners who were detained on 
or after March 10, 2008, and who were believed or presumed to 
remain detained or imprisoned as of September 1, 2013, PPD data 
indicated that:
        <bullet> 314 (51 percent) are Tibetan Buddhist monks, 
        nuns, teachers, or trulkus.\197\
        <bullet> 550 (88 percent) are male, 46 (7 percent) are 
        female, and 26 are of unknown gender.
        <bullet> 288 (46 percent) are believed or presumed 
        detained or imprisoned in Sichuan province; the rest 
        are believed or presumed detained or imprisoned in the 
        Tibet Autonomous Region (143), Qinghai province (122), 
        Gansu province (68), and the Xinjiang Uyghur Autonomous 
        Region (1).
        <bullet> Sentencing information is available for 182 
        prisoners: 176 reportedly were sentenced to fixed terms 
        ranging from 1 year and 6 months to 20 years,\198\ and 
        6 were sentenced to life imprisonment or death with a 
        2-year reprieve.\199\ The average fixed-term sentence 
        is 6 years and 3 months. Seventy-nine (43 percent) of 
        the prisoners with known sentences are Tibetan Buddhist 
        monks, nuns, teachers, or trulkus.
    Sentencing information is available for 16 of the 20 
Tibetan political prisoners detained prior to March 10, 2008, 
and believed imprisoned as of September 1, 2013. Their 
sentences range from 8 years to life imprisonment; the average 
fixed-term sentence is 13 years and 1 month.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                VI. Developments in Hong Kong and Macau


                               Hong Kong

    While in practice Hong Kong residents enjoy greater freedom 
than citizens of mainland China, the Commission continued to 
observe developments that raise concerns about the commitment 
of the central and Hong Kong governments to Hong Kong's 
autonomy and freedoms. Hong Kong's Basic Law guarantees the 
freedoms of speech, religion, and assembly, promises Hong Kong 
a ``high degree of autonomy,'' and confirms the applicability 
of the International Covenant on Civil and Political Rights 
(ICCPR) to Hong Kong.\1\ The Basic Law also states that the 
``ultimate aim'' is the election by universal suffrage of Hong 
Kong's top official--the Chief Executive (CE)--and Hong Kong's 
Legislative Council (LegCo).\2\ In March 2013, the UN Human 
Rights Committee reviewed Hong Kong for compliance with the 
ICCPR and expressed ``concern about the lack of a clear plan to 
institute universal suffrage and to ensure the right of all 
persons to vote and to stand for election without unreasonable 
limitations.''\3\ The committee urged the Hong Kong government 
to ``outline clear and detailed plans on how universal and 
equal suffrage might be instituted.''\4\

                    UNIVERSAL SUFFRAGE AND AUTONOMY

    The Basic Law states that the CE is to be elected by 
universal suffrage ``upon nomination by a broadly 
representative nominating committee in accordance with 
democratic procedures.''\5\ A 2007 National People's Congress 
Standing Committee (NPCSC) decision further specified that the 
CE ``may'' be elected through universal suffrage in 2017, after 
which LegCo member elections may follow suit.\6\ In its 
submission to the UN Human Rights Committee regarding Hong 
Kong's compliance with the ICCPR, the Hong Kong government 
confirmed the 2017 time frame for implementation of universal 
suffrage for electing the CE and indicated that universal 
suffrage for elections of all LegCo members would be 
implemented in 2020.\7\ Currently 35 of the 70 LegCo members 
are elected through Functional Constituencies, most with fewer 
than 1,500 voters that can include companies with multiple 
votes; a similarly disproportionate system is used to select 
the 1,200 members of the election committee that chooses the 
CE.\8\
    Large numbers of Hong Kong residents continued advocating 
for universal suffrage as local officials deferred discussion 
of electoral reform. Public support grew\9\ for the Occupy 
Central movement, which plans to mobilize 10,000 protesters to 
occupy Hong Kong's financial district in July 2014 if the 
government has not issued a universal suffrage plan meeting 
international standards by that time.\10\ Other mass 
demonstrations have recently compelled government action. In 
October 2012, for example, the Hong Kong government formally 
shelved a patriotic education curriculum\11\ that had been 
criticized by tens of thousands of protestors as political 
indoctrination.\12\ In July 2013, Chief Executive CY Leung 
dismissed calls for early public consultation on electoral 
reform while maintaining that he did not need the central 
government's permission to launch such consultations.\13\ Pro-
democracy advocates fear that delays will leave insufficient 
time for public consultation.\14\
    Statements by central government officials this past year 
raised concerns over central government interference in the 
nomination of CE candidates to run in elections by universal 
suffrage. During the most recent CE election in March 2012, the 
central government reportedly wielded heavy influence in the 
selection of its favored candidate CY Leung, after dropping 
support for Henry Tang, who had become the subject of 
controversies.\15\ In August 2013, the director of the central 
government's liaison office in Hong Kong rejected a pro-
democracy party legislator's proposal to allow candidates who 
receive a certain number of voters' nominations to run for CE, 
instead saying that the election committee that currently 
selects the CE should form the basis of the committee that 
selects the CE candidates in an election by universal 
suffrage.\16\ A pro-democracy legislator criticized the current 
election committee as ``based on a very narrow electorate'' and 
``not a broadly representative committee.''\17\ In March, the 
chairman of the Law Committee under the National People's 
Congress Standing Committee listed a set of requirements for CE 
candidates to meet, one of which is that they must be trusted 
by the central government.\18\ The chairman said such 
candidates could criticize the central government, but they 
could not, for example, consider the central government an 
opponent, citing a pro-democracy legislator as an example.\19\
    Two incidents this year highlighted ongoing challenges to 
Hong Kong's judicial and law enforcement independence. In a 
case involving the rights of domestic helpers to seek permanent 
residency, the Hong Kong government took the unusual step of 
requesting that Hong Kong's highest court refer a key issue for 
interpretation to the National People's Congress Standing 
Committee, which was expected to side with the Hong Kong 
government's position.\20\ The court sided with the Hong Kong 
government by ruling in March 2013 against permanent residency 
for domestic helpers while saying it did not need to seek the 
central government's interpretation in this particular 
instance.\21\ In another case, local authorities delayed action 
on a U.S. request for the provisional arrest of former U.S. 
National Security Agency contractor Edward Snowden, which 
allowed him to leave Hong Kong.\22\ Unnamed sources cited in a 
New York Times article claimed the Chinese government directed 
local authorities to allow Snowden's departure.\23\ Local 
officials maintained that their law enforcement process 
remained independent.\24\

                             PRESS FREEDOM

    Despite enjoying greater press freedom than mainland China, 
Hong Kong journalists and media organizations continued to 
report pressure and harassment. Assaults or instances of 
harassment against Hong Kong journalists reportedly rose to 18 
(7 occurring in mainland China), an increase over the 1 to 2 
assaults reported on average in recent years.\25\ Among the 
most heavily targeted media outlets was the Next Media group, 
which reported four incidents in June 2013.\26\ The Hong Kong 
Journalists Association claims that Hong Kong and central 
government authorities have been largely unresponsive to 
inquiries regarding the attacks.\27\ According to a 2012 
survey, more than one-third of Hong Kong journalists reportedly 
admitted to self-censorship,\28\ which they attribute in part 
to editorial pressure from media owners with significant 
political and economic interests in mainland China.\29\ Over 
half the owners of Hong Kong's 30 major media outlets have been 
appointed as representatives to either the central government's 
top legislative or political advisory body.\30\ Several major 
newspapers have reportedly set up special committees of largely 
mainland Chinese membership to vet articles before publication, 
which bears similarities to editorial practices in media 
outlets in mainland China.\31\

                              TRANSPARENCY

    During the last year, the Hong Kong government made uneven 
progress toward maintaining transparency. Access to government 
records was hampered by the loss or destruction of public 
documents by government offices.\32\ Local activists say that 
civil servants may dispose of files because there is no 
existing legislation to regulate recordkeeping.\33\ In June 
2013, a Hong Kong Law Reform Commission sub-committee began 
work to review the current state of management of government 
records, study relevant laws in other jurisdictions, and make 
recommendations for possible regulatory reforms.\34\ In 
addition, the Ombudsman of Hong Kong opened an investigation 
into the ``access to information regime and Government's 
records management system'' in January 2013.\35\
    The government postponed implementation of a measure in 
March 2013 that would have redacted from public corporate 
filings important identifying information about company 
directors--the type of information that was used by Bloomberg 
and the New York Times to uncover the alleged vast wealth of 
China's top political families.\36\ Proponents of the measure 
cited the privacy rights of directors while opponents warned 
that it would harm the reputation of Hong Kong's financial 
markets for transparency and ``risk turning Hong Kong into an 
opaque offshore tax shelter for China's plutocrats.''\37\

                                 Macau

    Macau's Basic Law differs from Hong Kong in several 
aspects, including the absence of any language regarding 
``universal suffrage,'' although it does include a provision 
making the International Covenant on Civil and Political Rights 
(ICCPR) applicable to Macau.\38\ The Commission observed that 
while Macau residents continued to enjoy greater freedom than 
citizens of mainland China, the lack of democratic elections in 
line with the ICCPR and threats to the freedoms of press and 
assembly in Macau remain ongoing challenges. In its Concluding 
Observations on Macau's compliance with the ICCPR issued 
earlier this year, the UN Human Rights Committee urged Macau to 
``outline a clear and comprehensive plan of action and set 
timelines for the transition to an electoral system based on 
universal and equal suffrage . . . .''\39\

                      POLITICAL AND PRESS FREEDOMS

    Mainland experts and officials have dissuaded Macau from 
pursuing universal suffrage.\40\ In March 2013, Political 
Bureau Standing Committee member Yu Zhengsheng advised a 
private audience of Hong Kong and Macau officials that their 
governing administrations could not be opposed to the central 
government.\41\ The chairperson of the UN Human Rights 
Committee expressed concern in March 2013 that despite public 
consultation, the government had made no further efforts toward 
universal suffrage.\42\ Self-censorship and heavy local 
government funding of Macau media persist, and journalists 
report that articles with dissenting views are sometimes 
altered or deleted.\43\ In September 2012, the Macau government 
withdrew parts of a bill that would have established a ``press 
accountability board.''\44\ Macau residents continued to 
organize protests on a range of social and political issues, 
but in some cases faced police retaliation, including 
confiscation of news materials and detention.\45\

                               CORRUPTION

    The gambling industry in Macau is reportedly tied to 
widespread corruption and the laundering of large amounts of 
money out of mainland China.\46\ This movement of money through 
Macau is fueled by a ``junket'' system, which reportedly aids 
mainland VIP patrons in bypassing China's limits on how much 
money can be taken out of China.\47\ Casinos and junkets 
account for a large portion of Macau's annual revenue,\48\ and 
one Macau academic estimates that US$202 billion in ill-gotten 
funds are channeled through Macau each year.\49\
    During the reporting year, the Chinese government and Macau 
officials reportedly stepped up efforts to regulate Macau's 
gambling industry as part of a larger campaign by the central 
government against corruption.\50\ In November 2012, 
authorities issued updated guidelines to junket operators 
intended to increase reporting on the transactions of gaming 
clients and, in a high-profile incident, detained more than 
half a dozen people in the junket business.\51\ In July 2013, a 
U.S. official told the U.S.-China Security and Economic Review 
Commission that Macau had taken some steps to address money 
laundering deficiencies noted in a 2007 evaluation by a 
regional anti-money laundering group, including performing 
regular risk assessments of gaming operators and junkets and 
enhancing the oversight of junkets operators.\52\ The official 
noted, however, that Macau still needed to incorporate a 
``freezing mechanism'' into its anti-money laundering 
framework, lower its reporting threshold for large 
transactions, and implement an ``effective cross-border cash 
declaration system.''\53\ In June 2013, Macau's Financial 
Intelligence Office announced that it was considering a 
``cross-border cash declaration system.''\54\

                             VII. Endnotes

    <dagger>Voted to adopt: Senators Brown, Baucus, Levin, Feinstein, 
and Merkley; Representatives Smith, Wolf, Meadows, Pittenger, Walz, 
Kaptur, and Honda; Under Secretary Sanchez and Assistant Administrator 
Biswal.
    Did not vote: Deputy Secretary Harris.

    Notes to Section I--Political Prisoner Database

    \1\The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the PPD were detained or 
imprisoned for attempting to exercise rights guaranteed to them by 
China's Constitution and law, or by international law, or both. Chinese 
security, prosecution, and judicial officials sometimes seek to 
distract attention from the political or religious nature of 
imprisonment by convicting a de facto political or religious prisoner 
under the pretext of having committed a generic crime. In such cases, 
defendants typically deny guilt but officials may attempt to coerce 
confessions using torture and other forms of abuse, and standards of 
evidence are poor. If authorities permit a defendant to entrust someone 
to provide him or her legal counsel and defense, as China's Criminal 
Procedure Law guarantees in Article 32, officials may deny the counsel 
adequate access to the defendant, restrict or deny the counsel's access 
to evidence, and not provide the counsel adequate time to prepare a 
defense.
    Notes to Section II--Freedom of Expression

    \1\Human Rights Watch, ``World Report 2013--Events of 2012,'' 31 
January 13; Freedom House, ``Freedom of the Press 2013: China,'' May 
2013.
    \2\International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 19(3). China has signed and 
stated its intent to ratify the ICCPR. Universal Declaration of Human 
Rights, adopted and proclaimed by UN General Assembly resolution 217A 
(III) of 10 December 48, arts. 19, 29. The UN Special Rapporteur on the 
Promotion and Protection of the Right to Freedom of Opinion and 
Expression has also used this three-factor test to describe the 
standard for determining when a restriction is permissible under 
Article 19, paragraph 3 of the ICCPR. UN Human Rights Council, Report 
of the Special Rapporteur on the Promotion and Protection of the Right 
to Freedom of Opinion and Expression, Frank La Rue, 16 May 11, A/HRC/
17/27, para. 24.
    \3\UN GAOR, Hum. Rts. Coun., 12th Sess., Promotion and Protection 
of All Human Rights, Civil, Political, Economic, Social and Cultural 
Rights, Including the Right to Development, adopted by Human Rights 
Council resolution 12/16, A/HRC/RES/12/16, 12 October 09, para. 
5(p)(i); State Council Information Office, ``Progress in China's Human 
Rights in 2012,'' reprinted in Xinhua, 14 May 13.
    \4\UN GAOR, Hum. Rts. Coun., 20th Sess., Promotion and Protection 
of All Human Rights, Civil, Political, Economic, Social and Cultural 
Rights, Including the Right to Development, Agenda Item 3, A/HRC/20/
L.13, 29 June 12; ``Human Rights Council Backs Internet Freedom,'' 
Agence France-Presse, reprinted in Google, 5 July 12.
    \5\Lu Wei, ``Chinese Domain Set To Surf,'' China Daily, 7 July 10.
    \6\China Internet Network Information Center, ``The 32nd 
Statistical Report on Internet Development in China'' [Di 32 ci 
zhongguo hulian wangluo fazhan zhuangkuang tongji baogao], July 2013, 
5.
    \7\Ibid.
    \8\Christina Lo, ``China Mobile Subscribers Up 1.2 Pct to 1.15 Bln 
in March,'' Reuters, 26 April 13.
    \9\For more information, see ``Faster Internet To Reach More Parts 
of China,'' Xinhua, 17 April 13; Shen Jingting, ``China Mobile To 
Expand 4G Network,'' China Daily, 21 June 12.
    \10\Ministry of Industry and Information Technology, ``Internet 
Industry `12th Five-Year' Development Plan'' [Hulianwang hangye 
``shi'er wu'' fazhan guihua], 4 May 12; ``Chinese Internet Users To Hit 
800m by 2015,'' Xinhua, reprinted in China Daily, 5 May 12.
    \11\State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. I(6).
    \12\``4M Broadband To Cover 70% of Chinese Users,'' Xinhua, 
reprinted in China Daily, 27 February 13.
    \13\``Chinese Official Media Focuses on Internet Management; 
Internet Users Worry About Limits to Anticorruption'' [Zhongguo guan 
mei jujiao wangguan wangmin danxin fanfu shou xian], BBC, 23 December 
12; ``Opinion: Strengthening of Internet Management Has Won Popular 
Support'' [Sheping: jiaqiang hulianwang guanli shi de renxin de], 
Global Times, 21 December 12; ``China Continues To Strengthen Internet 
Management; Internet Spring Difficult Now'' [Zhongguo chixu jiaqiang 
wangguan wangluo chuntian nan xian], BBC, 21 December 12.
    \14\See, e.g., ``Expert: Three Characteristics of Online Rumors 
Cause Great Harm; Should Heavily Punish Rumor Mongers'' [Zhuanjia: san 
tedian zhi wangluo yaoyan weihai da ying jiazhong chengzhi zaoyao zhe], 
People's Daily, 4 June 13; Liu Chang, ``Use Laws and Supervision To 
Control Online Rumors'' [Yong falu he jianguan ezhi wangluo yaoyan], 
Global Times, 27 May 13; Jing Ping, ``The Fundamental Policy of Curbing 
Online Rumors'' [Ezhi wangluo yaoyan de zhiben zhi ce], Beijing Daily, 
9 April 13.
    \15\Mo Jinjin, ``The Internet Is Not Outside the Law'' [Wangluo 
bushi fawai zhidi], People's Daily, 18 December 12.
    \16\David Bandurski, ``People's Daily: Be Good Online,'' China 
Media Project, 18 December 12.
    \17\See, e.g., John Kennedy, ``New Propaganda Chief Reappears, 
Calls for Greater Internet Control,'' South China Morning Post, 7 
December 12; Jia Ruijin, ``Wang Junmin's Research on Internet 
Propaganda and Management Work'' [Wang junmin diaoyan hulianwang 
xuanchuan guanli gongzuo], Dazhong Net, 15 June 13; ``Wu Bangguo: All 
Areas of Society Strongly Appeal for Strengthened Internet Management'' 
[Wu bangguo: shehui ge fangmian qianglie huyu jiaqiang wangguan], BBC, 
8 March 13.
    \18\``China Waging War Against Online Rumors,'' Xinhua, 2 May 13.
    \19\``NPC Reviews Internet Info Protection Law,'' Xinhua, reprinted 
in China Daily, 24 December 12; ``China's Top Legislature Mulls 
Internet Regulatory Measures,'' Xinhua, 24 December 12.
    \20\``China's Legislature Adopts Online Info Rules To Protect 
Privacy,'' Xinhua, 28 December 12.
    \21\See, e.g., Joe McDonald, ``China Real-Name Registration Is Now 
Law in Country,'' Associated Press, reprinted in Huffington Post, 28 
December 12; Keith Bradsher, ``China Toughens Its Restrictions on Use 
of the Internet,'' New York Times, 28 December 12; Zhao Yinan and Zhang 
Chunyan, ``Real Names Required,'' China Daily, 29 December 12.
    \22\Supreme People's Court and Supreme People's Procuratorate, 
Interpretation on Some Questions Regarding Applicable Law When Handling 
Uses of Information Networks To Commit Defamation and Other Such 
Criminal Cases [Guanyu banli liyong xinxi wangluo shishi feibang deng 
xingshi anjian shiyong falu ruogan wenti de jieshi], passed 2 September 
13 (SPP), 5 September 13 (SPC), effective 10 September 13; Chris 
Buckley, ``China Cracks Down on Online Opinion Makers,'' New York 
Times, 10 September 13.
    \23\Supreme People's Court and Supreme People's Procuratorate, 
Interpretation on Some Questions Regarding Applicable Law When Handling 
Uses of Information Networks To Commit Defamation and Other Such 
Criminal Cases [Guanyu banli liyong xinxi wangluo shishi feibang deng 
xingshi anjian shiyong falu ruogan wenti de jieshi], passed 2 September 
13 (SPP), 5 September 13 (SPC), effective 10 September 13, art. 2.
    \24\Committee to Protect Journalists, ``China's New Leadership 
Faces Censorship Challenge,'' 11 March 13; Ai Weiwei, ``China's 
Censorship Can Never Defeat the Internet,'' Guardian, 15 April 12; 
Sophie Beach, ``Challenged in China: Beyond Censors' Reach, Free 
Expression Thrives, To a Point,'' Committee to Protect Journalists, 11 
March 13; Gary King et al., ``How Censorship in China Allows Government 
Criticism but Silences Collective Expression,'' American Political 
Science Review, May 2013, 1-18; ``China's Internet: `A Giant Cage,''' 
Economist, 6 April 13.
    \25\``China's Internet: `A Giant Cage,''' Economist, 6 April 13.
    \26\Vernon Silver, ``Cracking China's Skype Surveillance 
Software,'' Bloomberg, 8 March 13; Andrew Phelps, Nieman Journalism 
Lab, ``Reverse Engineering Chinese Censorship: When and Why Are 
Controversial Tweets Deleted?'' 30 May 12; Gary King et al., ``How 
Censorship in China Allows Government Criticism but Silences Collective 
Expression,'' American Political Science Review, May 2013, 1-18; David 
Bamman et al., ``Censorship and Deletion Practices in Chinese Social 
Media,'' First Monday, Vol. 17, No. 3, 5 March 12; Wang Xinyu, ```Naked 
Official' Keywords Censored in China,'' New Tang Dynasty Television, 1 
March 13.
    \27\Open Net Initiative, ``Country Report: China,'' 9 August 12, 
271.
    \28\Oiwan Lam, ``China: Various Aspects of Censorship,'' Global 
Voices Online, 17 March 10; Jedidiah R. Crandall et al., ``Chat Program 
Censorship and Surveillance in China: Tracking TOM-Skype and Sina UC,'' 
First Monday, Vol. 18, No. 7 (1 July 13); Adam Taylor, ``Why China's 
Enormous Twitter Rival Blocks Searches Related to `Hair Bacon,''' 
Business Insider, 4 September 13. These sources provide information 
about the types of ongoing censorship in China and the lack of 
censorship transparency.
    \29\UN Human Rights Council, Report of the Special Rapporteur on 
the Promotion and Protection of the Right to Freedom of Opinion and 
Expression, Frank La Rue, 16 May 11, A/HRC/17/27, para. 24.
    \30\Keith Bradsher, ``China Blocks Access to Times After Article,'' 
New York Times, 25 October 12.
    \31\See, e.g., Michelle FlorCruz, ``China's Twitter Censors Party 
Congress Chatter,'' International Business Times, 9 November 12; 
Jonathan Kaiman, ``Tiananmen Square Online Searches Censored by Chinese 
Authorities,'' Guardian, 4 June 13; ``Censors Ban Talk Online of 
Tiananmen Massacre,'' Radio Free Asia, 28 May 13. For Commission 
analysis, see ``Chinese Censors Limit Online Content for the 18th Party 
Congress,'' Congressional-Executive Commission on China, 21 December 
12.
    \32\For previous reporting on this issue, see CECC, 2012 Annual 
Report, 10 October 12, 50-53.
    \33\Jonathan Ansfield, ``Chinese Authorities Putting Pressure on 
Businesses To Help Censor the Web,'' New York Times, 13 November 12; 
Brian Spegele and Paul Mozur, ``China Hardens Grip Ahead of Party 
Meeting,'' Wall Street Journal, 10 November 12; Zhang Zihan, ``Foreign-
Run VPNs Illegal in China: Govt,'' Global Times, 14 December 12.
    \34\Jason Ng and Pierre Landry, ``The Political Hierarchy of 
Censorship: An Analysis of Keyword Blocking of CCP Officials' Names on 
Sina Weibo Before and After the 2012 National Congress (S)election,'' 
Eleventh Chinese Internet Research Conference, 15 June 13.
    \35\Gary King et al., ``How Censorship in China Allows Government 
Criticism but Silences Collective Expression,'' American Political 
Science Review, May 2013, 1-18.
    \36\Tao Zhu et al., ``The Velocity of Censorship: High-Fidelity 
Detection of Microblog Post Deletions,'' Arvix.org, 4 March 13.
    \37\Jeffrey Knockel, Jedidiah R. Crandall, and Jared Saia, ``Three 
Researchers, Five Conjectures: An Empirical Analysis of TOM-Skype 
Censorship and Surveillance,'' University of New Mexico, Department of 
Computer Science; Jeffrey Knockel, ``What Keywords Trigger TOM-Skype 
Censorship and Surveillance?'' Jeffrey Knockel's Personal Web site, 
last visited 24 September 13; Vernon Silver, ``Cracking China's Skype 
Surveillance Software,'' Businessweek, 8 March 13.
    \38\State Council, Measures for the Administration of Internet 
Information Services [Hulianwang xinxi fuwu guanli banfa], issued and 
effective 25 September 00, art. 15.
    \39\Ibid. For more information on non-transparent censorship 
legislation, see Freedom House, ``Freedom on the Net 2012: China,'' 24 
September 12, 17-18.
    \40\Freedom House, ``Freedom on the Net 2012: China,'' 24 September 
12, 18.
    \41\State Council, Measures for the Administration of Internet 
Information Services [Hulianwang xinxi fuwu guanli banfa], issued and 
effective 25 September 00, arts. 15-16; Provisions on the 
Administration of Internet News Information Services [Hulianwang xinwen 
xinxi fuwu guanli guiding], issued and effective 25 September 05, arts. 
19-21.
    \42\China Internet Network Information Center, ``The 31st 
Statistical Report on Internet Development in China'' [Di 31 ci 
zhongguo hulian wangluo fazhan zhuangkuang tongji baogao], January 
2013, 36; Yang Cheng, ``New Media Development Report: Are Most 
Microblog Users From the `Three Lows?''' [Xin meiti fazhan baogao: 
weibo yonghu duoshi ``sandi renqun?''] China Youth Daily, reprinted in 
Xinhua, 5 July 13.
    \43\China Internet Network Information Center, ``The 31st 
Statistical Report on Internet Development in China'' [Di 31 ci 
zhongguo hulian wangluo fazhan zhuangkuang tongji baogao], January 
2013, 36.
    \44\David Barboza, ``Despite Restrictions, Microblogs Catch on in 
China,'' New York Times, 15 May 11.
    \45\See, e.g., Brice Pedroletti, ``China's Citizen Journalists 
Finding the Mouse Is Mightier Than the Pen,'' Guardian Weekly, 11 April 
13; Human Rights Watch, ``China: Renewed Restrictions Send Online 
Chill,'' 4 January 13; Jill Levine, ``Microblogs in China: Digital 
Democracy,'' Tea Leaf Nation, 4 July 13.
    \46\Keith B. Richburg, ``In China, Microblogging Sites Become Free-
Speech Platform,'' Washington Post, 27 March 11; Rachel Lu, ``What 
Happens to Free Speech on Weibo After Real Name Registration,'' Tea 
Leaf Nation, 28 February 12.
    \47\Owen Fletcher and Dan Nystedt, ``Internet, Twitter Blocked in 
China City After Ethnic Riot,'' CIO, 6 July 09.
    \48\Mark McDonald, ``Adding More Bricks to the Great Firewall of 
China,'' New York Times, 23 December 12.
    \49\``Microblogs: Small Beginnings,'' Economist, 6 April 13; Edward 
Wong, ``China Lets Media Report on Air Pollution Crisis,'' New York 
Times, 14 January 13; Wayne Ma, ``Beijing Pollution Hits Highs,'' Wall 
Street Journal, 14 January 13.
    \50\Ning Hui, ``Social Media's Role in Earthquake Aftermath Is 
Revealing,'' Tea Leaf Nation, 22 April 13.
    \51\Anne Henochowicz, China Digital Times, ``Sensitive Words: Wen 
Jiabao's Family Wealth,'' 26 October 12; Rachel Lu, ``Some Call NYT an 
Inadvertent `Puppet' in Wake of Expose on Chinese PM,'' Tea Leaf 
Nation, 26 October 12; Minami Funakoshi, ``Chinese Online Reaction to 
New York Times Pulitzer Becomes Case Study in Censorship,'' Tea Leaf 
Nation, 16 April 13.
    \52\Rachel Lu, ``Some Call NYT an Inadvertent `Puppet' in Wake of 
Expose on Chinese PM,'' Tea Leaf Nation, 26 October 12; Minami 
Funakoshi, ``Chinese Online Reaction to New York Times Pulitzer Becomes 
Case Study in Censorship,'' Tea Leaf Nation, 16 April 13.
    \53\For more information, see ``Weibo: An Eye on Corruption,'' 
CNTV, 11 March 13; Gu Yongqiang, ``Bringing Down `Watch Brother': 
China's Online Corruption-Busters Tread a Fine Line,'' Time, 10 October 
12; Jonathan Kaiman, ``Chinese Official Sacked After `Citizen 
Journalists' Expose Extravagant Banquet,'' Guardian, 25 April 13; Jonas 
Parello-Plesner and Michael Anti, ``The Weibo Generation Can Reboot 
China,'' Financial Times, 21 January 13.
    \54\For more information, see Brice Pedroletti, ``China's Citizen 
Journalists Finding the Mouse Is Mightier Than the Pen,'' Guardian 
Weekly, 11 April 13; Andrew Jacobs, ``Chinese Officials Find 
Misbehavior Now Carries Cost,'' New York Times, 25 December 12.
    \55\``Xinhua Insight: Real-Name Whistleblowing Fuels China's Online 
Anti-Corruption Efforts,'' Xinhua, 14 May 13.
    \56\Guo Jinchao, ``Li Keqiang Talks Open Government, Must `Tell the 
Truth, Be Completely Honest' With the Masses'' [Li keqiang tan zhengwu 
gongkai: yao xiang qunzhong ``shuo zhenhua, jiao shidi''], China News 
Service, 26 March 13; Charles Zhu, ``Social Media's Potential To 
Transform Chinese Governance,'' Tea Leaf Nation, 9 May 12.
    \57\Guo Jinchao, ``Li Keqiang Talks Open Government, Must `Tell the 
Truth, Be Completely Honest' With the Masses'' [Li keqiang tan zhengwu 
gongkai: yao xiang qunzhong ``shuo zhenhua, jiao shidi''], China News 
Service, 26 March 13; David Bandurski, ``Li Keqiang Urges More 
Information Openness,'' China Media Project, 27 March 13.
    \58\Brian Spegele, ``Party Urges Popular Weibo Users To Think of 
`National Interests,''' Wall Street Journal, China Real Time Report 
(blog), 26 August 13; ``Big Vs and Bottom Lines,'' Economist, 31 August 
13; ``China Steps Up Campaign Against Major Opinion-Leading Bloggers, 
To Wrest Control of Internet,'' Associated Press, reprinted in 
Washington Post, 19 August 13.
    \59\``Big Vs and Bottom Lines,'' Economist, 31 August 13.
    \60\Yiqin Fu, ``China's Crackdown on Social Media: Who Is in 
Danger?'' Tea Leaf Nation, 2 September 13; Adam Taylor, ``China's War 
on Online Gossip Is Starting To Get Scary,'' Business Insider, 31 
August 13; ``China Voice: China Resolves To Root Out Online Rumors,'' 
Xinhua, 21 August 13.
    \61\Malcolm Moore, ``China Launches New Crackdown on Internet 
Celebrities,'' Telegraph, 13 May 13; ``Big Vs and Bottom Lines,'' 
Economist, 31 August 13.
    \62\``Seven Bottom Lines That All Internet Users Should Observe'' 
[Qitiao dixian quanti wangmin yinggai gong shou], Xinhua, 14 August 13; 
Human Rights Watch, ``China: Nationwide Arrests of Activists, Critics 
Multiply,'' 30 August 13; Adam Minter, ``China's Top Tweeters Under 
Fire,'' Bloomberg, 27 August 13; Dong Haibo, ``Web Celebrities Should 
Follow Bottom Line,'' China Daily, 21 August 13.
    \63\``Seven Bottom Lines That All Internet Users Should Observe'' 
[Qitiao dixian quanti wangmin yinggai gong shou], Xinhua, 14 August 13.
    \64\Wu Dingping, ``Xinhua Commentary: Why Microblogging's `Big V's' 
Must Discuss Social Responsibility'' [Xinhuawang ping: weibo ``da V'' 
wei he geng yao jiang shehui zeren], Xinhua, 11 August 13.
    \65\``Outspoken Chinese American Investor Charles Xue Detained in 
Beijing `Prostitution Bust,''' South China Morning Post, 26 August 13; 
Patrick Boehler, ``Opponents Turn to Chinese Classics To Protest Anti-
Rumour Crackdown,'' South China Morning Post, 2 September 13.
    \66\Patrick Boehler, ``Opponents Turn to Chinese Classics To 
Protest Anti-Rumour Crackdown,'' South China Morning Post, 2 September 
13.
    \67\Sophie Beach, China Digital Times, ``Press Freedom, Other 
Topics Off Limits for Academics,'' 10 May 13; ``Exposure of 
Universities' `Seven Don't Mentions' Sparks Heated Debate'' [Zhongguo 
gaoxiao ``qi bu jiang'' bei puguang yinfa re yi], Radio Free Asia, 10 
May 13.
    \68\Benjamin Carlson, ``7 Things You Can't Talk About in China,'' 
Global Post, 3 June 13; ``Exposure of Universities' `Seven Don't 
Mentions' Sparks Heated Debate'' [Zhongguo gaoxiao ``qi bu jiang'' bei 
puguang yinfa re yi], Radio Free Asia, 10 May 13.
    \69\Raymond Li, ``Seven Subjects Off Limits for Teaching, Chinese 
Universities Told,'' South China Morning Post, 11 May 13.
    \70\Ibid.
    \71\Willy Lam, ``Xi and China's Seven Taboos,'' Deutsche Welle, 10 
June 13; ``Xi Jinping's New Policy: After the Seven Unmentionables, 
There Are Another 16 Articles'' [Xi jinping xinzheng: qi bu jiang hou 
you you shiliu tiao], BBC, 28 May 13.
    \72\``China Has Over 170,000 Govt Microblogs,'' Xinhua, reprinted 
in China Daily, 27 March 13.
    \73\Ibid.
    \74\See, e.g., ``Government Microblogging `Choir' Sings the 
Positive Energies of a Harmonious Society'' [Zhengwu weibo ``hechang 
tuan'' chang xiang hexie shehui zheng nengliang], Star Online, 20 June 
13; Liu Fengping, Suichuan Political-Legal Committee, ``Suichuan County 
Political-Legal Committee Opens Government Microblog To Maintain 
Stability and Promote Social Harmony'' [Sui chuan xianwei zhengfa wei 
kaitong zhengwu wei bo weiwen cu hexie], 28 April 13.
    \75\PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, art. 35. See also CECC, 2012 Annual 
Report, 10 October 11, 54.
    \76\Human Rights in China, ``Criminally Detained: Zhao Changqing 
and Six Other Advocates of Public Disclosure of Officials' Assets,'' 19 
April 13; Human Rights in China, ``Activist Detained on Suspicion of 
`Inciting Subversion of State Power' After Calling for Disclosure of 
Officials' Assets,'' 9 May 13; Chinese Human Rights Defenders, ``China: 
End Escalating Criminalizing Peaceful Assembly and Free Expression,'' 
17 July 13; ``China Detains Activist Xu Zhiyong,'' BBC, 17 July 13.
    \77\International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 14. China has signed and stated 
its intent to ratify the ICCPR. Human Rights in China, ``Online 
Activist Sentenced to 8 Years for Subversion; Lawyer Raises Procedural 
Concerns,'' 5 November 12.
    \78\Human Rights in China, ``Criminally Detained: Zhao Changqing 
and Six Other Advocates of Public Disclosure of Officials' Assets,'' 19 
April 13; Human Rights in China, ``Online Activist Sentenced to 8 Years 
for Subversion; Lawyer Raises Procedural Concerns,'' 5 November 12; 
Human Rights Watch, ``China: Nationwide Arrests of Activists, Critics 
Multiply,'' 30 August 13.
    \79\Human Rights in China, ``Jiangsu Citizen Gu Yimin Arrested for 
`Inciting Subversion of State Power,''' 18 June 13; Gillian Wong, 
``Zhai Xiaobing, Chinese Blogger, Arrested For Twitter Joke About 
China's Government,'' Associated Press, reprinted in Huffington Post, 
21 November 12.
    \80\Human Rights Watch, ``China: Nationwide Arrests of Activists, 
Critics Multiply,'' 30 August 13; Human Rights in China, ``Criminally 
Detained: Zhao Changqing and Six Other Advocates of Public Disclosure 
of Officials' Assets,'' 19 April 13; ``Veteran Chinese Rights Lawyer 
Held on Public Order Charges,'' Radio Free Asia, 19 August 13.
    \81\``China Detains Journalist and Photographer Du Bin,'' BBC, 13 
June 13; Reporters Without Borders, ``Citizen Journalist on Trial Over 
Self-Published Books About Environment,'' 11 October 12; ``Chinese 
Journalist Held For Filming School Campaign,'' Radio Free Asia, 25 
April 13.
    \82\Gillian Wong, ``Zhai Xiaobing, Chinese Blogger, Arrested For 
Twitter Joke About China's Government,'' Associated Press, reprinted in 
Huffington Post, 21 November 12. See also ``Beijing Authorities Detain 
Blogger for Satirical Tweet About 18th Party Congress,'' Congressional-
Executive Commission on China, 21 December 12.
    \83\``Qin Yongmin, Zhai Xiaobing Released in Succession'' [Qin 
yongmin, zhai xiaobing xianhou huoshi], Radio Free Asia, 12 December 
12. See also ``Beijing Authorities Detain Blogger for Satirical Tweet 
About 18th Party Congress,'' Congressional-Executive Commission on 
China, 21 December 12.
    \84\Jane Perlez, ``Chinese Journalist Detained in Beijing, One Day 
After Human Rights Talk With U.S.,'' New York Times, 2 August 13; 
Luisetta Mudie, ``Chinese Journalist Vows To Fight For Anti-Graft 
Detainees,'' Radio Free Asia, 5 August 13.
    \85\Luisetta Mudie, ``Chinese Journalist Vows To Fight For Anti-
Graft Detainees,'' Radio Free Asia, 5 August 13.
    \86\Edward Wong, ``Journalist Held in Beijing, Friends Say,'' New 
York Times, 12 June 13; ``China Detains Journalist and Photographer Du 
Bin,'' BBC, 13 June 13.
    \87\``China Detains Journalist and Photographer Du Bin,'' BBC, 13 
June 13; ``Beijing Police For First Time Confirm Criminal Detention of 
Independent Reporter Du Bin'' [Beijing jingfang shouci zhengshi duli 
jizhe du bin bei xingju], BBC, 13 June 13.
    \88\Patrick Boehler, ``Independent Filmmaker Du Bin Released on 
Bail in Beijing,'' South China Morning Post, 9 July 13.
    \89\Ibid.
    \90\Neil Gough, ``Chinese Democracy Advocate Is Freed After 8 Years 
in Prison,'' New York Times, 7 September 13; ``China Releases Prominent 
Dissident Early--Group,'' Reuters, 8 September 13. For more information 
on this case, see the Commission's Political Prisoner Database record 
2004-05482.
    \91\See, e.g., Mimi Lau, ``Sex-Worker Rights Activist Ye Haiyan and 
Family Kicked Out of Guangdong,'' South China Morning Post, 8 July 13; 
Wei De, ``Well-Known Human Rights Activist Hu Jia Beaten Until Bleeding 
by Beijing Domestic Security Protection Officers'' [Zhuming weiquan 
renshi hu jia bei beijing guobao ouda chuxie], China Free Press, 15 
March 13; Andrew Jacobs, ``China Presses Crackdown on Campaign Against 
Graft,'' New York Times, 21 April 13; ``Gansu Lawyer Wang Fengjun 
Drugged and Beaten by Police Investigators for Handling Casework; 
Another Internet User Calling for Disclosure of Public Property 
Criminally Detained'' [Gansu lushi wang fengjun ban'an zao xingjing 
duda beijing you yi wangyou xu caichan gongshi bei xingju], Radio Free 
Asia, 8 July 13.
    \92\``Tibetan Writer Woeser Again Placed Under House Arrest,'' 
Radio Free Asia, 20 June 13; Andrew Jacobs, ``Chinese Blogger Thrives 
as Muckraker,'' New York Times, 5 February 13; Tom Phillips, ``Chinese 
Blogger `Gagged' After Attacking Government for Treatment of Poor,'' 
Telegraph, 19 July 13.
    \93\Isolda Morillo and Alexa Olesen, ``AP Exclusive: China Nobel 
Wife Speaks on Detention,'' Associated Press, 6 December 12; ``Clashes 
as Activist's Daughter Is Denied Schooling,'' Radio Free Asia, 8 April 
13.
    \94\PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, art. 35.
    \95\Josh Chin, ``Forced `Vacation' for Man Who Broke Dumpster Death 
Story,'' Wall Street Journal, China Real Time Report (blog), 23 
November 12.
    \96\``Tibetan Writer Woeser Again Placed Under House Arrest,'' 
Radio Free Asia, 20 June 13.
    \97\``Chinese Professor Banned From Classrooms Over Speech,'' 
Associated Press, reprinted in Asahi Shimbun, 24 August 13; ``Law 
Professor Suspended From Teaching for Pro-Constitutionalism 
Expressions,'' China Change, 25 August 13; ``Shanghai Lawyer Suspended 
Over Constitutional Campaigns,'' Radio Free Asia, 29 August 13.
    \98\See, e.g., Andrew Jacobs, ``Chinese Blogger Thrives as 
Muckraker,'' New York Times, 5 February 13.
    \99\Isolda Morillo and Alexa Olesen, ``AP Exclusive: China Nobel 
Wife Speaks on Detention,'' Associated Press, 6 December 12.
    \100\Ibid.
    \101\UN Human Rights Council, ``Tenth Anniversary Joint 
Declaration: Ten Key Challenges to Freedom of Expression in the Next 
Decade,'' Addendum to Report of the Special Rapporteur on the Promotion 
and Protection of the Rights to Freedom of Opinion and Expression, 25 
March 10, A/HRC/14/23/Add. 2, art. 1(a).
    \102\Reporters Without Borders, ``2013 World Press Freedom Index'' 
30 January 13; Olga Khazan, ``Map: Where Reporters Have the Least 
Freedom,'' Washington Post, 30 January 13.
    \103\Gao Yu, ``Beijing Observation: Regressing Further From `Five 
Nos,''' Seeing Red in China (blog), 16 May 13; ``China's Control of the 
Internet Activities of Media Professionals Causes Concern'' [Zhongguo 
kongzhi meitiren wangluo huodong yin guanzhu] BBC, 17 April 13; Ren 
Xianliang, ``Comprehensively Planning Two Public Opinion Fields, 
Concentrating Positive Social Energy'' [Tongchou liang ge yulun chang 
ningju shehui zheng nengliang], Red Flag Journal, reprinted in Seeking 
Truth, 13 April 13.
    \104\Ren Xianliang, ``Comprehensively Planning Two Public Opinion 
Fields, Concentrating Positive Social Energy'' [Tongchou liang ge yulun 
chang ningju shehui zheng nengliang], Red Flag Journal, reprinted in 
Seeking Truth, 13 April 13. For an English translation of Ren 
Xianliang's remarks, see David Bandurski, ``Party Must Grab the Agenda, 
Says Official,'' China Media Project, 12 April 13; Gao Yu, ``Beijing 
Observation: Regressing Further From `Five Nos,''' Seeing Red in China 
(blog), 16 May 13.
    \105\Chen Xi, ```Mingjing Magazine': Exclusive Entire Text of 
Disseminated Chinese Communist Document No. 9'' [``Mingjing yuekan'' 
dujia quanwen kan fa zhonggong 9 hao wenjian], Mingjing Magazine, 19 
August 13; Chris Buckley, ``China Takes Aim at Western Ideas,'' New 
York Times, 19 August 13.
    \106\``China Newspaper Journalists Stage Rare Strike,'' BBC, 7 
January 13.
    \107\```Southern Weekend' New Year's Message, Comparison of the Two 
Versions'' [``Nanfang zhoumo'' yuandan xianci liang banben bijiao], 
BBC, 4 January 13; ``Journalists Confront China Censors Over 
Editorial,'' Associated Press, reprinted in USA Today, 4 January 13; 
Keith B. Richburg, ``Chinese Journalists Mount Rare Protest Over an 
Alleged Act of Government Censorship,'' Washington Post, 4 January 13; 
International Federation of Journalists, ``Journalists Strike Against 
Censorship in Mainland China,'' 7 January 13.
    \108\Keith B. Richburg, ``Chinese Journalists Mount Rare Protest 
Over an Alleged Act of Government Censorship,'' Washington Post, 4 
January 13.
    \109\Edward Wong, ``Protest Grows Over Censoring of China Paper,'' 
New York Times, 7 January 13; Jonathan Kaiman, ``China Anti-Censorship 
Protest Attracts Support Across Country,'' Guardian, 7 January 13.
    \110\Ibid.
    \111\Edward Wong, ``Protest Grows Over Censoring of China Paper,'' 
New York Times, 7 January 13.
    \112\International Federation of Journalists, ``Journalists Strike 
Against Censorship in Mainland China,'' 7 January 13.
    \113\``Southern Weekend Issue Prompts Soul-Searching Over Media's 
Role,'' Global Times, 8 January 13.
    \114\Xiao Shu, ``Dim Hopes for a Free Press in China,'' New York 
Times, 14 January 13.
    \115\``China To Merge Press, Broadcasting Regulators,'' Xinhua, 10 
March 13; ``State General Administration of Press, Publication, Radio, 
Film and Television Hangs a Sign; Cai Fuchao and Jiang Jianguo Joint 
Photo'' [Guojia xinwen chuban guangdian zongju guapai cai fuchao jiang 
jianguo heying], China News Service, 22 March 13.
    \116\He Qinglian, The Fog of Censorship: Media Control in China 
(New York: Human Rights in China, 2008), 25.
    \117\State Council Information Office and Ministry of Information 
Industry, Provisions on the Administration of Internet News Information 
Services [Hulianwang xinwen xinxi fuwu guanli guiding], issued and 
effective 25 September 05, arts. 7, 8, 11; General Administration of 
Press and Publication, Regulations on the Administration of Publishing 
[Chuban guanli tiaoli], issued 25 December 01, effective 1 February 02, 
art. 15; General Administration of Press and Publication, Measures for 
Administration of News Reporter Cards [Xinwen jizhe zheng guanli 
banfa], issued 24 August 09, effective 15 October 09, arts. 11, 12, 16.
    \118\Zhejiang Province Radio, Film and Television Bureau, ``2010 
Nationwide Radio and Television Editors and Reporters, Broadcasters, 
and Hosts Qualification Exam'' [2010 nian quanguo guangbo dianshi 
bianji jizhe, boyin yuan zhuchi ren zige kaoshi dagang], 30 July 10, 
chap. 2, art. 6.
    \119\General Administration of Press and Publication, ``Several 
Provisions To Prevent and Guard Against False Reporting'' [Guanyu 
yanfang xujia xinwen baodao de ruogan guiding], 19 October 11, art. 
1(4); Michael Wines, ``China Rolls Out Tighter Rules on Reporting,'' 
New York Times, 11 November 11.
    \120\Pu Yasu, ``SARFT to Enhance Control Over Editors' Online 
Activities'' [Xinwen chuban guangdian zongju jiang jiaqiang caibian 
renyuan wangluo huodong guanli], China Press and Publishing Journal, 
reprinted in Xinhua, 16 April 13.
    \121\Tom Phillips, ``Chinese Journalists Banned from Quoting 
Foreign Media,'' Telegraph, 17 April 13.
    \122\State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. I (6).
    \123\For more information, see Deng Yuwen, ``China Should Abandon 
North Korea,'' Financial Times, 27 February 13; ``Chinese Editor Fired 
Over Call To Abandon N.Korea,'' Chosun Ilbo, 1 April 13; Kentaro 
Koyama, ``China Magazine Spikes Taiwan Issue, Fires Staff,'' Asahi 
Shimbun, 23 March 13.
    \124\Deng Yuwen, ``China Should Abandon North Korea,'' Financial 
Times, 27 February 13; ``Chinese Editor Fired Over Call To Abandon 
N.Korea,'' Chosun Ilbo, 1 April 13; Jane Perlez, ``Penalty for Chinese 
Editor Critical of Korea Stance,'' New York Times, 1 April 13.
    \125\Committee to Protect Journalists, ``Chinese Journalist Who 
Raised Corruption Charges Jailed,'' 29 August 13.
    \126\``Police Hold Chongqing Journalist Who Exposed Graft,'' Radio 
Free Asia, 23 August 13; Committee to Protect Journalists, ``Chinese 
Journalist Who Raised Corruption Charges Jailed,'' 29 August 13.
    \127\Reporters Without Borders, ``Take No Photos or You Will Die 
Here,'' 19 July 13.
    \128\Ibid.; Liu Gang, ``In Hunan, Two Reporters Interviewing Melon 
Vendors About Death Beaten by Police'' [Hunan 2 ming jizhe caifang gua 
fan siwang shijian bei jingcha ouda], Oriental Daily, 18 July 13.
    \129\Reporters Without Borders, ``Take No Photos or You Will Die 
Here,'' 19 July 13; Liu Gang, ``In Hunan, Two Reporters Interviewing 
Melon Vendors About Death Beaten by Police'' [Hunan 2 ming jizhe 
caifang gua fan siwang shijian bei jingcha ouda], Oriental Daily, 18 
July 13.
    \130\Reporters Without Borders, ``RWB Calls for the Immediate and 
Unconditional Release of Boxun Journalist Sun Lin,'' reprinted in 
Boxun, 26 April 13.
    \131\Verna Yu, ``Hong Kong Journalists, Activist Beaten Outside 
Home of Wife of Dissident Liu Xiaobo,'' South China Morning Post, 9 
March 13.
    \132\Committee to Protect Journalists, ``Hong Kong Journalists 
Beaten in Beijing,'' 11 March 13; Verna Yu, ``Hong Kong Journalists, 
Activist Beaten Outside Home of Wife of Dissident Liu Xiaobo,'' South 
China Morning Post, 9 March 13.
    \133\Verna Yu, ``Hong Kong Journalists, Activist Beaten Outside 
Home of Wife of Dissident Liu Xiaobo,'' South China Morning Post, 9 
March 13.
    \134\Committee to Protect Journalists, ``Top Chinese Reporter Fired 
as Thugs Attack Film Crew,'' Radio Free Asia, 1 March 13; ``German TV 
Crew Attacked While Filming in China,'' 4 March 13.
    \135\International Federation of Journalists, ``Journalists 
Attacked in Hong Kong and Mainland China,'' 23 April 13.
    \136\Foreign Correspondents' Club of China, ``Annual Working 
Conditions Survey,'' reprinted in Committee to Protect Journalists, 11 
July 13.
    \137\Ibid.
    Notes to Section II--Worker Rights

    \1\PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, art. 35.
    \2\PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
issued and effective 3 April 92, amended 27 October 01, art. 3; 
Constitution of the Chinese Trade Unions [Zhongguo gonghui zhangcheng], 
adopted 26 September 03, amended 21 October 08, General Provisions.
    \3\For example, during the past year, ACFTU Chairman Li Jianguo was 
concurrently a member of the Political Bureau of the Communist Party 
Central Committee. See All-China Federation of Trade Unions, Yan Yan, 
``Li Jianguo Elected Chairman of All-China Federation of Trade Unions'' 
[Li jianguo dangxuan zhonghua quanguo zong gonghui zhuxi], People's 
Daily, 1 March 13. See also Lu Jianmin, ``The Trade Union System Within 
Collective Bargaining in China'' [Lu jianmin: zhongguo jiti tanpan 
zhong de tizhi gonghui], Leader, reprinted in Consensus Net, 7 May 13; 
Li Honghuo, ``The System Really Has To Operate in Order To Contain 
Conflict'' [Zhidu zhenshi yunzhuan caineng kongzhi chongtu], Dongguan 
Daily, 20 May 13.
    \4\PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
issued and effective 3 April 92, amended 27 October 01, art. 4; 
Constitution of the Chinese Trade Unions [Zhongguo gonghui zhangcheng], 
effective 26 September 03, amended 21 October 08, General Provisions.
    \5\Elaine Sio-ieng Hui, ``How Direct Are the `Direct Elections' of 
Trade Union Officials in China?'' Global Labour Column, Number 109, 
October 2012; Working Conditions and Worker Rights in China: Recent 
Developments, Hearing of the Congressional-Executive Commission on 
China, 31 July 12, Written Statement Submitted by Mary E. Gallagher, 
Associate Professor of Political Science and Director of the Center for 
Chinese Studies, University of Michigan, 10.
    \6\Wu Jiajie, ``Trade Unions Must Return to Their Functional Role'' 
[Gonghui yao xiang zishen zhineng juese huigui], Dongguan Daily, 20 May 
13; Lu Jianmin, ``The Trade Union System Within Collective Bargaining 
in China'' [Lu jianmin: zhongguo jiti tanpan zhong de tizhi gonghui], 
Leader, reprinted in Consensus Net, 7 May 13; Elaine Sio-ieng Hui, 
``How Direct Are the `Direct Elections' of Trade Union Officials in 
China?'' Global Labour Column, Number 109, October 2012.
    \7\Elaine Sio-ieng Hui, ``How Direct Are the `Direct Elections' of 
Trade Union Officials in China?'' Global Labour Column, Number 109, 
October 2012.
    \8\PRC Labor Law [Zhongguo renmin gongheguo laodong fa], issued 5 
July 94, effective 1 January 95, arts. 8, 33. See also PRC Trade Union 
Law [Zhonghua renmin gongheguo gonghui fa], issued and effective 3 
April 92, amended 27 October 01, art. 18; PRC Labor Contract Law 
[Zhongguo renmin gongheguo laodong hetong fa], issued 29 June 07, 
effective 1 January 08, amended 28 December 12, arts. 6, 51-56.
    \9\Suo Hanxue, ``70 Percent of Line Workers Not Satisfied With 
Existing Wages, Ministry of Human Resources and Social Security Intends 
To Push for Wage Negotiations'' [Qi cheng yixian gongren buman xianyou 
gongzi renshibu ni tui gongzi xieshang], China Business, reprinted in 
Sina, 9 March 13; Yang Mingqing, ``Vigorously Promote Collective Wage 
Negotiations, Actively Advance Harmonious Labor Relations'' [Dali 
tuixing gongzi jiti xieshang jiji cujin laodong guanxi hexie], Workers' 
Daily, 23 January 13; Fan Xi and Chu Hang, ``Collective Wage 
Negotiations Allow Workers To Enjoy `the Right To Speak' on Income'' 
[Gongzi jiti xieshang, rang laodongzhe xiangyou shouru ``huayu quan''], 
Xinhua, 1 May 13.
    \10\Lu Jianmin, ``The Trade Union System Within Collective 
Bargaining in China'' [Lu jianmin: zhongguo jiti tanpan zhong de tizhi 
gonghui], Leader, reprinted in Consensus Net, 7 May 13; Wu Jiajie, 
``Trade Unions Must Return to Their Functional Role'' [Gonghui yao 
xiang zishen zhineng juese huigui], Dongguan Daily, 20 May 13; Lei 
Xiaotian, ``Reshaping the Government's Role in Collective 
Consultations'' [Zhengfu zai jiti xieshang zhong zai juese chongsu], 
Chinese Cadres Tribune, reprinted in Theory Net, 7 May 13.
    \11\Chen Xiaobo and Zhang Xiaoyu, ``Awkward Situation of Collective 
Wage Consultations'' [Gongzi jiti xieshang yu ganga], Yunnan Daily, 
reprinted in Collective Bargaining Forum, 1 August 13.
    \12\Ibid.
    \13\China Labour Bulletin, ``Nanhai Honda Workers Obtain Higher 
Salaries After One Day Strike'' [Nanhai bentian gongren zai wei qi 
yitian de bagong hou huode geng gao gongzi], 25 March 13.
    \14\Zhang Ke, ``Research Report Uncovers Foxconn `Real Trade 
Unions' Merely for Decoration'' [Diaoyan baogao jiemi: fushikang 
``zhenzheng gonghui'' zhishi baishe], First Financial, 1 May 13.
    \15\Zheng Caixiong, ``Trial Begins To Elect Trade Union Chiefs,'' 
China Daily, 15 January 13; Wang Daobin, ``Trial Direct Elections of 
Union Chairpersons Will Be Carried Out This Year'' [Jinnian jiang 
shidian gonghui zhuxi zhixuan], Southern Metropolitan Daily, 15 January 
13; Zhu Jun, ``Ningbo, Yingzhou District, Tangxi Town Attempts Direct 
Elections of Enterprise Union Chairpersons'' [Ningbo yingzhou qu tangxi 
zhen changshi qiye gonghui zhuxi zhixuan], Ningbo Net, reprinted in 
Collective Bargaining Forum, 20 May 13; Yao Xuepei, ``61 Enterprises 
Carry Out Direct Elections of Union Chairpersons'' [61 jia qiye tuixing 
zhixuan gonghui zhuxi], Gaoming Today, 10 May 13. For previous 
reporting on direct union elections, see, e.g., CECC, 2012 Annual 
Report, 60.
    \16\Zheng Caixiong, ``Trial Begins To Elect Trade Union Chiefs,'' 
China Daily, 15 January 13; Wang Daobin, ``Trial Direct Elections of 
Union Chairpersons Will Be Carried Out This Year'' [Jinnian jiang 
shidian gonghui zhuxi zhixuan], Southern Metropolitan Daily, 15 January 
13.
    \17\Yao Xuepei, ``61 Enterprises Carry Out Direct Elections of 
Union Chairpersons'' [61 jia qiye tuixing zhixuan gonghui zhuxi], 
Gaoming Today, 10 May 13.
    \18\Clare Jim and Jonathan Standing, ``Foxconn Says To Boost China 
Worker Participation in Union,'' Reuters, 4 February 13; Michelle Chan, 
``Can We Trust Foxconn's New `Democratic' Chinese Factories?'' In These 
Times, 11 February 13.
    \19\``Foxconn Plans To Establish Genuinely Representative Trade 
Unions in Chinese Factories'' [Fushikang zhongguo gongchang ni chengli 
zhenzheng ju daibiaoxing gonghui], Voice of America, 5 February 13; 
``Foxconn Prepares To Establish Trade Unions in China That Are 
Genuinely Representative of Worker Rights and Interests'' [Fushikang 
zhunbei zai zhongguo chengli zhenzheng daibiao gongren quanyi de 
gonghui], Radio Free Asia, 4 February 13; Clare Jim and Jonathan 
Standing, ``Foxconn Says To Boost China Worker Participation in 
Union,'' Reuters, 4 February 13.
    \20\Kathrin Hille and Rahul Jacob, ``China Wary Amid Push for 
Workers' Union Poll,'' Financial Times, 3 February 13.
    \21\Li Yulin, ``After the Direct Election of Unions'' [Zhixuan 
gonghui zhihou], China Fortune, 3 September 12; China Labour Bulletin, 
``Shenzhen Workers Demand Ouster of Trade Union Chairman After `Model 
Election,''' 8 March 13; Sun Tianming, ``Enterprise Direct Union 
Elections: A Rare Democratic Practice'' [Qiye gonghui zhixuan: nande de 
minzhu caolian], Southern Metropolitan Daily, 27 June 13.
    \22\Li Xiaoxu, ``First Directly Elected Union Chairman in Shenzhen 
Suspected of Not Doing Enough To Defend Legal Rights Faces Joint 
Declaration for His Dismissal'' [Shenzhen shouwei zhixuan gonghui zhuxi 
yi yin weiquan bu li zao lianming bamian], Yangcheng Evening News, 1 
March 13; ``Why We Want To Recall the Labour Union Chairman,'' China 
Labour Net, 12 March 13.
    \23\``Why We Want To Recall the Labour Union Chairman,'' China 
Labour Net, 12 March 13.
    \24\China Labour Bulletin, ``Shenzhen Workers Demand Ouster of 
Trade Union Chairman After `Model Election,''' 8 March 13.
    \25\``Worker Protests Continue To Emerge in Guangdong'' [Guangdong 
lianxu chuxian gong chao], Radio Free Asia, 24 April 13; ``Multiple 
Worker Protests Emerge in Guangdong'' [Guangdong gong chao duo chu 
yongxian], Radio Free Asia, 8 March 13; Jennifer Cheung, China Labour 
Bulletin, ``China Sees Upsurge in Worker Protests Prior to Lunar New 
Year,'' 8 February 13; Jennifer Cheung, China Labour Bulletin, 
``Strikes and Worker Protests in China's Service Sector on the 
Increase,'' 7 May 13.
    \26\``Over a Thousand Workers in Shenzhen Block Roads, Riot Police 
Release Tear Gas To Drive Away Workers'' [Shenzhen yu qian gongren du 
lu fangbaojing fang cuileidan qugan], Radio Free Asia, 23 May 13; 
``Shenzhen Shoe Factory Goes Bankrupt, 500 Workers Demanding Back Wages 
Assaulted by Riot Police'' [Shenzhen xie chang daobi wu bai gongren 
taoxin zao tejing ouda], Radio Free Asia, 27 May 13; Jennifer Cheung, 
China Labour Bulletin, ``Strike and Worker Protests in China's Service 
Sector on the Increase,'' 7 May 13; ``A Thousand Workers in Foshan 
Strike for Two Days, Factory Threatens To Fire Those Workers Who Don't 
Return to Work'' [Foshan qian ming gongren lianxu liang ri bagong 
gongchang weixie bu fugong jiu kaichu], Radio Free Asia, 7 June 13; 
``Longgang District, Shenzhen Workers From Two Factories Stage 
Collective Strikes'' [Shenzhen longgang qu liang chang yuangong jiti 
bagong], Radio Free Asia, 21 June 13.
    \27\``Several Hundred Dye Factory Workers Block Roads Seeking Back 
Wages'' [Shubai ranchang gongren du lu zhui tao qianxin], Radio Free 
Asia, 1 May 13; ``Labor Rights Damaged, Chongqing and Shenzhen Have 
Labor Strikes'' [Laogong quanyi shousun chongqing, shenzhen xian gong 
chao], Radio Free Asia, 30 April 13; Jennifer Cheung, China Labour 
Bulletin, ``China Sees Upsurge in Worker Protests Prior to Lunar New 
Year,'' 8 February 13.
    \28\``Thousand Workers at Foxconn Jiangxi Factory Unsatisfied With 
Wages and Treatment Demonstrate'' [Fushikang jiangxi gongchang qian ren 
buman xinzi daiyu shangjie youxing], West Net, reprinted in First 
Financial, 13 January 13; Fiona Tam, ``1,000 Workers Hold Managers 
Hostage in Shanghai Labour Row,'' South China Morning Post, 21 January 
13.
    \29\Eli Friedman, ``China in Revolt,'' Jacobin, Issue 7-8, August 
2012.
    \30\Huang Xiaoqing et al., ``Workers at Nanhai Honda Stop Working 
Seeking Raise in Salary'' [Nanhai bentian gongren tinggong qiu jiaxin], 
Yangcheng Evening News, 20 March 13; China Labour Bulletin, ``China's 
Workers Demand a Better Trade Union,'' 22 March 13.
    \31\According to media reports, authorities released 19 of the 27 
workers a day later. The Commission has not observed subsequent reports 
on the eight workers not released. ``Guangdong Highway Owner Withholds 
Hunan Migrant Workers' Billion Yuan in Wages Leading to Mass Incident'' 
[Guangdong gaosulu yezhu tuoqian hunan mingong shang yi yuan gongzi 
yinfa qunti shijian], Radio Free Asia, 3 February 13; ``Migrant Worker 
Salary Demands Frequent In All Parts of the Country, Government Blindly 
Suppresses To Maintain Stability'' [Nongmingong taoxin gedi pin fa 
zhengfu wei weiwen yiwei da ya], Radio Free Asia, 4 February 13.
    \32\``Shenzhen Shoe Factory Goes Bankrupt, 500 Workers Demanding 
Back Wages Assaulted by Riot Police'' [Shenzhen xie chang daobi wu bai 
gongren taoxin zao tejing ouda], Radio Free Asia, 27 May 13; ``Over a 
Thousand Workers in Shenzhen Block Roads, Riot Police Release Tear Gas 
To Drive Away Workers'' [Shenzhen yu qian gongren du lu fangbaojing 
fang cuileidan qugan], Radio Free Asia, 23 May 13; ``Taiwanese 
Enterprise Closes Still Owing Wages, Over Hundred Petitioning Workers 
Arrested'' [Tai qi jieye qianxin shangfang gongren bai duo ren beibu], 
Radio Free Asia, 20 March 13.
    \33\``Thousands Striking in Guangzhou in Bloody Clash With Police; 
Hundreds of Workers at Guizhou Weapons Factory Go to the Streets 
Seeking Pay'' [Guangzhou qian ren bagong yu jing liuxue chongtu guizhou 
jun xie chang shubai yuangong shangjie zheng xinchou], Radio Free Asia, 
30 January 13; ``Hundreds of Migrant Workers at Guangdong Provincial 
Government Demanding Back Wages Dispersed, Over a Hundred Petitioners 
in Shanxi Imprisoned for Petitioning at Two Sessions'' [Shubai 
nongmingong yue fu taoxin zao qusan shanxi yu bai fangmin lianghui 
qingyuan bei guanya], Radio Free Asia, 24 January 13.
    \34\``Thousands of Workers at Foxconn Jiangxi Factory Unsatisfied 
With Wages Demonstrate on the Streets'' [Fushikang jiangxi gongchang 
qian ren buman xin zi daiyu shangjie youxing], West Net, reprinted in 
First Financial, 13 January 13.
    \35\Eli Friedman, ``China in Revolt,'' Jacobin, Issue 7-8, August 
2012; Working Conditions and Worker Rights in China: Recent 
Developments, Hearing of the Congressional-Executive Commission on 
China, 31 July 12, Written Statement Submitted by Mary E. Gallagher, 
Associate Professor of Political Science and Director of the Center for 
Chinese Studies, University of Michigan, 3-4; ``Worker Strikes Break 
Out in Hangzhou and Other Places, Citizens Rights Defense Awareness 
Gradually Increasing'' [Hangzhou deng di fasheng yuangong bagong 
shijian gongmin weiquan yishi zhujian zengqiang], Radio Free Asia, 4 
March 13.
    \36\``Investigation States Not Paying Migrant Workers Overtime 
Wages Is Still Comparatively Common Occurrence'' [Diaocha cheng bu 
zhifu nongmingong jiaban gongzi xianxiang reng jiaowei changjian], 
China Youth Daily, reprinted in Sina, 7 February 13; Han Dongfang, 
``China's Workers Unite,'' New York Times, 8 November 12.
    \37\Kevin Voigt, ``China's Workforce at a Crossroads,'' CNN, 21 
March 13; William Wan, ``Foxconn Riots in China Seen as Likely To 
Recur,'' Washington Post, 25 September 12; Yu Ran, ``Young Job Seekers 
Expect More Than Just Wages,'' China Daily, 21 February 13; National 
Bureau of Statistics of China, ``2012 Nationwide Migrant Worker 
Monitoring Survey Report'' [2012 nian quanguo nongmingong jiance 
diaocha baogao], 27 March 13.
    \38\William Wan, ``Foxconn Riots in China Seen as Likely To 
Recur,'' Washington Post, 25 September 12; Alexandra Ho and Tim Culpan, 
``Foxconn Workers Labor Under Guard After Riot Shuts Plant,'' 
Bloomberg, 26 September 12; Lin Qiling, ``Taiyuan Foxconn Brawl 
Persists for Four Hours; Alleged Beating by Security Guards Lead to 
Brawl'' [Taiyuan fushikang qun ou chixu 4 xiaoshi jucheng yin baoan 
daren yinfa], Beijing News, reprinted in Xinhua, 25 September 12.
    \39\Li Li, ``Legal Expert: Evidence Is the Achilles Heel in Migrant 
Workers' Difficulty Obtaining Back Wages'' [Falu zhuanjia: zhengju shi 
nongmingong taoxin nan de sixue], China Youth Daily, 28 February 13; 
``For Migrant Workers Seeking To Recover Wages in Hebei, 95 Percent of 
Wage Arrears Occur in the Construction Sector'' [Hebei sheng wei 
nongmingong zhui tao gongzi 95% qianxin fasheng zai jianzhu lingyu], 
Great Wall Net, reprinted in China News Service, 16 January 13.
    \40\China Labour Bulletin, ``Employment Discrimination in China,'' 
20 November 12; Jiang Chunyuan, ```Migrant Workers Prohibited From 
Using Toilet': Discrimination and Arrogance Behind Signboard'' 
[``Nongmingong jinzhi ruce'': gaoshipai hou de aoman yu pianjian], 
Xinhua, 26 March 13.
    \41\China Labour Bulletin, ``Employment Discrimination in China,'' 
20 November 12; Zi Xiuchun, ``Lawyer Huang Leping's Letter: The Five 
Main Problems in Migrant Workers' Lives I Hope Committee Delegates 
Address'' [Huang leping lushi laixin: nongmingong shenghuo wu da nanti 
xiwang dedao daibiao weiyuan guanzhu], Workers' Daily, reprinted in 
Beijing Yilian Labor Law Aid and Research Center, 6 March 13.
    \42\National Bureau of Statistics of China, ``2012 Nationwide 
Migrant Worker Monitoring Survey Report'' [2012 nian quanguo 
nongmingong jiance diaocha baogao], 27 March 13.
    \43\Zi Xiuchun, ``Lawyer Huang Leping's Letter: The Five Main 
Problems in Migrant Workers' Lives I Hope Committee Delegates Address'' 
[Huang leping lushi laixin: nongmingong shenghuo wu da nanti xiwang 
dedao daibiao weiyuan guanzhu], Workers' Daily, reprinted in Beijing 
Yilian Labor Law Aid and Research Center, 6 March 13.
    \44\National Bureau of Statistics of China, ``2012 Nationwide 
Migrant Worker Monitoring Survey Report'' [2012 nian quanguo 
nongmingong jiance diaocha baogao], 27 March 13.
    \45\Li Li, ``Legal Expert: Evidence Is the Achilles Heel in Migrant 
Workers' Difficulty Obtaining Back Wages'' [Falu zhuanjia: zhengju shi 
nongmingong taoxin nan de sixue], China Youth Daily, 28 February 13; Li 
Keyong, Fu Yongtao et al., ``Labor Law, Those Clauses That Are Ignored 
(Policy Focus)'' [Laodong fa, na xie bei moshi de tiaokuan (zhengce 
jujiao)], People's Daily, 1 March 13.
    \46\National Bureau of Statistics of China, ``2012 Nationwide 
Migrant Worker Monitoring Survey Report'' [2012 nian quanguo 
nongmingong jiance diaocha baogao], 27 March 13.
    \47\Zi Xiuchun, ``Lawyer Huang Leping's Letter: The Five Main 
Problems in Migrant Workers' Lives I Hope Committee Delegates Address'' 
[Huang leping lushi laixin: nongmingong shenghuo wu da nanti xiwang 
dedao daibiao weiyuan guanzhu], Workers' Daily, reprinted in Beijing 
Yilian Labor Law Aid and Research Center, 6 March 13; Sun Yangshuang, 
``New Generation Migrant Workers `Merge Into the City,' a Long Road'' 
[Xinshengdai nongmingong ``rong cheng,'' lu you duo yuan], Jilin Daily, 
reprinted in Worker's Daily, 25 March 13; ``China's Hukou System Puts 
Migrant Workers at Severe Economic Disadvantage,'' Public Radio 
International, 1 May 13.
    \48\Zhuang Pinghui, ``Migrant Workers Feel Like Outsiders in 
Mainland Cities, Says Survey,'' South China Morning Post, 3 March 13; 
Huang Chen, ``Investigation of Migrant Worker Happiness: Although 
Income Has Increased, Still Consider Themselves the Lowest Rung of 
Society'' [Nongmingong xingfu gan diaocha: shouru sui zeng reng ziren 
``diceng''], Caixin, 28 February 13.
    \49\ILO Convention (No. 138) Concerning Minimum Age for Admission 
to Employment, 26 June 73; ILO Convention (No. 182) Concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, 17 June 99.
    \50\PRC Labor Law [Zhonghua renmin gongheguo laodong fa], issued 5 
July 94, effective 1 January 95, amended 10 October 01, art. 15. See 
also PRC Law on the Protection of Minors [Zhonghua renmin gongheguo wei 
chengnian ren baohu fa], issued 4 September 91, effective 1 January 92, 
art. 28. See generally Provisions on Prohibiting the Use of Child Labor 
[Jinzhi shiyong tonggong guiding], issued 1 October 02, effective 1 
December 02.
    \51\International Trade Union Confederation, ``Report for the WTO 
General Council Review of the Trade Policies of the People's Republic 
of China,'' June 2012, 16; International Labour Organization, 
``Observation (CEACR)--adopted 2010, published 100th ILC session (2011) 
C138--Minimum Age Convention, 1973 (No. 138)--China,'' adopted 2010, 
published 100th ILC Session 2011.
    \52\International Labour Organization, ``Address at the High-Level 
Meeting on the Application of Child Labour Conventions Ratified by 
China,'' 6 September 12; International Labour Organization, 
``Information Document on Ratifications and Standards-Related 
Activities,'' International Labour Conference, 102nd Session, 2013, 17.
    \53\International Labour Organization, ``Observation (CEACR)--
C138--Minimum Age Convention, 1973 (No. 138)--China,'' adopted 2010, 
published 100th ILC Session 2011.
    \54\See, e.g., Apple Inc., ``Apple Supplier Responsibility 2013 
Progress Report,'' January 2013, 18; ``Underage Foxconn Interns Return 
to School,'' Xinhua, reprinted in China Daily, 17 October 12; Min-Jeong 
Lee, ``Samsung Under Watch for China Labor Practices,'' Wall Street 
Journal, 18 December 12; ``Unable To Recruit Workers, Child Laborers 
Used as Substitutes, Clothing Factory in Jiaozhou Reformed'' [Zhao 
budao gongren na tonggong dingshang jiaozhou yi fuzhuang chang bei 
zhenggai], Online Textile City, 12 April 13; Rao Dehong, ``7 Female 
Primary School Students From Liangshan Lured To Work in Dongguan Will 
Be Returned to School'' [7 ming liangshan xiaoxue nu sheng bei you zhi 
dongguan wugong jiang bei jiehui fanxiao shangxue], Southern 
Metropolitan Daily, 6 December 12.
    \55\John Paczkowski, ``Apple Busts Supplier for Underage Labor in 
Latest Responsibility Report,'' All Things Digital, 24 January 13; 
Apple Inc., ``Apple Supplier Responsibility 2013 Progress Report,'' 
January 2013, 18.
    \56\State Council, Provisions on Prohibiting the Use of Child Labor 
[Jinzhi shiyong tonggong guiding], issued 1 October 02, effective 1 
December 02, art. 13.
    \57\PRC Education Law [Zhonghua renmin gongheguo jiaoyu fa], issued 
18 March 95, effective 1 September 95, amended 27 August 09, art. 58.
    \58\See, e.g., Raymond Li, ``Foxconn Flouts Labour Law With Under-
16 Interns in Shandong,'' South China Morning Post, 17 October 12; Lin 
Yimin and He Daolan, ``Young Student Interns Become Assembly Line 
Workers?'' [Xuesheng zi shixi bian liushui gong?], Guangzhou Daily, 14 
March 13.
    \59\See International Labour Organization (ILO), Convention 
concerning Minimum Age for Admission to Employment (No. 138), adopted 
by 58th Session ILC 26 June 73, entry into force 19 June 76, art. 6. 
ILO guidelines on the subject of vocational training, apprenticeships 
and related internships vis-a-vis child labor permits such work ``in 
accordance with conditions prescribed by the competent authority'' and 
in programs involving education, training, or ``guidance or orientation 
[on] . . . the choice of an occupation or of a line of training.'' See 
also ILO Recommendation 146 on the Minimum Age for Admission to 
Employment, item 12.2. The General Conference of the ILO adopted 
Recommendation 146 relating to the 1973 Minimum Age Convention, which 
urged that measures ``be taken to safeguard and supervise the 
conditions in which children and young persons undergo vocational 
orientation and training within undertakings, training institutions and 
schools for vocation or technical education and to formulate standards 
for their protection and development.'' See also International Labour 
Organization, Convention concerning Forced or Compulsory Labour (No. 
29), adopted by 14th ILC Session 28 June 30, entry into force 1 May 32; 
International Labour Office, General Survey Concerning the Forced 
Labour Convention, 1930 (No. 29), and the Abolition of Forced Labor 
Convention, 1957 (No. 105), International Labour Conference, 96th 
Session, 2007, 19-20. ILO's Committee of Experts noted that vocational 
training does not necessarily constitute compulsory work or service 
within the meaning of the Forced Labour Convention (No. 29), but states 
that ``. . . vocational training usually entails a certain amount of 
practical work, and for that reason, the distinction between training 
and employment is sometimes difficult to draw. It is therefore only by 
reference to the various elements involved in the general context of a 
particular scheme of training that it becomes possible to determine 
whether such scheme is unequivocally one of vocational training or on 
the contrary involves the exaction of work or service within the 
definition of `forced or compulsory labor.'''
    \60\Lin Yimin and He Daolan, ``Young Student Interns Become 
Assembly Line Workers?'' [Xuesheng zi shixi bian liushui gong?], 
Guangzhou Daily, 14 March 13; Lin Yimin and He Daolan, ``Student 
Factory Interns Act as Laborers, Working 11 Hour Days, Schools Do the 
Negotiating'' [Xuesheng gongchang shixi bei dang laogong meitian gan 11 
xiaoshi xiao fang yi jiaoshe], Guangzhou Daily, reprinted in China News 
Service, 15 March 13.
    \61\Lin Yimin and He Daolan, ``Young Student Interns Become 
Assembly Line Workers?'' [Xuesheng zi shixi bian liushui gong?], 
Guangzhou Daily, 14 March 13.
    \62\``Underage Foxconn Interns Return to School,'' Xinhua, 
reprinted in China Daily, 17 October 12.
    \63\Ibid.; David Pierson, ``Chinese Factory Giant Employed Underage 
Interns on Assembly Line,'' Los Angeles Times, 30 October 12.
    \64\Raymond Li, ``Foxconn Flouts Labour Law With Under-16 Interns 
in Shandong,'' South China Morning Post, 17 October 12.
    \65\Lucy Hornby, ``Use of Student Interns Highlights China Labor 
Shortage,'' Reuters, 6 January 13; Wang Xian and Li Nan, ``Foxconn 
Stages Recruitment Frenzy, Numerous University Students `Forced Into 
Internships''' [Fushikang shangyan zhao gong kuangchao duodi gaoxiao 
xuesheng ``bei shixi''], China National Radio, 7 September 12.
    \66\China Labour Bulletin, ``Debate on Revisions to Labour Contract 
Law Delayed Because of Deluge of Submissions,'' 31 October 12; Pang Le, 
``Dispatch Laborers Hope for Equal Pay for Equal Work'' [Laowu paiqian 
panwang tonggongtongchou], Xi'an Daily, reprinted in NetEase, 11 
September 12.
    \67\China Labour Bulletin, ``Debate on Revisions to Labour Contract 
Law Delayed Because of Deluge of Submissions,'' 31 October 12.
    \68\Article 66 of the PRC Labor Contract Law states that ``labor 
dispatch generally carries out temporary, supplementary, or 
substitution work positions.'' PRC Labor Contract Law [Zhongguo renmin 
gongheguo laodong hetong fa], issued 29 June 07, effective 1 January 
08, amended 28 December 12, art. 66; ``China Aims To Ensure `Equal Pay 
for Same Job,''' Xinhua, reprinted in People's Daily, 25 December 12; 
Chu He, ``Workers' Daily Commentary: Who Should Be Alert to the 
`Reverse of Labor Dispatch?''' [Gongbao shiping: ``nixiang laowu 
paiqian'' shei gai jingxing?], Workers' Daily, 17 June 13.
    \69\Sources citing data from the All-China Federation of Trade 
Unions (ACFTU) in 2011 and 2012 report the total number of 
subcontracted workers in China as between 27 and 37 million; however, 
other reports state the total number is closer to 60 million. See Chen 
Xin, ``Legislators Review Labor Law Revision on Regulating 
Outsourcing,'' China Daily, 25 December 12; Kevin Slaten and Xue Chao, 
``Wages Rising in Chinese Factories? Only for Some,'' In These Times, 
18 March 13; Liu Xiaojie and Liu Chunxiu, ``Dispatch Labor Industry 
Thresholds To Rise'' [Laowu paiqian hangye menkan jiang tigao], 21st 
Century Business Herald, 22 November 12; Huang Yan, et al., ``Flood of 
Labor Dispatch in Enterprises Common Phenomenon, Dispatch Workers Face 
Unequal Pay for Equal Work'' [Qiye laowu paiqian fanlan xianxiang 
pubian laowugong mianlin tonggong butong chou], Economic Information, 
reprinted in People's Daily, 6 July 12; Zhang Zhilong, et al., ``Xinhua 
Viewpoint: Labor Dispatch Personnel `Unequal Pay for Equal Work' 
Problem Draws Concern'' [Xinhua shidian: laowu paiqian renyuan 
``tonggong butong chou'' wenti yin guanzhu], Xinhua, 16 January 13.
    \70\National People's Congress, Standing Committee of the National 
People's Congress Decision Regarding Amendments to PRC Labor Contract 
Law [Quanguo renmin daibiao dahui changwuweiyuanhui guanyu xiugai 
``zhonghua renmin gongheguo laodong hetong fa'' de jueding], 29 
December 12.
    \71\Ibid., arts. 66, 63.
    \72\Ibid., art. 57.
    \73\Zou Mingqiang, ``On the Eve of the Implementation of Amendments 
to PRC Labor Contract Law, the Public Looks Forward To Improving the 
Unfair Circumstances of Dispatch Laborers'' [``Laodong hetong fa 
(xiuzheng an)'' jijiang zhengshi shishi, gaishan laowu paiqiangong de 
bu gongping jingyu cheng gongzhong qidai], Workers' Daily, 16 June 13; 
Jiang Yunzhang, ``Second Examination of Amendments to Labor Contract 
Law Postponed'' [Laodong hetong fa xiugai er shen tuiyan], Economic 
Observer, 27 October 12.
    \74\Kevin Slaten and Xue Chao, ``Wages Rising in Chinese Factories? 
Only for Some,'' In These Times, 18 March 13; Li Shulong, ``Dongguan 
Child Laborer Dies: 14-Year-Old Country Boy on the Assembly Line'' 
[Dongguan tonggong zhi si: zou shang liushui xian de 14 sui xiangxia 
haizi], Southern Daily, 31 May 13.
    \75\Li Shulong, ``Dongguan Child Laborer Dies: 14-Year-Old Country 
Boy on the Assembly Line'' [Dongguan tonggong zhi si: zou shang liushui 
xian de 14 sui xiangxia haizi], Southern Daily, 31 May 13.
    \76\International Labour Organization, Convention concerning Forced 
or Compulsory Labour (No. 29), adopted by 14th ILC Session, 28 June 30, 
entry into force 1 May 32, art. 2.2(c); International Labour 
Organization, Convention concerning the Abolition of Forced Labour (No. 
105), adopted by 40th ILC Session, 25 June 57, entry into force 17 
January 59, art. 1. Article 2.2(c) of the Convention concerning Forced 
or Compulsory Labour allows for ``any work or service exacted from any 
person as a consequence of a conviction in a court of law, provided 
that the said work or service is carried out under the supervision and 
control of a public authority and that the said person is not hired to 
or placed at the disposal of private individuals, companies or 
associations.''
    \77\International Labour Organization, ``Ratifications of the 
Fundamental Human Rights Conventions by Country,'' last visited on 6 
September 13; International Labour Organization, ILO Declaration on 
Fundamental Principles and Rights at Work, 18 June 98, art. 2. Other 
rights member countries are obligated to respect include the effective 
abolition of child labor; the elimination of discrimination in respect 
of employment and occupation; and freedom of association and the 
``effective recognition'' of the right to collective bargaining.
    \78\Frank Langfitt, ``Ex-Inmates Speak Out About Labor Camps as 
China Considers `Reforms,''' National Public Radio, 22 February 13; 
Chai Huiqun, ``Confessions of Disgraced RTL Officers'' [Luoma laojiao 
jingcha de jiantao], Southern Weekend, 2 May 13; Andrew Jacobs, 
``Behind Cry for Help From China Labor Camp,'' New York Times, 11 June 
13.
    \79\Chai Huiqun, ``Confessions of Disgraced RTL Officers'' [Luoma 
laojiao jingcha de jiantao], Southern Weekend, 2 May 13; Lisa Murray 
and Angus Grigg, ``Qantas in China Prison Labour Row,'' Australian 
Financial Review, 26 June 13; Andrew Jacobs, ``Behind Cry for Help From 
China Labor Camp,'' New York Times, 11 June 13.
    \80\Andrew Jacobs, ``Behind Cry for Help From China Labor Camp,'' 
New York Times, 11 June 13; Chai Huiqun, ``Confessions of Disgraced RTL 
Officers'' [Luoma laojiao jingcha de jiantao], Southern Weekend, 2 May 
13.
    \81\Chai Huiqun, ``Confessions of Disgraced RTL Officers'' [Luoma 
laojiao jingcha de jiantao], Southern Weekend, 2 May 13.
    \82\State Council, Provisions Reiterating the Prohibition on the 
Export of Products Made by Prisoners Undergoing Reeducation Through 
Labor [Guanyu chongshen jinzhi laogai chanpin chukou de guiding], 
issued and effective 5 October 91, art. 4.
    \83\U.S. Department of Labor, List of Goods Produced by Child Labor 
or Forced Labor, September 2012, 17; Lisa Murray and Angus Grigg, 
``Qantas in China Prison Labour Row,'' Australian Financial Review, 26 
June 13; Frank Langfitt, ``Ex-Inmates Speak Out About Labor Camps As 
China Considers `Reforms,''' National Public Radio, 22 February 13.
    \84\Memorandum of Understanding Between the United States of 
America and the People's Republic of China on Prohibiting Import and 
Export Trade In Prison Labor Products, effective 7 August 92; Statement 
of Cooperation on the Implementation of the Memorandum of Understanding 
Between the United States of America and the People's Republic of China 
on Prohibiting Import and Export Trade in Prison Labor Products, 14 
March 94.
    \85\``Experts Say Products Made By Chinese Prison Labor Still Enter 
US,'' Voice of America, 1 November 09.
    \86\International Labour Organization, ``Global Wage Report 2012/
13: Wages and Equitable Growth,'' 2013, 20.
    \87\The National Bureau of Statistics of China reported in January 
2013 that China's working-age population shrank by 3.45 million in 
2012. National Bureau of Statistics of China, ``China's Economy 
Achieved a Stabilized and Accelerated Development in the Year of 
2012,'' 18 January 13. According to Cai Fang, director of the Institute 
of Population and Labor Economics under the Chinese Academy of Social 
Sciences, the working-age population will fall by as much as 30 million 
by 2020. Chen Xin, ``Labor Force `At Turning Point,''' China Daily, 6 
November 12. See also Tom Orlik, ``China: The Jobs Report,'' Wall 
Street Journal, 15 March 13; Kathrin Hille and Rahul Jacob, ``China: 
Beyond the Conveyor Belt,'' Financial Times, 14 October 12; China 
Labour Bulletin, ``Wages in China,'' 10 June 13.
    \88\Xu Weiwei, ``China's Labor Shortage Worsens as Migrants Find 
Work at Home,'' Morning Whistle, 19 February 13.
    \89\Ding Qingfen and Qiu Quanlin, ``Higher Costs Forcing Firms To 
Relocate,'' China Daily, 21 October 12; Keith Bradsher, ``Wary of 
China, Companies Head to Cambodia,'' New York Times, 8 April 13; Tim 
Culpan, ``Foxconn Inland Push Spurred by Labor, BI Says,'' Bloomberg, 3 
March 13.
    \90\These changes have also prompted observers to question whether 
China has reached the Lewis Turning Point, the point when a country's 
excess labor is exhausted, industrial wages rise, industrial profits 
shrink, and investment declines. See International Monetary Fund, 
Mitali Das and Papa N' Diaye, ``Chronicle of a Decline Foretold: Has 
China Reached the Lewis Turning Point?'' IMF Working Paper, January 
2013, 3, 17; International Labour Organization, ``Global Wage Report 
2012/13: Wages and Equitable Growth,'' 2013, 20; ``All-China Federation 
of Trade Unions: Labor Income as Proportion of GDP Continues 22-Year 
Decline'' [Zhongguo zong gonghui: laodongzhe shouru zai GDP zhong zhan 
bi lianxu 22 nian xiajiang], Gu Hantai Net, 14 March 13.
    \91\Kevin Yao and Aileen Wang, ``China Lets Gini Out of the Bottle; 
Wide Wealth Gap,'' Reuters, 18 January 13; China Labour Bulletin, 
``Wages in China,'' 10 June 13.
    \92\International Labour Organization, ``Global Wage Report 2012/
13: Wages and Equitable Growth,'' 2013, 42; ``All-China Federation of 
Trade Unions: Labor Income as Proportion of GDP Continues 22-Year 
Decline'' [Zhongguo zong gonghui: laodongzhe shouru zai GDP zhong zhan 
bi lianxu 22 nian xiajiang], Gu Hantai Net, 14 March 13.
    \93\China Labour Bulletin, ``Wages in China,'' 10 June 13.
    \94\State Council, ``Several Opinions Regarding Deepening Reform of 
the Income Distribution System'' [Guanyu shenhua shouru fenpei zhidu 
gaige ruogan yijian], issued 3 February 13.
    \95\``China Approves Income Plan as Wealth Divide Poses Risks,'' 
Bloomberg, 5 February 13; ``China's Inequality,'' Financial Times, 10 
February 13.
    \96\State Council, ``12th-Five Year Plan on Employment Promotion 
(2011-2015)'' [Cujin jiuye guihua (2011-2015 nian)], 24 January 12.
    \97\Li Jinlei, ``24 Provinces and Cities Raise Minimum Wage 
Standards, Shanghai Leading With 1,620 Yuan (Chart Attached)'' [24 
sheng shi shangtiao zuidi gongzi biaozhun shanghai 1620 yuan jushou 
(fubiao)], China News Service, 1 September 13; Zhang Jun, ``Fujian 
Raises Minimum Wage Levels, Monthly Minimum Wage in Quanzhou and Other 
Areas is 1,050 Yuan'' [Fujian shangtiao zuidi gongzi biaozhun quanzhou 
gedi zuidi meiyue 1050 yuan], Dongnan Net, reprinted in Sohu, 14 August 
13. As of September 9, 2013, the Commission had not observed reports of 
minimum wage increases in Qinghai and Hunan provinces, the Tibet 
Autonomous Region, or Chongqing municipality.
    \98\China Labour Bulletin, ``Wages in China,'' 10 June 13.
    \99\Jennifer Cheung, China Labour Bulletin, ``China's Workers 
Continue To Demand Higher Pay,'' 9 April 13; Jennifer Cheung, China 
Labour Bulletin, ``Minimum Wage Increases in 2012 Fail To Provide 
Workers With a Living Wage,'' 13 December 12; China Labour Bulletin, 
``Wages in China,'' 10 June 13.
    \100\Jennifer Cheung, China Labour Bulletin, ``China's Workers 
Continue To Demand Higher Pay,'' 9 April 13.
    \101\Li Li, ``Legal Expert: Evidence is the Achilles Heel in 
Migrant Workers' Difficulty Obtaining Back Wages'' [Falu zhuanjia: 
zhengju shi nongmingong taoxin nan de sixue], China Youth Daily, 28 
February 13.
    \102\He Yong and Pan Yue, ``All-China Federation of Trade Unions: 
Problem of Wage Arrears Rebounds, Debt Settling Situation Increasingly 
Grim'' [Quanguo zonggonghui: tuoqian gongzi wenti fantan qing qian 
xingshi qu yanjun], People's Daily, reprinted in China News Service, 16 
January 13.
    \103\Fan Zhengwei, ``Wage Arrears Problem is Multiple Layers of 
Subcontracting, Little Legal Precedence in Punishing Malicious Wage 
Arrears Causes Inadequate Deterrence'' [Qianxin wenti cengceng zhuan 
bao eyi qianxin zui pan li shao weishe li buzu], People's Daily, 
reprinted in China News Service, 16 January 13; Yu Hu et al., ``Migrant 
Workers' Rights Report'' [Nongmingong weiquan baogao], Chongqing Daily, 
reprinted in People's Daily, 14 December 12; Zhao Lei, ``Workers 
Assured of Wages Ahead of Festival,'' Changjiang Daily, reprinted in 
People's Daily, 21 January 13.
    \104\China Labour Bulletin, ``Wages in China,'' 10 June 13.
    \105\Sichuan Provincial People's Government, ``General Office of 
the Sichuan Provincial People's Government Notification Regarding 
Establishing System of Accountability for Handling Wage Arrears In the 
Construction Field'' [Sichuan sheng renmin zhengfu bangongting guanyu 
jianli jianshe shigong lingyu qianxin chuli zerenzhi de tongzhi], 3 
December 12; ``Ministry of Human Resources and Social Security 
Discusses Migrant Workers' Wage Claims: Establish a `Green Channel' for 
Speedy Recovery'' [Renshi bu tan nongmingong taoxin: jian ``luse 
tongdao'' kuaisu jiejue], China News Service, 25 January 13; Yu Lixiao 
and Chen Jian, ``Beijing Official: Must Maintain High Pressure Posture 
on Wage Arrears Activity'' [Beijing guanyuan: yao dui qianxin xingwei 
baochi gaoya taishi], China News Service, 26 January 13.
    \106\Supreme People's Court, Supreme People's Court Interpretation 
Regarding Several Questions in the Application of the Law in the Trial 
of Criminal Cases for the Refusal to Pay Labor Remuneration [Zuigao 
renmin fayuan guanyu shenli ju bu zhifu laodong baochou xingshi anjian 
shiyong falu ruogan wenti de jieshi], issued 14 January 13, effective 
23 January 13.
    \107\Jennifer Cheung, China Labour Bulletin, ``China Sees Upsurge 
in Worker Protests Prior to Lunar New Year,'' 8 February 13; ``Migrant 
Worker Salary Demands Frequent in All Parts of the Country, Government 
Blindly Suppresses to Maintain Stability'' [Nongmingong taoxin gedi pin 
fa zhengfu wei weiwen yiwei daya], Radio Free Asia, 4 February 13.
    \108\For more information, see PRC Production Safety Law [Zhonghua 
renmin gongheguo anquan shengchan fa], passed 29 June 02, effective 1 
November 02; PRC Mine Safety Law [Zhonghua renmin gongheguo kuangshan 
anquan fa], passed 7 November 92, effective 1 May 93; State Council, 
Regulations on Labor Protection in Workplace Where Toxic Substances are 
Used [Shiyong youdu shipin zuoye changsuo laodong baohu tiaolie], 
issued and effective 30 April 02.
    \109\See, e.g., Fiona Tam, ``Grim Fate of Migrant Workers Maimed in 
China's `Black Factories,''' South China Morning Post, 21 November 12; 
Christina Larson, ``In China, Politically Connected Firms Have Higher 
Worker Death Rates,'' Business Week, 28 January 13; Chen Xin, ``Sites 
Still Hold Dangers for Construction Crews,'' China Daily, 17 September 
12.
    \110\Wang Huan, ``China Will Ban or Close 20,000 Non-Coal Mines 
Over the Next Three Years'' [Woguo weilai san nian jiang qudi guancai 
yue 2 wan zuo fei meikuang shan], Yicai Net, 19 September 12; Fiona 
Tam, ``Grim Fate of Migrant Workers Maimed in China's `Black 
Factories,''' South China Morning Post, 21 November 12.
    \111\Wang Xiaodong, ``Risks of Accident are `Striking,''' China 
Daily, 19 June 13; Christina Larson, ``In China, Politically Connected 
Firms Have Higher Worker Death Rates,'' Bloomberg, 28 January 13.
    \112\Raymond Fisman and Yongxiang Wang, ``The Unsafe Side of 
Chinese Crony Capitalism,'' Harvard Business Review, January-February 
2013.
    \113\Office of Safety Administration, ``Yang Dongliang: Strict 
Pledge to Constantly Open Up New Phase for Production Safety Work'' 
[Yang Dongliang: yan zi dang tou buduan kaichuang anquan shengchan 
gongzuo xin jumian], reprinted on PRC Central People's Government Web 
site, 10 May 13.
    \114\Zi Xiuchun, ``Lawyer Huang Leping's Letter: The Five Main 
Problems in Migrant Workers' Lives I Hope Committee Delegates Address'' 
[Huang Leping lushi laixin: nongmingong shenghuo wu da nanti xiwang 
dedao daibiao weiyuan guanzhu], Workers' Daily, reprinted in Beijing 
Yilian Labor Law Aid and Research Center, 6 March 13.
    \115\National Bureau of Statistics of China, ``China Economic and 
Social Development Statistics 2012 Report'' [Zhonghua renmin gongheguo 
2012 nian guomin jingji he shehui fazhan tongji gongbao], 22 February 
13.
    \116\Fiona Tam, ``Grim Fate of Migrant Workers Maimed in China's 
`Black Factories,''' South China Morning Post, 21 November 12; ``China 
Cuts Coal Deaths,'' Radio Free Asia, 25 February 13.
    \117\``China Cuts Coal Deaths,'' Radio Free Asia, 25 February 13; 
Chao Xiangrong, ``Jilin Jiapigou Gold Mine Fire Incident Only Reported 
9 Hours After Developed'' [Jilin jiapigou jinkuang huozai shi fa 9 
xiaoshi cai shangbao], China Radio International, 16 January 13; Chen 
Weiwei and Zhu Liyi, ``State Coal Supervision Bureau Reports on Three 
Recent Coal Mine Accidents, Requires Reports Not Be Delayed or 
Concealed'' [Guojia mei jian ju tongbao jinqi san qi meikuang shigu 
yaoqiu bude chi bao manbao], Xinhua, 25 September 12.
    \118\National Bureau of Statistics of China, ``China Economic and 
Social Development Statistics 2012 Report'' [Zhonghua renmin gongheguo 
2012 nian guomin jingji he shehui fazhan tongji gongbao], 22 February 
13.
    \119\``China Cuts Coal Deaths,'' Radio Free Asia, 25 February 13; 
``2012 Coal Mine Mortality Rate Dropped to 0.374 Per Million Tons'' 
[2012 nian meikuang baiwandun siwanglu jiang zhi 0.374], International 
Coal Net, 28 January 13; China Labour Bulletin, ``Report Claims Coal 
Mine Deaths in China Fell By One-Third in 2012,'' 29 January 13.
    \120\Students and Scholars Against Corporate Misbehavior, 
``[Report] Apple Fails in Its Responsibility To Monitor Suppliers,'' 26 
February 13; Students and Scholars Against Corporate Misbehavior, 
``Widespread Labour Abuses at Disney and Mattel Factories ICTI Doesn't 
Care About Labour Rights Standards,'' reprinted in Scribd, 7 January 
13; China Labor Watch, ``Investigative Report of HTNS Shenzhen CO., 
Ltd. (Huizhou Branch),'' 14 December 12; Charles Kernaghan, Institute 
for Global Labour and Human Rights, ``Toys From Hell: Walmart & 
Disney,'' December 2012.
    \121\``Thousands of Workers at Foxconn Jiangxi Factory Unsatisfied 
With Wages and Treatment Demonstrate'' [Fushikang jiangxi gongchang 
qian ren buman xinzi daiyu shangjie youxing], West Net, reprinted in 
Caijing, 13 January 13; David Barboza, ``Group Says Deaths Show 
Problems Remain at Foxconn,'' New York Times, 20 May 13.
    \122\CECC, 2012 Annual Report, 10 October 12, 66-67; ``Have Foxconn 
Working Conditions Improved?'' [Fushikang de gongzuo tiaojian gaishan 
le ma?], Radio Free Asia, 17 May 13; ``Thousands of Workers at Foxconn 
Jiangxi Factory Unsatisfied With Wages and Treatment Demonstrate'' 
[Fushikang jiangxi gongchang qian ren buman xinzi daiyu shangjie 
youxing], West Net, reprinted in Caijing, 13 January 13; Isaac Shapiro 
and Scott Nova, ``Still Polishing Apple: Second FLA Report Misleads on 
Labor Rights Progress,'' Economic Policy Institute Blog, 7 June 13.
    \123\Students and Scholars Against Corporate Misbehavior, 
``[Report] Apple Fails in its Responsibility to Monitor Suppliers,'' 26 
February 13; ``34 Workers Poisoned by Alkane Used to Clean Cellphone 
Screens, Some Cases So Severe Workers Unable to Take Care of 
Themselves'' [34 gongren caxi shouji pingmu wan zhongdu yanzhong zhe 
shenghuo buneng zili], Legal Daily, reprinted in Phoenix Net, 26 
September 12; Students and Scholars Against Corporate Misbehavior, 
``Widespread Labour Abuses at Disney and Mattel Factories ICTI Doesn't 
Care About Labour Rights Standards,'' 7 January 13.
    \124\``Xinhua Insight: Fatal Fire Rings Alarm For Factory Safety,'' 
Xinhua, 5 June 13; ``China Gov't Blames Company, Inspectors for 
`Extremely Chaotic' Safety at Poultry Plant in Fire,'' Associated 
Press, reprinted in Washington Post, 6 June 13.
    \125\Ibid.
    \126\CECC, 2012 Annual Report, 10 October 12, 65; Zheng Li, ``Work-
Related Injury Insurance `Too High to Reach'; Migrant Workers with 
Pneumoconiosis Urgently Need `Survival Money''' [Gongshang baoxian 
``gao buke pan'' chenfei nongmingong jixu ``huoming qian''], Workers' 
Daily, 28 February 13; Pan Qi, ``Migrant Workers With Pneumoconiosis 
Exceed 6 Million in China, Lack of Labor Contracts Makes Defending 
Rights Difficult'' [Woguo chenfeibing nongmingong chao 600 wan wu 
laodong hetong zhi weiquan nan], Legal Daily, reprinted in Sina, 6 
February 13.
    \127\Pan Qi, ``Migrant Workers With Pneumoconiosis Exceed 6 Million 
in China, Lack of Labor Contracts Makes Defending Rights Difficult'' 
[Woguo chenfeibing nongmingong chao 600 wan wu laodong hetong zhi 
weiquan nan], Legal Daily, reprinted in Sina, 6 February 13.
    \128\``Black Lung Patients Often Face A Long Wait For 
Compensation,'' China Daily, 25 March 13; Lan Fang, ``Public Interest 
Group Indicates Rate of Occupational Injury Perhaps Higher Than 
Official Statistics'' [Gongyi tuanti zhi gongshang fashang lu huo gaoyu 
guanfang tongji], Caixin, 28 April 13.
    \129\See, e.g., He Huifeng, ``Toxic Gas Cloud at Honghu Factory 
Leaves 20 in Hospital,'' South China Morning Post, 24 October 12; C. 
Custer and L. Li, ``The Real Dangers in China's Mines,'' 2Non, 18 
December 12.
    \130\Li Keyong, Zhou Rui et al., ``Labor Law, Those Clauses That 
Are Ignored (Policy Focus)'' [Laodong fa, na xie bei moshi de tiaokuan 
(zhengce jujiao)], People's Daily, 1 May 13; ``Investigation States 
That Defending the Rights of Pneumoconiosis Sufferers Stuck in 
Difficult Situation, Majority Have Not Signed Labor Contracts'' 
[Diaocha cheng chenfeibing ren weiquan xian kunju duoshu mei qianding 
laodong hetong], Guiyang Evening News, reprinted in China News Service, 
22 January 13.
    \131\Chen Xin, ``Sites Still Hold Dangers for Construction Crews,'' 
China Daily, 17 September 12; C. Custer and L. Li, ``The Real Dangers 
in China's Mines,'' 2Non, 18 December 12.
    \132\Zi Xiuchun, ``Lawyer Huang Leping's Letter: The Five Main 
Problems in Migrant Workers' Lives I Hope Committee Delegates Address'' 
[Huang leping lushi laixin: nongmingong shenghuo wu da nanti xiwang 
dedao daibiao weiyuan guanzhu], Workers' Daily, reprinted in Beijing 
Yilian Labor Law Aid and Research Center, 6 March 13; Chen Xin and He 
Dan, ``Black Lung Patients Often Face a Long Wait for Compensation,'' 
China Daily, 25 March 13.
    \133\Echo Hui, ``In China, Losing Battle Against Lung Disease and 
Workers' Rights,'' South China Morning Post, 3 July 13; Fiona Tam, 
``Grim Fate of Migrant Workers Maimed in China's `Black Factories,''' 
South China Morning Post, 21 November 12; ``Female Worker Becomes 
Temporary Worker After Injury, Judge: Gate Card Proves Labor Relation'' 
[Nu gong shoushang hou cheng linshigong faguan: menka ke zhengming 
laodong guanxi], Dahe Net, reprinted in China News Service, 4 July 13; 
Jiang Jie, ``Black Lung Sufferers Receive Govt Damages,'' Global Times, 
8 July 13.
    \134\``Work Related Injury Insurance `Too High to Reach'; Migrant 
Workers With Pneumoconiosis Urgently Need `Survival Money'''[Gongshang 
baoxian ``gao buke pan'' chenfei nongmingong jixu ``huoming qian''] 
Workers' Daily, 28 February 13; Pan Qi, ``Migrant Workers With 
Pneumoconiosis Exceed 6 Million in China, Lack of Labor Contracts Makes 
Defending Rights Difficult'' [Woguo chenfeibing nongmingong chao 600 
wan wu laodong hetong zhi weiquan nan], Legal Daily, reprinted in Sina, 
6 February 13. The PRC Regulations on Occupational Injury Insurance 
stipulate that workers must obtain an official occupational disease or 
injury diagnosis to be considered for compensation. See PRC Regulations 
on Occupational Injury Insurance [Zhonghua renmin gongheguo gongshang 
baoxian tiaoli], issued 27 April 03, amended 20 December 10, effective 
1 January 11, art. 18.
    \135\Jiang Jie, ``Black Lung Sufferers Receive Govt Damages,'' 
Global Times, 8 July 13.
    \136\Chen Xin and He Dan, ``Black Lung Patients Often Face a Long 
Wait for Compensation,'' China Daily, 25 March 13.
    \137\Huang Yuli, ``Tribunal Hears Case of Injured Foxconn Worker,'' 
China Daily, 31 October 12; Tan Ee Lyn, ``Family of Brain-Damaged 
Worker Takes Foxconn to Court in China,'' Reuters, 30 October 12.
    \138\Tan Ee Lyn, ``Worker's Injury Casts Harsh New Light on Foxconn 
and China,'' Reuters, 10 October 12; ``Foxconn Engineer's Workplace 
Injury Leads to Compensation Dispute, Father Beaten by Security'' 
[Fushikang gongchengshi gongshang yin peichang jiufen fuqin ceng zao 
baoan bao da], Shenzhen News, 28 September 12.
    \139\Tan Ee Lyn, ``Family of Brain-Damaged Worker Takes Foxconn to 
Court in China,'' Reuters, 30 October 12.
    \140\Measures on the Administration of Diagnosis and Evaluation of 
Occupational Diseases [Zhiyebing zhenduan yu jianding guanli banfa], 
issued 28 March 02, amended 19 February 13, effective 10 April 13, art. 
19, 22, 23-28, 44.
    \141\Ibid., art. 19. See also China Labour Bulletin, ``Compensation 
for Work-Related Injury and Occupational Disease in China,'' last 
visited 16 August 13.
    Notes to Section II--Criminal Justice

    \1\``Bizarrely Consistent: A Crackdown on Legal Activists,'' 
Economist, 27 July 13.
    \2\``China's Wrong Turn,'' Washington Post, 22 July 13; Jeffrey 
Wasserstrom, ``A Reformist Chinese Leader? Stop Fooling Yourself,'' 
Time, 22 July 13; Donald Clarke et al., ``Xu Zhiyong Arrested: How 
Serious Can Beijing Be About Political Reform?'' ChinaFile, 18 July 13; 
Chris Buckley, ``Prominent Advocate Held in Southern China,'' New York 
Times, 17 August 13; ``Chinese Police Arrest Rights Activist Xu 
Zhiyong,'' Reuters, reprinted in Radio Australia, 23 August 13. See the 
Commission's Political Prisoner Database, records 2005-00199 on Xu 
Zhiyong and 2005-00143 on Guo Feixiong (Yang Maodong) for more 
information on these cases.
    \3\Jerome A. Cohen, Human Rights Watch, ``Criminal Justice in 
China: From the Gang of Four to Bo Xilai,'' 25 July 13, 11; Shangquan 
Law Firm, ``Investigative Report on the Implementation of the New 
Criminal Procedure Law (2013, Q1)'' [Xin xingsufa shishi zhuangkuang 
diaoyan baogao (2013 nian diyi jidu)], 4 June 13.
    \4\CECC, 2012 Annual Report, 10 October 12, 69-70. The authority, 
staff, and budgets of law enforcement agencies have grown substantially 
since 2008.
    \5\Ibid.; Jeremy Page, ``China Reins in New Security Boss's 
Clout,'' Wall Street Journal, 20 November 12; Jerome A. Cohen, Human 
Rights Watch, ``Criminal Justice in China: From the Gang of Four to Bo 
Xilai,'' 25 July 13, 6.
    \6\Willy Wo-Lap Lam, ``The Politics of Liu Xiaobo's Trial,'' in Liu 
Xiaobo, Charter 08 and the Challenges of Political Reform in China, 
eds. Jean-Philippe Beja et al. (Aberdeen, Hong Kong: Hong Kong 
University Press, 2012), 261.
    \7\``Meng Jianzhu Appointed Head of CPC Political and Legal Affairs 
Commission,'' Xinhua, 19 November 12; CECC, 2012 Annual Report, 10 
October 12, 70; Jeremy Page, ``China Reins in New Security Boss's 
Clout,'' Wall Street Journal, 20 November 12; Jerome A. Cohen, Human 
Rights Watch, ``Criminal Justice in China: From the Gang of Four to Bo 
Xilai,'' 25 July 13, 6-7; Keith Zhai, ``Security Tsar Meng Jianzhu 
Criticises Interference in Court Proceedings,'' South China Morning 
Post, 9 January 13.
    \8\``Zhou Yongkang, Former Security Tsar Linked to Bo Xilai, Faces 
Corruption Probe,'' South China Morning Post, 30 August 13; Christopher 
Bodeen, ``Zhou Yongkang, China Security Chief, Investigated as Bo Xilai 
Scandal Expands,'' Associated Press, reprinted in Huffington Post, 19 
April 12; Luo Jieqi and He Xin, ``In Bo Xilai's City, a Legacy of 
Backstabbing,'' Caixin, 7 December 12; Keith B. Richburg, ``After Bo's 
Fall, Chongqing Victims Seek Justice,'' Washington Post, 19 April 12.
    \9\Luo Jieqi and He Xin, ``In Bo Xilai's City, a Legacy of 
Backstabbing,'' Caixin, 7 December 12; Keith B. Richburg, ``After Bo's 
Fall, Chongqing Victims Seek Justice,'' Washington Post, 19 April 12.
    \10\Tania Branigan, ``China Indicts Bo Xilai for Corruption,'' 
Guardian, 25 July 13; Keith B. Richburg and Andrew Higgins, ``Bo 
Xilai's Ouster Seen as Victory for Chinese Reformers,'' Washington 
Post, 15 March 12; Gillian Wong, ``China Moves To Right Wrongs in City 
Bo Once Ruled,'' Associated Press, reprinted in Yahoo! News, 3 December 
12; Yu Xiaodong, ``Policing the Police,'' NewsChina Magazine, March 
2013.
    \11\Gillian Wong, ``China Moves To Right Wrongs in City Bo Once 
Ruled,'' Associated Press, reprinted in Yahoo! News, 3 December 12.
    \12\Keith B. Richburg, ``After Bo's Fall, Chongqing Victims Seek 
Justice,'' Washington Post, 19 April 12; Louisa Lim, ``Targets of 
Disgraced Bo Xilai Still Languish in Jail,'' National Public Radio, 27 
May 13; Gillian Wong, ``China Moves To Right Wrongs in City Bo Once 
Ruled,'' Associated Press, reprinted in Yahoo! News, 2 December 12.
    \13\PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 105(1) and (2).
    \14\Chinese Human Rights Defenders, ``China: End Escalating 
Crackdown Criminalizing Peaceful Assembly and Free Expression,'' 17 
July 13; Human Rights Watch, ``China: Crackdown on Anticorruption 
Activists Escalates,'' 9 June 13; ``Beijing Scholar Xu Zhiyong 
Criminally Detained; Rights Defense Lawyer Says Types of Political 
Cases Are Expanding'' [Beijing xuezhe xu zhiyong bei jingfang xingshi 
juliu weiquan lushi cheng zhengzhi lei anjian you kuoda qushi], Voice 
of America, 16 July 13; ``In Videotaped Message, Jailed Chinese 
Activist Urges Citizens To Unite for Democracy,'' Associated Press, 
reprinted in Washington Post, 8 August 13.
    \15\Front Line Defenders, ``China: Formal Arrest of Human Rights 
Defender Mr. Xu Zhiyong,'' 27 August 13; Chris Buckley, ``Formal Arrest 
of Advocate Is Approved by China,'' New York Times, 23 August 13; 
Patrick Boehler, ``Leading Citizen Movement Activist Xu Zhiyong 
Arrested,'' South China Morning Post, 31 July 13; Chinese Human Rights 
Defenders, ``Individuals Detained in Crackdown on Peaceful Assembly & 
Association,'' 18 September 13; Xu Zhiyong, ``China's New Citizens' 
Movement'' [Zhongguo xin gongmin yundong], Xu Zhiyong's Blog, 15 
November 12.
    \16\Ibid.
    \17\Chinese Human Rights Defenders, ``Urgent: Well-Known Rights 
Defender Guo Feixiong Is Criminally Detained'' [Jinji guanzhu: zhuming 
weiquan renshi guo feixiong bei xing ju], 17 August 13. For more 
information on Guo Feixiong, see the Commission's Political Prisoner 
Database record 2005-00143.
    \18\Chinese Human Rights Defenders, ``Individuals Detained in 
Crackdown on Peaceful Assembly & Association,'' 28 August 13; 
``Officials Detain Xu Zhiyong Amidst a Crackdown on Individuals Calling 
for Greater Government Accountability,'' Congressional-Executive 
Commission on China, 1 August 13; Calum MacLeod, ``China Silences Anti-
Corruption Activists,'' USA Today, 30 July 13; Chinese Human Rights 
Defenders, ``China: End Escalating Crackdown Criminalizing Peaceful 
Assembly and Free Expression,'' 17 July 13.
    \19\Peter Ford, ``Briefing: 5 Things To Know About China's 
Crackdown on Critics,'' Christian Science Monitor, 15 August 13.
    \20\Jerome A. Cohen, ``Will 2013 See Progress in China's Rights 
Protection?'' South China Morning Post, reprinted in Council on Foreign 
Relations, 11 December 12; Peter Ford, ``Family of Blind Activist Chen 
Guangcheng `Tormented' in China,'' Christian Science Monitor, 2 May 13.
    \21\Edward Wong, ``China Sentences Brother-in-Law of Nobel Laureate 
to 11 Years on Fraud Charges,'' New York Times, 9 June 13; Michael 
Martina, ``Kin of Jailed Chinese Nobel Winner Liu Xiaobo Sentenced to 
11 Years in Prison,'' Reuters, reprinted in NBC News, 9 June 13.
    \22\Ibid.; ``Beijing Court Rejects Appeal by Nobel Laureate's Liu 
Xiaobo's Brother-in-Law,'' Reuters and Associated Press, reprinted in 
South China Morning Post, 17 August 13.
    \23\Austin Ramzy, ``Above the Law? China's Bully Law-Enforcement 
Officers,'' Time, 21 May 09; Joel Martinsen, ``A Practical Handbook for 
Beating Street Vendors,'' Danwei, 22 April 09; Human Rights Watch, 
```Beat Him, Take Everything Away': Abuses by China's Chengguan Para-
Police,'' 23 May 12.
    \24\David Bandurski, ``Brutal Killing of (Citizen Journalist) Wei 
Wenhua Underscores the Evils of China's `Urban Management' System,'' 
China Media Project, 10 January 08; ``Beijing Guide on How To Beat Law-
Breakers Sparks Outrage,'' Agence France-Presse, reprinted in Asia One, 
23 April 09; Andrew Jacobs, ``Death of Watermelon Vendor Sets Off 
Outcry in China,'' New York Times, 20 July 13; Peter Ford, ``China's 
`Para-Police' Brutality Under Scrutiny,'' Christian Science Monitor, 22 
July 13; Stanley Lubman, ``The Ticking Bomb of China's Urban Para-
Police,'' Wall Street Journal, China Real Time Report (blog), 8 August 
13; Human Rights Watch, ```Beat Him, Take Everything Away': Abuses by 
China's Chengguan Para-Police,'' 23 May 12.
    \25\CECC, 2009 Annual Report, 10 October 09, 93.
    \26\Andrew Jacobs, ``Death of Watermelon Vendor Sets Off Outcry in 
China,'' New York Times, 20 July 13; Michelle FlorCruz, ``Beijing 
Airport Explosion Caused by Man Disgruntled About Accident That Left 
Him Paralyzed,'' International Business Times, 22 July 13; Stanley 
Lubman, ``The Ticking Bomb of China's Urban Para-Police,'' Wall Street 
Journal, China Real Time Report (blog), 8 August 13; Kevin McGeary, 
``Beijing Airport Bomber Is an Aggrieved Chengguan Victim From 
Dongguan,'' Nanfang Insider, 22 July 13.
    \27\Chinese Human Rights Defenders, ``China Human Rights Briefing, 
July 19-25,'' 25 July 13; Stanley Lubman, ``The Ticking Bomb of China's 
Urban Para-Police,'' Wall Street Journal, China Real Time Report 
(blog), 8 August 13; Human Rights Watch, ```Beat Him, Take Everything 
Away': Abuses by China's Chengguan Para-Police,'' 23 May 12; CECC, 2012 
Annual Report, 10 October 12, 131; Jeremy Chan, ``China To Revise 
Policy Toward Peddlers,'' Wall Street Journal, 11 August 09; ``Legal 
Status To Be Granted to Street Vendors'' [Liudong tanfan youwang hefa 
shengcun], Caijing, 22 July 09.
    \28\UN Office of the High Commissioner for Human Rights, Working 
Group on Arbitrary Detention Fact Sheet No. 26, May 2000, sec. IV(B); 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 12, 18, 19, 21, 22, 27; Universal 
Declaration of Human Rights (UDHR), adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, arts. 7, 10, 
13, 14, 18, 19, 21. The rights and freedoms protected under the second 
category include those in Articles 7, 10, 13, 14, 18, 19, and 21 of the 
UDHR and in Articles 12, 18, 19, 21, 22, and 27 of the ICCPR; CECC, 
2012 Annual Report, 10 October 12, 70-71.
    \29\See the Commission's Political Prisoner Database, records 2004-
03114 on Liu Xiaobo, 2011-00175 on Chen Wei, 2008-00379 on Chen Xi, 
2008-00668 on Guo Quan, 2010-00616 on Li Tie, 2004-02253 on Zhu Yufu, 
2004-04614 on Liu Xianbin, 2005-00291 on Gao Zhisheng, 2005-00285 on Ni 
Yulan, and 2004-04650 on Wang Bingzhang, for more information on these 
cases.
    \30\See, e.g., CECC, 2012 Annual Report, 10 October 12, 71; PRC 
Constitution, issued 4 December 82, amended 12 April 88, 29 March 93, 
15 March 99, 14 March 04, arts. 35, 37, 41; PRC Criminal Procedure Law 
[Zhonghua renmin gongheguo xingshi susong fa], enacted 1 July 79, 
amended 17 March 96, 14 March 12, effective 1 January 13, art. 3; PRC 
Public Security Administration Punishment Law [Zhonghua renmin 
gongheguo zhian guanli chufa fa], passed 28 August 05, effective 1 
March 06, arts. 3, 9, 10, 16; PRC Legislation Law [Zhonghua renmin 
gongheguo lifa fa], passed 15 March 00, effective 1 July 00, art. 8(v).
    \31\CECC, 2012 Annual Report, 10 October 12, 71.
    \32\See, e.g., Jerome A. Cohen, Human Rights Watch, ``Criminal 
Justice in China: From the Gang of Four to Bo Xilai,'' 25 July 13; 
Chinese Human Rights Defenders, ``In the Name of `Stability': 2012 
Annual Report on the Situation of Human Rights Defenders in China,'' 
March 2013, 1; Bureau of Democracy, Human Rights and Labor, U.S. 
Department of State, ``Country Report on Human Rights Practices--2012, 
China (Includes Tibet, Hong Kong and Macau),'' 19 April 13, 1.
    \33\Michael Martina, ``Kin of Jailed Chinese Nobel Winner Liu 
Xiaobo Sentenced to 11 Years in Prison,'' Reuters, 9 June 13. See the 
Commission's Political Prisoner Database, record 2010-00629, for more 
information on Liu Xia.
    \34\David Bandurski, ``Citizens Issue Statement on Xu Zhiyong 
Detention,'' China Media Project, 21 July 13.
    \35\See, e.g., Chinese Human Rights Defenders, ``Weighty Times, 
Aggressive Measures: China Must End Heightened Crackdown Ahead of Party 
Congress,'' 1 November 12; ``China Cracks Down Ahead of Leadership 
Meeting,'' Associated Press, reprinted in CBC News, 6 November 12; 
Chinese Human Rights Defenders, ```Charter 08' Signatories Launch Anti-
Soft Detention Anti-Surveillance United Movement'' [Lingba xianzhang 
qianshu ren faqi ``fan ruanjin fan jiankong lianhe da xingdong''], 20 
June 09; CECC, 2009 Annual Report, 10 October 09, 88, 95.
    \36\UN Committee against Torture, Consideration of Reports 
Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture: China, CAT/C/
CHN/CO/4, 12 December 08, para. 14. The 1992 United Nations Declaration 
on the Protection of all Persons from Enforced Disappearance provides 
that an ``enforced disappearance'' occurs when individuals are detained 
or abducted ``or otherwise deprived of their liberty by officials of 
different branches or levels of Government, or by organized groups or 
private individuals acting on behalf of, or with the support, direct or 
indirect, consent or acquiescence of the Government, followed by a 
refusal to disclose the fate or whereabouts of the persons concerned or 
a refusal to acknowledge the deprivation of their liberty, which places 
such persons outside the protection of the law.'' UN General Assembly, 
Declaration on the Protection of all Persons from Enforced 
Disappearance, A/RES/47/133, 18 December 92. In February 2009, during 
its Universal Periodic Review by the Working Group on the Universal 
Periodic Review at the UN Human Rights Council, the Chinese government 
rejected the recommendation that it should consider ratifying the 
International Convention for Protection of all Persons from Enforced 
Disappearance, adopted by the UN General Assembly in December 2006. UN 
GAOR, Hum. Rts. Coun., 11th Sess., Report of the Working Group on the 
Universal Periodic Review--China, A/HRC/11/25, 3 March 09, paras. 38, 
84, 117. The delegations from Mexico and Argentina offered this 
recommendation.
    \37\Human Rights Watch, ```An Alleyway in Hell': China's Abusive 
`Black Jails,''' November 2009, 40-43.
    \38\Chinese Human Rights Defenders, ``Silencing Complaints: Human 
Rights Abuses Against Petitioners in China,'' 14 March 08, 5-7.
    \39\``Urban Stability: Treating the Symptoms,'' Economist, 2 March 
13.
    \40\Ibid.; Ren Zhongyuan, ``The Death of a Petitioner,'' Caixin, 14 
December 12; Josh Chin, ``Beijing Court Takes Rare Swipe at `Black 
Jails,''' Wall Street Journal, China Real Time Report (blog), 5 
February 13.
    \41\Mandy Zuo and Shi Jiangtao, ``Many Freed From Beijing's Biggest 
`Black Jail,''' South China Morning Post, 6 December 12; ``Urban 
Stability: Treating the Symptoms,'' Economist, 2 March 13; Verna Yu, 
``Rare Victory for Petitioners as 10 Hired Thugs Are Convicted Over 
`Black Jail,''' South China Morning Post, 6 February 13.
    \42\Mandy Zuo and Shi Jiangtao, ``Many Freed From Beijing's Biggest 
`Black Jail,''' South China Morning Post, 6 December 12.
    \43\``10 People Sentenced for Illegally Detaining Petitioners in 
Beijing'' [Shi ming feifa jujin lai jing shangfang renyuan zhe bei 
panxing], Xinhua, 5 February 13; Verna Yu, ``Rare Victory for 
Petitioners as 10 Hired Thugs Are Convicted Over `Black Jail,''' South 
China Morning Post, 6 February 13; Josh Chin, ``Beijing Court Takes 
Rare Swipe at `Black Jails,''' Wall Street Journal, China Real Time 
Report (blog), 5 February 13; ``Unhappy With Sentences,'' Global Times, 
7 February 13.
    \44\``Unhappy With Sentences,'' Global Times, 7 February 13; Verna 
Yu, ``Rare Victory for Petitioners as 10 Hired Thugs Are Convicted Over 
`Black Jail,''' South China Morning Post, 6 February 13.
    \45\Mandy Zuo and Shi Jiangtao, ``Many Freed From Beijing's Biggest 
`Black Jail,''' South China Morning Post, 6 December 12; ``Urban 
Stability: Treating the Symptoms,'' Economist, 2 March 13; Verna Yu, 
``Rare Victory for Petitioners as 10 Hired Thugs Are Convicted Over 
`Black Jail,''' South China Morning Post, 6 February 13.
    \46\``Official Discipline: Policing the Party,'' Economist, 1 
September 12; CECC, 2008 Annual Report, 31 October 08, 35; Flora Sapio, 
``Shuanggui and Extralegal Detention in China,'' China Information, 
Vol. 22, No. 1 (2008), 7, 12.
    \47\``Official Discipline: Policing the Party,'' Economist, 1 
September 12; Andrew Jacobs, ``Accused Chinese Party Members Face Harsh 
Discipline,'' New York Times, 15 June 12.
    \48\Andrew Jacobs, ``Accused Chinese Party Members Face Harsh 
Discipline,'' New York Times, 15 June 12; Steven Jiang, ``Investigators 
Who Drowned Chinese Official Charged With Assault,'' CNN, 6 September 
13.
    \49\Donald Clarke, ``The Bo Xilai Trial and China's `Rule of Law': 
Same Old, Same Old,'' Atlantic, 21 August 13.
    \50\Keith Zhai, ``Defiant Bo Xilai Claims He Was Coerced Into Graft 
Confession,'' South China Morning Post, 23 August 13; Steven Jiang, 
``Investigators Who Drowned Chinese Official Charged With Assault,'' 
CNN, 6 September 13; Donald Clarke, ``The Bo Xilai Trial and China's 
`Rule of Law': Same Old, Same Old,'' Atlantic, 21 August 13; Keith 
Zhai, ``Bo Xilai Trial Transcripts Censored, Say Court Sources,'' South 
China Morning Post, 26 August 13; Jerome A. Cohen, Human Rights Watch, 
``Criminal Justice in China: From the Gang of Four to Bo Xilai,'' 25 
July 13, 2.
    \51\Bai Tiantian, ``Life in Jail for Bo Xilai,'' Global Times, 23 
September 13; ``Judgment in First Instance Trial of Bo Xilai for 
Bribery, Embezzlement, and Abuse of Power (Full Text)'' [Bo xilai 
shouhui, tanwu, lanyong zhiquan an yishen panjueshu (quanwen)], 
People's Daily, reprinted in China News Service, 22 September 13.
    \52\Sui-Lee Wee, ``Six Chinese Officials Stand Trial for Torture in 
Landmark Case,'' Reuters, 16 September 13.
    \53\Joshua D. Rosenzweig et al., ``Comments on the 2012 Revision of 
the Chinese Criminal Procedure Law,'' in Comparative Perspectives on 
Criminal Justice in China, eds. Mike McConville and Eva Pils 
(Cheltenham, UK: Edward Elgar Publishing Ltd., 2013), 461-62; Chinese 
Human Rights Defenders, ``In the Name of `Stability': 2012 Annual 
Report on the Situation of Human Rights Defenders in China,'' March 
2013, 5; UN Office of the High Commissioner for Human Rights, ``China: 
UN Expert Body Concerned About Recent Wave of Enforced 
Disappearances,'' 8 April 11.
    \54\Chinese Human Rights Defenders, ``In the Name of `Stability': 
2012 Annual Report on the Situation of Human Rights Defenders in 
China,'' March 2013, 5-7; Amnesty International, ``Briefing on China's 
2013 Criminal Procedure Law: In Line With International Standards?'' 
July 2013, 16.
    \55\PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 73.
    \56\Ibid.
    \57\Ibid.
    \58\Amnesty International, ``Briefing on China's 2013 Criminal 
Procedure Law: In Line With International Standards?'' July 2013, 16-
17; Joshua D. Rosenzweig et al., ``Comments on the 2012 Revision of the 
Chinese Criminal Procedure Law,'' in Comparative Perspectives on 
Criminal Justice in China, eds. Mike McConville and Eva Pils 
(Cheltenham, UK: Edward Elgar Publishing Ltd., 2013), 461-462, 464; 
Conor Foley, The Human Rights Centre, University of Essex, ``Combating 
Torture: A Manual for Judges and Prosecutors,'' last visited 13 August 
13, paras. 2.12, 2.13; UN Human Rights Committee, General Comment No. 
20: Replaces General Comment 7 Concerning Prohibition of Torture and 
Cruel Treatment or Punishment (Art. 7) 03/10/1992, CCPR General Comment 
No. 20 (General Comments) Article 7 (Forty-fourth session, 1992), para. 
11.
    \59\Dui Hua Foundation, ``RTL Reform Underway, but Undercover,'' 
Dui Hua Human Rights Journal, 19 June 13; Human Rights Watch, ```Swept 
Away': Abuses Against Sex Workers in China,'' May 2013, 17.
    \60\See, e.g., UN Office of the High Commissioner for Human Rights, 
Working Group on Arbitrary Detention Fact Sheet No. 26, May 2000, sec. 
IV(B); International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 9, 14; Universal Declaration of 
Human Rights (UDHR), adopted and proclaimed by UN General Assembly 
resolution 217A (III) of 10 December 48, arts. 8-11; CECC 2012 Annual 
Report, 10 October 12, 70-71. China became a signatory to the ICCPR on 
October 5, 1998, but has yet to ratify the treaty. As a signatory, the 
Chinese government is obligated as a matter of international law to 
refrain from taking actions that would undermine the purpose of the 
treaty.
    \61\See, e.g., The End of Reeducation Through Labor? Recent 
Developments and Prospects for Reform, Staff Roundtable of the 
Congressional-Executive Commission on China, 9 May 13, Written 
Statement Submitted by Ira Belkin, Executive Director, U.S.-Asia Law 
Institute, New York University School of Law; ``Special Topic Paper: 
Prospects for Reforming China's Reeducation Through Labor System,'' 
Congressional-Executive Commission on China, 9 May 13; Chinese Human 
Rights Defenders, ``Re-Education Through Labor Abuses Continue 
Unabated: Overhaul Long Overdue,'' 4 February 09.
    \62\``Special Topic Paper: Prospects for Reforming China's 
Reeducation Through Labor System,'' Congressional-Executive Commission 
on China, 9 May 13, 2.
    \63\Ibid.
    \64\State Council, ``Supplementary Decision of the State Council 
Regarding Reeducation Through Labor'' [Guowuyuan guanyu laodong 
jiaoyang wenti de buchong jueding], issued 29 November 79, art. 3; see 
also ``Special Topic Paper: Prospects for Reforming China's Reeducation 
Through Labor System,'' Congressional-Executive Commission on China, 9 
May 13, 2-3.
    \65\Dui Hua Foundation, ``RTL Reform Underway, but Undercover,'' 
Dui Hua Human Rights Journal, 19 June 13; Human Rights Watch, ```Swept 
Away': Abuses Against Sex Workers in China,'' May 2013, 17.
    \66\See Human Rights Watch, ```Where Darkness Knows No Limits': 
Incarceration, Ill-Treatment and Forced Labor as Drug Rehabilitation in 
China,'' 7 January 10, 1-3, 19. The 2008 Anti-Drug Law authorizes 
police to send suspected drug users to compulsory treatment centers for 
a minimum of two years with a possible extension of an additional year 
without trial or judicial supervision. PRC Anti-Drug Law [Zhonghua 
renmin gongheguo jindufa], enacted 29 December 07, effective 1 June 09, 
art. 47. In practice, deprivation of personal liberty in drug detention 
centers can last up to six years. Andrew Jacobs, ``Court Ruling Deals 
Public Blow to China's Labor-Camp System,'' 15 July 13. In March 2012, 
12 UN agencies issued a joint statement calling for an end to 
compulsory drug treatment and rehabilitation centers, finding not only 
that they violate a wide range of human rights but also that they 
threaten the health of those detained. See UNAIDS, ``Joint UN Statement 
Calls for the Closure of Compulsory Drug Detention and Rehabilitation 
Centers,'' 8 March 12.
    \67\Human Rights Watch, ```Swept Away': Abuses Against Sex Workers 
in China,'' May 2013, 15-16.
    \68\Ibid., 16.
    \69\Dui Hua Foundation, ``Limits of Public Outrage: RTL and Custody 
and Education,'' Dui Hua Human Rights Journal, 9 July 13, translating 
``In the Name of Rule of Law, Sort Out `Quasi-RTL Measures' as One 
Package'' [(Shelun) yi fazhi mingyi yi lanzi qingli ``lei laojiao 
cuoshi''], Southern Metropolitan Daily, 29 June 13.
    \70\PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 34; Elizabeth M. Lynch, ``Who Will Be 
Watched: Margaret K. Lewis on China's New CPL and Residential 
Surveillance,'' China Law and Policy (blog), 25 September 12.
    \71\PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 37-41. See also Sun Jibin, ``How `Three 
Difficulties' of Criminal Defense Became `10 Difficulties''' [Xingshi 
bianhu ``san nan'' weihe bian ``shi nan''], Legal Weekly, 20 January 
11; CECC, 2011 Annual Report, 10 October 11, 83.
    \72\Joshua D. Rosenzweig et al., ``Comments on the 2012 Revision of 
the Chinese Criminal Procedure Law,'' in Comparative Perspectives on 
Criminal Justice in China, eds. Mike McConville and Eva Pils 
(Cheltenham, UK: Edward Elgar Publishing Ltd., 2013), 491-93; Elizabeth 
M. Lynch, ``Who Will Be Watched: Margaret K. Lewis on China's New CPL 
and Residential Surveillance,'' China Law and Policy (blog), 25 
September 12; Jerome A. Cohen, Human Rights Watch, ``Criminal Justice 
in China: From the Gang of Four to Bo Xilai,'' 25 July 13, 11.
    \73\PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37.
    \74\Shangquan Law Firm, ``Investigative Report on the 
Implementation of the New Criminal Procedure Law (2013, Q1)'' [Xin 
xingshi susongfa shishi qingkuang diaoyan baogao (2013 diyi jidu)], 23 
April 13.
    \75\Ibid.
    \76\PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37.
    \77\Ibid.
    \78\Shangquan Law Firm, ``Investigative Report on the 
Implementation of the New Criminal Procedure Law (2013, Q1)'' [Xin 
xingshi susongfa shishi qingkuang diaoyan baogao (2013 diyi jidu)], 23 
April 13.
    \79\``Supreme People's Procuratorate: Protect Lawyers' Right To 
Review Case Files and Right To Know; Promote the Profession According 
to Law'' [Zuigaojian: baozhang lushi yuejuan quan he zhiqing quan cujin 
yifa zhiye], Xinhua, reprinted in China Law Info, 17 July 13.
    \80\Human Rights in China, ``Xu Zhiyong's Lawyer Accuses Police and 
Detention Center of Rights Violations,'' 22 July 13; Human Rights in 
China, ``Xu Zhiyong's Lawyer Liu Weiguo in Custody, Rights Group Is 
Shut Down,'' 18 July 13; ``Despite Detentions, Chinese Anti-Corruption 
Activists Press On,'' Voice of America, 19 July 13.
    \81\Human Rights in China, ``Lawyer Meets With Xu Zhiyong,'' 25 
July 13 (lawyer not identified); ``In Videotaped Message, Jailed 
Chinese Activist Urges Citizens To Unite for Democracy,'' Associated 
Press, reprinted in Washington Post, 8 August 13. During attorney Zhang 
Qingfang's meeting with Xu on August 1, Zhang shot a short video of Xu 
calling on Chinese citizens to work together as citizens to promote 
democracy and rule of law in China. Chris Buckley, ``Formal Arrest of 
Advocate Is Approved by China,'' New York Times, 23 August 13.
    \82\Human Rights in China, ``Support Group Says Police Unlawfully 
Block Lawyers From Meeting With Guo Feixiong,'' 27 August 13.
    \83\``Lawyer Gu Yushu Says Not Allowed To Represent Bo Xilai,'' 
Reuters, reprinted in South China Morning Post, 8 August 13; Jerome A. 
Cohen, Human Rights Watch, ``Criminal Justice in China: From the Gang 
of Four to Bo Xilai,'' 25 July 13, 5.
    \84\``Lawyer Gu Yushu Says Not Allowed To Represent Bo Xilai,'' 
Reuters, reprinted in South China Morning Post, 8 August 13. According 
to the South China Morning Post, two lawyers, Li Xiaolin and Shen 
Zhigeng, whom the Bo family reportedly hired earlier, said in 2012 that 
they were not permitted ``to either see Bo or represent him.'' In 
August 2013, Gu Yushu, a lawyer whom Bo's sister had retained, said 
that authorities had not granted him permission to represent Bo in 
court. See also Sui-Lee Wee, ``Lawyer Says Not Allowed To Represent 
China's Disgraced Bo Xilai,'' Reuters, reprinted in Guardian, 8 August 
13; Barbara Demick, ``Bo Xilai's Wealth on Trial in China,'' Los 
Angeles Times, 11 August 13; Chris Buckley, ``China Answers One 
Question About Trial: A Date,'' New York Times, 18 August 13; Donald 
Clarke, ``The Bo Xilai Trial and China's `Rule of Law': Same Old, Same 
Old,'' Atlantic, 21 August 13.
    \85\Wu Danhong, ``Dependence on Confessions Persists Despite Legal 
Reforms,'' Global Times, 20 August 12; Chen Weijun, ``The Scourge of 
Torture `Still Widespread' in Chinese Social System,'' Asia News, 24 
July 13; Ira Belkin, ``China's Tortuous Path Toward Ending Torture in 
Criminal Investigations,'' in Comparative Perspectives on Criminal 
Justice in China, eds. Mike McConville and Eva Pils (Cheltenham, UK: 
Edward Elgar Publishing Ltd., 2013), 93; Amnesty International, 
``Briefing on China's 2013 Criminal Procedure Law: In Line With 
International Standards?'' July 2013, 21; Dui Hua Foundation, 
``(En)countering Torture in China [Part 1 of 2],'' Dui Hua Human Rights 
Journal, 30 August 12. See also UN Committee against Torture, 41st 
Session, Consideration of Reports Submitted by State Parties Under 
Article 19 of the Convention: Concluding Observations of the Committee 
against Torture--China, CAT/C/CHN/CO/4, 12 December 08, paras. 11-12.
    \86\Dui Hua Foundation, ``Magazine Expose Reinvigorates Calls To 
End RTL,'' Dui Hua Human Rights Journal, 11 April 13; Chris Luo, 
``Women `Chained Up and Tortured' in Labour Camp,'' South China Morning 
Post, 9 April 13.
    \87\Dui Hua Foundation, ``RTL Detainees Pressed To Work, Paying To 
Leave, Officers Say,'' Dui Hua Human Rights Journal, 5 August 13, 
translating Chai Huiqun, ``Confessions of Disgraced RTL Officers; RTL 
Centers: Labor First?'' [Luoma laojiao jingcha de jiantao; laojiaosuo: 
laodong di yi?], Southern Weekend, 2 May 13. See also Tom Phillips, 
``Chinese Official Speaks Out After Being Jailed for Criticising Bo 
Xilai,'' Telegraph, 22 November 12.
    \88\Wu Danhong, ``Dependence on Confessions Persists Despite Legal 
Reforms,'' Global Times, 20 August 12; Chen Weijun, ``The Scourge of 
Torture `Still Widespread' in Chinese Social System,'' Asia News, 24 
July 13; Ira Belkin, ``China's Tortuous Path Toward Ending Torture in 
Criminal Investigations,'' in Comparative Perspectives on Criminal 
Justice in China, eds. Mike McConville and Eva Pils (Cheltenham, UK: 
Edward Elgar Publishing Ltd., 2013), 93; Amnesty International, 
``Briefing on China's 2013 Criminal Procedure Law: In Line With 
International Standards?'' July 2013, 21; Dui Hua Foundation, 
``(En)countering Torture in China [Part 1 of 2],'' Dui Hua Human Rights 
Journal, 30 August 12.
    \89\Wu Danhong, ``Dependence on Confessions Persists Despite Legal 
Reforms,'' Global Times, 20 August 12; Elizabeth M. Lynch, ``Margaret 
K. Lewis: What To Expect With China's New CPL,'' China Law and Policy 
(blog), 23 September 12 (observing that ``[c]onfessions are still king 
in China''); Dui Hua Foundation, ``(En)countering Torture in China 
[Part 1 of 2],'' Dui Hua Human Rights Journal, 30 August 12. See also 
Ira Belkin, ``China's Tortuous Path Toward Ending Torture in Criminal 
Investigations,'' in Comparative Perspectives on Criminal Justice in 
China, eds. Mike McConville and Eva Pils (Cheltenham, UK: Edward Elgar 
Publishing Ltd., 2013), 94, 116-17.
    \90\Human Rights Watch, ```Swept Away': Abuses Against Sex Workers 
in China,'' May 2013, 24-25.
    \91\Keith B. Richburg, ``After Bo's Fall, Chongqing Victims Seek 
Justice,'' Washington Post, 19 April 12.
    \92\Luo Jieqi and He Xin, ``In Bo Xilai's City, a Legacy of 
Backstabbing,'' Caixin, 7 December 12; Luo Jieqi, ``Days of Pain on 
Chongqing's Torture Mountain,'' Caixin, 7 December 12; Wang Heyan, 
``Defense Lawyer Seeks To Clear His Name--and Accuser's,'' Caixin, 6 
November 12.
    \93\Wang Heyan, ``Defense Lawyer Seeks To Clear His Name--and 
Accuser's,'' Caixin, 6 November 12.
    \94\Ira Belkin, ``China's Tortuous Path Toward Ending Torture in 
Criminal Investigations,'' in Comparative Perspectives on Criminal 
Justice in China, eds. Mike McConville and Eva Pils (Cheltenham, UK: 
Edward Elgar Publishing Ltd., 2013), 94-95.
    \95\Stanley Lubman, ``What China's Wrongful Convictions Mean for 
Legal Reform,'' Wall Street Journal, China Real Time Report (blog), 17 
July 13; ``Bizarrely Consistent: A Crackdown on Legal Activists,'' 
Economist, 27 July 13.
    \96\PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 54-58; Amnesty International, ``Briefing 
on China's 2013 Criminal Procedure Law: In Line With International 
Standards?'' July 2013, 18-19.
    \97\Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Provisions Concerning Questions About 
Exclusion of Illegal Evidence in Handling Criminal Cases [Guanyu banli 
xingshi anjian paichu feifa zhengju ruogan wenti de guiding], issued 24 
June 10, effective 1 July 10.
    \98\PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], enacted 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 50.
    \99\Ibid., art. 118; Wu Danhong, ``Dependence on Confessions 
Persists Despite Legal Reforms,'' Global Times, 20 August 12; Elizabeth 
M. Lynch, ``Margaret K. Lewis: What To Expect With China's New CPL,'' 
China Law and Policy (blog), 23 September 12.
    \100\Amnesty International, ``Briefing on China's 2013 Criminal 
Procedure Law: In Line With International Standards?'' July 2013, 13, 
15.
    \101\Ibid., 18-19.
    \102\Elizabeth M. Lynch, ``Margaret K. Lewis: What To Expect With 
China's New CPL,'' China Law and Policy (blog), 23 September 12; 
``First Case of a Beijing Court Activating Procedures To Exclude 
Illegally Obtained Evidence'' [Beijing fayuan shouci qidong feifa 
zhengju paichu chengxu pan'an], China National Radio, reprinted in 
China Law Info, 16 September 12.
    \103\``First Case of a Beijing Court Deciding To Exclude Illegally 
Obtained Evidence'' [Beijing fayuan shouci qidong feifa zhengju paichu 
chengxu pan'an], China National Radio, reprinted in China Law Info, 16 
September 12. The court nevertheless convicted the defendant of drug 
trafficking and sentenced him to life, based on other evidence.
    \104\Yuan Yuan, ``All Eyes Focused,'' Beijing Review, No. 36, 5 
September 13; Donald Clarke, ``Random Thoughts From Day 2 of the Bo 
Xilai Trial,'' Chinese Law Prof Blog, 23 August 13.
    \105\Dui Hua Foundation, ``Targeting Evidence To End Wrongful 
Execution,'' Dui Hua Human Rights Journal, 14 March 13.
    \106\Liu Dong, ``Efficient Injustice,'' Global Times, 31 March 13; 
Jonathan Kaiman, ``China Suspects Presumed Guilty Until Proven 
Innocent,'' Guardian, 20 May 13.
    \107\Stanley Lubman, ``What China's Wrongful Convictions Mean for 
Legal Reform,'' Wall Street Journal, China Real Time Report (blog), 17 
July 13; ``18 Years Later, 5 Acquitted of Taxi Slayings,'' China Daily, 
2 July 13.
    \108\``18 Years Later, 5 Acquitted of Taxi Slayings,'' China Daily, 
2 July 13.
    \109\Shen Deyong, ``How We Should Guard Against Wrongful 
Convictions'' [Women yingdang ruhe fangfan yuanjia cuoan], China Court 
News, reprinted in People's Daily, 6 May 13 (English translation 
available at the ChinaLawTranslate Web site, titled ``SPC Executive 
Vice-President Shen Deyong on Wrongful Cases,'' 10 July 13); Dui Hua 
Foundation, ``How Many More Sacrifices Until Rule of Law Reigns?'' Dui 
Hua Human Rights Journal, 9 May 13; Stanley Lubman, ``What China's 
Wrongful Convictions Mean for Legal Reform,'' Wall Street Journal, 
China Real Time Report (blog), 17 July 13.
    \110\Shen Deyong, ``How We Should Guard Against Wrongful 
Convictions'' [Women yingdang ruhe fangfan yuanjia cuoan], China Court 
News, reprinted in People's Daily, 6 May 13 (English translation 
available at the ChinaLawTranslate Web site, titled ``SPC Executive 
Vice-President Shen Deyong on Wrongful Cases,'' 10 July 13).
    \111\Patrick Boehler, ``Guangdong Chief Justice Calls for Reform of 
China's `Soviet' Court System,'' South China Morning Post, 3 July 13; 
Stanley Lubman, ``What China's Wrongful Convictions Mean for Legal 
Reform,'' Wall Street Journal, China Real Time Report (blog), 17 July 
13; ``Bizarrely Consistent: A Crackdown on Legal Activists,'' 
Economist, 27 July 13.
    \112\``New Guideline Can Safeguard Judicial Independence,'' Xinhua, 
13 August 13; ``Central Committee Political and Legal Affairs 
Commission Issues First Guiding Opinion on Preventing Wrongful 
Judgments'' [Zhongyang zhengfawei chutai shou ge fang yuanjia cuoan 
zhidao yijian], Xinhua, 13 August 13; ``Lifelong Responsibility,'' 
China Daily, 15 August 13; Wang Zhenghua, ``Court Strikes Down Murder 
Conviction,'' China Daily, 15 August 13.
    \113\Biao Teng, ``Chinese Death Penalty: Overview and Prospect,'' 
East Asian Law Journal, Vol. 1, No. 2 (2010), 87; Amnesty 
International, ``Death Sentences and Executions 2012,'' April 2013, 2; 
``The Death Penalty: Strike Less Hard,'' Economist, 3 August 13.
    \114\Amnesty International, ``Death Sentences and Executions 
2012,'' April 2013, 18-19.
    \115\John Kamm, ``Trying Juveniles,'' New York Times, 29 November 
12; Dui Hua Foundation, ``China Under the Microscope: The Second 
Universal Periodic Review,'' 28 February 13; Dui Hua Foundation, ``Our 
Work: Criminal Justice,'' last visited 8 August 13; ``The Death 
Penalty: Strike Less Hard,'' Economist, 3 August 13.
    \116\Xiaoqing Pi, ``Tough Questions After Chinese Court Mishandles 
Execution,'' Wall Street Journal, China Real Time Report (blog), 16 
July 13.
    \117\Joshua Rosenzweig, ``China's National Verdict Database and the 
Death Penalty,'' Siweiluozi's Blog, 3 July 13.
    \118\See, e.g., Xiaoqing Pi, ``Tough Questions After Chinese Court 
Mishandles Execution,'' Wall Street Journal, China Real Time Report 
(blog), 16 July 13; World Coalition, China Against the Death Penalty, 
Report 2012, last visited 27 September 13, 1, 4; Biao Teng, ``Chinese 
Death Penalty: Overview and Prospect,'' East Asian Law Journal, Vol. 1, 
No. 2 (2010), 90; Zi Heng Lim, ``Why China Executes So Many People,'' 
Atlantic, 9 May 13; Josh Chin, ``Video Reignites Death Penalty Debate 
in China,'' Wall Street Journal, China Real Time Report (blog), 13 
August 13.
    \119\See, e.g., Xiaoqing Pi, ``Tough Questions After Chinese Court 
Mishandles Execution,'' Wall Street Journal, China Real Time Report 
(blog), 16 July 13; ``The Death Penalty: Strike Less Hard,'' Economist, 
3 August 13; ``Court Blasted for Failure To Notify Family in Swift 
Execution,'' Global Times, 15 July 13; Ren Zhongyuan, ``Executed 
Businessman's Assets Sold for a Bargain, Lawyer Says,'' Caixin, 16 July 
13; Ren Zhongyuan, ``Closer Look: When Hunan Didn't Bother To Tell a 
Family It Was Killing One of Theirs,'' Caixin, 15 July 13; Voice of 
America, ``Zeng Chengjie Secretly Executed; Internet Users Paying 
Attention to Hidden Details Behind the Case'' [Zeng chengjie bei mimi 
chujue wangyou guanzhu anzi beihou heimu], 15 July 13.
    \120\Xiaoqing Pi, ``Tough Questions After Chinese Court Mishandles 
Execution,'' Wall Street Journal, China Real Time Report (blog), 16 
July 13; ``Court Blasted for Failure To Notify Family in Swift 
Execution,'' Global Times, 15 July 13; ``China's Implementation of the 
Death Penalty Explained: Prisoner Has Right To See Family Before 
Execution'' [Zhongguo sixing zhixing chengxu jiedu: zuifan xing xing 
qian you jian jiashu quanli], Chengdu Business Daily, reprinted in 
China Law Info, 17 July 13.
    \121\Xiaoqing Pi, ``Tough Questions After Chinese Court Mishandles 
Execution,'' Wall Street Journal, China Real Time Report (blog), 16 
July 13; Liang Chao, ``Zeng Chengjie's Daughter Apologizes to Changsha 
Intermediate Court, Says She Only Wants To Get Her Father's Remains'' 
[Zeng chengjie nuer xiang changsha zhongyuan zhi qian cheng zhi xiang 
nadao fuqin guhui], Jinghua Net, reprinted in Xinhua, 14 July 13. 
Zeng's case is similar to that of Wu Ying, a woman entrepreneur from 
Wenzhou who was initially sentenced to death for illegal fundraising in 
2009. Following a protest on the Internet in which people questioned 
the severity of Wu Ying's punishment, she was given a suspended death 
sentence (i.e., death with a two-year reprieve) instead. Another 
Wenzhou businesswoman, Lin Haiyan, was also sentenced to death earlier 
this year for illegal fundraising (US$100 million). The Supreme 
People's Court is currently reviewing her death sentence. See 
``Underground Lender Gets Death Sentence in China,'' Associated Press, 
reprinted in New York Times, 20 May 13.
    \122\Christopher Bodeen, ``China Eliminating Reliance on Executed 
Prisoners for Organs, but Cultural Attitudes a Barrier,'' Associated 
Press, reprinted in Vancouver Sun, 17 May 13.
    \123\Biao Teng, ``Chinese Death Penalty: Overview and Prospect,'' 
East Asian Law Journal, Vol. 1, No. 2 (2010), 87, 89; Ying Yang, 
``Death Row Inmates Number One Organ Donors in China,'' Deutsche Welle, 
9 March 12.
    \124\Jiefu Huang et al., ``A Pilot Programme of Organ Donation 
After Cardiac Death in China,'' Lancet, Vol. 379, No. 9818 (2012), 862-
63. As part of the institutional reforms approved by the National 
People's Congress during its meeting in March 2013, the Ministry of 
Health was merged with the National Population and Family Planning 
Commission to create the new National Health and Family Planning 
Commission. See ``National Health and Family Planning Commission,'' 
Global Times, last visited 14 August 13.
    \125\Yaqiu Wang, ``In China Execution Done Behind Closed Doors 
Raises Questions About Dubious Organ Transplant Practices,'' Tea Leaf 
Nation, 18 July 13; ``China Will Formally Launch Organ Transplantation 
[Donor System]; Organs Will Be Allocated According to 3 Main 
Principles'' [Woguo jiang zhengshi qidong qiguan yizhi; qiguan fenpei 
jiang zuncong 3 da yuanze], Beijing Evening News, reprinted in Xinhua, 
26 February 13; ``Ministry of Health: China's Organ Donation Pilot Site 
Only Received 659 Voluntary Donations in 3 Years'' [Weishengbu: 
zhongguo qiguan juanxian shidian 3 nian jin 659 lie ziyuan juanxian], 
People's Daily, reprinted in China Law Info, 19 April 13.
    \126\Wen Ya, ``Organ Sourcing To See Overhaul,'' Global Times, 16 
August 13; ``China To Phase Out Use of Executed Prisoners' Organs for 
Transplants,'' Reuters, reprinted in South China Morning Post, 16 
August 13.
    \127\Ibid. See also ``Executed Prisoners Are Still Main Source for 
Organ Transplants in China,'' Deutsche Welle, 21 December 12; CECC, 
2012 Annual Report, 10 October 12, 113.
    Notes to Section II--Freedom of Religion

    \1\The term ``freedom of religion'' used in this section 
encompasses the more broadly articulated freedom of ``thought, 
conscience, and religion.'' Universal Declaration of Human Rights 
(UDHR), adopted and proclaimed by UN General Assembly resolution 217A 
(III) of 10 December 48, art. 18. For protections in international law, 
see Article 18 in the UDHR; International Covenant on Civil and 
Political Rights (ICCPR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, art. 18; 
International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 13(3) (requiring 
States Parties to ``ensure the religious and moral education of . . . 
children in conformity with [the parents'] own convictions''); 
Convention on the Rights of the Child (CRC), adopted and opened for 
signature, ratification, and accession by UN General Assembly 
resolution 44/25 of 20 November 89, entry into force 2 September 90, 
art. 14; Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, adopted and proclaimed 
by UN General Assembly resolution 36/55 of 25 November 81. See General 
Comment No. 22 to Article 18 of the ICCPR for an official 
interpretation of freedom of religion as articulated in the ICCPR. UN 
Human Rights Committee General Comment No. 22: The Right to Freedom of 
Thought, Conscience, and Religion (Art. 18), CCPR/C/21/Rev.1/Add.4, 30 
July 93, para. 1. China is a party to the ICESCR and the CRC, and a 
signatory to the ICCPR. The Chinese government has committed itself to 
ratifying, and thus bringing its laws into conformity with, the ICCPR 
and reaffirmed its commitment on April 13, 2006, in its application for 
membership in the UN Human Rights Council. China's top leaders have 
also stated on other occasions that they are preparing for ratification 
of the ICCPR, including in March 18, 2008, press conference remarks by 
then Premier Wen Jiabao; in a September 6, 2005, statement by Luo Gan, 
State Councilor and member of the Political Bureau of the Communist 
Party Central Committee, at the 22nd World Congress on Law; in 
statements by Wen Jiabao during his May 2005 Europe tour; and in a 
January 27, 2004, speech by former Chinese President Hu Jintao before 
the French National Assembly. In 2009, China affirmed this commitment 
during the Universal Periodic Review of China's human rights record 
before the UN Human Rights Council. UN GAOR, Hum. Rts. Com., 11th 
Sess., Report of the Working Group on the Universal Periodic Review--
China, A/HRC/11/25, 29 May 09, para. 114 (1). In addition, China's 
first National Human Rights Action Plan (2009-2010) affirms the 
principles in the ICCPR, and China's second National Human Rights 
Action Plan (2012-2015) states that the government ``has continued to 
carry out administrative and judicial reforms and prepare the ground 
for approval'' of the ICCPR. See State Council Information Office, 
``National Human Rights Action Plan of China (2009-2010),'' reprinted 
in China Daily, 13 April 09; State Council Information Office, 
``National Human Rights Action Plan of China (2012-2015),'' 11 June 12, 
sec. V(1).
    \2\PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, art. 36.
    \3\For specific examples of the range of religious activities 
protected under international law, see, e.g., General Comment No. 22 to 
Article 18 of the International Covenant on Civil and Political Rights. 
General Comment No. 22: The Right to Freedom of Thought, Conscience, 
and Religion (Art. 18), CCPR/C/21/Rev.1/Add.4, 30 July 93, paras. 1, 2, 
4. The Chinese government denies protected activities such as the 
``freedom to prepare and distribute religious texts or publications'' 
(General Comment No. 22, para. 4). For restrictions on the publication 
of religious materials, see State Administration for Religious Affairs, 
Regulation on Religious Affairs [Zongjiao shiwu tiaoli], issued 30 
November 04, effective 1 March 05, art. 7. For an interpretation of the 
provision protecting ``normal religious activities'' in the Regulation 
on Religious Affairs, written by drafters of the regulation, see Shuai 
Feng and Li Jian, Interpretation of the Regulation on Religious Affairs 
[Zongjiao shiwu tiaoli shiyi], (Beijing: Beijing Religious Culture 
Press, 2005), 19. See also page 6 of the preface of the book, noting 
the authors' status as drafters of the RRA.
    \4\The central government has referred to the five religions as 
China's main religions, but in practice the state has created a 
regulatory system that institutionalizes only these five religions for 
recognition and legal protection. See, e.g., State Council Information 
Office, White Paper on Freedom of Religious Belief in China [Zhongguo 
de zongjiao xinyang ziyou zhuangkuang], reprinted in China Net, 1 
October 97. This white paper states that there is a ``great diversity 
of religious beliefs'' in China, with the ``main religions'' being 
Buddhism, Taoism, Islam, Catholicism, and Protestantism. Wording from 
this white paper is also posted as a statement of current policy on the 
Web sites of the United Front Work Department, the agency that oversees 
religious affairs within the Communist Party, and the State 
Administration for Religious Affairs. Some local regulations on 
religious affairs define ``religion'' to mean only these five 
religions. See, e.g., Sichuan Province Regulation on Religious Affairs 
[Sichuansheng zongjiao shiwu tiaoli], issued 9 May 00, amended 30 
November 06, art. 2; Henan Province Regulation on Religious Affairs 
[Henansheng zongjiao shiwu tiaoli], issued 30 July 05, effective 1 
January 06, art. 2. There is limited formal tolerance outside this 
framework for some ethnic minority and ``folk'' religious practices. 
Kim-Kwong Chan and Eric R. Carlson, Religious Freedom in China: Policy, 
Administration, and Regulation (Santa Barbara: Institute for the Study 
of American Religion, 2005), 9-10, 15-16.
    \5\See Falun Gong within this section for detailed information.
    \6\Regulation on Religious Affairs (RRA) [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05. For an overview of the 
general requirements within the RRA and an analysis of several 
provincial-level regulations, see ``Zhejiang and Other Provincial 
Governments Issue New Religious Regulations,'' CECC China Human Rights 
and Rule of Law Update, June 2006, 9-10.
    \7\The Regulation on Religious Affairs (RRA) provides 
administrative penalties, such as fines, for violations of its 
stipulations. Regulation on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05, arts. 40, 41. Such 
administrative penalties also include the possibility of limited short-
term detention under the Public Security Administration Punishment Law. 
Regulation on Religious Affairs [Zongjiao shiwu tiaoli], issued 30 
November 04, effective 1 March 05, arts. 39, 40, 43; Public Security 
Administration Punishment Law [Zhonghua renmin gongheguo zhi'an guanli 
chufa fa], issued 28 August 05, effective 1 March 06, art. 27. The RRA 
is not authorized to provide for criminal penalties. At the same time, 
like other regulations, the RRA includes boilerplate language referring 
to the necessity of pursuing a criminal investigation if a ``crime is 
constituted.'' For example, where ``anyone uses religion to carry out 
such illegal activities as harm state security or public security, 
infringe upon citizens' right of the person and democratic rights, 
impair the administration of public order, or infringe upon public or 
private property,'' criminal charges are to be pursued where a ``crime 
is constituted.'' Regulation on Religious Affairs [Zongjiao shiwu 
tiaoli], issued 30 November 04, effective 1 March 05, art. 40.
    \8\The government uses Article 300 of the Criminal Law to punish 
activities deemed to be cult-related. Chinese authorities also punish 
religious adherents by prosecuting them under other Criminal Law 
provisions, such as by portraying the printing and distribution of 
religious literature, a freedom protected under international human 
rights law, as the crime of ``illegal operation of a business'' (art. 
225). PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, arts. 225, 300. See discussion of the cases of Li 
Wenxi and Ren Lacheng in Protestantism within this section for examples 
of authorities' use of Art. 225 to punish persons who distribute 
religious literature.
    \9\Decision of the Standing Committee of the National People's 
Congress on Banning Heretical Cult Organizations, Preventing and 
Punishing Cult Organizations [Guanyu chudi xiejiao zuzhi, fangfan he 
chengzhi xiejiao huodong de jueding], issued 30 October 99.
    \10\Administrative punishments can range from a warning or fine to 
detention in a reeducation through labor (RTL) center for up to three 
years, with the possibility of a one-year extension. Forms of 
administrative detention include, among others, short-term detention 
under the Public Security Administration Punishment Law, RTL, forced 
psychiatric commitment, forced drug detoxification, and work-study 
schools.
    \11\Fenggeng Yang, Religion in China: Survival and Revival Under 
Communist Rule (New York: Oxford University Press, 2012), 78-84.
    \12\The United Front Work Department (UFWD) is directly subordinate 
to the Communist Party Central Committee and is the key organization 
through which the Party implements control of religion. See Fenggeng 
Yang, Religion in China: Survival and Revival Under Communist Rule (New 
York: Oxford University Press, 2012), 78-79. The senior officials of 
the UFWD are listed in ``Chinese Communist Party 18th Central 
Committee,'' Chinese Communist Party 18th Central Committee, reprinted 
in Sina, 18 April 13.
    \13\Fenggeng Yang, Religion in China: Survival and Revival Under 
Communist Rule (New York: Oxford University Press, 2012), 81. According 
to this book, ``In practice, the SARA and lower-level RABs usually rule 
through the so-called patriotic religious associations. The 
associations of the five official religions are nongovernmental 
organizations in name, but they function as an extension and delegation 
of the RAB.''
    \14\``China To Register All Clergy,'' Xinhua, 8 January 13.
    \15\The official claimed the requirement would protect the rights 
of religious worshippers and ``help the public identify fake staff.'' 
``China To Register All Clergy,'' Xinhua, 8 January 13.
    \16\The term ``religious organization'' (zongjiao tuanti) or 
``religious-type of social organization'' (zongjiaolei shehui zuzhi or 
shehui tuanti) refer here to registered religious groups, such as 
Catholic dioceses, Muslim congregations, Protestant congregations, as 
well as to charitable organizations established by registered religious 
organizations, all of which are under the oversight of the five 
Patriotic religious associations, the relevant level religious affairs 
bureau, and the relevant civil affairs bureau.
    \17\Zhang Qianfan and Zhu Yinping, ``Religious Freedom and Its 
Legal Restrictions in China,'' Brigham Young University Law Review, 
Vol. 2011, No. 3, 790-95 (recent online version of article dated 31 
January 13); Fenggang Yang, Religion in China: Survival and Revival 
Under Communist Rule (New York: Oxford University Press, 2012), 74-78. 
For a discussion of how the restrictive regulatory framework has 
limited the growth of religious venues, materials, and clergy, see 
Yang, Religion in China, 149-154. For registration challenges to 
religious organizations' establishing charitable organizations, see 
Zhang Zhipeng, ``Let Legal Entity Status Help Advance the `Rapid 
Development' of the Religious Charity Sector'' [Rang falu shiti diwei 
zhutui zongjiao gongyi cishan shiye ``tengfei''], China Ethnicity News, 
reprinted in China Ethnic Religions Net, 18 June 13.
    \18\``Third Plenary Meeting of the First Session of the 12th 
National People's Congress: Full Text Record'' [Shierjie quanguo renda 
yici huiyi disan quanti huiyi wenzi shilu], Xinhua, 10 March 13.
    \19\Ibid. See State Administration for Religious Affairs, 
Regulation on Religious Affairs [Zongjiao shiwu tiaoli], issued 30 
November 04, effective 1 March 05, chap. 2; State Council Religious 
Affairs Bureau, Ministry of Civil Affairs, Implementing Measures on the 
Management of the Registration of Religious Social Organizations 
[Zongjiao shehui tuanti dengji guanli shishi banfa], issued 6 May 91, 
arts. 2-7, 9-10; State Council, Regulations on the Registration and 
Management of Social Organizations [Shehui tuanti dengji guanli 
tiaoli], issued and effective 25 October 98, arts. 3, 7-19.
    \20\State Administration for Religious Affairs, Chinese Communist 
Party Central Committee United Front Work Department, National 
Development and Reform Commission, Ministry of Civil Affairs, Ministry 
of Finance, and State Administration of Taxation, Opinion Encouraging 
and Standardizing Involvement by Religious Organizations in Charitable 
Activities [Guanyu guli he guifan zongjiaojie congshi gongyi 
cishanhuodong de yijian],16February 12, paras.1, 2(2)-(3).
    \21\See Zhang Zhipeng, ``Let Legal Entity Status Help Advance the 
`Rapid Development' of the Religious Charity Sector'' [Rang falu shiti 
diwei zhutui zongjiao gongyi cishan shiye ``tengfei''], China Ethnicity 
News, reprinted in China Ethnic Religions Net, 18 June 13.
    \22\This sub-section addresses what official sources refer to as 
hanchuan fojiao, i.e., ``Han'' or Mahayana Buddhism, and nanchuan 
fojiao, i.e., Pali (Theravada) Buddhism, which is practiced mainly by 
the Dai ethnic group and other ethnic minorities in Yunnan province. 
Tibetan Buddhism, the third major school of Buddhism in China, is 
discussed in Section V--Tibet. Tibetan Buddhism is not practiced solely 
by Tibetans; recently a growing number of Han Chinese have embarked on 
the study of Tibetan Buddhism. Calum MacLeod, ``In China, Tensions 
Rising Over Buddhism's Quiet Resurgence,'' USA Today, 2 November 11. 
For information on the different schools of Buddhism recognized by the 
Chinese government, see, e.g., State Council Information Office, White 
Paper on Freedom of Religious Belief in China [Zhongguo de zongjiao 
xinyang ziyou zhuangkuang], reprinted in China Net, 1 October 97, sec. 
I; David A. Palmer, ``China's Religious Danwei: Institutionalising 
Religion in the People's Republic,'' China Perspectives, No. 4 (2009), 
26; ``Three Main Schools Discuss Buddhist Doctrine: Experience 
Buddhism's Wisdom'' [San da yuxi tan fofa: ganshou fojiao de zhihui], 
China Net, 26 April 12. For examples of continued state control over 
religious activities and practices of Buddhists during this reporting 
year, see, e.g., State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2013 Main Work Points'' [Guojia 
zongjiao shiwu ju 2013 nian gongzuo yaodian], 18 January 13; State 
Administration for Religious Affairs, Opinion on Handling Problems 
Involved With the Management of Buddhist Monasteries and Taoist Temples 
[Guanyu chuli sheji fojiao simiao, daojiao gongguan guanli youguan 
wenti de yijian], 8 October 12; State Administration for Religious 
Affairs, ``Notice Regarding the Issuing of `Measures Regarding 
Evaluation and Commendation of the Nationwide Establishment of Advanced 
Units and Advanced Individuals in Harmonious Buddhist and Taoist 
Temples and Churches''' [Quanguo chuangjianhexie siguan jiaotang 
xianjin jiti he xianjingeren pingbi biaozhang banfa],6 July 13.
    \23\``Vice Premier Liu Yandong: Speech at Meeting Commemorating the 
60th Anniversary of the Buddhist Association of China'' [Liu yandong 
fuzongli: zai zhongguo fojiao xiehui chengli 60 zhounian jinianhui 
shang de jianghua], Buddhist Association of China, 26 August 13.
    \24\State Administration for Religious Affairs, Opinion on Handling 
Problems Involved With the Management of Buddhist Monasteries and 
Daoist Temples [Guanyu chuli sheji fojiao simiao, daojiao gongguan 
guanli youguan wenti de yijian], 8 October 12; ``China Bans 
Profiteering From Religious Activity,'' Xinhua, reprinted in China 
Daily, 22 October 12.
    \25\Qi Zhijiang, ``A Discussion of the Connections and Differences 
Between Religions and Cults,'' Kaifeng Network, reprinted in China 
Anti-Cult Association, 11 November 11.
    \26\Dui Hua Foundation, ``The Cult of Buddha,'' Dialogue, Issue 52, 
29 August 13; ``Introduction to the China Anti-Cult Association,'' 
China Anti-Cult Association, 9 February 13; Tianjin Anti-Cult 
Association, ``Which Organizations Has the Ministry of Public Security 
Designated as Cults?'' 22 October 12; CECC, 2009 Annual Report, 10 
October 09, 115.
    \27\Dui Hua Foundation, ``The Cult of Buddha,'' Dialogue, Issue 52, 
29 August 13; ``Introduction to the China Anti-Cult Association,'' 
China Anti-Cult Association, 9 February 13; Tianjin Anti-Cult 
Association, ``Which Organizations Has the Ministry of Public Security 
Designated as Cults?'' 22 October 12.
    \28\Dui Hua Foundation, ``The Cult of Buddha,'' Dialogue, Issue 52, 
29 August 13; Tianjin Anti-Cult Association, ``Which Organizations Has 
the Ministry of Public Security Designated as Cults?'' 22 October 12.
    \29\Christian Solidarity Worldwide, ``Wu Zeheng, A Buddhist 
Patriarch, Suffers Ongoing Harassment After Serving Eleven Years in 
Prison,'' 22 March 12; Human Rights in China, ``Three Documents Related 
to the Case of Buddhist Leader Wu Zeheng,'' 22 September 11.
    \30\Andrew Jacobs, ``No Exit: China Uses Passports as Political 
Cudgel,'' New York Times, 22 February 13.
    \31\For background information on the history and function of the 
state-led patriotic religious associations, see David A. Palmer, 
``China's Religious Danwei,'' China Perspectives, Vol. 4 (2009), 19-21, 
25.
    \32\Hong Kong Catholic Diocese, ``Justice and Peace Commission of 
the Hong Kong Catholic Diocese Opinion on Religious Freedom in China 
for the UN Human Rights Council's Universal Periodic Review'' 
[Xianggang tianzhujiao zhengyi heping weiyuanhui jiu lianheguo renquan 
lishihui pubian dingqi shenyi jizhi you guan zhonghua renmin gongheguo 
zongjiao ziyou de yijianshu], 18 July 13.
    \33\Ibid.
    \34\Andrew Jacobs, ``China Reportedly Strips Shanghai Bishop of His 
Title,'' New York Times, 12 December 12.
    \35\Therese Postel, ``Can Pope Francis Go to China?'' Century 
Foundation (blog), 13 March 13. See also CECC, 2012 Annual Report, 10 
October 12, 80; CECC, 2011 Annual Report, 10 October 11, 96; CECC, 2010 
Annual Report, 10 October 10, 101; CECC, 2009 Annual Report, 10 October 
09, 119; CECC, 2008 Annual Report, 31 October 08, 78.
    \36\Hong Kong Catholic Diocese, ``Justice and Peace Commission of 
the Hong Kong Catholic Diocese Opinion on Religious Freedom in China 
for the UN High Commissioner for Human Rights' Universal Periodic 
Review'' [Xianggang tianzhujiao zhengyi heping weiyuanhui jiu lianheguo 
renquan lishihui pubian dingqi shenyi jizhi, you guan zhonghua renmin 
gongheguo zongjiao ziyou de yijianshu], 18 July 13.
    \37\Anthony E. Clark, ``China Renews Tension With the Vatican,'' 
Catholic World Report, 24 May 13; Michelle FlorCruz, ``China Quietly 
Revises Church Regulations Requiring Government-Approved Catholic 
Bishops,'' International Business Times, 24 May 13.
    \38\Bishops Conference of the Catholic Church of China, Regulation 
on the Election and Consecration of Bishops [Zhongguo tianzhujiao 
zhujiaotuan guanyu xuansheng zhujiao de guiding], adopted 12 December 
12, effective 8 April 13.
    \39\Ibid.; Bishops Conference of the Catholic Church of China 
Regulation on the Election and Consecration of Bishops [Zhongguo 
tianzhujiao zhujiaotuan guanyu xuansheng zhujiao de guiding], passed 17 
May 93. The new regulation requires local dioceses to apply in writing 
to the provincial-level Bureaus of Religious Affairs for permission to 
elect new bishops. Moreover, a bishop election work committee shall be 
formed--under the guidance of the Bureau of Religious Affairs--
responsible for formulating election measures, recommending 
representatives to the election committee and the total number of 
representatives, selecting one to three candidates, and overseeing of 
the election process.
    \40\``Two Priests Dismissed in Wuhan,'' Union of Asian Catholic 
News, 21 December 12.
    \41\See, e.g., Sandro Magister, ``Shanghai, a Strong and Hard-
Pressed Diocese,'' Chiesa Espress Online (blog), 3 May 13; Andrew 
Jacobs, ``China Reportedly Strips Shanghai Bishop of His Title,'' New 
York Times, 12 December 12; ``Vatican Slams Chinese Official Church in 
Bishop Row,'' Agence France-Presse, reprinted in South China Morning 
Post, 14 December 12; N.J. Viehland, ``With No Bishop, Shanghai Priests 
Concerned About Masses, Pilgrimages,'' Catholic News Service, 22 May 
13; Tom Phillips, ``Shanghai's Catholic Church in Disarray,'' 
Telegraph, 12 July 13.
    \42\Sandro Magister, ``Shanghai, a Strong and Hard-Pressed 
Diocese,'' Chiesa Espress Online (blog), 3 May 13; ``Aloysius Jin 
Luxian Dies at 96; Shanghai Bishop,'' Associated Press, 30 April 13. A 
media source reported that Bishop Ma may have been transferred 
temporarily to Beijing during funeral services for Bishop Jin. See Wang 
Zhicheng, ``Msgr. Jin Luxian's Funeral Without Bishop Ma Daqin,'' Asia 
News, 29 April 13.
    \43\``Chinese Catholic Association and [Bishops] Conference 
Spokesperson Comments'' [Zhongguo tianzhujiao yihui yituan fayanren 
tanhua], Catholic Church in China, 14 December 12; Andrew Jacobs, 
``China Reportedly Strips Shanghai Bishop of His Title,'' New York 
Times, 12 December 12; Didi Kirsten Tatlow, ``Farewell to an Enigmatic 
Chinese Bishop,'' New York Times, 29 April 13.
    \44\``Chinese Catholic Association and [Bishops] Conference 
Spokesperson Comments'' [Zhongguo tianzhujiao yihui yituan fayanren 
tanhua], Catholic Church in China, 14 December 12.
    \45\Sandro Magister, ``Shanghai, a Strong and Hard-Pressed 
Diocese,'' Chiesa Espress Online (blog), 3 May 13; ``Vatican Slams 
Chinese Official Church in Bishop Row,'' Agence France-Presse, 
reprinted in South China Morning Post, 14 December 12.
    \46\``Aloysius Jin Luxian Dies at 96; Shanghai Bishop,'' Associated 
Press, reprinted in Los Angeles Times, 30 April 13.
    \47\Although several international media sources have noted Bishop 
Jin's age at death as 97, the Vatican Radio news item on his death 
provides his date of birth--June 20, 1916--confirming that Bishop Jin 
was 96 at his death. See ``China: Secretary of State Note on Death of 
Bishop Jin Luxian,'' Vatican Radio, 30 April 13.
    \48\N.J. Viehland, ``With No Bishop, Shanghai Priests Concerned 
About Masses, Pilgrimages,'' Catholic News Service, 22 May 13; Tom 
Phillips, ``Shanghai's Catholic Church in Disarray,'' Telegraph, 12 
July 13.
    \49\Hong Kong Catholic Diocese, ``Justice and Peace Commission of 
the Hong Kong Catholic Diocese Opinion on Religious Freedom in China 
for the UN Human Rights Council's Universal Periodic Review'' 
[Xianggang tianzhujiao zhengyi heping weiyuanhui jiu lianheguo renquan 
lishihui pubian dingqi shenyi jizhi, you guan zhonghua renmin gongheguo 
zongjiao ziyou de yijianshu], 18 July 13, paras. 19, 26.
    \50\Ibid., paras. 18, 20. For further information on the case of 
Bishop Su Zhimin, see the Commission's Political Prisoner Database 
record 2004-05380. For further information on the case of Bishop Shi 
Enxiang, see the Commission's Political Prisoner Database record 2004-
05378.
    \51\The Cardinal Kung Foundation, ``Arrest of an Underground 
Catholic Priest in Hebei Province and an Appeal to the Chinese 
Authorit[ies] To Release Religious Prisoners,'' 9 August 13; ``Hebei 
Underground Catholic Priest Arrested,'' AsiaNews, 10 August 13.
    \52\Ibid.
    \53\``Hebei Underground Catholic Priest Arrested,'' AsiaNews, 10 
August 13.
    \54\Nailene Chou Wiest, ``Time for Sino-Vatican Rapprochement,'' 
Caixin, 18 March 13; Christopher Bodeen, ``China Maintains Hard Line on 
Ties With Vatican,'' Associated Press, 14 March 13; Wang Zhaokun and 
Mauro Lovecchio, ``Beijing-Vatican Breakthrough Not Expected,'' Global 
Times, 15 March 13.
    \55\Pope Benedict XVI, ``Letter of the Holy Father to the Bishops, 
Priests, Consecrated Persons and Lay Faithful of the Catholic Church in 
the People's Republic of China,'' 27 May 07; Cardinal Fernando Filoni, 
``Five Years After the Publication of Benedict XVI's Letter to the 
Church in China,'' Tripod, Winter 2012, Vol. 32, No. 167. Cardinal 
Filoni lived in Hong Kong from 1992-2001. He currently is prefect of 
the Rome-based Congregation for Evangelization of Peoples which is 
responsible for international missionary work. See Profile of The 
Congregation for the Evangelization of Peoples, The Vatican, last 
visited 3 September 13. See also Therese Postel, ``Can Pope Francis Go 
to China?'' Century Foundation (blog), 13 March 13.
    \56\Wang Zhaokun and Mauro Lovecchio, ``Beijing-Vatican 
Breakthrough Not Expected,'' Global Times, 15 March 13.
    \57\See, e.g., ``Illegal Second Instance Trial at Ningxia's 
Intermediate Court; Lawyers Defend Ma Xiongde's Innocence'' [Ningxia 
wuzhong zhongyuan feifa ershen; lushi wei ma xiongde wuzui bianhu], 
Clear Wisdom, 20 March 13; ``Mr. Yang Wenqing, Ms. Qu Zebi, and Ms. 
Zhou Xulin Sentenced to Prison,'' Clear Wisdom, 21 February 13; ``Six 
Practitioners Sentenced to Prison in Penglai City,'' Clear Wisdom, 6 
February 13; ``Zhang Lin and Three Other Falun Gong Practitioners from 
Xi'an Municipality Illegally Sentenced,'' Clear Wisdom, 5 February 13; 
``Retired Teacher Ms. Pei Shanzhen From Shanghai Once Again Secretly 
Sentenced to Prison,'' Clear Wisdom, 3 January 13.
    \58\Human Rights in China, ``Rights Defense Lawyer Detained After 
Court Appearance,'' 5 April 13; ``Lawyer Wang Quanzhang Is Released Two 
Days Early from Detention'' [Lushi wang quanzhang bei ju liang ri 
tiqian huoshi], Radio Free Asia, 8 April 13.
    \59\Malcolm Moore, ``Chinese Lawyers Targeted As Xi Jinping 
Tightens Control,'' Telegraph, 20 August 13; Maya Wang, ``Xi Jinping's 
First 100 Days: Still Waiting for Human Rights Progress,'' Global Post, 
9 July 13.
    \60\See, e.g., Xiang Yang, China Anti-Cult Association, ``Basic 
Thoughts on Preparing for the Transformation Through Reeducation 
Assault and Consolidation Battle'' [Dahao jiaoyu zhuanhua gongjian yu 
gonggu zhengti zhang de jiben sikao], 5 August 10; Gao Peiquan, ``Our 
School Holds General Assembly To Commend the Conclusion of the Work in 
the Transformation Through Reeducation Assault and Consolidation 
Battle'' [Woxiao zhaokai jiaoyu zhuanhua gongjian yu gonggu zhengti 
zhang gongzuo zongjie biaozhang dahui], Journal of Shihezi University, 
30 November 12.
    \61\CECC, 2011 Annual Report, 10 October 11, 99-101.
    \62\All-China Women's Federation, ``The Vigorous Anti-Cult Work of 
All Levels of Women's Federation Organizations in Chongqing Has 
Achieved Outstanding Results'' [Chongqing shi geji fulian zuzhi dali 
kaizhan fan xiejiao gongzuo chengxiao xianzhu], 1 August 13; Pucheng 
County Public Security Bureau, ``In Order To Resist Cults, One Must 
Adhere to the Four Combinations'' [Jujue xiejiao bixu jianchi sige 
jiehe], 6 June 13.
    \63\All-China Women's Federation, ``The Vigorous Anti-Cult Work of 
All Levels of Women's Federation Organizations in Chongqing Has 
Achieved Remarkable Results'' [Chongqing shi geji fulian zuzhi dali 
kaizhan fan xiejiao gongzuo chengxiao xianzhu], 1 August 13.
    \64\``First Meeting of Zhejiang Public Anti-Cult Work Meeting and 
Anti-Cult Symposium Held in Hangzhou'' [Shoujie zhejiang sheng minjian 
fan xiejiao gongzuo huiyi jifan xiejiao xueshu yantaohui zai hangzhou 
zhaokai], Qianjiang Tide, 3 May 13.
    \65\``Lens Magazine: Expose on Liaoning's Masanjia Women's RTL 
Center'' [Shijue zazhi: jiemi liaoning masanjia nuzi laojiaosuo], Lens 
Magazine, reprinted inChina DigitalTimes,7 April 13.
    \66\Andrew Jacobs, ``BehindCry forHelpFromChinaLaborCamp,'' New 
York Times,11June 13.
    \67\Dui Hua Foundation, ``Dui Hua: Magazine Expose Reinvigorates 
Calls to End RTL,'' 11 April 13; Didi Kirsten Tatlow, ``Story of 
Women's Labor Camp Abuse Unnerves Even China,'' New York Times, 11 
April 13; Chris Luo, ``Women `Chained Up and Tortured' in Labour 
Camp,'' South China Morning Post, 9 April 13; ``Lens Magazine: Expose 
on Liaoning's Masanjia Women's RTL Center'' [Shijue zazhi: jiemi 
liaoning masanjia nuzi laojiaosuo], Lens Magazine, reprinted in China 
Digital Times, 7 April 13.
    \68\Andrew Jacobs, ``Chinese Journalist Is Released on Bail,'' New 
York Times, 8 July 13; ``China Releases Journalist Du Bin From 
Detention,'' BBC, 9 July 13. See the Commission's Political Prisoner 
Database, record 2013-00206, for more information on Du Bin's case.
    \69\Falun Gong in China: Review and Update, Hearing of the 
Congressional-Executive Commission on China, 18 December 12, Testimony 
of Mr. Hu Zhiming, Twice-Imprisoned Falun Gong Practitioner.
    \70\Falun Gong in China: Review and Update, Hearing of the 
Congressional-Executive Commission on China, 18 December 12, Testimony 
of Mr. Bruce Chung, Falun Gong Practitioner Detained in China [in 
2012].
    \71\``Xinjiang's Third Round of Training for Islamic Patriotic 
Religious Figures Trains 38,000 People'' [Xinjiang di san lun yisilan 
jiao aiguo zongjiao renshi peixun 3.8 wan renci], Xinjiang Daily, 
reprinted in PRC Central People's Government, 26 December 12.
    \72\Zhang Xiaofang et al., ``Ningxia Muslims Celebrate Eid, Li 
Jianhua, Liu Hui and Others Visit and Pay Respects to Muslim Public'' 
[Ningxia musilin huandu kai zhaijie li jianhua liu hui deng kanwang 
weiwen musilin qunzhong], Ningxia Daily, reprinted in People's Daily, 
10 August 13.
    \73\State Administration for Religious Affairs, ``2013 National 
Islamic Institute Work Situation Seminar Held in Beijing'' [2013 nian 
quanguo yisilan jiao jingxueyuan gongzuo qingkuang jiaoliuhui zai jing 
zhaokai], 31 January 13.
    \74\``Xinjiang's Third Round of Training for Islamic Patriotic 
Religious Figures Trains 38,000 People'' [Xinjiang di san lun yisilan 
jiao aiguo zongjiao renshi peixun 3.8 wan renci], Xinjiang Daily, 
reprinted in PRC Central People's Government, 26 December 12; 
``Strengthen the Popularization of the Field of Religion and Thematic 
Education, Promote Ethnic Unity and Religious Harmony'' [Jiaqiang 
zongjiao lingyu pufa he zhuti jiaoyu cujin minzu tuanjie, zongjiao 
hexie], China Ethnicity and Religion Net, 16 July 13.
    \75\State Administration for Religious Affairs, ``Measures for 
Accrediting Islamic Clergy'' [Yisilan jiao jiaozhi renyuan zige rending 
banfa], 20 December 10.
    \76\State Administration for Religious Affairs, ``Islamic 
Association of China Convenes Association Certification Ceremony for 
Muslim Clergy'' [Zhongguo yisilan jiao xiehui juban ben xiehui yisilan 
jiao jiaozhi renyuan banzheng yishi], 25 February 13.
    \77\Islamic Association of China, Circular Regarding the Launch of 
the Islamic Association of China's Hajj Personnel Management System 
[Guanyu zhongguo yixie chaojin renyuan guanli xitong kaitong shiyong de 
tongzhi], 27 June 13; State Administration for Religious Affairs, 
``2012 Work Situation Report of the State Administration for Religious 
Affairs'' [Guojia zongjiao shiwu ju 2012 nian gongzuo qingkuang 
baogao], 18 January 13.
    \78\See, e.g., Liu Zhenxiang, Dorbiljin (Emin) County Government, 
``Emin County Adopts a Number of Measures To Safeguard the Ramadan 
Period'' [Emin xian caiqu duo xiang cuoshi quebao zhaiyue qijian], 5 
July 13; ``Yining County Issues Leaflets Regarding the `10 Prohibited' 
Illegal Religious Activities'' [Yining xian fabu zhizhi feifa zongjiao 
huodong ``shi bu zhun'' xuanchuan dan], Uyghur Online, 15 July 13.
    \79\State Administration for Religious Affairs, ``Strengthen the 
Results and Application of Scriptural Interpretation and Promote the 
Harmonious Development of Society'' [Qianghua jiejing chengguo yingyong 
cujin shehui hexie fazhan], 4 February 13.
    \80\Ibid.
    \81\Gu Ruizhen, ``Yu Zhengsheng: Fully Implement Central Policies 
and Arrangements, Strongly Complete Stability and Prosperity Work in 
Xinjiang'' [Yu zhengsheng: quanmian guanche zhongyang juece bushu, 
zhashi zuohao wen jiang xing jiang gongzuo], Xinhua, 28 May 13.
    \82\Islamic Association of China, ``IAC Press Spokesperson Issues 
Statement Regarding the Violent Terrorist Attacks in Xinjiang'' 
[Zhongguo yisilan jiao xiehui xinwen fayanren jiu xinjiang fasheng de 
baoli kongbu xiji anjian fabiao tanhua], reprinted in State 
Administration for Religious Affairs, 30 July 13.
    \83\Azat Omer, ``Religious Extremist Ideology Is a `Cancer' Harming 
Society'' [Zongjiao jiduan sixiang shi weihai shehui de ``duliu''], 
Xinjiang Daily, reprinted in People's Daily, 16 August 13.
    \84\According to the charters of the TSPM and CCC, among each 
organization's duties are to: ``Under the leadership of the Chinese 
Communist Party and the People's Government, unite all the country's 
Protestants; fervently love socialism and the motherland; respect the 
country's Constitution, laws, regulations, and policies; [and] actively 
participate in the construction of a socialist society with Chinese 
characteristics.'' Three-Self Patriotic Movement, Charter of the 
National Committee of Three-Self Patriotic Movement of the Protestant 
Churches in China [Zhongguo jidu jiao sanzi aiguo yundong weiyuanhui 
zhangcheng], issued 12 January 08, art. 6(1); China Christian Council, 
Charter of the China Christian Council [Zhongguo jidu jiao xiehui 
zhangcheng], passed 12 January 08, art. 7(1).
    \85\U.S. Commission on International Religious Freedom (USCIRF), 
``Tier 1 Countries of Particular Concern--China,'' Annual Report 2013, 
30 April 13, 36-37.
    \86\See e.g., ``Beijing's Shouwang Church Denounces Police 
Repression,'' Asia News, 21 September 12; ``Police Stop Illegal House 
Church Service,'' Global Times, reprinted in Beijing News, 22 August 
12; Carsten T. Vala, ``Protestant Christianity and Civil Society in 
Authoritarian China,'' China Perspectives, No. 3 (2012), 50; Liu Peng, 
Pu Shi Institute for Social Sciences, ``How To Treat House Churches: A 
Review of the Beijing Shouwang Church Incident,'' 16 February 12; 
``Update: New Year Brings Renewed Efforts To Prevent Worship at 
Shouwang Church,'' Voice of the Martyrs, 19 January 12; Beijing 
Shouwang Church, ``An Explanation of the Issue of Worshiping Outside'' 
[Huwai jingbai wenti jieda], 4 April 11; Chris Buckley and Sui-Lee Wee, 
``Beijing Church Faces Eviction in Tense Times,'' Reuters, 3 April 11; 
Verna Yu, ``Fears of More Pressure on Underground Churches,'' South 
China Morning Post, 1 April 11; Beijing Shouwang Church, ``Beijing 
Shouwang Church March 2011 Open Letter to Congregation'' [Beijing 
shouwang jiaohui 11 nian 3 yue gao huizhong shu], reprinted in 
ChinaAid, 4 April 11. See also ``Beijing Authorities Harass and Detain 
Shouwang Church Members,'' Congressional-Executive Commission on China, 
1 July 11.
    \87\ChinaAid, ``Shouwang Church Applies for Administrative Review, 
Using the Law To Defend Religious Rights,'' 20 September 12; Verna Yu, 
``Shouwang Church Takes Legal Action Against Cops for Religious 
Persecution,'' South China Morning Post, 21 September 12.
    \88\Beijing Shouwang Church, ``Shouwang Church Announcement 
Concerning the Application for Administrative Reconsideration,'' 
reprinted in ChinaAid, 6 October 12.
    \89\Beijing Shouwang Church, ``Beijing Shouwang Church Announcement 
on Outdoor Worship Service on August 11,'' reprinted in ChinaAid, 13 
August 13. For other examples of authorities detaining Shouwang church 
members or otherwise preventing them from attending services during 
this reporting year, see Beijing Shouwang Church, ``Beijing Shouwang 
Church Announcement on Outdoor Worship Service on July 21,'' reprinted 
in ChinaAid, 24 July 13; Beijing Shouwang Church, ``Beijing Shouwang 
Church Announcement on Outdoor Worship Service on March 17, 2013,'' 
reprinted in ChinaAid, 19 March 13; Beijing Shouwang Church, ``Beijing 
Shouwang Church Announcement on Outdoor Worship Service on December 30, 
2012,'' reprinted in ChinaAid, 4 January 13.
    \90\``China's House Church Crackdown Gathers Pace,'' Radio Free 
Asia, 11 June 13.
    \91\Ibid.
    \92\``Beijing Chaoyang Police Raid House Church Symposium, Force 
Registration'' [Beijing chaoyang jingcha chuangru jiating jiaohui 
yantaohui qiangxing dengji], Radio Free Asia, 27 February 13.
    \93\``Guizhou, Tongren House Church Gathering Suffers Assault'' 
[Guizhou tongren jiating jiaohui juhui zao chongji], Radio Free Asia, 
22 August 13.
    \94\ChinaAid, ``Vicious Persecution of House Churches in 
Heilongjiang and Shandong, Presbyterian Federation of Beijing Calls for 
Prayers (photo),'' 21 February 13.
    \95\ChinaAid, ``Two More House Churches Raided in Xinjiang,'' 22 
July 13; ``China: House Church Accused of Being Religious Cult 
Raided,'' Christian Today, 1 April 13; ChinaAid, ``Xinjiang Kucha House 
Church Raided,'' 28 September 12.
    \96\ChinaAid, ``House Church in Alxa Left Banner, Inner Mongolia, 
Violently Banned in Late April'' [Neimenggu azuoqi yi jiating jiaohui 
si yuedi bei baoli qudi], 23 May 13.
    \97\ChinaAid, ``Christian Salvation Church in Wuhan City Faces 
Illegal Forced Demolition,'' 25 September 12.
    \98\ChinaAid, ``A TSPM Church in Yushu City, Jilin Province Is 
Persecuted by Both the Government and the Developer Due to Demolition 
and Removal,'' 27 September 12.
    \99\``Officially-Recognized Church Threatened With Forced 
Eviction'' [Guanfang renke jiaotang zao bi qian bei konghe], Radio Free 
Asia, 7 August 13; ChinaAid, ``Zhengzhou: Sunzhuang Christian Church 
Doorway Blocked by Transported Dirt Again'' [Zhengzhou: sunzhuang jidu 
jiaotang zaici bei yuntu dumen], 6 August 13.
    \100\Ibid.
    \101\U.S. Commission on International Religious Freedom (USCIRF), 
``Tier 1 Countries of Particular Concern--China,'' Annual Report 2013, 
30 April 13, 36.
    \102\See, e.g., Lu Huaying, Xihu District People's Congress 
Standing Committee Office, ``Reflections Regarding Strengthening and 
Innovation of Management of Places of Worship'' [Guangyu jiaqiang he 
chuangxin zongjiao changsuo guanli de sikao], reprinted in Hangzhou 
People's Congress, 26 June 13; State Administration for Religious 
Affairs, ``State Administration for Religious Affairs 2013 Main Work 
Points'' [Guojia zongjiao shiwuju 2013 nian gongzuo yaodian], 18 
January 13; ChinaAid, ``Local Government in Shandong Province Launches 
City-Wide Investigation of `Privately Established Religious Meeting 
Sites,''' 1 April 13.
    \103\See, e.g., ``A Number of House Church Gatherings in Shandong, 
Linzi Attacked'' [Shandong linzi duo jia jiating jiaohui juhui zaodao 
chongji], Radio Free Asia, 16 August 13; ``China Probes House Churches 
in Intelligence Sweep,'' Radio Free Asia, 20 March 13; ``Guizhou, 
Tongren House Church Gathering Attacked'' [Guizhou tongren jiating 
juhui zao chongji], Radio Free Asia, 22 August 13; ``Inner Mongolian 
House Church Suppressed'' [Neimenggu jiating jiaohui shou daya], Radio 
Free Asia, 20 June 13.
    \104\``Inner Mongolian House Church Suppressed'' [Neimenggu jiating 
jiaohui shou daya], Radio Free Asia, 20 June 13.
    \105\U.S. Commission on International Religious Freedom (USCIRF), 
``Tier 1 Countries of Particular Concern--China,'' Annual Report 2013, 
30 April 13, 37.
    \106\Ibid., 36.
    \107\Tom Phillips, ``Chinese Preacher Arrested for Hymn Session,'' 
Telegraph, 6 February 13; ChinaAid, ``Shenzhen House Church's Cao Nan 
Brings Administrative Suit Against Futian Public Security Branch'' 
[Shenzhen jiating jiaohui de cao nan, yifa xingzheng qisu futian gongan 
fenju], 4 February 13; ChinaAid, ``Well-Known Preacher Detained for 
Second Time This Month for Preaching in Shenzhen Park,'' 21 December 
12.
    \108\Tom Phillips, ``Chinese Preacher Arrested for Hymn Session,'' 
Telegraph, 6 February 13; ChinaAid, ``Shenzhen House Church's Cao Nan 
Brings Administrative Suit Against Futian Public Security Branch'' 
[Shenzhen jiating jiaohui de cao nan, yifa xingzheng qisu futian gongan 
fenju], 4 February 13.
    \109\``Christian Booksellers Li Wenxi Sentenced to 2 Years, Ren 
Lacheng Sentenced to 5 Years'' [Jidutu shu shang li wen xi bei pan 2 
nian ren la cheng bei pan 5 nian], Radio Free Asia, 19 June 13; 
ChinaAid, ``Verdict Regarding Enyu Bookstore's Case Has Been 
Determined: Lacheng Ren Sentenced to Five Years in Prison, Wenxi Li to 
Two Years,'' 19 June 13; ChinaAid, ``Newsflash: Shanxi Enyu Bookstore 
Case Announce Sentences Ren Lacheng 5 Years and Li Wenxi 2 Years'' 
[Kuaixun: shanxi en yu shufang jiao an xuanpan ren la cheng 5 nian li 
wen xi 2 nian], 18 June 13; ChinaAid, ``Well-known Human Rights Lawyer 
Zhu Jihu's Argument at Trial of Imprisoned Christian Bookstore Manager 
Li Wenxi,'' 29 May 13; ``Two Christians in Taiyuan Sentenced for 
`Illegally Operating a Bookstore''' [Taiyuan liang jidutu yin ``feifa 
jingying shudian'' bei panxing], Radio Free Asia, 19 June 13. See the 
Commission's Political Prisoner Database, records 2013-00217 on Ren 
Lacheng and 2013-00216 on Li Wenxi, for more information on these 
cases.
    \110\Ibid. See the Commission's Political Prisoner Database, 
records 2013-00217 on Ren Lacheng and 2013-00216 on Li Wenxi, for more 
information on these cases.
    \111\Ibid. See the Commission's Political Prisoner Database, 
records 2013-00217 on Ren Lacheng and 2013-00216 on Li Wenxi, for more 
information on these cases.
    \112\Tianjin Anti-Cult Organization, ``What Are the Cult 
Organizations the Ministry of Public Security Has Identified?'' 
[Gonganbu rending de xiejiao zuzhi you na xie?], 22 October 12. See 
also Dui Hua Foundation, ``The `Cult' of Buddha,'' Dialogue, 29 August 
13.
    \113\PRC Criminal Law [Zhonghua renmin gongheguo xingfa], enacted 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 300.
    \114\``Guizhou, Tongren House Church Gathering Assaulted'' [Guizhou 
tongren jiating juhui zao chongji], Radio Free Asia, 22 August 13.
    \115\ChinaAid, ``7 House Church Leaders in Henan, Pingdingshan 
Receive Heavy Sentences Year After Arrest and Criminal Detention, 
Triggering International Mainstream Media Attention'' [Henan 
pingdingshan 7 wei jiating jiaohui lingxiu xingjiu daibu yi nian hou 
zaodao zhongpan, yinfa guoji zhuliu meiti guanzhu], 22 April 13; 
ChinaAid, ``Update: Pingdingshan, Henan Province Prosecution Case 
Escalates, 7 Christians Arrested for `Cult Crimes,''' 4 June 12; 
ChinaAid, ``Seven Christians in Henan Province Convicted of Cult 
Crimes, Sentenced to Prison Terms of Three to 7-1/2 Years,'' 27 April 
13; ChinaAid, ``Seven House Church Christians in Henan Province Have 
Been Charged with Engaging in Cult Activities,'' 25 November 12. See 
the Commission's Political Prisoner Database, records 2013-00168 on Han 
Hai, 2013-00172 on Hu Linpo, 2013-00173 on Yang Lianbing, 2013-00174 on 
Zhang Mian, 2013-00175 on Cao Xia, 2013-00176 on Wang En, and 2013-
00177 on Li Dan, for more information on these cases. See also PRC 
Criminal Law [Zhonghua renmin gongheguo xingfa], enacted 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, art. 300.
    \116\ChinaAid, ``7 House Church Leaders in Henan, Pingdingshan 
Receive Heavy Sentences Year After Arrest and Criminal Detention, 
Triggering International Mainstream Media Attention'' [Henan 
pingdingshan 7 wei jiating jiaohui lingxiu xingjiu daibu yi nian hou 
zaodao zhongpan, yinfa guoji zhuliu meiti guanzhu], 22 April 13; 
ChinaAid, ``Update: Pingdingshan, Henan Province Prosecution Case 
Escalates, 7 Christians Arrested for `Cult Crimes,''' 4 June 12; 
ChinaAid, ``Seven Christians in Henan Province Convicted of Cult 
Crimes, Sentenced to Prison Terms of Three to 7-1/2 Years,'' 27 April 
13; ChinaAid, ``Seven House Church Christians in Henan Province Have 
Been Charged with Engaging in Cult Activities,'' 25 November 12. See 
the Commission's Political Prisoner Database, records 2013-00168 on Han 
Hai, 2013-00172 on Hu Linpo, 2013-00173 on Yang Lianbing, 2013-00174 on 
Zhang Mian, 2013-00175 on Cao Xia, 2013-00176 on Wang En, and 2013-
00177 on Li Dan, for more information on these cases.
    \117\Ibid. See the Commission's Political Prisoner Database, 
records 2013-00168 on Han Hai, 2013-00172 on Hu Linpo, 2013-00173 on 
Yang Lianbing, 2013-00174 on Zhang Mian, 2013-00175 on Cao Xia, 2013-
00176 on Wang En, and 2013-00177 on Li Dan, for more information on 
these cases.
    \118\``More Than 1300 People from `Almighty God' Cult Organization 
Contained, Most From Qinghai and Guizhou'' [``Quanneng shen'' xiejiao 
zuzhi 1300 duo ren bei kongzhi qinghai guizhou zui duo], China Network, 
reprinted in Xinhua, 21 December 12; Dui Hua Foundation, ``China's 
`Almighty God' Rises With Threat of Apocalypse,'' Dui Hua Human Rights 
Journal, 17 December 12.
    \119\``More Than 1300 People From `Almighty God' Cult Organization 
Detained, Most From Qinghai and Guizhou'' [``Quanneng shen'' xiejiao 
zuzhi 1300 duo ren bei kongzhi qinghai guizhou zui duo], China Network, 
reprinted in Xinhua, 21 December 12.
    \120\Li Ling and Wang Cian, ```Almighty God' Cult Believer From 
Shaoguan, Guangdong Sentenced to 7 Years'' [Guangdong shaoguan yi 
``quan neng shen'' xiejiao xintu huoxing qi nian], China News Service, 
2 April 13; Dui Hua Foundation, ``Prisoner Update,'' 29 August 13. See 
also the Commission's Political Prisoner Database, records 2013-00293 
on Lai Yiwa, for more information on this case.
    \121\Chinese Taoist Association, ``Introduction to the 
Association'' [Xiehui jianjie], last visited 27 August 13.
    \122\China Religion, ``China Taoist Association Convenes the Third 
Meeting of the Eighth Executive Council To Study the Spirit of the 18th 
National Congress'' [Zhongguo daojiao xiehui zhaokai bajie sanci 
changwu lishihui xuexi dang de shibada jingshen], 26 November 12.
    \123\PRC Central Government, ``SARA Hosts 2013 Study Class for 
Taoist Representatives Nationwide'' [Guojia zongjiaoju juban 2013 nian 
quanguo daojiao jie daibiao renshi dushu ban], 21 May 13. Seealso An 
Baijie, ``TaoistLeadersFocus onPreserving Values,'' ChinaDaily, 5 June 
13.
    \124\China Religion, ``China Taoist Association Convenes the Third 
Meeting of the Eighth Executive Council To Study the Spirit of the 18th 
National Congress'' [Zhongguo daojiao xiehui zhaokai bajie sanci 
changwu lishihui xuexi dang de shibada jingshen], 26 November 12.
    \125\Ibid.
    \126\For example, see the discussion in this section on the 
Orthodox Church in China. In addition, the Church of Jesus Christ of 
Latter-Day Saints reported in March 2013 that worship services for 
Chinese citizens are held separately from those for foreign passport 
holders and that branches for Chinese citizens ``are directed by their 
own local priesthood leaders.'' Church of Jesus Christ of Latter-Day 
Saints Newsroom, ``New Church Website Will Help Chinese Nationals, 
Church Leaders Around the World,'' 15 March 13.
    \127\Xuyang Jingjing, ``Orthodox Christians in China Seeking 
Official Recognition,'' Global Times, 15 May 13. According to the 
Global Times, there are four Orthodox churches in China that are 
approved for religious activities. These churches are located in Harbin 
municipality, Heilongjiang province; Erguna city, Inner Mongolia 
Autonomous Region; Urumqi city, Xinjiang Uyghur Autonomous Region 
(XUAR); and Ili Kazakh Autonomous Prefecture, XUAR.
    \128\Inner Mongolia Autonomous Region Implementing Measures for the 
Management of Venues for Religious Activity [Neimenggu zizhiqu zongjiao 
huodong changsuo guanli shishi banfa], issued 23 January 96, effective 
23 January 96, art. 2.
    \129\Gianni Valente, ``PatriarchKirillPays Historical Visit 
toChina,'' VaticanInsider,11May 13.
    \130\Russian Orthodox Church, Department for External Church 
Relations, ``Patriarch Kirill: The Dreams of theChinese 
OrthodoxChurch's Bright Future Begins To Come True,'' 13 May 13.
    \131\Provisions on the Management of the Religious Activities of 
Foreigners Within the PRC [Zhonghua renmin gongheguo jingnei waiguoren 
zongjiao huodong guanli guiding], issued 31 January 94, effective 31 
January 94, art. 4; Detailed Implementing Rules for the Provisions on 
the Management of the Religious Activities of Foreigners Within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued 26 September 00, effective 26 September 
00, arts. 7, 17(5).
    Notes to Section II--Ethnic Minority Rights

    \1\International Covenant on Civil and Political Rights, adopted by 
UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 27. See generally PRC Regional Ethnic 
Autonomy Law [Zhonghua renmin gongheguo minzu quyu zizhi fa], issued 31 
May 84, effective 1 October 84, amended 28 February 01.
    \2\``Political Commissar of the Xinjiang Production and 
Construction Corps: Resolutely Crack Down on Harmful Separatist 
Activities'' [Xinjiang shengchan jianshe bingtuan zhengwei: jianjue 
daji fenlie pohuai huodong], China News Service, reprinted in Sohu, 6 
May 13; ``China President Calls for Stability in Xinjiang,'' Agence 
France-Presse, reprinted in West Australian, 26 April 13.
    \3\See ``Grasslands Policy and Protests in Inner Mongolia'' below 
for more information.
    \4\See, e.g., ``Inner Mongolia's Two Sessions: Acceleration of 
Development in Tertiary Industries Has Become a Bright Spot'' [Nei 
menggu lianghui: jiakuai fazhan disan chanye cheng liangdian], New 
Northern Net, reprinted in Imosi.com, 31 January 13; Zhao Yunping and 
Han Shumei, ``Inner Mongolia: Accelerate the Development of County 
Economic Coordination for Urban and Rural Development'' [Nei menggu: 
jiakuai fazhan xianyu jingji tongchou chengxiang quyu fazhan], Inner 
Mongolia Daily, reprinted in China County Economics, 18 January 13.
    \5\See, e.g., ``Little Hu and the Mining of the Grasslands,'' 
Economist, 14 July 12; Lin Chao, ``Salary of Rural Herders in Inner 
Mongolia Surpasses That of Urban Residents for Two Consecutive Years'' 
[Nei menggu nongmumin shouru zengsu lianxu liang nian chaoguo chengzhen 
jumin], Xinhua, reprinted in Central Government of the People's 
Republic of China, 20 February 13; Yang Zuokun et al., ``Striving To 
Improve the Lives of the People--Inner Mongolian Representatives to the 
18th Party Congress Discuss People's Livelihood'' [Nuli rang renmin 
guoshang genghao shenghuo--nei menggu shibada daibiao tan minsheng], 
Inner Mongolia Daily, reprinted in Xinhua, 10 November 12.
    \6\See, e.g., ``Little Hu and the Mining of the Grasslands,'' 
Economist, 14 July 12; Human Rights in China, ``China: Minority 
Exclusion, Marginalization and Rising Tensions,'' 2007, 14, 26-28; 
Richard Fraser, ``Forced Relocation Amongst the Reindeer--Evenki of 
Inner Mongolia,'' Inner Asia, Vol. 12, Issue 2 (2010), reprinted in 
Academia.edu.
    \7\Wang Hao et al., ``Farmers Turn Urban in Ordos,'' China Daily, 
19 February 13; ``Herdsman on New Road to a Happy Life,'' China Daily, 
reprinted in CRIenglish, 20 November 12; Li Baozhen and Liu Ning, 
``Bayingol, Luntai County Herders Move Into Peaceful Resident, 
Prosperous Citizen Houses, Enjoy `New Life''' [Bazhou luntai xian 
nongmumin banjin anju fumin fang xiangshou ``xin shenghuo''], Xinhua, 5 
November 12; Li Li, ``(A Winter View of Tibet- Linzhi) Herders on the 
Bangjietang Grassland'' [(Dongji kan xizang-linzhi) bangjietang caoyuan 
shang de mumin renjia], China Tibet Online, 26 January 13; Wang 
Jianting, ``Xinjiang Wuqia Herders Put Down Their Whips and Use 
Modernized Agriculture To Become Rich'' [Xinjiang wuqia mumin fangxia 
mabian liyong xiandaihua nongye zhifu], China News Service, 27 May 13; 
Wei Zhiyuan, ``Kazakh-Style Small `Villas' Make Xinjiang Burqin County 
`Nomad Settlement' Full of Spring'' [Hasake shi xiao ``bieshu'' rang 
xinjiang buerjin xian ``mumin dingju'' manmu chun], People's Daily, 11 
May 13. For information on grasslands policy in earlier years, see, 
e.g., CECC, 2012 Annual Report, 10 October 12, 88-89, 119, 149.
    \8\Hulunbeir City Grassland Bureau of Supervision and Management, 
``The Three Levels of Districts, Cities and Banners in Inner Mongolia 
Jointly Held a Publicity Activity on the Grasslands Law'' [Nei menggu 
qu shi qi sanji lianhe juban caoyuan pufa xuanchuan huodong], 16 April 
13; ``The City Launches Activities for 2013 Grasslands Law Awareness 
Month'' [Quanshi qidong 2013 nian caoyuan pufa xuanchuan yue huodong], 
Agriculture and Animal Husbandry Bureau of Ulanqab City, reprinted in 
Ulanqab Government, 8 April 13.
    \9\See, e.g., ``The Newly Revised `Regulations on the Protection of 
Inner Mongolian Grasslands' Take Effect Today'' [Xin xiuding de ``nei 
menggu zizhiqu jiben caoyuan baohu tiaoli'' jinri qi zhengshi shixing], 
Xinhua, 1 December 11; ``Chinese Pasture Region Charges Fees for 
Grassland Exploitation,'' Xinhua, 28 February 12.
    \10\China's Ethnic Regional Autonomy Law: Does It Protect Minority 
Rights? Staff Roundtable of the Congressional-Executive Commission on 
China, 11 April 05, Testimony of Christopher P. Atwood, Associate 
Professor, Department of Central Eurasian Studies, Indiana University. 
For Commission analysis, see ``State Council Opinion Bolsters Grazing 
Ban, Herder Resettlement,'' Congressional-Executive Commission on 
China, 18 October 11.
    \11\Southern Mongolian Human Rights Information Center, ``Dr. 
Chuluu Ujiyediin Speaks at `Promoting Human Rights, Democracy and 
Freedom in East Turkistan, Tibet, Southern Mongolia and the People's 
Republic of China,''' 31 March 13; Nick Holdstock, ``China Says It Is 
Improving the Lives of Ethnic Minorities in Inner Mongolia. Don't Be 
Fooled,'' Independent, 16 April 13; Unrepresented Nations and Peoples 
Organization, ``Unrepresented Nations and Peoples Organization (UNPO) 
Individual Stakeholder Submission to the Office of the High 
Commissioner for Human Rights regarding the Universal Periodic Review 
of the People's Republic of China During the 17th Session, Oct-Nov 
2013,'' February 2013; J. Carl Ganter, ``J. Carl Ganter: The Biggest 
Story of Our Lifetime Is Water,'' Circle of Blue, 28 March 13.
    \12\``The Newly Revised `Regulations on the Protection of Inner 
Mongolian Grasslands' Take Effect Today'' [Xin xiuding de ``nei menggu 
zizhiqu jiben caoyuan baohu tiaoli'' jinri qi zhengshi shixing], 
Xinhua, 1 December 11.
    \13\Greenpeace, ``Thirsty Coal 2,'' 23 July 13, 17-37.
    \14\Ibid., 5, 12, 18-25, 28-32, 36-37, 53-54, 65.
    \15\Ibid., 18-20, 34.
    \16\Ibid., 39, 41-51.
    \17\Ibid., 38-51.
    \18\``Chinese Coal Company Releasing Toxic Wastewater, Greenpeace 
Says,'' Reuters, reprinted in Guardian, 23 July 13; ``Greenpeace 
Accuses Chinese Coal Company of Draining Water Resources,'' Voice of 
America, 23 July 13; Greenpeace, ``Thirsty Coal 2,'' 23 July 13, Report 
Summary, 39, 41.
    \19\``Herders Blocked From Protest Marches to Beijing,'' Radio Free 
Asia, 7 March 13; ``Herders Protest Loss of Land,'' Radio Free Asia, 9 
October 12; Southern Mongolian Human Rights Information Center, 
``Herders' Protests Put Down, Internet Posts Removed,'' 6 March 13; 
Southern Mongolian Human Rights Information Center, ``Mongolian Herders 
Protest China's Illegal Occupation of Their Land and Defamation of 
Their Ancestors,'' 8 October 12; Southern Mongolian Human Rights 
Information Center, ``Thirty Eight Displaced Herders from Zaruud Banner 
Arrested and Detained in Protest,'' 19 July 13; Southern Mongolian 
Human Rights Information Center, ``Mongolian Herders Beaten and Injured 
in a Clash With the Chinese,'' 20 May 13; ``Police Probe Fresh Clashes 
in Inner Mongolia,'' Radio Free Asia, 20 May 13.
    \20\Rachel Vandenbrink, ``Inner Mongolian Herder Beaten to Death in 
Land Clash,'' Radio Free Asia, 23 August 13; Southern Mongolian Human 
Rights Information Center, ``Update to the Murder of Bayanbaatar: 
Central Government Involved, Family Rejects Negotiation,'' 22 August 
13; Southern Mongolian Human Rights Information Center, ``One More 
Mongolian Herder Killed by the Chinese Defending His Grazing Land,'' 20 
August 13. Bayanbaatar's daughter-in-law reportedly stated that 
government authorities subsequently confined around 80 of his family 
members to a funeral home and kept them under heavy police 
surveillance. Bayanbaatar's death marks the first reported killing of a 
Mongol herder who was protesting corporate use of grazing land since 
two coal workers hit and killed herder Mergen on May 10, 2011, an 
incident that contributed to protests involving thousands of people in 
the following weeks. For Commission analysis, see ``Mongols Protest in 
Inner Mongolia After Clashes Over Grasslands Use, Mining Operations,'' 
Congressional-Executive Commission on China, 1 July 11. See also CECC, 
2011 Annual Report, 10 October 11, 108.
    \21\Southern Mongolian Human Rights Information Center, ``Herders' 
Protests Put Down, Internet Posts Removed,'' 6 March 13; ``Herders 
Blocked From Protest Marches to Beijing,'' Radio Free Asia, 7 March 13.
    \22\Ibid.
    \23\Ibid.
    \24\Ibid.
    \25\Southern Mongolian Human Rights Information Center, ``Thirty 
Eight Displaced Herders from Zaruud Banner Arrested and Detained in 
Protest,'' 19 July 13; ``Herders Blocked from Travel to Beijing,'' 
Radio Free Asia, 19 July 13.
    \26\Ibid.
    \27\State Forestry Administration Sanbei Forest Construction 
Bureau, ``For the Inner Mongolia Hanshan Nature Preserve, the Effects 
of Contraction and Transfer Are Positive'' [Nei menggu hanshan ziran 
baohu qu shousuo zhuanyi xiaoguo hao], reprinted in China Forestry Net, 
15 December 09.
    \28\Southern Mongolian Human Rights Information Center, ``Thirty 
Eight Displaced Herders from Zaruud Banner Arrested and Detained in 
Protest,'' 19 July 13; ``Herders Blocked From Travel to Beijing,'' 
Radio Free Asia, 19 July 13.
    \29\Wang Jinlong, ``Non-Ferrous Geological Exploration'' [Youse 
dizhi kancha], Inner Mongolia Regional News Net, 11 November 12. See 
also ``List of Achievements of the Inner Mongolia Bureau of Non-Ferrous 
Geological Exploration Prospecting'' [Nei menggu youse dikanju zhao 
kuang chengguo yi lan], China Non-Ferrous Metals Mineral Resources 
Information Net, 20 March 13.
    \30\Southern Mongolian Human Rights Information Center, ``One More 
Mongolian Herder Killed by the Chinese Defending His Grazing Land,'' 20 
August 13. The Southern Mongolian Human Rights Information Center 
reported that the attack and suicide took place in Ongniud (Wengniute) 
Banner, Ulanhot (Wulanhaote) municipality, but Ongniud Banner is 
located in Chifeng municipality.
    \31\Southern Mongolian Human Rights Information Center, ``Hada and 
Family Members Still Missing,'' 24 February 13; Human Rights in China, 
``Lawyer Asks for Immediate Release of Mongolian Dissident Hada; Family 
Provides Further Details on Hada's Condition,'' 29 January 13.
    \32\Human Rights in China, ``Mongolian Dissident Hada in 23rd Month 
of Unlawful Detention After Long Prison Term; Family Appeals for 
International Attention,'' 22 October 12; ``Wife of Mongolian Activist 
Speaks Out Against Chinese Harassment,'' Associated Press, reprinted in 
Guardian, 15 October 12.
    \33\Ibid.
    \34\Southern Mongolian Human Rights Information Center, ``Hada and 
Family Members Still Missing,'' 24 February 13; ``Profiles in 
Dissidence: Why China Is Crushing a Mongolian Intellectual,'' Global 
Post, 5 March 13.
    \35\Ibid.
    \36\``Inner Mongolian Activist in Safe, Healthy State: Official,'' 
Xinhua, 6 March 13; Southern Mongolian Human Rights Information Center, 
``Hada and Family Members Still Missing,'' 24 February 13.
    \37\For Commission analysis on Hada, Xinna, and Uiles, see 
``Authorities Heighten Persecution of Detained Mongol Rights Advocate's 
Wife and Son,'' Congressional-Executive Commission on China, 13 
December 12. See the Commission's Political Prisoner Database, record 
2004-02045 (Hada), record 2010-00704 (Xinna), and record 2010-00705 
(Uiles) for more information on these cases.
    \38\Southern Mongolian Human Rights Information Center, ``Mongolian 
Herder's Rights Defender in Poor Health at Chinese Detention Center,'' 
2 September 13; Richard Finney, ``Advocate for Inner Mongolian Herdsmen 
in `Failing Health' in Jail,'' Radio Free Asia, 3 September 13.
    \39\Ibid.
    \40\Ibid.
    \41\Southern Mongolian Human Rights Information Center, ``Mongol-
Tibetan Medical School Principal Imprisoned for Alleged Escape 
Attempt,'' 10 May 13.
    \42\``Mongolian Medical College Founder Jailed for Three Years,'' 
Radio Free Asia, 10 May 13.
    \43\Southern Mongolian Human Rights Information Center, ``Mongol-
Tibetan Medical School Principal Imprisoned for Alleged Escape 
Attempt,'' 10 May 13; ``Founder of Mongolian Medicine College in Inner 
Mongolia Detained'' [Nei menggu yi meng zang yiyao xuexiao chuangshi 
ren beibu], Radio Free Asia, 20 October 09; Southern Mongolian Human 
Rights Information Center, ``Deported United Nations Refugee Applicant 
Batzangaa Tried in China,'' 17 January 11. See the Commission's 
Political Prisoner Database, record 2009-00435, for more information on 
the case.
    \44\Southern Mongolian Human Rights Information Center, ``Southern 
Mongolian Dissident Writer Wins Hellman/Hammett Grant,'' 20 December 
12.
    \45\Ibid.; PRC Criminal Law [Zhonghua renmin gongheguo xingfa], 
enacted 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, art. 111.
    \46\Southern Mongolian Human Rights Information Center, ``Dissident 
Writer Huuchinhuu Beaten Repeatedly,'' 29 September 11; ``Dissident 
Suffers Beatings in Detention,'' Radio Free Asia, 29 September 11. See 
the Commission's Political Prisoner Database, record 2010-00597, for 
more information on the case.
    \47\For more information on these cases, see, e.g., ``Inner 
Mongolia Writer Unaga Secretly Detained for Publishing New Book'' 
[Neimeng zuojia wunaga ni chuban xinshu zao mimi daibu], Radio Free 
Asia, 19 January 11; ``Mongol Writer Unaga Secretly Arrested in Inner 
Mongolia'' [Mongghul yazghuchisi unaga ichki mongghulda mexpiy 
tutuldi], Radio Free Asia, 18 January 11; Southern Mongolian Human 
Rights Information Center, ``Southern Mongolian Dissident Writer, 
Author of `Forefront of Independence' Arrested and Detained,'' 23 
January 11; UN Human Rights Council, Report by the Special Rapporteur 
on the Situation of Human Rights and Fundamental Freedoms of Indigenous 
People, Cases Examined by the Special Rapporteur (June 2009-July 2010), 
A/HRC/15/37/Add.1, reprinted in UN Office of the High Commissioner for 
Human Rights, 15 September 10. Official Chinese information is not 
available regarding the current legal status of Erden-uul and 
Sodmongol. See also the Commission's Political Prisoner Database for 
more information on the cases of Erden-uul (record 2011-00072) and 
Sodmongol (record 2010-00146).
    Notes to Section II--Population Planning

    \1\PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], adopted 29 December 01, 
effective 1 September 02, art. 18. According to Article 18, ``The State 
maintains its current policy for reproduction, encouraging late 
marriage and childbearing and advocating one child per couple. Where 
the requirements specified by laws and regulations are met, plans for a 
second child, if requested, may be made.'' Chinese Human Rights 
Defenders, ``I Don't Have Control Over My Own Body,'' 21 December 10, 
6-7. Implementing regulations in different provinces vary on the ages 
at which couples may give birth and the number of children they are 
permitted to have.
    \2\See, e.g., Beijing Municipal Commission on Population and Family 
Planning, ``Beijing Municipal Birth Services Certificate Management 
Measures'' [Beijing shi shengyu fuwu zheng guanli banfa], 7 April 12; 
Guizhou Province Ninth People's Congress Standing Committee, ``Guizhou 
Province Population and Family Planning Regulations'' [Guizhou sheng 
renkou yu jihua shengyu tiaoli], 29 September 02; Population and Family 
Planning Commission of Xinjiang Uyghur Autonomous Region, ``Regional 
Population and Family Planning Work Guide'' [Qunei renkou jihua shengyu 
banshi zhinan], last visited 10 September 13.
    \3\See Gu Baochang et al., ``China's Local and National Fertility 
Policies at the End of the Twentieth Century,'' Population and 
Development Review, Vol. 33, No. 1, Table 1 (2007).
    \4\Feng Wang et al., ``Population, Policy, and Politics: How Will 
History Judge China's One-Child Policy?'' Population and Development 
Review, Vol. 38 (2012), 115-16.
    \5\These criteria include such conditions as: the first child was 
medically diagnosed as handicapped, both members of the couple are only 
children, the couple are rural residents and their first child was a 
girl, the couple are remarried, and so forth. Gu Baochang et al., 
``China's Local and National Fertility Policies at the End of the 
Twentieth Century,'' Population and Development Review, Vol. 33, No. 1, 
Table 1 (2007).
    \6\Ethnic minority couples (couples in which at least one parent 
belongs to an officially recognized ethnic minority group) are 
permitted to bear a second child in all provincial-level jurisdictions 
except Jiangsu, Shanghai, Tianjin, and Beijing. Ethnic minority couples 
are permitted to bear a third child if they meet certain criteria in 
the Inner Mongolia Autonomous Region; the Tibet Autonomous Region; the 
Xinjiang Uyghur Autonomous Region; and Heilongjiang, Fujian, Hainan, 
Sichuan, Guizhou, Yunnan, Qinghai, and Ningxia provinces. Gu Baochang 
et al., ``China's Local and National Fertility Policies at the End of 
the Twentieth Century,'' Population and Development Review, Vol. 33, 
No. 1, Table 1 (2007). In Hubei province, both members of the couple 
must belong to an ethnic minority to be able to bear a second child. 
Population and Family Planning Commission of Hubei Province, ``Hubei 
Provincial Population and Family Planning Regulations'' [Hubei sheng 
renkou yu jihua shengyu tiaoli], 2 February 09.
    \7\See, e.g., Shaanxi Provincial Government, Shaanxi Provincial 
Implementing Measures for Collection and Management of Social 
Maintenance Fees [Shaanxi sheng shehui fuyang fei zhengshou guanli 
shishi banfa], issued 8 June 04, effective 1 August 04, art. 5(1). In 
Shaanxi province, individuals in violation of local population planning 
regulations can each be fined three to six times the amount of the 
average annual income of a resident in their locality, sometimes more, 
based on statistics from the previous year. ``Fengdu County Population 
and Family Planning Administrative Fines, Administrative Penalties 
Program and Standards'' [Fengdu xian renkou he jihua shengyu xingzheng 
zhengshou, xingzheng chufa xiangmu ji biaozhun], Fengdu County 
Population and Family Planning Network, 27 November 11. As noted in 
this document, residents of Fengdu county, Chongqing municipality, are 
subject to fines amounting to two to nine times the local average 
annual income from the previous year if they have an out-of-plan child 
or illegally adopt (two to six times the local average annual income) 
or have a child out of wedlock (six to nine times the local average 
annual income). See also ``Cost of a Second Child: Pair Fined 1.3m 
Yuan,'' Shanghai Daily, reprinted in China Internet Information Center, 
31 May 12; Chinese Human Rights Defenders, ``I Don't Have Control Over 
My Own Body,'' 21 December 10, 19-20.
    \8\See, e.g., ChinaAid, ``Hubei Jiayu--Pregnant Woman Forced To 
Abort on May 23 Dies'' [Hubei jiayu--yunfu 5 yue 23 ri bei qiangzhi 
yinchan siwang], 25 May 13; ``Anhui Fengyang Seven-Month Fetus Forcibly 
Aborted, Shocking Bloody Photo'' [Anhui fengyang 7 yue da taier bei 
qiangzhi liuchan xielinlin tupian chumu jingxin], Sound of Hope, 25 
March 13; Women's Rights in China, ``Women's Rights in China: Forced 
Abortion Phenomenon in China's Rural Areas Still Serious'' [Zhongguo 
fuquan: zhongguo nongcun qiangzhi liuchan xianxiang yiran yanzhong], 
reprinted in Monitor China, 28 October 12.
    \9\ChinaAid, ``In Tears, Victim Denounces the Violence Committed by 
Family Planning Officials in Guizhou in Early 2013,'' 26 February 13; 
Zhan Caiqiang, ``Hubei Tongshan Woman `Sterilized to Death,' Officials 
Pay 1,000,000 To Buy Out [Victims'] `Right To Hold [Them] 
Accountable''' [Hubei tongshan--funu ``jieza zhisi'' guanfang 100 wan 
maiduan ``zhuize quanli''], Yunnan Info Daily, 9 April 13; ``Henan--
Nursing Mother Failed To Pay 6,000 Yuan Protection Fee, Forcibly 
Sterilized'' [Henan--buru qi funu wei jiao 6 qian yuan baohu fei bei 
qiangzhi jieza], China Net, reprinted in Southern Daily, 24 April 13.
    \10\Beijing Declaration and Platform for Action (1995), adopted at 
the Fourth World Conference on Women on 15 September 95, and endorsed 
by UN General Assembly resolution 50/203 on 22 December 95, paras. 9, 
17. The Beijing Declaration states that governments which participated 
in the Fourth World Conference on Women reaffirmed their commitment to 
``Ensure the full implementation of the human rights of women and of 
the girl child as an inalienable, integral and indivisible part of all 
human rights and fundamental freedoms; . . .'' (para. 9) and ``are 
convinced that . . . [t]he explicit recognition and reaffirmation of 
the right of all women to control all aspects of their health, in 
particular their own fertility, is basic to their empowerment; . . .'' 
(para. 17).
    \11\Programme of Action of the Cairo International Conference on 
Population and Development, 18 October 94, paras. 7.2, 8.25. Paragraph 
7.2 of the Programme of Action of the Cairo International Conference on 
Population and Development states that, ``Reproductive health therefore 
implies that people . . . have the capability to reproduce and the 
freedom to decide if, when and how often to do so. Implicit in this 
last condition are the right of men and women to be informed and to 
have access to safe, effective, affordable and acceptable methods of 
family planning of their choice . . . .'' Paragraph 8.25 states, ``In 
no case should abortion be promoted as a method of family planning.''
    \12\United Nations, ``Report of the Fourth World Conference on 
Women,'' 1996, Chap. II., para. 3; Chap. VI, para. 12. China was a 
state party at the Fourth World Conference on Women, which adopted the 
Beijing Declaration and Platform for Action. United Nations Population 
Information Network, A/Conf.171/13: Report of the International 
Conference on Population and Development, 18 October 94, Chap. II, sec. 
C, Chap. VI, sec. 1. China was one of the participating States at the 
International Conference on Population and Development, which reached 
general agreement on the Programme of Action. The Programme of Action 
is provided as an annex to the above ICPD report.
    \13\For two recent examples of acts of official violence in the 
implementation of population planning policies, see ChinaAid, ``Hubei 
Jiayu--Pregnant Woman Forced To Abort on May 23 Dies'' [Hubei jiayu--
yunfu 5 yue 23 ri bei qiangzhi yinchan siwang], 25 May 13; ChinaAid, 
``In Tears, Victim Denounces the Violence Committed by Family Planning 
Officials in Guizhou in Early 2013,'' 26 February 13.
    \14\Yan Shuang, ``Fury Over Forced Abortion,'' Global Times, 14 
June 12. For one U.S. scholar's analysis of Chinese law with regard to 
forced abortions, see Stanley Lubman, ``The Law on Forced Abortion in 
China: Few Options for Victims,'' Wall Street Journal, China Real Time 
Report (blog), 4 July 12. PRC Population and Family Planning Law 
[Zhonghua renmin gongheguo renkou yu jihua shengyu fa], passed 29 
December 01, effective 1 September 02, arts. 4, 39. Article 4 of the 
PRC Population and Family Planning Law (PFPL) states that officials 
``shall perform their administrative duties strictly in accordance with 
the law, and enforce the law in a civil manner, and they may not 
infringe upon the legitimate rights and interests of citizens.'' 
Article 39 states that an official is subject to criminal or 
administrative punishment if he ``infringes on a citizen's personal 
rights, property rights, or other legitimate rights and interests'' or 
``abuses his power, neglects his duty, or engages in malpractices for 
personal gain'' in the implementation of population planning policies.
    \15\UN Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, arts. 1, 4. In 2008, the Committee 
against Torture noted with concern China's ``lack of investigation into 
the alleged use of coercive and violent measures to implement the 
population policy.'' UN Committee against Torture, 41st Session, 
Consideration of Reports Submitted by State Parties Under Article 19 of 
the Convention: Concluding Observations of the Committee against 
Torture--China, CAT/C/CHN/CO/4, 12 December 08, para. 29.
    \16\See United Nations Treaty Collection, Chapter IV, Human Rights, 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, last visited 10 September 13. China signed the 
convention on December 12, 1986, and ratified it on October 4, 1988.
    \17\Children born ``out-of-plan'' in China may be denied household 
registration (hukou) and thus face barriers to accessing social 
benefits including health insurance and education. See Chinese Human 
Rights Defenders, ``I Don't Have Control Over My Own Body,'' 21 
December 10, 26.
    \18\UN Convention on the Rights of the Child (CRC), adopted and 
opened for signature, ratification, and accession by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, China signed 29 August 90, ratified 2 March 92, arts. 2-
4, 6, 24, 26, 28. Article 2 of the CRC calls upon States Parties to 
``respect and ensure the rights set forth . . . to each child within 
their jurisdiction without discrimination of any kind, irrespective of 
the child's or his or her parent's or legal guardian's . . . national, 
ethnic or social origin . . . birth or other status.'' Article 24 sets 
forth the right of the child to access healthcare, Article 26 sets 
forth the right of the child to social security, and Article 28 sets 
forth the right of the child to free primary education and accessible 
secondary education and higher education.
    \19\International Covenant on Economic, Social and Cultural Rights, 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 3 January 76, China signed 27 October 97, ratified 
27 March 01, art. 10(3). Article 10(3) calls upon States Parties to 
recognize that ``Special measures of protection and assistance should 
be taken on behalf of all children and young persons without any 
discrimination for reasons of parentage or other conditions.''
    \20\Sui-Lee Wee and Hui Li, ``Insight: The Backroom Battle Delaying 
Reform of China's One-Child Policy,'' Reuters, 8 April 13; ``National 
People's Congress Representative Suggests Relaxing to a Two-Child 
Policy, Says No Reply to Previous Two Times She Proposed This'' [Renmin 
daibiao jianyi kaifang ertai cheng qian liangci ti an wei huo huifu], 
Sina, 5 April 13; Laurie Burkitt, ``Pressure Rises on China To Scrap 
One-Child Policy,'' Wall Street Journal, 18 January 13.
    \21\``Think Tank Calls for Loosening of One-Child Policy,'' Xinhua, 
27 October 12; Laurie Burkitt, ``Pressure Rises on China To Scrap One-
Child Policy,'' Wall Street Journal, 18 January 13; Fang Xiao, 
``China's One-Child Policy May Be Relaxed Province by Province,'' Epoch 
Times, 5 March 13.
    \22\David Wertime, ``Online Poll Shows Overwhelming Support for End 
to China's One-Child Policy,'' Tea Leaf Nation, 2 November 12; Kim 
Wall, ``What China's `One-Child Policy' Really Looks Like--A View From 
the Grassroots,'' Tea Leaf Nation, 17 March 13.
    \23\``State Council Institutional Reform and Functional 
Transformation Plan'' [Guowuyuan jigou gaige he zhineng zhuanbian 
fang'an], Xinhua, 10 March 13, item II; ``China To Merge Health 
Ministry, Family Planning Commission,'' Xinhua, 10 March 13; 
``Explanation of the State Council Institutional Reform and Functional 
Change Plan'' [Guanyu guowuyuan jigou gaige he zhineng zhuanbian 
fang'an de shuoming], Xinhua, 10 March 13.
    \24\``State Council Institutional Reform and Functional 
Transformation Plan'' [Guowuyuan jigou gaige he zhineng zhuanbian 
fang'an], Xinhua, 10 March 13 (Open Source Center, 10 March 13), item 
II. The plan states that the responsibilities of the new National 
Health and Family Planning Commission will include ``unified planning 
on resource allocation for medical care, public health, and family 
planning services, organize and establish a national basic drug system, 
formulate the family planning policy, oversee and regulate public 
health and medical care services, and take charge of such work as 
family planning administration and services.''
    \25\Ibid. The plan states that, ``the State Population and Family 
Planning Commission's duties of studying and drawing up the population 
development strategy and program and the population policy will be 
taken up by the National Development and Reform Commission.'' See also 
Mou Xu, ``Xinhua Insight: Combining Population and Economic Policy To 
Push Development,'' Xinhua, 13 March 13.
    \26\Laurie Burkitt, ``One-Child Policy: Law Still in Effect, but 
Police, Judges Fired,'' Wall Street Journal, 12 March 13. According to 
population expert Wang Feng, cited in the Wall Street Journal, ``My 
reading is that will mean that population control targets will be 
weaker and weaker over time. And we will see that the one-child policy 
era is over. The way to interpret this is that the laws are still in 
effect, but the judges and the policemen have all been fired. Soon the 
laws will also change.'' Laurie Burkitt, ``Agency Move Hints at Shift 
in China's One-Child Policy,'' Wall Street Journal, 11 March 13. 
According to Cheng Li, cited in the Wall Street Journal, ``This is a 
signal to an end of a policy that in reality isn't in line with China's 
other reforms.''
    \27\Bai Tiantian, ``Govt Shake-Up for Efficiency,'' Global Times, 
11 March 13. According to one professor of demography cited in the 
Global Times, ``The merge with the health ministry is in fact making 
the family planning body more powerful.''
    \28\``State Council Institutional Reform and Functional 
Transformation Plan'' [Guowuyuan jigou gaige he zhineng zhuanbian 
fang'an], Xinhua, 10 March 13, item II.
    \29\These officials included Wang Feng, deputy head of the State 
Commission Office for Public Sector Reform, Ma Kai, secretary-general 
of the State Council, and Vice Premier Liu Yandong. See, e.g., Mou Xu, 
``Xinhua Insight: Combining Population and Economic Policy To Push 
Development,'' Xinhua, 13 March 13; ``China To Merge Health Ministry, 
Family Planning Commission,'' Xinhua, 10 March 13; ``Vice Premier Urges 
Reform for Health, Family Planning Organs,'' Xinhua, 18 March 13.
    \30\National Health and Family Planning Commission, ``National 
Health and Family Planning Commission Implements `Serving the People's 
Health Action [Plan]''' [Guojia weisheng jisheng wei shishi ``fuwu 
baixing jiankang xingdong''], 6 August 13; He Huifeng, ``Hopes for One-
Child Policy Fix Tempered,'' South China Morning Post, 8 August 13.
    \31\He Huifeng, ``Hopes for One-Child Policy Fix Tempered,'' South 
China Morning Post, 8 August 13.
    \32\Wan Mi et al., ``Over Fifty Percent of 1400 People [Surveyed] 
Wish To Have Second Child'' [1400 ren chaoguo wucheng yuan sheng 
ertai], Southern Metropolitan Daily, 4 August 13; Patrick Boehler, 
``Most Chinese Want To Have Second Child, Says Survey,'' South China 
Morning Post, 5 August 13.
    \33\``Relaxation of One-Child Policy Still Being Mulled,'' Xinhua, 
reprinted in China Daily, 3 August 13.
    \34\PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, arts. 4, 39. Article 4 of the PRC Population and Family 
Planning Law (PFPL) states that officials ``shall perform their 
administrative duties strictly in accordance with the law, and enforce 
the law in a civil manner, and they may not infringe upon the 
legitimate rights and interests of citizens.'' Article 39 states that 
an official is subject to criminal or administrative punishment if he 
``infringes on a citizen's personal rights, property rights, or other 
legitimate rights and interests'' or ``abuses his power, neglects his 
duty, or engages in malpractices for personal gain'' in the 
implementation of population planning policies.
    \35\Yan Shuang, ``Fury Over Forced Abortion,'' Global Times, 14 
June 12. For one U.S. scholar's analysis of Chinese law with regard to 
forced abortions, see Stanley Lubman, ``The Law on Forced Abortion in 
China: Few Options for Victims,'' Wall Street Journal, 4 July 12.
    \36\This number is based on Commission analysis of population 
planning measures. These jurisdictions include Tianjin, Liaoning, 
Jilin, Guangdong, Fujian, Hebei, Hubei, Chongqing, Shaanxi, Ningxia, 
Shanxi, Xinjiang, Henan, Qinghai, Jiangxi, Sichuan, Anhui, Gansu, 
Yunnan, and Guizhou. For two specific examples, see ``Revised 
`Guangdong Province Population and Family Planning Regulations' 
Published'' [Xiuding hou de ``guangdong sheng renkou yu jihua shengyu 
tiaoli'' gongbu], Guangzhou Beiyun District Zhongloutian Public 
Information Net, 29 June 09 and ``Jiangxi Province Population and 
Family Planning Regulations'' [Jiangxi sheng renkou yu jihua shengyu 
tiaoli], Jiangxi News Net, 11 April 09. The Beijing Municipal 
Population and Family Planning Commission clearly draws the link 
between the term ``remedial measures'' and abortion: ``Early term 
abortion refers to the use of surgery or pharmaceutics to terminate a 
pregnancy before the 12th week of gestation; it is a remedial measure 
taken after the failure of contraception.'' Beijing Municipal 
Population and Family Planning Commission, ``Early Term Abortion'' 
[Zaoqi rengong liuchan], 10 April 09.
    \37\See, e.g., ChinaAid, ``Hubei Jiayu--Pregnant Woman Forced To 
Abort on May 23 Dies'' [Hubei jiayu--yunfu 5 yue 23 ri bei qiangzhi 
yinchan siwang], 25 May 13; ChinaAid, ``Another Bloody One-Child Case 
in China: Seven-Months Pregnant Mother in Anhui Forcibly Aborted by 
Lethal Injection (Warning: Graphic Photo),'' 25 March 13; Women's 
Rights in China, ``Women's Rights in China: Forced Abortion Phenomenon 
in China's Rural Areas Still Serious'' [Zhongguo fuquan: zhongguo 
nongcun qiangzhi liuchan xianxiang yiran yanzhong], 28 October 12.
    \38\Peony Lui, ``Outcry Over Blunders of China's One-Child 
Policy,'' South China Morning Post, 19 December 12.
    \39\ChinaAid, ``In Tears, Victim Denounces the Violence Committed 
by Family Planning Officials in Guizhou in Early 2013,'' 26 February 
13; Zhan Caiqiang, ``Hubei Tongshan Woman `Sterilized to Death,' 
Officials Pay 1,000,000 To Buy Out [Victims'] `Right To Hold [Them] 
Accountable''' [Hubei tongshan--funu ``jieza zhisi'' guanfang 100 wan 
maiduan ``zhuize quanli''], Yunnan Info Daily, 9 April 13; ``Henan--
Nursing Mother Failed To Pay 6,000 Yuan Protection Fee, Forcibly 
Sterilized'' [Henan--buru qi funu wei jiao 6 qian yuan baohu fei bei 
qiangzhi jieza], China Net, reprinted in Southern Daily, 24 April 13.
    \40\``Yuyue Town Spares No Efforts in Promoting Health and Family 
Planning Work'' [Yuyue zhen quanli yifu tuijin chuang wei he jisheng 
gongzuo], Jiayu Net, 15 April 13; Luo Hongwei, Population and Family 
Planning Commission of Huanggang, ``Hongan County Prominent `Five Key 
Points' Vigorous Promotion of the Present Population and Family 
Planning Work'' [Hongan xian tuchu ``wuge zhongdian'' jiji tuijin 
dangqian renkou jisheng gongzuo], 19 July 13; Chongyang County People's 
Government, ``Gangkou Township Uses All Its Strength To Promote Family 
Planning Work'' [Gangkou xiang quanli tuijin jihua shengyu gongzuo], 28 
March 13.
    \41\Lechang City Population and Family Planning Bureau, ``Lechang 
City Pingshi Town Sound a Mobilization Order for the Spring Family 
Planning Concentrated Services Activities'' [Lechang shi pingshi zhen 
chuixiang chunji jisheng jizhong fuwu huodong dongyuan ling], last 
visited 19 September 13; Zhuhai City Xiangzhou District Family Planning 
Bureau, ``City, District Population and Family Planning Department 
Leaders Go to Qianshan Neighborhood To Inspect Family Planning 
Welcoming and Inspection Work'' [Shi, qu renkou jisheng ju lingdao dao 
qianshan jiedao jiancha jisheng yingjian gongzuo], 1 February 13.
    \42\Linquan County People's Government, ``Speech at the County 
Government Fourth Plenary Conference on Honest and Clean Government 
Work'' [Zai xian zhengfu disi ci quanti huiyi ji lianzheng gongzuo 
huiyi shang de jianghua], 26 February 13.
    \43\Zhang Xuan, ``Huayu Town Four Measures To Help Spring Family 
Planning Services Work Reach the Desired Goal'' [Huayu zhen si cuoshi 
zhuli chunji jisheng fuwu gongzuo daowei], Oriental Holy City Net, 19 
April 13; Shanting District Family Planning Bureau, ``District Family 
Planning Bureau's Four Measures for Making Great Efforts in 
Implementing Present Work'' [Qu jishengju sixiang cuoshi zhuahao 
dangqian gongzuo luoshi], 22 April 13.
    \44\People's Government of Henan Province, ``Hebi City Population 
and Family Planning Work Meeting Requirements'' [Hebi shi renkou he 
jihua shengyu gongzuo huiyi yaoqiu], 1 April 13.
    \45\Huang He and Chen Longbin, Guizhou Population Net, ``Youmai 
Township Strictly Controls Early Marriages and Early Pregnancies, Urges 
Family Planning Work To Ascend the Stairs'' [Youmai xiang yankong 
zaohun zaoyu cu jisheng gongzuo shang taijie], 13 March 13; Zhang 
Miaohui, Hongfenghu Town Party and Government Administration Office, 
``Storm the Fortifications and Overcome Difficulties, Strongly Grasp 
the Ten Links of Work, Spare No Efforts To Promote Achievement of the 
`Three Years Three Strides' Goals in Family Planning Work'' [Gongjian 
ke'nan zhashi zhuahao shi huanjie gongzuo fenli tuijin jisheng gongzuo 
``sannian san kuayue'' mubiao shixian], 19 April 13.
    \46\Wang Hongbin, Pingjiang County People's Government, ``Speech at 
Central Pingjiang County Committee Work Meeting'' [Zai zhonggong 
pingjiang xianwei gongzuo huiyi shang de jianghua], 25 February 13.
    \47\Jianou City People's Government, ``Xiaoqiao Town Launches 
Focused Publicity Activities on Implementation of `Four Procedures''' 
[Xiaoqiao zhen kaizhan luoshi ``sishu'' jizhong xuanchuan huodong], 27 
May 13; Jin'an District Population and Family Planning Bureau, ``Entire 
District Population and Family Planning Work Regular Meeting Convenes'' 
[Quanqu renkou jisheng gongzuo lihui zhaokai], 7 December 12.
    \48\For two such examples in which authorities reported on the 
implementation of the ``two examinations and four procedures,'' see 
Jianou City People's Government, ``Xiaoqiao Town Launches Focused 
Publicity Activities on Implementation of `Four Procedures''' [Xiaoqiao 
zhen kaizhan luoshi ``sishu'' jizhong xuanchuan huodong], 27 May 13; 
Jin'an District Population and Family Planning Bureau, ``Entire 
District Population and Family Planning Work Regular Meeting Convenes'' 
[Quanqu renkou jisheng gongzuo lihui zhaokai], 7 December 12. Chinese 
Human Rights Defenders, ``I Don't Have Control Over My Own Body,'' 21 
December 10, 2. According to Chinese Human Rights Defenders, some 
government reports refer to ``three examinations,'' instead of two. The 
third examination in these references is an examination for the 
presence of a gynecological disease or illness.
    \49\For an official government report enumerating the ``four 
procedures,'' see Yancheng District People's Government, ``The Four 
Surgeries in Family Planning'' [Jihua shengyu sixiang shoushu], last 
visited 20 June 13.
    \50\See, e.g., Zhang Miaohui, Hongfenghu Town Party and Government 
Administration Office, ``Storm the Fortifications and Overcome 
Difficulties, Strongly Grasp the Ten Links of Work, Spare No Efforts To 
Promote Achievement of the `Three Years Three Strides' Goals in Family 
Planning Work'' [Gongjian ke'nan zhashi zhuahao shi huanjie gongzuo 
fenli tuijin jisheng gongzuo ``sannian san kuayue'' mubiao shixian], 19 
April 13; Lechang City Population and Family Planning Bureau, ``Lechang 
City Pingshi Town Sound a Mobilization Order for the Spring Family 
Planning Concentrated Services Activities'' [Lechang shi pingshi zhen 
chuixiang chunji jisheng jizhong fuwu huodong dongyuan ling], 22 March 
13.
    \51\Chongyang County People's Government, ``Gangkou Township Uses 
All Its Strength To Promote Family Planning Work'' [Gangkou xiang 
quanli tuijin jihua shengyu gongzuo], 28 March 13.
    \52\Ibid.
    \53\The term ``late-term abortion'' (dayuefen yinchan) is commonly 
used to refer to abortions performed between gestational weeks 14 to 
28. See, e.g., ``What are the Consequences of Late Term Abortion? Can 
Women Who Have Aborted Still Get Pregnant?'' [Dayue yinchan de houguo 
you naxie? yinchan hou nuren hai neng zai huaiyun ma?], Sina Lady, 
reprinted in Xinhua, 19 June 12.
    \54\All Girls Allowed published a report documenting the use of 
varieties of the phrase ``prohibit'' (jinzhi or yanjin) or ``put an end 
to'' (dujue) ``late-term abortions'' (dayuefen yinchan) in statements 
dating between July 5 and September 12, 2012, from governments in 23 of 
China's 31 provincial-level jurisdictions, including Anhui, Beijing, 
Chongqing, Fujian, Gansu, Guangdong, Guizhou, Hebei, Henan, Hubei, 
Hunan, Jilin, Jiangsu, Jiangxi, Liaoning, Inner Mongolia Autonomous 
Region, Qinghai, Shandong, Shaanxi, Shanxi, Sichuan, Yunnan, and 
Zhejiang. Provincial-level jurisdictions not included on this list are: 
Guangxi Zhuang Autonomous Region, Hainan, Heilongjiang, Ningxia Hui 
Autonomous Region, Shanghai, Tianjin, Tibet Autonomous Region, and 
Xinjiang Uyghur Autonomous Region. See All Girls Allowed, ``Chinese 
Provinces That Banned Late-Stage Abortion Following Feng Jianmei's 
Forced Abortion,'' 25 September 12.
    \55\ChinaAid, ``Guizhou Jinsha County Family Planning Committee 
Forcibly Aborts, Mother Critically Ill'' [Guizhou jinsha xian jisheng 
wei qiangzhi duotai yunfu shengming chuiwei], 18 July 13; ChinaAid, 
``Family Planning Committee in Jinsha County, Guizhou Province, Forces 
Woman To Undergo Abortion, Leaving Her in Critical Condition,'' 18 July 
13.
    \56\ChinaAid, ``Li Fengfei Arrested After Exposing Forced Abortion, 
Guizhou Province Law Firm Provides Defense,'' 9 September 13.
    \57\ChinaAid, ``Hubei Jiayu--Pregnant Woman Forced To Abort on May 
23 Dies'' [Hubei jiayu--yunfu 5 yue 23 ri bei qiangzhi yinchan siwang], 
25 May 13; Steven Ertelt, ``China: Mother Dies After Forced Abortion at 
Six Months,'' LifeNews, 29 May 13.
    \58\``Anhui Fengyang Seven-Month Fetus Forcibly Aborted, Shocking 
Bloody Photo'' [Anhui fengyang 7 yue da taier bei qiangzhi liuchan 
xielinlin tupian chumu jingxin], Sound of Hope, 25 March 13.
    \59\ChinaAid, ``Another Bloody One-Child Case in China: Seven-
Months Pregnant Mother in Anhui Forcibly Aborted by Lethal Injection 
(Warning: Graphic Photo),'' 25 March 13.
    \60\Women's Rights in China, ``Women's Rights in China: Forced 
Abortion Phenomenon in China's Rural Areas Still Serious'' [Zhongguo 
fuquan: zhongguo nongcun qiangzhi liuchan xianxiang yiran yanzhong], 28 
October 12; Kat Lewis, All Girls Allowed, ``Chinese Officials Force 
Abortion on 6-Month Pregnant Woman,'' reprinted in LifeNews, 24 October 
12.
    \61\ChinaAid, ``In Tears, Victim Denounces the Violence Committed 
by Family Planning Officials in Guizhou in Early 2013,'' 26 February 
13.
    \62\ChinaAid, ``Mother of Two in Hubei Province Dies From Forced 
Sterilization Operation Ordered by Family Planning Officials Against 
Doctor's Advice,'' 6 April 13; Zhan Caiqiang, ``Hubei Tongshan Woman 
`Sterilized to Death,' Officials Pay 1,000,000 To Buy Out [Victims'] 
`Right To Hold [Them] Accountable''' [Hubei tongshan--funu ``jieza 
zhisi'' guanfang 100 wan maiduan ``zhuize quanli''], Yunnan Info Daily, 
9 April 13. According to these reports, local officials promised Shen's 
family 1 million yuan (US$161,755) in compensation on the condition 
that they ``voluntarily give up the pursuit of accountability.'' 
According to the Yunnan Info Daily report, family planning efforts in 
Shen Hongxia's home county intensified after the county had received 
the lowest score in the province on the previous year's population 
planning work report.
    \63\``Henan--Nursing Mother Failed To Pay 6,000 Yuan Protection 
Fee, Forcibly Sterilized'' [Henan--buru qi funu wei jiao 6 qian yuan 
baohu fei bei qiangzhi jieza], China Net, reprinted in Southern Daily, 
24 April 13.
    \64\``Chinese Man Dies After Attempted Forced Sterilization,'' 
Radio Free Asia, 13 August 13.
    \65\PRC Measures for Administration of Collection of Social 
Maintenance Fees [Shehui fuyang fei zhengshou guanli banfa], issued 2 
August 02, effective 1 September 02, arts. 3, 7.
    \66\All Girls Allowed, ``One-Child Policy Fines Relative to Income 
Levels in China,'' 1 November 12. See, e.g., Shaanxi Provincial 
Implementing Measures for Collection and Management of Social 
Maintenance Fees [Shanxi sheng shehui fuyang fei zhengshou guanli 
shishi banfa], issued 8 June 04, effective 1 August 04, art. 5(1). In 
Shaanxi province, individuals in violation of local population planning 
regulations can each be fined three to six times the amount of the 
average income of a resident in their locality, sometimes more, based 
on their income compared to the average income of rural residents the 
previous year. ``Fengdu County Population and Family Planning 
Administrative Fines, Administrative Penalties Program and Standards'' 
[Fengdu xian renkou he jihua shengyu xingzheng zhengshou, xingzheng 
chufa xiangmu ji biaozhun], Fengdu County Population and Family 
Planning Network, 27 November 11. As noted in this document, residents 
of Fengdu county, Chongqing municipality, are subject to fines 
amounting to two to nine times the local average annual income from the 
previous year if they have an out-of-plan child or illegally adopt (two 
to six times the local average annual income) or have a child out of 
wedlock (six to nine times the local average annual income).
    \67\PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], adopted 29 December 01, 
effective 1 September 02, art. 39. According to Article 39, officials 
are to be punished either criminally or administratively for the 
following acts: ``(1) infringing on a citizen's personal rights, 
property rights or other legitimate rights and interests; (2) abusing 
his power, neglecting his duty or engaging in malpractices for personal 
gain; (3) demanding or accepting bribes; (4) withholding, reducing, 
misappropriating or embezzling funds for family planning or social 
maintenance fees; or (5) making false or deceptive statistical data on 
population or family planning, or fabricating, tampering with, or 
refusing to provide such data.''
    \68\The threat of job termination specifically applied to civil 
servants. See, e.g., ``Fujian Civil Servants Who Have Extra Births, or 
Births Out of Wedlock Will Be Expelled From Their Positions'' [Fujian 
gongwuyuan duo shengyu, hunwai shengyu jiang kaichu gongzhi], China 
Daily, 15 December 12.
    \69\See, e.g., ``Guangdong: Party Members, State Employees Who Go 
Abroad and Have an Extra Child Will Be Expelled From the Party and 
Fired'' [Guangdong: dangyuan, guojia gongzuo renyuan fu guo (jing) wai 
chaosheng jiang bei kaichu dangji gongzhi], Xinhua, 17 January 13.
    \70\Women's Rights in China, ``Women's Rights in China: Forced 
Abortion Phenomenon in China's Rural Areas Still Serious'' [Zhongguo 
fuquan: zhongguo nongcun qiangzhi liuchan xianxiang yiran yanzhong], 28 
October 12; ChinaAid, ``Mother of Two in Hubei Province Dies From 
Forced Sterilization Operation Ordered by Family Planning Officials 
Against Doctor's Advice,'' 6 April 13; ``Chinese Man Dies After 
Attempted Forced Sterilization,'' Radio Free Asia, 13 August 13.
    \71\See, e.g., Chinese Human Rights Defenders, ``I Don't Have 
Control Over My Own Body,'' 21 December 10, 19-23. See also CECC, 2008 
Annual Report, 31 October 08, 97.
    \72\See, e.g., Huang Xiuli, ```Illegal Residents' Born in Excess 
[of Family Planning Policies]: Living Like Shadows'' [Chaosheng 
``heihu'' de rensheng: xiang yingzi yiyang huozhe], Southern Weekend, 
reprinted in Phoenix Net, 4 June 13; Mu Guangzong, ``The Travails of 
Having a Second Child,'' China Daily, 28 May 13. See also, Chinese 
Human Rights Defenders, ``I Don't Have Control Over My Own Body,'' 21 
December 10, 13, 26. According to the CHRD report, ``The management of 
the hukou system is the domain of the Ministry of Public Security and 
it refuses to issue hukous to children without birth permits, children 
of unmarried parents, and children whose parents for some reasons have 
not completed the required procedures. Without a hukou, a child cannot 
apply for an ID card and thus does not have a legal identity, is not a 
citizen and consequently is deprived of the rights accorded to other 
Chinese citizens.''
    \73\Huang Xiuli, ```Illegal Residents' Born in Excess [of Family 
Planning Policies]: Living Like Shadows'' [Chaosheng ``heihu'' de 
rensheng: xiang yingzi yiyang huozhe], Southern Weekend, reprinted in 
Phoenix Net, 4 June 13.
    \74\Ibid.; ``Separate and Unequal,'' China Economic Review, 5 April 
12; Yan Hao and Li Yanan, ``Urban Hukou, or Rural Land? Migrant Workers 
Face Dilemma,'' Xinhua, 10 March 10; Tao Ran, ``Where There's a Will, 
There's a Way To Reform,'' China Daily, 22 March 10.
    \75\Peony Lui, ``Outcry Over Blunders of China's One-Child 
Policy,'' South China Morning Post, 19 December 12.
    \76\``Total Population, CBR, CDR, NIR and TFR in China (1949-
2000),'' China Daily, 20 August 10.
    \77\U.S. Central Intelligence Agency, ``The World Factbook,'' last 
visited 12 September 13. While China's National Bureau of Statistics 
estimated China's fertility rate at 1.8 in 2007, in May 2011, a group 
of Chinese academics publicly disputed the number, stating that it had 
been ``grossly overestimated.'' These academics estimated in 2011 that 
China's total fertility rate more accurately stood anywhere from 1.63 
to below 1.5. See ``China's Total Fertility Rate Grossly Overestimated: 
Academic,'' Caijing, 17 May 11.
    \78\``China's Working-Age Population Drops in 2012,'' Xinhua, 18 
January 13; Deirdre Wang Morris, ``China's Aging Population Threatens 
Its Manufacturing Might,'' CNBC, 24 October 12.
    \79\State Council, PRC Outline for the Development of Children 
(2011-2020) [Zhongguo ertong fazhan gangyao (2011-2020 nian)], issued 
30 July 11, sec. 3(5)5. State Council Information Office, ``National 
Human Rights Action Plan of China (2012-2015),'' 11 June 12, sec. 
III(3). The National Human Rights Action Plan states, ``Discrimination 
against girls will be eliminated. The state . . . bans identification 
of the sex of a fetus for other than medical purposes and termination 
of pregnancy in the case of a female fetus.'' See also ``Ban on Sex 
Testing To Help Balance Girl-Boy Ratio,'' Global Times, reprinted in 
People's Daily, 25 May 12.
    \80\Liang Chen, ``Boys Preferred, Lucrative Trade Remains in 
Illegal Fetus Gender Identification,'' Global Times, 21 March 13; Wang 
Qingyun, ``Crackdown Begins on Illegal Reproductive Clinics,'' China 
Daily, 26 March 13.
    \81\For discussion of the continued practice and its impact, see 
``Liang Chen, ``Boys Preferred, Lucrative Trade Remains in Illegal 
Fetus Gender Identification,'' Global Times, 21 March 13. See also PRC 
Population and Family Planning Law [Zhonghua renmin gongheguo renkou yu 
jihua shengyu fa], adopted 29 December 01, effective 1 September 02, 
art. 22. According to Article 22, ``Discrimination against, 
maltreatment, and abandonment of baby girls are prohibited.'' For 
regulations prohibiting the practices of non-medically necessary gender 
determination tests and sex-selective abortion, see State Commission 
for Population and Family Planning, Ministry of Health, State Food and 
Drug Administration, ``Regulations Regarding the Prohibition of Non-
Medically Necessary Gender Determination Examinations and Sex-Selective 
Termination of Pregnancy'' [Guanyu jinzhi fei yixue xuyao de taier 
xingbie jianding he xuanze xingbie de rengong zhongzhi renshen de 
guiding], issued 29 November 02, effective 1 January 03. For discussion 
of these regulations, see ``China Bans Sex-Selection Abortion,'' 
Xinhua, reprinted in China Net, 22 March 03.
    \82\Shan Juan, ``Gender Imbalance Set To Ease,'' China Daily, 30 
March 12. According to Zhai Zhenwu, head of the social population 
college at Renmin University, there is a deeply rooted tradition of son 
preference, and this tradition remains in some areas, such as Guangdong 
province. Zhai also noted that ``as fertility rates declined due to the 
family planning policy, the figure for male births surged ahead.'' See 
also ``Preference for Boys by Migrants,'' China Internet Information 
Center, 15 December 11.
    \83\``China's Sex Ratio at Birth Declines 4 Years in a Row,'' 
Xinhua, 5 March 13. According to Xinhua, China's sex ratio at birth in 
2012 was 117.7 males for every 100 females.
    \84\Ibid. According to Xinhua, China's sex ratio at birth in 2012 
was 117.7 males for every 100 females, down from 117.78 in 2011, 117.94 
in 2010, and 119.45 in 2009. See also ``China's Sex Ratio at Birth 
Dropping,'' North Side Net, translated in Women of China, 12 July 12. 
According to the North Side Net report, China's sex ratio at birth in 
2008 was 120.56.
    \85\Population Division of the Department of Economic and Social 
Affairs of the United Nations Secretariat, ``World Population 
Prospects: The 2012 Revision,'' June 2013; According to United Nations 
Population Division statistics, China's sex ratio at birth (SRB) from 
2005-2010 was the highest in the world at 117 males per 100 females 
born. Equally as high was Azerbaijan's sex ratio at 117, followed by 
Armenia's at 115, and India's and Georgia's at 111. ``China's Sex Ratio 
at Birth Dropping,'' North Side Net, translated in Women of China, 12 
July 12. According to the North Side Net report, which cites a 2012 
National Population and Family Planning Commission Bulletin, ``China's 
sex ratio at birth in 2011 was 117.78, representing a drop of 0.16 
compared to 2010. . . . The ratios of 2008, 2009 and 2010 were 
respectively 120.56, 119.45 and 117.94.''
    \86\Chinese Academy of Social Sciences, ``Difficulty Finding a Wife 
in 10 Years: 1 Out of Every 5 Men To Be a Bare Branch'' [10 nian zhihou 
quqi nan, 5 ge nanren zhong jiuyou 1 ge guanggun], 27 January 10.
    \87\See, e.g., Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report 2013--
China,'' 19 June 13, 129; World Health Organization, Office of the High 
Commissioner for Human Rights, United Nations Population Fund, United 
Nations Children's Fund, and United Nations Entity for Gender Equality 
and the Empowerment of Women, ``Preventing Gender-Biased Sex 
Selection,'' 14 June 11, 5; Susan W. Tiefenbrun and Christie J. 
Edwards, ``Gendercide and the Cultural Context of Sex Trafficking in 
China,'' 32 Fordham International Law Journal 731, 752 (2009); Therese 
Hesketh et al., ``The Effect of China's One-Child Family Policy After 
25 Years,'' New England Journal of Medicine, Volume 353, No. 11 (2005), 
1173; Nicholas Eberstadt, ``A Global War Against Baby Girls: Sex-
Selective Abortion Becomes a Worldwide Practice,'' Handbook of Gender 
Medicine, reprinted in All Girls Allowed, 1 May 11. According to the 
Eberstadt article, ``Some economists have hypothesized that mass 
feticide, in making women scarce, will only increase their `value'--but 
in settings where the legal and personal rights of the individual are 
not secure and inviolable, the `rising value of women' can have 
perverse and unexpected consequences, including increased demand for 
prostitution and an upsurge in the kidnapping and trafficking of women 
(as is now reportedly being witnessed in some women-scarce areas in 
Asia)[.]''
    \88\For Global Times reference, see Zhu Shanshan, ``Shandong Baby 
Trafficking Ring Taken Down,'' Global Times, 4 November 11. For recent 
domestic reports, see, e.g., ``Xinhua Investigation: Resold Several 
Thousand Miles Away, Changed Hands 7 Times--Tracing the Chain of Black 
[Market] Baby Trafficking Driven by Huge Profit'' [Xinhua diaocha: 
zhuanmai shu qianli, daoshou da 7 ci--zhuizong baoli qudong xia de 
heise fanying lian], Xinhua, 24 December 12; Zhou Ping, ``Two Officials 
Also Detained for Human Trafficking,'' Global Times, 26 December 12. 
For international reports, see, e.g., Chen Weijun, ``One Child Policy 
Leads to Baby Selling,'' Asia News, 4 January 13; ``What Is Fuelling 
Child Abduction in China?'' Al Jazeera, 27 December 12.
    \89\``Xinhua Investigation: Resold Several Thousand Miles Away, 
Changed Hands 7 Times--Tracing the Chain of Black [Market] Baby 
Trafficking Driven by Huge Profit'' [Xinhua diaocha: zhuanmai shu 
qianli, daoshou da 7 ci--zhuizong baoli qudong xia de heise fanying 
lian], Xinhua, 24 December 12; Zhou Ping, ``Two Officials Also Detained 
for Human Trafficking,'' Global Times, 26 December 12. See also, 
Malcolm Moore, ``Chinese Family Planning Official Caught Trafficking in 
Children,'' Telegraph, 4 January 13.
    \90\``Xinhua Investigation: Resold Several Thousand Miles Away, 
Changed Hands 7 Times--Tracing the Chain of Black [Market] Baby 
Trafficking Driven by Huge Profit'' [Xinhua diaocha: zhuanmai shu 
qianli, daoshou da 7 ci--zhuizong baoli qudong xia de heise fanying 
lian], Xinhua, 24 December 12; Zhou Ping, ``Two Officials Also Detained 
for Human Trafficking,'' Global Times, 26 December 12.
    \91\``Jiangxi Guixi Welfare Institution Exposed, Suspected of Being 
Involved in `Reselling of Infants''' [Jiangxi guixi fuliyuan bei pu 
shexian ``daomai yinger''], Shenzhen Consumer Online, 25 January 13. 
For an English translation of this article, see C. Custer, 
``Translation: Guixi Orphanage Implicated in Re-Selling of Babies,'' 
China Geeks, 13 February 13.
    \92\Ma Lie and Lei Lei, ``Doctor Suspected of Child Trafficking,'' 
China Daily, 3 August 13.
    \93\``China Vows To Seriously Punish Newborn Traffickers,'' Xinhua, 
6 August 13.
    \94\Ibid.
    \95\See, e.g., ``Left Behind Children Become High Risk Group for 
Trafficking, Expert Suggests `Criminal Punishment for Child Buying''' 
[Liushou ertong cheng bei guai gaowei qunti zhuanjia jianyi ``maitong 
ruxing''], Southern Daily, reprinted in People's Daily, 27 May 13; Liu 
Baijun, ``Representative Chen Xiurong Suggests Punishing the Buyer 
Market in the Trafficking of Women and Children'' [Chen xiurong daibiao 
jianyi chengzhi guaimai funu ertong maifang shichang], Legal Daily, 12 
March 12; Zhu Shanshan, ``Shandong Baby Trafficking Ring Taken Down,'' 
Global Times, 4 November 11; ``China Babies `Sold for Adoption,''' BBC, 
2 July 09; Patricia J. Meier, ``Small Commodities: How Child 
Traffickers Exploit Children and Families in Adoption and What the 
United States Must Do To Fight Them,'' Journal of Gender, Race & 
Justice, Vol. 12, No. 1, 16 September 08, 10-11; Beth Loyd, ``China's 
Lost Children,'' ABC News, 12 May 08; Peter S. Goodman, ``Stealing 
Babies for Adoption,'' Washington Post, 12 March 06.
    \96\See, e.g., Rao Dehong, ``7 Female Primary School Students From 
Liangshan Lured to Work in Dongguan Will Be Returned to School'' [7 
ming liangshan xiaoxue nusheng bei you zhi dongguan wugong jiang bei 
jiehui fanxiao shangxue], Southern Metropolitan Daily, 6 December 12; 
``8 Sentenced for Abducting, Murdering Children in China as Govt Tries 
To Combat Trafficking,'' Associated Press, reprinted in Washington 
Post, 15 August 11.
    Notes to Section II--Freedom of Residence and Movement

    \1\PRC Regulations on Household Registration [Zhonghua renmin 
gongheguo hukou dengji tiaoli], issued and effective 9 January 58.
    \2\Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: Can 
China Urbanize to Prosperity?'' Eurasian Geography and Economics, Vol. 
53, No. 1 (2012), 67-68.
    \3\Ibid., 66-67.
    \4\Ibid., 67.
    \5\International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 2(1), 12(1), 12(3), 26. China 
has signed and expressed intent to ratify the ICCPR. Universal 
Declaration of Human Rights, adopted and proclaimed by UN General 
Assembly resolution 217A (III) of 10 December 48, arts. 2, 13(1).
    \6\``Ma Jiantang: Resolutely Taking a Path of New Increase--
National Statistics Bureau Chief Is Guest in Xinhua Interview'' [Ma 
jiantang: jianjue zou yi tiao xin zengzhang zhi lu--guojia tongjiju 
juzhang zuoke xinhuawang fangtan], National Bureau of Statistics of 
China, 16 July 13; Wang Su, ``Cracking the Hukou Code to Hasten 
Urbanization,'' Caixin, 7 August 13.
    \7\Xu Xiaodan et al., ``Survey on Rural Workers and Urbanization: 
Close to Half of Migrant Workers in Cities Have No Social Security'' 
[Nongminhua yu chengzhenhua diaocha: jin ban jincheng nongmingong wu 
shehui baozhang], Ban Yue Tan, reprinted in China News Service, 9 July 
13. The survey, conducted by Ban Yue Tan Social Conditions and Public 
Opinion Research Center at the behest of the National Development and 
Reform Commission, revealed that 54.81 percent of migrant workers in 
cities responded that they participated in social security programs.
    \8\``Work Units Must Hire More Workers, Which Aspects Show 
Employment Discrimination?'' [Danwei xuyao zhaoshou yuangong, jiuye 
qishi biaoxian zai na xie fangmian?], Fabang Net, 16 January 13; Fan 
Chunxu et al., ``This Year's Graduating Students Encounter Household 
Registration and Age Restrictions While Seeking Employment'' [Yingjie 
shengqiu zhi yu huji nianling xianzhi], Beijing News, 20 May 13; Wan 
Jing, ``Enterprises and Work Unit Hiring Notices Become Household 
Residence Discrimination Disaster Zones'' [Shiye danwei cheng zhaopin 
huji qishi zhongzaiqu], Legal Daily, 29 May 13.
    \9\China Labour Bulletin, ``Graduate Makes Formal Complaint Against 
Local Government for Hukou Discrimination,'' 16 May 13; Cao Jingmei, 
``Scholar: Hukou Discrimination is Regrettably China's Greatest 
Unfairness'' [Xue zhe: huji qishi kong shi zhongguo jiuye zui da bu 
gongping], Sound of Hope, 15 May 13; ``Employment Discrimination 
Inventory: Educational Background is Checked Back Three Generations, 
Requirements for Hukou and Appearance'' [Jiuye qishi pandian: xueli cha 
sandai hukou xiangmao you yaoqiu], China Newsweek, reprinted in Sina, 
22 May 13.
    \10\``China's First Court Case of Hukou-Based Employment 
Discrimination'' [Zhongguo huji jiuye qishi di yi an], Radio Free Asia, 
15 May 13. The Nanjing Municipal Human Resources and Social Security 
Bureau passed over a recent female college graduate from Anhui province 
for a job opportunity due to her rural Anhui hukou. Dong Wanyu, ``Woman 
From Anhui Blocked From Accepting Employment Position in Nanjing 
Because of Household Registration'' [Anhui yi nu nanjing ying pin yin 
huji shou fang], Yangtse Evening Post, 15 April 13.
    \11\China Labour Bulletin, ``Employment Discrimination in China,'' 
20 November 12.
    \12\Barbara Demick, ``Red Tape Bars Many Students from China's Top 
Colleges,'' Los Angeles Times, 25 July 13; Wei Xue, ``Non-Beijing Hukou 
Exam Students Who Returned Home to Take Test State Grades Changed From 
Excellent to `Poor,' Their Spirits Have Dropped Significantly'' [Fei 
jingji kaosheng huixiang gaokao: chengji youxiu bian ``diandi'' xinli 
luocha da], China National Radio, 7 June 13; Liu Jinsong, ```Non-
Household Registration' Protester Zhan Haite'' [``Fei huji'' 
kangzhengzhe zhan haite], Economic Observer, reprinted in Phoenix Net, 
30 November 12; Zhan Haite, ``Teen Girl Makes Case for Change,'' China 
Daily, 7 December 12.
    \13\Koh Gui Qing, ``Beatings, Evictions Reveal Ugly Side of China's 
Local Debt Pile,'' Reuters, 2 September 13; ``Land Clashes Spring From 
`Colonial' Spread of Cities,'' Radio Free Asia, 11 March 13; ``Chinese 
Voice Anger and Nostalgia Over Urbanization,'' New York Times, 16 June 
13.
    \14\``China Urbanization to Hit Roadblocks Amid Local Opposition,'' 
Bloomberg, 12 August 13; Yin Yeping, ``Locals Oppose Changes to Gaokao 
Policy,'' Global Times, 22 October 12; Wei Xue, ``Non-Beijing Hukou 
Exam Students Who Returned Home to Take Test State Grades Changed From 
Excellent to `Poor,' Their Spirits Have Dropped Significantly'' [Fei 
jingji kaosheng huixiang gaokao: chengji youxiu bian ``diandi'' xinli 
luocha da], China National Radio, 7 June 13.
    \15\Jin Hui, ``Reform of Hukou, Land, and Financial Systems, 
Elimination of the Two Layered Structure'' [Gaige huji tudi caizheng 
zhidu pochu er yuan jiegou], Economic Information Daily, 30 August 13; 
``New Urbanization Requires Participation from Corporations and 
Entrepeneurs'' [Xinxing chengzhenhua xuyao qiye he qiyejia canyu], 
Beijing News, 12 August 13; ``China Urbanization To Hit Roadblocks Amid 
Local Opposition,'' Bloomberg, 12 August 13.
    \16\``State Council: Residential Permit Administrative Measures To 
Be Released and Reform of Household Registration System To Be Advanced 
Within the Year'' [Guowuyuan: nian nei chutai juzhuzheng guanli banfa 
tuijin huji gaige], Guandian Real Estate Net, 7 May 13; ``China's Hukou 
System Puts Migrant Workers at Severe Economic Disadvantage,'' The 
World, Public Radio International, 1 May 13; ``Xi Jinping, Li Keqiang 
Ph.D Theses Both Mention Hukou Reform'' [Xi jinping li keqiang boshi 
lunwen jun ti huji gaige], Chengdu Evening News, 20 May 13.
    \17\Zhou Yu, ``National Development and Reform Commission: Next 
Year Will Accelerate Reform of the Household Registration System'' 
[Fagaiwei: ming nian jiang jiakuai huji zhidu gaige], Beijing Times, 
reprinted in The People's Daily, 19 December 12; ``Elimination of 
Household Registration Barriers Suggested,'' Xinhua, 27 June 13.
    \18\``Xi Jinping, Li Keqiang Ph.D Theses Both Mention Hukou 
Reform'' [Xi jinping li keqiang boshi lunwen jun ti huji gaige], 
Chengdu Evening News, 20 May 13.
    \19\``Elimination of Household Registration Barriers Suggested,'' 
Xinhua, 27 June 13; Wu Nan, ``China Eases Household Registration 
Rules,'' South China Morning Post, 28 June 13.
    \20\Kan Feng, ``2012 Cities Bluebook: Development of China's Cities 
Face Ten Major Challenges'' [2012 nian chengshi lanpishu: zhongguo 
chengshi fazhan mianlin shi da tiaozhan], China News Service, 14 August 
12; Liu Rong, ``City Bluebook: 500 Million Farmers Will Need To Be 
`Urbanized' in the Next 20 Years'' [Chengshi lanpishu: weilai 20 nian 
you jin 5 yi nongmin xuyao ``shiminhua''], People's Daily, 15 August 
12. The original report does not appear to be publicly available. Yu 
Qian, ``More Than Half of All Chinese Live in Cities, As Rural Exodus 
Continues,'' Global Times, 15 August 12.
    \21\Sun Xuemei, ``Experts Say Household Registration System Reform 
Encounters Opposition from Local Governments Causing Difficulty in 
Implementation'' [Zhuanjia cheng huji zhidu gaige zao difang zhengfu 
fandui zhi qi nan luoshi], Beijing Times, 12 November 12; ``Xi Jinping, 
Li Keqiang Ph.D Theses Both Mention Hukou Reform'' [Xi jinping li 
keqiang boshi lunwen jun ti huji gaige], Chengdu Evening News, 20 May 
13; ``China Urbanization to Hit Roadblocks Amid Local Opposition,'' 
Bloomberg, 12 August 13; ``Accounting for the Costs of Hukou Reform'' 
[Huji gaige de chengben zhang], Caixin New Century, No. 30, 5 August 
13.
    \22\State Council General Office, Circular Regarding the Active and 
Sound Implementation of Household Registration Management System Reform 
[Guowuyuan bangongting guanyu jiji wentuo tuijin huji guanli zhidu 
gaige de tongzhi], issued 26 February 11; ``State Council General 
Office Issues Circular Regarding the Active and Sound Implementation of 
Household Registration Management System Reform'' [Guowuyuan 
bangongting fabu guanyu jiji wentuo tuijin huji guanli zhidu gaige de 
tongzhi], Xinhua, 24 February 12; Jiang Yunxin, ``China Puts Forward 
Clear Urbanization Pathway for the First Time; Guarantees Reasonable 
Housing Requirements'' [Woguo shouci mingque chu chengzhenhua lujing 
baozhang heli zhufang xuqiu], Beijing News, 27 June 13.
    \23\The Commission observed implementation opinions and plans of 
the 2011 Circular and its related hukou reforms in several provinces, 
municipalities, prefectures and provincial-level autonomous regions. 
These include Ma'anshan Prefecture in Anhui province, the Xinjiang 
Uyghur Autonomous Region and the Inner Mongolia Autonomous Region. See 
General Office of the Ma'anshan Prefectural People's Government, 
General Office of the Ma'anshan Prefectural People's Government 
Implementing Opinion Regarding the Active and Sound Promotion of 
Household Registration Management System Reform [Ma'anshanshi renmin 
zhengfu bangongshi guanyu jiji wentuo tuijin huji guanli zhidu gaige de 
shishi yijian], issued 7 March 13; Xinjiang Uyhgur Autonomous Region 
Public Security Bureau, Xinjiang Uyhgur Autonomous Region Public 
Security Bureau Implementation Details on Furthering Reform of the 
Household Registration Management System (Trial) [Xinjiang weiwuer 
zizhiqu gong'anting guanyu tuijin huji guanli zhidu gaige de shishi 
xize (shixing)], effective 1 September 12; General Office of the Inner 
Mongolia Autonomous Region People's Government, General Office of the 
Inner Mongolia Autonomous Region People's Government Implementing 
Opinion on Deepening Reform of the Household Registration Management 
System [Neimenggu zizhiqu renmin zhengfu bangongting guanyu shenhua 
huji guanli zhidu gaige de shishi yijian], issued 29 May 11.
    \24\Chang Meng, ``MOE Wants to Broaden Gaokao Access,'' Global 
Times, 27 November 12.
    \25\Beijing Municipal People's Government, Beijing Municipal 
Department of Education and Four Other Departments Circular Regarding 
the Dissemination of the ``Work Plan for the Accompanying Children of 
Migrant Workers to Take Entrance Examinations in Beijing After 
Receiving Compulsory Education'' [Guanyu zhuanfa shijiaowei deng si 
bumen zhiding de ``jincheng wugong renyuan suiqian zinu jieshou yiwu 
jiaoyu hou zai jing canjia shengxue kaoshi gongzuo fang'an'' de 
tongzhi], issued 29 December 12, reprinted in Beijing Education 
Services Research; Shanghai Municipal People's Government General 
Office, Shanghai Municipal Department of Education and Four Other 
Departments Circular Regarding the Dissemination of the ``Work Plan for 
the Accompanying Children of Migrant Workers to Take Entrance 
Examinations in Shanghai After Receiving Compulsory Education'' [Guanyu 
zhuanfa shijiaowei deng si bumen zhiding de ``jincheng wugong renyuan 
suiqian zinu jieshou yiwu jiaoyu hou zai hu canjia shengxue kaoshi 
gongzuo fang'an'' de tongzhi], issued 27 December 12, reprinted in 
Central People's Government of the People's Republic of China; 
Guangdong Provincial People's Government General Office, Guangdong 
Province Department of Education and Other Departments Circular 
Pertaining to ``How To Do a Good Job on Disseminating the Work Opinion 
on the Children of Migrant Workers Taking Entrance Examinations in 
Guangdong After Receiving Compulsory Education'' [Guangdongsheng renmin 
zhengfu bangongting zhuanfa shengjiaoyuting deng bumen guanyu zuohao 
jincheng wu gongrenyuan suiqian zinu jieshou yiwu jiaoyu hou zai wo 
sheng canjia shengxue kaoshi gongzuo yijian de tongzhi], issued 29 
December 12. See also ``Authorities Issue New Education Policies for 
Children of Migrant Workers,'' Congressional-Executive Commission on 
China, 2 April 13.
    \26\Wei Xue, ``Non-Beijing Hukou Exam Students Who Returned Home To 
Take Test State Grades Changed from Excellent to `Poor,' Their Spirits 
Have Dropped Significantly'' [Fei jingji kaosheng huixiang gaokao: 
chengji youxiu bian ``diandi'' xinli luocha da], China National Radio, 
7 June 13; Yin Yeping, ``Locals Oppose Changes to Gaokao Policy,'' 
Global Times, 22 October 12; Barbara Demick, ``Red Tape Bars Many 
Students from China's Top Colleges,'' Los Angeles Times, 25 July 13; 
``Migrants Banned From Beijing Exam,'' Radio Free Asia, 23 November 12.
    \27\Wuhan Municipal People's Government, Wuhan Municipal People's 
Government's Opinion on Further Encouraging Graduates to Work and 
Innovate in Wuhan [Wuhanshi renmin zhengfu guanyu jinyibu guli gaoxiao 
biyesheng zai han chuangxin chuangye de yijian], issued 10 April 13; 
``Restrictions on College Graduates Setting Up Residence in Wuhan, 
Hubei Again Relaxed'' [Hubei wuhan biyesheng luohu zai fangkuan], 
Xinhua, reprinted in People's Daily, 21 May 13; An Baijie, ``Wuhan 
Lifts Hukou Restrictions on College Students,'' China Daily, 10 May 13.
    \28\Shanghai Municipal People's Government, Shanghai Municipality 
Residence Permit Administrative Measures [Shanghaishi juzhuzheng guanli 
banfa], passed 20 May 13, effective 1 July 13, chap. 2, art. 9, 18. The 
points system replaces Shanghai's original classification system. Those 
non-Shanghai residents with steady employment who have participated in 
their work unit's social security system for at least six months, or 
those who rely on or live with family members with a Shanghai hukou, or 
have attended school or undertaken advanced studies in Shanghai for six 
months or more are eligible to participate in this system and apply for 
a residence permit (juzhu zheng). See also Li Xin and Tian Xiaodong, 
``Shanghai's Residential Permit Regulation Point System To Replace 
Classification System in Determining Children's Access to Education'' 
[Hu juzhuzheng guanli banfa jifen zhi daiti fenlei, fenzhi jueding zinu 
jiuxue], Xinming Net, 19 June 13.
    \29\Guangzhou Municipal Public Security Bureau, Guangzhou Municipal 
Public Security Bureau Department of Residence Explanation on Main 
Questions Regarding the Handling of Changing Household Registration 
[Guangzhou gong'an huzheng bumen jieda banli huanfa hukoubu yewu redian 
wenti], 6 May 13; General Office of the Guangzhou Municipal People's 
Government, Guangzhou Municipal Party Committee, ``Guiding Opinion 
Regarding the Acceleration of the Unification of the New Structure for 
Urban and Rural Economic and Social Development'' [Guanyu jiakuai 
xingcheng chengxiang jingji shehui fazhan yitihua xin geju de shishi 
yijian], 18 May 09; Zheng Caixiong, ``Guangzhou Moves to Abolish Rural 
Hukou,'' China Daily, 10 May 13; ``Guangzhou Household Registration 
Reform, A Single Urban/Rural Household Registration Classification To 
Be Realized by 2014'' [Guangzhou huji gaige 2014 nian jiang shixian 
chengxiang yige hukou], Guangzhou Local Treasure, 19 December 12.
    \30\General Office of the Guangdong Provincial People's Government, 
``Work Plan To Further Promote the Equalization and Comprehensive 
Reform of Basic Public Services (2012-2014)'' [Shenru tuijin jiben 
gongong fuwu jundenghua zonghe gaige gongzuo fang'an (2012-2014 nian)], 
17 April 12, sec. 2, art. 2; Hong Yiyi, ``Household Registration System 
Reform Allows Residents to Enjoy Equal Status'' [Huji zhidu gaige rang 
jumin xiang tongdeng daiyu], Southern Daily, 8 January 13.
    \31\International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(2). A similar protection granting 
``everyone . . . the right to leave any country, including his own, and 
to return to his own country'' is provided for in the Universal 
Declaration of Human Rights. See Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) of 
10 December 48, art. 13(2).
    \32\International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(3).
    \33\PRC Passport Law [Zhonghua renmin gongheguo huzhao fa], issued 
29 April 06, effective 1 January 07, art. 13(7); PRC Exit and Entry 
Control Law [Zhonghua renmin gongheguo chujing rujing guanli fa] issued 
30 June 12, effective 1 July 13, art. 12(5).
    \34\For examples of restrictions on international travel of rights 
advocates, see Chinese Human Rights Defenders, ``Rights Lawyer Tang 
Jitian Was Blocked from Going to Hong Kong'' [Weiquan lushi tang jitian 
chu guan qianwang xianggang bei zu], 15 January 13; Chinese Human 
Rights Defenders, ``Ding Hongfen Applies to Get a Passport, Wuxi City 
Public Security Office Denies Approval'' [Ding hongfen shenqing qianfa 
huzhao, wuxi shi gonganju buyu pizhun], 5 January 13; Gillian Wong, 
``Denied Passport, Tibet Poet Can't Receive US Award,'' Associated 
Press, 8 March 13. For examples of restrictions on international travel 
of family members of rights advocates, see Chinese Human Rights 
Defenders, ``The Wife of Famous Chinese Political Prisoner Liu Xianbin 
Has Been Unable To Obtain Her Passport With No Hope for Visiting Her 
Daughter During Chinese New Year'' [Dalu zhuming zhengzhifan liu 
xianbin qizi chen mingxian huzhao wufa banli chunjie tanwang nuer 
wuwang], 8 February 13; ``Shandong Police Deny Chen Family Passport 
Bid,'' Radio Free Asia, 22 February 13; Chinese Human Rights Defenders, 
``Daughter of Zhejiang Dissident Lu Gengsong Again Prevented from 
Traveling to Hong Kong'' [Zhejiang yiyirenshi lu gengsong nuer qu 
xianggang zaici bei zu], 9 July 13.
    \35\Andrew Jacobs, ``No Exit: China Uses Passports as Political 
Cudgel,'' New York Times, 22 February 13.
    \36\Ibid.; Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, Country Report on Human Rights Practices--2012, 
China (Includes Tibet, Hong Kong and Macau), 19 April 13; ``Beijing 
Refuses To Issue Passports To Strictly Control Entry and Exit, 14 
Million on the Blacklist'' [Beijing ju fa zhengzhao yankong churujing 
1400 wan ren shang heimingdan], Radio Free Asia, 25 February 13.
    \37\Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2012, China 
(Includes Tibet, Hong Kong and Macau), 19 April 13; Andrew Jacobs, ``No 
Exit: China Uses Passports as Political Cudgel,'' New York Times, 22 
February 13; ``Beijing Refuses To Issue Passports To Strictly Control 
Entry and Exit, 14 Million on the Blacklist,'' [Beijing ju fa zhengzhao 
yan kong churujing 1400 wan ren shang heimingdan], Radio Free Asia, 25 
February 13.
    \38\Andrew Jacobs, ``No Exit: China Uses Passports as Political 
Cudgel,'' New York Times, 22 February 13.
    \39\Gillian Wong, ``Denied Passport, Tibet Poet Can't Receive US 
Award,'' Associated Press, 8 March 13; Secretary of State John Kerry, 
Remarks at the International Women of Courage Awards, Dean Acheson 
Auditorium, 8 March 13.
    \40\Andrews Jacobs, ``No Exit: China Uses Passports as Political 
Cudgel,'' New York Times, 22 February 13.
    \41\Xu Zhiyong, ``Cause and Effect--A Dialogue on the New Citizens' 
Movement'' [Yinguo--yici guanyu xin gongmin yundong de duihua], Xu 
Zhiyong Collected Works (blog), 24 April 13; Patrick Boehler, ``Leading 
Citizen Movement Activist Xu Zhiyong Arrested,'' South China Morning 
Post, 17 July 13. This international symposium to which Xu was invited 
commemorated the anniversary of the beating death of Sun Zhigang, who 
died after being taken into police custody for registration permit 
questioning in 2003. After Sun's death, Xu worked with other activists 
to abolish ``custody and repatriation'' centers. For more information, 
see Zan Aizong, ``Rights Defense and `Non-Violent Non-Cooperation,''' 
Human Rights in China, China Rights Forum, Issue 1, 2009; Keith J. 
Hand, ``Using Law for a Righteous Purpose: The Sun Zhigang Incident and 
Evolving Forms of Citizen Action in the People's Republic of China,'' 
Columbia Journal of Transnational Law 45, 2006, 114-95. For more 
information on the case of Xu Zhiyong, see ``Officials Detain Xu 
Zhiyong Amidst a Crackdown on Individuals Calling for Greater 
Government Accountability,'' Congressional-Executive Commission on 
China, 1 August 13.
    \42\Chinese Human Rights Defenders, ``The Wife of Famous Chinese 
Political Prisoner Liu Xianbin Has Been Unable to Obtain Her Passport 
and Is Therefore Unable to Visit Her Daughter During Chinese New Year'' 
[Dalu zhuming zhengzhifan liu xianbin qizi chen mingxian huzhao wufa 
banli chunjie tanwang nuer wuwang], 8 February 13.
    \43\Chinese Human Rights Defenders, ``Daughter of Zhejiang 
Dissident Lu Gengsong Again Prevented from Traveling to Hong Kong'' 
[Zhejiang yiyirenshi lu gengsong nuer qu xianggang zaici bei zu], 9 
July 13.
    \44\``Shandong Police Deny Chen Family Passport Bid,'' Radio Free 
Asia, 22 February 13; Edward Wong, ``Family of China Rights Advocate 
Given Passports,'' New York Times, 7 June 13.
    \45\International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(1). Similar protection granting 
``everyone . . . the right to freedom of movement and residence within 
the borders of each state'' is provided for in the See Universal 
Declaration of Human Rights. Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) of 
10 December 48, art. 13(1).
    \46\See, e.g., ``Zhang Lin and Daughter Successfully Flee Anhui to 
Start New Life'' [Zhang lin funu chenggong taoli anhui guo xin 
shenghuo], Radio Free Asia, 19 June 13; ``Ilham Tohti Again Placed 
Under Home Confinement, Uyghur Students Who Posted Online Are 
Detained'' [Yilihamu zaidu zao ruanjin weizu xuesheng wangluo fa wen 
bei zhua], Radio Free Asia, 31 July 13.
    \47\See, e.g., ``Chen Guangfu Forced to Return Home From Shanghai 
Visit,'' Radio Free Asia, 20 August 13; Southern Mongolian Human Rights 
Information Center, ``Hada and Family Members Still Missing,'' 24 
February 13. For more information on the case of Hada and his family, 
see ``Authorities Heighten Persecution of Detained Mongol Rights 
Advocate's Wife and Son,'' Congressional-Executive Commission on China, 
13 December 12.
    \48\Chinese Human Rights Defenders, ``In the Name of `Stability,' 
2012 Annual Report on the Situation of Human Rights Defenders in 
China,'' March 2013, 1, 4-6.
    \49\Jared Genser, ``In China, Repression is a Family Affair,'' Wall 
Street Journal, 25 April 13. See the Commission's Political Prisoner 
Database record 2010-00629 for information on Liu Xia's case.
    \50\Chinese Human Rights Defenders, ``In the Name of `Stability,' 
2012 Annual Report on the Situation of Human Rights Defenders in 
China,'' March 2013, 4-5; Human Rights Watch, ``China: End Unlawful 
Practice of House Arrest,'' 24 October 12. See the Commission's 
Political Prisoner Database record 2008-00228 for information on Feng 
Zhenghu's case.
    \51\Chris Buckley, ``China Detains a Leading Human Rights 
Advocate,'' New York Times, 17 July 13; Xu Zhiyong, ``Cause and 
Effect--A Dialogue on the New Citizens' Movement'' [Yinguo--yici guanyu 
xin gongmin yundong de duihua], Xu Zhiyong Collected Works (blog), 24 
April 13. For more information on the case of Xu Zhiyong, see 
``Officials Detain Xu Zhiyong Amidst a Crackdown on Individuals Calling 
for Greater Government Accountability,'' Congressional-Executive 
Commission on China, 1 August 13.
    \52\``Activists Released After Congress,'' Radio Free Asia, 16 
November 12.
    \53\``As National CPPCC Opens Many Rights Activists Faced With 
Different Degrees of Soft Detention'' [Quanguo zhengxie kaimu duoming 
weiquan renshi zaodao butong chengdu de ruanjin], Radio Free Asia, 3 
March 13.
    \54\Chinese Human Rights Defenders, ``Anhui Dissident Wang Yixiang 
Has Dealt with Restricted Movement as June 4th Approaches'' [Anhui 
yiyirenshi wang yixiang yin liusi linjin bei xianzhi renshen ziyou], 2 
June 13; Chinese Human Rights Defenders, ``As June 4th Approaches 
Zhejiang Democracy Party Members Receive Stricter Controls'' [Liusi 
linjin zhejiang minzhudang ren shou yan kong], 1 June 13.
    \55\``Activists Released After Congress,'' Radio Free Asia, 16 
November 12.
    \56\Chinese Human Rights Defenders, ``Anhui Dissident Wang Yixiang 
Has Dealt with Restricted Movement as June 4th Approaches'' [Anhui 
yiyirenshi wang yixiang yin liusi linjin bei xianzhi renshen ziyou], 2 
June 13.
    Notes to Section II--Status of Women

    \1\Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81. China signed the convention on July 
17, 1980, and ratified it on November 4, 1980. See United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
14 September 12. Under Article 7 of CEDAW, China is committed to 
ensuring the right of women, on equal terms with men, ``to participate 
in the formulation of government policy and the implementation thereof 
and to hold public office and perform all public functions at all 
levels of government.''
    \2\The PRC Law on the Protection of Women's Rights and Interests 
and the PRC Electoral Law of the National People's Congress and Local 
People's Congresses stipulate that an ``appropriate number'' of female 
deputies should serve at all levels of people's congresses. PRC Law on 
the Protection of Women's Rights and Interests [Zhonghua renmin 
gongheguo funu quanyi baozhang fa], passed 3 April 92, effective 1 
October 92, amended 28 August 05, art. 11; PRC Electoral Law of the 
National People's Congress and Local People's Congresses [Zhonghua 
renmin gongheguo quanguo renmin daibiao dahui he difang geji renmin 
daibiao dahui xuanju fa], passed 1 July 79, amended 10 December 82, 2 
December 86, 28 February 95, 27 October 04, 14 March 10, art. 6.
    \3\State Council Information Office, ``National Human Rights Action 
Plan of China (2012-2015),'' 11 June 12, sec. III(2); State Council, 
``PRC Outline for the Development of Women (2011-2020)'' [Zhongguo funu 
fazhan gangyao (2011-2020)], issued 30 July 11, sec. 3(4).
    \4\Christophe Bahuet, ``The Importance of Women's Leadership,'' 
China Daily, 6 November 12.
    \5\The target of 30 percent female representation in leadership 
positions by 1995 was set by the UN Commission on the Status of Women 
at its 34th session in 1990. ``Target: 30 Percent of Leadership 
Positions to Women by 1995--United Nations Commission on the Status of 
Women,'' UN Chronicle, June 1990, reprinted in Popline.
    \6\China's Politburo Standing Committee decreased from nine members 
in the prior two Party Congresses to seven members in the 18th Party 
Congress. See Edward Wong and Jonathan Ansfield, ``Changing of the 
Guard: Grabs for Power Behind Plan to Shrink Elite Circle,'' New York 
Times, 1 November 12.
    \7\Jaime A. FlorCruz and Jethro Mullen, ``After Months of Mystery, 
China Unveils New Top Leaders,'' CNN, 16 November 12. Prior to the 
appointment of China's new leadership, some political observers had 
speculated that Liu Yandong might have become the first woman promoted 
to the Politburo Standing Committee. See Zhuang Pinghui, ``Breaking the 
Glass Ceiling in the Politburo Standing Committee,'' South China 
Morning Post, 19 September 12.
    \8\State Councilor Sun Chunlan reportedly joined State Councilor 
Liu Yandong as the second woman to hold a position on the Political 
Bureau of the Communist Party Central Committee. See Benjamin Kang Lim 
and Michael Martina, ``China's Politburo Has More Women, Is Younger--
But Barely,'' Reuters, 15 November 12.
    \9\``Members of the 18th CPC Central Committee,'' Xinhua, 14 
November 12; Kerry Brown, ``Chinese Politics--Still a Man's World,'' 
CNN, Global Public Square (blog), 27 August 12. According to the Global 
Public Square blog report, the number of women on the previous (17th) 
Communist Party Central Committee was 13 out of 204 members. See also 
Didi Kirsten Tatlow, ``Chinese Women's Progress Stall on Many Fronts,'' 
New York Times, 6 March 12.
    \10\He Dan and Zhu Zhe, ``Women Assume Bigger Role,'' China Daily, 
8 November 12. According to the China Daily, 521 of 2,270 (22.95 
percent) of the delegates to the 18th Party Congress were female, up 
from 20 percent at the 17th Party Congress in 2007, and 18 percent at 
the 16th Party Congress in 2002. See also National Bureau of Statistics 
of China, ``Number of Deputies to All the Previous National People's 
Congresses'' [Lijie quanguo renmin daibiao dahui daibiao renshu], China 
Statistical Yearbook 2012, 2012, Table 23-1. According to the 2012 
China Statistical Yearbook, female representation in China's parliament 
has stayed around 21 percent since the late 1970s.
    \11\National Bureau of Statistics of China, ``Number of Deputies to 
All the Previous National People's Congresses'' [Lijie quanguo renmin 
daibiao dahui daibiao renshu], China Statistical Yearbook 2012, 2012, 
Table 23-1.
    \12\Li Bin (Minister of the new National Health and Family Planning 
Commission) and Wu Aiying (Minister of Justice) are reported to be the 
only female members of China's newly appointed State Council. The 
number used to be 4 out of 35. See ``China Unveils New Cabinet Amid 
Function Reform,'' Xinhua, 17 March 13. See also Jen-Kai Liu, ``The 
Main National Leadership of the PRC,'' China Data Supplement, Journal 
of Current Chinese Affairs, Vol. 19, No. 3 (2011), 3; Michael Forsythe 
and Yidi Zhao, ``Women Knowing China Men Rule Prove Mao's Half the Sky 
Remains Unfulfilled,'' Bloomberg, 23 June 11.
    \13\Only four women since 1949 have served in this high-ranking 
position; of these, Wu Yi served most recently, and retired in 2008. 
See All-China Women's Federation, ``China's Four Female Vice Premiers 
Since 1949,'' 22 March 13. See also Jen-Kai Liu, ``The Main National 
Leadership of the PRC,'' China Data Supplement, Journal of Current 
Chinese Affairs, Vol. 19, No. 3 (2011), 3.
    \14\Christophe Bahuet, ``The Importance of Women's Leadership,'' 
China Daily, 6 November 12; Julie Makinen, ``Where are China's Women 
Leaders?'' Los Angeles Times, reprinted in Christian Science Monitor, 
14 November 12.
    \15\Rangita de Silva de Alwis, ``Women Leading in Lawmaking in 
China--Introduction,'' Global Women's Leadership Initiative, Wilson 
Center, February 2013, 7.
    \16\Li Huiying, ``Women Leading in Lawmaking in China--The Pain of 
Chinese Urbanization: Strengthening of Gender Layering,'' Global 
Women's Leadership Initiative, Wilson Center, February 2013, 14-18.
    \17\United Nations Entity for Gender Equality and the Empowerment 
of Women, ``Asia-Pacific Calls for Urgent Increase to Low Participation 
of Women in Politics,'' 4 February 13.
    \18\Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by UN General Assembly resolution 34/180 of 18 December 79, 
entry into force 2 September 81, art. 11. China signed the convention 
on July 17, 1980, and ratified it on November 4, 1980. See United 
Nations Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
14 September 12.
    \19\Liu Xiaonan, ``Women Leading in Lawmaking in China--Research 
Report on Employment Discrimination in 2011 Civil Service 
Recruitment,'' Global Women's Leadership Initiative, Wilson Center, 
February 2013, 20, 22-23. For additional examples of gender 
discrimination in hiring, see Chen Xin, ``Gender Bias Seen in Job Fair 
Ads,'' China Daily, 25 February 13; Peter Kuhn and Kailing Shen, 
``Gender Discrimination in Job Ads: Evidence From China,'' Department 
of Economics, University of California Santa Barbara, 6 June 12; Zhou 
Xiangyi, Zhang Jie, and Song Xuetao, ``Gender Discrimination in Hiring: 
Evidence from 19,130 Resumes in China,'' Xi'an Jiaotong University, 
Texas A&M University, North Carolina State University, 3 January 13.
    \20\Rangita de Silva de Alwis, ``Women Leading in Lawmaking in 
China--Introduction,'' Global Women's Leadership Initiative, Wilson 
Center, February 2013, 2-3.
    \21\Guo Huimin, ``Women Leading in Lawmaking in China--Pregnancy 
Discrimination: Abrogation and Restoration of Rights,'' Global Women's 
Leadership Initiative, Wilson Center, February 2013, 56.
    \22\Amy Li, ``Job-seekers in Wuhan Protest Government-Imposed 
Gynaecological Tests,'' South China Morning Post, 28 November 12.
    \23\Raef Lawson, Institute of Management Accountants, ``Salary 
Survey,'' October 2012, 41. According to the IMA report, Chinese 
women's salary is on average about 58.6 percent that of men's, and 
their total compensation is on average about 54 percent that of men's.
    \24\Currently, retirement ages for male and female government and 
Party officials are 60 and 55, respectively, while retirement ages for 
male and female workers in general are 60 and 50, respectively. For 
regulations on retirement ages for most workers, see State Council 
Provisional Measures on Workers' Retirement and Withdrawal from Office 
[Guowuyuan guanyu gongren tuixiu, tuizhi de zanxing banfa], 24 May 78, 
art. 1. For regulations on extended retirement ages for cadres, see 
State Council Provisional Measures on the Settlement of Elderly, Weak, 
Sick, and Disabled Cadres [Guowuyuan guanyu anzhi lao ruo bing can 
ganbu de zanxing banfa], 2 June 78, art. 4. See also, ``China's 
Compulsory Retirement Age for Males and Females Challenged for 
Violating Constitution'' [Woguo nannu tuixiu nianling guiding bei 
tiqing weixian shencha], Legal Morning Post, reprinted in China Law 
Education Net, 16 March 06. For information on the current debate about 
raising the retirement age, see Chen Xin, ``Retirement Age Will Be 
Pushed Back: Minister,'' China Daily, 22 March 11; Mark W. Frazier, 
``No Country for Old Age,'' New York Times, 18 February 13.
    \25\Shenzhen Municipal People's Congress Standing Committee, 
Shenzhen Special Economic Zone Gender Equality Promotion Regulations 
[Shenzhen jingji tequ xingbie pingdeng cujin tiaoli], passed 28 June 
12, issued 10 July 12, effective 1 January 13. See also ``Shenzhen 
Passes China's First Anti-Gender Discrimination Law,'' China Briefing, 
23 August 12.
    \26\Chen Xin, ``Gender Bias Seen in Job Fair Ads,'' China Daily, 25 
February 13.
    \27\Ibid. ``Huang Yizhi of Beijing Ruifeng Law Firm said labor laws 
have made gender discrimination in employment illegal but they lack 
language on fines for violations . . . Huang said labor authorities' 
efforts to design codes to fine violators could serve as a deterrent to 
employers and also help encourage victims to seek protection of their 
rights.''
    \28\Zhuang Qinghong and Zhang Yiting, ``First Successful 
Compensation in Gender Discrimination Case'' [Xingbie qishi an shouci 
chenggong huopei], China Youth Daily, reprinted in Xinhua, 31 January 
13.
    \29\PRC Education Law [Zhongguo renmin gongheguo jiaoyu fa], issued 
18 March 95, effective 1 September 95, art. 9.
    \30\China Labour Bulletin, ``Employment Discrimination in China,'' 
20 November 12; Didi Kirsten Tatlow, ``Women in China Face Rising 
University Entry Barriers,'' New York Times, 7 October 12. According to 
one woman cited in The New York Times, universities ``make it harder 
for women to get in to study Arabic'' because university administrators 
``believe that Arab nations don't want to deal with women.''
    \31\Luo Wangshu, ``Ministry Defends Gender Ratios for Colleges,'' 
China Daily, 17 October 12. For additional information on the use of 
gender-based quotas by Chinese universities, see China Labour Bulletin, 
``Employment Discrimination in China,'' 20 November 12.
    \32\Luo Wangshu, ``Ministry Defends Gender Ratios for Colleges,'' 
China Daily, 17 October 12.
    \33\PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], enacted 3 April 
92, effective 1 October 92, amended 28 August 05, art. 46; PRC Marriage 
Law [Zhonghua renmin gongheguo hunyin fa], passed 10 September 80, 
effective 1 January 81, amended 28 April 01, art. 3; PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, arts. 234, 236, 237, 260.
    \34\Legal Daily reported in January 2013 that one in three families 
have experienced domestic violence, and statistics released by the All-
China Women's Federation in the same month suggest one in four women 
have experienced domestic violence. Zhou Bin, ``Plans To Issue 
Standardized Document Guiding Domestic Violence Criminal Trials'' [Ni 
chutai guifanxing wenjian zhidao jiabao xing'an shenpan], Legal Daily, 
13 January 13; Zhao Wen, ``Domestic Violence Occurs in 1/4 Chinese 
Homes,'' Shanghai Daily, 23 January 13. According to the All-China 
Women's Federation statistics cited in Shanghai Daily, of the women 
surveyed who reported experiencing domestic violence, around 5 percent 
reported physical violence, and a large majority of these cases 
affected rural women. See also Lin Zhiwen and Wang Biaochen, All-China 
Women's Federation, ``Domestic Violence and Family Issues in Guangdong 
Province,'' 11 April 13.
    \35\PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
effective 1 October 92, amended 28 August 05, art. 46; PRC Marriage Law 
[Zhonghua renmin gongheguo hunyin fa], passed 10 September 80, 
effective 1 January 81, amended 28 April 01, art. 3. For Chinese 
experts' discussion of the shortcomings of current national-level 
legislation, see Ng Tze Wei, ``A Clear Definition of Domestic Violence 
Is Needed To Curb the Crime,'' South China Morning Post, 7 February 13; 
Huang Yuli and He Dan, ``Call for Action on Domestic Violence,'' China 
Daily, 26 November 12; ``China Scholars Call for Attention on `Anti-
Domestic Violence' Legislation'' [Zhongguo xuezhe huyu guanzhu ``fan 
jiating baoli'' lifa], Radio Free Asia, 13 January 10; Li Fei, ``All-
China Women's Federation Strongly Promotes Anti-Domestic Violence 
Legislation'' [Quanguo fulian litui fan jiating baoli lifa], People's 
Representative News, 31 December 09. See also ``All-China Women's 
Federation Proposes, Highlights Need for Draft Anti-Domestic Violence 
Legislation,'' Congressional-Executive Commission on China, 2 February 
10.
    \36\You Chunliang, ``28 Provinces, Districts, and Cities in China 
Have Issued Anti-Domestic Violence Local Regulations or Policies'' 
[Quanguo yi you 28 ge sheng qu shi chutai fan jiating baoli difangxing 
fagui huo ce], Legal Daily, 6 December 12.
    \37\Wu Jie, ``The Shadow of Domestic Violence: Another Incident of 
Child Abuse in Shenzhen Ends Up as Homicide Case'' [Jiabao yinying: 
shenzhen zaixian nue'er zhisi an], Southern Weekend, 31 December 12; 
Lin Zhiwen and Wang Biaochen, All-China Women's Federation, ``Domestic 
Violence and Family Issues in Guangdong Province,'' 11 April 13; ``Two 
Cases Shine Spotlight on China Domestic Violence,'' BBC, 5 February 13; 
Zhang Shan, ``Woman Can't Bear Domestic Violence, Uses Hammer To Beat 
Husband to Death, Buries Corpse in Dry Well'' [Nuzi bukan jiabao chi 
tiechui zasi zhangfu hou jiang shiti pao kujing], West Net, reprinted 
in Phoenix Net, 22 March 13.
    \38\Beijing Children's Legal Aid and Research Center, ``Don't Let 
Children Grow Up With Domestic Violence'' [Bie rang haizi zai jiabao de 
yinying xia chengzhang], 12 October 12; Huang Yuli and He Dan, ``Call 
for Action on Domestic Violence,'' China Daily, 26 November 12; Ng Tze 
Wei, ``A Clear Definition of Domestic Violence Is Needed To Curb the 
Crime,'' South China Morning Post, 7 February 13; ``Push for Domestic 
Violence Laws in China,'' CCTV, 8 March 13; Zhang Yiqian, ``Battered 
But Not Beaten,'' Global Times, 18 February 13. For information on 
calls for national-level legislation in previous years, see CECC, 2012 
Annual Report, 10 October 12, 102; CECC, 2011 Annual Report, 10 October 
11, 124; CECC, 2010 Annual Report, 10 October 10, 132.
    \39\State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, sec. III(2).
    \40\He Dan, ``Domestic Violence Law Should Be Broad,'' China Daily, 
12 March 12.
    \41\Ng Tze Wei, ``A Clear Definition of Domestic Violence Is Needed 
To Curb the Crime,'' South China Morning Post, 7 February 13. As of 
this February 2013 South China Morning Post article, no drafts had been 
tabled. In addition, the Commission has observed no reports of the 
issue of a draft between February and August 2013.
    \42\Zhou Bin, ``Plans To Issue Standardized Document Guiding 
Domestic Violence Criminal Trials'' [Ni chutai guifanxing wenjian 
zhidao jiabao xing'an shenpan], Legal Daily, 13 January 13.
    \43\Lan Fang, ``China's Courts Experiment With Issuance of 
Protection Orders Against Domestic Violence'' [Zhongguo fayuan shixing 
qianfa renshen baohu ling fan jiating baoli], Caixin, 30 January 13.
    \44\``Push for Domestic Violence Laws in China,'' CCTV, 8 March 13; 
``Domestic Violence,'' China Daily, 5 February 13.
    \45\The World Health Organization defines sexual violence as ``any 
sexual act, attempt to obtain a sexual act, unwanted sexual comments or 
advances, or acts to traffic, or otherwise directed, against a person's 
sexuality using coercion, by any person regardless of their 
relationship to the victim, in any setting, including but not limited 
to home and work.'' World Health Organization, ``Violence Against 
Women,'' Fact Sheet No. 239, November 2012. For information on trends 
of sexual violence in China, see Women's Watch-China, ``E-Newsletter 86 
of WW-China,'' February 2013, 8-10.
    \46\Women's Watch-China, ``E-Newsletter 86 of WW-China,'' February 
2013, 13; ``Official Gets 18-Year Sentence for Graft, Rape,'' Shanghai 
Daily, reprinted in China Internet Information Center, 20 February 13; 
``Li Guanfeng Charged With Rape,'' China Daily, 7 March 13; Scott 
Murdoch, ``Chinese Party Cadre Sun Dejiang Sacked After Rape Claims,'' 
Australian, 5 December 12; Sophie Song, ``China's `Child Rape Isn't 
Rape' Law Is Sparking Outrage,'' International Business Times, 13 May 
13.
    \47\Wu Xiaofeng and Xing Dongwei, ``Hainan, Wanning Primary School 
Principal Takes 4 Young Girls to Hotel, Government Worker Takes 2 Young 
Girls to Hotel'' [Hainan wanning yi xiao xiaozhang dai 4 younu kaifang 
zhengfu zhiyuan dai 2 younu kaifang], Legal Daily, 13 May 13; Mimi Lau, 
``Hainan Province Teacher, City Official Arrested Over Sex Assault of 
Six Girls,'' South China Morning Post, 14 May 13.
    \48\See Wang Aihua et al., ``Commentary: Keep Perverted Teachers 
Far Away From Young Girls!'' [Shuping: rang selang jiaoshi yuanli 
younu!], Xinhua, 29 May 13; ``China's Supreme Court Vows To Protect 
Children,'' Associated Press, 29 May 13; Zhou Wenting, ``Schoolchildren 
Taught To Avoid Sexual Assault,'' China Daily, 30 May 13.
    \49\Sophie Song, ``China's `Child Rape Isn't Rape' Law Is Sparking 
Outrage,'' International Business Times, 13 May 13. Chinese authorities 
have also gone to the other extreme in prosecuting such cases, as seen 
in the execution this past year of a teacher surnamed Bao for raping 
and sexual assaulting several of his students. Sun Ying, ``Teacher Who 
Raped or Behaved Lewdly With Female Students Is Executed, Supreme 
People's Court: No Mercy in This Regard'' [Jiaoshi qiangjian weixie 
nusheng bei chusi zui gaofa: duici jue bu shouruan], China Radio 
International, 30 May 13.
    \50\Chinese Human Rights Defenders, ``Women's Rights Worker Ye 
Haiyan's Detention Gives Rise to Fierce Citizen Protest'' [Nuquan 
gongzuozhe ye haiyan bei juliu yinfa minjian qianglie kangyi], 31 May 
13.
    \51\``Women Lawyers To Campaign for China's Sex Abuse Victims,'' 
Radio Free Asia, 3 June 13.
    \52\Beijing Declaration and Platform for Action (1995), adopted at 
the Fourth World Conference on Women on 27 October 95, and endorsed by 
UN General Assembly resolution 50/203 on 22 December 95, item 115. 
According to the 1995 Beijing Declaration and Platform for Action, 
``Physical, sexual and psychological violence occurring within the 
general community, including rape, sexual abuse, sexual harassment and 
intimidation at work, in educational institutions and elsewhere, 
trafficking in women and forced prostitution.''
    \53\PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
effective 1 October 92, amended 28 August 05, arts. 40, 58; State 
Council, Special Provisions for the Work Protection of Female Employees 
[Nu zhigong laodong baohu tebie guiding], issued and effective 28 April 
12, art. 11. See also Women's Watch-China, ``Annual Report 2008,'' 23 
October 09, 30.
    \54\Ibid.
    \55\Cao Yin, ``What Can Be Done To Prevent Sexual Harassment,'' 
Xinhua, 13 March 13.
    \56\Canton Public Opinion Research Center, ``Urban Residents 
Perceive an Increase in Sexual Harassment, Hope To Expand the Strength 
of Punishments'' [Shimin renwei xing saorao zengduo, pan jiada chufa 
lidu], 25 February 13.
    \57\Ma Yujia, ``Foxconn Employees Suffer Sexual Harassment,'' China 
Internet Information Center, 22 February 13.
    \58\``Official Suspended After Sexual Harassment Scandal,'' Xinhua, 
reprinted in CRIEnglish, 24 May 13.
    \59\Lin Li and Han Mei, ``Seven-Month Fetus in Fengyang, Anhui 
Forcibly Aborted, Shocking Bloody Photo'' [Anhui fengyang 7 yue da 
taier bei qiangzhi liuchan xie linlin tupian chumu jingxin], Sound of 
Hope, 25 March 13; ChinaAid, ``In Tears, Victim Denounces the Violence 
Committed by Family Planning Officials in Guizhou in Early 2013,'' 26 
February 13; Zhan Caiqiang, ``Hubei Tongshan Woman `Sterilized to 
Death,' Officials Pay 1,000,000 To Buy Out [Victims'] `Right To Hold 
[Them] Accountable''' [Hubei tongshan--funu ``jieza zhisi'' guanfang 
100 wan maiduan ``zhuize quanli''], Yunnan Info Daily, 9 April 13; 
``Henan--Nursing Mother Failed To Pay 6,000 Yuan Protection Fee, 
Forcibly Sterilized'' [Henan--buru qi funu weijiao 6 qian yuan baohu 
fei bei qiangzhi jieza], Southern Metropolitan Daily, 24 April 13. 
According to the 1995 Beijing Declaration and Platform for Action, 
``Acts of violence against women also include forced sterilization and 
forced abortion, coercive/forced use of contraceptives, female 
infanticide and prenatal sex selection.'' Beijing Declaration and 
Platform for Action (1995), adopted at the Fourth World Conference on 
Women on 27 October 95, and endorsed by UN General Assembly resolution 
50/203 on 22 December 95, item 115.
    \60\PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, effective 
1 September 02, arts. 4, 39. Article 4 of the PRC Population and Family 
Planning Law (PFPL) states that officials ``shall perform their 
administrative duties strictly in accordance with the law, and enforce 
the law in a civil manner, and they may not infringe upon the 
legitimate rights and interests of citizens.'' Article 39 states that 
an official is subject to criminal or administrative punishment if he 
or she ``infringes on a citizen's personal rights, property rights, or 
other legitimate rights and interests'' or ``abuses his or her power, 
neglects his or her duty, or engages in malpractices for personal 
gain'' in the implementation of population planning policies.
    \61\Yan Shuang, ``Fury Over Forced Abortion,'' Global Times, 14 
June 12. For one U.S. scholar's analysis of Chinese law with regard to 
forced abortions, see Stanley Lubman, ``The Law on Forced Abortion in 
China: Few Options for Victims,'' Wall Street Journal, China Real Time 
Report (blog), 4 July 12.
    \62\Human Rights Watch, ```Swept Away': Abuses Against Sex Workers 
in China,'' May 2013, 23-24.
    \63\National People's Congress Standing Committee, Decision of the 
National People's Congress Standing Committee on the Strict Prohibition 
of Prostitution and Whoring [Quanguo renmin daibiao dahui changwu 
weiyuanhui guanyu yanjin maiyin piaochang de jueding], issued and 
effective 4 September 09; PRC Public Security Administration Punishment 
Law [Zhonghua renmin gongheguo zhian guanli chufa fa], passed 28 August 
05, effective 1 March 06, arts. 66, 67, 74. See also Human Rights 
Watch, ```Swept Away': Abuses Against Sex Workers in China,'' 14 May 
13, 14.
    \64\Ministry of Supervision, Ministry of Human Resources and Social 
Security, Ministry of Public Security, Regulations on the Discipline of 
Policemen [Gongan jiguan renmin jingcha jilu tiaoling], issued 21 April 
10, effective 1 June 10, art. 11. See also Human Rights Watch, ```Swept 
Away': Abuses Against Sex Workers in China,'' 14 May 13, 23.
    \65\Human Rights in China, Asia Monitor Resource Centre, China 
Labour Bulletin, and Hong Kong Industrial Committee, ``Report on 
Implementation of CEDAW in the People's Republic of China,'' December 
1998, 6.
    Notes to Section II--Human Trafficking

    \1\UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entered into force 
25 December 03. This protocol is also commonly referred to as the 
Palermo Protocol because it was adopted in Palermo, Italy, in 2000.
    \2\Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2013--China,'' 19 
June 13, 128-129.
    \3\Ibid., 128. See also, for example, ``Wisconsin Restaurant Owner 
Charged With Human Trafficking,'' Associated Press, reprinted in 
Wisconsin Gazette, 18 April 13; ``Chinese Chef Slave Forced To Sleep in 
Cage in Amsterdam,'' Agence France-Presse, reprinted in South China 
Morning Post, 22 February 13; ``Trial Against Chinese Traffickers,'' 
Austrian Times, 15 January 13.
    \4\Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2013--China,'' 19 
June 13, 128. See also, e.g., Phillip Martin, ``Human Trafficking: 
Taken Into China,'' WGBH, 22 January 13; ``China Arrests Traffickers of 
N. Korean Women,'' Chosun Ilbo, 17 January 13; ``Myanmar's Trafficked 
Brides Fill China's Shortage of Women,'' TrustLaw, 4 December 12; Zhang 
Yan, ``Efforts Boosted Against Human Trafficking,'' China Daily, 22 
January 13.
    \5\UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons (UN TIP Protocol), Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted by General Assembly resolution 55/25 of 15 November 00, entered 
into force 25 December 03, art. 3. According to Article 3(a) of the UN 
TIP Protocol, ```Trafficking in persons' shall mean the recruitment, 
transportation, transfer, harbouring or receipt of persons, by means of 
the threat or use of force or other forms of coercion, of abduction, of 
fraud, of deception, of the abuse of power or of a position of 
vulnerability or of the giving or receiving of payments or benefits to 
achieve the consent of a person having control over another person, for 
the purpose of exploitation. Exploitation shall include, at a minimum, 
the exploitation of the prostitution of others or other forms of sexual 
exploitation, forced labour or services, slavery or practices similar 
to slavery, servitude or the removal of organs.''
    \6\See, e.g., China Labour Bulletin, ``Police Detain Five in 
Tianjin for Use of Forced Labour,'' 4 December 12; Rao Dehong, ``7 
Female Primary School Students From Liangshan Lured To Work in Dongguan 
Will Be Returned to School'' [7 ming liangshan xiaoxue nusheng bei you 
zhi dongguan wugong jiang bei jiehui fanxiao shangxue], Southern 
Metropolitan Daily, 6 December 12.
    \7\Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2012--China,'' 19 
June 12, 118. According to this report, ``The [Chinese] government did 
not release any statistics relating to the trafficking of forced labor 
victims or the trafficking of men.''
    \8\``China's Top Legislature Ends Bimonthly Session, Adopts Tort 
Law,'' Xinhua, 26 December 09.
    \9\Zhang Yan, ``Efforts Boosted Against Human Trafficking,'' China 
Daily, 22 January 13. According to this report, ``China has signed the 
Mekong River Sub-regional Cooperation Anti-trafficking Memo with 
Thailand, Myanmar, Vietnam and Cambodia, to establish annual high-level 
exchanges. The ministry has also set up eight border offices with 
neighboring countries.''
    \10\Ibid. According to this report, ``In November, the ministry and 
the International Organization for Migration, which is based in 
Switzerland, held a seminar in the Chinese capital attended by 60 
frontline police officers from 10 provinces and regions. . . . The team 
also arranges regular training with the International Center for 
Missing and Exploited Children, in the US, and the US central bureau of 
Interpol.''
    \11\The revised legislation broadens the scope of activity 
considered punishable for forced labor and strengthens punishments for 
``serious'' crimes of forced labor; however, the legislation still does 
not clearly define what constitutes forced labor. PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], enacted 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 244; ``Eighth Amendment to the Criminal Law of 
the People's Republic of China'' [Zhonghua renmin gongheguo xingfa 
xiuzheng'an (ba)], 25 February 11, item 38. See also CECC, 2011 Annual 
Report, 10 October 11, 129.
    \12\State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13.
    \13\State Council General Office, ``China's National Plan of Action 
on Combating Trafficking in Women and Children (2008-2012)'' [Zhongguo 
fandui guaimai funu ertong xingdong jihua (2008-2012 nian)], 13 
December 07.
    \14\See table titled ``Notable Changes in China's 2013-2020 Anti-
Trafficking Plan of Action'' for detailed information on these changes.
    \15\Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2013--China,'' 19 
June 13, 130. According to this report, ``the Chinese government 
claimed that out of the 1,400 shelters serving a wide variety of 
people, including victims of crime and the homeless, five were 
dedicated to care for victims of human trafficking; victims also had 
access to basic services at China's general-purpose shelter network. 
The government also reported that two additional shelters were 
established in [Yunnan province and Guangxi Zhuang Autonomous Region] 
to protect and assist foreign trafficking victims. However, the 
government did not report the number of victims assisted or the 
services provided to the victims.''
    \16\Ibid. According to this report, ``The government also reported 
that two additional shelters were established in [Yunnan province and 
Guangxi Zhuang Autonomous Region] to protect and assist foreign 
trafficking victims. However, the government did not report the number 
of victims assisted or the services provided to the victims.''
    \17\Ibid.
    \18\Ibid. According to this report, ``The Supreme People's Court 
holds both semi-annual and annual training courses on human trafficking 
and anti-trafficking in provinces in China where there is a higher 
prevalence of human trafficking. In July 2012, an anti-trafficking 
training course was held in Yunnan province attended by over 300 
judges.''
    \19\``Laos, China Map Out Measures To Tackle Human Trafficking,'' 
Asia News Net, 10 May 13.
    \20\``China, Myanmar Step Up Human Trafficking Crackdown,'' Xinhua, 
reprinted in China Daily, 15 May 13.
    \21\Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2013--China,'' 19 
June 13, 130. According to this report, ``The government's lack of 
transparency prevents an accurate assessment of its efforts; it has 
never provided any data on the number of victims it has identified or 
assisted.''
    \22\Ibid., 129.
    \23\Ibid.
    \24\Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2011--Definitions 
and Methodology,'' June 2011, 14. According to this report, ``Pursuant 
to the TVPA, governments of countries on Tier 3 may be subject to 
certain sanctions, whereby the U.S. government may withhold or withdraw 
nonhumanitarian, non-trade-related foreign assistance. In addition, 
countries on Tier 3 may not receive funding for government employees' 
participation in educational and cultural exchange programs. Consistent 
with the TVPA, governments subject to sanctions would also face U.S. 
opposition to assistance (except for humanitarian, trade-related, and 
certain development-related assistance) from international financial 
institutions such as the International Monetary Fund (IMF) and the 
World Bank.''
    \25\State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13.
    \26\Ibid., Sec. 1(1). The 2008-2012 Plan of Action did not contain 
this phrase. State Council General Office, ``China's National Plan of 
Action on Combating Trafficking in Women and Children (2008-2012)'' 
[Zhongguo fandui guaimai funu ertong xingdong jihua (2008-2012 nian)], 
13 December 07.
    \27\This effort is to be headed by the Ministry of Foreign Affairs, 
the Ministry of Public Security, and the Ministry of Commerce, in 
cooperation with the All-China Women's Federation. State Council 
General Office, ``China Action Plan To Combat Trafficking in Persons 
(2013-2020)'' [Zhongguo fandui guaimai renkou xingdong jihua (2013-2020 
nian)], 2 March 13, sec. 2.6.2(2).
    \28\This effort is to be headed by the Ministry of Foreign Affairs, 
in cooperation with the Supreme People's Court, the Supreme People's 
Procuratorate, the Ministry of Public Security, and the Ministry of 
Justice. State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13, sec. 2.6.2(6).
    \29\State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13, sec. 3(2).
    \30\This work is to be headed by the Ministry of Education and the 
Ministry of Justice. State Council General Office, ``China Action Plan 
To Combat Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai 
renkou xingdong jihua (2013-2020 nian)], 2 March 13, sec. 2.4.2(1).
    \31\Ibid.
    \32\Ibid.
    \33\In the 2008-2012 Plan of Action, there had been no mention of 
family planning. State Council General Office, ``China's National Plan 
of Action on Combating Trafficking in Women and Children (2008-2012)'' 
[Zhongguo fandui guaimai funu ertong xingdong jihua (2008-2012 nian)], 
13 December 07. In the 2013-2020 Action Plan, however, officials are 
urged to ``strengthen family planning services and pregnancy management 
in key areas of human trafficking criminal activity, reduce unexpected 
pregnancies and out-of-plan births, and immediately report related 
information.'' This work is to be headed by the National Population and 
Family Planning Committee, in cooperation with the Ministry of Public 
Security and the Ministry of Health. State Council General Office, 
``China Action Plan To Combat Trafficking in Persons (2013-2020)'' 
[Zhongguo fandui guaimai renkou xingdong jihua (2013-2020 nian)], 2 
March 13, sec. 2.1.2(2).
    \34\The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling the victim.'' PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], enacted 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240.
    \35\This work is to be headed by the Ministry of Civil Affairs. 
State Council General Office, ``China Action Plan To Combat Trafficking 
in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou xingdong jihua 
(2013-2020 nian)], 2 March 13, sec. 2.1.2(3).
    \36\State Council General Office, ``China Action Plan To Combat 
Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai renkou 
xingdong jihua (2013-2020 nian)], 2 March 13, sec. 2.1.2(3).
    \37\Ibid.
    \38\Ibid.
    \39\Ibid.
    \40\Ibid.
    \41\This work is to be headed by the Ministry of Education and the 
Ministry of Justice. State Council General Office, ``China Action Plan 
To Combat Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai 
renkou xingdong jihua (2013-2020 nian)], 2 March 13, sec. 2.5.2(1).
    \42\Ibid.
    \43\Victim protection efforts under the ``3P'' paradigm include 
rescue, rehabilitation, and reintegration. U.S. Department of State, 
``The 3Ps: Prevention, Protection, Prosecution,'' 27 June 11.
    \44\This work is to be headed by the Ministry of Education and the 
Ministry of Justice. State Council General Office, ``China Action Plan 
To Combat Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai 
renkou xingdong jihua (2013-2020 nian)], 2 March 13, sec. 2.2.2(1).
    \45\This work is to be headed by the Ministry of Civil Affairs and 
the Ministry of Public Security, in cooperation with the Ministry of 
Finance, the Ministry of Housing and Urban Construction, the Ministry 
of Health, the Ministry of Education, the Ministry of Human Resources 
and Social Security, the Communist Youth League, and the All-China 
Women's Federation. See State Council General Office, ``China Action 
Plan To Combat Trafficking in Persons (2013-2020)'' [Zhongguo fandui 
guaimai renkou xingdong jihua (2013-2020 nian)], 2 March 13, sec. 
2.1.2(2).
    \46\This work is to be headed by the Ministry of Education and the 
Ministry of Justice. State Council General Office, ``China Action Plan 
To Combat Trafficking in Persons (2013-2020)'' [Zhongguo fandui guaimai 
renkou xingdong jihua (2013-2020 nian)], 2 March 13, sec. 2.3.2(4).
    \47\State Council General Office, ``China's National Plan of Action 
on Combating Trafficking in Women and Children (2008-2012)'' [Zhongguo 
fandui guaimai funu ertong xingdong jihua (2008-2012 nian)], 13 
December 07, sec. 4.4.2(2).
    \48\Topics that need to be addressed in domestic legislation to 
bring it into compliance with the UN TIP Protocol include protection 
and rehabilitation of victims of trafficking (see UN TIP Protocol, 
Article 6.3), addition of non-physical forms of coercion into the legal 
definition of trafficking (see UN TIP Protocol, Article 3(a)), 
commercial sexual exploitation of minors (see UN TIP Protocol, Article 
3(c and d)), and trafficking of men (covered under the definition of 
``trafficking in persons'' in Article 3(a) of the UN TIP Protocol). See 
UN Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime, adopted by General 
Assembly resolution 55/25 of 15 November 00, entered into force 25 
December 03. See also Office To Monitor and Combat Trafficking in 
Persons, U.S. Department of State, ``Trafficking in Persons Report 
2009--China,'' 16 June 09, 106. ``China's definition of trafficking 
does not prohibit . . . offenses committed against male victims . . . 
.''
    \49\The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling the victim.'' PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], enacted 1 July 79, effective 1 
October 97, amended 14 March 97, 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240.
    \50\Ibid., arts. 240, 244, 358. For additional information on this 
topic, see Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2013--China,'' 19 
June 13, 130. According to this report, ``it remains unclear whether 
[articles 240, 244, and 358] have prohibited the use of common non-
physical forms of coercion, such as threats of financial or 
reputational harm, or whether acts such as recruiting, providing, or 
obtaining persons for compelled prostitution are covered.''
    \51\PRC Criminal Law [Zhonghua renmin gongheguo xingfa], enacted 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 240(4), 244, 
358(3). See also Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report 2013--
China,'' 19 June 13, 130. ``[I]t remains unclear whether, under Chinese 
law, children under the age of 18 in prostitution are considered 
victims of trafficking regardless of whether force is involved.''
    \52\The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling the victim.'' PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], enacted 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240.
    \53\Ibid., arts. 244, 358. See also Office To Monitor and Combat 
Trafficking in Persons, U.S. Department of State, ``Trafficking in 
Persons Report 2009--China,'' 16 June 09, 106. ``China's definition of 
trafficking does not prohibit non-physical forms of coercion, fraud, 
debt bondage, involuntary servitude, forced labor, or offenses 
committed against male victims, although some aspects of these crimes 
are addressed in other articles of China's criminal law.''
    \54\UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entered into force 25 December 03, art. 3(a). Article 3(a) of the 
UN TIP Protocol states: ```Trafficking in persons' shall mean the 
recruitment, transportation, transfer, harbouring or receipt of 
persons, by means of the threat or use of force or other forms of 
coercion, of abduction, of fraud, of deception, of the abuse of power 
or of a position of vulnerability or of the giving or receiving of 
payments or benefits to achieve the consent of a person having control 
over another person, for the purpose of exploitation. Exploitation 
shall include, at a minimum, the exploitation of the prostitution of 
others or other forms of sexual exploitation, forced labour or 
services, slavery or practices similar to slavery, servitude or the 
removal of organs.''
    \55\The PRC Criminal Law defines trafficking as ``abducting, 
kidnapping, buying, trafficking in, fetching, sending, or transferring 
a woman or child, for the purpose of selling the victim.'' PRC Criminal 
Law [Zhonghua renmin gongheguo xingfa], enacted 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 240.
    \56\``China Busts Trafficking Ring, 89 Children Rescued,'' Agence 
France-Presse, reprinted in Yahoo!, 24 December 12; ``Trial Against 
Chinese Traffickers,'' Austrian Times, 15 January 13; ``China Arrests 
Traffickers of N. Korean Women,'' Chosun Ilbo, 17 January 13.
    \57\Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2013--China,'' 19 
June 13, 130. According to this report, ``While trafficking crimes 
could perhaps be prosecuted under general statutes related to fraud and 
deprivation of liberty, authorities did not report using these specific 
provisions to prosecute and punish trafficking offenders. The 
government reported law enforcement statistics that included 
incarceration of sex and labor trafficking offenders involving women 
and children victims. The government reported that police cracked down 
on 10,000 alleged human trafficking organized crime groups and placed 
over 80,000 alleged suspects in criminal detention. However, due to the 
government's continued conflation of human smuggling, child abduction, 
and fraudulent adoptions with trafficking offenses and its lack of 
judicial due process and transparency, it is difficult to ascertain how 
many trafficking cases the government actually investigated and 
prosecuted during the reporting period. It therefore was difficult to 
accurately assess Chinese anti-trafficking law enforcement efforts, 
including the government's statistics on trafficking related 
investigations, prosecutions, and convictions.''
    \58\``Left Behind Children Become High Risk Group for Trafficking, 
Expert Suggests `Criminal Punishment for Child Buying''' [Liushou 
ertong cheng bei guai gaowei qunti zhuanjia jianyi ``maitong ruxing''], 
Southern Daily, reprinted in People's Daily, 27 May 13; ``63 Trafficked 
Children Rescued in China,'' Xinhua, reprinted in China Internet 
Information Center, 10 March 13; ``89 Children Rescued in Chinese 
Trafficking Ring Bust,'' Xinhua, 24 December 12.
    \59\The end result of exploitation is one of the required elements 
of a trafficking case under Article 3 of the UN TIP Protocol. UN 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime, adopted by General 
Assembly resolution 55/25 of 15 November 00, entered into force 25 
December 03, art. 3(c).
    \60\CECC, 2009 Annual Report, 10 October 09, 175. For more 
information on distinctions between ``human smuggling'' and ``human 
trafficking,'' see U.S. Immigration and Customs Enforcement, ``Fact 
Sheet: Human Smuggling and Trafficking,'' 16 January 13.
    \61\United Nations Office on Drugs and Crime, ``Trafficking in 
Persons and Migrant Smuggling,'' last visited 2 July 13.
    \62\Ibid.
    \63\Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report 2013--China,'' 19 
June 13, 130.
    \64\Ibid., 130-31. According to this report, ``Chinese authorities 
continued to forcibly repatriate North Korean refugees. The government 
continued to treat North Koreans found in China as illegal economic 
migrants, despite credible independent reporting that many North Korean 
female refugees in China are trafficking victims. The government 
detained and deported such refugees to North Korea, where they may face 
severe punishment, even death, including in North Korean forced labor 
camps. The Chinese government did not provide North Korean trafficking 
victims with legal alternatives to repatriation. Chinese authorities 
sometimes prosecuted citizens who assisted North Korean refugees and 
trafficking victims, as well as those who facilitated illegal border 
crossings.''
    \65\Xinhua reported in March 2013 that China's sex ratio at birth 
in 2012 was 117.7 [as provided in source] males for every 100 females, 
down from 117.78 in 2011, 117.94 in 2010, and 119.45 in 2009. See 
``China's Sex Ratio at Birth Declines 4 Years in a Row,'' Xinhua, 5 
March 13. According to a March 2012 China Daily article, ``it is 
estimated that by 2020, China will have 24 million more men than women 
of marriageable age.'' Shan Juan, ``Gender Imbalance Set To Ease,'' 
China Daily, 30 March 12. A previous study issued by the Chinese 
Academy of Social Sciences reported that, by 2020, the number of 
Chinese males of marriageable age may exceed the number of Chinese 
females of marriageable age by 30 to 40 million. Chinese Academy of 
Social Sciences, ``Difficulty Finding a Wife in 10 Years: 1 Out of 
Every 5 Men To Be a Bare Branch'' [10 nian zhihou quqi nan, 5 ge nanren 
zhong jiuyou 1 ge guanggun], 27 January 10.
    \66\``China's Sex Ratio at Birth Declines 4 Years in a Row,'' 
Xinhua, 5 March 13. See also Mikhail Lipatov et al., ``Economics, 
Cultural Transmission, and the Dynamics of the Sex Ratio at Birth in 
China,'' Proceedings of the National Academy of Sciences of the United 
States of America, Vol. 105, No. 49 (December 2008), 19171. According 
to this study, ``The root of the [sex ratio] problem lies in a 2,500-
year-old culture of son preference.'' Wei Xing Zhu et al., ``China's 
Excess Males, Sex Selective Abortion and One Child Policy: Analysis of 
Data From 2005 National Intercensus Survey,'' British Medical Journal, 
9 April 09, 4-5.
    \67\See, e.g., Office To Monitor and Combat Trafficking in Persons, 
U.S. Department of State, ``Trafficking in Persons Report 2013--
China,'' 19 June 13, 129. According to the report, ``The Chinese 
government's birth limitation policy and a cultural preference for 
sons, create a skewed sex ratio of 118 boys to 100 girls in China, 
which served as a key source of demand for the trafficking of foreign 
women as brides for Chinese men and for forced prostitution.'' See also 
``The Burmese Brides Trafficked Into China To Marry Total Strangers,'' 
Metro UK, 11 February 13. According to this report, ```Because of the 
one child policy, Chinese people prefer to have a male, rather than a 
female. There's a big gap. That's why rural Chinese men are trying to 
get a bride from other countries, like Burma, Vietnam or Cambodia. 
Burma is one of the main ones.' Police Colonel Nyunt Hlaing, from 
Burma's Transnational Crime Department's anti-trafficking unit, said: 
`China's one-child policy is the main cause of the problem.'''
    \68\Chinese Academy of Social Sciences, ``Difficulty Finding a Wife 
in 10 Years: 1 Out of Every 5 Men To Be a Bare Branch'' [10 nian zhihou 
quqi nan, 5 ge nanren zhong jiuyou 1 ge guanggun], 27 January 10.
    \69\``Chinese Women Taught To Avoid People-Traffickers,'' Xinhua, 
reprinted in China Daily, 8 March 10.
    \70\``The Burmese Brides Trafficked Into China To Marry Total 
Strangers,'' Metro UK, 11 February 13. According to one person cited in 
this report, ``Women become brokers because they can approach the young 
women and cultivate their trust . . . people are desperate to get out 
of poverty.'' See also Kathleen E. McLaughlin, ``Borderland: Sex 
Trafficking on the China-Myanmar Border,'' Global Post, 26 October 10; 
``Women Tricked, Trafficked Into China,'' Radio Free Asia, 4 March 11; 
Zhang Yan, ``More Women Kidnapped for Brides,'' China Daily, 3 December 
11. According to the China Daily report, ``[the director of the 
Ministry of Public Security's anti-trafficking office] said the lack of 
natural barriers, such as rivers or mountains in the border areas 
between China and Southeast Asian countries, in addition to poverty in 
some regions in these countries, contribute to the rising trafficking 
of foreign women.''
    \71\Echo Hui, ``Websites Sell Burmese Brides to Chinese 
Bachelors,'' Irrawaddy, 12 December 12.
    \72\Zhang Yan, ``Efforts Boosted Against Human Trafficking,'' China 
Daily, 22 January 13.
    \73\Ibid.
    \74\Rao Dehong, ``7 Female Primary School Students From Liangshan 
Lured To Work in Dongguan Will Be Returned to School'' [7 ming 
liangshan xiaoxue nusheng bei you zhi dongguan wugong jiang bei jiehui 
fanxiao shangxue], Southern Metropolitan Daily, 6 December 12; Michelle 
FlorCruz, ``Weibo: How China's Twitter Has the Power To Save Children, 
and Why That Worries the Government,'' International Business Times, 6 
December 12.
    \75\Phillip Martin, ``Human Trafficking: Taken Into China,'' WGBH, 
22 January 13.
    \76\``Myanmar's Trafficked Brides Fill China's Shortage of Women,'' 
TrustLaw, 4 December 12. For additional stories of Burmese women 
trafficked into China for forced marriage, see Tyler Chapman, 
``Speaking Out To Combat Trafficking,'' Radio Free Asia, 30 November 
12; Echo Hui, ``Websites Sell Burmese Brides to Chinese Bachelors,'' 
Irrawaddy, 12 December 12; ``The Burmese Brides Trafficked Into China 
To Marry Total Strangers,'' Metro UK, 11 February 13.
    \77\``Jilin Yanji Criminal Gang Trafficking 20 Foreign Women 
Caught, Culprits Had Been Trafficked'' [Jilin yanji tuanhuo guaimai 20 
ming waiji funu bei zhua zhufan ceng bei guai], NetEase, 16 January 13.
    \78\``China Arrests Traffickers of N. Korean Women,'' Chosun Ilbo, 
17 January 13.
    Notes to Section II--North Korean Refugees in China

    \1\Patrick Goodenough, ``China Spurns U.N. Criticism After Sending 
N. Korean Refugees Back to Uncertain Fate,'' CNS News, 4 June 13; 
``North Korean Workers in China Face Stepped-Up Restrictions,'' Radio 
Free Asia, 15 March 13.
    \2\Democratic People's Republic of Korea Ministry of State 
Security, People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Area, signed 12 August 86, art. 
4, reprinted in North Korea Freedom Coalition. The protocol commits 
each side to treat as illegal those border crossers who do not have 
proper visa certificates, except in cases of ``calamity or unavoidable 
factors.'' According to a report commissioned by the UNHCR, the 
validity of ``this document cannot be authenticated, but it does not 
seem implausible.'' James Seymour, ``China: Background Paper on the 
Situation of North Koreans in China,'' commissioned by UNHCR, 
Protection Information Section, January 2005, 13.
    \3\UN Convention relating to the Status of Refugees (1951 
Convention), 28 July 51 by the UN Conference of Plenipotentiaries on 
the Status of Refugees and Stateless Persons convened under General 
Assembly resolution 429(V) of 14 December 50, arts. 1, 33. Article 1 of 
the 1951 Convention defines a refugee as someone who, ``owing to well-
founded fear of being persecuted for reasons of race, religion, 
nationality, membership of a particular social group or political 
opinion, is outside the country of his nationality and is unable or, 
owing to such fear, is unwilling to avail himself of the protection of 
that country . . . .'' Article 33 of the 1951 Convention mandates that 
``[n]o Contracting State shall expel or return (`refouler') a refugee 
in any manner whatsoever to the frontiers of territories where his life 
or freedom would be threatened on account of his race, religion, 
nationality, membership of a particular social group or political 
opinion.'' UN Protocol Relating to the Status of Refugees (1967 
Protocol), adopted by UN General Assembly resolution A/RES/2198 of 16 
December 66, entry into force 4 October 67. The Chinese government 
acceded to the 1951 Convention and the 1967 Protocol in September 1982, 
but has not adopted legislation to implement the treaties.
    \4\Andrei Lankov, ``Kim Cracks Open Refugee Issue,'' Asia Times, 5 
January 13; Hazel Smith, Woodrow Wilson International Center for 
Scholars, ``Explaining North Korean Migration to China,'' November 
2012, 3; Roberta Cohen, ``North Koreans in China in Need of 
International Protection,'' Forced Migration Review, reprinted in 
Brookings Institution, December 2012; ``Park Geun-hye Will Discuss 
North Korean Refugee Issue With Xi Jinping in Visit to China'' [Piao 
jinhui fanghua jiang yu xi jinping tan tuobeizhe wenti], Duowei, 19 
June 13.
    \5\Kwanwoo Jun, ``North Korean Defector Arrivals Plunge in South in 
2012,'' Wall Street Journal, 2 January 13; Zhao Jiayue, ``China North 
Korean Border: Buying `North Korean Refugees' To Be Wives'' [Zhong chao 
bianjing: mai ``tuobeizhe'' dang xifu], Southern People Weekly, 
reprinted in Ta Kung Pao, 14 March 13; Matthew Pennington, ``US To 
Press China Over Repatriation of NKoreans,'' Associated Press, 22 April 
13; ``China Arrests Traffickers of N.Korean Women,'' Chosun Ilbo, 17 
January 13. For reports on past campaigns to crack down on North Korean 
refugees in China, see, e.g., CECC, 2012 Annual Report, 10 October 12, 
108; CECC, 2011 Annual Report, 10 October 11, 131; CECC, 2010 Annual 
Report, 10 October 10, 140-41.
    \6\Life Fund For North Korean Refugees, ``China Promises Bounty on 
All NK Refugees Turned In,'' 31 April 13; Zhao Jiayue, ``China North 
Korean Border: Buying `North Korean Refugees' To Be Wives'' [Zhong chao 
bianjing: mai ``tuobeizhe'' dang xifu], Southern People Weekly, 
reprinted in Ta Kung Pao, 14 March 13.
    \7\Life Fund For North Korean Refugees, ``China Promises Bounty on 
All NK Refugees Turned In,'' 31 April 13.
    \8\Zhao Jiayue, ``China North Korean Border: Buying `North Korean 
Refugees' To Be Wives'' [Zhong chao bianjing: mai ``tuobeizhe'' dang 
xifu], Southern People Weekly, reprinted in Ta Kung Pao, 14 March 13.
    \9\```Ice' Use Spreads, Worsening North Korea's Drug Addiction 
Problem,'' Radio Free Asia, 19 September 13; ``Crystal Meth and 
Tesco,'' Economist, 16 February 13; ``NK's Massive Drug Trafficking 
Angers China: Source,'' Dong-A Ilbo, 5 July 11; ``Revealed: How is 
North Korea Circulating Methamphetamines into the Northeast? China is 
Furious'' [Jiemi: chaoxian ruhe xiang dongbei toufang bingdu? Zhongguo 
fanu le], Phoenix Weekly, reprinted in Wenxuecity, 15 October 11; 
``Jilin Yanji Criminal Gang Trafficking 20 Foreign Women Caught, 
Culprits Had Been Trafficked'' [Jilin yanji tuanhuo guaimai 20 ming 
waiji funu bei zhua zhu fan ceng bei guai], New Culture News, reprinted 
in NetEase, 16 January 13.
    \10\Cho Jong Ik, ``Defection a Major Concern for the Kims,'' Daily 
NK, 10 December 12; Lee Sang Yong, ``NSA Tracking China Permit 
Violators,'' Daily NK, 6 November 12. For reports on previous 
collaboration between Chinese and North Korean security officials, see, 
e.g., CECC, 2012 Annual Report, 10 October 12, 108; CECC, 2011 Annual 
Report, 10 October 11, 131.
    \11\Cho Jong Ik, ``Defection a Major Concern for the Kims,'' Daily 
NK, 10 December 12; Lee Sang Yong, ``NSA Tracking China Permit 
Violators,'' Daily NK, 6 November 12.
    \12\Lee Sang Yong, ``NSA Tracking China Permit Violators,'' Daily 
NK, 6 November 12.
    \13\Choe Sang-Hun, ``Fleeing North Korea Is Becoming Harder,'' New 
York Times, 4 January 13.
    \14\Kwanwoo Jun, ``North Korean Defector Arrivals Plunge in South 
in 2012,'' Wall Street Journal, 2 January 13.
    \15\Ibid.; Courtland Robinson, ``The Curious Case of North Korea,'' 
Forced Migration Review, Edition 43, May 2013, 53-54.
    \16\``Defector Numbers Show Slight Rise,'' Daily NK, 22 July 13; 
``N. Korean Defectors in S. Korea on the Rise,'' Yonhap News Agency, 21 
July 13. According to the Ministry of Unification, a total of 717 
refugees entered South Korea in the first half of 2013, a slight 
increase from 710 in the first half of 2012. However, only 320 refugees 
entered in the first quarter of 2013, marking a 10 percent decline from 
2012. See ``Number of N. Korean Defectors Falls 10%,'' Yonhap News 
Agency, reprinted in Korea Herald, 11 April 13.
    \17\The Office of the High Commissioner for Human Rights, ``Report 
of the Special Rapporteur on the Situation of Human Rights in the 
Democratic People's Republic of Korea, Marzuki Darsuman,'' 1 February 
13, Annex I, para. 21, 16.
    \18\Ibid., Annex I, para. 39, 19; Stephen Haggard and Marcus 
Noland, ``Repression and Punishment in North Korea: Survey Evidence of 
Prison Camp Experiences,'' Politics, Governance, and Security Series, 
No. 20, East-West Center, 5 October 09, 11-12.
    \19\The Office of the High Commissioner for Human Rights, ``Report 
of the Special Rapporteur on the Situation of Human Rights in the 
Democratic People's Republic of Korea, Marzuki Darsuman,'' 1 February 
13, Annex I, para. 39, 19; Human Rights Watch, ``North Korea: Denial of 
Rights Forces Back Refugees,'' 30 May 13.
    \20\Human Rights Watch, ``North Korea: Denial of Rights Forces Back 
Refugees,'' 30 May 13; David Hawk, The Committee for Human Rights in 
North Korea, ``The Hidden Gulag,'' 2012, 120-21; Esther Felden, 
``Tortured, Beaten, Starved: Life in a Korean Gulag,'' Deutsche Welle, 
18 June 13.
    \21\Human Rights Watch, ``North Korea: Denial of Rights Forces Back 
Refugees,'' 30 May 13; David Hawk, The Committee for Human Rights in 
North Korea, ``The Hidden Gulag,'' 2012, 123-31.
    \22\David Hawk, The Committee for Human Rights in North Korea, 
``The Hidden Gulag,'' 2012, 119-21; ``Two North Korean Christians 
Killed for Their Faith,'' Open Door USA, 18 January 13.
    \23\David Hawk, ``North Korea's Hidden Gulag: Interpreting Reports 
of Changes in the Prison Camps,'' The Committee for Human Rights in 
North Korea, 27 August 13, 33; Chico Harlan, ``Population of North 
Korea's Gulag Has Shrunk, Experts Say,'' Washington Post, 12 September 
13. Some refugee activists estimate would-be refugees account for up to 
5 percent of the total North Korean prison population, with one North 
Korean human rights researcher pointing to a ``five-fold rise'' in the 
number of detained refugees over the last 10 years. Chris Brummitt, 
```Tightening the Noose': Crackdown on Defectors Fills North Korean 
Prison Camps,'' Associated Press, reprinted in NBC News, 12 June 13.
    \24\Under the 1951 Convention and its 1967 Protocol, the Chinese 
government is obligated to refrain from repatriating refugees ``sur 
place.'' UN Office of the High Commissioner for Human Rights, 
``Handbook on Procedures and Criteria for Determining Refugee Status 
under the 1951 Convention and the 1967 Protocol relating to the Status 
of Refugees,'' January 1992, Section B(4)(b), paras. 94-105.
    \25\UN Convention Against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by the UN General Assembly 
10 December 84, entry into force 26 June 87, art. 3. Article 3 states 
that ``No State Party shall expel, return (`refouler') or extradite a 
person to another State where there are substantial grounds for 
believing that he would be in danger of being subjected to torture.'' 
The Chinese government ratified the Convention on 4 October 88.
    \26\Courtland Robinson and Keumsoon Lee, ``Population Estimation of 
North Korean Refugees and Migrants and Children Born to North Korean 
Women in Northeast China: Results from a 2012 Study in Heilongjiang 
Province,'' Korea Institute for National Unification (KINU), 12 March 
13, 5, 21, 24. Robinson and Lee estimate between 80 and 90 percent of 
the North Korean-born population in northeast China are women. Brian 
Marten, ``Perilous Passage: Human Trafficking and the `Underground 
Railroad,''' NK News, 11 February 13; Journalist and writer Melanie 
Kirkpatrick estimates 75 percent of North Korean refugees in China are 
women. Kim So Yeol, ``An Interview with Christian Activist Tim Peters, 
Founder of Helping Hands,'' Network for North Korean Democracy and 
Human Rights, 27 February 13. North Korean refugee activist Tim Peters 
estimates between 70 and 80 percent of North Korean refugees in China 
are women. For cases of trafficking and abuse of female refugees, see 
Kim Kwang Jin, ``2 Murdered in Human Trafficking Incident,'' Daily NK, 
3 January 13; Zhao Jiayue, ``China North Korean Border: Buying `North 
Korean Refugees' To Be Wives'' [Zhong chao bianjing: mai ``tuobeizhe'' 
dang xifu], Southern People Weekly, reprinted in Ta Kung Pao, 14 March 
13.
    \27\Melanie Kirkpatrick, Escape From North Korea: The Untold Story 
of Asia's Underground Railroad (New York: Encounter Books, 2012), 83; 
``China Arrests Traffickers of N.Korean Women,'' Chosun Ilbo, 17 
January 13.
    \28\Melanie Kirkpatrick, Escape From North Korea: The Untold Story 
of Asia's Underground Railroad (New York: Encounter Books, 2012), 83; 
Brian Marten, ``Perilous Passage: Human Trafficking and the 
`Underground Railroad,''' NK News, 11 February 13; Markus Bell, 
``Empire and Trafficking in Northeast Asia,'' Foreign Policy in Focus, 
reprinted in Asia Times, 5 June 13.
    \29\Catherine Porter, ``A North Korean Refugee's Tale of Tragedy 
and Bravery,'' Toronto Star, 23 May 13; ``China Arrests Traffickers of 
N.Korean Women,'' Chosun Ilbo, 17 January 13; Brian Marten, ``Perilous 
Passage: Human Trafficking and the `Underground Railroad,''' NK News, 
11 February 13.
    \30\UN Convention relating to the Status of Refugees (1951 
Convention), 28 July 51 by the UN Conference of Plenipotentiaries on 
the Status of Refugees and Stateless Persons convened under General 
Assembly resolution 429(V) of 14 December 50, arts. 1, 31-33; UN 
Protocol Relating to the Status of Refugees (1967 Protocol), adopted by 
UN General Assembly resolution A/RES/2198 of 16 December 66, entry into 
force 4 October 67.
    \31\Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children (UN TIP Protocol), supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted and opened for signature, ratification, and accession by 
General Assembly resolution A/RES/55/25 of 15 November 2000, entry into 
force 29 September 03, art. 7.
    \32\Courtland Robinson and Keumsoon Lee, ``Population Estimation of 
North Korean Refugees and Migrants and Children Born to North Korean 
Women in Northeast China: Results From a 2012 Study in Heilongjiang 
Province,'' Korea Institute for National Unification (KINU), 12 March 
13, 6.
    \33\Ibid.; Life Fund for North Korean Refugees, ``Stateless Foster 
Children in China,'' 1 June 13.
    \34\Courtland Robinson and Keumsoon Lee, ``Population Estimation of 
North Korean Refugees and Migrants and Children Born to North Korean 
Women in Northeast China: Results From a 2012 Study in Heilongjiang 
Province,'' Korea Institute for National Unification (KINU), 12 March 
13, 29-30.
    \35\Ibid., 27; Christine Hong, ``The Fiction of the North Korean 
Refugee Orphan,'' US-Korea Institute at SAIS, 38 North (blog), 19 
September 12; Cho Jung-hyun et al., Korea Institute for National 
Unification (KINU), ``White Paper on Human Rights in North Korea--
2013,'' July 2013, 468.
    \36\Courtland Robinson and Keumsoon Lee, ``Population Estimation of 
North Korean Refugees and Migrants and Children Born to North Korean 
Women in Northeast China: Results From a 2012 Study in Heilongjiang 
Province,'' Korea Institute for National Unification (KINU), 12 March 
13, 6; Life Fund for North Korean Refugees, ``Stateless Foster Children 
in China,'' 1 June 13.
    \37\UN Convention on the Rights of the Child, adopted by the UN 
General Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, art. 9. Article 9 calls on state parties to ``ensure that 
a child shall not be separated from his or her parents against their 
will.'' The Chinese government ratified the Convention on the Rights of 
the Child on March 2, 1992.
    Notes to Section II--Public Health

    \1\Keith Bradsher, ``China's Actions in Flu Cases Draw Critics,'' 
New York Times, 10 April 13; Yanzhong Huang, ``The Rise of a Deadly New 
Strain of Bird Flu: Has China Handled This Properly So Far?'' Council 
on Foreign Relations, Asia Unbound (blog), 1 April 13.
    \2\Keith Bradsher, ``China's Actions in Flu Cases Draw Critics,'' 
New York Times, 10 April 13; Amy Li, ``Shanghai Stifled Flu `Rumours' 
in Early Days, Says Report,'' South China Morning Post, 10 April 13.
    \3\Lisa Schnirring, Center for Infectious Disease Research & 
Policy, University of Minnesota, ``Global Health Groups Weigh in on 
H7N9 Threat,'' 20 May 13. World Health Organization (WHO) Director-
General Margaret Chan reportedly ``praised China's quick response and 
its transparency in sharing clinical investigation and virus 
information with the global health community.'' Natasha Khan and Daryl 
Loo, ``Deadly Lessons From SARS Spur Global Reaction to Bird Flu,'' 
Bloomberg, 9 April 13; Food and Drug Safety, Public Health and the 
Environment, Hearing of the Congressional-Executive Commission on 
China, 22 May 13, Testimony of Rear Admiral Anne Schuchat, M.D., 
Director, National Center for Immunization & Respiratory Diseases, 
Centers for Disease Control and Prevention, U.S. Department of Health 
and Human Services, 3-4, 6-7.
    \4\Natasha Khan and Daryl Loo, ``Deadly Lessons From SARS Spur 
Global Reaction to Bird Flu,'' Bloomberg, 9 April 13; Food and Drug 
Safety, Public Health and the Environment, Hearing of the 
Congressional-Executive Commission on China, 22 May 13, Testimony of 
Rear Admiral Anne Schuchat, M.D., Director, National Center for 
Immunization & Respiratory Diseases, Centers for Disease Control and 
Prevention, U.S. Department of Health and Human Services, 4, 6.
    \5\Gonghuan Yang et al., ``Rapid Health Transition in China 1990-
2010: Findings from the Global Burden of Disease Study,'' Lancet, Vol. 
381, Issue No. 9882 (2013), 1987-2015.
    \6\Wei Mingyan, ```Economic Development Can't Come at the Cost of 
the People's Health''' [``Jingji fazhan buneng yi minzhong jiankang wei 
daijia''], Beijing News, 29 June 13. According to the Beijing News, 
findings from an eight-year research study commissioned by the State 
Council found higher than average cancer rates along the Huai River.
    \7\Edward Wong, ``Pollution Leads to Drop in Life Span in Northern 
China, Study Finds,'' New York Times, 8 July 13. Wong cites to a study, 
``Evidence on the Impact of Sustained Exposure to Air Pollution on Life 
Expectancy From China's Huai River Policy,'' published in the U.S. 
Science journal, Proceedings of the National Academy of Sciences, based 
on data analysis of Chinese sources from 1981 through 2001. See Yuyu 
Chen et al., ``Evidence on the Impact of Sustained Exposure to Air 
Pollution on Life Expectancy From China's Huai River Policy,'' 
Proceedings of the National Academy of Sciences, Vol. 110, No. 32 (8 
July 13), 12936-12941.
    \8\Zhao Yinan, ``Food, Medicine Safety Cases on Rise,'' China 
Daily, 1 August 12; Pew Global Attitudes Project, Pew Research Center, 
``Growing Concerns in China About Inequality, Corruption,'' 16 October 
12. According to the 2012 Pew research report, ``[f]our years ago, just 
12% rated food safety a very big problem; today, it's 41%. The 
percentage expressing very serious concerns about the safety of 
medicine has more than tripled, from 9% in 2008 to 28% today.''
    \9\E Fan, ``Food Products Remain Greatest Source of Worry, 
Improving Social Security Is Obvious'' [Shipin reng shi zuida bu'an 
shehui zhi'an gaishan mingxian], Xiaokang Magazine, Vol. 6, 3 June 13. 
Based on Xiaokang Magazine's research, food safety and medical care are 
first and second place among the top five concerns among the Chinese 
public. See, e.g., ``Survey: Only 10% of Chinese Patients Trust 
Doctors'' [Diaocha: zhongguo jin 10% de huanzhe xinren yisheng], Radio 
Free Asia, 18 March 13. According to a survey in Shandong raised by 
members of the Chinese People's Political Consultative Conference, 
credibility in the health system includes a low level of trust in 
medical doctors and a high rate of disputes over medical treatment.
    \10\``China's Shaken Trust,'' Wall Street Journal, 23 April 13; 
Jonathan Kaiman, ``Inside China's `Cancer Villages,''' Guardian, 4 June 
13; ``Towards Better Health for People in China,'' Lancet, Vol. 381, 
No. 9882 (8 June 13), 1959.
    \11\According to Guardian reporter Jonathan Kaiman, following the 
Ministry of Environmental Protection's February 2013 mention of 
``cancer villages'' in its most recent five-year plan, political 
leaders ``renounced the report's wording'' and urged media censorship 
at local levels. See Jonathan Kaiman, ``Inside China's `Cancer 
Villages,''' Guardian, 4 June 13.
    \12\Yanzhong Huang, ``Fatal Misperception: How Unsafe Is Chinese 
Food?'' Council on Foreign Relations, Asia Unbound (blog), 10 July 13; 
Li Jing, ``People's Daily Says Chemical Paraxylene Is No More Harmful 
Than Coffee,'' South China Morning Post, 25 June 13.
    \13\``China To Merge Health Ministry, Family Planning Commission,'' 
Xinhua, 10 March 13.
    \14\Zan Xin, ``90 CPPCC Members Jointly Propose Retaining Ministry 
of Health's Original Name'' [90 ming zhengxie weiyuan lianming tiqing 
baoliu weishengbu yuanming], Caixin, 12 March 13.
    \15\Lin Yunshi, ``The Name `National Health and Family Planning 
Commission' Raises Debate'' [``Weisheng he jihua shengyu weiyuanhui'' 
mingcheng yin zhengyi], Caixin, 12 March 13.
    \16\Chen Qiulin, ``Using Institutional Reform To Promote Reform of 
Family Planning and Health Care'' [Yi jigou gaige tuidong jisheng, 
yiliao gaige], Financial Times, 3 April 13.
    \17\PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13; Zhang Youyi, 
``Mental Health Law: A Step Forward,'' Caijing, 6 November 13. For 
further information on the 27 years of preparation and debates on the 
development of the Mental Health Law, see CECC, 2012 Annual Report, 10 
October 12, 112-13; CECC, 2011 Annual Report, 10 October 11, 136-38.
    \18\Michael R. Phillips, ``Can China's New Mental Health Law 
Substantially Reduce the Burden of Illness Attributable to Mental 
Disorders?'' Lancet, Vol. 381, No. 9882 (8 June 13), 1964-1966.
    \19\Li Qiumeng, ``Civil Society Report Says Mental Health Law Is 
Insufficient: Guardians' Authority Too Large'' [Minjian baogao cheng 
jingshen weishengfa cun buzu: jianhuren quanli guoda], Jinghua Daily, 
reprinted in Global Times, 13 May 13. See also Michael R. Phillips, 
Hanhui Chen, et al., ``China's New Mental Health Law: Reframing 
Involuntary Treatment,'' American Journal of Psychiatry, Vol. 170, No. 
6, 1 June 13, 588-591. According to Phillips et al., ``With the 
exception of forensic cases (which are regulated according to China's 
revised Criminal Procedures Law), the process of involuntary admission 
is not directly supervised by a court, but patients and family members 
are empowered to take the case to court if they believe the required 
procedures have been mismanaged. China's approach may be contrasted 
with that of countries that provide direct judicial review of all 
involuntary admissions and free legal representation.'' For a 
comparative analysis on rights protections for the mentally ill in the 
revised Criminal Procedure Law and the new Mental Health Law, see 
Jeremy Daum, ``Still Crazy After All These Years,'' China Law 
Translate, 20 May 13.
    \20\Dui Hua Foundation, ``Involuntary Commitment: Ankang Regs vs 
Mental Health Laws,'' Dui Hua Reference Materials, 29 November 12. See 
also, Chinese Human Rights Defenders, ```The Darkest Corners': Abuses 
of Involuntary Psychiatric Commitment in China,'' 6 August 12.
    \21\Chinese Human Rights Defenders, ``China Human Rights Briefing, 
December 6-13, 2012,'' 14 December 12.
    \22\State Council Information Office, ``National Human Rights 
Action Plan of China (2012-2015),'' 11 June 12, section III, part 5. In 
addition to the new Mental Health Law, passed on October 24, 2012, the 
State Council passed on June 28, 2012, new Regulations on the 
Construction of a Barrier-Free Environment. See PRC People's Republic 
of China Mental Health Law (Full Text) [Zhonghua renmin gongheguo 
jingshen weisheng fa (quanwen)], passed 26 October 12, effective 1 May 
13, Xinhua, 26 October 12; State Council, Regulations on the 
Construction of a Barrier-Free Environment [Wu zhang'ai huanjing 
jianshe tiaoli], passed 13 June 12, effective 1 August 12.
    \23\State Council Legislative Affairs Commission, Circular on the 
``Regulations on the Education of Persons With Disabilities (Amended 
Draft) (Manuscript) Public Solicitation of Opinions'' [Canjiren jiaoyu 
tiaoli (xiuding cao'an) (song shen gao) gongkai zhengqiu yijian de 
tongzhi], 27 February 13.
    \24\Equity and Justice Initiative, ``Human Rights Watch Sends 
Opinion to China State Council Legislative Affairs Commission Office 
Regarding `Regulations on the Education of Persons with Disabilities' 
Draft Revision'' [Renquan guancha zuzhi zhi zhongguo guowuyuan fazhi 
bangongshi guanyu ``canjiren jiaoyu tiaoli'' xiuding cao'an de yijian], 
31 March 13; Human Rights Watch, ``China: Submission by Human Rights 
Watch to the Legislative Affairs Office of the State Council,'' 18 May 
13 (the submission is dated 25 March 13); Sweet Road, ``The Sweet Road: 
Recommendations for the Draft Revision of the `Regulations on Education 
for Persons With Disabilities' to the State Council Legislative Affairs 
Commission'' [Ganzhilu: wei ``canjiren jiaoyu tiaoli (xiugai cao'an)'' 
jianyan zhixin guowuyuan fazhiban], reprinted in Justice for All, 24 
March 13; One Foundation, ``Public Participation in Legislation on 
Regulations on Education for Persons With Disabilities, Airing the 
Voices of Persons With Disabilities'' [Minjian canyu canji ren jiaoyu 
tiaoli lifa, fachu canzhang renshi de shengyin], 20 March 13. According 
to the One Foundation article, the One Foundation, One Plus One (Yi Jia 
Yi), and the Beijing Children's Legal Aid and Research Center, together 
with disability rights advocates, parents of disability rights 
advocates, and public interest lawyers, jointly submitted 
recommendations to the Legislative Affairs Commission on the draft 
Regulations.
    \25\Human Rights Watch, ``China: Submission by Human Rights Watch 
to the Legislative Affairs Office of the State Council,'' 18 May 13 
(the submission is dated 25 March 13).
    \26\Ibid. For examples of the definition of reasonable 
accommodation in several countries' disability legislation, see UN 
General Assembly, Ad Hoc Committee on a Comprehensive and Integral 
International Convention on the Protection and Promotion of the Rights 
and Dignity of Persons with Disabilities, 7th Session, ``The Concept of 
Reasonable Accommodation in Selected National Disability Legislation,'' 
Department of Economic and Social Affairs, A/AC.265/2006/CRP.1, 7 
December 05.
    \27\Sweet Road, ``The Sweet Road: Recommendations for the Draft 
Revision of the `Regulations on Education for Persons With 
Disabilities' to the State Council Legislative Affairs Commission'' 
[Ganzhilu: wei ``canjiren jiaoyu tiaoli (xiugai cao'an)'' jianyan 
zhixin guowuyuan fazhiban], reprinted in Justice for All, 24 March 13; 
One Foundation, ``Public Participation in Legislation on Regulations on 
Education for Persons With Disabilities, Airing the Voices of Persons 
With Disabilities'' [Minjian canyu canji ren jiaoyu tiaoli lifa, fachu 
canzhang renshi de shengyin], 20 March 13.
    \28\Sweet Road, ``The Sweet Road: Recommendations for the Draft 
Revision of the `Regulations on Education for Persons with 
Disabilities' to the State Council Legislative Affairs Commission'' 
[Ganzhilu: wei ``canjiren jiaoyu tiaoli (xiugai cao'an)'' jianyan 
zhixin guowuyuan fazhiban], reprinted in Justice for All, 24 March 13; 
Human Rights Watch, ``China: Submission by Human Rights Watch to the 
Legislative Affairs Office of the State Council,'' 18 May 13 (the 
submission is dated 25 March 13).
    \29\UN Committee on the Rights of Persons with Disabilities, 
Concluding Observations on the Initial Report of China, Adopted by the 
Committee at Its Eighth Session, 15 October 12.
    \30\See, e.g., PRC Law on the Protection of Persons with 
Disabilities [Zhonghua renmin gongheguo canjiren baozhangfa], passed 28 
December 90, amended 24 April 08, effective 1 July 08, arts. 3, 25, 30-
40; PRC Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin 
fa], passed 30 August 07, effective 1 January 08, arts. 3, 29, 30; PRC 
Law on the Prevention and Control of Infectious Diseases [Zhonghua 
renmin gongheguo chuanranbing fangzhi fa], issued 21 February 89, 
amended 28 August 04, art. 16; State Council, Regulations on the 
Treatment and Control of HIV/AIDS [Aizibing fangzhi tiaoli], passed 18 
January 06, effective 1 March 06, art. 3. For the Commission's coverage 
of health-based discrimination in recent years, see CECC, 2012 Annual 
Report, 10 October 12, 112-13; CECC, 2011 Annual Report, 10 October 11, 
136-37; CECC, 2010 Annual Report, 10 October 10, 148-49; and CECC, 2009 
Annual Report, 10 October 09, 183-85.
    \31\China Labour Bulletin, ``Employment Discrimination in China,'' 
20 November 12; ``More Than 40% of China's Rural Disabled Persons Live 
Below the Poverty Line'' [Zhongguo you 40% yishang de nongcun canjiren 
shenghuo zai pingkun xian yixia], Radio Free Asia, 28 August 12; Zhang 
Xuhong, ``Individual With Outstanding Grades Refused Employment, First 
Case of AIDS Employment Discrimination in Jiangxi Took Legal Action 
Yesterday'' [Chengji youyi xiaohuo zao julu jiangxi aizibing jiuye 
qishi diyi an zuo qisu], Jiangxi Daily, 27 November 12.
    \32\Zhang Han, ``Where Can People Living With HIV Get Operations?'' 
[HIV ganranzhe shoushutai zai na?], Southern Metropolitan Daily, 20 
December 12.
    \33\For examples of health-based discrimination in access to 
education, see Liang Chen, ``When B Is Worse Than F,'' Global Times, 5 
September 12 (Hepatitis B); Huang Yuli, ``Principal Defends Rejecting 
Autistic Boy,'' China Daily, 21 September 12 (autism); ``Feeling Their 
Way,'' Economist, 13 July 13 (visual impairment); ``AIDS Guarantees 
Have Not Been Implemented, Targeted Solutions Are Difficulty Piled Upon 
Difficulty'' [Aizibing baozhang wei luoshi jiuzhi mubiao nan shang 
nan], Radio Free Asia, 22 November 12 (HIV/AIDS).
    \34\Can Xin, ``Closer Look: Efforts To Protect HIV/AIDS Patients' 
Rights Fall Short,'' Caixin, 27 November 12.
    \35\Zheng Xiaoqian and Shi Caiying, ``At Least 20 Provinces and 
Municipalities Have Teacher Physical Standards That Might Discriminate 
Against Persons With Disabilities'' [Zhishao 20 ge shengshi jiaoshi 
zige tijian biaozhun shexian qishi canji ren], Dahe Net, reprinted in 
Economic Daily, 10 September 11. See also, ``Many Provinces Stipulate 
People Suffering From High Blood Pressure Should Not Become Teachers, 
Probably Employment Discrimination'' [Duosheng guiding gaoxieya huanzhe 
bude dang jiaoshi, she jiuye qishi], Modern Express, reprinted in China 
Law Information, 8 January 13.
    \36\He Dan, ``Disability Rights Advocates Call for Equal 
Employment,'' China Daily, 4 December 12.
    \37\One Plus One, ``Implementation in China of the United Nations 
Convention on the Rights of Persons with Disabilities,'' submission to 
the UN Office of the High Commissioner for Human Rights, Committee on 
the Rights of Persons With Disabilities, 7th Session, March 2012, 20.
    \38\For an account of long-term advocacy to stop employment 
discrimination against carriers of Hepatitis B, see Fu Hualing, 
``Embedded Socio-Legal Activism in China: The Case of Yirenping,'' Hong 
Kong Law Journal, Vol. 42, Part 2 (2012). On recent efforts of NGOs and 
disability rights advocates, see ``Jiangxi AIDS Discrimination Case: 
First To Receive Compensation'' [Jiangxi aizi qishi di yi an huo 
buchang], Radio Free Asia, 24 January 13; ``Guangdong's Plan To Prevent 
People Infected With Sexually-Transmitted Diseases and HIV/AIDS From 
Teaching Raises Debate'' [Guangdong ni jinzhi huan xingbing aizibingzhe 
dang jiaoshi yin zhengyi], Xinhua, reprinted in China Law Information, 
7 January 13; ``Guangdong Bureau of Education Prohibits AIDS Carriers 
From Becoming Teachers, Public Interest Organization Suggests 
Abolishing'' [Guangdong jiaoyuting jin aizibingzhe dang jiaoshi, gongyi 
zuzhi jianyi quxiao], Legal Daily, 11 January 13. There also were open 
government information requests from disability rights activists on the 
number of disabled persons hired as civil servants during the 2013 
reporting year. See ``Disabled Youth in Henan Requests the Chinese 
[Government] Release Information About Civil Service Recruitment of the 
Disabled'' [Henan canji qingnian yaoqiu zhongguo gongbu gongwuyuan luqu 
canji ren qingkuang], Radio Free Asia, 3 December 12; Jiang Gewei, 
``Why Is the Number of Civil Servants Who Are Disabled Persons a State 
Secret?'' [Gongwuyuan zhong canzhang ren shuliang heyi cheng guojia 
mimi], Hunan Broadcast Network Legal Weekly, 24 May 13.
    \39\Wan Jing, ``Six Lawyers Demand an Investigation of the Legality 
of the Civil Servant Physical Examination Standards'' [Liu lushi yaoqiu 
shencha gongwuyuan tijian biaozhun hefaxing wenti], Legal Daily, 30 
November 12. Several of the lawyers who sent the letter were involved 
in the four known HIV/AIDS employment discrimination lawsuits. They 
also noted that employment discrimination violates China's Employment 
Promotion Law and the Regulations to Prevent and Control HIV/AIDS.
    \40\Jiang Gewei, ``Why Is the Number of Civil Servants Who Are 
Disabled Persons a State Secret?'' [Gongwuyuan zhong canzhang ren 
shuliang heyi cheng guojia mimi], Hunan Broadcast Network Legal Weekly, 
24 May 13.
    \41\Convention on the Rights of Persons with Disabilities, adopted 
by UN General Assembly resolution 61/106 of 13 December 06, entry into 
force 3 May 08, art. 24(4), art 27(1). China signed the Convention on 
the Rights of Persons with Disabilities (CRPD) on March 30, 2007, and 
ratified it on August 1, 2008.
    \42\Zhang Renwang, ``Persons With Disabilities From 19 Provinces 
and Cities Thank Guangdong for Eliminating Discriminatory Provisions in 
the Teacher Physical Examination Standards'' [19 shengshi canzhang 
renshi ganxie yue shanchu jiaoshi tijian canzhang qishi tiaokuan], 
Southern Daily, 20 May 13.
    \43\Zheng Xiaoqian and Shi Caiying, ``At Least 20 Provinces and 
Municipalities Have Teacher Physical Standards That Might Discriminate 
Against Persons With Disabilities'' [Zhishao 20 ge shengshi jiaoshi 
zige tijian biaozhun shexian qishi canji ren], Dahe Net, reprinted in 
Economic Daily, 10 September 11. Presumably Guangdong province's 
revisions to its teacher physical eligibility standards reduced by at 
least one the total number of provisions with discriminatory 
regulations. See also, ``Many Provinces Stipulate People Suffering From 
High Blood Pressure Should Not Become Teachers, Probably Employment 
Discrimination'' [Duosheng guiding gaoxieya huanzhe bude dang jiaoshi, 
huo she jiuye qishi], Modern Express, reprinted in China Law 
Information, 8 January 13.
    \44\Human Rights Watch, ``China: Submission by Human Rights Watch 
to the Legislative Affairs Office of the State Council,'' 18 May 13, 
no. 6 (the submission is dated 25 March 13).
    \45\Zhang Han, ``Where Can People Living With HIV Get Operations?'' 
[HIV ganranzhe shoushutai zai na?], Southern Metropolitan Daily, 20 
December 12; ``AIDS Patients Face Discrimination at China Hospitals,'' 
Voice of America, 30 November 12.
    \46\Zhang Han, ``Where Can People Living With HIV Get Operations?'' 
[HIV ganranzhe shouxutai zai na?], Southern Metropolitan Daily, 20 
December 12.
    \47\``China Orders Hospitals To Treat HIV/Aids Patients,'' Agence 
France-Presse, reprinted in South China Morning Post, 24 November 12.
    \48\Ministry of Health, Circular on Strengthening Medical Treatment 
Services for People Living With AIDS and Carriers of HIV [Weishengbu 
guanyu jiaqiang aizibing huanzhe he bingdu ganranzhe yiliao fuwu 
gongzuo de tongzhi], 23 November 12.
    \49\Wen Ya, ``MOH's Notice Not Enough To Help HIV/AIDS Patients: 
NGOs,'' Global Times, 26 November 12.
    Notes to Section II--The Environment

    \1\National Development and Reform Commission, ``Report on the 
Implementation of the 2012 Plan for National Economic and Social 
Development and on the 2013 Draft Plan for National Economic and Social 
Development,'' reprinted in Wall Street Journal, 5 March 13, 5. The 
report stated that in 2012 the emissions of sulfur dioxide and nitrogen 
oxide decreased by 4.52 percent and 2.77 percent, respectively; that 
chemical oxygen demand and ammonia nitrogen in water decreased by 3.05 
percent and 2.62 percent, respectively; and that carbon dioxide 
emissions per unit of GDP decreased by 5.02 percent. The report also 
indicated some advances in afforestation and grassland restoration, and 
increases in daily capacity of wastewater and garbage treatment. For 
additional information on environmental conditions in China, see the 
Ministry of Environmental Protection, ``2012 Report on China's 
Environmental Conditions'' [2012 Zhongguo huanjing zhuangkuang 
gongbao], 28 May 13 (click on link to PDF); and for information on 
``ecological progress,'' see the State Council Information Office, 
``Progress in China's Human Rights in 2012,'' reprinted in Xinhua, 14 
May 13, sec. 5.
    \2\Edward Wong, ``Cost of Environmental Damage in China Growing 
Rapidly Amid Industrialization,'' New York Times, 29 March 13. 
Degradation reportedly cost China 3.5 percent of GDP in 2010, three 
times as much as it did in 2004.
    \3\Ministry of Environmental Protection, ``2012 Report on China's 
Environmental Conditions'' [2012 Zhongguo huanjing zhuangkuang 
gongbao], 28 May 13, 21 (click on link to PDF).
    \4\Ministry of Civil Affairs, ``Ministry of Civil Affairs, Office 
of the National Disaster Reduction Commission Issues 2013 First Quarter 
National Disaster Situation'' [Minzheng bu, guojia jianzai weiyuanhui 
bangongshi fabu 2013 nian yijidu quanguo zaiqing], 8 April 13. China 
reportedly experienced 11 instances of very visible, large-scale 
``foggy and hazy'' skies, the most since 1961, that affected 20 
provinces during the winter months and lasted for a total of 20 to more 
than 30 days depending on the area.
    \5\Alexander Martin, ``Kumamoto Residents Stay Indoors Amid China 
Pollution Fears,'' Wall Street Journal, 5 March 13. Japanese officials 
suggested residents on one island stay in their homes because pollution 
surpassed safety standards.
    \6\Edward Wong, ``In China, Widening Discontent Among the Communist 
Party Faithful,'' New York Times, 19 January 13; Edward Wong, ``China 
Lets Media Report on Air Pollution Crisis,'' New York Times, 14 January 
13; Barbara Finamore et al., ``Air Pollution Crisis Gives New Momentum 
to Environmental Regulation in China,'' Natural Resources Defense 
Council, Switchboard Blog (Barbara Finamore's blog), 22 February 13.
    \7\Yang Wanli and Qiu Quanlin, ``A New Environment for Fight 
Against Pollution,'' China Daily, 19 March 13. According to the China 
Daily report, air pollution was a hot topic at the meetings of the 
National People's Congress and the Chinese People's Political 
Consultative Congress, with at least 20 deputies including the topic in 
their speeches. Wang Tao, ``The Flavor of the `Atmosphere' During the 
Political Season of the Two Sessions'' [Lianghui zhengzhi jili de 
``kongqi'' weidao], Southern Weekend, 1 March 13; Sun Siya, 
``Environmental Protection Becomes CPPCC Hot Proposal; Conference 
Members Suggest Adding Environmental Rights to Constitution'' [Huanbao 
cheng zhengxie ti'an redian weiyuan jianyi gongmin huanjing quan ru 
xian], Beijing Times, reprinted in China Environmental News, 3 March 
13.
    \8\Barbara Finamore et al., ``Air Pollution Crisis Gives New 
Momentum to Environmental Regulation in China,'' Natural Resources 
Defense Council, Switchboard Blog (Barbara Finamore's blog), 22 
February 13. According to this article, the episodes of serious air 
pollution prompted the government to move forward with tougher fuel 
standards and to advance revisions to the PRC Air Pollution Prevention 
and Control Law. The Ministry of Environmental Protection also plans to 
issue stricter emission control standards for certain heavily polluting 
industries.
    \9\Edward Wong, ``Air Pollution Linked to 1.2 Million Premature 
Deaths in China,'' New York Times, 1 April 13. This NYT article 
reported that in 2010 what was called ``ambient particulate matter 
pollution'' was the fourth-leading risk factor linked to deaths, and 
outdoor pollution was a factor in 1.2 million premature deaths the same 
year. Verna Yu, ``Judge Officials on Health, Environment Too: Expert,'' 
South China Morning Post, 7 March 13. The SCMP reported that a doctor 
in China said air pollution was a major contributor to respiratory 
diseases. ``Law Amendment Urged To Combat Air Pollution,'' China 
Internet Information Center, reprinted in Ministry of Environmental 
Protection, 25 February 13. The article reported that the Beijing 
Health Bureau showed air pollution was among the main causes for a 56 
percent surge in lung cancer rates between 2001 and 2010. Greenpeace, 
``Dangerous Breathing: PM2.5: Measuring the Human Health and Economic 
Impacts on China's Largest Cities,'' 18 December 12. The Greenpeace 
report stated that the PM2.5 levels (particulate matter with a diameter 
smaller than 2.5  m) in certain regions in China during selected 
periods were two to four times higher than the World Health 
Organization's air quality guidelines.
    \10\Ministry of Environmental Protection, ```12th Five-Year' Plan 
on Prevention and Control of Environmental Risks From Chemicals'' 
[Huaxuepin huanjing fengxian fangkong ``shierwu'' guihua], issued 7 
February 13. Fifty-one percent of the sudden environmental accidents 
that occurred between 2008 and 2011 were linked to hazardous chemicals.
    \11\Ibid. This follows a similar acknowledgement in 2010 linking 
pollution along the Huai River with the high number of cancerous tumors 
found in residents along the river as described in the Caijing article 
below. Xu Chao, ``The Relationship Between Huai River Basin Pollution 
and Cancer Basically Established'' [Huaihe liuyu wuran yu aizheng 
guanxi jiben zhengshi], Caijing, 27 December 10.
    \12\Feng Jie and Wang Tao, ``Groundwater Contamination Prevention 
and Control's `Underground History''' [Dixiashui fangzhi de ``dixia 
shi''], Southern Weekend, 28 February 13; Wang Qian and Li Jing, 
``Groundwater Gets Worse, Land Agency Says,'' China Daily, 21 October 
11. According to the China Daily article, in 2011, authorities 
reportedly classified as bad more than 57 percent of the groundwater 
monitored in 182 cities.
    \13\Luna Lin, ``Beijing Campaigners Praise `Unexpected' Release of 
Water Quality Data,'' Chinadialogue, 4 April 13.
    \14\Li Tianyang, ``Li Tianyang: Must Find Out About the Real 
Situation and Move Forward To Remediate Groundwater'' [Li tianyang: 
dixiashui wuran zhengzhi yao yu modi bingjin], Beijing Times, reprinted 
in Southern Net, 22 April 13.
    \15\Xie Qingyu, ``Before the End of This Year Pearl River Delta 
Will Introduce Comprehensive Soil Pollution Control'' [Zhusanjiao 
jinnian di qian shishi turang wuran zonghe zhili], Southern Daily, 
reprinted in Xinhua, 14 June 13.
    \16\``China's Toxic Rice Bowl,'' Wall Street Journal, 22 May 13; 
Josh Chin and Te-Ping Chen, ``Officials Try To Calm Rice Fears,'' Wall 
Street Journal, 22 May 13; Brian Spegele, ``China To Survey Soil Amid 
Fears Over Rice,'' Wall Street Journal, 12 June 13. The May 2013 
revelation that in Guangzhou municipality more than 40 percent of a 
small number of samples of rice sold on the market were contaminated 
with cadmium raised anxieties about soil pollution.
    \17\Tania Branigan, ``Chinese Pollution Study `Blocked on Grounds 
of State Secrecy,''' Guardian, 26 February 13; Dong Zhengwei, 
``Ministry of Environmental Protection Indicates Methodology of Soil 
Pollution Survey Factor in Not Disclosing Data on Prevention and 
Control Measures'' [Huanbaobu gaozhi turang wuran diaocha fangfa 
chengyin fangzhi cuoshi shuju bu gongkai], Sina Blogs (Dong Zhengwei's 
blog), 25 February 13. For more information on Dong Zhengwei's open 
government information request and application for administrative 
reconsideration, and the official response, see Dong Zhengwei, 
``Administrative Reconsideration Requests Ministry of Environmental 
Protection To Disclose Information on Soil Pollution Survey Data'' 
[Xingzheng fuyi qingqiu huanbaobu gongkai turang wuran diaocha shuju 
xinxi], Sina Blogs (Dong Zhengwei's blog), 27 February 13; Dong 
Zhengwei, ``Ministry of Environmental Protection Acknowledges 
Nationwide Soil Contamination Survey Data Should Be Made Public'' 
[Huanbaobu queren quanguo turang wuran zhuangkuang diaocha shuju 
yingdang xiang shehui gongkai], Sina Blogs (Dong Zhengwei's blog), 9 
May 13. For Commission analysis, see ``Soil Contamination Data Remains 
a State Secret Leaving Citizens Uninformed About Potential Pollution 
Hazards,'' Congressional-Executive Commission on China, 21 May 13.
    \18\Richard Finney, ``Chinese Mines Pollute Tibet's Rivers, 
Streams,'' Radio Free Asia, 6 May 13.
    \19\Xie Dan, ``Purifying `Poisoned Land' Is Mysterious Business'' 
[``Dudi'' jinghua qianyi shenmi shengyi], Southern Weekend, 19 March 
12.
    \20\Xu Nan and Zhang Chun, ``The Chase for Growth in Western China 
Could Cause `Huge Surge in Pollution,''' Chinadialogue, 23 January 13; 
Nadya Ivanova, ``Toxic Water: Across Much of China, Huge Harvests 
Irrigated With Industrial and Agricultural Runoff,'' Circle of Blue, 18 
January 13. Circle of Blue quoted an expert as saying, ``Pollution is 
getting worse and worse here. Many heavy metal companies and plants 
have moved to Gansu from the east . . . .'' Thomas Stevenson, ``The 
Dirty Secret Behind Shanghai's Bluer Skies,'' Tea Leaf Nation, 6 
December 12. The Tea Leaf Nation article discusses the relocation of 
industries to Yunnan province and the resulting pollution and health 
problems. He Tao and Gao Shengke, ``Western-Bound Industrial Shift 
Raises Environmental Concern,'' Caijing, 31 July 12. According to 
Caijing, most lead-acid battery factories in one town in Jiangxi 
province moved there from Jiangsu and Zhejiang provinces because there 
were weaker environmental policies in the Jiangxi town. Susan 
Shifflett, ``Paradigm Shift in Chinese Environmental Sector Needed, 
Says Activist Wang Canfa,'' Environmental Change and Security Program, 
Woodrow Wilson Center (NewSecurityBeat Blog), 21 March 13.
    \21\Liu Xiaoxing, ``Don't Let Rural Environment Become a Forgotten 
Corner'' [Bie rang nongcun huanjing cheng bei yiwangjiaoluo], China 
Environmental News, 11 March 13.
    \22\``Hu Jintao Report at the 18th Party Congress of the Chinese 
Communist Party'' [Hu jintao zai zhongguo gongchandang di shiba ci 
quanguo daibiao dahui shang de baogao], Xinhua, 17 November 12, items 2 
and 8; Meng Si, ``An Insight Into the Green Vocabulary of the Chinese 
Communist Party,'' Chinadialogue, 15 November 12. The term ``ecological 
civilization'' appeared in policy documents first in 2007, when former 
Party General Secretary and President Hu Jintao included the concept as 
being tied to the four basic goals of a ``xiaokang'' society (an all-
around well-off society).
    \23\``Hu Jintao Report at the 18th Party Congress of the Chinese 
Communist Party'' [Hu jintao zai zhongguo gongchandang di shiba ci 
quanguo daibiao dahui shang de baogao], Xinhua, 17 November 12, Item 
2.8.
    \24\Chinese Communist Party Constitution, adopted 6 September 82, 
amended 1 November 87, 18 October 92, 18 September 97, 14 November 02, 
21 October 07, 14 November 12, General Program. The following is a 
Commission translation of the paragraph: ``The Chinese Communist Party 
leads the people in building a socialist ecological civilization. It 
will establish an ecological civilization ethos that respects, 
accommodates, and protects nature; uphold the basic national policies 
of natural resource conservation and environmental protection; adhere 
to the guiding principle of giving high priority to conservation [of 
resources], protection [of the environment], and natural restoration 
[of the ecosystem]; and adhere to the path of civilized development 
with increased production, prosperous living, and a good ecological 
environment. In order to create a good working and living environment 
for the people and to realize the sustainable development of the 
Chinese nation, the Party will do its utmost to construct a 
conservationist and environmentally friendly society, which forms the 
spatial framework [similar to spatial planning] for industrial 
structures, production methods, and ways of living, that conserves 
resources and protects the environment.'' For the official Xinhua 
English translation of this paragraph, see ``Full Text of Constitution 
of Communist Party of China,'' Xinhua, 18 November 12, General Program. 
Li Jing, ``Pollution Targets Will Test New Leadership,'' South China 
Morning Post, 15 November 12. One Chinese expert noted that ``promoting 
ecological harmony'' was quite a vague concept that did not provide 
much guidance about how to balance economic growth and the environment.
    \25\``Hu Jintao's Report at the 18th Party Congress of the Chinese 
Communist Party'' [Hu jintao zai zhongguo gongchandang di shiba ci 
quanguo daibiao dahui shang de baogao], Xinhua, 17 November 12, item 
8.4. Hu said, ``[R]esource consumption, environmental damage and 
ecological efficiency shall be included in systems for evaluating 
economic and social development, in order to establish a system of 
targets, evaluation and rewards and punishments that reflects the 
requirements of an ecological civilization.'' Leslie Hook, ``China: 
Green Revolution Becomes a Plank of Beijing Political Agenda,'' 
Financial Times, 25 November 12.
    \26\``Li Keqiang: Study the Spirit of the 18th Party Congress, 
Advance Sustainable and Healthy Economic Development and Social 
Progress'' [Li keqiang: xuexi dang de shibada jingshen cujin jingji 
chixu jiankang fazhan he shehui jinbu], People's Daily, 21 November 12, 
item 2(3). Li said that construction of an ``ecological civilization'' 
would be prominent and incorporated in economic, political, cultural, 
and social development. ``Li Keqiang: Cannot Sacrifice the Environment 
Which Would in Return Bring an Increase in Citizen Dissatisfaction'' 
[Li keqiang: buneng yi xisheng huanjing lai huanqu renmin bing bu manyi 
de zengzhang], Xinhua, 17 March 13. At the March meeting of the 
National People's Congress, Li Keqiang said that while advancing 
China's economy and developing, it is necessary to ``let citizens 
breathe clean air, drink safe water, and be reassured of edible food.'' 
Andrew Jacobs, ``In China, New Premier Says He Seeks a Just Society,'' 
New York Times, 17 March 13. According to this New York Times article, 
Li Keqiang encouraged the media and the public to hold him accountable 
if the government does not clean up water pollution and the food 
supply.
    \27\Supreme People's Court and Supreme People's Procuratorate, 
``Supreme People's Court and Supreme People's Procuratorate 
Interpretation of Certain Issues Related to Laws Applicable in Criminal 
Cases of Environmental Pollution'' [Zuigao renmin fayuan, zuigao renmin 
jianchayuan guanyu banli huanjing wuran xingshi anjian shiyong falu 
ruogan wenti de jieshi], 17 June 13.
    \28\``China Releases Air Pollution Reduction Plan, Vows PM2.5 
Cut,'' Xinhua, 5 December 12; State Council, ``State Council Response 
Letter Regarding the `12th Five-Year' Plan for Air Pollution Prevention 
and Control in Key Regions'' [Guowuyuan guanyu zhongdian quyu daqi 
wuran fangzhi ``shierwu'' guihua de pifu], 27 September 12; Ministry of 
Environmental Protection, ```12th Five-Year' Plan for Air Pollution 
Prevention and Control in Key Regions'' [Zhongdian quyu daqi wuran 
fangzhi ``shierwu'' guihua], issued October 2012. See also ``China To 
Cap Pollutant Emissions in Six Industries,'' Xinhua, reprinted in 
Beijing Review, 7 March 13.
    \29\State Council, ``State Council Response Letter Regarding the 
`12th Five-Year' Plan for Air Pollution Prevention and Control in Key 
Regions'' [Guowuyuan guanyu zhongdian quyu daqi wuran fangzhi 
``shierwu'' guihua de pifu], 27 September 12; Ministry of Environmental 
Protection, ```12th Five-Year' Plan for Air Pollution Prevention and 
Control in Key Regions'' [Zhongdian quyu daqi wuran fangzhi ``shierwu'' 
guihua], issued October 2012.
    \30\Barbara Finamore et al., ``Air Pollution Crisis Gives New 
Momentum to Environmental Regulation in China,'' Natural Resources 
Defense Council, Switchboard Blog (Barbara Finamore's blog), 22 
February 13.
    \31\``Law Amendment Urged To Combat Air Pollution,'' China Internet 
Information Center, reprinted in Ministry of Environmental Protection, 
25 February 13; Li Xin et al., ``A Period of Soliciting Opinions on 
Draft Revisions to the `Air Pollution Prevention and Control Law' Is 
Over'' [``Daqi wuran fangzhi fa'' xiudinggao zhengqiu yijian jieduan yi 
jieshu], China National Radio, reprinted in Xinhua, 11 March 13. 
Forward momentum had appeared stalled after the MEP submitted a draft 
to the State Council in January 2010. The March China National Radio 
report indicated the revisions have not yet been sent to the NPC and 
noted that authorities had completed an internal comment period on the 
draft revisions of the law.
    \32\``Ten Regulatory Policies To Prevent and Control Air Pollution 
Signed During Executive Meeting of State Council'' [Guowuyuan changwu 
huiyi bushu daqi wuran fangzhi shi tiao cuoshi], The Central People's 
Government of the People's Republic of China, reprinted in Legal Daily, 
14 June 13; State Council, Atmospheric Pollution Prevention and Control 
Action Plan [Daqi wuran fangzhi xingdong jihua], 10 September 13.
    \33\Liu Xiaoxing, ``Li Ganjie Emphasizes Proceeding Quickly With 
Soil Environmental Protection Legislative Work at First Meeting of the 
Soil Environmental Protection Law and Regulation Drafting Work Leading 
Small Group'' [Li ganjie zai turang huanjing baohu fagui qicao gongzuo 
lingdao xiaozu diyici huiyishang qiangdiao jiakuai tuijin turang 
huanjing baohu lifa gongzuo], China Environment News, reprinted in 
Ministry of Environmental Protection, 16 November 12.
    \34\State Council General Office, Circular Regarding Work 
Arrangements for Near-Term Soil Environmental Protection and 
Comprehensive Control and Management [Guowuyuan bangongting guanyu 
yinfa jinqi turang huanjing baohu he zonghe zhili gongzuo anpai de 
tongzhi], issued 23 January 13.
    \35\Xie Qingyu, ``Before the End of This Year Pearl River Delta 
Will Introduce Comprehensive Soil Pollution Control'' [Zhusanjiao 
jinnian di qian shishi turang wuran zonghe zhili], Southern Daily, 
reprinted in Xinhua, 14 June 13; State Council General Office, Circular 
Regarding Work Arrangements for Near-Term Soil Environmental Protection 
and Comprehensive Control and Management [Guowuyuan bangongting guanyu 
yinfa jinqi turang huanjing baohu he zonghe zhili gongzuo anpai de 
tongzhi], issued 23 January 13. The circular stipulated that not less 
than 80 percent of the soil quality of arable land survey sites found 
in a new national survey should meet standards by 2015. It also 
stipulated that China should establish a national soil environmental 
protection system by 2020.
    \36\National Development and Reform Commission, ``China 2012 Annual 
Report on Policies and Actions To Address Climate Change'' [Zhongguo 
yingdui qihou bianhua de zhengce yu xingdong 2012 niandu baogao], 
November 2012.
    \37\Information Office of the State Council, ``China's Energy 
Policy 2012,'' reprinted in Xinhua, 24 October 12.
    \38\Globe International and Grantham Research Institute on Climate 
Change and the Environment, ``The GLOBE Climate Legislation Study: 
China,'' 14 January 13. The report is an extract from the third edition 
of the study.
    \39\National Development and Reform Commission, ``Report on the 
Implementation of the 2012 Plan for National Economic and Social 
Development and on the 2013 Draft Plan for National Economic and Social 
Development,'' reprinted in Wall Street Journal, 5 March 13, 20.
    \40\``China Issues First Greenhouse Gas Bulletin,'' Xinhua, 
reprinted in Beijing Review, 16 January 13; China Meteorological 
Administration, ``China Meteorological Administration Issues First 
Period `China Greenhouse Gas Bulletin''' [Zhongguo qixiangju fabu 
shouqi ``zhongguo wenshi qiti gongbao''], Greenhouse Gas and Related 
Trace Components Research Professionals Team, 14 January 13.
    \41\Office of the Spokesperson, U.S. Department of State, ``Joint 
U.S.-China Statement on Climate Change,'' 13 April 13.
    \42\Office of the Press Secretary, The White House, ``United States 
and China Agree To Work Together on Phase Down of HFCs,'' 8 June 13. 
HFCs are a greenhouse gas utilized in air conditioners and 
refrigerators among other items.
    \43\National People's Congress Standing Committee, ``Environmental 
Protection Law Revisions (Draft) Articles'' [Huanjing baohufa xiuzheng 
an (caoan) tiaowen], 31 August 12.
    \44\National People's Congress, ``Legal Drafts for Public Comment'' 
[Falu caoan zhengqiu yijian], last visited on 17 June 13.
    \45\Xie Qingyu, ```Environmental Protection Lawsuits' Still by the 
Wayside in Environmental Protection Law Revisions'' [Huanbaofa zai 
xiugai ``huanbao gongyi susong'' rengran pangluo], Southern Daily, 28 
September 12; Yan Shuang, ``Experts Say Proposed Environmental 
Protection Laws Fail To Protect,'' Global Times, 27 September 12; China 
Democratic League, ``Proposal Regarding Improving the Environmental 
Protection Law Revisions (Draft)'' [Guanyu wanshan ``huanjing baohufa 
xiuzheng an (caoan)'' de ti'an], reprinted in People's Daily (Strong 
Nation Forum, E Governance Square BBS), 5 March 13.
    \46\Ministry of Environmental Protection, ``Regarding Letter Sent 
With Comments and Suggestions About Environmental Protection Law 
Revisions (Draft)'' [Guanyu baosong dui ``huanjing baohufa xiuzheng an 
(caoan)'' yijian he jianyi de han], 29 October 12; China Democratic 
League, ``Proposal Regarding Improving the Environmental Protection Law 
Revisions (Draft)'' [Guanyu wanshan ``huanjing baohufa xiuzheng an 
(caoan)'' de ti'an], reprinted in People's Daily (Strong Nation Forum, 
E Governance Square BBS), 5 March 13; Friends of Nature, 
```Environmental Protection Law' Revisions Still Lagging, Legislative 
Breakthroughs Difficult'' [``Huanjing baohufa'' xiuding reng zhihou 
lifa nan tupo], 21 September 12.
    \47\Friends of Nature, ``Comments on the `Draft Revisions of the 
Environmental Protection Law, Second Reading Draft''' [Guanyu 
``huanjing baohufa xiuzheng an (caoan) erci shenyi gao'' de yijian], 13 
August 13; Li Jing, ``Green Law Change Would Limit Lawsuits,'' South 
China Morning Post, 27 June 13.
    \48\Friends of Nature, ``Comments on the `Draft Revisions of the 
Environmental Protection Law, Second Reading Draft''' [Guanyu 
``huanjing baohufa xiuzheng an (caoan) erci shenyi gao'' de yijian], 13 
August 13.
    \49\Ministry of Supervision, ``Investigation and Management of 
Discipline and Legal Violation Cases During 2012, Enforcement 
Supervision and Rectification of Misconduct Work'' [2012 nian zhifa 
jiancha, jiufeng gongzuo zhong chaban weiji weifa anjian qingkuang], 9 
January 13. Between January and November 2012, in the environmental 
protection sector, supervision authorities reportedly corrected 22,100 
violations of laws and regulations and took Party and government 
disciplinary actions against 305 people. Zhou Shengxian, ``Thoroughly 
Carry Out the 18th Party Congress Spirit, Vigorously Promote Ecological 
Civilization Construction Make Great Effort To Open a New Phase in 
Environmental Protection Work--Minister Zhou Shengxian's Speech at the 
2013 National Environmental Protection Work Meeting'' [Shenru guanche 
dang de shibada jingshen dali tuijin shengtai wenming jianshe nuli 
kaichuang huanbao gongzuo xin jumian--zhou shengxian buzhang zai 2013 
nian quanguo huanjing baohu gongzuo huiyi shang de jianghua], Ministry 
of Environmental Protection, 24 January 13, sec. 2, item 4, para. 4. 
Minister Zhou noted that during inspections in 2012, environmental 
officials investigated and handled 8,779 instances of behavior that 
violated environmental laws and regulations nationwide; the Ministry of 
Environmental Protection supervised the handling of 1,770 of those 
cases. He also noted that during a ``100-day'' inspection campaign of 
43,000 enterprises, authorities discovered 2,296 environmental risks.
    \50\See, e.g., Chen Liping, ``Strengthen Environmental Legislation 
and Improve Supervision and Management Mechanisms'' [Qianghua huanjing 
fazhi wanshan jianguan jizhi], Legal Daily, 3 September 12; Luo Sha and 
An Bei, ``Five Representatives From National People's Congress 
Organizations Answer Journalists' Questions About NPC Work'' [Quanguo 
renda jiguan wuwei fuzeren jiu renda gongzuo da jizhe wen], Xinhua, 
reprinted in National People's Congress Net, 10 March 13; Ministry of 
Environmental Protection, ``Ministry of Environmental Protection 
Bulletin Regarding National Environmental Impact Assessment Mechanism 
Enforcement Review'' [Huanjing baohubu tongbao quanguo huanjing 
yingxiang pingjia jigou zhuanxiang zhifa jiancha qingkuang], 28 January 
13; Chen Yuanyuan, ``Need To Raise Speed and Quality for Open 
Information'' [Xinxi gongkai xuyao tisu tizhi], China Environment Net, 
3 April 13; Li Jing, ``CCTV Expose Shows Frustration of Agencies at 
Keeping Firms in Check,'' South China Morning Post, 28 September 12. 
The SCMP article reported sources as saying it would be hard to rein in 
the polluting behavior of state-owned firms because of their economic 
and political power. Brian Spegele and Wayne Ma, ``China Clean-Air Bid 
Faces Resistance,'' Wall Street Journal, 22 January 13. A director of 
an environmental policy research group affiliated with the MEP 
reportedly noted that there is poor enforcement of standards relating 
to oil refineries. Niu Yongdou, ``How To Handle the Problem of 
Grassroots Enforcement?'' [Ruhe chuli jiceng zhifa nanti?], China 
Environmental News, 10 September 12.
    \51\Li Jing, ``Ex-Minister Blames China's Pollution Mess on Lack of 
Rule of Law,'' South China Morning Post, 21 January 13. Qu Geping, the 
former Minister of Environmental Protection criticized the overemphasis 
on economic growth when he told an international reporter that ``. . . 
governments have done far from enough to rein in the wild pursuit of 
economic growth. . . .'' He linked unchecked economic development to 
the ``rule of men'' and not the ``rule of law.'' Niu Yongdou, ``How To 
Handle the Problem of Grassroots Enforcement?'' [Ruhe chuli jiceng 
zhifa nanti?], China Environmental News, 10 September 12.
    \52\Chen Liping, ``Strengthen Environmental Legislation and Improve 
Supervision and Management Mechanisms'' [Qianghua huanjing fazhi 
wanshan jianguan jizhi], Legal Daily, 3 September 12; Wu Wenchong and 
Jiang Xueqing, ``Who Guards the Green Guards?'' China Daily, 21 
February 13. According to the China Daily, the MEP downgraded, 
cancelled the qualifications of, or admonished 88 environmental impact 
assessment organizations for a variety of reasons including poor 
quality of personnel and assessment reports, and for inaccurate data or 
falsifying data. Xi Jianrong, ``34 Steel Projects in Four Areas of 
Hebei Did Not Undertake Any Environmental Procedures'' [Hebei sidi 34 
ge gangtie xiangmu wu renhe huanbao shouxu], Legal Daily, reprinted in 
China Transparency, 9 November 12. According to Legal Daily, a 
longstanding problem has been that projects are begun without first 
undertaking an environmental impact assessment. William Kazer and 
Kersten Zhang, ``China's Environmental Protection Racket,'' Wall Street 
Journal, China Real Time Report (blog), 1 February 13.
    \53\Li Jing, ``Ex-Minister Blames China's Pollution Mess on Lack of 
Rule of Law,'' South China Morning Post, 21 January 13. Qu Geping, the 
former Minister of Environmental Protection, said that the strategy of 
coordinating growth with conservation was not implemented ``because 
there was no supervision of government. It is because the power is 
still above the law.''
    \54\Alex Wang et al., ``Airpocalypse Now: China's Tipping Point?'' 
ChinaFile, 6 February 13; ``Politics of Pollution: China's Oil Giants 
Take a Choke-Hold on Power,'' Reuters, reprinted in CNBC, 3 February 
13; Li Jing, ``CCTV Expose Shows Frustration of Agencies at Keeping 
Firms in Check,'' South China Morning Post, 28 September 12.
    \55\Chen Liping, ``Strengthen Environmental Legislation and Improve 
Supervision and Management Mechanisms'' [Qianghua huanjing fazhi 
wanshan jianguan jizhi], Legal Daily, 3 September 12; Li Jing, ``CCTV 
Expose Shows Frustration of Agencies at Keeping Firms in Check,'' South 
China Morning Post, 28 September 12; Alex Wang et al., ``Airpocalypse 
Now: China's Tipping Point?'' ChinaFile, 6 February 13. Alex Wang noted 
that ``China has faced the same problems with cheating anytime hard 
targets are coupled with insufficient monitoring.''
    \56\PRC Civil Procedure Law [Zhonghua renmin gongheguo minshi 
susong fa], passed 9 April 91, amended 28 October 07, 31 August 12, 
effective 1 January 13, art. 55.
    \57\Li Na, ``Public Interest Litigation `Breaks the Ice,' Takes the 
First Step To Enter the System'' [Gongyi susong rufa maichu zhidu 
``pobing'' diyibu], Legal Daily, 5 September 12. Previously, only the 
PRC Marine Environmental Protection Law had clarified the specific 
entities that are allowed to bring such suits, i.e., oceanic 
administrative departments. ``Ministry of Environmental Protection: 
Four Major Problems With the Environmental Protection Law Amendment 
Draft'' [Huanbaobu: huanbaofa xiuzheng'an caoan cunzai si da wenti], 
Legal Daily, 1 November 12.
    \58\ Xie Qingyu, ```Environmental Protection Lawsuits' Still by the 
Wayside in Environmental Protection Law Revisions'' [Huanbaofa zai 
xiugai ``huanbao gongyi susong'' rengran pangluo], Southern Daily, 28 
September 12. Between 2009 and June of 2012, the All-China Environment 
Federation (ACEF), which is supported by the government, brought in 
part or in whole at least six of these public interest cases. The ACEF 
won two of them, and three came to a mediated settlement. Ng Tze-wei, 
``Lack of Environmental Public Interest Litigation in No One's Best 
Interest,'' South China Morning Post, 9 November 12. Environmental 
courts are estimated only to have heard a total of around 17 public 
interest lawsuits.
    \59\Li Jing, ``Green Law Change Would Limit Lawsuits,'' South China 
Morning Post, 27 June 13; All-China Environment Federation, 
``Introduction,'' 30 August 12. The introduction states that the ACEF 
is supported by the government.
    \60\Zhang Jing, ``Nongovernmental Groups Explore Environmental 
Public Interest Litigation'' [Huanjing gongyi susong de minjian 
tansuo], China Environment Net, reprinted in All-China Environment 
Federation, 27 December 12; ``Chinese Fishermen File Lawsuit in US 
Court Against Conoco Philips Over 2011 Oil Spills,'' Associated Press, 
reprinted in Washington Post, 2 July 12. Just as with other types of 
lawsuits, courts may be reluctant to accept cases (see Role of 
Environmental Courts and Unreliable Legal Remedies in this section). 
For example, lawyers attempted to file cases in their own names to 
courts in three areas related to compensation claims from farmers 
affected by the ConocoPhilips/China National Offshore Oil Corp. 2011 
Bohai oil spill, but none of them have been accepted.
    \61\Xie Qingyu, ```Environmental Protection Lawsuits' Still by the 
Wayside in Environmental Protection Law Revisions'' [Huanbaofa zai 
xiugai ``huanbao gongyi susong'' rengran pangluo], Southern Daily, 28 
September 12. It can also be difficult to determine compensation, win 
court cases, and enforce court judgments. Ng Tze-wei, ``Lack of 
Environmental Public Interest Litigation in No One's Best Interest,'' 
South China Morning Post, 9 November 12. The SCMP article pointed out 
that compensation rules are not clear in these suits.
    \62\Wu Yunbo, ``Where Are the Difficulties With Environmental 
Public Interest Lawsuits'' [Huanjing gongyi susong nan zai hechu], 
Dazhong Daily, reprinted in China Development Brief, 10 October 12; Liu 
Xiaoqing, ``Is the Road Smooth-Going for Non-Governmental Public 
Interest Litigation?'' [Minjian gongyi susong tashang tantu?], China 
Environment News, 6 November 12.
    \63\Hu Zhonghua, ``The Limitations to China's Environmental Public 
Interest Litigation System'' [Woguo huanjing gongyi susong zhidu de 
xiandu], Journal of Wuhan University of Technology (Social Science 
Edition), Vol. 24, No. 6, reprinted in China Environment and Resources 
Law Network, 26 November 12.
    \64\Zhou Yiming and Huang Yuanwu, ``Guizhou Qingzhen Procuratorate 
Supports Individual Citizen as Plaintiff in Filing Environmental Public 
Interest Suit'' [Guizhou qingzhen jianchayuan zhichi gongmin geren wei 
yuangao tiqi huanjing gongyi susong], Justice Net, 27 September 12; Yan 
Zhijiang and Wan Jing, ``First Case of Individual Citizen Bringing 
Public Interest Litigation, Claims Damages of Over One Million (Yuan)'' 
[Gongmin geren tiqi huanjing gongyi susong shouan suopei sunshi guo 
baiwan], Legal Daily, 27 September 12. The tribunal judge said the 
plaintiff's standing was based on his being a volunteer for the 
environmental protection group, Guiyang Public Environmental Education 
Center, and the fact that he had signed an agreement with the group to 
protect the watershed's environment. The defendant had already been 
found guilty of environmental and other crimes, and sentenced to two 
years and six months in prison and a fine.
    \65\Qie Jianrong, ``Chromium Slag Pollution Case for 10 Million in 
Damages Already Formally Accepted by Court'' [Yin gezha wuran suopei 
qianwan an yi zhengshi li'an], Legal Daily, 20 October 11. The Court 
accepted the case in October 2011. Yang Huajun, ``Difficulties With 
Environmental Public Interest Suits: Hard To Obtain Evidence, 
Assessment Costs High'' [Huanjing gongyi susong zhi kun: quzheng nan 
pinggu feiyong gao], China Weekly, 11 April 12; Cao Yin and Guo Anfei, 
``Talks Begin in Landmark NGO Environment Case,'' China Daily, 24 May 
12. For more information, see Friends of Nature, ``Green Protests on 
the Rise in China,'' 14 August 12. In May, the environmental tribunal 
under the Qujing Intermediate People's Court presided over pretrial 
negotiations and the court reportedly had two meetings about the case.
    \66\Lin Ping, ``Mediation Fails in Yunnan Chromium Slag Public 
Interest Case, Defendant Unilaterally Backs Out'' [Yunnan gezha gongyi 
susong an tiaojie shibai yin beigao danfangmian fanhui], Justice Net, 
19 April 13; ``China's 10 Major Influential Court Cases in 2012'' [2012 
nian zhongguo shida yingxiangxing susong], Southern Weekend, 10 January 
13. According to the above articles, the defendant had agreed to accept 
full legal and financial liability, including stopping the 
infringement, reducing the risk, and restoring the environment. The 
defendant also agreed to third party supervision of the agreement's 
implementation.
    \67\Lin Ping, ``Mediation Fails in Yunnan Chromium Slag Public 
Interest Case, Defendant Unilaterally Backs Out'' [Yunnan gezha gongyi 
susong an tiaojie shibai yin beigao danfangmian fanhui], Justice Net, 
19 April 13.
    \68\Li Yang, ``Shanxi Aniline Pollution Incident: Cross-Provincial 
Liability Case Withdrawn'' [Shanxi benan wuran shijian: kuasheng zhuize 
susongzhuang bei chehui], Bandao Municipal News, reprinted in Sina, 15 
January 13.
    \69\Rachel E. Stern, ``Poor Rural Residents in China Seen As Easy 
Target for Environmental Lawsuits,'' Chinadialogue, 24 April 13. This 
article cites the findings of a research study showing that 
environmental cases in Guiyang in 2010 involved minor violations, often 
about damage to natural resources. In two other locations, Wuxi and 
Chongqing, government authorities used the courts' authority to enforce 
administrative decisions.
    \70\Ibid.
    \71\Chen Yuanyuan, ``Need To Raise Speed and Quality for Open 
Information'' [Xinxi gongkai xuyao tisu tizhi], China Environment Net, 
3 April 13; Hu Zhonghua, ``The Limitations to China's Environmental 
Public Interest Litigation System'' [Woguo huanjing gongyi susong zhidu 
de xiandu], Journal of the Wuhan University of Technology (Social 
Science Edition), Vol. 24, No. 6, reprinted in China Environment and 
Resources Law Network, 26 November 12.
    \72\Chen Yu, ``Should Clearly Establish the Legal Status of 
Administrative Mediation,'' [Ying mingque xingzheng tiaojie falu 
diwei], China Environment Net, 24 January 13.
    \73\``Chinese Anger Over Pollution Becomes Main Cause of Social 
Unrest,'' Bloomberg, 6 March 13. For a discussion of mass incidents in 
general, including environmental incidents, see Chen Rui et al., ``2012 
Mass Incident Research Report'' [2012 nian chuntixing shijian yanjiu 
baogao], Legal Net, 27 December 12. The information presented is a 
summary of a longer report and the report's methodology and other 
important information are not provided. Environmental incidents 
reportedly comprised a relatively small percentage of the incidents 
examined (8.9 percent).
    \74\Wang Shu, ``Public Interest Litigation Not Included in 
Environmental Protection Law Because of Differing Opinions Among 
Departments'' [Gongyi susong yin bumen yijian bu tongyi weiru 
huanbaofa], Beijing News, 31 August 12.
    \75\``Reported PRC Civil Disturbances in 2012,'' Open Source 
Center, 7 May 13, 12-13.
    \76\``Jiangmen Citizens March To Make the Government Cancel Nuclear 
Power Plant Plan'' [Jiangmen minzhong youxing poshi zhengfu quxiao he 
gongchang jihua], Voice of America, 13 July 13; ``People Questioned 
Again in Investigation of Ningbo Demonstrations'' [Zhuicha ningbo PX 
shiwei zai you ren bei chuanhuan], Radio Free Asia, 12 November 12; 
Wang Zhenghua, ``Shanghai Battery Factory Cancelled,'' China Daily, 16 
May 13.
    \77\``Officials Give Environmentalist Liu Futang a Suspended Three-
Year Sentence for Exposes,'' Congressional-Executive Commission on 
China, 14 December 12; Liu Jianqiang, ``Environmentalist Liu Futang 
Found Guilty of `Illegal Business Activities,''' Chinadialogue, 5 
December 12; Liu Hongqiao, ```Crusader for Ecology' Liu Futang's 20-
Year Environmental Protection Journey'' [``Shengtai doushi'' liu futang 
de 20 nian huanbao lu], Liu Hongqiao blog (Caixin), 11 October 12; Hai 
Pengfei, ``Accused Chinese Environmentalist Liu Futang `Tired and 
Unhappy,''' Southern People Weekly, reprinted in Chinadialogue, 31 
October 12; ``Environmentalist Liu Futang Investigated for Suspicion of 
Operating an Illegal Business 26 Environmental Groups Urge His 
Release'' [Huanbao renshi liu futang shexian feifa jingying zui 
shoushen 26 jia huanbao zuzhi huyu shifang], Southern Weekend, 16 
October 12.
    \78\All-China Environment Federation, ``Introduction,'' 30 August 
12. The introduction states that the ACEF is supported by the 
government.
    \79\Huang Xinghua, ``Reporter from China Central TV Beaten While 
Interviewing in Pingjiang County, Hunan, Officials Apologize Face to 
Face'' [Yangshi jizhe zai hunan pingjiang xian caifang beida guanyuan 
dangmian daoqian], Xinhua, reprinted in Southern Net, 10 January 13; 
All China Environment Federation, ``Introduction,'' 30 August 12.
    \80\Huang Xinghua, ``Reporter from China Central TV Beaten While 
Interviewing in Pingjiang County, Hunan, Officials Apologize Face to 
Face'' [Yangshi jizhe zai hunan pingjiang xian caifang beida guanyuan 
dangmian daoqian], Xinhua, reprinted in Southern Net, 10 January 13.
    \81\Ibid.
    \82\``Zhejiang Environmentalist Beaten After River Dare,'' Radio 
Free Asia, 26 February 13.
    \83\Ibid.
    \84\Sui-Lee Wee and Adam Jourdan, ``In China, Public Anger Over 
Secrecy on Environment,'' Reuters, 10 March 13.
    \85\Xia Haijun, ``Pollution Kills Nearly 2,000 Kilograms of an 
Anhui Farmer's Fish, Demands for an Explanation Declared To Be 
Extortion'' [Anhui yi nongmin yangyu shou wuran jin siqian jin yu 
siguang tao shuofa bei dingzui qiaozha], Hefei Evening News, reprinted 
in China Aquatic Breeders Net, 13 June 13; Chinese Human Rights 
Defenders, ``After Anhui Zhang Bing's Environmental Rights Defense 
Indictment Was Withdrawn, Ten Months Without Fair Result'' [Anhui zhang 
bing huanjing weiquan bei chehui gongsu hou, shige yue wu gongzheng 
jieguo], 10 May 13.
    \86\Ibid.
    \87\Chinese Human Rights Defenders, ``Anhui Lujiang Victim of 
Environmental Pollution Zhang Bing's Complaint Illegally Evaded by 
Anhui Lujiang Procuratorate'' [Anhui lujiang huanjing wuran shouhai ren 
zhang bing jubao lujiang jianchayuan weifa bei tuiwei], 25 July 13; Xia 
Haijun, ``Pollution Kills Nearly 2,000 Kilograms of an Anhui Farmer's 
Fish, Demands for an Explanation Declared To Be Extortion'' [Anhui yi 
nongmin yangyu shou wuran jin siqian jin yu siguang tao shuofa bei 
dingzui qiaozha], Hefei Evening News, reprinted in China Aquatic 
Breeders Net, 13 June 13; Chinese Human Rights Defenders, ``After Anhui 
Zhang Bing's Environmental Rights Defense Indictment Was Withdrawn, Ten 
Months Without Fair Result'' [Anhui zhang bing huanjing weiquan bei 
chehui gongsu hou, shige yue wu gongzheng jieguo], 10 May 13.
    \88\``People Questioned Again in Investigation of Ningbo PX 
Demonstration'' [Zhuicha ningbo PX shiwei zai youren bei chuanhuan], 
Radio Free Asia, 12 November 12.
    \89\Amy Li, ``Unable To Walk the Walk, Chengdu Residents Talk the 
Talk,'' South China Morning Post, 4 May 13. According to the SCMP 
article, authorities posted flyers warning people not to spread rumors 
about the Pengzhou project, offered printing shops rewards for 
information about individuals printing flyers, and opened some schools 
on a Saturday to keep students out of trouble. In addition, state-owned 
enterprises told employees to stay off the streets. Louisa Lim, ``To 
Silence Discontent, Chinese Officials Alter Workweek,'' National Public 
Radio, 4 May 13. According to the NPR article, authorities kept 
government employees busy with meetings on a Saturday and threatened 
them with dismissal if they participated in a protest. The report 
indicated that authorities also sent out letters to households asking 
everyone not to believe rumors or participate ``in order to prevent 
people with other motives from seizing this opportunity to create 
turmoil.''
    \90\Louisa Lim, ``To Silence Discontent, Chinese Officials Alter 
Workweek,'' National Public Radio, 4 May 13. According to the NPR 
article, authorities mobilized at least five types of security forces. 
Amy Li, ``Unable To Walk the Walk, Chengdu Residents Talk the Talk,'' 
South China Morning Post, 4 May 13; ``Yesterday Chengdu Police Practice 
Safeguarding Transportation and Guarding and Controlling Public 
Security in a Live Drill To `Support Earthquake Disaster Relief and 
Create a Safe and Sound Chengdu''' [Chengdu jingfang yanlian jiaotong 
baozhang he zhi'an fangkong ``zhiyuan kangzhen jiuzai chuangjian 
ping'an chengdu'' shizhan yanlian zuori juxing], Chengdu Daily, 5 May 
13.
    \91\Amy Li, ``Unable To Walk the Walk, Chengdu Residents Talk the 
Talk,'' South China Morning Post, 4 May 13. According to the SCMP 
article, some citizens criticized officials' claims that they were 
holding a live exercise in support of earthquake rescue efforts. For 
information on the notice, see ``Yesterday Chengdu Police Practice 
Safeguarding Transportation and Guarding and Controlling Public Order 
in a Live Drill To `Support Earthquake Disaster Relief and Create a 
Safe and Sound Chengdu''' [Chengdu jingfang yanlian jiaotong baozhang 
he zhi'an fangkong ``zhiyuan kangzhen jiuzai chuangjian pingan 
chengdu'' shizhan yanlian zuori juxing], Chengdu Daily, 5 May 13.
    \92\``Chengdu Exhausts Police Power To Block Urban Residents From 
Massing a `PX' Protest Demonstration'' [Chengdu jinchu jingli zu shimin 
fan ``PX'' da youxing], Radio Free Asia, 6 May 13; ``Chengdu Activists 
Held Ahead of Chemical Plant Protest,'' Radio Free Asia, 3 May 13; 
China Digital Times, ``Sensitive Words: Protests, Arrests, and More,'' 
29 April 13.
    \93\Amy Li, ```I am Scared': Chinese Creator of White House 
Petition Seeks Help After Police Visit,'' South China Morning Post, 14 
May 13.
    \94\Southern Mongolia Human Rights Information Center, ``Herders' 
Protests Put Down, Internet Posts Removed,'' 6 March 13; ``Herders 
Blocked from Protest Marches to Beijing,'' Radio Free Asia, 7 March 13; 
``Herders Protest Loss of Land,'' Radio Free Asia, 9 October 12; 
Southern Mongolia Human Rights Information Center, ``Mongolian Herders 
Protest China's Illegal Occupation of Their Land and Defamation of 
Their Ancestors,'' 8 October 12.
    \95\Southern Mongolia Human Rights Information Center, ``Herders' 
Protests Put Down, Internet Posts Removed,'' 6 March 13.
    \96\Zhang Chun, ``Chinese NGOs Call on New Government To Be More 
Open About Pollution,'' Chinadialogue, 28 March 13.
    \97\Ministry of Environmental Protection, ``Requirements To Draw Up 
Construction Project Environmental Impact Reports Abridged Version'' 
[Jianshe xiangmu huanjing yingxiang baogaoshu jianben bianzhi yaoqiu], 
15 August 12.
    \98\Ministry of Environmental Protection, Announcement Regarding 
Rescinding Document No. 50 (2008) [Huanjing baohubu guanyu feizhi 
huanhan (2008) 50 hao wenjian de gonggao], 9 October 12; State 
Environmental Protection Administration, Response Letter Regarding 
Relevant Issues With Public Requests for Construction Project 
Environmental Assessment Documents [Guanyu gongzhong shenqing gongkai 
jianshe xiangmu huanping wenjian youguan wenti de fuhan], 30 January 
08.
    \99\Ministry of Environmental Protection, Circular Regarding 
Further Strengthening of Environmental Protection Open Government 
Information Work [Guanyu jin yibu jiaqiang huanjing baohu xinxi gongkai 
gongzuo de tongzhi], issued 30 October 12; ``Authorities Issue Circular 
To Promote Environmental Information Disclosure,'' Congressional-
Executive Commission on China, 4 February 13.
    \100\Ministry of Environmental Protection, Circular Regarding 
Further Strengthening of Environmental Protection Open Government 
Information Work [Guanyu jin yibu jiaqiang huanjing baohu xinxi gongkai 
gongzuo de tongzhi], issued 30 October 12, Items 2.1.3, 2.2.2, 2.3; 
``Authorities Issue Circular To Promote Environmental Information 
Disclosure,'' Congressional-Executive Commission on China, 4 February 
13.
    \101\``Authorities Issue Circular To Promote Environmental 
Information Disclosure,'' Congressional-Executive Commission on China, 
4 February 13.
    \102\Ministry of Environmental Protection, Circular Regarding 
Implementation of ``Environmental Air Quality Standards (GB3095-2012)'' 
[Guanyu shishi ``huanjing kongqi zhiliang biaozhun'' (GB3095-2012) de 
tongzhi], 29 February 12. The notice above outlines when certain cities 
will begin to include PM2.5 in environmental monitoring and air quality 
reports. According to the sources below, in February 2012, authorities 
added fine air particulates (PM2.5), ozone, and carbon monoxide to the 
revised air quality index (AQI). Ministry of Environmental Protection, 
Technical Regulation on Ambient Air Quality Index (Provisional) 
[Huanjing kongqi zhiliang zhi shu (AQI) jishu guiding (shixing)], 
issued 29 February 12, effective 1 January 16; ``Pollution Measures for 
Public Feedback,'' China Daily, reprinted in Xinhua, 17 November 11; 
Te-Ping Chen, ``Following Beijing, Hong Kong Releases PM2.5 Pollution 
Data,'' Wall Street Journal, China Real Time Report (blog), 9 March 12. 
Beijing began to release PM2.5 data in late January, and Guangdong and 
Hong Kong began releasing data in March. Cai Wenjun, ``Release of All 
PM2.5 Readings Starts Today,'' Shanghai Daily, reprinted in People's 
Daily, 27 June 12. Shanghai began releasing daily PM2.5 data to the 
public in June 2012.
    \103\Luna Lin, ``Kunming Oil Refinery Environmental Report 
`Invalid' Say NGOs,'' Chinadialogue, 5 July 13.
    \104\Institute of Public and Environmental Affairs, ``Small 
Particles, Big Breakthrough: 2012 Urban Air Quality Information 
Transparency Index,'' October 2012, 23.
    \105\State Council, ``Energy Development `12th Five-Year' Plan'' 
[Nengyuan fazhan ``shier wu'' guihua de tongzhi], 1 January 13, chap. 
3, sec. 1.4. For English sources with partial information on some of 
the plans, see Beth Walker, ``China Gives Green-Light to New Era of 
Mega-Dams,'' Chinadialogue, 1 February 13. For information on a number 
of potential hydroelectric dam construction projects planned for 
Tibetan areas, see ``2013 Update: Dams on the Drichu (Yangtze), Zachu 
(Mekong) and Gyalmo Ngulchu (Salween) Rivers on the Tibetan Plateau,'' 
Tibetan Plateau Blog, 26 March 13.
    \106\Andrew Jacobs, ``Plans To Harness Chinese River's Power 
Threaten a Region,'' New York Times, 4 May 13.
    \107\Deng Quanlun, ``Campaigners Re-Ignite Nu River Dam Debate,'' 
Chinadialogue, 11 February 13; Beth Walker, ``China Gives Green-Light 
to New Era of Mega-Dams,'' Chinadialogue, 1 February 13; Brahma 
Chellaney, ``China's Hydro-Hegemony,'' New York Times, 7 February 13; 
Simon Denyer, ``Chinese Dams in Tibet Raise Hackles in India,'' 
Washington Post, 7 February 13.
    \108\Deng Quanlun, ``Campaigners Re-Ignite Nu River Dam Debate,'' 
Chinadialogue, 11 February 13.
    \109\Brahma Chellaney, ``China's Hydro-Hegemony,'' New York Times, 
7 February 13; Simon Denyer, ``Chinese Dams in Tibet Raise Hackles in 
India,'' Washington Post, 7 February 13; David Stanway, ``As Wen Jiabao 
Departs, China's Dam Plans To Accelerate,'' Reuters, 18 November 12. 
According to the Reuters article, the environmental protection minister 
said ``social impact'' issues will need to be resolved before 
construction continues.
    \110\John Jackson, ``Earthquake Hazards and Large Dams in Western 
China,'' Probe International, April 2012; Beth Walker, ``China Gives 
Green-Light to New Era of Mega-Dams,'' Chinadialogue, 1 February 13; 
International Rivers Network, ``China Moves To Dam the Nu, Ignoring 
Seismic, Ecological, and Social Risks,'' 25 January 13; Andrew Jacobs, 
``Plans To Harness Chinese River's Power Threaten a Region,'' New York 
Times, 4 May 13.
    \111\Edward Wong, ``Spill in China Underlines Environmental 
Concerns,'' New York Times, 2 March 13.
    \112\China Digital Times, ``Sensitive Words: Poison, Environmental 
Protests,'' 3 May 13; China Digital Times, ``Ministry of Truth: 
Shanghai Factory Pollution,'' 29 April 13.
    \113\China Digital Times, ``Sensitive Words: Protests, Arrests, and 
More,'' 29 April 13.
    \114\``Residents in Southern China Shout `Protest! Protest!' 
Against Plans for Refinery in Kunming,'' Associated Press, reprinted in 
Washington Post, 16 May 13.
    \115\Chen Hongyan, ``Yunnan Development and Reform Commission: 
Sinopec Kunming Project EIA Report Involves Secrets Not for 
Disclosure'' [Yunnan fagaiwei: zhongshiyou kunming xiangmu huanping 
baogao shemi bu gongshi], China Broadcasting Net, 14 May 13.
    \116\State Council, Regulations of the People's Republic of China 
on Open Government Information [Zhonghua renmin gongheguo zhengfu xinxi 
gongkai tiaoli], issued 5 April 07, effective 1 May 08. For more 
information, see ``China Commits to `Open Government Information' 
Effective May 1, 2008,'' CECC China Human Rights and Rule of Law 
Update, May 2008, 2. The State Environmental Protection Administration 
passed its version of the OGI regulations in April 2007. State 
Environmental Protection Administration, Measures on Open Environmental 
Information (Trial) [Huanjing xinxi gongkai banfa (shixing)], issued 11 
April 07, effective 1 May 08. For more information, see ``SEPA Issues 
Measures on Open Environmental Information,'' CECC China Human Rights 
and Rule of Law Update, January 2008, 5.
    \117\Luna Lin, ``Beijing Campaigners Praise `Unexpected' Release of 
Water Quality Data,'' Chinadialogue, 4 April 13.
    \118\Li Yang, ``Shanxi Aniline Pollution Incident: Cross-Provincial 
Liability Case Withdrawn'' [Shanxi benan wuran shijian: kuasheng zhuize 
susongzhuang bei chehui], Bandao Municipal News, reprinted in Sina, 15 
January 13. The information was about the pollution permits it issued 
to a milk company and about the number and location of the enterprise's 
water pollution effluent pipes.
    \119\Institute of Public and Environmental Affairs and Natural 
Resources Defense Council, ``Open Environmental Information: From 
Bottleneck to Breakthrough'' [Huanjing xinxi gongkai: pingtou, tupo], 1 
April 13.
    \120\``Chinese Appeal for Improved Environmental Transparency,'' 
Global Times, 5 March 13.
    \121\``Premier Li Keqiang Presides Over and Gives a Speech at the 
First State Council Clean Government Meeting'' [Li keqiang zhuchi 
zhaokai guowuyuan diyici lianzheng gongzuo huiyi bing jianghua], 
Xinhua, reprinted in the National Bureau of Corruption Prevention of 
China, 27 March 13.
    \122\Li Yanjie and Xu Hao, ``Lawyer Applies for Information on 
China's National Survey of Soil Pollution'' [Lushi shenqing gongkai 
quanguo turang wuran qingkuang kaocha xinxi], China Business Review, 
reprinted in China Transparency, 3 February 13; Tania Branigan, 
``Chinese Pollution Study `Blocked on Grounds of State Secrecy,''' 
Guardian, 26 February 13. The Ministry of Environmental Protection and 
other departments completed a national contamination survey in 2010, 
reportedly with some resistance from local governments, but have not 
yet made the results of the survey available to the public. ``Ministry 
of Environmental Protection Indicates Methodology of Soil Pollution 
Survey Factor in Not Disclosing Data on Prevention and Control 
Measures'' [Huanbaobu gaozhi turang wuran diaocha fangfa cheng yin 
fangzhi cuoshi shuju bu gongkai], Sina Blog (Dong Zhengwei's blog), 25 
February 13; ``Information Disclosure Request to Ministry of 
Environmental Protection for National Survey Data of Soil Pollution 
Conditions and Prevention and Control Methods'' [Shenqing huanbaobu 
xinxi gongkai quanguo turang wuran zhuangkuang diaocha shuju he fangzhi 
fangfa], Sina Blog (Dong Zhengwei's blog), 2 February 13; 
``Administrative Reconsideration Requests Ministry of Environmental 
Protection To Disclose Information on Soil Pollution Survey Data'' 
[Xingzheng fuyi qingqiu huanbaobu gongkai turang wuran diaocha shuju 
xinxi], Sina Blog (Dong Zhengwei's blog), 27 February 13.
    \123\Brian Spegele, ``China Environment Ministry Not Breathing 
Easy,'' Wall Street Journal, China Real Time Report (blog), 15 March 
13.
    \124\``Minister Zhou Shengxian's Speech at the National 
Environmental Protection System Open Government Information Work 
Meeting'' [Zhou shengxian buzhang zai quanguo huanbao xitong zhengfu 
xinxi gongkai gongzuo huiyi shang de jianghua], China Environment News, 
reprinted in the Ministry of Environmental Protection, 29 August 12.
    \125\National Development and Reform Commission, Major Fixed Asset 
Investment Project Social Stability Risk Assessment Provisional 
Measures [Zhongda guding zichan touze xiangmu shehui wending fengxian 
pinggu zanxing banfa], issued 16 August 12.
    \126\Keith Bradsher, ```Social Risk' Test Ordered by China for Big 
Projects,'' New York Times, 12 November 12.
    \127\``Minister Zhou Shengxian's Speech at the National 
Environmental Protection System Open Government Information Work 
Meeting'' [Zhou shengxian buzhang zai quanguo huanbao xitong zhengfu 
xinxi gongkai gongzuo huiyi shang de jianghua], China Environment News, 
reprinted in the Ministry of Environmental Protection, 29 August 12.
    \128\Ministry of Environmental Protection, ``Thoroughly Carry Out 
the 18th Party Congress Spirit, Vigorously Promote Ecological 
Civilization Construction, and Make Great Effort to Open a New Phase in 
Environmental Protection Work--Minister Zhou Shengxian's Speech at the 
2013 National Environmental Protection Work Meeting'' [Shenru guanche 
dang de shiba da jingshen dali tuijin shengtai wenming jianshe nuli 
kaichuang huanbao gongzuo xin jumian--zhou shengxian buzhang zai 2013 
nian quanguo huanjing baohu gongzuo huiyi shang de jianghua], 24 
January 13, section 2, item 3.3.
    \129\Ministry of Environmental Protection, ``National Environmental 
Protection `12th Five-Year' Plan Key Work Intra-Ministry Work 
Distribution Plan'' [Guojia huanjing baohu ``shierwu'' guihua zhongdian 
gongzuo bunei fengong fang'an], issued 29 November 12, item 10. It also 
mentioned implementing environmental education plans, promoting green 
lifestyles, and advocating for green production.
    \130\``Villagers to Battle Waste Plant,'' Radio Free Asia, 21 
August 12. In Guangdong province, authorities neglected to poll 
citizens' opinions regarding plans to build a Human Waste Disposal 
Plant incinerator near two villages and a reservoir. Residents 
reportedly wrote more than 10,000 complaint letters and in August 2012, 
more than 1,000 residents attended a town meeting to protest the plans. 
Feng Yongfeng, ``Many Falsehoods in Environmental Assessment Reports, 
Experts Suggest Revision of the Environmental Impact Assessment Law As 
Soon As Possible'' [Huanping baogao maoni duo zhuanjia jianyi jinzao 
xiugai huanjing yingxiang pingjiafa], Guangming Daily, reprinted in 
China Transparency, 13 January 13; Sui-Lee Wee and Adam Jourdan, ``In 
China, Public Anger Over Secrecy on Environment,'' Reuters, 10 March 
13.
    Notes to Section III--Civil Society

    \1\Wang Ming, ``Moving Toward Civil Society'' [Zouxiang gongmin 
shehui], Jilin University Journal of Social Sciences, Vol. 4, reprinted 
in China On-line Official Gateway, 2009; Chao Guo et al., ``Civil 
Society, Chinese Style: The Rise of the Nonprofit Sector in Post-Mao 
China,'' Nonprofit Quarterly, 25 October 12.
    \2\Fu Tao, Guo Ting, and Liu Haiying, ``An Analysis of the Diverse 
Forms of Public Advocacy in China,'' China Development Brief, March 
2013.
    \3\Shawn Shieh and Amanda Brown-Inz, ``Mapping China's Public 
Interest NGOs,'' China Development Brief, January 2013, 13.
    \4\Chao Guo et al., ``Civil Society, Chinese Style: The Rise of the 
Nonprofit Sector in Post-Mao China,'' Nonprofit Quarterly, 25 October 
12. Guo et al. note that millions of unregistered local groups ``engage 
in singing, dancing, exercising, martial arts, and other similar 
leisure activities.''
    \5\Wang Ming, ``Moving Toward Civil Society'' [Zouxiang gongmin 
shehui], Jilin University Journal of Social Sciences, Vol. 4, reprinted 
in China On-line Official Gateway, 2009.
    \6\Wang Su, ``Rural Cooperatives Exceed 600,000: Scholars Point to 
Non-Standardized Development'' [Nongmin hezuo she chao 60 wan jia 
xuezhe zhi duoshu fazhan bu guifan], Caixin, 16 January 13. Caixin 
reported in June 2013 that organic farming groups have begun to form. 
See Wang Su, ``New Model of Organic Farming Sprouts Up in Suburbs of 
Big Cities,'' Caixin, 20 June 13.
    \7\The term ``social organization'' is a ``broad category'' in 
Chinese official parlance, according to Chinese University of Hong Kong 
scholars Fengshi Wu and Kin-Man Chan, in that it is broadly inclusive 
of organizations that function as quasi- or semi-state-run 
organizations. See Fengshi Wu and Kin-Man Chan, ``Graduated Control and 
Beyond: The Evolving Government-NGO Relations,'' in China Perspectives, 
No. 3, 2012. China's ``mass organizations'' (qunzhong tuanti) such as 
the All-China Women's Federation, the All-China Federation of Trade 
Unions, and the Communist Youth League, are also commonly referred to 
as ``social organizations,'' and sometimes describe themselves as non-
governmental even though they function as quasi-governmental entities 
under government and Party leadership. See Yu Keping, ``China's Civil 
Society: Concepts, Classifications, and Institutional Environment'' 
[Zhongguo gongmin shehui: gainian, fenlei yu zhidu huanjing], Social 
Sciences in China, Issue No. 1, 2006.
    \8\According to statistics cited in the Chinese Academy of Social 
Sciences Blue Book on Developments in Philanthropy, government-
registered social organizations increased by 6.5-percent in 2012 from 
2011. In 2012, there were 268,000 registered social associations, a 5-
percent increase over 2011; 221,000 registered non-governmental, 
nonprofit organizations, an 8.3-percent increase over 2011; and 2,961 
registered foundations, a 13.3-percent increase over 2011. See Chang 
Hong, ``China Has a Total of 490,000 Social Organizations, Internet-
Based Public Interest Turning Into Micro-Blogging Public Interest 
Movement'' [Zhongguo gong you 49 wan shehui zuzhi wangluo gongyi xiang 
wei gongyi shehui yundong zhuanhua], People's Net, 31 May 13.
    \9\Chang Hong, ``China Has A Total of 490,000 Social Organizations, 
Internet-Based Public Interest Turning Into Micro-Blogging Public 
Interest Movement'' [Zhongguo gong you 49 wan shehui zuzhi wangluo 
gongyi xiang wei gongyi shehui yundong zhuanhua], People's Net, 31 May 
13; The International Center for Not-for-Profit Law, ``NGO Law Monitor: 
China,'' last visited 2 July 13; Fengshi Wu and Kin-man Chan, 
``Graduated Control and Beyond: The Evolving Government-NGO 
Relations,'' China Perspectives, No. 3, 2012, 10.
    \10\Wang Yiyin and Gong Liang, ``After Social Organizations Have 
Been `Loosened,' Then What?'' [Shehui zuzhi ``songbang'' hou zenme 
ban], Guangming Daily, 5 September 2012; He Dan, ``New Rules for NGOs 
To Improve Operations,'' China Daily, 17 April 13. According to the 
China Daily article, the director of the MCA Bureau of Administration 
of NGOs stated, ``at least 1 million NGOs either operate without legal 
identities or have to register as companies under the current 
registration policy.''
    \11\Fu Tao, Guo Ting, and Liu Haiying, ``An Analysis of the Diverse 
Forms of Public Advocacy in China,'' China Development Brief, March 
2013.
    \12\Wang Hairong, ``Springtime for NGOs,'' Beijing Review, 8 April 
13. A scholar from a government think tank, Yu Keping, estimates 
approximately three million ``unrecognized'' groups. Another group of 
scholars estimates ten million based on a presentation given by Wang 
Zhenyao, Dean of the China Philanthropy Institute at Beijing Normal 
University. See Chao Guo et al., ``Civil Society, Chinese Style: The 
Rise of the Nonprofit Sector in Post-Mao China,'' Nonprofit Quarterly, 
25 October 12.
    \13\Wan Jing, ``Six Lawyers Demand an Examination of the Legality 
of Civil Servant Physical Examination Standards'' [Liu lushi yaoqiu 
shencha gongwuyuan tijian biaozhun hefaxing wenti], Legal Daily, 30 
November 12; Liu Jin, ``Sending OGI Requests to 31 Provincial Education 
Bureaus About Information on Education for Disabled Children'' [Zhixin 
31 sheng jiaoyuting yaoqiu gongkai canji ertong jiaoyu xinxi], Southern 
Daily, 1 February 13.
    \14\Chris Buckley, ``China Takes Aim at Western Ideas,'' New York 
Times, 19 August 13; ``Mingjing News Magazine: Exclusive Entire Text of 
Disseminated Chinese Communist Document No. 9'' [Mingjing yuekan: dujia 
quanwen kanfa zhonggong 9 hao wenjian], Mingjing News, 19 August 13; 
``Ming Jing: Notification Regarding `Circular on Current State of 
Ideology' Printed and Distributed by General Office of CPC Central 
Committee,'' 1 September 13 (translated in Open Source Center, 23 
August 13).
    \15\``Full Text of Hu Jintao's Report at the 18th Party Congress'' 
[Hu jintao zai zhongguo gongchandang di shiba ci quanguo daibiao dahui 
shang de baogao], Xinhua, 17 November 12, section 7. The Outline of the 
Twelfth Five-Year Plan for National Economic and Social Development, 
issued in 2011, also contains the phrase ``lead in the healthy and 
orderly development of social organizations.'' See PRC Outline of the 
12th Five-Year Plan on National Economic and Social Development 
[Zhonghua renmin gongheguo guomin jingji he shehui fazhan di shierge 
wunian guihua gangyao], passed 14 March 11, issued 16 March 11, chapter 
39.
    \16\``Full Text of Hu Jintao's Report at the 18th Party Congress'' 
[Hu jintao zai zhongguo gongchandang di shiba ci quanguo daibiao dahui 
shang de baogao], Xinhua, 17 November 12, Section 7; Fengshi Wu and 
Kin-man Chan, ``Graduated Control and Beyond: The Evolving Government-
NGO Relations,'' China Perspectives, No. 3, 2012, 15. Wu and Chan note 
that the phrase ``Party leadership, government responsibility, 
society's cooperation, and public participation'' were used in Hu 
Jintao's central policy speech on ``social management innovation'' in 
February 2011. See also CECC, 2012 Annual Report, 10 October 12, 126.
    \17\Kang Xiaoqiang, ``Core Direction for the System of Modern 
Social Organizations'' [Xiandai shehui zuzhi tizhi de hexin quxiang], 
Study Times, 15 April 13; ``Full Text of Hu Jintao's Report at the 18th 
Party Congress'' [Hu jintao zai zhongguo gongchandang di shiba ci 
quanguo daibiao dahui shang de baogao], Xinhua, 17 November 12.
    \18\Fengshi Wu and Kin-man Chan, ``Graduated Control and Beyond: 
The Evolving Government-NGO Relations,'' China Perspectives, No. 3, 
2012, 11-13.
    \19\Patricia Thornton, ``The Advance of the Party: Transformation 
or Takeover of Urban Grassroots Society?'' China Quarterly, No. 213, 
March 2013, 15; Qiao Li, ``Party Building for Comprehensive Coverage of 
Social Organizations'' [Shehui zuzhi dangjian quan fugai], Liberation 
Daily, reprinted in Renmin Net, 25 October 12.
    \20\Patricia Thornton, ``The Advance of the Party: Transformation 
or Takeover of Urban Grassroots Society?'' China Quarterly, No. 213, 
March 2013, 3. See also China Development Brief description of the 
``Social Affairs Committee'' as a creation of the Communist Party and 
functioning to build Party representation, capacity, and stability in 
``social organizations,'' in ``Meet Your Local Social Affairs 
Committee,'' ChinaDevelopmentBrief, Policy Brief No.9, 23October 12.
    \21\Liu Jialin, ``Social Organization Appraisal Rating, Will Look 
at Record of Party-Building Work'' [Shehui zuzhi kaohe pingji yaokan 
dangjian gongzuo chengji], SouthernDaily, 13 May 13.
    \22\Zheng Dao, ``Chinese Public Interest Organization Wins 
`Stability Maintenance' Legal Suit'' [Zhongguo gongyi jigou yingde 
``weiwen'' guansi], Caixin, 25 March 13.
    \23\``Will China Loosen Up Social Management? Different NGOs Have 
Contrasting Views'' [Zhongguo shehui guanli hui fangsong? butong 
NGOkanfa buyi], RadioFree Asia,13 November 12.
    \24\``China Hauls Away Petitioners in Congress Crackdown,'' 
Associated Press, 6 November 12; ``Xu Zhiyong: On the New Citizens' 
Movement,'' reprinted in China Digital Times, 13 May 13.
    \25\Chinese Human Rights Defenders, ``Individuals Detained in 
Crackdown on Peaceful Assembly & Association,'' 17 August 13; Human 
Rights Watch, ``China: Nationwide Arrests of Activists, Critics 
Multiply,'' 30 August 13; Dui Hua Foundation, ``Government Notice Fuels 
Crackdown on Assembly as Subversion,'' Dui Hua Human Rights Journal, 19 
August 13.
    \26\Li Xiaorong, ``What's Behind the New Chinese Crackdown,'' New 
York Review of Books (blog), 29 July 13; Patrick Boehler, ``Leading 
Citizen Movement Activist Xu Zhiyong Arrested,'' South China Morning 
Post, 17 July 13. Beijing Public Security officials reportedly kept Xu 
under illegal home confinement beginning in April, criminally detained 
him on July 16, and formally arrested him on August 22. See Human 
Rights in China, ``Xu Zhiyong, Advocate of Disclosure of Officials 
Assets, Criminally Detained,'' 16 July 13; Chinese Human Rights 
Defenders, ``Individuals Detained in Crackdown on Peaceful Assembly & 
Association,'' 17 August 13; Chinese Human Rights Defenders, ``New 
Citizens' Movement Advocate Xu Zhiyong Is Arrested'' [Gongmin yundong 
changdaozhe xu zhiyong bei daibu], 24 August 13; ``Officials Detain Xu 
Zhiyong Amidst a Crackdown on Individuals Calling for Greater 
Government Accountability,'' Congressional-Executive Commission on 
China, 1 August 13.
    \27\``MCA Shuts Down Well-Known NGO `Transition Institute' During a 
Surprise Raid'' [Zhuming NGO ``chuanzhixing yanjiusuo'' bei minzheng 
bumen tuxi chachao qudi], Radio France Internationale, 18 July 13; ``Is 
Beijing Increasing Suppression of Citizen Movement? The NGO Transition 
Institute Is Shut Down'' [Beijing jiajin daya gongmin yundong? minjian 
zuzhi chuanzhixing yanjiusuo zao chafeng], Voice of America, 18 July 
13.
    \28\``MCA Shuts Down Well-Known NGO `Transition Institute' During a 
Surprise Raid'' [Zhuming NGO ``chuanzhixing yanjiusuo'' bei minzheng 
bumen tuxi chachao qudi], Radio France Internationale, 18 July 13; 
``Beijing Social Think-Tank Shut Down Amid Crackdown,'' Radio Free 
Asia, 19 July 13; ``Is Beijing Increasing Suppression of Citizen 
Movement? The NGO Transition Institute Is Shut Down'' [Beijing jiajin 
daya gongmin yundong? minjian zuzhi chuanzhixing yanjiusuo zao 
chafeng], Voice of America, 18 July 13.
    \29\Zheng Dao, ``Chinese Public Interest Organization Wins 
`Stability Maintenance' Legal Suit'' [Zhongguo gongyi jigou yingde 
``weiwen'' guansi], Caixin, 25 March 13. See also ``Anti-Discrimination 
NGO Wins Lawsuit Against Hotel in `Stability Maintenance' Case,'' 
Congressional-Executive Commission on China, 3 May 13.
    \30\Ibid.
    \31\``Repeatedly Harassed Volunteer Organization Sues Authorities 
for Unreasonable Eviction'' [Lushou daya zhiyuan jigou kong dangju wuli 
biqian], Radio Free Asia, 4 December 12; Fiona Tam, ``Workers' Voice of 
Shenzhen Takes a Beating in Crackdown,'' South China Morning Post, 6 
January 13.
    \32\Verna Yu, ``Shouwang Church Takes Legal Action Against Cops for 
Religious Persecution,'' South China Morning Post, 21 September 12.
    \33\State Council General Office, Circular Regarding the Division 
of Labor in Implementation of the ``State Council Institutional Reform 
and Functional Transformation Plan'' [Guowuyuan bangongting guanyu 
shishi ``guowuyuan jigou gaige he zhineng zhuanbian fang'an'' renwu 
fengong de tongzhi], 28 March 13.
    \34\Fengshi Wu and Kin-Man Chan, ``Graduated Control and Beyond: 
The Evolving Government-NGO Relations,'' China Perspectives, No. 3, 
2012, 10. According to Wu and Chan, ever since the Regulation on the 
Registration and Management of Social Organizations was amended in 
1998, ``[t]here have been high expectations of a new round of revisions 
. . . but none has appeared to date.''
    \35\Regulations on the Registration and Management of Social 
Associations [Shehui tuanti dengji guanli tiaoli], issued and effective 
25 October 98; Temporary Regulations on the Registration and Management 
of Non-Governmental, Nonprofit Organizations [Minban fei qiye danwei 
dengji guanli zanxing tiaoli], issued and effective 25 October 98; 
Regulations on the Management of Foundations [Jijinhui guanli tiaoli], 
issued 8 March 04, effective 1 June 04.
    \36\Lan Fang, ``New Regulations for Management of Social 
Organizations Will Be Released Within the Year'' [Shetuan guanli xingui 
jiang zai niannei chutai], Caixin, 29 March 13.
    \37\Chen Qiao, ``MCA Official: Social Organizations' Direct 
Registration Will Become Law at the End of the Year'' [Minzhengbu 
guanyuan: shehui zuzhi zhijie dengji niandi youfa keyi], Jinghua Times, 
3 June 13. Chen quotes MCA official Wang Jianjun who noted ``hub''-like 
social organizations and other ``intermediary'' organizations might 
become responsible for registration of some organizations.
    \38\Ibid.
    \39\Wang Yong, ``Yunnan Promotes the Development of Social 
Organizations by Seeking Comments on 4 Documents'' [Yunnan tuijin 
shehui zuzhi fazhan 4 wenjian zhengqiu yijian], China Philanthropy 
Times, 23 July 13.
    \40\Ibid. Yunnan province is not alone in prohibiting officials 
from jointly holding responsible positions in the non-state sector. 
See, e.g., Cheng Zhanpeng, ``Anhui: Government Officials Cannot Jointly 
Hold Positions at Associations, Social Groups, Etc.'' [Anhui: zhengfu 
gongwu renyuan bude zai xiehui deng shehui tuanti jianzhi], China News 
Service, 18 May 13.
    \41\Chao Guo et al., ``Civil Society, Chinese Style: The Rise of 
the Nonprofit Sector in Post-Mao China,'' Nonprofit Quarterly, 25 
October 12.
    \42\``Third Plenary Meeting of the First Session of the 12th 
National People's Congress: Full Text Record'' [Shierjie quanguo renda 
yici huiyi disan quanti huiyi wenzi shilu], Xinhua, 10 March 13.
    \43\Ibid.
    \44\Regulations on the Registration and Management of Social 
Associations [Shehui tuanti dengji guanli tiaoli], issued and effective 
25 October 98, art. 13(2).
    \45\``Third Plenary Meeting of the First Session of the 12th 
National People's Congress: Full Text Record'' [Shierjie quanguo renda 
yici huiyi disan quanti huiyi wenzi shilu], Xinhua, 10 March 13.
    \46\Raymond Li, ``Rights Groups Miss Out on Easing of Registration 
Rules for NGOs,'' South China Morning Post, 12 March 13.
    \47\Zheng Jinran and Xu Jingxi, ``Govt Plans To Give All NGOs Equal 
Treatment,'' China Daily, 8 May 12.
    \48\International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 22. China has signed, and stated 
its intent to ratify the ICCPR.
    \49\``19 Provinces in China Already Implementing Direct 
Registration of Social Organizations'' [Woguo 19 ge shengfen yi kaizhan 
huo shixing shehui zuzhi zhijie dengji], Beijing Times, reprinted in 
Ministry of Civil Affairs NPO Management Bureau, 16 February 13.
    \50\Tang Yue and He Dan, ```Spring' in the Air for NGOs?'' China 
Daily, 17 April 13.
    \51\Li Qiang, ``Social Organizations in the Province Increased by 
15% Last Year'' [Quansheng shehui zuzhi qunian zengzhang 15%], Southern 
Daily, 29 May 13.
    \52\Zhao Xinxing, ``Survey Shows: Newly Registered Public Interest 
Organizations Face Taxes, Increased Expenses, and Other Problems'' 
[Diaocha xianshi: xin zhuce gongyi zuzhi mianlin shuifei kaizhi da deng 
wenti], Southern Daily, 9 October 12. To gather the information, 
Zhongshan University's (Sun Yatsen University) Center on Philanthropy 
conducted the survey of approximately 10 public interest organizations. 
See Li Yulin, ``Tax Pressures on Grassroots NGOs as High as the 
Mountains: Tax Exemption Application Eligibility Is Difficult'' [Caogen 
NGO shuifu yali shanda: mianshui zige shenqing nan], Southern 
Metropolitan Daily, reprinted in China Development Brief, 28 January 
13. According to Southern Metropolitan Daily, one of the administrative 
hurdles for non-governmental, nonprofit organizations is obtaining tax-
exempt status.
    \53\Zhao Xinxing, ``Survey Shows: Newly Registered Public Interest 
Organizations Face Taxes, Increased Expenses, and Other Problems'' 
[Diaocha xianshi: xin zhuce gongyi zuzhi mianlin shuifei kaizhi da deng 
wenti], Southern Daily, 9 October 12; Li Yulin, ``Tax Pressures on 
Grassroots NGOs as High as the Mountains: Tax Exemption Application 
Eligibility Is Difficult'' [Caogen NGO shuifu yali shanda: mianshui 
zige shenqing nan], Southern Metropolitan Daily, reprinted in China 
Development Brief, 28 January 13.
    \54\Wang Huixian, ``Some Cities in Zhejiang Experiment With 
Allowing Social Organizations To Register Directly'' [Zhejiang bufen 
chengshi shixing shehui zuzhi zhijie dengji], Public Interest Times, 6 
November 12; Li Jia, ``Social Organization Direct Registration Not Yet 
Accomplished'' [Shehui zuzhi zhijie dengji jun wei bancheng], Beijing 
Youth Net, 2 April 13.
    \55\Lan Zhixin and Liu Jiaqi, ``NGOs `Transfer to Full 
Registration' in Progress'' [NGO ``zhuanzheng'' jinxing shi], First 
Financial Daily, 26 March 13.
    \56\Wei Mingyan, ``Four Kinds of Social Organizations in Beijing 
Will Start Direct Registration Next Month, Government-Organized 
Professional Associations Will Hasten Separation'' [Beijing silei 
shehui zuzhi xiayueqi zhijie dengji guanban hangye xiehui jiasu 
tuogou], Beijing News, 29 March 13.
    \57\Wang Ming, ``Suggestions on the Establishment of a 
Comprehensive System for Government Procurement of Public Services from 
Social Organizations'' [Guanyu jianli jianquan zhengfu xiang shehui 
zuzhi goumai gonggong fuwu tizhi de jianyi], Social Welfare and 
Charitable Matters Promotion, reprinted in Ministry of Civil Affairs, 
26 March 13; Andreas Fulda, ``Government Procurement of CSO Services in 
the PR China: Doing the Party's Work?'' China Policy Institute Policy 
Paper, No. 4, 2013, 2.
    \58\``Li Keqiang's Speech at the Teleconference To Mobilize the 
Transformation of the State Council's Organizational Functions'' [Li 
keqiang: zai guowuyuan jigou zhineng zhuanbian dongyuan dianshi dianhua 
huiyi shang de jianghua], Xinhua, 15 May 13.
    \59\Shawn Shieh and Amanda Brown-Inz, ``Mapping China's Public 
Interest NGOs,'' China Development Brief, 14 January 13, 20.
    \60\See, e.g., Huang Farong, ``Policy Suggestions To Further 
Improve Mechanisms by Which the Shanghai Government Procures Public 
Services From Social Organizations'' [Guanyu jinyibu wanshan benshi 
zhengfu xiang shehui zuzhi goumai gonggong fuwu jizhi de jianyi], 
Shanghai Municipal People's Political Consultative Conference, 13 May 
13; Fang Xiangwen and Xie Yanmei, ``An Enlightening Record of 
Guangdong's Social Organization Reform'' [Guangdong shehui zuzhi gaige 
qishi lu], China Social Organizations, Vol. 1, 2013, reprinted in 
Ministry of Civil Affairs China NPO Management Bureau, 30 March 13.
    \61\Wang Ming, ``Suggestions on the Establishment of a 
Comprehensive System for Government Procurement of Public Services From 
Social Organizations'' [Guanyu jianli jianquan zhengfu xiang shehui 
zuzhi goumai gonggong fuwu tizhi de jianyi], Social Welfare and 
Charitable Matters Promotion, reprinted in Ministry of Civil Affairs, 
26 March 13; ``People's Daily Suggestion: Standardize Government 
Procurement of Public Services'' [Renmin ribao jianyan: guifan zhengfu 
goumai gonggong fuwu], People's Daily, 20 March 13.
    \62\``Li Keqiang's Speech at the Teleconference To Mobilize the 
Transformation of the State Council's Organizational Functions'' [Li 
keqiang: zai guowuyuan jigou zhineng zhuanbian dongyuan dianshi dianhua 
huiyi shang de jianghua], Xinhua, 15 May 13.
    \63\``Chinese Government's NGO Funding Peaks in 2012,'' Xinhua, 
reprinted in China Daily, 13 February 13; Zhang Xuetao, ``Next Year, 
The Government Will Continue To Contract NGO Services'' [Zhengfu 
mingnian jixu goumai shehui zuzhi fuwu], Philanthropy Times, 18 
December 12.
    \64\Zhang Tianjiao et al., ``Zhang Shuqin: Public Interest Needs 
Greater Understanding'' [Zhang shuqin: minjian gongyi xuyao gengduo 
lijie], Xinhua, 19 February 13.
    \65\Mai Fengzhuang and Li Feng, ``Government Procurement of 
Services: This Close, That Far'' [Zhengfu goumai fuwu: zheme jin, name 
yuan], Foshan Daily, 17 September 12.
    \66\Fengshi Wu and Kin-Man Chan, ``Graduated Control and Beyond: 
The Evolving Government-NGO Relations,'' China Perspectives, No. 3, 
2012, 17.
    \67\Zhao Yanhong, ``CASS Law Blue Book: China's Charity System Has 
Legal Gaps'' [Shekeyuan fazhi lanpishu: woguo cishan zhidu tixi cunzai 
henduo falu kongbai], People's Daily, reprinted in China Daily, 25 
February 2013.
    \68\China Academy of Social Sciences Institute of Law, The Annual 
Report on China's Rule of Law No. 11 (2013), [Zhongguo fazhi fazhan 
baogao No. 11 (2013)], (Beijing: Social Sciences Academic Press, 2013), 
26.
    \69\Zheng Mingda, ``Charity Legislation: Release the Strength of 
Philanthropy'' [Cishan lifa: shifang gengduo de cishan nengliang], Ban 
Yue Tan, 20 February 13, Vol. 3.
    \70\Zhang Zhipeng, ``Let Legal Entity Status Help Advance the 
`Rapid Development' of the Religious Charity Sector'' [Rang falu shiti 
diwei zhu zhun zongjiao gongyi zishan shiye ``tengfei''], China 
Ethnicity News, 18 June 13.
    \71\``MCA: Promoting a Charity Law, Will Establish China Charity 
Alliance'' [Minzhengbu: tuidong cishan lifa ni chengli zhongguo cishan 
lianhehui], China News Service, reprinted in Beijing News, 13 March 13.
    \72\Zou Wei and Hu Hao, ``Charity Law Already Entered Drafting 
Phase'' [Cishan shiyefa yi jinru qicao jieduan], Xinhua, 28 December 
12.
    \73\Wang Wei et al., ``Five Questions About Charity (Question 3): 
Who Watches Over Our Donations?'' [Cishan wuwen zhi sanwen: shui lai 
jiandu women de juankuan?], Xinhua, 31 July 13.
    \74\Edward Wong, ``After Quake, Donors Shun Aid Groups Run by 
China,'' New York Times, 22 April 13.
    \75\Amanda Brown-Inz, ``View From the Media: The Mysterious Decimal 
Point,'' China Development Brief, 17 April 13. The article features a 
story on alleged financial malfeasance at China Children's Charity.
    \76\Ma Xueling and Ding Dong, ``CASS: Reconstruction of Red Cross's 
Public Credibility Is More Difficult Than Expected'' [Shekeyuan baogao: 
honghui shehui gongxinli zhongjian zhi jiannan yuanchao yuqi], China 
News Service, 31 May 13; ``Survey: 60 Percent of Interviewees Believe 
in Non-Governmental Charitable Organizations'' [Diaocha: liucheng 
shoufangzhe xinren minjian cishan jigou], China Youth International, 5 
May 13.
    \77\Zheng Mingda, ``Establishing a Charity Law: Releasing the 
Strength of Charity'' [Cishan lifa: shifang gengduo de cishan 
nengliang], Fortnightly Review, 20 February 13.
    \78\``Report Says That Donations to Red Cross Shrank by Almost 30 
Percent This Year, Public Really Wants Transparency'' [Baogao cheng 
honghui juanzengliang jiangjin sancheng, gongzhong zuipan gongkai 
touming], Mirror, 31 May 13.
    \79\Karla Simon, ``Trends in Chinese Transparency and 
Philanthropy,'' Alliance, 6 February 13.
    \80\Colleen Lee and Ng Kang-chung, ``Legco Approves HK$100m Sichuan 
Quake Donation,'' South China Morning Post, 4 May 13.
    \81\``The Ya'an Earthquake: Mainland, Taiwan, Hong Kong and Macau 
`Refuse To Donate''' [Ya'an dizhen, liang'an sandi qi ``kangjuan''], 
Radio Free Asia, 2 May 13.
    \82\``Survey: 60 Percent of Interviewees Believe in Non-
Governmental Charitable Organizations'' [Diaocha: liucheng shoufangzhe 
xinren minjian cishan jigou], China National Radio, reprinted in China 
Youth International, 5 May 13.
    \83\Chang Meng, ``A Red Cross To Bear,'' Global Times, 26 April 13. 
Although the Global Times notes that donations to the Red Cross 
eventually did outstrip those to private foundations, the Wall Street 
Journal China Real Time Report reported that ``In the first day after a 
magnitude 7.0 earthquake hit the county of Lushan in Sichuan, the Red 
Cross received roughly 140,000 yuan ($22,700) in donations, compared to 
10 million taken in by martial arts star Jet Li's One Foundation.'' See 
William Kazer, ``China's Red Cross Tries To Rebuild After Self-
Inflicted Disaster,'' Wall Street Journal, China Real Time Report 
(blog), 30 April 13.
    \84\Yang Jingjie, ``Global Fund Phases Out China Projects Due To 
Finance Shortfalls,'' Global Times, 1 February 12; China Global Fund 
Watch Newsletter, Issue No. 18, January 2012. According to The Global 
Fund to Fight AIDS, Tuberculosis and Malaria China portfolio 
information, The Global Fund has disbursed US$763,385,847 to China. See 
The Global Fund to Fight AIDS, Tuberculosis and Malaria, ``Investing 
in: China,'' last visited 26 June 13.
    \85\Zhang Tao, ``A New Paradigm of AIDS Governance,'' China Xiehe 
Medical University Publishing House, May 2012, 71-74; UNAIDS China 
Office, David Shallcross and Nana Taona Kuo, ``Summary of `The 
Expectations and Realities of NGO Registration: A Study of HIV/AIDS 
Groups in Sichuan and Yunnan,''' China Development Brief, 12 December 
12.
    \86\Nicole A. Szlezak, The Making of Global Health Governance: 
China and the Global Fund to Fight AIDS, Tuberculosis, and Malaria (New 
York: Palgrave MacMillan, 2012), 124-127, 133-143.
    \87\Hui Hongtao, ``We Are the Bridge!--A Successful Advocacy Case 
of Promoting Communication Between the HIV-Affected Community and the 
Center for Disease Control (CDC) in Heilongjiang Province,'' Asia 
Catalyst, 10 May 13.
    \88\Food and Drug Safety, Public Health, and the Environment in 
China, Hearing of the Congressional-Executive Commission on China, 22 
May 13, Testimony of Yanzhong Huang, Senior Fellow for Global Health, 
Council on Foreign Relations and Associate Professor and Director of 
the Center for Global Health Studies, Seton Hall University.
    \89\Lan Fang, ``Gov'ts, NGOs Increasingly Cooperating To Solve 
Social Problems,'' Caixin, 7 November 12; Du Yongtao et al., ``Li 
Keqiang Meets With People Living With AIDS, Says He Wants To Hear 
Opinions From Grassroots Organizations'' [Li keqiang huijian aizibing 
huanzhe cheng yao ting caogen zuzhi yijian], China News Service, 
reprinted in Sina, 28 November 12.
    \90\Li Yang, ``Fighting a Dreaded Disease,'' China Daily, 1 
December 12; Du Yongtao et al., ``Li Keqiang Meets With People Living 
With AIDS, Says He Wants To Hear Opinions From Grassroots 
Organizations'' [Li keqiang huijian aizibing huanzhe cheng yao ting 
caogen zuzhi yijian], China News Service, reprinted in Sina, 28 
November 12.
    \91\Du Yongtao et al., ``Li Keqiang Meets with People Living with 
AIDS, Says He Wants To Hear Opinions From Grassroots Organizations'' 
[Li keqiang huijian aizibing huanzhe cheng yao ting caogen zuzhi 
yijian], China News Service, reprinted in Sina, 28 November 12.
    \92\Office of the Inspector General, ``Diagnostic Review of Global 
Fund Grants to the People's Republic of China,'' The Global Fund to 
Fight AIDS, Tuberculosis and Malaria, 23 October 12, 19, para. 68.
    Notes to Section III--Institutions of Democratic Governance

    \1\John Dotson, ``The China Rising Leaders Project, Part 2: 
Outcomes of the Chinese Communist Party's 18th National Congress,'' 
U.S.-China Economic and Security Review Commission, 21 December 12, 4.
    \2\Alice Miller, ``The New Party Politburo Leadership,'' China 
Leadership Monitor, Hoover Institute, Stanford University, No. 40 
(Winter 2013), 14 January 13, 2-5. This article contains additional 
information about the collective characteristics of the new Party 
Central Committee. Besides Xi, other people selected for the top 
leadership positions in the powerful seven-member Party Central 
Committee Political Bureau Standing Committee include Li Keqiang, Zhang 
Dejiang, Yu Zhengsheng, Liu Yunshan, Wang Qishan, and Zhang Gaoli. For 
information on these leaders' possible views toward economic reform, 
see Barry Naughton, ``Signaling Change: New Leaders Begin the Search 
for Economic Reform,'' China Leadership Monitor, Hoover Institute, 
Stanford University, No. 40 (Winter 2013), 14 January 13.
    \3\John Dotson, ``The China Rising Leaders Project, Part 2: 
Outcomes of the Chinese Communist Party's 18th National Congress,'' 
U.S.-China Economic and Security Review Commission, 21 December 12, 5; 
Benjamin Kang Lim, ``Exclusive: China's Backroom Powerbrokers Block 
Reform Candidates--Sources,'' Reuters, 20 November 12. For more 
information on the new cohort of leaders, see Alice Miller, ``The New 
Party Politburo Leadership,'' China Leadership Monitor, Hoover 
Institute, Stanford University, No. 40 (Winter 2013), 14 January 13, 1.
    \4\John Dotson, ``The China Rising Leaders Project, Part 2: 
Outcomes of the Chinese Communist Party's 18th National Congress,'' 
U.S.-China Economic and Security Review Commission, 21 December 12, 12.
    \5\Ibid., 5; Alice Miller, ``The New Party Politburo Leadership'' 
China Leadership Monitor, Hoover Institute, Stanford University, No. 40 
(Winter 2013), 14 January 13, 11-12. For information about the downfall 
of Bo Xilai and his wife, Gu Kailai, see CECC, 2012 Annual Report, 10 
October 12, 131.
    \6\John Dotson, ``The China Rising Leaders Project, Part 2: 
Outcomes of the Chinese Communist Party's 18th National Congress,'' 
U.S.-China Economic and Security Review Commission, 21 December 12, 5. 
For information about the downfall of Bo Xilai and his wife, Gu Kailai, 
see CECC, 2012 Annual Report, 10 October 12, 131.
    \7\Alice Miller, ``The New Party Politburo Leadership,'' China 
Leadership Monitor, Hoover Institute, Stanford University, No. 40 
(Winter 2013), 14 January 13, 1-2, 10.
    \8\``A New Strategic Roadmap for Sino-American Relations,'' 
Carnegie Endowment for International Peace, 2 April 13.
    \9\Chris Buckley, ``China's New President Nods to Public Concerns, 
But Defends Power at Top,'' New York Times, 14 March 13; Russell Leigh 
Moses, ``Xi Set To Slow Down on Reform? Signs Point Other Way,'' Wall 
Street Journal, China Real Time Report (blog), 18 March 13; ``A New 
Strategic Roadmap for Sino-American Relations,'' Carnegie Endowment for 
International Peace, 2 April 13.
    \10\Joseph Fewsmith, ``The 18th Party Congress: Testing the Limits 
of Institutionalization,'' China Leadership Monitor, Hoover Institute, 
Stanford University, No. 40 (Winter 2013), 14 January 13, 1-3; John 
Dotson, ``The China Rising Leaders Project, Part 2: Outcomes of the 
Chinese Communist Party's 18th National Congress,'' U.S.-China Economic 
and Security Review Commission, 21 December 12, 18-19.
    \11\``Full Text of Resolution on Amendment to CPC Constitution,'' 
Xinhua, 14 November 12. The new language quoted in the text is infused 
throughout the Articles of the Constitution. In addition, revisions 
enshrined the system of ``socialism with Chinese characteristics'' as 
China's path and included the promotion of ``ecological civilization'' 
as a long-term task that is to be incorporated into all aspects and 
processes of advancing economic, political, cultural, and social 
progress. For more information, see Section II--the Environment.
    \12\Chinese Communist Party Constitution, adopted 6 September 82, 
amended 1 November 87, 18 October 92, 18 September 97, 14 November 02, 
21 October 07, 14 November 12.
    \13\For detailed information about the origins and meaning of this 
phrase, see Joseph Fewsmith, ``Promoting the Scientific Development 
Concept,'' China Leadership Monitor, Hoover Institute, Stanford 
University, No. 11 (Summer 2004), 30 July 04.
    \14\David Shambaugh, ``Don't Expect Reform From China's New 
Leaders,'' Washington Post, 15 November 12; Elizabeth Economy, 
``China's New Leaders: No Reform Dream Team,'' Council on Foreign 
Relations, Asia Unbound (blog), 15 November 12; China's New Leadership 
and Implications for the United States, Hearing of the U.S.-China 
Economic and Security Review Commission, 7 February 13, Written 
Testimony of Cheng Li, Director of Research and Senior Fellow, John L. 
Thornton China Center, Brookings Institution; Chris Buckley, ``China's 
New President Nods to Public Concerns, But Defends Power at Top,'' New 
York Times, 14 March 13. The New York Times article quotes views from 
people inside China. Bruce Gilley, Jamestown Foundation, ``China's New 
Leaders To Strengthen the Party-State,'' China Brief, Vol. 12, No. 23, 
30 November 12. Prof. Gilley asserts that ``liberalizing political 
reforms are off the table.'' Scott Kennedy, ``China's New Leadership: 
Econ Reform Yes, Political Reform No,'' The China Track (blog), 15 
November 12; Willy Lam, Jamestown Foundation, ``National People's 
Congress Marks Sharp Turn Toward Conservatism,'' China Brief, Vol. 13, 
No. 6, 15 March 13.
    \15\Stephen Roach, ``China's Dream Team,'' Project Syndicate, 28 
November 12; Ian Johnson, ``A Promise To Tackle China's Problems, But 
Few Hints of a Shift in Path,'' New York Times, 15 November 12. A 
Chinese human rights lawyer remarked that ``[t]his is quite a mediocre 
lineup, and we'll have to wait and see what they do.''
    \16\Chris Buckley, ``Vows of Change in China Belie Private 
Warning,'' New York Times, 14 February 13.
    \17\Ibid.; Andrew Jacobs, ``In China, New Premier Says He Seeks a 
Just Society,'' New York Times, 17 March 13.
    \18\Russell Leigh Moses, ``Bold Break: What Is Xi Up To?'' Wall 
Street Journal, China Real Time Report (blog), 5 December 12.
    \19\Russell Leigh Moses, ``Xi Set To Slow Down on Reform? Signs 
Point Other Way,'' Wall Street Journal, China Real Time Report (blog), 
18 March 13. For more information on the ``China Dream,'' see ``Xi 
Jinping: Speech at the First Meeting of the 12th National People's 
Congress'' [Xi jinping: zai di shier jie quanguo renmin daibiao dahui 
diyici huiyishang de jianghua], Xinhua, 17 March 13; ``Wang Yiwei: 
China's Dream Should Also Be the World's Dream'' [Wang yiwei: zhongguo 
meng ye ying shi shijie meng], Global Times, reprinted in Xinhua, 6 
March 13. For one analysis of the ``China Dream,'' see ``China--Xi 
Jinping's `Chinese Dream' Suggests Counter to Perceived Appeal of US,'' 
Open Source Center, 22 March 13.
    \20\Choi Chi-yuk, ``Xi Jinping Vows To Uphold Constitution and Rule 
of Law,'' South China Morning Post, 25 February 13.
    \21\Chris Buckley, ``Vows of Change in China Belie Private 
Warning,'' New York Times, 14 February 13. This article reported that 
Xi Jinping's statement appeared in a summary of a speech that was 
circulated among Party members during Xi's visit to Guangdong province 
but that was not publicized.
    \22\``Xi Jinping Urges CPC To Accept Criticism,'' Xinhua, reprinted 
in Global Times, 7 February 13. According to the Xinhua article, Xi 
Jinping said ``[t]he CPC should be able to put up with sharp criticism, 
correct mistakes if it has committed them and avoid them if it has 
not.'' Criticism from non-Party members, he reportedly said, could help 
the Party find, analyze, and resolve problems. Ira Belkin, ``Maoist 
Attitude to Dissent Is Blocking China's Road to the Rule of Law,'' 
South China Morning Post, 8 April 13.
    \23\Ira Belkin, ``Maoist Attitude to Dissent Is Blocking China's 
Road to the Rule of Law,'' South China Morning Post, 8 April 13.
    \24\Ibid. This article reports that the Party-state seems to ignore 
the constitution and laws in some cases involving perceived enemies. 
``Spirit of the Central Propaganda Work Meeting: Prohibits the Media 
From Opposing the Party, Opposing Maoism, and Opposing Marxism-
Leninism'' [Zhongyang xuanchuan gongzuo huiyi jingshen: jinzhi meiti 
fan dang fan mao fan malie], Aboluo Net, 31 March 13.
    \25\Susan Lawrence and Michael Martin, ``Understanding China's 
Political System,'' Congressional Research Service, 20 March 13, 2, 5-
6.
    \26\``State Council Institutional Reform and Functional 
Transformation Plan'' [Guowuyuan jigou gaige he zhineng zhuanbian 
fang'an], Xinhua, 10 March 13; ``Communique of the Second Session of 
the 18th CPC Central Committee'' [Zhongguo gongchandang di shiba jie 
zhongyang weiyuanhui di erci quanti huiyi gongbao], Xinhua, 28 February 
13 (Open Source Center, 13 March 13). For a graphic depiction of these 
changes, see ``Infographic: China's New Streamlined Government,'' South 
China Morning Post, 18 March 13; Zhao Chao and Cui Qingxin, ``New Round 
of State Council Institutional Reform To Commence, State Council 
Ministry Groups Reduced to 25'' [Xin yilun guowuyuan jigou gaige jiang 
qidong guowuyuan zucheng bumen jianzhi 25 ge], Xinhua, 10 March 13.
    \27\``State Council Institutional Reform and Functional 
Transformation Plan'' [Guowuyuan jigou gaige he zhineng zhuanbian 
fang'an], Xinhua, 10 March 13; ``Communique of the Second Session of 
the 18th CPC Central Committee'' [Zhongguo gongchandang di shiba jie 
zhongyang weiyuanhui di erci quanti huiyi gongbao], Xinhua, 28 February 
13 (Open Source Center, 13 March 13).
    \28\``State Council Institutional Reform and Functional 
Transformation Plan'' [Guowuyuan jigou gaige he zhineng zhuanbian 
fang'an], Xinhua, 10 March 13; State Council General Office, Circular 
Regarding Division of Labor in Implementing the ``State Council 
Institutional Reform and Functional Transformation Plan'' [Guanyu 
shishi ``guowuyuan jigou gaige he zhineng zhuanbian fang'an'' renwu 
fengong de tongzhi], 28 March 13. Authorities appear to have already 
started on the top five tasks on that list (the Xinhua article provides 
more details regarding the first three of the tasks listed below). (1) 
Separate the commercial side of the administration of railways from the 
regulatory functions by establishing the China Railway Corporation and 
establishing the State Railway Administration under the Ministry of 
Transportation. (2) Establish the General Administration of Food and 
Drug Management and Supervision and combine the responsibilities of 
several different offices within this administration. (3) Combine some 
functions of the Population and Family Planning Commission and the 
Ministry of Health into a new institution, the National Health and 
Family Planning Commission, and eliminate the two old institutions. (4) 
Integrate the registration responsibilities for housing, forests, 
grasslands, and land. (5) Strictly control new items that require 
administrative examination and approval. From now on, in general, 
agencies will not have the liberty to require new licenses. If there is 
a definite need for a new license for special needs, then it must 
strictly adhere to administrative license provisions. Strengthen the 
demonstration of the legality, necessity, and rationality of 
examination process.
    \29\State Council General Office, Circular Regarding Division of 
Labor in Implementing the ``State Council Institutional Reform and 
Functional Transformation Plan'' [Guanyu shishi ``guowuyuan jigou gaige 
he zhineng zhuanbian fang'an'' renwu fengong de tongzhi], 28 March 13.
    \30\Ma Kai, ``Explanation of State Council Institutional Reform and 
Functional Transformation'' [Guanyu guowuyuan jigou gaige he zhineng 
zhuanbian fang'an de shuoming], Xinhua, 10 March 13 (Open Source 
Center, 10 March 13).
    \31\International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 25; UN Office of the High 
Commissioner for Human Rights, General Comment No. 25: The Right To 
Participate in Public Affairs, Voting Rights and the Right of Equal 
Access to Public Service, CCPR/C/21/Rev.1/Add.7, 7 December 96. Under 
General Comment 25 to the ICCPR, the language requires that: ``Where 
citizens participate in the conduct of public affairs through freely 
chosen representatives, it is implicit in article 25 that those 
representatives do in fact exercise governmental power and that they 
are accountable through the electoral process for their exercise of 
that power'' (Item 7); ``The right to vote at elections and referenda 
must be established by law and may be subject only to reasonable 
restrictions . . . [p]arty membership should not be a condition of 
eligibility to vote, nor a ground of disqualification'' (Item 10); 
``Freedom of expression, assembly and association are essential 
conditions for the effective exercise of the right to vote and must be 
fully protected . . . .'' (Item 12); ``The right of persons to stand 
for election should not be limited unreasonably by requiring candidates 
to be members of parties or of specific parties . . .'' (Item 17); and 
an ``independent electoral authority should be established to supervise 
the electoral process and to ensure that it is conducted fairly, 
impartially and in accordance with established laws which are 
compatible with the Covenant . . . .'' (Item 20).
    \32\International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76. China has signed, but has not yet 
ratified, the ICCPR. In the 2009-2010 National Human Rights Action Plan 
issued by the Chinese government in April 2009, officials stated that 
the ``essentials'' of the ICCPR were some of the ``fundamental 
principles'' on which the plan was framed, and that the government 
``will continue legislative, judicial and administrative reforms to 
make domestic laws better link with this Covenant, and prepare the 
ground for approval of the ICCPR.'' State Council Information Office, 
``National Human Rights Action Plan of China (2009-2010),'' reprinted 
in Xinhua, 13 April 09, Introduction, sec. V(1).
    \33\Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A(III) of 10 December 48, art. 21. 
``Everyone has the right to take part in the government of his country, 
directly or through freely chosen representatives . . . . The will of 
the people shall be the basis of the authority of government, this 
shall be expressed in periodic and genuine elections which shall be by 
universal and equal suffrage and shall be held by secret vote or by 
equivalent free voting procedures.''
    \34\``Supreme People's Court Work Report (Full Text)'' [Zuigao 
renmin fayuan gongzuo baogao (quanwen)], Legal Daily, reprinted in 
China Law Info, 22 March 13. Wang Shengjun, then Chief Justice, noted 
that in the last five years, the Supreme People's Court has been under 
the ``firm leadership of the Party . . . .'' Keith Zhai, ``Security 
Tsar Meng Jianzhu Criticizes Interference in Court Proceedings,'' South 
China Morning Post, 9 January 13.
    \35\David Bandurski, ``Control, On the Shores of China's Dream,'' 
China Media Project, 22 May 13; ``Full Text: Work Report of NPC 
Standing Committee,'' Xinhua, 20 March 13.
    \36\``Full Text: Work Report of NPC Standing Committee,'' Xinhua, 
20 March 13. In the NPC Standing Committee report to the NPC, Wu 
Bangguo emphasized this relationship: the NPC ``consciously upheld the 
Party's leadership over the NPC's Work; . . . carried out major 
decisions and arrangements of the Party Central Committee; turned the 
views of the Party into the will of the state through statutory 
procedures; and placed people recommended by the Party organization in 
leadership positions in bodies of state power through statutory 
procedures.''
    \37\``The Percentage of Leading Cadres Among the 2,987 Delegates 
Decreases, The Number of Frontline Workers and Rural Residents 
Increases'' [2987 ming daibiao zhong lingdao ganbu bili jiang yixian 
gongren nongmin daibiao zeng], China Net, 27 February 13.
    \38\``County-Level and Above Party Committees in Our Nation Will 
Establish Human Resources Leading Work Groups'' [Woguo xianji yishang 
difang dangwei jiang jianli rencai gongzuo lingdao xiaozu], Xinhua, 
reprinted in Chinese Communist Party Information Net, 26 September 12. 
The opinion regarding strengthening ``Party management over human 
resources'' stipulates all Party committees at the county level and 
above must establish a ``human resources leading small group,'' and all 
related major documents and activity arrangements must be examined and 
approved through the small group. Major items are examined and approved 
by the Party committee at the same level.
    \39\Fang Li, ``Party Organizations in Accounting Firms Reach 
3,264'' [Quanguo kuaijishi shiwusuo dang zuzhi da 3264 ge], Guangming 
Daily, reprinted in United Front Work Department, 18 September 12.
    \40\Li Xuanliang and Zhang Dongbo, ``Xi Jinping: Build a 
Victorious, First Rate, Modernized People's Armed Police That Obeys the 
Party's Commands'' [Xi jinping: jianshe tingdang zhihui neng da 
shengzhang zuofeng youliang de xiandaihua wuzhuang jingcha budui], 
Xinhua, 29 January 13.
    \41\``Well-Known Chinese Web Sites Establish Party Organizations 
One After Another'' [Zhongguo ge zhiming wangzhan fenfen chengli dang 
zuzhi], BBC, 11 January 13.
    \42\Jonathan Kaiman, ``China Keeps a Close Eye on University 
Student Groups,'' Los Angeles Times, 9 December 12.
    \43\Qiao Li, ``The Party Seeks To Establish a Presence in All 
Social Organizations'' [Shehui zuzhi dangjian quan fugai], Liberation 
Daily, reprinted in People's Daily, 25 October 12; Patricia Thornton, 
``The Advance of the Party: Transformation or Takeover of Urban 
Grassroots Society?'' China Quarterly, Vol. 213 (March 2013), 9-11.
    \44\``Policy Brief No. 9 (October 2012): Meet Your Local Social 
Affairs Committee,'' China Development Brief, 23 October 12. According 
to this article, the Committees also provided funding for 
administrators and assistants for the Party groups. Qiao Li, ``The 
Party Seeks To Establish a Presence in All Social Organizations'' 
[Shehui zuzhi dangjian quan fugai], Liberation Daily, reprinted in 
People's Daily, 25 October 12.
    \45\Patricia Thornton, ``The Advance of the Party: Transformation 
or Takeover of Urban Grassroots Society?'' China Quarterly, Vol. 213 
(March 2013), 9-11.
    \46\Ibid.
    \47\Chris Buckley, ``China Takes Aim at Western Ideas,'' New York 
Times, 19 August 13; Chen Xi, ``Mingjing Monthly: Exclusive Entire Text 
of Disseminated Chinese Communist Document No. 9'' [Mingjing yuekan: 
dujia quanwen kanfa zhonggong 9 hao wenjian], Mingjing Monthly, 19 
August 13; ``Ming Jing: Notification Regarding `Circular on Current 
State of Ideology' Printed and Distributed by General Office of CPC 
Central Committee,'' Open Source Center, 21 August 13.
    \48\Ibid.
    \49\Chris Buckley, ``China Warns Officials Against `Dangerous' 
Western Values,'' New York Times, 13 May 13.
    \50\David Bandurski, ``Censors, Show Your Swords!'' China Media 
Project, 4 September 13.
    \51\``China's Struggle Sessions,'' Wall Street Journal, 4 September 
13.
    \52\Qian Gang, ``The Uncertain Death of `Constitutionalism,''' 
China Media Project, 2 September 13; David Bandurski, ``China's 
Constitutional Debate,'' China Media Project, 14 August 13.
    \53\``Chinese Communist Party 16 Item Opinion To Strengthen Higher 
Education Young Teachers' Political Thought Work'' [Zhonggong 16 tiao 
yijian jiaqiang gaoxiao qingnian jiaoshi sixiang zhengzhi gongzuo], 
Ministry of Education, reprinted in People's Daily, 28 May 13.
    \54\National Development and Reform Commission, Major Fixed Asset 
Investment Project Social Stability Risk Assessment Provisional 
Measures [Guojia fazhan gaigewei zhongda guding zichan touzi xiangmu 
shehui wending fengxian pinggu zanxing banfa], issued 16 August 12, 
art. 1.
    \55\National Development and Reform Commission, Major Fixed Asset 
Investment Project Social Stability Risk Assessment Provisional 
Measures [Guojia fazhan gaigewei zhongda guding zichan touzi xiangmu 
shehui wending fengxian pinggu zanxing banfa], issued 16 August 12.
    \56\Ibid., art. 8.
    \57\Liu Chunxiang, ``Nanjing Trash Generator Project Draws Civic 
Evaluation: `Social Risk Grade' To Determine Project's Life or Death'' 
[Nanjing laji fadian xiangmu yinru minjian pinggu ``shehui fengxian 
pingfen'' ding shengsi], 21st Century Business Herald, 12 September 12.
    \58\Ibid.
    \59\Chinese Human Rights Defenders, ``Individuals Detained in 
Crackdown on Peaceful Assembly & Association,'' 18 September 13.
    \60\Ibid.; Xu Zhiyong, ``China's New Citizens' Movement'' [Zhongguo 
xin gongmin yundong], Blogspot (Xu Zhiyong's blog), 15 November 12.
    \61\Chinese Human Rights Defenders, ``Individuals Detained in 
Crackdown on Peaceful Assembly & Association,'' 27 August 13; ``Leader 
of Citizens Movement That Held Dinner Party Debates Is Formally 
Arrested in Beijing,'' Associated Press, reprinted in Washington Post, 
23 August 13; Chinese Human Rights Defenders, ``China Human Rights 
Briefing, August 15-21, 2013,'' 22 August 13.
    \62\Dui Hua Foundation, ``Government Notice Fuels Crackdown on 
Assembly as Subversion,'' Dui Hua Human Rights Journal, 19 August 13.
    \63\Chris Buckley, ``China Takes Aim at Western Ideas,'' New York 
Times, 19 August 13; Chen Xi, ``Mingjing Monthly: Exclusive Entire Text 
of Disseminated Chinese Communist Document No. 9'' [Mingjing yuekan: 
dujia quanwen kanfa zhonggong 9 hao wenjian], Mingjing Monthly, 19 
August 13; ``Ming Jing: Notification Regarding `Circular on Current 
State of Ideology' Printed and Distributed by General Office of CPC 
Central Committee,'' Open Source Center, 21 August 13.
    \64\``Authorities Deny Medical Treatment to Zhu Yufu; Condition 
Serious,'' Congressional-Executive Commission on China, 16 April 13; 
Chen Guangcheng and Gao Zhisheng: Human Rights in China, Hearing of the 
Foreign Affairs Committee, Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations, U.S. House of 
Representatives, 9 April 13, Testimony of Bob Fu, Founder and 
President, ChinaAid. See the Commission's Political Prisoner Database 
record 2004-02253 for more information on Zhu Yufu's case.
    \65\``Authorities Deny Medical Treatment to Zhu Yufu; Condition 
Serious,'' Congressional-Executive Commission on China, 16 April 13; 
Chen Guangcheng and Gao Zhisheng: Human Rights in China, Hearing of the 
Foreign Affairs Committee, Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations, U.S. House of 
Representatives, 9 April 13, Testimony of Bob Fu, Founder and President 
of ChinaAid.
    \66\Ibid.
    \67\Chinese Human Rights Defenders, ``Lighter Sentences in Retrial 
of Beijing Fangshan Raolefu Village Election Cases'' [Beijing 
fangshanqu raolefucun xuanjuan an chongshen jianqing panjue], 25 
December 12. For more information on the cases, see David Bandurski, 
``Important Story Lost in the Shuffle,'' China Media Project, 23 August 
10. See the Commission's Political Prisoner Database (PPD) for more 
information on these cases: records 2013-00104 on Song Jianzhong, 2013-
00106 on Luo Yonghong, 2010-00314 on Ma Zhizheng, 2010-00317 on Hao 
Sen, 2010-00316 on Zhao Daqing, 2010-00315 on Zhao Zhenhai, and 2013-
00105 on Ma Huimei.
    \68\Chinese Human Rights Defenders, ``Lighter Sentences in Retrial 
of Beijing Fangshan Raolefu Village Election Cases'' [Beijing 
fangshanqu raolefucun xuanjuan an chongshen jianqing panjue], 25 
December 12.
    \69\``Democracy Advocate Cao Haibo Sentenced to Eight Years for 
Subversion,'' Congressional-Executive Commission on China, 4 December 
12. Authorities reportedly did not inform the family of the trial, and 
did not provide a sentencing notice to the family. Chinese Human Rights 
Defenders, ``Submission to UN on Cao Haibo-April 1, 2013,'' 3 April 13; 
Chinese Human Rights Defenders, ``Creator of Society To Strengthen 
China Cao Haibo Secretly Sentenced to Eight Years for `Subversion''' 
[Zhenhuahui chuangshiren cao haibo bei yi ``dianfuzui'' mimi panxing 8 
nian], 1 November 12; Human Rights in China, ``Zhang Qi Released After 
Four Years; Cao Haibo Tried in Closed-Door Hearing,'' 23 May 12; Human 
Rights in China, ``Online Activist Sentenced to 8 Years for Subversion; 
Lawyer Raises Procedural Concerns,'' 5 November 12; Andrew Jacobs, 
``Chinese Cafe Owner Given 8-Year Sentence Over Online Messages,'' New 
York Times, 1 November 12; Sui-Lee Wee, ``China Dissident Gets Eight 
Years for Subversion Ahead of Congress,'' Reuters, 1 November 12; 
Chinese Human Rights Defenders, ``Cao Haibo Secretly Sentenced, 
Netizens Visit His Wife and Child, Zhang Nian Reveals Script in Letters 
Home Inconsistent'' [Cao haibo bei mipan wangyou qianwang shenwang qi 
qi er, zhang nian pu jilai de jiashu ziti bu yizhi], reprinted in 
Boxun, 6 November 12. See the Commission's Political Prisoner Database 
record 2011-00737 for more information on Cao Haibo's case.
    \70\Ibid.
    \71\``Letter by Qin Yongmin and Others Urgently Pressing Golmud 
Authorities To Release Liu Benqi'' [Qin yongmin deng jiji duncu geermu 
dangju shifang liu benqi de lianming xin], Boxun, 22 April 13. 
Authorities detained Liu after he posted a remark online saying the 
right to demonstrate is protected by the constitution and suggesting 
people demonstrate in Beijing during the 18th Party Congress. See the 
Commission's Political Prisoner Database record 2013-00028 for more 
information on Liu's case.
    \72\Liu Lang, ``Qinghai Dissident Liu Benqi Brutally Persecuted in 
Detention Center'' [Qinghai yiyi renshi liu benqi kanshousuo zao canku 
pohai], Canyu, reprinted in Boxun, 28 January 13; ``Letter by Qin 
Yongmin and Others Urgently Pressing Golmud Authorities To Release Liu 
Benqi'' [Qin yongmin deng jiji duncu geermu dangju shifang liu benqi de 
lianming xin], Boxun, 22 April 13.
    \73\Chinese Human Rights Defenders, ``Liu Benqi Criminally Detained 
On Suspicion of `Inciting Subversion,' His Wife Liu Ying Sentenced to 
RTL, Five-Year-Old Son Goes Missing'' [Liu benqi bei yi shexian 
``shandian'' xingju, qizi liu ying bei laojiao, wusui haizi shizong], 1 
November 12. See the Commission's Political Prisoner Database record 
2013-00044 for more information on Liu Ying's case.
    \74\``Guizhou Dissident Liao Shuangyuan Beaten Up, Zhejiang 
Democratic Party Member Forbidden To Leave Home'' [Guizhou yiyi renshi 
liao shuangyuan zao ouda zhejiang minzhudang ren bei jin chumen], Radio 
Free Asia, 14 January 13.
    \75\Chinese Human Rights Defenders, ``Elections Expert Yao Lifa 
Missing for Over 13 Days'' [Xuanju zhuanjia yao lifa shizong yu 13 
tian], 17 March 13. See the Commission's Political Prisoner Database 
record 2011-00532 for more information about Yao Lifa's case.
    \76\``Lawyers Get Involved in Case of 10-Year-Old Zhang Anni's 
Kidnapping'' [Lushi jieru shisui zhang anni bei bangjia an], Voice of 
America, 6 March 13; Human Rights in China, ``Activist and Ten-Year-Old 
Daughter Illegally Detained Before Forcible Removal From Hefei,'' 1 
March 13. For information on instances in which authorities harassed 
the family members of rights defenders, see Chinese Human Rights 
Defenders, ``In the Name of `Stability': 2012 Annual Report on the 
Situation of Human Rights Defenders in China,'' March 2013.
    \77\Human Rights in China, ``Family Says Rights Defender Zhang Lin 
Is Criminally Detained,'' 19 July 13; Chinese Human Rights Defenders, 
``Attorneys Liu Xiaoyuan, Li Fangping Go to Detention Center To Visit 
Zhang Lin'' [Liu xiaoyuan, li fangping lushi dao kanshousuo huijian bei 
jiya de zhang lin], 22 July 13.
    \78\Chinese Human Rights Defenders, ``China Human Rights Briefing, 
August 22-28, 2013,'' 28 August 13.
    \79\Rao Aimin, ``Premier Li Keqiang Presides Over and Gives a 
Speech at the First State Council Clean Government Work Meeting'' [Li 
keqiang zhuchi zhaokai guowuyuan diyici lianzheng gongzuo huiyi bing 
jianghua], Xinhua, reprinted in the National Bureau of Corruption 
Prevention of China, 27 March 13; David Bandurski, ``Li Keqiang Urges 
More Information Openness,'' China Media Project, 27 March 13. Premier 
Li Keqiang reportedly also said that there should be more transparency 
so that citizens could supervise the government.
    \80\``Govts Go More Transparent on Web,'' Xinhua, reprinted in 
China Daily, 6 December 12.
    \81\China Academy of Social Sciences Institute of Law, Annual 
Report on China's Rule of Law No. 11 (2013) [Zhongguo fazhi fazhan 
baogao No. 11 (2013)], (Beijing: Social Sciences Academic Press, 2013), 
171-173.
    \82\Ministry of Foreign Affairs of the People's Republic of China, 
``Reply Concerning an Application for Public Disclosure of Government 
Information'' [Guanyu shenqing zhengfu xinxi gongkai de fuhan], 
translated by Chinese Human Rights Defenders, 15 November 12; Chinese 
Human Rights Defenders, ``China Cites `State Secrets' in Rejecting 
Civil Society Participation in Universal Periodic Review,'' 2 April 13.
    \83\Chinese Human Rights Defenders, ```Chinese Citizens vs. The 
Government' Over Participation in Universal Periodic Review,'' China 
Human Rights Briefing, August 29-September 5, 2013, 6 September 13; 
Chinese Human Rights Defenders, ``Beijing Municipality Second 
Intermediate People's Court Administrative Ruling'' [Beijing shi di er 
zhongji renmin fayuan xingzheng caidingshu], 23 August 12 (includes 
translation).
    \84\Chinese Human Rights Defenders, ``China Human Rights Briefing 
August 10-16, 2012,'' reprinted in Amnesty International, 16 August 12.
    \85\Chinese Human Rights Defenders, ``Hunan Rights Defender Peng 
Lanlan Released After a Year in Detention'' [Hunan weiquan renshi peng 
lanlan bei jiya yi nian hou huoshi], 15 August 13; Chinese Human Rights 
Defenders, ``Case of Hunan Rights Defender Peng Lanlan Is Sent to 
Procuratorate'' [Hunan weiquan renshi peng lanlan yian bei yisong 
jianchayuan], 23 January 13.
    \86\Chinese Human Rights Defenders, ``Case of Hunan Rights Defender 
Peng Lanlan Is Sent to Procuratorate'' [Hunan weiquan renshi peng 
lanlan yian bei yisong jianchayuan], 23 January 13. Chinese Human 
Rights Defenders, ``China Human Rights Briefing August 10-16, 2012,'' 
reprinted in Amnesty International, 16 August 12. While Peng Lanlan was 
in custody, officials reportedly tortured her. See the Commission's 
Political Prisoner Database record 2011-00262 for more information 
about Peng Lanlan's case.
    \87\National People's Congress, Election Law of the National 
People's Congress and the Various Levels of Local People's Congresses 
of the People's Republic of China [Zhonghua renmin gongheguo quanguo 
renmin daibiao dahui he difang geji renmin daibiao dahui xuanjufa], 
passed 1 July 79, amended 10 December 82, 2 December 86, 28 February 
95, 27 October 04, 14 March 10, art. 2.
    \88\Ibid.
    \89\Ibid., art. 29. Candidates also may be nominated by either a 
political party, local people's congress delegates, or a ``mass 
organization.''
    \90\Chinese Human Rights Defenders, ``China Independent Candidate 
Watch Report (Part I)'' [Zhongguo duli canxuan guancha baogao (shang)], 
10 December 12.
    \91\Wei Huanhuan, ``Beijing Election Observation'' [Beijing xuanju 
guancha], New Citizen Law Net, reprinted in China Elections and 
Governance, 29 November 11. For example, the New Citizen Law Net 
article noted that, in one voting district in Beijing municipality, 
only candidates nominated by ``small groups'' would be allowed on the 
candidate list. See also Chinese Human Rights Defenders, ``Independent 
Candidates Face `Filter' of `Consultation Brewing''' [Duli canxuanren 
zaoyu ``xieshang yunniang'' de ``guoluwang''], 27 October 11.
    \92\``President Hu Gains Votes, No Independent Candidates Are 
Elected'' [Hu zong you de piao duli canxuanren wu de xuan], Mingpao, 
reprinted in Sina, 9 November 11; Chinese Human Rights Defenders, 
``China Human Rights Briefing, November 2-7, 2011,'' 15 November 11; 
What ``Democracy'' Means in China After Thirty Years of Reform, Staff 
Roundtable of the Congressional-Executive Commission on China, 22 May 
09, Testimony of Melanie Manion, Professor of Public Affairs and 
Political Science, University of Wisconsin-Madison. See also 
``Officials Discourage and Prevent `Independent Candidates' From 
Getting on Official Ballots in Local People's Congress Elections,'' 
CECC China Human Rights and Rule of Law Update, No. 1, 24 January 12, 
3.
    \93\Chinese Human Rights Defenders, ``China Independent Candidate 
Watch Report (Part I)'' [Zhongguo duli canxuan guancha baogao (shang)], 
10 December 12. See also Chinese Human Rights Defenders, ``China 
Independent Candidate Watch Report (Part II)'' [Zhongguo duli canxuan 
guancha baogao (xia)], 10 December 12. This complete report in two 
parts contains very detailed information regarding the characteristics 
of some independent candidates, describes the steps authorities took to 
suppress their election efforts, and highlights a few specific cases of 
elections that included independent candidates.
    \94\``Record of Draft Decision Regarding the Number of People 
Allowed and Election Questions for the Representatives of the 12th 
National People's Congress (Full Text)'' [Guanyu shier jie quanguo 
renda daibiao minge he xuanju wenti jueding caoan shilu (quanwen)], 
China Net, 8 March 12.
    \95\For a full description of the characteristics of the resulting 
National People's Congress delegates, see ``Undertaking the Great Trust 
of the People--Analysis of the Unique Composition of Representatives of 
the 12th National People's Congress'' [Jianfuqi renmin de zhongtuo--
shier jie quanguo renda daibiao goucheng tese fenxi], Xinhua, 27 
February 12.
    \96\``Record of Draft Decision Regarding the Number of People 
Allowed and Election Questions for the Representatives of the 12th 
National People's Congress (Full Text)'' [Guanyu shier jie quanguo 
renda daibiao minge he xuanju wenti jueding caoan shilu (quanwen)], 
China Net, 8 March 12.
    \97\``Undertaking the Great Trust of the People--Analysis of the 
Unique Composition of Representatives of the 12th National People's 
Congress'' [Jianfuqi renmin de zhongtuo--shier jie quanguo renda 
daibiao goucheng tese fenxi], Xinhua, 27 February 12.
    \98\``Record of Draft Decision Regarding the Number of People 
Allowed and Election Questions for the Representatives of the 12th 
National People's Congress (Full Text)'' [Guanyu shier jie quanguo 
renda daibiao minge he xuanju wenti jueding caoan shilu (quanwen)], 
China Net, 8 March 12; ``Undertaking the Great Trust of the People--
Analysis of the Unique Composition of Representatives of the 12th 
National People's Congress'' [Jianfuqi renmin de zhongtuo--shier jie 
quanguo renda daibiao goucheng tese fenxi], Xinhua, 27 February 12.
    \99\``Deputies Give Lowest Marks in Six Years to Budget and 
Court,'' South China Morning Post, 18 March 13.
    \100\``Closing Ceremony of the First Meeting of the 12th National 
People's Congress'' [Di shier jie quanguo renmin daibiao dahui diyici 
huiyi bimuhui], Xinhua, 17 March 13. Voting results for other reports 
are as follows: Draft Government Work Report, 101 negative votes and 44 
abstentions; the Draft Report on the Implementation of the 2012 
National Economic and Social Development Plan and on the 2013 National 
Economic and Social Development Plan, 221 negative votes and 60 
abstentions; Draft Report on the Implementation of the 2012 Central and 
Local Budgets and on the 2013 Central and Local Budgets, 509 negative 
votes and 127 abstentions; Draft Work Report of the Standing Committee 
of the National People's Congress, 150 negative votes and 61 
abstentions; Supreme People's Procuratorate Draft Work Report, 485 
negative votes and 121 abstentions.
    \101\``Administrative Litigation Law Revisions and Improving the 
Procuratorial System'' [Xingzheng susongfa xiugai yu jiancha zhidu de 
wanshan], Procuratorial Daily, 8 February 13; ``Supreme People's Court 
Convenes Seminar About Administrative Litigation Law Revisions'' 
[Zuigao fayuan zhaokai xingzheng susongfa xiugai yantaohui], People's 
Court Daily, reprinted in China News Service, 14 October 11.
    \102\Zhou Fenmian, ``Administrative Reconsideration Law Revision 
Included in Plans, Two Revised Drafts Submitted to Legislative Affairs 
Office [of the State Council]'' [Xingzheng fuyi fa xiuding lieru jihua 
liangban xiuding gao tijiao fazhiban], Legal Daily, 10 October 12.
    \103\State Council General Office, Opinion Regarding Implementing 
``Government Work Report'' and the Spirit of the State Council First 
Plenum Key Working Departments Division of Labor [Guanyu luoshi 
``zhengfu gongzuo baogao'' he guowuyuan diyi ci quantihui jingshen 
zhongdian gongzuo bumen fengong de yijian], issued 28 March 13.
    \104\Zhang Yong, ``Unceasingly Accelerate the Pace of Constructing 
a Rule by Law Government--State Council 2012 Legislative Work Summary'' 
[Buduan jiakuai fazhi zhengfu jianshe bufa--guowuyuan er ling yi er 
nian fazhi gongzuo zongshu], People's Daily, reprinted in the 
Legislative Affairs Office of the State Council, last visited 7 January 
13.
    \105\``Advance Administrative Examination and Approval System 
Reform, Promote Legal, Standardized, and Scientific `Red Letterhead 
Documents''' [Tuijin xingzheng shenpi zhidu gaige cu ``hongtou 
wenjian'' hefa guifan kexue], Xinhua, 3 November 12. According to 
Xinhua, Shandong province issued a provision stipulating that all such 
documents would need to be uniformly registered, numbered, and 
announced. Documents that had not received a publication number would 
not go ``into effect.'' Dang Shu, ``Research on Problems Related to 
Normative Document Formulation Procedures'' [Guifanxing wenjian zhiding 
chengxu de wenti yanjiu], China Law Information and Research Net, last 
visited 10 January 13; Wen Jiabao, ``Make Authority Operate in the 
Light'' [Rang quanli zai yangguang xia yunxing], Seeking Truth, 16 
April 12, para. 3. Wen Jiabao noted that, to improve governance, local 
officials should not use ``red letterhead documents'' (local official 
documents) to impose additional responsibilities or duties on citizens, 
enterprises, or other social groups not included in national laws.
    \106\Zhang Yong, ``Unceasingly Accelerate the Pace of Constructing 
a Rule by Law Government--State Council 2012 Legislative Work Summary'' 
[Buduan jiakuai fazhi zhengfu jianshe bufa--guowuyuan er ling yi er 
nian fazhi gongzuo zongshu], People's Daily, reprinted in the 
Legislative Affairs Office of the State Council, last visited 7 January 
13. For more information regarding the filing and review systems of the 
State Council and the National People's Congress (and its standing 
committee), see Keith Hand, ``Understanding China's System for 
Addressing Legislative Conflicts: Capacity Challenges and the Search 
for Legislative Harmony,'' Social Science Research Network, revised 3 
July 13, 37 (also forthcoming in Columbia Journal of Asian Law).
    \107\Keith Hand, ``Understanding China's System for Addressing 
Legislative Conflicts: Capacity Challenges and the Search for 
Legislative Harmony,'' Social Science Research Network, revised 3 July 
13, 51 (also forthcoming in Columbia Journal of Asian Law).
    \108\Ibid.
    \109\``OSC Analysis: China: NPC Work Report Signals Policy 
Continuity,'' Open Source Center, 8 March 13. This report noted that 
the 2013 NPC Work Report for the first time listed corruption among the 
list of China's problems.
    \110\Tom Lasseter, ``Pew Report Finds Growing Worry Among Chinese 
About Corruption and Income Gap,'' McClatchy Newspapers, 16 October 12.
    \111\John Garnaut, ``Row Between China's Elite Spills Into Open,'' 
Age, 30 March 13.
    \112\``Exclusive Release: Xi Jinping's Speech at the First 
Collective Study Session of the 18th Chinese Communist Party Central 
Committee Political Bureau'' [Shouquan fabu: xi jinping zai shiba jie 
zhonggong zhongyang zhengzhiju diyi jiti xuexi shi de jianghua], 
Xinhua, 18 November 12.
    \113\``Transcript Summary of Bo Xilai's Trial for Bribery, 
Embezzlement, and Abuse of Power,'' People's Daily, 26 August 13; 
``Trial of Bo Xilai: Evidence, Charges and Defense,'' China Daily, 28 
August 13.
    \114\``Judgment in First Instance Trial of Bo Xilai for Bribery, 
Embezzlement, and Abuse of Power (Full Text)'' [Bo xilai shouhui, 
tanwu, lanyong zhiquan an yishen panjueshu (quanwen)], People's Daily, 
reprinted in China News Service, 22 September 13.
    \115\Donald Clarke, ``The Bo Xilai Trial and China's `Rule of Law': 
Same Old, Same Old,'' Atlantic, 21 August 13.
    \116\For information on shuanggui, see CECC, 2012 Annual Report, 10 
October 12, 71.
    \117\``Li Keqiang: `From This Year on Achieve Transparency of 
Government Reception Expenses at the County Level and Above''' [Li 
keqiang: jinnian qi shixian xianji yishang zhengfu jiedai jingfei 
gongkai], Beijing News, reprinted in Procuratorial Daily, 27 March 13.
    \118\Zhang Hailin, ```Especially Serious Crime of Bribery' Standard 
Makes Appearance'' [``Tebie zhongda huiluzui'' biaozhun chutai], 
Oriental Outlook, 3 January 13. The standard in the Provisional Supreme 
People's Procuratorate Criminal Litigation Provisions recategorized 
some crimes as serious. These crimes carry a heavier sentence, and 
include cases that seriously influence society, involve the national 
interest, or involve particularly heinous bribery (500,000 yuan 
[US$81,500] or more).
    \119\Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Several Issues Concerning the Specific Application of 
Law in Handling Criminal Bribery Cases [Guanyu banli xinghui xingshi 
anjian juti yingyong falu ruogan wenti de jieshi], issued 21 August 12, 
effective 1 January 13.
    \120\Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Several Issues Concerning the Application of the Law 
in Handling Criminal Malfeasance Cases (1) [Guanyu banli duzhi xingshi 
anjian shiyong falu ruogan wenti de jieshi (1)], issued 12 September 
12, effective 9 January 13; Chen Fei, ``Supreme People's Court Explains 
in Detail Judicial Interpretation on the Handling of Dereliction of 
Duty Criminal Cases'' [Zuigaofa xiangjie banli duzhi xingshi anjian 
sifa jieshi], Caixin, 9 January 13.
    \121\Brice Pedroletti, ``After a Whiff of Online Glasnost, China 
Cracks Down on Whistleblower Bloggers,'' Le Monde, reprinted in 
Worldcrunch, 1 September 13; Committee To Protect Journalists, 
``Chinese Journalist Who Raised Corruption Charges Jailed,'' 29 August 
13.
    \122\Chinese Human Rights Defenders, ``Individuals Detained in 
Crackdown on Peaceful Assembly & Association,'' updated 18 September 
13; ``Leader of Citizens Movement That Held Dinner Party Debates Is 
Formally Arrested in Beijing,'' Associated Press, reprinted in 
Washington Post, 23 August 13; Chinese Human Rights Defenders, ``China 
Human Rights Briefing, August 15-21, 2013,'' 22 August 13; Dui Hua 
Foundation, ``Government Notice Fuels Crackdown on Assembly as 
Subversion,'' Dui Hua Human Rights Journal, 19 August 13; Chinese Human 
Rights Defenders, ``Individuals Detained in Crackdown on Peaceful 
Assembly & Association,'' 28 August 13. For information on one 
petition, see ``The Xu Zhiyong Incident Civil Society's Appeal'' [Xu 
zhiyong shijian zhi gongmin shehui huyushu], reprinted in NeoEase (Xu 
Zhiyong's blog), 20 August 13.
    \123\``Woman Held Over Letter to Wen,'' Radio Free Asia, 2 January 
13.
    \124\``Activists Held Over Transparency Protest,'' Radio Free Asia, 
2 April 13.
    \125\Human Rights in China, ``Criminally Detained: Zhao Changqing 
and Six Other Advocates of Public Disclosure of Officials' Assets,'' 19 
April 13.
    \126\Raymond Li, ``China's New Central Committee Members Urged To 
Disclose Assets,'' South China Morning Post, 14 December 12.
    \127\Human Rights Watch, ``China: Free Anti-Corruption Activists,'' 
3 April 13; Andrew Jacobs, ``Chinese Leader's War on Graft Appears To 
Have Limits,'' New York Times, 4 April 13.
    \128\Andrew Jacobs, ``Chinese Leader's War on Graft Appears To Have 
Limits,'' New York Times, 4 April 13.
    \129\Human Rights in China, ``Criminally Detained: Zhao Changqing 
and Six Other Advocates of Public Disclosure of Officials' Assets,'' 19 
April 13.
    \130\Ibid.
    \131\Chinese Human Rights Defenders, ``Chinese Authorities Must 
Release Activists, End Escalating Crackdown on Free Expression,'' 19 
April 13; ``Beijing Rights Defender Li Wei Has Been Missing for Four 
Days'' [Beijing weiquan renshi li wei shizong disi ri], Boxun, 14 April 
13.
    \132\Human Rights in China, ``Criminally Detained: Zhao Changqing 
and Six Other Advocates of Public Disclosure of Officials' Assets,'' 19 
April 13.
    \133\Human Rights in China, ``Two New Charges for Asset 
Transparency Advocate Liu Ping,'' 29 August 13; Chinese Human Rights 
Defenders, ``Special Notice: Rights Activist Liu Ping Trial for 
`Illegal Assembly' Set for July 18th'' [Tebie guanzhu: weiquan renshi 
liu ping ``feifa jihui zui'' yian jiang yu ben yue 18 ri kaiting], 5 
July 13; Patrick Boehler, ``Chinese Activist Detained `For Inciting 
Subversion of State Power,''' South China Morning Post, 8 May 13; 
Chinese Human Rights Defenders, ```Chinese Human Rights Defenders' 
Strongly Protests Detention of Citizens `Demanding Disclosure of 
Officials' Assets' by Beijing and Jiangxi Authorities'' 
[``Weiquanwang'' yanzheng kangyi beijing he jiangxi dangju jubu 
``yaoqiu guanyuan gongbu caichan'' de gongmin], 8 May 13. Authorities 
reportedly denied Liu access to a lawyer.
    \134\Liu Yingtuan, ``People's Daily: Where the Difficulties Are 
With Disclosing Officials' Assets'' [Renmin ribao: guanyuan caichan 
gongkai nan zai na], People's Daily, reprinted in China News Service, 
23 November 12. According to this article, a Chinese Academy of Social 
Sciences survey showed that over 80 percent of respondents thought 
officials should disclose their assets.
    \135\Andrew Jacobs, ``Elite in China Face Austerity Under Xi's 
Rule,'' New York Times, 27 March 13.
    \136\Robert Keatley, ``Xi's Reforms Face Big Obstacle,'' National 
Interest, 2 May 13.
    \137\``Three Locations in Guangdong Start Pilot Project Disclosing 
Officials' Finances, Will Expand in Future'' [Guangdong sandi guanyuan 
kaishi gongkai caichan shidian fanwei jiang kuoda], People's Daily, 
reprinted in China Transparency, 6 February 13. In Guangdong pilot 
projects, officials in two locations have already posted their assets 
in public areas, and officials in another location plan to post 
information on assets on an internal network, likely not visible to the 
public. ``People's Daily: Where the Difficulties Are With Disclosing 
Officials' Assets'' [Renmin ribao: guanyuan caichan gongkai nan zai 
na], People's Daily, reprinted in China News Service, 23 November 12; 
Dai Zhiyong, ``If the People Can Learn To Compromise, Please Learn To 
Govern Honestly'' [Ruguo minzhong neng tuoxie, qing ni xuezhe zuo 
qingguan], Southern Weekend, 24 September 09. In September 2009, the 
Party Central Discipline Inspection Commission reportedly announced 
that officials must disclose their personal records related to housing, 
investments, and the employment status of their spouses and children. 
He Huifeng, ``Guangdong Officials To Disclose Assets--But Not to the 
Public,'' South China Morning Post, 15 October 09. Several provinces 
and cities have initiated similar asset-reporting requirements for 
select categories of officials including a city in the Xinjiang Uyghur 
Autonomous Region, cities in Hunan and Guangdong provinces, and the 
municipality of Shanghai, although in many cases reported information 
remained within the Communist Party and unavailable to the public.
    \138\Zhu Na, ``Reluctant Transparency,'' Economic Observer, 26 July 
11; Mei Kunlun, ``Refusal To Disclose `Three Publics' Requires 
Accountability and Transparency'' [Jujue gongkai ``sangong'' xuyao 
wenze doudi], Southern Metropolitan Daily, 30 September 12. Thirty-four 
of the 42 government institutions contacted by Chinese researchers in 
one study refused to provide information about average per capita 
office expenses during 2011 and have not provided information on the 
``Three Publics.''
    Notes to Section III--Commercial Rule of Law

    \1\Derek Scissors, Heritage Foundation, ``China's Global Investment 
Rises: The U.S. Should Focus on Competition,'' 8 January 13, 2. Other 
sources have estimated similar figures. For example, the Economist 
Intelligence Unit estimated that the average annual growth in China's 
outbound investment from 2005 to 2012 was 35 percent. Economist 
Intelligence Unit, ``China Going Global Investment Index,'' 2013, 4.
    \2\Derek Scissors, Heritage Foundation, ``China's Global Investment 
Rises: The U.S. Should Focus on Competition,'' 8 January 13, 2.
    \3\See, e.g., Derek Scissors, Heritage Foundation, ``China's Global 
Investment Rises: The U.S. Should Focus on Competition,'' 8 January 13, 
2; Economist Intelligence Unit, ``China Going Global Investment 
Index,'' 2013, 4.
    \4\Economist Intelligence Unit, ``China Going Global Investment 
Index,'' 2013, 4.
    \5\Ibid.
    \6\See, e.g., World Bank, ``GDP Growth (Annual %),'' last visited 
14 August 13.
    \7\See, e.g., Yi Gang, ``How To Implement the `Going Out' 
Strategy,'' Caixin, 18 January 13; Zhao Yanrong, ``Outbound Investment 
Continues,'' China Daily, 24 May 13; Nerys Avery, ``Chinese Companies 
Seen Seeking Brands in Overseas Investment,'' Bloomberg, 16 April 13.
    \8\People's Bank of China, ``Biographical Statement,'' last visited 
14 August 13.
    \9\State Administration of Foreign Exchange, ``Management Team,'' 
last visited 14 August 13.
    \10\Yi Gang, ``How To Implement the `Going Out' Strategy,'' Caixin, 
18 January 13.
    \11\Ibid.
    \12\National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, para. 1.
    \13\Ibid., chap. 52, sec. 2.
    \14\Derek Scissors, Heritage Foundation, ``China's Global 
Investment Rises: The U.S. Should Focus on Competition,'' 8 January 13, 
5. See also Li Qiuyuan, ``State-Owned Enterprises Urged To Expand 
Overseas,'' CCTV, 2 December 12.
    \15\Derek Scissors, Heritage Foundation, ``China's Global 
Investment Rises: The U.S. Should Focus on Competition,'' 8 January 13, 
5.
    \16\National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, chap. 10, para. 1.
    \17\Ibid., chap. 10, sec. 1.
    \18\Ibid., chap. 52, sec. 2.
    \19\Chinese People's Political Consultative Conference, ``Chen 
Yuan, Vice Chairman of the Twelfth National Committee of the Chinese 
People's Political Consultative Conference'' [Zhongguo renmin zhengzhi 
xieshang huiyi di shier jie quanguo weiyuan hui fu zhuxi chen yuan], 
last visited 14 August 13.
    \20\Ibid.
    \21\Wang Yiwei, ``Chen Yuan Becomes Head of China Enterprises 
Investment Association'' [Chen yuan churen zhongguo qiye touzi xiehui 
huizhang], Sina, 3 December 12.
    \22\China Enterprises Investment Association, ``Charter of the 
China Enterprises Investment Association'' [Zhongguo qiye touzi xiehui 
zhangcheng], issued 21 January 06, effective 21 March 06, art. 4.
    \23\Li Qiuyuan, ``State-Owned Enterprises Urged To Expand 
Overseas,'' CCTV, 2 December 12.
    \24\Nerys Avery, ``Chinese Companies Seen Seeking Brands in 
Overseas Investment,'' Bloomberg, 16 April 13; Derek Scissors, Heritage 
Foundation, ``China's Global Investment Rises: The U.S. Should Focus on 
Competition,'' 8 January 13, 4; Doug Young, ``China Mobile Eyes 
Pakistan Expansion,'' South China Morning Post, 26 June 13; Tarek Amara 
and Fatma Mattoussi, ``Etisalat, Turkcell, Others Eye Dubai's Tunisie 
Telecom Stake,'' Reuters, 26 June 13.
    \25\Heritage Foundation, ``China Global Investment Tracker'' 
Dataset, last visited 14 August 13, dataset 1.
    \26\Ibid.
    \27\Christopher Bodeen, ``China and Iceland Sign Free Trade 
Agreement,'' Associated Press, 15 April 13.
    \28\Ibid.; Peter Ford, ``China Cozies Up to Iceland in Race for 
Arctic Resources,'' Christian Science Monitor, 15 April 13.
    \29\Export-Import Bank of China, ``Brief Introduction,'' last 
visited 14 August 13.
    \30\Economic Statecraft: Increasing American Jobs Through Greater 
U.S.-Africa Trade and Investment, Hearing of the Committee on Foreign 
Relations, U.S. Senate, 25 July 12, Testimony of Fred P. Hochberg, 
Chairman and President, Export-Import Bank of the United States, 7.
    \31\Ibid.
    \32\Aliaksandr Kudrytski, ``China Builds EU Beachhead With $5 
Billion City in Belarus,'' Bloomberg, 26 May 13. See also Li Xiaokun, 
``China Signs Cooperation Agreements With Belarus,'' China Daily, 17 
July 13.
    \33\China Development Bank, last visited 14 August 13.
    \34\Aliaksandr Kudrytski, ``China Builds EU Beachhead With $5 
Billion City in Belarus,'' Bloomberg, 26 May 13.
    \35\Ibid.
    \36\Ibid.
    \37\People's Bank of China, ``Notice on Furthering Market-Based 
Interest Rate Reform,'' 22 July 13.
    \38\``A Small Step Forward,'' Economist, 27 July 13; Zhou Feng, 
``Beginning of a New Era in Lending,'' China Daily, 26 July 13; Li 
Junheng, ``China's Interest Rate Liberalization, Banking Reform and 
Implied Risks to Equity Investors,'' Forbes, 21 July 13; Michael J. 
Casey, ``China Scraps Lending Rate Floor, but Don't Call It 
Liberalization,'' Wall Street Journal, 19 July 13.
    \39\See, e.g., Zhou Feng, ``Beginning of a New Era in Lending,'' 
China Daily, 26 July 13; ``Teamaker's Woe Signals China Fund Deficit 
for Entrepreneurs,'' Bloomberg, 12 August 13.
    \40\``A Small Step Forward,'' Economist, 27 July 13; Zhou Feng, 
``Beginning of a New Era in Lending,'' China Daily, 26 July 13; Michael 
J. Casey, ``China Scraps Lending Rate Floor, but Don't Call It 
Liberalization,'' Wall Street Journal, 19 July 13.
    \41\``Teamaker's Woe Signals China Fund Deficit for 
Entrepreneurs,'' Bloomberg, 12 August 13.
    \42\Ibid. See also Financial Stability Board, ``Global Shadow 
Banking Monitoring Report 2012,'' 18 November 12; JPMorgan Chase Bank, 
Hong Kong, ``Economic Research Note: Shadow Banking in China,'' 3 May 
13.
    \43\See, e.g., JPMorgan Chase Bank, Hong Kong, ``Economic Research 
Note: Shadow Banking in China,'' 3 May 13.
    \44\See, e.g., ``Teamaker's Woe Signals China Fund Deficit for 
Entrepreneurs,'' Bloomberg, 12 August 13.
    \45\``Teamaker's Woe Signals China Fund Deficit for 
Entrepreneurs,'' Bloomberg, 12 August 13.
    \46\PRC National Audit Office, ``Audit of Government Debt To Launch 
Comprehensively'' [Zhengfuxing zhaiwu shenji jiang quanmian kaizhan], 
28 July 13.
    \47\Phillip Inman, ``China To Audit Local Authorities and State 
Enterprises Over Debt Fears,'' Guardian, 29 July 13; Keith Bradsher and 
Chris Buckley, ``China Plans Audit of Debt Government Has Incurred,'' 
New York Times, 28 July 13; ``China Bank Loans to Local Governments up 
6 Pct at End June,'' Reuters, 31 July 13.
    \48\Phillip Inman, ``China To Audit Local Authorities and State 
Enterprises Over Debt Fears,'' Guardian, 29 July 13; Keith Bradsher and 
Chris Buckley, ``China Plans Audit of Debt Government Has Incurred,'' 
New York Times, 28 July 13.
    \49\``Teamaker's Woe Signals China Fund Deficit for 
Entrepreneurs,'' Bloomberg, 12 August 13.
    \50\Based on an August 12, 2013, Chinese yuan (CNY)-U.S. dollar 
(USD) exchange rate of 0.16, from XE. XE, ``Current and Historical Rate 
Tables,'' last visited 14 August 13.
    \51\George Chen, ``Key Chinese Cities and Provinces Set To Receive 
Stimulus--on the Quiet,'' South China Morning Post, 12 August 13; 
George Chen and Jane Cai, ``Shanghai's Disney Park Major Beneficiary of 
HK$314b Agbank Loan,'' South China Morning Post, 12 August 13.
    \52\Ibid.
    \53\Chen Tian, ``Reining in Culture of Debt,'' Global Times, 12 
August 13.
    \54\U.S. Department of the Treasury, ``Report to Congress on 
International Economic and Exchange Rate Policies,'' 12 April 13, 18.
    \55\Ibid.
    \56\See, e.g., Eleni Himaras, ``Summers Says Yuan Isn't as 
Undervalued as It Was Five Years Ago,'' Bloomberg, 14 January 13; U.S. 
Department of the Treasury, ``Report to Congress on International 
Economic and Exchange Rate Policies,'' 12 April 13, 16; Wynne Wang, 
``China Yuan Hits New High on PBOC Guidance,'' Wall Street Journal, 9 
May 13.
    \57\Wynne Wang, ``China Yuan Hits New High on PBOC Guidance,'' Wall 
Street Journal, 9 May 13.
    \58\``Full Text: Report on the Work of the Government,'' Xinhua, 18 
March 13.
    \59\U.S. Department of the Treasury, ``Report to Congress on 
International Economic and Exchange Rate Policies,'' 12 April 13, 17.
    \60\``China's Big Dilemma--Currency Reform,'' Reuters, reprinted in 
CNBC, 27 April 13.
    \61\U.S. Department of the Treasury, ``Report to Congress on 
International Economic and Exchange Rate Policies,'' 12 April 13, 17.
    \62\People's Bank of China, ``About PBC,'' last visited 14 August 
13.
    \63\Li Yanping et al., ``Exiting PBOC Adviser Urges More Power for 
Central Bank: Economy,'' Bloomberg, 21 March 13.
    \64\State Administration for Foreign Exchange, Circular Regarding 
Improving and Adjusting Policies on the Management of Direct Investment 
and Foreign Exchange [Guojia waihui guanli ju guanyu jin yi bu gaijin 
he tiaozheng zhijie touzi waihui guanli zhengce de tongzhi], issued 19 
November 12, effective 17 December 12.
    \65\Ibid., para. 2. For additional discussion of the circular, see 
Cooley LLP, ``SAFE Simplifies Foreign Exchange Controls on Foreign 
Direct Investment,'' 20 December 12.
    \66\State Administration for Foreign Exchange, Circular Regarding 
Improving and Adjusting Policies on the Management of Direct Investment 
and Foreign Exchange [Guojia waihui guanli ju guanyu jin yi bu gaijin 
he tiaozheng zhijie touzi waihui guanli zhengce de tongzhi], issued 19 
November 12, effective 17 December 12, art. 1.
    \67\Ibid., art. 2.
    \68\Ibid., art. 8(2).
    \69\China joined the WTO on December 11, 2001. See, e.g., World 
Trade Organization, ``China and the WTO,'' last visited 14 August 13.
    \70\World Trade Organization, ``Disputes by Country/Territory,'' 
last visited 14 August 13.
    \71\World Trade Organization, DS413, China--Certain Measures 
Affecting Electronic Payment Services, last visited 14 August 13; World 
Trade Organization, DS414, China--Countervailing and Anti-Dumping 
Duties on Grain Oriented Flat-Rolled Electrical Steel From the United 
States, last visited 14 August 13; World Trade Organization, DS425, 
China--Definitive Anti-Dumping Duties on X-Ray Security Inspection 
Equipment From the European Union, last visited 14 August 13; World 
Trade Organization, DS427, China--Anti-Dumping and Countervailing Duty 
Measures on Broiler Products From the United States, last visited 14 
August 13.
    \72\World Trade Organization, DS414, China--Countervailing and 
Anti-Dumping Duties on Grain Oriented Flat-Rolled Electrical Steel From 
the United States, Summary of the Dispute to Date, last visited 14 
August 13; World Trade Organization, DS425, China--Definitive Anti-
Dumping Duties on X-Ray Security Inspection Equipment From the European 
Union, last visited 14 August 13; World Trade Organization, DS427, 
China--Anti-Dumping and Countervailing Duty Measures on Broiler 
Products From the United States, Summary of the Dispute to Date, last 
visited 14 August 13.
    \73\World Trade Organization, DS427, China--Anti-Dumping and 
Countervailing Duty Measures on Broiler Products From the United 
States, Summary of the Dispute to Date, last visited 14 August 13. See 
also Office of the United States Trade Representative, ``United States 
Wins Trade Enforcement Case for American Farmers, Proves Export-
Blocking Chinese Duties Unjustified Under WTO Rules,'' 2 August 13.
    \74\World Trade Organization, DS414, China--Countervailing and 
Anti-Dumping Duties on Grain Oriented Flat-Rolled Electrical Steel From 
the United States, Summary of the Dispute to Date, last visited 14 
August 13.
    \75\Ministry of Commerce, ``MOFCOM Announcement No. 51 of 2013 on 
Executing WTO's Ruling Against Grain Oriented Flat-Rolled Electrical 
Steel,'' 31 July 13.
    \76\Ibid. For more information, see AK Steel, ``AK Steel Comments 
Regarding the Government of China's Failure To Implement WTO Rulings on 
Grain Oriented Electrical Steel,'' Wall Street Journal, 31 July 13.
    \77\World Trade Organization, DS440, China--Anti-Dumping and 
Countervailing Duties on Certain Automobiles From the United States, 
last visited 14 August 13.
    \78\World Trade Organization, DS450, China--Certain Measures 
Affecting the Automobile and Automobile-Parts Industries, last visited 
14 August 13.
    \79\World Trade Organization, DS440, China--Anti-Dumping and 
Countervailing Duties on Certain Automobiles From the United States, 
Summary of the Dispute to Date, last visited 14 August 13.
    \80\World Trade Organization, DS413, China--Certain Measures 
Affecting Electronic Payment Services, Summary of the Dispute to Date, 
last visited 14 August 13.
    \81\Ibid.
    \82\World Trade Organization, Agreement on Subsidies and 
Countervailing Measures, date of signature 15 April 94, entry into 
force 1 January 95, arts. 25.1, 25.2.
    \83\Office of the United States Trade Representative and U.S. 
Department of Commerce, ``Subsidies Enforcement: Annual Report to the 
Congress,'' February 2013, 14.
    \84\World Trade Organization, DS450, China--Certain Measures 
Affecting the Automobile and Automobile-Parts Industries, last visited 
14 August 13.
    \85\Office of the United States Trade Representative and U.S. 
Department of Commerce, ``Subsidies Enforcement: Annual Report to the 
Congress,'' February 2013, 15.
    \86\US-China Business Council, ``USCBC 2012 China Business 
Environment Survey Results,'' 2012, 9.
    \87\Ibid., 8.
    \88\Ibid., 13.
    \89\Ibid.
    \90\World Trade Organization, ``Understanding the WTO: Principles 
of the Trading System,'' last visited 4 September 13. See also World 
Trade Organization, ``Glossary,'' last visited 4 September 13, which 
defines ``national treatment'' as follows: ``The principle of giving 
others the same treatment as one's own nationals. GATT Article 3 
requires that imports be treated no less favorably than the same or 
similar domestically-produced goods once they have passed customs. GATS 
Article 17 and TRIPS Article 3 also deal with national treatment for 
services and intellectual property protection.''
    \91\Office of the United States Trade Representative, ``USTR 
Michael Froman Welcomes Progress at U.S.-China Strategic and Economic 
Dialogue,'' 12 July 13; ``Treasury Official Touts New Chinese 
Investment Commitments at S&ED,'' China Trade Extra, 12 July 13; Teshu 
Singh, ``China and the US: Fifth Strategic and Economic Dialogue--
Analysis,'' Eurasia Review, 25 July 13.
    \92\``Treasury Official Touts New Chinese Investment Commitments at 
S&ED,'' China Trade Extra, 12 July 13.
    \93\Ibid.
    \94\World Trade Organization, ``Government Procurement: Opening Up 
for Competition,'' last visited 14 August 13.
    \95\``China Indicates It Is Unlikely To Table New GPA Offer Before 
End of 2013,'' China Trade Extra, 30 May 13.
    \96\``Treasury Official Touts New Chinese Investment Commitments at 
S&ED,'' China Trade Extra, 12 July 13.
    \97\``US Law Ruins Fair Chance of Competition,'' Global Times, 16 
May 13.
    \98\PRC State Intellectual Property Office, ``Promotion Plan for 
the Implementation of the National Intellectual Property Strategy in 
2013,'' 26 March 13, sec. IV.
    \99\Commission on the Theft of American Intellectual Property, 
``The IP Commission Report,'' May 2013, 59.
    \100\Ibid., 3.
    \101\Ibid. For a description of national policy guidelines for the 
acquisition of technology, see, e.g., National People's Congress, PRC 
Outline of the 12th Five-Year Plan on National Economic and Social 
Development [Zhonghua renmin gongheguo guomin jingji he shehui fazhan 
di shier ge wunian guihua gangyao], passed 14 March 11, issued 16 March 
11, chap. 27.
    \102\Commission on the Theft of American Intellectual Property, 
``The IP Commission Report,'' May 2013, 3.
    \103\Office of the United States Trade Representative, ``2013 
Special 301 Report,'' May 2013, 31.
    \104\Office of the United States Trade Representative, ``2012 
Special 301 Report,'' April 2012, 26; Office of the United States Trade 
Representative, ``2011 Special 301 Report,'' April 2011, 19; Office of 
the United States Trade Representative, ``2010 Special 301 Report,'' 30 
April 10, 19; Office of the United States Trade Representative, ``2009 
Special 301 Report,'' 30 April 09, 13; Office of the United States 
Trade Representative, ``2008 Special 301 Report,'' last visited 14 
August 13, 19; Office of the United States Trade Representative, ``2007 
Special 301 Report,'' last visited 14 August 13, 18; Office of the 
United States Trade Representative, ``2006 Special 301 Report,'' last 
visited 14 August 13, 16.
    \105\Office of the United States Trade Representative, ``Background 
on Special 301,'' last visited 14 August 13.
    \106\Office of the United States Trade Representative, ``2013 
Special 301 Report,'' May 2013, 32.
    \107\Ibid., 33.
    \108\Ibid., 13.
    \109\Mandiant, ``APT 1: Exposing One of China's Cyber Espionage 
Units,'' 18 February 13, 9.
    \110\Ibid., 3.
    \111\Ibid., 22.
    \112\Ibid.
    \113\National People's Congress, PRC Outline of the 12th Five-Year 
Plan on National Economic and Social Development [Zhonghua renmin 
gongheguo guomin jingji he shehui fazhan di shier ge wunian guihua 
gangyao], passed 14 March 11, issued 16 March 11, chap. 10.
    \114\Mandiant, ``APT 1: Exposing One of China's Cyber Espionage 
Units,'' 18 February 13, 24.
    \115\American Chamber of Commerce in the People's Republic of 
China, ``China Business Climate Survey Report 2013,'' 2013, 10.
    \116\Ibid.
    \117\World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432 (01-5996), 23 November 01, part I, 
art. 7(3).
    \118\Office of the United States Trade Representative, ``Fact 
Sheet: 23rd U.S.-China Joint Commission on Commerce and Trade,'' 19 
December 12.
    \119\Office of the United States Trade Representative, ``2013 
Special 301 Report,'' May 2013, 33.
    \120\PRC Copyright Law Implementing Regulations [Zhonghua renmin 
gongheguo zhuzuo quan fa shishi tiaoli], issued 2 August 02, amended 16 
January 13, effective 1 March 13.
    \121\Information Network Broadcasting Rights Protection Regulations 
[Xinxi wangluo chuanbo quan baohu tiaoli], issued 18 May 06, amended 16 
January 13, effective 1 March 13.
    \122\Computer Software Protection Regulations [Jisuanji ruanjian 
baohu tiaoli], issued 20 December 01, amended 16 January 13, effective 
1 March 13.
    \123\PRC Copyright Law Implementing Regulations [Zhonghua renmin 
gongheguo zhuzuo quan fa shishi tiaoli], issued 2 August 02, amended 16 
January 13, effective 1 March 13, art. 36; Information Network 
Broadcasting Rights Protection Regulations [Xinxi wangluo chuanbo quan 
baohu tiaoli], issued 18 May 06, amended 16 January 13, effective 1 
March 13, arts. 18, 19; Information Network Broadcasting Rights 
Protection Regulations [Xinxi wangluo chuanbo quan baohu tiaoli], 
issued 18 May 06, effective 1 July 06, arts. 18, 19; Computer Software 
Protection Regulations [Jisuanji ruanjian baohu tiaoli], issued 20 
December 01, amended 16 January 13, effective 1 March 13, art. 24; 
Computer Software Protection Regulations [Jisuanji ruanjian baohu 
tiaoli], issued 20 December 01, effective 1 January 02, art. 24, para. 
2; State Intellectual Property Office, ``China Increases Administrative 
Penalties Under the Copyright Law Implementing Regulations'' [Woguo 
zhuzuo quan fa shishi tiaoli shangtiao xingzheng chufa e], 26 February 
13.
    \124\Chen Liping, ``State Intellectual Property Office Sets Out To 
Research Amendments to the Patent Law'' [Guojia zhishi chan quan ju 
zhuoshou yanjiu xiugai zhuanli fa], China Court, 6 February 13; State 
Intellectual Property Office, ``State Intellectual Property Office 
Convenes Conference on the Issue of Amendments to the Patent Law'' 
[Guojia zhishi chan quan ju zhaokai zhuanli fa xiugai zhuanti yantao 
hui], 25 May 13.
    \125\Zhang Wei, ``Amendments to Trademark Law Expand Elements for 
Registration'' [Shangbiao fa xiuding kuoda zhuce yuansu], Legal Daily, 
15 April 13.
    \126\Yuan Ruting and Qu Jing, ``China Amends `Copyright Law' Again, 
Strengthens Law Enforcement To Protect Intellectual Property Rights'' 
[Zhongguo zai xiu ``zhuzuoquan fa'' qianghua zhifa baohu zhishichan 
quan], Xinhua, 17 November 12.
    \127\National People's Congress, ``Trademark Law Amendment (Draft) 
Articles'' [Shangbiao fa xiuzheng an (cao an) tiaowen], 28 December 12, 
paras. 3, 9, 39.
    \128\Ibid., para. 37; PRC Trademark Law [Zhonghua renmin gongheguo 
shangbiao fa], passed 23 August 82, amended 22 February 93, 27 October 
01, art. 56.
    \129\State Intellectual Property Office, ``Patent Law Draft 
Amendment (Draft for Comment) Comparison of Articles'' [Zhuanli fa 
xiugai cao an (zhengqiu yijian gao) tiaowen duizhao], last visited 14 
August 13, row 3.
    \130\Ibid., paras. 3, 5, 6.
    \131\State Intellectual Property Office, ``Explanation Regarding 
the Patent Law Draft Amendment (Draft for Comment)'' [Guanyu zhuanli fa 
xiugai cao an (zhengqiu yijian gao) de shuoming], last visited 14 
August 13, para. 3(2).
    \132\Ibid., para. 3(5).
    \133\Renmin University of China Law School, ``Faculty Directory: 
Liu Chuntian,'' last visited 14 August 13.
    \134\Emma Barraclough, ``Concerns Raised Over Chinese Patent Law 
Amendment,'' Managing Intellectual Property, 19 April 13.
    \135\State Intellectual Property Office, State Intellectual 
Property Office Circular Concerning the Solicitation of Opinions 
Regarding the ``Draft Service Invention Regulations (for Comment)'' 
[Guojia zhishi chanquan ju guanyu zhengqiu dui ``zhiwu faming tiaoli 
cao an (zhengqiu yijian gao)'' yijian de tongzhi], 12 November 12.
    \136\See, e.g., State Intellectual Property Office, ``Draft Service 
Invention Regulations (for Comment)'' [Zhiwu faming tiaoli cao an 
(zhengqiu yijian gao)], 12 November 12, art. 1; Duan Xiaoling, 
International Law Office, ``Draft Regulations on Service Inventions 
Released,'' 14 January 13.
    \137\Zhang Wei, ``Enforcement Guide To Come Out in the Field of 
Intellectual Property Antimonopoly'' [Zhishi chanquan lingyu 
fanlongduan jiang chu zhifa zhinan], Legal Daily, 16 August 12.
    \138\Ibid.
    \139\PRC Civil Procedure Law [Zhonghua renmin gongheguo minshi 
susong fa], passed 9 April 91, amended 28 October 07, 31 August 12, 
effective 1 January 13.
    \140\See, e.g., Gary A. Seib et al., Baker & McKenzie, ``Client 
Alert: Recent Amendments to China's Civil Procedure Law Bring Important 
Changes and Greater Remedies,'' September 2012; Paula Hodges et al., 
Herbert Smith Freehills LLP, ``Amended Civil Procedure Law Is Good News 
for Arbitrations in Mainland China,'' reprinted in Lexology, 3 October 
12; Hui Huang, Wan Hui Da Intellectual Property Agency, ``Amendments of 
China Civil Procedure Law Will Come Into Effect on Jan 1st 2013,'' 
reprinted in Lexology, 29 November 12; Terence Tung et al., Mayer Brown 
JSM, ``New Amendments to PRC Civil Procedure Law Aimed at Increasing 
Efficiency, Transparency and Parties' Autonomy,'' 17 January 13.
    \141\PRC Central Government, ``Decision of the National People's 
Congress Standing Committee Regarding Amending the `PRC Civil Procedure 
Law''' [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu xiu gai 
``zhonghua renmin gongheguo minshi susong fa'' de jueding], 31 August 
12, paras. 32-33; PRC Civil Procedure Law [Zhonghua renmin gongheguo 
minshi susong fa], passed 9 April 91, amended 28 October 07, 31 August 
12, effective 1 January 13, arts. 152, 154(3). See also Paula Hodges et 
al., Herbert Smith Freehills LLP, ``Amended Civil Procedure Law Is Good 
News for Arbitrations in Mainland China,'' reprinted in Lexology, 3 
October 12; Hui Huang, Wan Hui Da Intellectual Property Agency, 
``Amendments of China Civil Procedure Law Will Come Into Effect on Jan 
1st 2013,'' reprinted in Lexology, 29 November 12; Terence Tung et al., 
Mayer Brown JSM, ``New Amendments to PRC Civil Procedure Law Aimed at 
Increasing Efficiency, Transparency and Parties' Autonomy,'' 17 January 
13, 3.
    \142\PRC Central Government, ``Decision of the National People's 
Congress Standing Committee Regarding Amending the `PRC Civil Procedure 
Law''' [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu xiu gai 
``zhonghua renmin gongheguo minshi susong fa'' de jueding], 31 August 
12, para. 34; PRC Civil Procedure Law [Zhonghua renmin gongheguo minshi 
susong fa], passed 9 April 91, amended 28 October 07, 31 August 12, 
effective 1 January 13, art. 156. See also Hui Huang, Wan Hui Da 
Intellectual Property Agency, ``Amendments of China Civil Procedure Law 
Will Come Into Effect on Jan 1st 2013,'' reprinted in Lexology, 29 
November 12; Terence Tung et al., Mayer Brown JSM, ``New Amendments to 
PRC Civil Procedure Law Aimed at Increasing Efficiency, Transparency 
and Parties' Autonomy,'' 17 January 13, 3.
    \143\PRC Central Government, ``Decision of the National People's 
Congress Standing Committee Regarding Amending the `PRC Civil Procedure 
Law''' [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu xiu gai 
``zhonghua renmin gongheguo minshi susong fa'' de jueding], 31 August 
12, paras. 17, 22; PRC Civil Procedure Law [Zhonghua renmin gongheguo 
minshi susong fa], passed 9 April 91, amended 28 October 07, 31 August 
12, effective 1 January 13, arts. 81, 101. See also Paula Hodges et 
al., Herbert Smith Freehills LLP, ``Amended Civil Procedure Law Is Good 
News for Arbitrations in Mainland China,'' reprinted in Lexology, 3 
October 12; Terence Tung et al., Mayer Brown JSM, ``New Amendments to 
PRC Civil Procedure Law Aimed at Increasing Efficiency, Transparency 
and Parties' Autonomy,'' 17 January 13.
    \144\PRC Central Government, ``Decision of the National People's 
Congress Standing Committee Regarding Amending the `PRC Civil Procedure 
Law''' [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu xiu gai 
``zhonghua renmin gongheguo minshi susong fa'' de jueding], 31 August 
12, para. 21; PRC Civil Procedure Law [Zhonghua renmin gongheguo minshi 
susong fa], passed 9 April 91, amended 28 October 07, 31 August 12, 
effective 1 January 13, art. 100. See also Gary A. Seib et al., Baker & 
McKenzie, ``Client Alert: Recent Amendments to China's Civil Procedure 
Law Bring Important Changes and Greater Remedies,'' September 2012, 2; 
Hui Huang, Wan Hui Da Intellectual Property Agency, ``Amendments of 
China Civil Procedure Law Will Come Into Effect on Jan 1st 2013,'' 
reprinted in Lexology, 29 November 12; Terence Tung et al., Mayer Brown 
JSM, ``New Amendments to PRC Civil Procedure Law Aimed at Increasing 
Efficiency, Transparency and Parties' Autonomy,'' 17 January 13, 2.
    \145\Ibid.
    \146\Ministry of Commerce, ``Provisions on Additional Restrictive 
Conditions for the Concentration of Business Operators (Draft for 
Comment)'' [Jingyingzhe jizhong fujia xianzhixing tiaojian de guiding 
(zhengqiu yijian gao)], 27 March 13.
    \147\Ministry of Commerce, ``Interim Provisions Regarding the 
Application of Standards for Simple Cases of Concentration of Business 
Operators (Draft for Comment)'' [Guanyu jingyingzhe jizhong jianyi 
anjian shiyong biaozhun de zanxing guiding (zhengqiu yijian gao)], 3 
April 13.
    \148\See, e.g., Ninette Dodoo et al., ``MOFCOM Seeks To Streamline 
and Clarify the Chinese Merger Control Process--Draft Regulations 
Published,'' Clifford Chance, 24 April 13; Herbert Smith Freehills LLP, 
``Recent Developments in Chinese Merger Control: MOFCOM Consults on 
Draft Regulations and Imposes Remedies in Glencore/Xstrata and 
Marubeni/Gavilon Mergers,'' 7 May 13.
    \149\See, e.g., Michael Martina, ``Insight--Flexing Antitrust 
Muscle, China Is a New Merger Hurdle,'' Reuters, 2 May 13; Herbert 
Smith Freehills LLP, ``Recent Developments in Chinese Merger Control: 
MOFCOM Consults on Draft Regulations and Imposes Remedies in Glencore/
Xstrata and Marubeni/Gavilon Mergers,'' 7 May 13.
    \150\Ninette Dodoo et al., ``MOFCOM Seeks To Streamline and Clarify 
the Chinese Merger Control Process--Draft Regulations Published,'' 
Clifford Chance, 24 April 13, 3.
    \151\Ministry of Commerce, ``Interim Provisions Regarding the 
Application of Standards for Simple Cases of Concentration of Business 
Operators (Draft for Comment)'' [Guanyu jingyingzhe jizhong jianyi 
anjian shiyong biaozhun de zanxing guiding (zhengqiu yijian gao)], 3 
April 13, arts. 2-4.
    \152\Herbert Smith Freehills LLP, ``Recent Developments in Chinese 
Merger Control: MOFCOM Consults on Draft Regulations and Imposes 
Remedies in Glencore/Xstrata and Marubeni/Gavilon Mergers,'' 7 May 13.
    \153\Nickie Yeung, ``NDRC Cracks Down on Anti-Competitive 
Behaviour,'' China Law & Practice, January/February 2013. See also 
``Chinese Authorities Fine LCD Cartel in First Case Concerning Conduct 
Outside China,'' Congressional-Executive Commission on China, 12 
February 13.
    \154\Based on a January 4, 2013, Chinese yuan (CNY)-U.S. dollar 
(USD) exchange rate of 0.16, from XE. XE, ``Current and Historical Rate 
Tables,'' last visited 14 August 13.
    \155\National Development and Reform Commission, ``Six Foreign 
Enterprises Carry Out LCD Screen Price Fixing, Investigated According 
to the Law'' [Liu jia jingwai qiye shishi yejing mianban jiage longduan 
bei yifa chachu], 4 January 13. See also ``Chinese Authorities Fine LCD 
Cartel in First Case Concerning Conduct Outside China,'' Congressional-
Executive Commission on China, 12 February 13.
    \156\National Development and Reform Commission, ``Six Foreign 
Enterprises Carry Out LCD Screen Price Fixing, Investigated According 
to the Law'' [Liu jia jingwai qiye shishi yejing mianban jiage longduan 
bei yifa chachu], 4 January 13.
    \157\PRC Pricing Law [Zhonghua renmin gongheguo jiage fa], passed 
29 December 97, issued 29 December 97, effective 1 May 98.
    \158\Ibid., art. 14(1).
    \159\PRC Antimonopoly Law [Zhonghua renmin gongheguo fan longduan 
fa], passed 30 August 07, effective 1 August 08.
    \160\Ibid.
    \161\PRC Pricing Law [Zhonghua renmin gongheguo jiage fa], passed 
29 December 97, issued 29 December 97, effective 1 May 98, art. 2.
    \162\PRC Administrative Punishment Law [Zhonghua renmin gongheguo 
xingzheng chufa fa], passed 17 March 96, issued 17 March 96, effective 
1 October 96, art. 29.
    \163\Nickie Yeung, ``NDRC Cracks Down on Anti-Competitive 
Behaviour,'' China Law & Practice, January/February 2013.
    \164\Nathan Bush et al., O'Melveny & Myers LLP, ``China's NDRC 
Penalizes Global LCD Panel Price Cartel,'' 7 January 13.
    \165\Ibid.
    \166\Meng Jing, ``Watchdog Bites With No Favor,'' China Daily, 16 
September 13.
    \167\Ibid.
    \168\Ministry of Public Security, ``Public Security Organs 
Concentrate on Combatting Meat Product Offenses, Protecting Safety at 
the Table'' [Gongan jiguan jizhong daji rouzhipin fanzui baowei canzhuo 
anquan], 2 May 13.
    \169\See, e.g., Jonathan Kaiman, ``China Arrests 900 in Fake Meat 
Scandal,'' Guardian, 3 May 13; Laurie Burkitt, ``Rats! China Chews on 
New Food Safety Scandal,'' Wall Street Journal, China Real Time Report 
(blog), 3 May 13; ``Over 900 Arrested in China for Meat-Related 
Crimes,'' Xinhua, 2 May 13.
    \170\Didi Kirsten Tatlow, ```Cadmium Rice' Is China's Latest Food 
Scandal,'' New York Times, IHT Rendezvous (blog), 20 May 13; Shen 
Jingwen, ``Over 40 Percent of Rice Sampled in Guangzhou Contains 
Cadmium Levels That Are Too High, Poisonous Brands Still a Mystery'' 
[Guangzhou dami bei choujian chao 4 cheng ge chaobiao, youdu pinpai 
reng cheng mi], China National Radio, 17 May 13.
    \171\Ibid.
    \172\``China Jails 6 for Selling Dirty Cooking Oil as New,'' 
Associated Press, 8 April 13.
    \173\Ibid.
    \174\Food and Drug Safety, Public Health, and the Environment in 
China, Hearing of the Congressional-Executive Commission on China, 22 
May 13, Testimony of Steven M. Solomon, Associate Director for Global 
Operations and Policy, Office of Global Regulatory Operations and 
Policy, Food and Drug Administration, U.S. Department of Health and 
Human Services.
    \175\U.S. Immigration and Customs Enforcement, ``Corporations 
Charged for Allegedly Importing Hazardous and Counterfeit Toys From 
China for Sale in the US,'' 6 February 13.
    \176\Ibid.
    \177\Charlotte Haunhorst, ``Food From Nowhere: Producers Reject 
Calls for Stricter Labels,'' Der Spiegel, 17 October 12.
    \178\See, e.g., CECC, 2008 Annual Report, 31 October 08, 157-58.
    \179\``Milk Smugglers Top Heroin Courier Arrests in Hong Kong,'' 
Bloomberg, 26 April 13.
    \180\Ibid.
    \181\``Chinese Premier Vows To Boost Dairy Industry,'' Xinhua, 31 
May 13.
    \182\Ibid.
    Notes to Section III--Access to Justice

    \1\Universal Declaration of Human Rights, adopted and proclaimed by 
UN General Assembly resolution 217A (III) of 10 December 48, art. 8.
    \2\International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 2. China has signed, and stated 
its intent to ratify the ICCPR.
    \3\Ng Tze-wei, ``Pedigree of Top Judge Zhou Qiang Offers Hope for 
Legal Reform,'' South China Morning Post, 4 April 13.
    \4\Keith Zhai, ``Security Tsar Meng Jianzhu Criticises Interference 
in Court Proceeding,'' South China Morning Post, 9 January 13. 
University of Hong Kong Law School Professor Fu Hualing wrote of former 
Minister of Public Security and Politburo Standing Committee member 
Zhou Yongkang that his ``legacy will be his willingness and ability to 
turn the legal system against law and create a culture of contempt of 
law within the political legal system.'' See Fu Hualing, ``Autonomy, 
Courts and the Political-Legal Order in Contemporary China'' in The 
Routledge Handbook of Chinese Criminology, eds. Liqun Cao, Ivan Y. Sun, 
and Bill Hebenton (Abingdon, Oxon: 2013--Forthcoming), Chap. 7, and 
University of Hong Kong Faculty of Law Research Paper No. 2013/013, via 
Social Sciences Research Net, last visited 26 June 13.
    \5\Quan Yi, ``Reform of Operational Mechanisms of Judicial Powers 
`The Direction Is Judicial Independence and Integrity''' [Sifa quanli 
yunxing jizhi gaige ``fangxiang zaiyu sifa duli qie lianjie''], 
Oriental Morning Post, 8 January 13.
    \6\Chen Baocheng, ``Police To Stop Using Camps This Year, Politburo 
Members Says,'' Caixin, 7 January 13.
    \7\Cui Qingxin and Liu Yizhan, ``China Will Promote RTL, Residence 
Permit, and Other System Reforms'' [Zhongguo jiang tuijin laojiao, huji 
deng zhidu gaige], Xinhua, 7 January 13.
    \8\PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, preamble, art. 126.
    \9\Xu Xin et al., Beijing Institute of Technology Center for 
Judicial Reform, ``Annual Report on China's Judicial Reform (2012)'' 
[Zhongguo sifa gaige niandu baogao (2012)], China University of 
Politics and Law Forum, Issue 2, 2013.
    \10\Ibid.
    \11\State Council Information Office, ``Full Text: Judicial Reform 
in China,'' reprinted in Xinhua, 9 October 12.
    \12\Fu Hualing, ``Autonomy, Courts and the Political-Legal Order in 
Contemporary China'' in The Routledge Handbook of Chinese Criminology, 
eds. Liqun Cao, Ivan Y. Sun, and Bill Hebenton (Abingdon, Oxon: 2013--
Forthcoming), Chap. 7, and University of Hong Kong Faculty of Law 
Research Paper No. 2013/013, via Social Sciences Research Network, last 
visited 26 June 13.
    \13\``Two Sessions' Authorized Release: Supreme People's Court Work 
Report'' [Lianghui shouquan fabu: zuigao renmin fayuan gongzuo baogao], 
Xinhua, 21 March 13.
    \14\Dui Hua Foundation, ``Judicial Independence Debuts in 
Contentious SPC Work Report,'' Dui Hua Human Rights Journal, 19 March 
13.
    \15\For the two most recent five-year plans, see ``Outline of the 
Third Five-Year Plan for Reform of People's Courts (2009-2013)'' 
[Renmin fayuan di sange wunian gaige gangyao (2009-2013)], 27 March 09; 
``Outline of the Second Five-Year Plan of People's Courts (2004-2008)'' 
[Renmin fayuan di erge wunian gaige gangyao (2004-2008)], 26 May 05. 
The fourth five-year plan presumably will encompass the years 2014-
2019. The judiciary's five-year plans designate the focal areas for 
which the court system as a whole should improve, strengthen, or 
reform. Past plans have included such issues as court personnel, 
operational and procedural mechanisms, adjudication, and 
standardization, among others.
    \16\Cui Qingxin and Liu Yizhan, ``China Will Promote RTL, Residence 
Permit, and Other System Reforms'' [Zhongguo jiang tuijin laojiao, huji 
deng zhidu gaige], Xinhua, 7 January 13; Chen Baocheng, ``Report: New 
Voice of the Supreme People's Court'' [Baodao: zui gao fayuan de xin 
shengyin], New Century Magazine, 14 July 13.
    \17\Fu Hualing, ``Re-Education Through Labour in Historical 
Perspective,'' China Quarterly, Vol. 184, December 2005, 811; John 
Givens, ``Small Details Make for Big Injustices: Re-education Through 
Labour and Administrative Litigation,'' Politics in Spires, Oxon China 
(blog), 11 June 13; CECC, ``Special Topic Paper: Prospects for 
Reforming China's Reeducation Through Labor System,'' 9 May 13; CECC, 
2009 Annual Report, 10 October 09, 99.
    \18\Chinese Human Rights Defenders, ``Rule of Law Is Key to Ending 
All Forms of Extralegal Detention, Including Forced Labor,'' reprinted 
in Amnesty International, 6 February 13.
    \19\Zhao Lei and Zheng Li, ``Wang Hanbin Witnessed Significant 
Legislative Debates'' [Wang hanbin qinli de zhongda lifa lunzheng], 
Southern Weekend, 18 April 13; Li Yonggang, ``Pu Zhiqiang: Why We Are 
Calling for the Complete End to Reeducation Through Labor'' [Pu 
zhiqiang: women wei shenme huyu chedi feichu laojiao], Chinese Business 
Gazette, 23 November 12. Commentator Zhang Ruoyu wrote in Chinese 
Business View that, ``At the very least, the RTL system violates the 
Constitution, the Legislation Law, the Administrative Penalty Law, and 
the International Covenant on Civil and Political Rights, which the 
Chinese government has signed.'' See Zhang Ruoyu, ``Deposing RTL Lacks 
Only the Puncture of a Paper Window'' [Feichu laojiao zhidu jiu cha 
tongpo yiceng chuanghu zhi], Chinese Business View, 8 January 13, 
translated and reprinted in Dui Hua Foundation, ``RTL Abolition: `Only 
A Matter of Time?''' 9 January 13.
    \20\Andrew Jacobs, ``China Says It Will Overhaul Sprawling System 
of Re-Education Through Labor,'' New York Times, 7 January 13.
    \21\Human Rights Watch, ``Dangerous Meditation: China's Campaign 
Against Falungong,'' January 2002.
    \22\Fu Hualing, ``Re-Education Through Labour in Historical 
Perspective,'' China Quarterly, Vol. 184, December 2005, 811, 823-27.
    \23\Tania Branigan, ``Outcry in China Over Mother Sent to Labour 
Camp After Daughter's Rape,'' Guardian, 16 August 12; Yu Jincui, 
``Punishing Criticism Outdated in Today's China,'' Global Times, 12 
October 12; ``Chongqing Village Official's `Give Me Liberty or Give Me 
Death' T-Shirt Used as RTL Material Evidence'' [Chongqing cunguan ``bu 
ziyou wuning si'' T xiu bei zuo laojiao wuzheng], DaHe Net, reprinted 
in People's Daily Online, 11 October 12.
    \24\``Lens: Expose on Liaoning's Masanjia Women's RTL Center'' 
[Jiemi liaoning masanjia nuzi laojiaosuo], Lens Magazine, reprinted in 
China Digital Times, 7 April 13; Dui Hua Foundation, ``Magazine Expose 
Reinvigorates Calls To End RTL,'' 11 April 13.
    \25\The End of Reeducation Through Labor? Recent Developments and 
Prospects for Reform, Staff Roundtable of the Congressional-Executive 
Commission on China, 9 May 13, Testimony of Li Xiaorong, Independent 
Scholar; CECC, ``Special Topic Paper: Prospects for Reforming China's 
Reeducation Through Labor System,'' 9 May 13.
    \26\``RTL Centers in Jiangsu, Beijing and Elsewhere To Become 
Compulsory Drug Treatment Centers'' [Jiangsu beijing dengduo di 
laojiaosuo zhuanxing wei qiangzhi jiedusuo], Shun Net, 18 June 13.
    \27\Zhou Qingshu et al., ``Many Places Throughout the Country Have 
Stopped Approving RTL'' [Quanguo duodi tingzhi laojiao shenpi], Beijing 
News, 16 July 13; Liu Guannan, ``Guangzhou Intermediate Court Vice-
President: Guangzhou Has Already Stopped Approving RTL'' [Guangzhou 
zhongyuan fuyuanzhang: guangzhou yi tingzhi shenpi laojiao], Southern 
Daily, reprinted in Guangdong News Net, 5 September 13.
    \28\Chinese Human Rights Defenders, ``Rule of Law Is Key To Ending 
All Forms of Extralegal Detention, Including Forced Labor,'' reprinted 
in Amnesty International, 6 February 13.
    \29\Keith Zhai, ``Calls To Abolish Labour Camps Are Unlikely To Be 
Heard By NPC,'' South China Morning Post, 27 February 13; Wang Hairong, 
``Re-Education Scrutinized,'' Beijing Review, 4 April 13; ``Yunnan's 
Response to RTL Reform: The First To `Suspend' Is Reading Too Much Into 
It'' [Yunnan huiying laojiao gaige: luxian ``jiaoting'' shu guodu 
jiedu], Beijing Morning Post, reprinted in Xinhua, 8 February 13.
    \30\``Li Keqiang: China's Reeducation Through Labor System Reform 
Program Expected Within the Year'' [Li keqiang: zhongguo laojiao zhidu 
gaige fang'an youwang niannei chutai], Xinhua, 17 March 13.
    \31\UN GAOR, Hum. Rts. Coun., 17th Sess., National Report Submitted 
in Accordance with Paragraph 5 of the Annex to Human Rights Council 
Resolution 16/21, A/HRC/WG.6/17/CHN/1, 5 August 13, para. 48; ``Calls 
for Transparency in China Labor Camp Reform,'' Radio Free Asia, 20 June 
13.
    \32\``Lawyers Concerned Reeducation Through Labor System Reform in 
Name Only'' [Lushi you laojiao zhidu gaige qiaozhi huantang bu 
huanyao], Beijing Times, reprinted in NetEase, 9 January 13.
    \33\See Carl F. Minzner, ``Xinfang: An Alternative to Formal 
Chinese Legal Institutions,'' Stanford Journal of International Law, 
Vol. 42, No. 103 (2006); Flora Sapio, ``Legal Erosion and the Policing 
of Petitions,'' in Comparative Perspectives on Criminal Justice in 
China, eds. Mike McConville and Eva Pils (Northampton, MA: Edward Elgar 
Publishing, Inc., 2013), 348-69.
    \34\Amnesty International, ``Standing Their Ground: Thousands Face 
Violent Eviction in China,'' 11 October 12, 31-32.
    \35\Liang Weiguo, ``Zhu Jiamu: Wage Arrears Problems for Migrant 
Workers Demand Quick Resolution'' [Zhu jiamu: nongmingong zixin wenti 
yao jinkuai dedao jin yi bu jiejue], China Social Sciences Net, 
reprinted in Chinese Communist Party News Net, 13 March 13.
    \36\``Veterans Detained Over Protest,'' Radio Free Asia, 20 August 
12.
    \37\``AIDS Orphans Still Not Paid,'' Radio Free Asia, 3 January 13.
    \38\``Security Steps Up For Petitioners as China Parliament 
Meets,'' Agence France-Presse, reprinted in South China Morning Post, 
11 March 13.
    \39\``Letters and Visits Bureau Heads' Conference: Rectify Practice 
of Intercepting Ordinary Petitioning'' [Xinfang juzhang huiyi: jiuheng 
lanka dujie zhengchang shangfang zuofa], People's Daily Online, 
reprinted in Southern Metropolitan Daily, 10 January 13; ``The Rising 
Momentum of Petitioning Cases Has Begun To Turn, Petitioning Tending To 
Be More Rational'' [Woguo xinfang zongliang zhixu pansheng shitou huo 
e'zhi shangfang geng quxiang lixing], Central People's Broadcasting 
Net, 29 April 06.
    \40\The Commission found official announcements on ``petitioning 
stability maintenance work'' during the 18th Party Congress on 
government Web sites for at least 14 provinces and province-level 
regions, including Zhejiang, Hebei, Henan, Shaanxi, Xinjiang Uyghur 
Autonomous Region, Shanxi, Guangdong, Yunnan, Guizhou, Liaoning, 
Jiangxi, Shandong, Sichuan and Gansu. Representative examples of ``zero 
petitioning'' announcements are: Zhejiang province, People's Government 
of Jiangshan, Zhejiang, ``Notice on Earnestly Doing Petitioning 
Stability Maintenance Work During the 18th Party Congress'' [Guanyu 
renzhen zuohao dang de shibada qijian xinfang weiwen gongzuo de 
tongzhi], 14 August 12; and Hebei province, Hebei Province Letters and 
Visits Bureau, ``Tangshan City Letters and Visits Bureau Promotes 
`Three Family' Content To Create and Deepen Positive Activities'' 
[Tangshan shi xinfangju tuidong yi ``sanjia'' wei zhuyao neirong de 
chuangxian zhengyou huodong shenru kaizhan], partial date, 2012, last 
visited 15 July 13.
    \41\See, e.g., Shandong Province, Qingyun County People's 
Procuratorate, ``Strengthen Five Measures To Guarantee Social Stability 
During Major Events'' [Qianghua wuxiang cuoshi quebao zhongda jiehui 
qijian shehui wending], 1 June 12.
    \42\See, e.g., Hebei Province Bureau of Letters and Visits, 
``Tangshan City Bureau of Letters and Visits Promotes `Three Family' 
Content To Create and Deepen Positive Activities'' [Tangshan shi 
xinfangju tuidong yi ``sanjia'' wei zhuyao neirong de chuangxian 
zhengyou huodong shenru kaizhan], partial date, 2012, last visited 15 
July 13.
    \43\See, e.g., People's Government of Jiangshan, Zhejiang, ``Notice 
on Earnestly Doing Petitioning Stability Maintenance Work During the 
18th Party Congress'' [Guanyu renzhen zuohao dang de shibada qijian 
xinfang weiwen gongzuo de tongzhi], 14 August 12.
    \44\``Many Petitioners Are Seized Without a Trace and Disappear, 
Open Letter Calls To Do Away With Black Jails'' [Zhong fangmin bei 
zhuashi zongying gongkai xin huyu fei heilao], Radio Free Asia, 5 
November 12. Oriental Daily, a Hong Kong-based media outlet, reported 
that 1.4 million volunteers were mobilized in Beijing to ``maintain 
stability'' for the 18th Party Congress. See ``Mobilization of 1.4 
Million Volunteers To Maintain Stability During the 18th Party 
Congress'' [Shibada weiwen dongyuan 140 wan zhiyuanzhe], Oriental 
Daily, 1 November 12.
    \45\``Petitioners Evicted Ahead of Congress,'' Radio Free Asia, 1 
August 12.
    \46\``Before the CCP 18th Party Congress, Authorities To Increase 
Stability Maintenance Efforts'' [Zhonggong shibada qian dangju jiada 
weiwen lidu], Radio Free Asia, 5 October 12.
    \47\Chinese Human Rights Defenders, ``Close To 500 Citizens Send 
Letter to Xi Jinping, Demanding Release of Shanghai Rights Defenders'' 
[Jin 500 ming gongmin zhixin xi jinping, yaoqiu shifang shanghai 
weiquan renshi], 17 February 13. Prior to the 18th Communist Party 
Congress in fall 2012, ``stability maintenance work'' also resulted in 
RTL decisions for Qin Wei, a former middle school art teacher and Falun 
Gong practitioner from Beijing municipality (two years and six months), 
and Pei Fugui, the founder of the Petitioners' House in Beijing (one 
year and three months). For more information on Qin Wei's case, see the 
Commission's Political Prisoner Database record 2013-00020. For more 
information on Pei Fugui's case, see the Commission's Political 
Prisoner Database record 2013-00084.
    \48\Human Rights in China, ``Shanghai Petitioner Mao Hengfeng 
Released To Finish Reeducation Order at Home,'' 8 February 13. For 
additional information on Mao Hengfeng's case, see the Commission's 
Political Prisoner Database record 2004-05122.
    \49\Chinese Human Rights Defenders, ``Shanghai Rights Defenders 
Sent to RTL, Tong Guojing and Cui Fufang, Raise Administrative Appeal'' 
[Bei laojiao de shanghai weiquan renshi tong guojing, cui fufang tiqi 
xingzheng susong], 8 January 13. For additional information on Cui 
Fufang's case, see the Commission's Political Prisoner Database record 
2013-00137.
    \50\``Tong Guojing Gets RTL Twice Within Two Years, Jiangxi and 
Hubei Petitioners Abused in Psychiatric Hospital (Photo)'' [Tong 
guojing liangnian nei liangdu bei laojiao gan e fangmin jingshenbing 
yuan shou nuedai (tu)], Radio Free Asia, 31 October 12. For additional 
information on Tong Guojing's case, see the Commission's Political 
Prisoner Database record 2013-00191.
    \51\``Shen Yongmei's Trial Starts at Shanghai Qingpu Women's RTL 
Center'' [Shen yongmei zai shanghai qingpu nuzi laojiaosuo kaiting], 
New Tang Dynasty TV, 30 January 13. For additional information on Shen 
Yongmei's case, see the Commission's Political Prisoner Database record 
2013-00138.
    \52\Wang Liang, ``Shanghai Shen Lianman RTL Case Goes To Trial, 
Close To 500 Citizens Go To Court in Support'' [Shanghai shen lianman 
laojiao an kaiting jin 500 gongmin fu fayuan shengyuan], Epoch Times, 
19 April 13. For additional information on Shen Lianman's case, see the 
Commission's Political Prisoner Database record 2013-00228.
    \53\Ren Zhongyuan, ``The Death of a Petitioner,'' Caixin, 14 
December 12.
    \54\``Beijing Police Encounter the 18th Party Congress with `Zero 
Petitioning''' [Beijing jingfang yi ``ling shangfang'' yingjie 18 da], 
Radio France Internationale, 25 October 12; ``Security Steps Up For 
Petitioners As China Parliament Meets,'' Agence France-Presse, 
reprinted in South China Morning Post, 11 March 13; ``Thousands at 
Complaints Bureau,'' Radio Free Asia, 3 September 12.
    \55\``Security Steps Up For Petitioners As China Parliament 
Meets,'' Agence France-Presse, reprinted in South China Morning Post, 
11 March 13; ``Beijing Commences Stability Maintenance for the Two 
Meetings, Petitioners Are Beaten and Detained'' [Beijing qidong 
lianghui weiwen fangmin beida huo beiju], Radio Free Asia, 20 February 
13.
    \56\Li Qiumeng et al., ``Jia Qinglin: CPPCC Raises Suggestion of 
Establishing System To End Abnormal Petitioning'' [Jia qinglin: zhenxie 
ti yijian feizhengchang shangfang zhongjiezhi]. Beijing Times, 
reprinted in China News, 4 March 13. Among the measures suggested to 
resolve intractable petitioning cases were justice sector dispute-
resolution in the courts or procuratorate, hearings, and a specialized 
department within the letters and visits offices. See also ``Shenzhen 
Expands Measures Against `Abnormal Petitioning,''' Congressional-
Executive Commission on China, 11 May 10.
    \57\Yuan Zhoubin, ``Discussing Abnormal Petitioning Dilemmas and 
Paths to Resolution'' [Lun fei zhengchang shangfang wenti de kunjing yu 
jiejue lujing], People's Tribune, 22 April 13. See also Flora Sapio, 
``Legal Erosion and the Policing of Petitions,'' in Comparative 
Perspectives on Criminal Justice in China, eds. Mike McConville and Eva 
Pils (Northampton, MA: Edward Elgar Publishing Inc., 2013), 345-69.
    \58\Xin Shengzhi, ``CPPCC Recommends Establishing Comprehensive 
Mechanism To End Abnormal Petitioning'' [Quanguo zhengxie tichu jianli 
jianquan fei zhengchang shangfang zhongjie jizhi], Southern 
Metropolitan Daily, 4 March 13.
    \59\``Letters and Visits Bureau Heads' Conference: Rectify Practice 
of Intercepting Ordinary Petitioning'' [Xinfang juzhang huiyi: jiuzheng 
lanka dujie zhengchang shangfang zuofa], People's Daily Online, 
reprinted in Southern Metropolitan Daily, 10 January 13; Liang Changjie 
and Yao Yi, ``Central Commission for Discipline Inspection Petition 
Office: Advocates Normal Channels and Real-Name Reporting'' [Zhongyang 
jiwei xinfang shi: tichang zhengchang qudao shiming jubao], People's 
Daily, reprinted in PRC Ministry of Supervision, 8 May 13; ``Central 
Commission for Discipline Inspection: Strictly Prohibit Interception of 
Ordinary Petitioners in Public Places'' [Zhongjiwei guanyuan: yanjindao 
gonggong changsuo lanjie zhengchang shangfang qunzhong], China News 
Service, reprinted in Xinhua, 7 May 13; ``Beijing News: Abolish 
Petitioning Rankings, Let Petitioning Go Towards Rule of Law'' 
[Xinjingbao: quxiao xinfang paiming rang xinfang zou fazhi], Beijing 
News, 9 May 13.
    \60\Zhou Di, ``Beijing Youth News: Suspension of Petitioning 
Rankings Is A Positive Signal'' [Beiqingbao: tingfa xinfang paimingbiao 
shi yige jiji xinhao], Beijing Youth News, reprinted in People's Net 
Online, 9 May 13. A National People's Congress deputy from Changsha 
city, Hunan province recommended abolishing the ``ranking'' system 
because local officials have prioritized lowering the number of 
petitions rather than trying to solve petitioner grievances. See Xin 
Shengzhi, ``CPPCC Recommends Establishing Comprehensive Mechanism To 
End Abnormal Petitioning'' [Quanguo zhengxie tichu jianli jianquan fei 
zhengchang shangfang zhongjie jizhi], Southern Metropolitan Daily, 4 
March 13.
    \61\Yao Wenhui, ``Eradicating Local Officials' Infatuation With 
Petitioning Rankings,'' Kunming Evening News, 23 May 13, translated and 
reprinted in Dui Hua Foundation as ``Hefei Petitioning Rankings 
Continue Despite Central Stoppage,'' 11 June 13.
    \62\``[We] Strongly Call on Relevant Authorities To Carry Out Their 
Responsibilities, Punish Illegal Actions Against Lawyers' Professional 
Rights'' [Qianglie huyu youguan dangju luxing zhize chengzhi qinhai 
lushi zhiyequan de weifa xingwei], reprinted in China Human Rights 
Lawyers Concern Group, 22 July 13; ``Riot Police Raid Chinese 
Dissident's Legal Team,'' Radio Free Asia, 25 June 13; Karla Simon, 
``Good News and Bad From the Public Interest Law Front in China,'' 
Alliance, 23 May 13.
    \63\``Lawyer Wang Quanzhang Is Released Two Days Early From 
Detention'' [Lushi wang quanzhang beiju liangri tiqian huoshi], Radio 
Free Asia, 8 April 13; ``Wang Cheng of Hangzhou Was Detained, 
Authorities Intensify Suppression of Citizen Action'' [Hangzhou wang 
cheng bei zhua dangju huo jiajin daya gongmin xingdong], Voice of 
America, 26 April 13; Human Rights in China, ``Criminally Detained: 
Zhao Changqing and Six Other Advocates of Public Disclosure of 
Officials' Assets,'' 19 April 13.
    \64\Zhuang Chen, ``China Lawyers Held and Beaten Over `Black Jail' 
in Sichuan,'' BBC, 14 May 13; Human Rights in China, ``Lawyers Beaten 
During Attempt To Visit Black Jail,'' 13 May 13.
    \65\CECC, 2012 Annual Report, 10 October 12, 146-47; CECC, 2011 
Annual Report, 10 October 11, 188-89; Chinese Human Rights Defenders, 
```We Can Dig a Pit and Bury You Alive' Annual Report on the Situation 
of Human Rights Defenders in China, 2011,'' 9 March 12; UN Office of 
the High Commissioner for Human Rights, ``China: UN Expert Body 
Concerned About Recent Wave of Enforced Disappearances,'' 8 April 11.
    \66\Chinese Human Rights Defenders, ``China Human Rights Briefing 
May 31-June 6, 2013,'' 6 June 13.
    \67\``Beijing Justice Bureau Doesn't Give License To Practice to 
Rights Defense Lawyers and Law Firms'' [Beijing sifaju bufa gei weiquan 
lushi he lushisuo congye zhizhao], Radio Free Asia, 3 June 13.
    \68\``Outspoken Lawyer Si Weijiang Faces Complete Ban, Material in 
`Zhongnanhai Letter' Touches Authorities' Sensitivity'' [Ganyan lushi 
si weijiang zao quanmian fengsha liao ``zhongnanhai laixin'' chutong 
dangju], Radio Free Asia, 22 March 13; Chinese Human Rights Defenders, 
``Attorney Pu Zhiqiang's Blog Shut Down After Denouncing Zhou 
Yongkang'' [Pu zhiqiang lushi shiming jubao zhou yongkang weibo 
zhanghao bei shanchu], 12 February 13.
    \69\Zhou Xi, ``Lawyer Pu Zhiqiang Is Refused Entry Into Hotel 
Because an ID Check Revealed He is a Key Person'' [Lushi pu zhiqiang 
yin shenfenzheng xianshi xi zhongdian renyuan zao bingguan jujue 
jiedai], Radio France Internationale, 22 May 13.
    \70\Zhuang Chen, ``China Lawyers Held and Beaten Over `Black Jail' 
in Sichuan,'' BBC, 14 May 13; Human Rights in China, ``Lawyers Beaten 
During Attempt To Visit Black Jail,'' 13 May 13.
    \71\See the Commission's Political Prisoner Database record 2005-
00199 for more information on Xu Zhiyong's case.
    \72\See the Commission's Political Prisoner Database record 2005-
00291 for more information on Gao Zhisheng's case.
    \73\See the Commission's Political Prisoner Database record 2005-
00285 for more information on Ni Yulan's case.
    \74\Chris Buckley, ``A Leading Chinese Human Rights Advocate Is 
Detained in Beijing,'' New York Times, 17 July 13. See also ``Officials 
Detain Xu Zhiyong Amidst a Crackdown on Individuals Calling for Greater 
Government Accountability,'' Congressional-Executive Commission on 
China, 1 August 13.
    \75\Edward Wong, ``Family's Visit Confirms Chinese Dissident Is 
Alive,'' New York Times, 23 January 13.
    \76\Jerome A. Cohen, ``Beijing Must Reveal Fate of Human Rights 
Lawyer Gao Zhisheng,'' South China Morning Post, 19 March 09; PRC 
Criminal Law [Zhonghua renmin gongheguo xingfa], enacted 1 July 79, 
effective 1 October 97, amended 14 March 97, 25 December 99, 31 August 
01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 
February 09, 25 February 11, art. 105(2). See the Commission's 
Political Prisoner Database record 2005-00291 for more information on 
Gao Zhisheng's case.
    \77\Keane Shum, ``Hope Against Hope for Gao Zhisheng's Freedom,'' 
South China Morning Post, 8 February 13.
    \78\Edward Wong, ``Family's Visit Confirms Chinese Dissident Is 
Alive,'' New York Times, 23 January 13.
    \79\In July 2012, the Beijing Municipal No. 1 Intermediate People's 
Court reduced Ni's prison sentence by two months, to two years and six 
months. See Human Rights in China, ``Court Overturns `Fraud Conviction' 
in Ni Yulan Appeal, Cuts Jail Sentence By Two Months,'' 27 July 12.
    \80\Chinese Human Rights Defenders, ``Human Rights Activist Ni 
Yulan Sentenced to Two Years and Eight Months in Prison, Husband Gets 
Two Years,'' 10 April 12. Ni and her husband were detained in April 
2011, indicted in December 2011, and sentenced in April 2012. See the 
Commission's Political Prisoner Database records 2005-00285 for more 
information on Ni Yulan's case and 2011-00353 for Dong Jiqing's case.
    \81\``Jailed Rights Lawyer's Parole Request Refused,'' Radio Free 
Asia, 4 July 13.
    \82\```I Felt They Could Shatter My Body,''' Radio Free Asia, 13 
April 12.
    \83\``Jailed Rights Lawyer's Parole Request Refused,'' Radio Free 
Asia, 4 July 13.
    \84\Zhou Bin, ``Last Year's Legal Aid Cases Throughout the Nation 
Exceeded One Million for the First Time Ever'' [Qunian quanguo falu 
yuanzhu an shou po baiwan], Legal Daily, reprinted in China Legal Aid, 
20 February 13.
    \85\Ibid.
    \86\Ibid.
    \87\UN Committee on the Rights of Persons with Disabilities, 
Concluding Observations on the Initial Report of China, Adopted by the 
Committee at Its Eighth Session, 15 October 12.
    \88\Chen Jie, ``Current Effectiveness of Legal Aid in China Is 
Worrisome, New Legal Provision Lowers the Bar for Applying for Legal 
Aid'' [Zhongguo falu yuanzhu shixiao kanyou xingui jiangdi yuanzhu 
shenqing menkan], Caixin, 20 February 13; Xie Youping and Wu Yu, 
``Constructing the System of Criminal Legal Aid and Public Defenders'' 
[Xingshi falu yuanzhu yu gongshe bianhu zhidu de jiangou], Tsinghua Law 
Journal, Vol. 6, No. 3 (2012), 31.
    \89\Zhang Yuan, ``Next Year Criminal Legal Aid Cases Will Likely 
Increase to 550,000 Cases'' [Mingnian xingshi falu yuanzhu anjian huo 
zeng zhi 55 wan jian], Legal Daily, 19 December 12.
    \90\Ministry of Justice, Supreme People's Court, Supreme People's 
Procuratorate, and Ministry of Public Security, Regulations Regarding 
Criminal Procedure Law Legal Aid Work [Guanyu xingshi susong falu 
yuanzhu gongzuo de guiding], issued 18 February 13, effective 1 March 
13; Zhou Bin, ``Deputy Justice Minister Zhao Dacheng Responds to 
Reporter's Questions About the `Regulations Regarding Criminal 
Procedure Law Legal Aid Work''' [Sifabu fubuzhang zhao dacheng jiu 
``guanyu xingshi susong falu yuanzhu gongzuo de guiding'' da jizhe 
wen], Legal Daily, 17 February 13.
    \91\Chen Jie, ``Current Effectiveness of Legal Aid in China Is 
Worrisome, New Legal Provision Lowers the Bar for Applying for Legal 
Aid'' [Zhongguo falu yuanzhu shixiao kanyou xingui jiangdi yuanzhu 
shenqing menkan], Caixin, 20 February 13.
    \92\Song Ninghua, ``Expert Analysis: `Regulations Regarding 
Criminal Procedure Law Legal Aid Work''' [Zhuanjia jiedu ``guanyu 
xingshi susong falu yuanzhu gongzuo de guiding''], Xinmin Evening News, 
reprinted in Eastday, 28 February 13.
    \93\Ibid.
    \94\Geng He and Chen Guangcheng, ``China's Rule of Law: Go After 
the Lawyers,'' Washington Post, 9 April 13.
    \95\See the Commission's Political Prisoner Database record 2005-
00126 for information on Chen Guangcheng's case.
    \96\Chris Buckley, ``Chinese Officials Order Questioning of Exiled 
Activist's Relatives,'' New York Times, 24 April 13.
    \97\Keith B. Richburg, ``Chen Guangcheng's Nephew Found Guilty of 
Assault in China; Sentenced to 39 Months,'' Washington Post, 30 
November 12. See also ``Authorities Use Threats, Abuse, and Harassment 
To Maintain Control Over Chen Kegui and Family,'' Congressional-
Executive Commission on China, 28 March 13; ``Chen Kegui Serving 
Criminal Sentence, Legal Experts Refute Conviction,'' Congressional-
Executive Commission on China, 28 March 13; ``Authorities Sentence Chen 
Kegui in Trial Marred by Procedural Violations,'' Congressional-
Executive Commission on China, 7 December 12.
    \98\Verna Yu, ``Chen Guangcheng's Brother Beaten in Latest Apparent 
Revenge on Family,'' South China Morning Post, 10 May 13.
    \99\Amnesty International, ``China: Legal Activist's Sister-In-Law 
Detained As Harassment Intensifies,'' 24 April 13.
    \100\Annie Wu, ``Chen Guangcheng's Mother Comes Under Pressure,'' 
Epoch Times, 2 June 13.
    \101\See the Commission's Political Prisoner Database record 2004-
02045 for information on Hada's case.
    \102\``Wife of Mongolian Activist Says She Was Detained,'' 
Associated Press, reprinted in South China Morning Post, 15 October 12.
    \103\``In Hohhot, Inner Mongolia, Wife of Mongolian Scholar Hada 
Discusses the 15th Year of Her Husband's Imprisonment'' [Neimeng hushi 
mengzu xuezhe hada qizi tan zhangfu ruyu di 15 nian], Radio Free Asia, 
6 July 10.
    \104\Southern Mongolian Human Rights Information Center, ``Wife and 
Son of Hada Disappear Again,'' 7 November 12. See also ``Authorities 
Heighten Persecution of Detained Mongol Rights Advocate's Wife and 
Son,'' Congressional-Executive Commission on China, 13 December 12.
    \105\See the Commission's Political Prisoner Database record 2004-
03114 for information on Liu Xiaobo's case.
    \106\Isolda Morillo and Alexa Olesen, ``AP Exclusive: China Nobel 
Wife Speaks on Detention,'' Associated Press, 6 December 12; Reporters 
Without Borders, ``Nobel Laureate's Wife at a Window, The Only Freedom 
She Is Allowed,'' 12 October 12. See the Commission's Political 
Prisoner Database record 2010-00629 for further information on Liu 
Xia's case.
    \107\Tania Branigan, ``Liu Xiaobo Brother-in-Law Jailed,'' 
Guardian, 8 June 13; ``China's Jailed Nobel's Wife Writes Open Letter 
to Chinese Leader To Protest Brother's Sentence,'' Associated Press, 
reprinted in Washington Post, 14 June 13.
    \108\See the Commission's Political Prisoner Database record 2004-
02142 for information on Rebiya Kadeer's case.
    \109\Human Rights Watch, ``China: Uighur Activist's Family 
Threatened,'' 15 May 05.
    \110\``Uyghur Leader's Family Evicted,'' Radio Free Asia, 20 August 
09.
    \111\Uyghur American Association, ``Chinese Officials Increase 
Pressure on the Imprisoned Sons of Rebiya Kadeer,'' 29 May 12.
    \112\Ibid.
    \113\See the Commission's Political Prisoner Database record 2006-
00084 for information on Rebiya Kadeer's son, Ablikim Abdureyim.
    \114\Human Rights in China, ``Activist and Ten-Year-Old Daughter 
Illegally Detained Before Forcible Removal From Hefei,'' 1 March 13; 
``Clashes as Activist's Daughter Is Denied Schooling,'' Radio Free 
Asia, 8 April 13.
    \115\Chinese Human Rights Defenders, ``Liu Ying Ordered To Serve 
RTL Because of Her Concern Over Husband, To Date Friends and Family 
Have Not Yet Seen RTL Decision'' [Liu ying yin guanzhu zhangfu bei 
laojiao, qinyou zhijin weijian laojiao juedingshu], 24 January 13. See 
the Commission's Political Prisoner Database record 2013-00044 for 
additional information on Liu Ying's case.
    \116\``Zhu Yufu's Abusive Treatment in Prison Intensifies, Family 
Members' Visit Forcibly Stopped By Prison Guards'' [Zhu yufu yuzhong 
shoupo qingkuang jiaju jiaren tanjian bei yujing qiangzhi zhongduan], 
Radio Free Asia, 12 March 13. See also ``Authorities Deny Medical 
Treatment to Zhu Yufu; Condition Serious,'' Congressional-Executive 
Commission on China, 16 April 13. See the Commission's Political 
Prisoner Database record 2004-02253 for additional information on Zhu 
Yufu's case.
    Notes to Section IV--Xinjiang

    \1\``China Jails 20 in Restive Xinjiang Region,'' Agence France-
Presse, 27 March 13; Edward Wong, ``Killings Stir Fears of Ethnic 
Tensions in Chinese Region,'' New York Times, 8 March 13; Human Rights 
Watch, ``World Report 2013: China,'' 1 February 13, 1, 3; ``A Muslim 
Divide in China,'' Radio Free Asia, 30 November 12.
    \2\``Xinjiang Governor Sees `Long-Term, Complicated, Fierce' Battle 
Against Separatism,'' Xinhua, reprinted in Global Times, 11 November 
12; Wu Haochen, ``Nur Bekri: People of All Ethnic Groups in Xinjiang 
Condemn Terrorist Attacks'' [Nuer baikeli: xinjiang gezu minzhong 
qianze kongxi], Ta Kung Pao, 10 November 12.
    \3\Cui Jia, ``Xinjiang Improves Social Stability After Attacks,'' 
China Daily, 27 January 13; Ministry of Finance, ``Report on Xinjiang 
2012 Budget Implementation Situation and 2013 Draft Budget'' [Xinjiang 
2012 nian yuxuan zhixing qingkuang he 2013 nian yusuan caoan de 
baogao], reprinted in China Central Government Net, 19 February 13.
    \4\Cui Jia, ``Recalling Pain From Day of Horror,'' China Daily, 2 
May 13; Stephen McDonell, ``21 People Killed in Unrest in China's 
Xinjiang,'' Australian Broadcasting Corporation, including material 
from Agence France-Presse, 24 April 13.
    \5\Cui Jia, ``City Unites To Say Farewell,'' China Daily, 30 April 
13; ``Full Justice for the 25 Terrorists Planning To `Do Something Big' 
in Kashgar This Summer'' [Yumou jinxia zai kashi ``gan dashi'' 25 ge 
kongbu fenzi quan gui an], Chengdu Evening News, reprinted in Guangming 
Daily, 30 April 13.
    \6\Damian Grammaticas, ``Doubts Over China Government Claims on 
Xinjiang Attack,'' BBC, 26 April 13; Peter Ford, ``Mystery Clouds 
Deadly Clash in Western China With `Suspected Terrorists,''' Christian 
Science Monitor, 24 April 13; Uyghur American Association, ``Unlawful 
House Search and Arbitrary Use of Lethal Force Results in Nearly Two 
Dozen Deaths in Kashgar,'' 24 April 13; World Uyghur Congress, ``Call 
Issued for Independent Investigation on Maralbeshi Incident by World 
Uyghur Congress and International Community Urged to Follow Up on 
Recent Arrests,'' 1 May 13.
    \7\Uyghur American Association, ``Unlawful House Search and 
Arbitrary Use of Lethal Force Results in Nearly Two Dozen Deaths in 
Kashgar,'' 24 April 13.
    \8\See, e.g., ``Inspection in Awat County Leads to Two Dead--
Authorities Conceal Details of Case'' [Xinjiang awati xian qingcha zhi 
er ren siwang dangju yinman anqing], Uyghur Online, 23 May 13; Meng 
Hongqi, Qiongkule Township Government, ``Qiongkule Township Focuses on 
Carrying Out the `Two Sessions' Security Inspection Operation'' 
[Qiongkule xiang jizhong kaizhan ``lianghui'' anbao da qingcha 
xingdong], 6 March 13; Xiang Xuan, ``Halayugong Township Carries Out 
Major Stability Maintenance Inspection'' [Halayugong xiang kaizhan 
weiwen da qingcha], Xinjiang Peace Net, 13 June 13.
    \9\``5 Jailed, Sentenced to Death for Xinjiang Terrorist Attack,'' 
Xinhua, 12 August 13; Tian Shan, ``First Instance Verdict Announced 
Today in Xinjiang Bachu Violent Terrorist Case: 5 Accused and 2 Receive 
Death Penalty'' [Xinjiang bachu baokong an jin yi shen xuanpan: 5 ming 
beigao 2 ren huo sixing], Tianshan Net, reprinted in Beijing Daily, 12 
August 13; Chris Buckley, ``5 Uyghurs Sentenced in China for Attack,'' 
New York Times, 12 August 13. The five men were sentenced on charges 
including intentional homicide and organizing and leading a terrorist 
group.
    \10\``Last Fugitive of Xinjiang Attack Captured,'' Xinhua, 
reprinted in CRIEnglish, 30 June 13.
    \11\Lin Meilian and Yang Jingjie, ``Riot Toll Rises to 35 in 
Xinjiang,'' Global Times, 28 June 13.
    \12\Xinjiang Uyghur Autonomous Region Public Security Bureau, 
``Reward Notice'' [Xuanshang tonggao], reprinted in Tianshan Net, 16 
August 13; ```8-15' Religious Personnel Murder Case Cracked'' [8-15 
zongjiao renshi bei hai an gaopo], Turpan Net, 19 August 13; ``Imam 
Stabbed to Death After Supporting Crackdown Against Uyghurs,'' Radio 
Free Asia, 16 August 13.
    \13\``Imam Stabbed to Death After Supporting Crackdown Against 
Uyghurs,'' Radio Free Asia, 16 August 13; ``Vice Chair of Turpan 
Islamic Association Hacked to Death'' [Tulufan yisilan xiehui fu zhuxi 
zao kan si], Radio Free Asia, 16 August 13.
    \14\``Xinjiang Violence More Serious Than Reported,'' Radio Free 
Asia, 27 June 13; ``Chinese Authorities Confirm Police Fired at Uyghur 
Protesters,'' Radio Free Asia, 30 June 13; World Uyghur Congress, ``WUC 
Issues Report on the Recent Incidents in East Turkestan,'' 5 July 13.
    \15\``Xinjiang Violence More Serious Than Reported,'' Radio Free 
Asia, 27 June 13; ``Two Uyghurs Believed Killed in Hotan Violence,'' 
Radio Free Asia, 28 June 13; Uyghur American Association, ``The Uyghur 
American Association Expresses Concern at Massive Build Up of Chinese 
Security Forces in East Turkestan,'' 1 July 13; Uyghur American 
Association, ``The Uyghur American Association Calls on the Chinese 
Government To Substantiate Terror Claims With an Open and Independent 
Investigation,'' 28 June 13; Uyghur American Association, ``Uyghur 
American Association Urges Caution on Details of June 26, 2013 Turpan 
Incident,'' 26 June 13; World Uyghur Congress, ``WUC Issues Report on 
the Recent Incidents in East Turkestan,'' 5 July 13.
    \16\Uyghur American Association, ``The Uyghur American Association 
Calls on the Chinese Government To Substantiate Terror Claims With an 
Open and Independent Investigation,'' 28 June 13; Gillian Wong, 
``Scholar Slams China Repression of Ethnic Minority,'' Associated 
Press, 5 July 13; Chris Buckley, ``27 Die in Rioting in Ethnically 
Divided Western China,'' New York Times, 26 June 13. In addition, U.S. 
State Department spokesman Patrick Ventrell stated at a press briefing 
on April 24, 2013, that `` . . . we urge the Chinese authorities to 
conduct a thorough and transparent investigation of this incident, and 
to provide all Chinese citizens, including Uighurs, the due process 
protections to which they are entitled not only under China's 
constitutional laws but under their international human rights 
commitments as well.'' See U.S. Department of State, Daily Press 
Briefing, 24 April 13.
    \17\``Unveiled Threats,'' Economist, 6 July 13; Kelly Olsen, 
``Identity Crisis Behind China's Xinjiang Unrest: Experts,'' Agence 
France-Presse, reprinted in Fox News, 3 July 13.
    \18\``Forced Searches in Kashgar, Yengisar County Last Week Lead to 
Conflict'' [Kashi yingshaji xian shangzhou qiangzhi qingcha yinfa 
chongtu], Radio Free Asia, 14 May 13; Uyghur American Association, 
``Unlawful House Search and Arbitrary Use of Lethal Force Results [in] 
Nearly Two Dozen Deaths in Kashgar,'' 24 April 13.
    \19\``Restive Xinjiang,'' Wall Street Journal, 2 July 13; Chris 
Buckley, ``27 Die in Rioting in Ethnically Divided Western China,'' New 
York Times, 26 June 13.
    \20\``Xinjiang Clash Leaves Two Village Officials Dead,'' Radio 
Free Asia, 24 May 13.
    \21\``Two Dead in Xinjiang Attack Following House Search,'' Radio 
Free Asia, 5 July 13; ``Uyghur Shot in Attack,'' Global Times, 11 July 
13.
    \22\``Uyghur Man Shot Dead in Violence Sparked by His Beard,'' 
Radio Free Asia, 5 August 13; ``Xinjiang Man Pressed To Shave Off His 
Beard Is Killed by Police After Stabbing Two Police'' [Bei qiangxing 
yaoqiu tixu xinjiang nanzi zhashang liang jing hou bei jingcha jibi], 
Radio Free Asia, 4 August 13.
    \23\``Unveiled Threats,'' Economist, 6 July 13; Stephen Chen, ``Top 
Officials in Emergency Visit to Xinjiang After Outbreaks of Unrest,'' 
South China Morning Post, 30 June 13.
    \24\For Commission analysis on the July 2009 demonstrations and 
riots in Urumqi, see ``Xinjiang Authorities Forcefully Suppress 
Demonstration, Restrict Free Flow of Information,'' CECC China Human 
Rights and Rule of Law Update, No. 4, 2009, 2.
    \25\Julie Makinen, ``China Sends Armored Vehicles to Volatile 
Xinjiang Region,'' Los Angeles Times, 29 June 13; ``Bloody Clashes 
Bring Army Onto Streets in Xinjiang,'' South China Morning Post, 1 July 
13; ``China Tightens Security in Xinjiang Ahead of Anniversary,'' Voice 
of America, 2 July 13; ``Unveiled Threats,'' Economist, 6 July 13; 
``Official Urges 24-Hour Patrol in Xinjiang After Terror Attacks,'' 
Xinhua, reprinted in CRIEnglish, 30 June 13.
    \26\Gillian Wong, ``Scholar Slams China Repression of Ethnic 
Minority,'' Associated Press, 5 July 13; Uyghur American Association, 
``The Uyghur American Association Expresses Concern at Massive Build Up 
of Chinese Security Forces in East Turkestan,'' 1 July 13; ``EU Says 
China Needs To Release More Information About Xinjiang Violence, 
Address Causes,'' Associated Press, reprinted in Washington Post, 1 
July 13.
    \27\``Xinjiang Properly Handles Group Disturbance Incident, There 
Are No Casualties'' [Xinjiang tuoshan chuzhi yi qi qunti juji naoshi 
shijian wu qunzhong shangwang], Tianshan Net, 28 June 13. There is at 
least one conflicting official media report regarding the June 28 
incident or incidents in Hoten prefecture. The Global Times reported 
that ``over 100 terrorists'' armed with knives attacked a police 
station in Qaraqash (Moyu) county, Hoten prefecture. See Qiu Yongzheng, 
``New Round of Riots Brings Fresh Violence to Xinjiang,'' Global Times, 
29 June 13.
    \28\``At Least 15 Uyghurs Killed in Police Shootout in Xinjiang,'' 
Radio Free Asia, 25 August 13; Andrew Jacobs, ``Over News of Clash, a 
Shroud of Silence in Xinjiang,'' New York Times, 26 August 13. Radio 
Free Asia, citing local officials, reported that ``up to 15 people may 
have been killed and 50 others injured'' in the incident. According to 
the New York Times, ``numerous sources say that dozens were shot dead 
on the highway that connects Hanerik to Hotan,'' and ``[e]xile groups 
[said] the death toll may exceed 100.''
    \29\``In Another Bloody Conflict in Xinjiang, 3 Are Dead and More 
Than 20 Are Injured'' [Xinjiang zai you liuxue chongtu 3 si 20 duo 
shang], Radio Free Asia, 12 August 13; ``Three Uyghurs Shot Dead, 20 
Injured in Eid Eve Clashes,'' Radio Free Asia, 10 August 13.
    \30\``Death Toll in Xinjiang Police Shootout Climbs As Exile Group 
Blasts Raid,'' Radio Free Asia, 27 August 13; ``China Confirms Raid on 
Alleged Terror Cell in Restive Northwest, But Details Remain Sketchy,'' 
Associated Press, reprinted in Washington Post, 28 August 13.
    \31\``In the Violent Terrorist Incident in Xinjiang, Kashgar on 
August 20, a Member of the Special Police Sacrificed Himself'' 
[Xinjiang kashi 8 yue 20 ri fasheng baoli kongbu an yi ming tejing 
xisheng], Kashgar Daily, reprinted in People's Daily, 28 August 13.
    \32\``Up to 12 Uyghurs Shot Dead in Raid on Xinjiang `Munitions 
Center,''' Radio Free Asia, 17 September 13; ``Xinjiang Terrorist 
Training Camp Destroyed, 12 Uyghurs Killed'' [Xinjiang daopo kongxi 
xunlian ying jiao 12 weizu ren], Radio Free Asia, 18 September 13; 
Andrew Jacobs, ``12 Are Killed in Raid by Security Forces in Western 
China,'' New York Times, 18 September 13.
    \33\Zhang Yiwei, ``Terrorists Sentenced By Xinjiang Courts,'' 
Global Times, 28 March 13; Cui Jia and Cao Yin, ``20 Sent to Jail in 
Xinjiang for Terror Activities,'' China Daily, 28 March 13.
    \34\Cui Jia and Cao Yin, ``20 Sent to Jail in Xinjiang for Terror 
Activities,'' China Daily, 28 March 13; Zhang Yiwei, ``Terrorists 
Sentenced By Xinjiang Courts,'' Global Times, 28 March 13; Sui Yunyan, 
``Five Cases of the Use of the Internet, Mobile Phones, and Electronic 
Storage Media To Commit Crimes Tried in Xinjiang'' [5 qi liyong 
hulianwang, shouji ji dianzi cunchu jiazhi jinxing fanzui anjian zai 
jiang shenpan], Tianshan Net, 26 March 13.
    \35\Chris Buckley, ``China Sentences 20 in Restive Region,'' New 
York Times, 27 March 13. The New York Times quotes Human Rights Watch 
researcher Nicholas Bequelin, who states, ``It's not clear what is 
being alleged against these people beyond being members of a 
clandestine organization.'' He continues, ``China has for a long time 
conflated religious activities taking place outside of state control 
with extremism. There's [sic] been so many unsupported accusations by 
the Chinese government about extremist Islamic activities and terrorist 
activities in Xinjiang that it makes its [sic] difficult to have faith 
in these kinds of announcements.'' Uyghur American Association, 
``Uyghur American Association Condemns Sentences Handed Down to 20 
Uyghurs,'' 27 March 13; ``Uyghur Jailings Highlight Chinese Media 
Controls,'' Radio Free Asia, 29 March 13; ``Again, 20 Uyghurs Are 
Sentenced on Charges of Using the Internet and Cell Phones to Split the 
State'' [You you 20 ming weiwuer ren beikong liyong hulianwang, shouji 
deng fenlie guojia bei panxing], Uyghur Online, 27 March 13.
    \36\``Annual Work Report of Xinjiang's Courts'' [Xinjiang fayuan 
gongzuo niandu baogao], Xinjiang Court Net, 21 January 13; 
``Commentary: Severely Crack Down on Criminal Activities Using the 
Internet, Cell Phones, and Electronic Storage Media'' [Pinglun: yanli 
daji yong wangluo shouji ji dianzi chubei jiazhi fanzui de huodong], 
Xinjiang Daily, reprinted in Tianshan Net, 27 March 13; Wang Yunxia, 
Xinjiang Production and Construction Corps Bureau of Justice, 
```Secrets Act' Study Session Organized and Launched by the 45th Corps' 
Legal Outreach Office Finishes Up'' [Sishiwu tuan pufa ban zuzhi 
kaizhan de ``baomifa'' xuexi jieshu], 4 June 13. ``Endangering state 
security'' (ESS) is a category of criminal offenses that authorities in 
China have used to punish peaceful activism, free expression of ethnic 
identity, and independent religious activity. CECC, 2009 Annual Report, 
10 October 09, 244, 253-54. For the Chinese legal definition of ESS, 
see PRC Criminal Law [Zhonghua renmin gongheguo xing fa], enacted 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 102-113.
    \37\Dui Hua Foundation, ``Transparency in Xinjiang: Reporting on 
State Security Trials,'' Dui Hua Foundation Reference Materials, 7 
March 13.
    \38\Ibid.
    \39\``Annual Work Report of Xinjiang's Courts'' [Xinjiang fayuan 
gongzuo niandu baogao], Xinjiang Court Net, 21 January 13; Dui Hua 
Foundation, ``Transparency in Xinjiang: Reporting on State Security 
Trials,'' Dui Hua Foundation Reference Materials, 7 March 13; 
``Xinjiang Uyghur Autonomous Region High People's Court for First Time 
Publicly Issues Annual Work Report'' [Xinjiang weiwuer zizhiqu gaofa 
shouci duiwai fabu niandu baogao], Xinjiang Metropolis Daily, 19 
January 12. The Xinjiang Metropolis Daily article indicates 2012 was 
the first time authorities publicly issued the work report on 
Xinjiang's courts. In 2011, courts in the XUAR tried and completed 414 
cases, an increase of 38 cases over the previous year. In contrast, 
authorities completed 268 ESS cases in the region in 2008 and 437 cases 
in 2009. For more information on ESS cases in the XUAR, see, e.g., 
CECC, 2012 Annual Report, 10 October 12, 150-51.
    \40\``Tarim University Students' Case Set for First Court Hearing 
on May 25th'' [Talimu daxue xuesheng an dingyu benyue 25 ri kaiting 
shenli], Uyghur Online, 15 May 13; ``Detained Tarim University Students 
Released On Bail'' [Talimu daxue zao juliu xuesheng huo baoshi], Uyghur 
Online, 29 May 13; ``Detained Xinjiang Students To Be Secretly Tried, 
WUC Condemns Authorities for Detaining People'' [Xinjiang beibu 
xuesheng jiang mimi kaiting, shiwei hui qianze dangju zhuaren], Radio 
Free Asia, 21 May 13.
    \41\``Tarim University Students Released, Uyghur Students Continue 
to be Harassed by PSB'' [Talimu daxue huoshi weiwuer xuesheng chixu zao 
guobao saorao], Uyghur Online, 19 June 13; ``Detained Tarim University 
Students Released On Bail'' [Talimu daxue zao juliu xuesheng huo 
baoshi], Uyghur Online, 29 May 13.
    \42\``Expelled Tarim University Student Is Again Illegally 
Detained'' [Talimu daxue bei kaichu xuesheng zai zao feifa juliu], 
Uyghur Online, 24 June 13. See the Commission's Political Prisoner 
Database, record 2013-00232 (Ablimit), record 2013-00233 (Dilshat), 
record 2013-00234 (Alimjan), record 2013-00235 (Ekber), and record 
2013-00236 (Abdureshit) for more information on these cases.
    \43\Ibid.; ``Tarim University Students Released, Uyghur Students 
Continue to be Harassed by PSB'' [Talimu daxue huoshi weiwuer xuesheng 
chixu zao guobao saorao], Uyghur Online, 19 June 13. Article 56 of the 
PRC Criminal Procedure Law mandates restrictions on the movement of 
individuals released on bail. PRC Criminal Procedure Law [Zhonghua 
renmin gongheguo xingshi susong fa], enacted 1 July 79, amended 17 
March 96, 14 March 12, effective 1 January 13, art. 56.
    \44\``Expelled Tarim University Student Is Again Illegally 
Detained'' [Talimu daxue bei kaichu xuesheng zai zao feifa juliu], 
Uyghur Online, 24 June 13.
    \45\Ibid.; ``Tarim University Students Continue to be Detained 
Without Formal Procedures, and Are Suffering Humiliation and Beatings'' 
[Talimu daxue xuesheng jixu bei wu shouxu guanya bing zao ru da], 
Uyghur Online, 27 May 13; ``Three Uyghur University Students Suspected 
of Overseas Links Released On Bail Pending Trial'' [Sanming weizu 
daxuesheng yi shewai baoshi houshen], Radio Free Asia, 6 June 13.
    \46\Wang Xia, ``Forty Billion To Be Invested This Year in Highway 
Construction in Xinjiang, the Construction of Highways and Major 
Thoroughfares To Be Accelerated'' [Xinjiang gonglu jianshe jinnian 
jihua touzi 400 yi gonglu da tongdao jiasu xingcheng], Yaxin Net, 
reprinted in Xinhua, 21 February 13.
    \47\He Yan, ``Passengers at Xinjiang's Kashgar Airport Exceed One 
Million Mark for the First Time'' [Xinjiang kashi jichang luke tuntu 
liang shouci tupo 100 wan renci daguan], Yaxin Net, reprinted in Sina, 
29 November 12.
    \48\Christina Larson, ``On China's Electricity Grid, East Needs 
West--for Coal,'' Bloomberg Businessweek, 21 March 13.
    \49\Mao Weihua and Yang Wang, ``Construction Corps Leads War On 
Poverty,'' China Daily, 9 November 12; ``In 2013, the XPCC Will Invest 
4.746 Billion To Promote 157 Agricultural Construction Projects'' 
[Xinjiang bingtuan 2013 nian tou 47.46 yi tuijin 157 ge shenong xiangmu 
jianshe], Tianshan Net, 1 April 13.
    \50\``Shandong Province Starts An `Educational Aid To Xinjiang' 
Project, Strengthens Bilingual Teaching'' [Shandong sheng qidong 
``jiaoyu yuanjiang'' gongcheng, jiaqiang shuangyu jiaoxue], Xinhua, 
reprinted in Dazhong Net, 15 March 13; ``Counterpart Assistance 
Provinces and Cities Invest 24 Billion Yuan in Xinjiang To Implement 
More Than 2,300 Projects'' [Yuanjiang shengshi touru xinjiang 240 yi 
yuan shishi 2300 duoge xiangmu], Chinese News Net, reprinted in Xinmin 
Net, 15 November 12.
    \51\``Counterpart Assistance Provinces and Cities Invest 24 Billion 
Yuan In Xinjiang To Implement More Than 2,300 Projects'' [Yuanjiang 
shengshi touru xinjiang 240 yi yuan shishi 2300 duoge xiangmu], Chinese 
News Net, reprinted in Xinmin Net, 15 November 12; Su Jianchao, 
``Xinjiang `Spring Wind Action' Provides 100,000 Employment Positions 
for Rural Workers'' [Xinjiang ``chunfeng xingdong'' wei nongmin gong 
tigong 10 wan jiuye gangwei], Tianshan Net, reprinted in Xinhua, 26 
February 13.
    \52\Ma Yining, ``An Investment of Over 250 Billion Yuan in Xinjiang 
in 2012 Has Become a Foregone Conclusion'' [2012 nian xinjiang 
zhaoshang yinzi chao 2500 yi yuan yi cheng dingju], Tianshan Net, 
reprinted in China Economic Net, 14 December 12; ``Foreign Capital 
Flows Into Xinjiang,'' Xinhua, reprinted in CRIEnglish, 21 December 12; 
Dong Shaohua and Wang Yongfei, ``In the First Three Quarters, 136.7 
Billion Was Invested, Xinjiang People's Livelihood Construction 
Achieves Breakthrough Progress'' [Qian san ji touru zijin 1367 yi, 
xinjiang minsheng jianshe qude tupoxing jinzhan], Tianshan Net, 
reprinted in Xinjiang Daily, 4 November 12; Zhang Xiaocheng, ``XPCC 
Invests More Than 20 Billion Yuan To Speed Up Poverty Alleviation in 
Poor Areas of Southern Xinjiang'' [Xinjiang bingtuan touru 200 duo yi 
yuan jiakuai nanjiang tekun diqu tuopin], China Information Broadcast 
Network, reprinted in People's Daily, 3 April 13; Zhu Jingchao, 
``Representative Says Kashgar, Xinjiang Will Become Economic Hub for 
Central, Western, and Southern Asia'' [Daibiao cheng xinjiang kashi 
jiang cheng zhong xi nanya jingji quan zhongxin], China News Service, 
reprinted in Eastday, 7 March 13.
    \53\See, e.g., ``Accelerate the Course of Xinjiang's Leapfrog 
Development and Long-Term Stability'' [Jiakuai tuijin xinjiang kuayue 
shi fazhan he changzhi jiuan jincheng], Xinjiang Daily, 16 May 13; Wang 
Dan, ``Xinjiang Project To Resettle Herders Promotes Continuous 
Improvement in the Living Standards of Rural Herders'' [Xinjiang dingju 
xingmu gongcheng cujin nongmumin shenghuo tiaojian chixu gaishan], 
Tianshan Net, reprinted in China Religion and Ethnicity Net, 10 May 13; 
Feng Jin et al., ``Government Work Report of the Deliberations of the 
Xinjiang Delegation Attending the NPC Meeting'' [Chuxi quanguo renda 
yici huiyi xinjiang daibiao tuan shenyi zhengfu gongzuo baogao], 
Xinhua, reprinted in Xinjiang Daily, 6 March 13. The Xinjiang Work 
Forum was convened in Beijing in May 2010 by top central government and 
Party leaders. The inaugural forum set government and Party objectives 
for the XUAR's economic and political development, intensifying a trend 
of top-down initiatives. Work Forum initiatives included the expansion 
of ``counterpart support'' programs, herder resettlement programs, and 
housing construction and demolition projects in areas inhabited by 
Uyghurs and other ethnic minorities. For more on the Work Forum, see 
CECC, 2012 Annual Report, 10 October 12, 149; CECC, 2011 Annual Report, 
10 October 11, 196-97.
    \54\See, e.g., PRC Constitution, issued 4 December 82, amended 12 
April 88, 29 March 93, 15 March 99, 14 March 04, arts. 4, 36. China's 
Constitution entitles minorities, like all citizens of China, to the 
freedom of religious belief and freedom from discrimination.
    \55\PRC Regional Ethnic Autonomy Law [Zhonghua renmin gongheguo 
minzu quyu zizhifa], issued 31 May 84, effective 1 October 84, amended 
28 February 01, art. 9. The Regional Ethnic Autonomy Law (REAL) 
outlines ethnic minorities' rights in the PRC, including: self-
government within designated autonomous areas; proportional 
representation in the government; freedom to develop their own 
languages, religions, and cultures; and power to adjust central 
directives to local conditions. REAL also guarantees minorities greater 
control over local economic development than allowed in non-autonomous 
areas; the right to manage and protect local natural resources; and the 
right to organize local public security forces to safeguard public 
order.
    \56\``The Effects of Kashgar's Special Zone, Residents of 
Demolished Housing Cry Foul'' [Kashi tequ xiaoying, fangwu beichai 
jumin shangfang hanyuan], Uyghur Online, 29 October 12; Kilic Bugra 
Kanat, ``The Kashgar Incident and China's Uyghur Question,'' World 
Bulletin, 8 May 13; ``Uyghur Businessman Attacked After Demolition 
Complaint,'' Radio Free Asia, 19 April 13.
    \57\Li Yiren, ``Xinjiang Spirit: Leading All of Xinjiang in Making 
a Big Leap'' [Xinjiang jingshen: yinling quanjiang da kuayue], Tianshan 
Net, reprinted in Tencent, 12 November 12; Dai Lan and Hu Renba, 
``Strive To Promote Leapfrog Development and Long-Term Stability--
Xinjiang Uyghur Autonomous Region Party Secretary Zhang Chunxian'' 
[Fenli tuijin kuayueshi fazhan he changzhi jiuan--xinjiang weiwuer 
zizhiqu dangwei shuji zhang chunxian], People's Daily, 11 September 12; 
Xie Sijia, ``Efforts To Promote Higher Standards in Aiding Xinjiang 
Work'' [Yi geng gao biaozhun quanli tuijin yuanjiang gongzuo], Southern 
Daily, reprinted in Nandu Net, 22 March 13; ``Audit of Xinjiang 
Counterpart Assistance Projects Strives for Full Coverage of Three 
Southern Xinjiang Regions as the Focus for 2013'' [Xinjiang yuanjiang 
xiangmu shenji lizheng 2013 nian quan fugai nanjiang san dizhou wei 
zhongdian], Xinjiang Daily, reprinted in Xinhua, 29 March 13.
    \58\Li Yiren, ``Xinjiang Spirit: Leading All of Xinjiang in Making 
a Big Leap'' [Xinjiang jingshen: yinling quanjiang da kuayue], Tianshan 
Net, 12 November 12; Dai Lan and Hu Renba, ``Strive To Promote Leapfrog 
Development and Long-Term Stability--Xinjiang Uyghur Autonomous Region 
Party Secretary Zhang Chunxian'' [Fenli tuijin kuayueshi fazhan he 
changzhi jiuan--xinjiang weiwuer zizhiqu dangwei shuji zhang chunxian], 
People's Daily, 11 September 12; ``Audit of Xinjiang Counterpart 
Assistance Projects Strives for Full Coverage of Three Southern 
Xinjiang Regions as the Focus for 2013'' [Xinjiang yuanjiang xiangmu 
shenji lizheng 2013 nian quan fugai nanjiang san dizhou wei zhongdian], 
Xinjiang Daily, reprinted in Xinhua, 29 March 13.
    \59\``A New Round of Aid to Xinjiang, 2,378 Aid Projects Have Been 
Implemented in Total'' [Xin yilun yuanzhu xinjiang leiji shishi yuanzhu 
xiangmu 2378 ge], Gucheng Net, 21 February 13.
    \60\``Circling the Wagons,'' Economist, 25 May 13; ``Han Migrant 
Influx Threatens Uyghur Farms,'' Radio Free Asia, 11 March 13; ``The 
Killing of a Uyghur Boy Triggers Uyghur-Han Conflict'' [Yi weizu 
nantong bei sha yinfa wei han chongtu], Radio Free Asia, 10 April 13.
    \61\Gao Lirong et al., ``Southern Xinjiang Passenger Train Begins 
Operating, the First Group of Rural Workers Enters Xinjiang for the 
Southern `Gold Rush''' [Nanjiang linke kaixing shoupi jin xinjiang 
nongmin gong nanxia ``taojin''], Xinjiang Metropolis Daily, reprinted 
in Xinhua, 26 February 13; Xue Genzhu, ``Qianjiang: A Thousand Rural 
Residents Travel Far to Xinjiang to `Pan for Gold''' [Qianjiang: 
qianming nongmin gong yuan fu xinjiang ``taojin''], Xinhua, 8 April 13; 
He Zhanjun and Zhang Yongheng, ``Xinjiang Railway Line Opens To Deal 
With Surge of Workers Coming Into Xinjiang'' [Xinjiang tielu kaixing 
linke yingdui jinjiang wugong keliu], Xinhua, 20 February 13; Pang 
Shuwei, ``Qinghai: 60,000 Rural Residents Go to Xinjiang To Pick 
Cotton'' [Qinghai: 6 wan nongmin fu xinjiang cai mian], Xinhua, 12 
October 12. For more information on the demographics of southern areas 
of the XUAR, see ``Full Text: Development and Progress in Xinjiang,'' 
Xinhua, 21 September 09; Stanley Toops, ``Demographics and Development 
in Xinjiang After 1949,'' East-West Center, 1 May 04.
    \62\``Han Migrant Influx Threatens Uyghur Farms,'' Radio Free Asia, 
11 March 13.
    \63\``Uyghur Family Home Bulldozed,'' Radio Free Asia, 11 October 
12.
    \64\``Han Migrant Influx Threatens Uyghur Farms,'' Radio Free Asia, 
11 March 13.
    \65\The PRC government established the XPCC in 1954 as a means of 
settling demobilized soldiers and Han migrants to perform border 
defense functions and to support economic development. The government's 
White Paper on the History and Development of Xinjiang says that the 
ranks of the XPCC are now ``a mosaic of people from 37 ethnic groups, 
including the Han, Uygur, Kazak, Hui, and Mongolian.'' It describes the 
XPCC as ``a special social organization, which handles its own 
administrative and judicial affairs'' but ``in accordance with the laws 
and regulations of the state and the Xinjiang Uygur Autonomous 
Region.'' State Council Information Office, ``History and Development 
of Xinjiang,'' May 2003, Part 9.
    \66\``Circling the Wagons,'' Economist, 25 May 13.
    \67\``Xinjiang Peaceful Resident, Prosperous Citizen Projects Have 
Doubled Completion Rate'' [Xinjiang anju fumin gongcheng kaigong 
jungong shuang chao'e], Tianshan Net, reprinted in Xinhua, 17 December 
12; ``Xinjiang XPCC Annual Rural Peaceful Resident Housing Work Rate 
Exceeds 90 Percent'' [Xinjiang bingtuan niandu nongcun anju zhufang 
kaigong lu chao jiucheng], Chinese News Net, reprinted in Fujian China 
Gold Online Net, 23 October 12; ``Xinjiang Peaceful Resident, 
Prosperous Citizen Projects Increase by 320,000 Households'' [Xinjiang 
anju fumin gongcheng xin zeng 32 wan hu], Xinjiang Daily, reprinted in 
Xinhua, 13 December 12.
    \68\``Shanghai Aids in the Construction of Kashgar's `Peaceful 
Resident, Prosperous Citizen' Projects, With Special Funds Reaching 820 
Million'' [Shanghai yuanjian kashi ``anju fumin'' gongcheng zhuanxiang 
zijin da 8.2 yi], China Net, 10 May 13; Hong Liu, ``Shanghai City Aids 
in the Construction of Peaceful Resident, Prosperous Citizen Projects, 
Benefitting 110,000 Households of Rural Herders'' [Shanghai shi 
yuanjian anju fumin gongcheng huiji 11 wan hu nongmumin], Kashgar 
Government Information Net, 11 April 13; ``Xinjiang Peaceful Resident, 
Prosperous Citizen Projects Increase by 320,000 Households'' [Xinjiang 
anju fumin gongcheng xin zeng 32 wan hu], Xinjiang Daily, reprinted in 
Xinhua, 13 December 12.
    \69\``Herdsman on New Road to a Happy Life,'' China Daily, 
reprinted in CRIEnglish, 20 November 12; ``Xinjiang Herdsmen Move 
House,'' China Daily, 17 October 12; Claire O'Neill, ``What Big 
Highways Mean For China's Small Villages,'' National Public Radio, 18 
October 12.
    \70\See generally Human Rights Watch, ```No One Has the Liberty To 
Refuse': Tibetan Herders Forcibly Relocated in Gansu, Qinghai, Sichuan, 
and the Tibet Autonomous Region,'' June 2007; Human Rights in China, 
``China: Minority Exclusion, Marginalization and Rising Tensions,'' 
2007, 14; China's Ethnic Regional Autonomy Law: Does It Protect 
Minority Rights? Staff Roundtable of the Congressional-Executive 
Commission on China, 11 April 05, Testimony of Christopher P. Atwood, 
Associate Professor, Department of Central Eurasian Studies, Indiana 
University. For Commission analysis, see ``State Council Opinion 
Bolsters Grazing Ban, Herder Resettlement,'' Congressional-Executive 
Commission on China, 18 October 11.
    \71\Kang Yan, ``In Three Years, Xinjiang Has Completed the 
Resettlement of 136,800 Herders'' [Xinjiang 3 nian lai wancheng 
youmumin dingju 13.68 wan hu], Yaxin Net, reprinted in China Xinjiang, 
6 May 13; Wang Dan, ``Xinjiang Project To Resettle Herders Promotes 
Continuous Improvement in the Living Standards of Rural Herders'' 
[Xinjiang dingju xingmu gongcheng cujin nongmumin shenghuo tiaojian 
chixu gaishan], Tianshan Net, reprinted in China Religion and Ethnicity 
Net, 10 May 13.
    \72\``[Xinjiang Forum] Kashgar Old City's Old Appearance Gets a New 
Look'' [[Xinjiang tai] kashi laocheng de jiumao yu xinyan], China Radio 
International, 11 December 12.
    \73\A 2008 book by architect and historian George Michell described 
Kashgar before the Old City demolition as ``the best-preserved example 
of a traditional Islamic city to be found anywhere in Central Asia.'' 
Michael Wines, ``To Protect an Ancient City, China Moves To Raze It,'' 
New York Times, 27 May 09.
    \74\``The Effects of Kashgar's Special Zone, Residents of 
Demolished Housing Cry Foul'' [Kashi tequ xiaoying, fangwu bei chai 
jumin shangfang hanyuan], Uyghur Online, 29 October 11. For the 
population figure of 220,000, see ``Ancient Xinjiang City's Residences 
Safer After Gov't Rebuilding Program,'' Global Times, reprinted in 
Xinhua, 26 May 10.
    \75\For general background on the project, see ``Demolition of 
Kashgar's Old City Draws Concerns Over Cultural Heritage Protection, 
Population Resettlement,'' CECC China Human Rights and Rule of Law 
Update, No. 3, 2009, 2. For more information on concerns regarding the 
resettlement of Old City residents and the project's impact on Uyghur 
cultural heritage, see Uyghur Human Rights Project, ``Living On the 
Margins: The Chinese State's Demolition of Uyghur Communities,'' 2 
April 12.
    \76\See, e.g., Michael Wines, ``To Protect an Ancient City, China 
Moves To Raze It,'' New York Times, 27 May 09; ``China Remodels Silk 
Road City but Scars Run Deep,'' Agence France-Presse, 7 August 11 (Open 
Source Center, 7 August 11); Uyghur Human Rights Project, ``Living On 
the Margins: The Chinese State's Demolition of Uyghur Communities,'' 2 
April 12, 16-17, 55, 71-77; Joshua Hammer, ``Demolishing Kashgar's 
History,'' Smithsonian Magazine, March 2010.
    \77\Michael Wines, ``To Protect an Ancient City, China Moves To 
Raze It,'' New York Times, 27 May 09; Hu Xiaorong, ``Kashgar, Xinjiang 
Spends Three Billion Yuan To Transform the Old City District, Plans To 
Backfill 35.9 Kilometers of Tunnels'' [Xinjiang kashi 30 yi yuan gaizao 
laochengqu jiang huitian 35.9 gongli didao], Yaxin Net, 23 March 09.
    \78\Beijing Cultural Heritage Protection Center, ``Please Help To 
Protect Kashgar Old Town,'' 16 April 09; International Council on 
Monuments and Sites, ``ICOMOS World Report 2008-2010 on Monuments and 
Sites in Danger,'' 2010, 48-51. Details of the Old City demolition 
project suggest that authorities have bypassed ways to protect Old City 
residents' safety while preserving existing buildings. Standards set by 
professionals in the field of cultural heritage preservation indicate 
compatibility between historic preservation and measures to guard 
against natural disaster. Articles 10 and 14 of the Charter for the 
Conservation of Historic Towns and Urban Areas, adopted by the non-
governmental International Council on Monuments and Sites (ICOMOS) and 
available on its Web site, recognize the importance of introducing 
``contemporary elements'' and preventative measures against natural 
disasters while ensuring they are ``adapted to the specific character 
of the properties concerned.'' Charter for the Conservation of Historic 
Towns and Urban Areas, adopted by ICOMOS General Assembly, October 
1987, arts. 10, 14.
    \79\See, e.g., PRC Constitution, issued 4 December 82, amended 12 
April 88, 29 March 93, 15 March 99, 14 March 04, art. 4; PRC Regional 
Ethnic Autonomy Law [Zhonghua renmin gongheguo minzu quyu zizhifa], 
issued 31 May 84, effective 1 October 84, amended 28 February 01, art. 
9; PRC Labor Law [Zhonghua renmin gongheguo laodong fa], issued 5 July 
94, effective 1 January 95, amended 10 October 01, art. 12; PRC 
Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujinfa], 
issued 30 August 07, effective 1 January 08, art. 28. See also legal 
analysis in ``Governments in Xinjiang Continue To Sponsor, Sanction Job 
Recruitment That Discriminates Against Ethnic Minorities,'' CECC China 
Human Rights and Rule of Law Update, No. 2, 2009; ``Xinjiang Kashgar 
Prefecture Career Units (Agency Worker and Service Positions) Position 
Table of 2013 Recruitment of Workers'' [Xinjiang kashi diqu shiye 
danwei (jiguan gongqin gangwei) 2013 zhaopin gongzuo renyuan gangwei 
biao], Civil Service Examination Information Network, 28 March 13; 
``Xinjiang Changji People's Hospital 2012 Public Recruitment for 
Workers'' [Xinjiang changjizhou renmin yiyuan 2012 nian shiye danwei 
gongkai zhaopin gongzuo renyuan], China Talent Net, last visited 2 July 
13; ``[Xinjiang] Xinjiang, Kashgar Prefecture, Shache County Education 
System 2013 Recruitment'' [[Xinjiang] Xinjiang kashi diqu shache xian 
jiaoyu xitong 2013 zhaopin], Chongqing Normal University, reprinted in 
Graduate Job Net, 19 May 13. For more information regarding job 
discrimination against ethnic minorities in Xinjiang, see ``Job 
Discrimination Against Ethnic Minorities Continues in Xinjiang,'' 
Congressional-Executive Commission on China, 31 March 11.
    \80\See, e.g., Luntai Industrial Park, ``Bazhou Dongchen Group Ltd. 
Co. Recruiting Notice'' [Bazhou dongchen jituan youxian gongsi zhaopin 
jianzhang], 9 June 13; Hainan University, ``Xinjiang Water Resources 
and Hydropower Research Institute 2013 Personnel Recruitment'' 
[Xinjiang shuili shuidian kexue yanjiuyuan 2013 nian rencai zhaopin], 7 
June 13; Zhang Xinyu, ``Xinjiang Convenes Summer Recruitment Meeting 
for Vocational School Graduates'' [Xinjiang juban xiaji dazhongzhuan 
biyesheng zhaopin hui], Xinjiang Daily, reprinted in Tianshan Net, 19 
May 13; Hutubi Human Resources and Social Security Bureau, ``Hutubi 
County 2013 `Private Enterprise Recruitment Week' Recruitment 
Information'' [Hutubi xian 2013 nian ``minying qiye zhaopin zhou'' 
zhaopin xinxi], reprinted in Hutubi County Government, 6 June 13. See 
also ``Uyghur Women Face Double Discrimination When Applying for Civil 
Service Positions'' [Weiwuer nuxing bao kao gongwuyuan mianlin 
shuangzhong qishi], Uyghur Online, 17 May 13.
    \81\David Scott, ``Lack of Better Jobs for China's Ethnic 
Minorities a Worsening Problem,'' Melbourne Newsroom, 22 November 12; 
Sunanda Creagh, ``Inequality Fuels Tension Between China's Minority 
Uyghurs and Hans,'' Conversation, 26 November 12.
    \82\``Xinjiang People's Congress Representatives Discuss How To 
Make the Road Smoother for Those Going Inland To Do Business and Work'' 
[Xinjiang renda daibiao taolun ruhe rang fu neidi jingshang wugong zhi 
lu geng tongchang], Tianshan Net, 29 January 13.
    \83\``In 2011, Xinjiang Achieved the Transfer and Employment of 
2.58 Million Rural Surplus Laborers'' [2011 nian xinjiang shixian 
nongcun fuyu laodongli zhuanyi jiuye 258 wan renci], Xinjiang Daily, 
reprinted in Central People's Government, 22 March 12.
    \84\CECC, 2008 Annual Report, 31 October 08, 179; CECC, 2009 Annual 
Report, 10 October 09, 264-66; CECC, 2010 Annual Report, 10 October 10, 
211-12.
    \85\``Farmers Pressed Into Road Work,'' Radio Free Asia, 19 
December 12; ``Uyghurs Pressed Into Field Work,'' Radio Free Asia, 8 
February 13.
    \86\For background information on how authorities in the XUAR have 
targeted religious and political publications in censorship campaigns, 
see ``Xinjiang Authorities Target Religious and Political Publications 
in Censorship Campaigns,'' Congressional-Executive Commission on China, 
31 March 11.
    \87\``Transportation Department Increases Supervision of `Sweeping 
Away Pornography' in Road Transportation Links'' [Jiaotong yunshuting 
jiada daolu yunshu huanjie ``saohuang dafei'' jianguan lidu], XUAR 
Transportation Department, 7 March 13. For information on a similar 
campaign, see ``Tekes County Public Security Bureau Launches Activity 
Focused on Destroying Illegal Religious Publications'' [Tekesi xian 
gonganju kaizhan jizhong xiaohui feifa zongjiao chubanwu huodong], 
Tekes County Television Station, reprinted in Tekes County Government, 
2 November 12.
    \88\``Sentencing Document: Phoenix News Is Innocent, Uyghur Who 
Helped Them Is Guilty'' [Panjueshu: fenghuang xinwen wuzui, bang qi 
weiwuer ren youzui], Uyghur Online, 15 February 13; ``Exclusive: A 
Uyghur Who Served as Translator for Chinese Media Was Sentenced to 11 
Years, the Media Did Not Dare To Report This For Several Years'' [Dujia 
baodao: yi weiwuer ren wei zhongguo meiti dang fanyi beipan 11 nian, 
meiti changda jinian bu gan baodao], Uyghur Online, 13 February 13; Mai 
Yanting, ``Uyghur Who Translated for Phoenix Satellite TV Sentenced to 
11 Years, Media Silence Is Criticized'' [Weizu ren ti fenghuang weishi 
fanyi bei panxing 11 nian, meiti jinsheng zao piping], Radio France 
Internationale, 16 February 13. See the Commission's Political Prisoner 
Database, record 2013-00089, for more information on the case.
    \89\Mai Yanting, ``Uyghur Who Translated for Phoenix Satellite TV 
Sentenced to 11 Years, Media Silence Is Criticized'' [Weizu ren ti 
fenghuang weishi fanyi bei panxing 11 nian, meiti jinsheng zao piping], 
Radio France Internationale, 16 February 13; ``Uyghur Youth Who Acted 
as a Translator for Phoenix Satellite TV Sentenced to 11 Years'' [Wei 
fenghuang weishi zuo fanyi, weiwuer qingnian beipan shiyi nian], Radio 
Free Asia, 13 February 13.
    \90\Article 13(7) of the PRC Passport Law and Article 8(5) of the 
PRC Exit and Entry Control Law give officials the discretion to prevent 
Chinese citizens from traveling abroad when they believe that a 
citizen's leaving China might harm ``state security'' or harm or cause 
``major loss'' to national interests. The meaning and scope of harm or 
loss to state security or national interests are undefined, however, 
which has led to official abuse and arbitrary enforcement. PRC Passport 
Law [Zhonghua renmin gongheguo huzhao fa], issued 29 April 06, 
effective 1 January 07; PRC Exit and Entry Control Law [Zhonghua renmin 
gongheguo chujing rujing guanli fa], issued 30 June 12, effective 1 
July 13.
    \91\``Uyghur Scholar, Daughter Held,'' Radio Free Asia, 1 February 
13.
    \92\``Scholar Put on 24-Hour Watch,'' Radio Free Asia, 7 February 
13; Andrew Jacobs, ``No Exit: China Uses Passports as Political 
Cudgel,'' New York Times, 25 February 13.
    \93\``Minzu University Student Atikem Continues To Be Harassed by 
Xinjiang State Security'' [Zhongyang minzu daxue xuesheng atikemu chixu 
bei xinjiang guobao saorao], Uyghur Online, 7 February 13. For 
Commission analysis on the cases of Ilham Tohti and Atikem Rozi, see 
``Authorities Block Uyghur Scholar From Leaving China, Refuse To Grant 
Passport to Uyghur Student,'' Congressional-Executive Commission on 
China, 7 March 13. See also Uyghur Human Rights Project, ``Briefing: 
Refusals of Passports to Uyghurs and Confiscations of Passports Held by 
Uyghurs Indicator of Second-Class Status in China,'' 7 February 13.
    \94\Andrew Jacobs, ``No Exit: China Uses Passports as Political 
Cudgel,'' New York Times, 22 February 13; Atikem Rozi, 
``Correspondence: [My] Passport Is Not Processed, Xinjiang Police Say 
I'm Politically Unqualified'' [Laixin: huzhao bu gei ban, xinjiang 
jingfang shuo wo zhengzhi bu hege], Uyghur Online, 16 December 12.
    \95\``Xinjiang Uyghur Student Detained by Police at the Beijing 
Airport [Has Been Gone] for More Than a Week'' [Xinjiang weizu xuesheng 
zai beijing jichang bei jing daizou yu yi zhou], Radio Free Asia, 23 
July 13.
    \96\Atikem Rozi (Web name Uyghuray), ``Mutellip, Where Are You?'' 
[Mutalipu, ni zai nali?], Uyghur Online, 22 July 13; ``A Uyghur Student 
Studying Abroad Is Detained Prior to Boarding Time at Beijing Airport, 
World Uyghur Congress Condemns Authorities for Persecuting Those Who 
Return to the Country'' [Yi weizu liuxuesheng beijing dengji qian yi 
bei kou shiweihui qianze dangju yan cha guiguozhe], Radio Free Asia, 23 
July 13; Atikem Rozi (Web name Uyghuray), ``Urgent Appeal: Release 
Mutellip, Resolutely Oppose Forced Disappearances'' [Jinji huyu: 
shifang mutalipu, jianjue fandui qiangpo shizong], Uyghur Online, 7 
August 13.
    \97\Human Rights Watch, ``Malaysia: Stop Forced Returns to China,'' 
3 February 13; Hemananthani Sivanandam and Dorothy Cheng, ``Six Uighurs 
Deported for Violating Immigration Laws,'' Sun Daily, 18 February 13.
    \98\Human Rights Watch, ``Malaysia: Stop Forced Returns to China,'' 
3 February 13.
    \99\Ibid.; World Uyghur Congress, ``WUC Condemns Illegal 
Deportation of Uyghurs From Malaysia,'' 4 February 13.
    \100\``Deported Uyghurs Jailed,'' Radio Free Asia, 20 December 12. 
The mother of one of the sentenced men reportedly told RFA that 
authorities did not allow her to attend the trial of her son, but she 
believed authorities accused him of separatism based on his translation 
assistance to other Uyghurs in Malaysia. It is unclear whether or not 
the 11 Uyghurs were charged with or sentenced on charges of terrorism 
in China.
    \101\For information on various legal restrictions on Islamic 
practices in the XUAR, see CECC, 2012 Annual Report, 10 October 12, 
151-52.
    \102\``Exclusive News: Xinjiang Religious Control of `Special 
Groups'--Documentation of Registration'' [Dujia baoliao: xinjiang 
zongjiao guanzhi ``teshu renqun''--dengji zai an], Uyghur Online, 1 May 
13. For more information on restrictions on Uyghurs' religious 
practices, see Uyghur Human Rights Project, ``Sacred Right Defiled: 
China's Iron-Fisted Repression of Uyghur Religious Freedom,'' 30 April 
13.
    \103\Uyghur Human Rights Project, ``Sacred Right Defiled: China's 
Iron-Fisted Repression of Uyghur Religious Freedom,'' 30 April 13, 2.
    \104\Ibid., 17, 30, 36-43, 66, 83.
    \105\``Eid Eve Clashes Stoked by Gunshots Fired at Uyghur Girl,'' 
Radio Free Asia, 12 August 13; Uyghur American Association, ``UAA 
Condemns Shootings by Police During Religious Celebration,'' 14 August 
13.
    \106\``Confrontation With Police Occurs in Aksu, At Least 3 People 
Are Shot and Killed by Police'' [Akesu fasheng jingmin duizhi, zhishao 
3 ren bei jingcha kaiqiang dasi], Radio Free Asia, 9 August 13; ``In 
Another Bloody Conflict in Xinjiang, 3 Are Dead and More Than 20 Are 
Injured'' [Xinjiang zai you liuxue chongtu 3 si 20 duo shang], Radio 
Free Asia, 12 August 13.
    \107\``In Another Bloody Conflict in Xinjiang, 3 Are Dead and More 
Than 20 Are Injured'' [Xinjiang zai you liuxue chongtu 3 si 20 duo 
shang], Radio Free Asia, 12 August 13; ``Three Uyghurs Shot Dead, 20 
Injured in Eid Eve Clashes,'' Radio Free Asia, 10 August 13; ``Hundreds 
of Uyghurs Held After Violence Over Prayer Restrictions,'' Radio Free 
Asia, 15 August 13.
    \108\``In Another Bloody Conflict in Xinjiang, 3 Are Dead and More 
Than 20 Are Injured'' [Xinjiang zai you liuxue chongtu 3 si 20 duo 
shang], Radio Free Asia, 12 August 13; ``Confrontation With Police 
Occurs in Aksu, At Least 3 People Are Shot and Killed by Police'' 
[Akesu fasheng jingmin duizhi, zhishao 3 ren bei jingcha kaiqiang 
dasi], Radio Free Asia, 9 August 13.
    \109\``In Another Bloody Conflict in Xinjiang, 3 Are Dead and More 
Than 20 Are Injured'' [Xinjiang zai you liuxue chongtu 3 si 20 duo 
shang], Radio Free Asia, 12 August 13; ``Three Uyghurs Shot Dead, 20 
Injured in Eid Eve Clashes,'' Radio Free Asia, 10 August 13.
    \110\Anne Henochowicz, China Digital Times, ``Ministry of Truth: 
Violence in Xinjiang on Eid,'' 11 August 13.
    \111\``Xinjiang Raids Point to Religious Controls,'' Radio Free 
Asia, 7 March 13; Hai Lan, ``In Xinjiang, Another Instance of Searches 
Leads to a Clash Between Uyghurs and Police, With Two Dead'' [Xinjiang 
you yin qingcha zhi weiren yu jing chongtu 2 si], 22 May 13. For 
specific examples of security checks, police raids, and house searches, 
see Fu Yongkai, ``Wolituogelake Township Thoroughly Carries Out `Three 
Inspections' Unified Action'' [Wolituogelake xiang shenru kaizhan 
``sancha'' tongyi xingdong], Xinjiang Peace Net, 6 May 13; ``Kashgar's 
Strict Inspections, 7 Uyghurs Detained'' [Kashi yancha 7 weiren bei 
jing daizou], Radio Free Asia, 7 May 13; ``Inspection in Awat County 
Leads to Two Dead--Authorities Conceal Details of Case'' [Xinjiang 
awati xian qingcha zhi er ren siwang dangju yinman anqing], Uyghur 
Online, 23 May 13; Meng Hongqi, ``Qiongkule Township Focuses on 
Carrying Out `Two Sessions' Security Inspection Operation'' [Qiongkule 
xiang jizhong kaizhan ``lianghui'' anbao da qingcha xingdong], 
Qiongkule Township Government, reprinted in Qiemo County Government, 6 
March 13; Xiang Xuan, ``Halayugong Township Carries Out Major Stability 
Maintenance Inspections'' [Halayugong xiang kaizhan weiwen da qingcha], 
Xinjiang Peace Net, 13 June 13; Damian Grammaticas, ``Doubts Over China 
Government Claims on Xinjiang Attack,'' BBC, 26 April 13; Edward Wong, 
``21 Dead in Clash With `Gangsters' in Western China,'' New York Times, 
24 April 13; Uyghur American Association, ``Unlawful House Search and 
Arbitrary Use of Lethal Force Results [in] Nearly Two Dozen Deaths in 
Kashgar,'' 24 April 13; Peter Ford, ``Mystery Clouds Deadly Clash in 
Western China With `Suspected Terrorists,''' Christian Science Monitor, 
24 April 13.
    \112\``Exclusive News: Xinjiang Religious Control of `Special 
Groups'--Documentation of Registration'' [Dujia baoliao: xinjiang 
zongjiao guanzhi ``teshu renqun''--dengji zai an], Uyghur Online, 1 May 
13; ``China Registering the Religious in Xinjiang,'' Radio Free Asia, 2 
May 13.
    \113\``Exclusive News: Xinjiang Religious Control of `Special 
Groups'--Documentation of Registration'' [Dujia baoliao: xinjiang 
zongjiao guanzhi ``teshu renqun''--dengji zai an], Uyghur Online, 1 May 
13.
    \114\``China Registering the Religious in Xinjiang,'' Radio Free 
Asia, 2 May 13.
    \115\``Xinjiang Will Enter the Religious Belief Status of Ethnic 
Minority Families Into Stability Maintenance Roster'' [Xinjiang jiang 
shaoshu minzu jiating zongjiao xinyang qingkuang lieru weiwen mingce], 
Radio Free Asia, 2 May 13.
    \116\``Fourth Round of Training Launched for Our Region's Patriotic 
Religious Figures'' [Woqu aiguo zongjiao renshi disi lun peixun 
qidong], Xinjiang Daily, 28 March 13; ``Fourth Round of XPCC Religious 
Figures' Political and Legal System Education Training Begins Second 
Term of Classes'' [Bingtuan disi lun bingtuan zongjiao renshi zhengzhi 
fazhi jiaoyu peixun dier qi kai ban], XPCC United Front Work 
Department, 9 April 13; ``Qiba'erxiang 2013 Annual Patriotic Religious 
Figure Training Class'' [Qiba'erxiang 2013 niandu aiguo zongjiao renshi 
peixun ban], Kaba County Government, 24 April 13; ``Sa Township, Kaba 
County, Holds Patriotic Figure Training Class'' [Kabahe xian sa xiang 
juban aiguo renshi peixun ban], Altay Women's Federation, 25 April 13.
    \117\Li Xing, ``Fourth Round of Training Launched for Our Region's 
Patriotic Religious Figures'' [Woqu aiguo zongjiao renshi disi lun 
peixun qidong], Xinjiang Daily, 28 March 13.
    \118\For statements illustrating the ``frequent and widespread'' 
nature of the campaigns, see Li Donghui, ``Intensively Study and 
Implement the Spirit of the 18th Party Congress, Strive To Create New 
Conditions Care for the Next Generation Work Committee'' [Shenru xuexi 
guanche dang de shibada jingshen, nuli kaichuang guangongwei gongzuo 
xin jumian], Xinjiang Care for the Next Generation Work Committee, 19 
February 13; Circular Regarding the Launch of the 2013 Regional 
Vocational Student Summer Social Practicum [Guanyu kaizhan 2013 nian 
zizhiqu dazhongzhuan xuesheng shuqi shehui shijian de tongzhi], China 
Communist Youth League Xinjiang Committee, 27 June 13; China Communist 
Youth League Xinjiang Committee, ``Resolutely Resist Illegal Religion, 
Firmly Establish an Ideological Foundation for Young People'' [Jianjue 
dizhi feifa zongjiao, dianding he laogu qingshaonian de sixiang jichu], 
18 January 13. For representative anecdotal examples of campaigns, see 
Xinjiang Association for Science and Technology, ``Tekes County 
Launches School Activities To Resist Extremist Religious Thought and 
Preaching'' [Tekesi xian kaizhan dizhi zongjiao jiduan sixiang 
xuanjiang jin xuexiao huodong], 27 March 13; Xinjiang Care for the Next 
Generation Work Committee, ``Yanqi County Launches County-Wide 
Religious Propaganda Educational Activities in County, City, and 
Township Schools To Stop Illegal Religious Activities'' [Yanqi xian zai 
quan xian cheng xiang xuexiao kaizhan zhizhi feifa zongjiao xuanchuan 
jiaoyu huodong], 5 April 13; Aksu Prefecture Education Bureau, 
``Prefectural Education System Takes Numerous Measures and Carries Out 
Solid Propaganda Educational Work To Curb Illegal Religious 
Activities'' [Diqu jiaoyu xitong duocuo bing ju zhashi kaizhan zhizhi 
feifa zongjiao huodong xuanchuan jiaoyu gongzuo], 12 September 12; Kong 
Xiaofeng, Bole City Retired Cadre Bureau, ``In 2012, Propaganda 
Lectures Carried Out by the Bole City Care for the Next Generation Work 
Committee To Curb Illegal Religious Activities Achieved Remarkable 
Results'' [Bole shi guangongwei 2012 nian kaizhan zhizhi feifa zongjiao 
huodong xuanjiang chengxiao xianzhu], reprinted in Bole City Party 
Construction, 25 December 12.
    \119\Zhu Kaili, ``Kashgar Prefecture Female Buwi Successfully 
Complete Patriotic Thankfulness Education'' [Kashi diqu nu buwei 
yuanman wancheng aiguo gan'en jiaoyu], Tianshan Net, 24 December 12; Ma 
Dengchao, ``Xinjiang, Kargilik County, Yitimukong Township Convenes 
Township-Wide Buwi Training'' [Xinjiang yecheng xian yitimukong xiang 
zuzhi quan xiang buwei jinxing peixun], China Ethnicity and Religion 
Net, 28 February 13.
    \120\For information on earlier steps to increase regulation of 
buwi and place them under state control, see ``Xinjiang Authorities 
Tighten Controls Over Muslim Women,'' CECC China Human Rights and Rule 
of Law Update, No. 5, 4 June 10, 2; ``Xinjiang Authorities Train, Seek 
To Regulate Muslim Women Religious Figures,'' CECC China Human Rights 
and Rule of Law Update, No. 4, 2009, 2.
    \121\Zhu Kaili, ``Kashgar Prefecture Female Buwi Successfully 
Complete Patriotic Thankfulness Education'' [Kashi diqu nu buwei 
yuanman wancheng aiguo gan'en jiaoyu], Tianshan Net, 24 December 12.
    \122\``Uyghur Youth Detained for Selling Touch Reading Pen for the 
Quran Has Been Released'' [Chushou ``gulanjing'' diandubi er zao ju 
weiwuer qingnian huoshi], Uyghur Online, 15 May 13; ``Young Uyghur 
Detained for Selling Quran Touch Reading Pens'' [Weiwuer zu qingnian 
yin shou ``gulanjing'' diandubi bei juliu], Uyghur Online, 23 April 13; 
``Official Says 21 Dead and 2 Injured in Kashgar Terrorist Attack'' 
[Guanfang cheng kashi kongbu xiji 21 si 2 shang], Radio Free Asia, 24 
April 13.
    \123\Ibid.
    \124\The 2001 Amendments to the 1994 XUAR Regulation on the 
Management of Religious Affairs mandate prior government approval for 
the sale and distribution of religious material. The Amendments are 
unpublished but documented by Human Rights Watch and Human Rights in 
China in their report ``Devastating Blows: Religious Repression of 
Uighurs in Xinjiang,'' 1 April 05. For the 1994 Regulation, see 
``Xinjiang Uyghur Autonomous Region Regulation on the Management of 
Religious Affairs'' [Xinjiang weiwuer zizhiqu zongjiao shiwu guanli 
tiaoli], passed 16 July 94, effective 1 October 94.
    \125\For representative examples, see the Commission's Political 
Prisoner Database record 2009-00328 (Kurbanjan Semet), record 2009-
00314 (Merdan Seyitakhun), and record 2008-00014 (Alimjan Yimit).
    \126\``Jailed Uyghur Pastor Denied Visit,'' Radio Free Asia, 23 
January 13.
    \127\See CECC, 2012 Annual Report, 10 October 12, 152.
    \128\Zhang Guijun, Bole City Ethnic and Religious Affairs Bureau, 
``Bole City Adopts a Number of Measures To Prohibit Minors From 
Entering Places of Worship'' [Bole shi caiqu duo xiang cuoshi zhizhi 
weichengnian ren jinru zongjiao huodong changsuo], reprinted in Bole 
City Government, 25 July 13; Liu Zhenxiang, Dorbiljin (Emin) County 
Government, ``Emin County Adopts a Number of Measures To Safeguard the 
Ramadan Period'' [Emin xian caiqu duo xiang cuoshi quebao zhaiyue 
qijian], 5 July 13; CPC Hoboksar Mongol Autonomous County Committee and 
Organization Department, ``Hoboksar County Tiebukanwusan Township's 
Three Measures To Strictly Prohibit Minors From Entering Places of 
Worship'' [Hebukesaier xian tiebukenwusan xiang san xiang cuoshi yanli 
zhizhi weichengnian ren jinru zongjiao huodong changsuo], 29 July 13.
    \129\``Uyghur Muslims Face New Religious Clampdown,'' Radio Free 
Asia, 11 July 13; Bill Smith, ``China's Controls Curb Uighurs' 
Ramadaan,'' South African Press Association, reprinted in IOL News, 12 
July 13; Liu Haijun, Korgas (Huocheng) County Committee Office, 
``Huocheng County Committee Office Cadres Take the Lead in Not 
Believing in Religion and Not Fasting'' [Huocheng xian weibian ban 
ganbu daitou bu xinjiao bu fengzhai], reprinted in Korgas Government, 
12 July 13; Wen Fucheng, ``Health Road Community Organizes Activity for 
All Party Members To Sign Pledge To Deal With Illegal Religious 
Activities According to the Law and Curb Extremist Thinking'' [Jiankang 
lu shequ zuzhi quanti dangyuan ganbu qianding yifa zhili feifa zongjiao 
huodong, ezhi zongjiao jiduan sixiang chengnuo shu], Akqi (Aheqi) 
County Government, 16 July 13.
    \130\``A Uyghur With a Strong Religious Consciousness Was Expelled 
From His Public Post'' [Yi zongjiao yishi nonghou de weiwuer ren bei 
kaichu gongzhi], Uyghur Online, 3 August 13; ``Uyghur Fired for 
Fasting'' [Yi weiwuer ren yin fengzhai er bei tingzhi gongzuo], Uyghur 
Online, 29 July 13.
    \131\``Uyghur Muslims Face New Religious Clampdown,'' Radio Free 
Asia, 11 July 13; Uyghur American Association, ``UAA Condemns Shootings 
by Police During Religious Celebration,'' 14 August 13; ``Eid Eve 
Clashes Stoked by Gunshots Fired at Uyghur Girl,'' Radio Free Asia, 12 
August 13; ``One Dead and Two Injured in a Uyghur-Han Conflict in 
Xinjiang, Authorities on Alert for Eid Holiday'' [Xinjiang wei han 
chongtu yi si liang shang rouzijie dangju tisheng jiebei], Radio Free 
Asia, 5 August 13.
    \132\Graham Adams, ``The Xinjiang Perspective: Part III,'' 
Diplomat, 8 November 12.
    \133\For Commission analysis, see ``Xinjiang Authorities Accelerate 
Promotion of Mandarin-Focused Bilingual Education,'' Congressional-
Executive Commission on China, 10 May 11.
    \134\Ibid.
    \135\``Uyghur Youths Forced Into Exile in Order To Protect Their 
Ethnic Identity'' [Weiwuer nianqing ren wei baohu minzu shenfen er bei 
po liuwang haiwai], Radio Free Asia, translated and reprinted in Uyghur 
Online, 1 June 13; ``Uyghurs Support Language Protest,'' Radio Free 
Asia, 27 October 10.
    \136\Zhang Xuehong, ``Xinjiang Has Nearly 1.41 Million Students in 
Bilingual Education Classes, Teaching Personnel Are the Bottleneck'' 
[Xinjiang shuangyu ban xuesheng yi you jin 141 wan ren, shizi shi 
pingjing], Yaxin Net, reprinted in People's Daily, 24 December 12. At 
the end of 2012, there were reportedly 1.68 million students in the 
XUAR enrolled either in ``bilingual education'' or as minkaohan 
students (minkaohan students are enrolled in longstanding programs, 
which are separate from ``bilingual education,'' that place ethnic 
minority students directly into Mandarin Chinese schooling). This 
figure reportedly represents a 19.2 percent increase over 2011, and 
comprised 66.6 percent of the ethnic minority student population 
enrolled at the preschool to the secondary school level. See Cheng 
Yong, ``Xinjiang: A Belief That `Bilingual Education' Will Change One's 
Fate, Parents Are Willing To Select Bilingual Kindergartens'' 
[Xinjiang: xiangxin ``shuangyu'' gai mingyun, fumu yuan xuan shuangyu 
youeryuan], China News Service, reprinted in Sohu, 6 March 13.
    \137\Zhang Xuehong, ``Xinjiang Has Nearly 1.41 Million Students in 
Bilingual Education Classes, Teaching Personnel Are the Bottleneck'' 
[Xinjiang shuangyu ban xuesheng yi you jin 141 wan ren, shizi shi 
pingjing], Yaxin Net, reprinted in People's Daily, 24 December 12.
    \138\See Cheng Yong, ``Xinjiang: A Belief that `Bilingual 
Education' Will Change One's Fate, Parents Are Willing To Select 
Bilingual Kindergartens'' [Xinjiang: xiangxin ``shuangyu'' gai mingyun, 
fumu yuan xuan shuangyu youeryuan], China News Service, reprinted in 
Sohu, 6 March 13.
    \139\Ren Xixian, ``Xinjiang's Yili Ethnic Minority Family Planning 
Households Happily Receive `Fewer Births, Faster Wealth' Monetary 
Rewards'' [Xinjiang yili shaoshu minzu jisheng hu xi ling ``shaosheng 
kuaifu'' jiangli jin], Xinhua, reprinted in People's Daily, 20 
September 12; Liu Chunyang, ``Sixty-Five Minority Households in Tuokayi 
Township Happily Receive 400,000 Yuan in Fewer Births, Faster Wealth 
Rewards'' [Tuokayi xiang 65 hu shaoshu minzu xiling shaosheng kuaifu 
jiangli jin 40 wan yuan], China News Service, 15 March 13. Under 
Article 15 of the XUAR's Regulation on Population and Family Planning, 
rural ethnic minority families are permitted to give birth to a maximum 
of three children, and urban ethnic minority couples are permitted to 
give birth to two children. When one member of the couple is an urban 
resident, urban birth limits apply. For information on reward programs 
in earlier years, see CECC, 2012 Annual Report, 10 October 12, 153.
    \140\Ren Xixian, ``Xinjiang's Yili Ethnic Minority Family Planning 
Households Happily Receive `Fewer Births, Faster Wealth' Monetary 
Rewards'' [Xinjiang yili shaoshu minzu jisheng hu xi ling ``shaosheng 
kuaifu'' jiangli jin], Xinhua, reprinted in People's Daily, 20 
September 12; Liu Chunyang, ``Sixty-Five Minority Households in Tuokayi 
Township Happily Receive 400,000 Yuan in Fewer Births, Faster Wealth 
Rewards'' [Tuokayi xiang 65 hu shaoshu minzu xiling shaosheng kuaifu 
jiangli jin 40 wan yuan], China News Service, 15 March 13.
    \141\For more information on these types of reward mechanisms, see 
CECC, 2012 Annual Report, 10 October 12, 153.
    \142\``Training Course for Northern Xinjiang Rural Resident 
Reproductive Health Religious Figures and Managers'' [Beijiang 
nongmumin shengzhi jiankang zongjiao renshi he guanli renyuan peixun 
ban], XUAR Population and Family Planning Commission, reprinted in 
Tianshan Net, 14 December 12; ``Deputy Mayor Ma Zhongyong Visits Mosque 
That Is the Site of a Muslim Reproductive Health Preaching Education 
Project'' [Ma zhongyong fu shizhang weiwen musilin shengzhi jiankang 
xuanchuan jiaoyu xiangmu dian qingzhensi], Wuzhong City Population and 
Family Planning Bureau, 31 August 12. The project is also referred to 
as the ``Herder Reproductive Health Project'' (nongmumin shengzhi 
jiankang xiangmu). See ``Key Work of the Prefectural Family Planning 
Commission for 2013'' [2013 nian diqu jihua shengyu xiehui gongzuo 
yaodian], Altai Prefecture Population and Family Planning Commission, 
22 March 13; ``Autonomous Region Convenes Northern Xinjiang Herder 
Reproductive Health Project Religious Figures and Managers' Training 
Course'' [Zizhiqu juban beijiang pian nongmumin shengzhi jiankang 
xiangmu zongjiao renshi he guanli renyuan peixun ban], XUAR Population 
and Family Planning Commission, reprinted in XUAR Leading Group on the 
Rule of Law, 17 December 12.
    \143\Jiang Yan, ``Muslim Reproductive Health Project Extends 
Benefits to Nearly 300,000 Muslim Masses in Yining County'' [Musilin 
shengzhi jiankang xiangmu huiji yining xian jin 30 wan musilin 
qunzhong], Tianshan Net, 29 September 11; XUAR Population and Family 
Planning Commission, ``Association Information--August 22'' [Xiehui 
xinxi], 22 August 11.
    \144\``Autonomous Region Convenes Northern Xinjiang Herder 
Reproductive Health Project Religious Figures and Managers' Training 
Course'' [Zizhiqu juban beijiang pian nongmumin shengzhi jiankang 
xiangmu zongjiao renshi he guanli renyuan peixun ban], XUAR Population 
and Family Planning Commission, reprinted in XUAR Leading Group on the 
Rule of Law, 17 December 12; ``Key Work of the Chinese Family Planning 
Association for 2013'' [Zhongguo jihua shengyu xiehui 2013 nian gongzuo 
yaodian], Guangyuan City Family Planning Association, 14 December 12; 
``Deputy Mayor Ma Zhongyong Visits Mosque That Is the Site of a Muslim 
Reproductive Health Preaching Education Project'' [Ma zhongyong fu 
shizhang weiwen musilin shengzhi jiankang xuanchuan jiaoyu xiangmu dian 
qingzhensi], Wuzhong City Population and Family Planning Bureau, 31 
August 12.
    Notes to Section V--Tibet

    \1\Office of His Holiness the Dalai Lama, ``Press Statement,'' 25 
January 10. According to the January 25 press statement, the Dalai 
Lama's envoys would arrive in China ``tomorrow'' (i.e., January 26, 
2010).
    \2\``Press Conference on Central Govt's Contacts With Dalai Lama 
(Text),'' China Daily, 11 February 10. After the ninth round of 
dialogue, Zhu Weiqun referred to the gap between the eighth and ninth 
rounds as ``the longest interval after we resumed contact and talks in 
2002.''
    \3\For more information on the Tibetan autonomous areas of China, 
see CECC, ``Special Topic Paper: Tibet 2008-2009,'' 22 October 09, 22-
24. In China there are 1 provincial-level area of Tibetan autonomy, 10 
prefectural-level areas of Tibetan autonomy, and 2 county-level areas 
of Tibetan autonomy. The area of the Tibet Autonomous Region (TAR) 
(approximately 1.2 million square kilometers), the 10 Tibetan 
Autonomous Prefectures (TAPs) (approximately 1.02 million square 
kilometers), and the 2 Tibetan autonomous counties (TACs) 
(approximately 0.019 million square kilometers) totals approximately 
2.24 million square kilometers. The 10 TAPs make up approximately 46 
percent of the TAR/TAP/TAC total area. Steven Marshall and Susette 
Cooke, Tibet Outside the TAR: Control, Exploitation and Assimilation: 
Development With Chinese Characteristics (Washington, DC: Self-
published CD-ROM, 1997), Table 7, citing multiple Chinese sources. 
Table 7 provides the following information. Tibet Autonomous Region 
(1.2 million square kilometers, or 463,320 square miles). Qinghai 
province: Haibei (Tsojang) TAP (52,000 square kilometers, or 20,077 
square miles), Hainan (Tsolho) TAP (41,634 square kilometers, or 16,075 
square miles), Haixi (Tsonub) Mongol and Tibetan AP (325,787 square 
kilometers, or 125,786 square miles), Huangnan (Malho) TAP (17,901 
square kilometers, or 6,912 square miles), Guoluo (Golog) TAP (78,444 
square kilometers, or 30,287 square miles), and Yushu (Yushul) TAP 
(197,791 square kilometers, or 76,367 square miles). Gansu province: 
Gannan (Kanlho) TAP (45,000 square kilometers, or 17,374 square miles) 
and Tianzhu (Pari) TAC (7,150 square kilometers, or 2,761 square 
miles). Sichuan province: Ganzi (Kardze) TAP (153,870 square 
kilometers, or 59,409 square miles), Aba (Ngaba) Tibetan and Qiang AP 
(86,639 square kilometers, or 33,451 square miles), and Muli (Mili) TAC 
(11,413 square kilometers, or 4,407 square miles). Yunnan province: 
Diqing (Dechen) TAP (23,870 square kilometers, or 9,216 square miles). 
The table provides areas in square kilometers; conversion to square 
miles uses the formula provided on the Web site of the U.S. Geological 
Survey: 1 square kilometer = 0.3861 square mile. For population data, 
see Tabulation on Nationalities of 2000 Population Census of China, 
Department of Population, Social, Science and Technology Statistics, 
National Bureau of Statistics, and Department of Economic Development, 
State Ethnic Affairs Commission (Beijing: Ethnic Publishing House, 
September 2003), Tables 10-1, 10-4. According to China's 2000 census 
data, the Tibetan population of the TAR (approximately 2.43 million 
persons), the 10 TAPs (approximately 2.47 million persons), and the 2 
TACs (approximately 0.11 million persons) totaled approximately 5.01 
million Tibetans. The Tibetan population of the 10 TAPs made up 
approximately 49 percent of the TAR/TAP/TAC total Tibetan population as 
of 2000. See also Tabulation on the 2010 Population Census of the 
People's Republic of China, National Bureau of Statistics, Department 
of Population and Employment Statistics, Population Census Office Under 
the State Council, 23 April 13, Table 2-1. The table titled 
``Population by Age, Sex, and Nationality'' listed the national Tibetan 
population as 6,282,187. As of August 2013, the Commission had not 
observed detailed data based on the2010census forethnic populationin 
provincial-, prefectural-, and county-level administrative areas.
    \4\Office of the Spokesperson, U.S. Department of State, 
``Statement by Special Coordinator for Tibetan Issues Maria Otero,'' 5 
December 12. As of the statement date, Maria Otero also served as Under 
Secretary of State for Civilian Security, Democracy, and Human Rights.
    \5\International Campaign for Tibet, ``New Challenges to Tibet 
Policy From Inside China,'' 27 June 13. ICT provided a translation of 
the Asia Weekly article and provided citation information: Shuo Jiming, 
``Beijing Expert: Resume Negotiations To Resolve the Tibet Issue,'' 
Asia Weekly, Vol. 27, No. 22 (June 2013).
    \6\Ibid.
    \7\The table included in this report--Tibetan Self-Immolation 
Believed To Focus on Political or Religious Issues (September 2012-July 
2013)--shows self-immolation numbers 52 to 89, a total of 38 self-
immolations, during October and November 2012.
    \8\``CPC Congress Concludes, New Central Committee Elected,'' 
Xinhua, 14 November 12. According to the report, the Chinese Communist 
Party Central Committee's 18th Congress opened on November 8, 2012, and 
concluded on November 14.
    \9\For reports providing specific detail on self-immolators' 
protests during the period beginning on September 29, 2012 (in 
chronological order), see, e.g., International Campaign for Tibet, 
``Second Tibetan Dies in Less Than a Week as Self-Immolations Continue 
in Tibet,'' 5 October 12 (Yungdrung ``shouted slogans calling for 
freedom in Tibet and for the return of the Dalai Lama and the 
Karmapa''); ``Tibetan Man Self-Immolates in Nagchu,'' Voice of America, 
4 October 12 (Gudrub ``shouted slogans calling for freedom for Tibet 
and return of the Tibetan spiritual leader''); ``Third Tibet Self-
Immolation in One Week,'' Voice of America, 6 October 12 (Sanggye 
Gyatso ``shouted for the swift return of the Dalai Lama to Tibet and 
called for religious and language rights''); ``Breaking: Tibet 
Continues To Burn With Another Self-Immolation,'' Phayul, 13 October 12 
(Tamdrin Dorje ``raised slogans for the return of His Holiness the 
Dalai Lama and freedom in Tibet''); Tibetan Centre for Human Rights and 
Democracy, ```These Chinese Are Not Letting Us Live in Peace. It's 
Better To Die, Better To Die,''' 29 October 12 (Lhamo Kyab ``shouted 
slogans calling for `independence for Tibet,' `release of the 11th 
Panchen Lama,' and the `return of His Holiness the Dalai Lama'''); 
``Retired Farmer Dies After Burning Himself in Labrang,'' Voice of 
America, 22 October 12 (Dondrub ``burned himself at a Stupa on the main 
road near the monastery''); ``Man Burns Near Police Station,'' Radio 
Free Asia, 23 October 12 (Dorje Rinchen ``set himself on fire and died 
Tuesday in front of a police station''); International Campaign for 
Tibet, ``Two Self-Immolations in Nagchu,'' 31 October 12 (Tsepo and 
Tenzin ``set fire to themselves in a double self-immolation near a 
government building''); Free Tibet, ``Fourth Tibetan This Week Sets 
Himself on Fire,'' 26 October 12 (Lhamo Tseten ``[set] himself on fire 
close to a military camp and a local court building''); ``Mass Protest 
After Fatal Burning,'' Radio Free Asia, 4 November 12 (Dorje Lhundrub 
``shouted slogans against Chinese rule and called for the return of . . 
. the Dalai Lama''); ``Five Tibetans Self-Immolate,'' Radio Free Asia, 
7 November 12 (Dorje, Samdrub, and Dorje Kyab ``set themselves ablaze 
in front of a police station in Ngaba town, calling for a free Tibet 
and the return of . . . the Dalai Lama''); ``Five Tibetans Self-
Immolate,'' Radio Free Asia, 7 November 12 (Tamdrin Tso ``died shouting 
slogans calling for the return of the Dalai Lama''); ``6 Tibetans Self-
Immolate in Two Days,'' Voice of America, 8 November 12 (Kalsang Jinpa 
``was reported to have raised a white banner with slogans that called 
for Dalai Lama's return and rights of all Tibetan people''); ``Tibetan 
Burnings Rise to 70,'' Radio Free Asia, 10 November 12 (Gonpo Tsering 
called for ``freedom for Tibetans, the return of the Dalai Lama to 
Tibet and freedom of languages''); ``Two Tibetan Self-Immolaters Left 
Letters Behind,'' Voice of America, 20 November 12 (Nyingkar Tashi left 
a letter that ``urged unification of all Tibetans and urged Tibetans to 
learn and speak Tibetan, and called for freedom for Tibet''); ``More 
Tibetan Burning Protests,'' Radio Free Asia, 12 November 12 (Nyingchag 
Bum self-immolated ``in front of a Chinese government office 
building''); ``Two More Burn in Rebgong,'' Radio Free Asia, 15 November 
12 (Tenzin Drolma self-immolated ``in the courtyard of a community 
temple''); ``Self-Immolations Continue in Rebkong, Two Die in 
Protest,'' Voice of America, 15 November 12 (Tenzin Drolma ``shouted 
slogans calling for return of the Dalai Lama''); ``Two Tibetan Self-
Immolaters Left Letters Behind,'' Voice of America, 20 November 12 
(Chagmo Kyi's letters ``expressed her wish for equality of all 
nationalities and called on the new Chinese leader Xi Jinping to meet 
with the Dalai Lama''); International Campaign for Tibet, ``Young 
Tibetan Father Self-Immolates in Tsekhog; Officials Warn Tibetans Not 
To Gather at Cremations,'' 19 November 12 (Sangdrag Tsering 
``frequently spoke about the Dalai Lama not being allowed to be in 
Tibet, that Tibetans have no rights, and that the Panchen Lama is still 
in prison''); ``Tibetan Self-Immolations Continue, 25-Year-Old Dies in 
Protest,'' Voice of America, 19 November 12 (Wangchen Norbu ``shouted 
slogans calling for the return of the Dalai Lama to Tibet, release of 
the Panchen Lama and freedom for Tibet''); Tibetan Centre for Human 
Rights and Democracy, ``Tibetan Man Dies of Burning Protest at a Gold 
Mining Site,'' 21 November 12 (Tsering Dondrub ``set himself on fire . 
. . at a mining site. . . . wanted to highlight the hardship and 
suffering of the local Tibetans harmed by mining activities''); 
International Campaign for Tibet, ``Three Self-Immolations in Two Days 
as Total in Tibet Reaches 81,'' 24 November 12 (Tamdrin Kyab reportedly 
had said previously there was ``no reason to live without the Dalai 
Lama's return to Tibet''); ``Tibetan Burns, Hails Dalai Lama,'' Radio 
Free Asia, 24 November 12 (Tamdrin Dorje ``could be seen putting his 
hands together in prayer, shouting long life to the Dalai Lama''); 
``17-Year-Old Self-Immolator's Last Note Calls for the Dalai Lama's 
Return and Tibet's Independence,'' Phayul, 28 November 12 (Sanggye 
Drolma left ``a will, written in the form of a poem'' expressing ``her 
belief in the swift return of . . . the Dalai Lama and Tibet's 
independence''); ``Three Self-Immolations in Two Days, Total Reaches 
84,'' Voice of America, 26 November 12 (Sanggye Drolma self-immolated 
``in front of the [local] Chinese government office''); ``Breaking: 18-
Year-Old Sets Self on Fire, Third Self-Immolation in Two Days,'' 
Phayul, 26 November 12 (Konchog Tsering self-immolated near the same 
mining site where Tsering Dondrub self-immolated on November 20); 
``Father of Three Dies After Self-Immolation,'' Voice of America, 26 
November 12 (Gonpo Tsering ``shouted slogans calling for freedom for 
Tibet, human rights in Tibet and return of the Dalai Lama to Tibet''); 
```May the Sun of Happiness Shine on Tibet,' a Self-Immolator's Last 
Words,'' Phayul, 29 November 12 (Kalsang Kyab's letter to Tibetans in 
India: ``I am setting myself on fire for the sake of Tibet.''); 
``Tibetan Teenager Burns Himself to Death,'' Voice of America, 28 
November 12 (Sanggye Tashi ``shouted slogans calling for return of the 
Dalai Lama and release of the Panchen Lama and all Tibetan political 
prisoners''); ``Two Tibetans Self-Immolate, Total Reaches 89,'' Voice 
of America, 29 November 12 (Bande Khar called for ``the return of the 
Dalai Lama to Tibet, the release of all Tibetan political prisoners, 
freedom of religion and language and protection of Tibet's fragile 
environment''); ``Two Tibetans Self-Immolate, Total Reaches 89,'' Voice 
of America, 29 November 12 (Tsering Namgyal ``[set] himself on fire 
near the local government office''); ``Tibetan Self-Immolates in 
Golok,'' Voice of America, 3 December 12 (Lobsang Gedun ``raised 
slogans with his hands clasped in prayers while engulfed in flames''); 
International Campaign for Tibet, ``Three Tibetans Self-Immolate in Two 
Days During Important Buddhist Anniversary: Images of Troops in Lhasa 
as Tibetans Pray,'' 10 December 12 (Pema Dorje shouted that the Dalai 
Lama should be allowed to return to Tibet, and called for the unity of 
the Tibetan people); Tibetan Centre for Human Rights and Democracy, 
``Tibetan Religious Festival Marked by Two Self-Immolation Death,'' 9 
December 12 (Konchog Phelgye folded his hands in prayer position and 
``shouted slogans for the long life of . . . the Dalai Lama and return 
. . . to Tibet''); ``Tibetan Girl Self-Immolates,'' Radio Free Asia, 10 
December 12 (Wangchen Kyi, or Rinchen Kyi, called ``for the long life 
of . . . the Dalai Lama''); International Campaign for Tibet, 
``Authorities Bar Customary Religious Rituals To Enforce Quick 
Cremation of Tibetan Who Self-Immolated in Amchok,'' 15 January 13 
(video of Tsering Tashi ``depicts him lying on the street in flames, 
lifting his hands into a prayer position and saying the name of the 
Dalai Lama''); ``Breaking: Monk in Ngaba Becomes 100th to Self-Immolate 
Under China's Rule,'' Phayul, 13 February 13 (Lobsang Namgyal, while 
burning, ``shouted slogans for the long life of . . . the Dalai Lama as 
he ran towards the local police building''); Free Tibet, ``Cross-Legged 
in Flames: Another Protest in Tibet,'' 17 February 13 (Namlha Tsering 
self-immolated in the main road ``opposite the . . . county cinema 
hall''); ``A Tibetan Man Self-Immolates in Palung, Amdo Tsoshar 
(Qinghai),'' Voice of America, 24 February 13 (Phagmo Dondrub ``set 
fire to himself near or within the grounds of [Jakhyung Monastery]''); 
International Campaign for Tibet, ``Two Tibetans Self-Immolate at 
Monasteries During Prayer Ceremonies in Amdo,'' 25 February 13 (Tsezung 
Kyab self-immolated ``in front of the main temple of Shitsang Gonsar 
monastery''); ``Tibetan Self-Immolates in Ngaba County,'' Radio Free 
Asia, 26 February 13 (Sangdrag self-immolated ``in a public area of the 
Ngaba county center''); ``Tibetan Monk Dies in Self-Immolation on 
Sensitive Date for Amdo Ngaba,'' Voice of America, 16 March 13 
(``poured gasoline over himself near his residence . . . and after 
igniting himself . . . walked towards the western gate of the 
monastery''); ``Tibetan Mother of Four Dies in Self-Immolation 
Protest,'' Voice of America, 24 March 13 (``set herself on fire . . . 
near Zamthang Jonang Monastery''); Tibetan Centre for Human Rights and 
Democracy, ``Burning Protests Continue Against Chinese Repression in 
Tibet,'' 30 March 13 (Konchog Tenzin ``set himself on fire . . . near 
his monastery''); ``Thousands Gather After Young Tibetan Mother Self-
Immolates,'' Radio Free Asia, 16 April 13 (Chugtso ``self-immolated 
near . . . Jonang monastery''); Tibetan Centre for Human Rights and 
Democracy, ``Two Tibetan Monks Die of Self-Immolation Protest,'' 25 
April 13 (Lobsang Dawa and Konchog Oezer ``died yesterday after setting 
themselves on fire on the eve of the 24th birthday of Gedhun Choekyi 
Nyima, Tibet's XIth Panchen Lama''); ``Tibetan Man Self-Immolates in 
Protest Against China,'' Voice of America, 29 May 13 (Tenzin Sherab 
``criticized Chinese policies on Tibetans and expressed concern about 
Tibetan religion and culture'' prior to his self-immolation); Tibetan 
Centre for Human Rights and Democracy, ``Teenage Monk Dies of Burning 
Protest; Fate of Body Unknown,'' 22 July 13 (monks saw Kunchog Sonam 
``on fire with both his hands clasped in a praying gesture''); ``Five 
Tibetans Detained in Connection With Self-Immolation,'' Radio Free 
Asia, 26 July 13 (Konchog Sonam was ``crying out for Tibetan freedom'' 
as he burned).
    \10\For Commission analysis of Chinese government regulatory 
intrusion upon Tibetan Buddhist affairs, see, e.g., ``Special Report: 
Tibetan Monastic Self-Immolations Appear To Correlate With Increasing 
Repression of Freedom of Religion,'' CECC China Human Rights and Rule 
of Law Update, No. 1, 24 January 12; ``Tibetan Buddhist Affairs 
Regulations Taking Effect in Tibetan Autonomous Prefectures,'' 
Congressional-Executive Commission on China, 10 March 11; ``New Legal 
Measures Assert Unprecedented Control Over Tibetan Buddhist 
Reincarnation,'' Congressional-Executive Commission on China, 22 August 
07. For measures issued by China's central government, see, e.g., State 
Administration for Religious Affairs, Measures for Evaluating the 
Credentials of and Appointing Monastic Teachers in Tibetan Buddhism 
[Zangchuan fojiao simiao jing shi zige pingding he pinren banfa], 
passed 25 November 12, effective 3 December 12; State Administration 
for Religious Affairs, Management Measures for Tibetan Buddhist 
Monasteries [Zangchuan fojiao simiao guanli banfa], passed 29 September 
10, effective 1 November 10; State Administration for Religious 
Affairs, Measures on the Management of the Reincarnation of Living 
Buddhas in Tibetan Buddhism [Zangchuan fojiao huofo zhuanshi guanli 
banfa], passed 13 July 07, issued 18 July 07, effective 1 September 07.
    \11\During the 2013 reporting year, the Commission did not observe 
indications that dialogue between the Chinese government and the Dalai 
Lama's representatives might soon resume.
    \12\For summary information on Tibetan self-immolation, periodic 
updates are available on the Commission's Web site (www.cecc.gov). As 
of July 20, 2013, the following numbers of Tibetan self-immolations 
reported or believed to focus on political and religious issues took 
place in the following 10 prefectural-level areas of Tibetan autonomy 
(arranged in descending order by number of self-immolations): Aba 
(Ngaba) Tibetan and Qiang Autonomous Prefecture, Sichuan province, 51 
self-immolations; Gannan (Kanlho) Tibetan Autonomous Prefecture (TAP), 
Gansu province, 26 self-immolations; Huangnan (Malho) TAP, Qinghai 
province, 16 self-immolations; Ganzi (Kardze) TAP, Sichuan, 5 self-
immolations; Yushu (Yulshul) TAP, Qinghai, 5 self-immolations; Naqu 
(Nagchu) prefecture, Tibet Autonomous Region (TAR), 4 self-immolations; 
Lhasa municipality, TAR, 3 self-immolations; Guoluo (Golog) TAP, 
Qinghai, 2 self-immolations; Changdu (Chamdo) prefecture, TAR, 1 self-
immolation; Haixi (Tsonub) Mongol and Tibetan Autonomous Prefecture, 
Qinghai, 1 self-immolation. In addition, 2 Tibetans self-immolated in 
Haidong prefecture, Qinghai, which is not an area of Tibetan autonomy. 
(The preceding information does not include Yushu TAP self-immolation 
property protests by females Dekyi Choezom and Pasang Lhamo on June 27 
and September 13, 2012, respectively, and an unidentified woman in 
March 2013; and the April 6, 2012, deaths of a Tibetan Buddhist abbot, 
Athub, and a nun, Atse, in a Ganzi TAP house fire initially reported as 
accidental and later as self-immolation. The Commission continues to 
monitor reports on their deaths.)
    \13\``Commentary: Let Not the Burning Desire of `Tibet 
Independence' Consume the Good and Kind People'' [Pinglun: wu rang 
zangdu de yuhuo fenshao liangshan de renmin], China News Service, 10 
December 12 (translated in Open Source Center, 11 December 12). The 
editorial refers to ``the Dalai and the new leader of the government-
in-exile'' and states that self-immolation is a ``political 
conspiracy'' to split China.
    \14\The following three sources provide examples of official 
positions that continue to exacerbate tensions with Tibetans in the 
context of significant current issues. Chen Feiyu, ```Five Continued 
Focuses,' Realize Greater Development (Under Guidance of Scientific 
Development Concept)--Interview With Tibet CPC Secretary Chen Quanguo'' 
[``Wu ge jixu zhuoli'' shixian geng da fazhan (zai kexue fazhan guan 
zhiyin xia)--fang xizang zizhiqu dangwei shuji chen quanguo], People's 
Daily, 4 September 12 (translated in Open Source Center, 21 September 
12). According to the article, TAR Party Secretary Chen Quanguo listed 
accomplishments including: [regarding religion] ``improved and upgraded 
the work to ensure that all monasteries and temples have a management 
organization, a party organization, a leading group, a contingent, 
duties and functions, and a mechanism''; [regarding security] 
``established 698 police stations for providing service to the people, 
with a coverage area of 300-500 meters for each station. In this way, 
we can ensure that police officers will arrive at the scene in three to 
five minutes when an unexpected incident occurs''; [regarding 
compulsory settlement and resettlement] ``carried out in a down-to-
earth way the comfortable housing project for farmers and herdsmen. We 
will ensure that all farmers and herdsmen can live in safe and 
comfortable houses by the end of 2013.'' Wu Bin, ``Qiang Wei Conducts 
Fact-Finding on Safeguarding Stability in Hualong County, Emphasizes 
Need To Consolidate Achievements in Ad Hoc Struggle Against Self-
Immolation, Create a Good Social Environment for Promoting Construction 
and Development'' [Qiang wei zai hualong xian diaoyan weihu wending 
gongzuo shi qiangdiao gonggu fan zifen zhuanxiang douzheng chengguo--
wei zhua jianshe cu fazhan yingzao lianghao de shehui huanjing], 
Qinghai Daily, 2 March 13 (translated in Open Source Center, 7 March 
13). According to the article, Qinghai Party Secretary Qiang Wei issued 
guidance regarding: [the political environment] ``thoroughly conduct 
the education on patriotism, legal system, and gratitude, and develop a 
dense social atmosphere of ardently loving the party and the state, the 
nationality, and the homeland''; and [handling the self-immolation 
crisis] ``give prominence to `strictness,' dealing harsh blows at the 
people who support, incite, and abet self-immolation.'' ``Aba 
Prefecture Governor: The Chief Cause of Self-Immolations Is the 14th 
Dalai Lama'' [Aba zhou zhouzhang: zifen zong genyuan zai shisi shi 
dalai lama], Xinhua, 8 March 13, reprinted in People's Daily. According 
to the article, Wu Zegang, Governor of the Aba Tibetan and Qiang 
Autonomous Prefecture, stated explicitly that the 14th Dalai Lama 
(shisi dalai lama) is the root (genyuan) of problems in Tibet.
    \15\Office of the Spokesperson, U.S. Department of State, 
``Statement by Special Coordinator for Tibetan Issues Maria Otero,'' 5 
December 12. As of the statement date, Maria Otero also served as Under 
Secretary of State for Civilian Security, Democracy, and Human Rights.
    \16\``Foreign Ministry Spokesman: China Expresses Strong 
Dissatisfaction, Resolute Opposition Over Statement Issued by the 
United States on Tibet-Related Issues'' [Waijiaobu fayanren: dui 
meifang jiu she zang wenti fabiao de shengming biaoshi qianglie buman, 
jianjue fandui], Xinhua, 7 December 12 (translated in Open Source 
Center, 7 December 12).
    \17\Ibid.
    \18\``Gansu Police Crack Homicide Case of Self-Immolation Organized 
and Masterminded by Members of the `Tibetan Youth Congress' of the 
Dalai Clique'' [Gansu jingfang zhenpo dalai jituan ``zangqing hui'' 
chengyuan zuzhi cehua zifen sharen'an], Xinhua, 15 January 13 
(translated in Open Source Center, 15 January 13; available in Chinese 
on China News Service). The article describes October 6, 2012, self-
immolator Sanggye Gyatso as having committed ``repeated acts of 
theft,'' having been ``without a job for a long time,'' and having had 
``improper relations with several women.'' Li Huizi et al., ``Families 
Suffer Amid Tibetan Flames of Deceit,'' China Daily, 5 February 13. The 
article refers to the November 29, 2012, self-immolator Tsering Namgyal 
(or Tsering Tashi) as ``Tsekho'' and notes that he ``did not get along 
well with his wife,'' attempted to borrow money from his father to 
start a business but was instead denied the loan and ``scolded'' by his 
father, who ``was worried his alcoholic son would squander the money on 
excessive gambling and drinking.'' Li Huizi and Jiang Weichao, ``(China 
Focus) Lies and Facts Behind the Flames: An Investigation of Self-
Immolation Incidents in the Tibetan Area of Southern Gansu'' [(Zhongguo 
jujiao) huoyan beihou de huangyan yu zhenxiang: gannan zang qu zifen 
diaocha], Xinhua, 31 January 13 (translated in Open Source Center, 12 
February 13). The report refers to the August 7, 2012, self-immolator 
Drolkar Tso as ``Zhang Kecao'' and notes that her ``left leg was 
handicapped,'' she was ``at odds with her husband and her husband's 
family,'' and ``often blamed and bullied by her mother-in-law.'' ``70 
Arrested in Qinghai Over Self-Immolations,'' Xinhua, 8 February 13. The 
article refers to November 8, 2012, self-immolator Kalsang Jinpa, a 
former Rongbo Monastery monk, and notes that he ``resumed secular life 
after falling in love with a woman, but later discovered she was a 
prostitute and parted with her.'' ``Prefecture, County Public Security 
Authorities Successfully Solve Case of Intentional Homicide, Burning 
Body,'' Aba Daily, 19 March 13 (translated in Open Source Center, 21 
March 13). The article refers to March 13 (or March 12) self-immolator 
Konchog Wangmo as ``Guangqiu Ema'' and notes that her husband, 
``criminal suspect'' Drolma Kyab, ``got into an intense fight with his 
wife''; ``strangled the neck of [his wife] with his hands''; ``brought 
the body of [his wife] to the west wall of [a nearby building]''; and 
``used gasoline to burn the body.''
    \19\Li Huizi et al., ``Families Suffer Amid Tibetan Flames of 
Deceit,'' China Daily, 5 February 13. The article refers to December 2, 
2012, self-immolator Sungdu Kyab as ``Sangdegye'' and observes, 
``Copycat self-immolations spread in the border area of Qinghai, 
Sichuan and Gansu provinces last year, . . . .'' The article described 
Sungdu Kyab as ``introverted,'' someone who watched ``Voice of America 
Tibetan-language programs,'' and ``believed in the Dalai Lama clique.''
    \20\Ibid. The China Daily report contains four subheadings: 
``Families suffer amid Tibetan flames of deceit,'' ``Copycat 
suicides,'' ``Loss of life,'' and ``Terrorism.'' The first three 
subheadings contain specific details about specific self-immolations 
that the article represents as substantiating the points it seeks to 
make. The subsection on ``Terrorism'' contains no specific information 
regarding terrorism for any of the self-immolations, nor any 
information on terrorism except to provide an apparent representation 
of language in the 1994 UN Declaration on Measures to Eliminate 
International Terrorism on what constitutes terrorism: ``criminal acts 
intended or calculated to provoke a state of terror in the public, a 
group of persons or particular communities for political purposes are 
not justifiable under any circumstances, no matter the considerations 
of a political, philosophical, ideological, racial, ethnic, religious 
or any other nature that may be invoked to justify them.'' Li Huizi and 
Jiang Weichao, ``(China Focus) Lies and Facts Behind the Flames: An 
Investigation of Self-Immolation Incidents in the Tibetan Area of 
Southern Gansu'' [(Zhongguo jujiao) huoyan beihou de huangyan yu 
zhenxiang: gannan zang qu zifen diaocha], Xinhua, 31 January 13 
(translated in Open Source Center, 12 February 13). The report does not 
provide any information about any of the self-immolators supporting the 
depiction of them as ``terrorists,'' but it provides a representation 
of language in the 1994 UN Declaration on Measures to Eliminate 
International Terrorism that is briefer than that in the preceding 
citation: ``criminal acts intended or calculated to provoke a state of 
terror in the general public, a group of persons or particular persons 
for political purposes are in any circumstance unjustifiable.'' Tibetan 
Centre for Human Rights and Democracy, ``China Alienates, Angers 
Tibetan Students With Political Education,'' 29 November 12. According 
to the TCHRD report, in addition to remarks on language policy, the 
official booklet characterized Tibetan self-immolators as 
``terrorists'' and the Dalai Lama as ``a political itinerant.''
    \21\CECC, 2012 Annual Report, 10 October 12, 157-160.
    \22\See, e.g., International Campaign for Tibet, ``Second Tibetan 
Dies in Less Than a Week as Self-Immolations Continue in Tibet,'' 5 
October 12 (provides the name ``Yangdang''); ``One More Immolation in 
Tibet, Number Escalates to 52,'' Tibet Express, 29 September 12 
(provides the name ``Yongdrung''); ``Plea To Stop Burnings Ignored,'' 
Radio Free Asia, 29 September 12.
    \23\See, e.g., ``Tibetan Man Self-Immolates in Nagchu,'' Voice of 
America, 4 October 12; ``India-Educated Tibetan Dies in Self-Immolation 
Protest,'' Tibet Express, 4 October 12; International Campaign for 
Tibet, ``Second Tibetan Dies in Less Than a Week as Self-Immolations 
Continue in Tibet,'' 5 October 12.
    \24\See, e.g., ``Third Tibet Self-Immolation in One Week,'' Voice 
of America, 6 October 12 (provides the name ``Sangay Gyatso''); ``Third 
Burning Protest in a Week,'' Radio Free Asia, 6 October 12; ``Breaking: 
Tibet Continues To Burn, Second Self-Immolation in Three Days,'' 
Phayul, 6 October 12.
    \25\See, e.g., International Campaign for Tibet, ``Grandfather of 
Tibetan Reincarnate Lama Dies After Self-Immolation Today,'' 13 October 
12; ``Breaking: Tibet Continues To Burn With Another Self-Immolation,'' 
Phayul, 13 October 12; ``Tibetan Man Dies After Self-Immolation in 
Protest Against China,'' Tibet Post International, 13 October 12.
    \26\See, e.g., ``Burning Tibetan Charges at Police,'' Radio Free 
Asia, 20 October 12; Tibetan Centre for Human Rights and Democracy, 
```These Chinese Are Not Letting Us Live in Peace. It's Better To Die, 
Better To Die,''' 29 October 12.
    \27\See, e.g., International Campaign for Tibet, ``Self-Immolation 
at Tibet's Labrang Monastery,'' 22 October 12; ``Retired Farmer Dies 
After Burning Himself in Labrang,'' Voice of America, 22 October 12; 
Tibetan Centre for Human Rights and Democracy, ``Elderly Tibetan Nomad 
Burns Himself Alive in Protest,'' 23 October 12.
    \28\See, e.g., ``Tibetan Villager Self-Immolates in NW China,'' 
Xinhua, 23 October 12 (reprinted in China Daily); International 
Campaign for Tibet, ``Tibetan Farmer Self-Immolates in Labrang,'' 23 
October 12; ``Man Burns Near Police Station,'' Radio Free Asia, 23 
October 12.
    \29\See, e.g., International Campaign for Tibet, ``Two Self-
Immolations in Nagchu,'' 31 October 12; ``Cousins in Burning Protest,'' 
Radio Free Asia, 27 October 12.
    \30\See, e.g., Free Tibet, ``Fourth Tibetan This Week Sets Himself 
on Fire,'' 26 October 12; ``Fourth Burning in a Week,'' Radio Free 
Asia, 26 October 12.
    \31\See, e.g., ``Thousands Attend Tibetan Self-Immolator's 
Funeral,'' Phayul, 1 November 12 (provides the name ``Thubwang Kyab''); 
International Campaign for Tibet, ``Second Tibetan Self-Immolates Today 
in Sangchu,'' 26 October 12 (provides the name ``Tsewang Kyab''); ``2nd 
Self-Immolation From Sangchu Country Today,'' Voice of America, 26 
October 12 (provides the name ``Tsepak Kyab'').
    \32\See, e.g., ``Tibetan Artist Sets Himself on Fire in Tibet,'' 
Voice of America, 4 November 12; ``Mass Protest After Fatal Burning,'' 
Radio Free Asia, 4 November 12; International Campaign for Tibet, 
``Tibetan Farmer Self-Immolates in Rebkong,'' 4 November 12.
    \33\See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Three Teenage Monks Burn Themselves Alive in Ngaba,'' 8 November 12; 
``Five Tibetans Self-Immolate,'' Radio Free Asia, 7 November 12; 
``Breaking: Three Teenagers in Triple Self-Immolation Protest in 
Tibet,'' Phayul, 7 November 12.
    \34\See, e.g., International Campaign for Tibet, ``Tibetan Self-
Immolations Escalate in Number on Eve of China's Party Congress; 
Tibetans Gather En Masse in Rebkong,'' 8 November 12; ``Five Tibetans 
Self-Immolate,'' Radio Free Asia, 7 November 12; ``Breaking: Tibet 
Burns on Eve of Crucial China Meet,'' Phayul, 7 November 12.
    \35\See, e.g., ``Five Tibetans Self-Immolate,'' Radio Free Asia, 7 
November 12 (does not provide a name for the self-immolator); Tibetan 
Centre for Human Rights and Democracy, ``Tibetan Dies of Untreated 
Burns in Police Custody in Nagchu,'' 28 November 12; ``Kunchok Kyab 
Passes Away, Self-Immolation Death Toll Reaches 76,'' Phayul, 3 
December 12.
    \36\See, e.g., ``6 Tibetans Self-Immolate in Two Days,'' Voice of 
America, 8 November 12; ``Troop Buildup After New Burning,'' Radio Free 
Asia, 8 November 12; ``Breaking: Another Self-Immolation Today, Six 
Tibetans Burn in Two Days,'' Phayul, 8 November 12.
    \37\See, e.g., ``Tibetan Villager Dies in Self-Immolation in NW 
China,'' Xinhua, 10 November 12, reprinted in China Internet 
Information Center, 11 November 12; ``Tibetan Burnings Rise to 70,'' 
Radio Free Asia, 10 November 12; International Campaign for Tibet, 
``Death of Popular, Educated Young Tibetan After Self-Immolation 
Confirmed by Chinese Media,'' 13 November 12.
    \38\See, e.g., ``Two Tibetan Self-Immolaters Left Letters Behind,'' 
Voice of America, 20 November 12 (provides the name ``Nyingkar 
Tashi''); ``More Tibetan Burning Protests,'' Radio Free Asia, 12 
November 12 (provides the name ``Nyingkar Tashi''); International 
Campaign for Tibet, ``Thousands of Tibetans Mobilize in Reaction to 
Self-Immolations Despite Security Build Up,'' 14 November 12 (provides 
the name ``Nyangkar Tashi'').
    \39\See, e.g., ``More Tibetan Burning Protests,'' Radio Free Asia, 
12 November 12; ``Two Tibetans Die After Self-Immolation in Rebkong,'' 
Voice of America, 12 November 12; International Campaign for Tibet, 
``Thousands of Tibetans Mobilize in Reaction to Self-Immolations 
Despite Security Build Up,'' 14 November 12 (provides the name 
``Nyangchag Bum'').
    \40\See, e.g., ``Self-Immolations Continue in Rebkong, Two Die in 
Protest,'' Voice of America, 15 November 12 (provides the name 
``Dangzin Dolma''); ``Two More Burn in Rebgong,'' Radio Free Asia, 15 
November 12; ``Breaking: Tibetan Woman Self-Immolates, Two Fiery Deaths 
in a Day,'' Phayul, 15 November 12 (provides the name ``Tangzin 
Dolma'').
    \41\See, e.g., ``Self-Immolations Continue in Rebkong, Two Die in 
Protest,'' Voice of America, 15 November 12 (provides the name ``Kabum 
Gyal''); ``Breaking: Young Tibetan Burns Self to Death,'' Phayul, 15 
November 12; ``Two More Burn in Rebgong,'' Radio Free Asia, 15 November 
12.
    \42\See, e.g., ``Two Tibetan Self-Immolaters Left Letters Behind,'' 
Voice of America, 20 November 12 (describes letter left behind); 
Tibetan Centre for Human Rights and Democracy, ``Tibetan Woman Dies of 
Burning Protest in Rebkong,'' 17 November 12; International Campaign 
for Tibet, ``Tibetan Self-Immolation in Rebkong,'' 17 November 12.
    \43\See, e.g., ``Another Tibetan Self-Immolates in Rebkong,'' Voice 
of America, 17 November 12; International Campaign for Tibet, ``Young 
Tibetan Father Self-Immolates in Tsekhog; Officials Warn Tibetans Not 
To Gather at Cremations,'' 19 November 12; ``Breaking: Tibet Continues 
To Burn, Man Sets Self on Fire,'' Phayul, 18 November 12.
    \44\See, e.g., ``Tibetan Self-Immolations Continue, 25-Year-Old 
Dies in Protest,'' Voice of America, 19 November 12; ``Third Burning in 
Three Days,'' Radio Free Asia, 19 November 12; ``Breaking: Tibet 
Continues To Burn, 15th Self-Immolation in November,'' Phayul, 20 
November 12.
    \45\See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Tibetan Man Dies of Burning Protest at a Gold Mining Site,'' 21 
November 12; ``Tibetan Man Self-Immolates in Amchok, Amdo,'' Voice of 
America, 20 November 12; ``Breaking: Another Tibetan Burns Self to 
Death, Toll Reaches 78,'' Phayul, 20 November 12.
    \46\See, e.g., ``A 18-Year-Old Tibetan Self-Immolates in Rebkong, 
Amdo,'' Voice of America, 22 November 12; International Campaign for 
Tibet, ``Three Self-Immolations in Two Days as Total in Tibet Reaches 
81,'' 24 November 12; Tibetan Centre for Human Rights and Democracy, 
``Tibetan Burnings Continue as China Enforces Ban on Self-Immolation,'' 
27 November 12 (provides the name ``Lubum Tsering'' and age as 19).
    \47\See, e.g., International Campaign for Tibet, ``Three Self-
Immolations in Two Days as Total in Tibet Reaches 81,'' 24 November 12 
(self-immolated at night); ``Another Tibetan Self-Immolates on Same 
Day,'' Voice of America, 22 November 12; ``Self-Immolation Toll Hits 
80,'' Radio Free Asia, 23 November 12.
    \48\See, e.g., International Campaign for Tibet, ``Three Self-
Immolations in Two Days as Total in Tibet Reaches 81,'' 24 November 12; 
``Breaking: Another Tibetan Self-Immolates, Seven Deaths in Seven 
Days,'' Phayul, 24 November 12; ``Tibetan Burns, Hails Dalai Lama,'' 
Radio Free Asia, 24 November 12.
    \49\See, e.g., ``17-Year-Old Self-Immolator's Last Note Calls for 
the Dalai Lama's Return and Tibet's Independence,'' Phayul, 28 November 
12 (provides the name ``Sangay Dolma''); ``Three Self-Immolations in 
Two Days, Total Reaches 84,'' Voice of America, 26 November 12; 
``Breaking: Tibetan Nun Passes Away in Fiery Protest, Toll Jumps to 
83,'' Phayul, 26 November 12.
    \50\See, e.g., ``Three Self-Immolations in Two Days, Total Reaches 
84,'' Voice of America, 26 November 12; ``Breaking: Tibetan Student 
Sets Self on Fire, Calls for Dalai Lama's Return,'' Phayul, 26 November 
12; International Campaign for Tibet, ``Self-Immolations by Tibetans,'' 
last visited 1 May 13.
    \51\See, e.g., ``Three Self-Immolations in Two Days, Total Reaches 
84,'' Voice of America, 26 November 12; ``Breaking: 18-Year-Old Sets 
Self on Fire, Third Self-Immolation in Two Days,'' Phayul, 26 November 
12; ``Four Tibetans Self-Immolate,'' Radio Free Asia, 26 November 12.
    \52\See, e.g., ``Father of Three Dies After Self-Immolation,'' 
Voice of America, 26 November 12; ``Breaking: Father of Three Burns 
Self to Death, Third Self-Immolation in a Day Takes Toll to 85,'' 
Phayul, 26 November 12; ``Four Tibetans Self-Immolate,'' Radio Free 
Asia, 26 November 12.
    \53\See, e.g., ```May the Sun of Happiness Shine on Tibet,' a Self-
Immolator's Last Words,'' Phayul, 29 November 12 (letter reportedly 
sent to India); ``Breaking: Tibet Continues To Burn, Tibetan Man Set 
Self on Fire,'' Phayul, 27 November 12; ``Tibetan Student Protesters 
Held,'' Radio Free Asia, 27 November 12.
    \54\See, e.g., ``Tibetan Teenager Burns Himself to Death,'' Voice 
of America, 28 November 12 (provides the name ``Sangay Tashi''); 
``Breaking: Teenaged Tibetan Sets Self on Fire, Sixth Self-Immolation 
in Last Three Days,'' Phayul, 28 November 12; ``Tibetan Student 
Protests Spread,'' Radio Free Asia, 28 November 12.
    \55\See, e.g., ``Two Tibetans Self-Immolate, Total Reaches 89,'' 
Voice of America, 29 November 12 (provides the name ``Bendey Khar''); 
``Breaking: Young Tibetan Burns Self to Death, Mass Prayer Service for 
Self-Immolators in Eastern Tibet,'' Phayul, 29 November 12; ``Two More 
Self-Immolations,'' Radio Free Asia, 29 November 12.
    \56\See, e.g., ``Breaking: Tibetan Man Burns Self to Death, Toll 
Climbs to 89,'' Phayul, 29 November 12; ``Two Tibetans Self-Immolate, 
Total Reaches 89,'' Voice of America, 29 November 12; ``Two More Self-
Immolations,'' Radio Free Asia, 29 November 12 (provides the name 
``Tsering Tashi'').
    \57\See, e.g., ``Kunchok Kyab Passes Away, Self-Immolation Death 
Toll Reaches 76,'' Phayul, 3 December 12; ``Breaking: Tibet Self-
Immolation Toll Reaches 90, Fears Over Major Protests in Barkham,'' 
Phayul, 30 November 12; ``Self-Immolations Hit 90 Mark,'' Radio Free 
Asia, 30 November 12.
    \58\See, e.g., ``Tibetan Self-Immolator May Lose Both Legs, Battles 
for Life,'' Phayul, 27 December 12; ``17-Year-Old Tibetan Self-
Immolates in Bora,'' Voice of America, 2 December 12 (provides the name 
``Songdhi Kyab''); Tibetan Centre for Human Rights and Democracy, 
``Tibetan Man Hospitalised After Latest Protest Self-Immolation,'' 3 
December 12.
    \59\See, e.g., ``Tibetan Self-Immolates in Golok,'' Voice of 
America, 3 December 12; ``Self-Immolator Leaves Message of `Unity and 
Solidarity' Among Tibetans,'' Phayul, 5 December 12; International 
Campaign for Tibet, ``Self-Immolations by Tibetans,'' last visited 1 
May 13 (provides name ``Lobsang Geleg'').
    \60\See, e.g., ``Breaking: Burning Tibetan Calls for Independence, 
Two Self-Immolations in a Day,'' Phayul, 8 December 12; International 
Campaign for Tibet, ``Three Tibetans Self-Immolate in Two Days During 
Important Buddhist Anniversary: Images of Troops in Lhasa as Tibetans 
Pray,'' 10 December 12; ``Two Young Tibetans Burn,'' Radio Free Asia, 8 
December 12.
    \61\See, e.g., ``Two Young Tibetans Burn,'' Radio Free Asia, 8 
December 12; Tibetan Centre for Human Rights and Democracy, ``Tibetan 
Religious Festival Marked by Two Self-Immolation Death,'' 9 December 12 
(Konchog Phelgye); International Campaign for Tibet, ``Three Tibetans 
Self-Immolate in Two Days During Important Buddhist Anniversary: Images 
of Troops in Lhasa as Tibetans Pray,'' 10 December 12.
    \62\See, e.g., ``Tibetan Girl Self-Immolates,'' Radio Free Asia, 10 
December 12 (Rinchen Kyi); ``A 17-Year-Old Tibetan Girl Dies After 
Self-Immolation in Amdo Tsekock,'' Voice of America, 9 December 12; 
``Breaking: Tibetan Schoolgirl Burns Self to Death, Says, `Don't Want 
Chinese Authorities To Take Away My Dead Body,''' Phayul, 9 December 12 
(``Bhenchen Kyi'').
    \63\See, e.g., International Campaign for Tibet, ``Authorities Bar 
Customary Religious Rituals To Enforce Quick Cremation of Tibetan Who 
Self-Immolated in Amchok,'' 15 January 13; ``Chinese Security Official 
Force Hasty Cremation of Tibetan Self-Immolator,'' Voice of America, 13 
January 13; ``Breaking: Tibetan Youth Sets Self on Fire, Toll Rises to 
96 in Tibet,'' Phayul, 12 January 13.
    \64\See, e.g., International Campaign for Tibet, ``Chinese State 
Media Blame `Dalai Clique' and Announce Detentions in Aggressive 
Security Drive Against Tibetan Self-Immolations,'' 18 January 13; 
Tibetan Centre for Human Rights and Democracy, ``Chinese Police 
Confiscate Body of Second Tibetan Self-Immolator,'' 21 January 13; 
``Father of Two Self Immolates in Ngaba,'' Voice of America, 18 January 
13.
    \65\See, e.g., Tibetan Centre for Human Rights and Democracy, 
``China Intensifies Ban on Religious Gatherings After Third Self-
Immolation,'' 25 January 13; ``Tibetan Man Self-Immolates in Bora,'' 
Voice of America, 22 January 13; ``Breaking: Tibet Continues To Burn, 
98th Self-Immolation in Tibet,'' Phayul, 22 January 13.
    \66\International Campaign for Tibet, ``Tibetan Sets Fire to 
Himself in Kathmandu; in Tibet, 100th Self-Immolation,'' 13 February 
13; Tibetan Centre for Human Rights and Democracy, ``Kirti Monastery 
Monk Dies of Self-Immolation Protest in Ngaba,'' 14 February 13; 
``Breaking: Monk in Ngaba Becomes 100th To Self-Immolate Under China's 
Rule,'' Phayul, 13 February 13.
    \67\See, e.g., International Campaign for Tibet, ``Further Self-
Immolation in Tibet Despite Harsh Legal Measures To Deter Protests; 
Tibetan Who Set Fire to Himself in Nepal Dies,'' 14 February 13; 
``Burnings Rage On Despite Controls,'' Radio Free Asia, 14 February 13.
    \68\See, e.g., International Campaign for Tibet, ``Tibetan Farmer 
From Nomadic Area Sets Fire to Himself in Labrang,'' 17 February 13; 
Free Tibet, ``Cross-Legged in Flames: Another Protest in Tibet,'' 17 
February 12; ``New Burning Protest in Tibet,'' Phayul, 18 February 13.
    \69\See, e.g., International Campaign for Tibet, ``Two Tibetan 
Teenagers Set Themselves on Fire in Ngaba,'' 20 February 13; Tibetan 
Centre for Human Rights and Democracy, ``Two Teenage Tibetans Die of 
Self-Immolation Protest,'' 20 February 13.
    \70\See, e.g., ```Without Independence Tibet Will Be Annihilated,' 
a Self-Immolator's Last Words,'' Phayul, 9 May 13; ``Tibetan Self-
Immolator Phagmo Dhondup Dies,'' Phayul, 18 April 13; ``A Tibetan Man 
Self-Immolates in Palung, Amdo Tsoshar (Qinghai),'' Voice of America, 
24 February 13; International Campaign for Tibet, ``Two Tibetans Self-
Immolate at Monasteries During Prayer Ceremonies in Amdo,'' 25 February 
13.
    \71\See, e.g., International Campaign for Tibet, ``Two Tibetans 
Self-Immolate at Monasteries During Prayer Ceremonies in Amdo,'' 25 
February 13; ``Tibetan Man Self-Immolates in Luchu, in Gansu 
Province,'' Voice of America, 25 February 13; ``Breaking: Two Fiery 
Protests in as Many Days, Tibetan Self-Immolator Passes Away,'' Phayul, 
25 February 13.
    \72\See, e.g., ``Tibetan Self-Immolates in Ngaba County,'' Radio 
Free Asia, 26 February 13; ``Tibetan Monk Sets Himself on Fire, 107th 
Self-Immolation,'' Voice of America, 26 February 13; International 
Campaign for Tibet, ``Self-Immolations by Tibetans,'' last visited 1 
May 13.
    \73\See, e.g., Yeshe Choesang, ``Two Self-Immolation Protests in 
Tibet, Pushed the Toll to 109,'' Tibet Post International, 17 March 13 
(``burned herself . . . around 11.00 pm in the night''; ``staged the 
self-immolation protest at [a] Chinese official building''); 
International Campaign for Tibet, ``Two Self-Immolations in Tibet: 
Kirti Monk on Crackdown Anniversary and Woman in Dzoge,'' 18 March 13 
(age 31; ``set fire to herself at her home and ran into the street''); 
``Chinese Police Deny Self-Immolation of Tibetan Woman,'' Voice of 
America, 19 March 13 (police say ``she was murdered by her husband who 
later set the body on fire''); ``Police Dismiss Reports of Tibetan 
Woman's Self-Immolation,'' Global Times, 19 March 13 (age 28; 
``strangled to death by her husband, who later burned her body''); 
``Prefecture, County Public Security Authorities Successfully Solve 
Case of Intentional Homicide, Burning Body,'' Aba Daily, 19 March 13 
(translated in Open Source Center, 21 March 13) (``criminal suspect . . 
. got into an intense fight with his wife''; ``strangled the neck of 
[his wife] with his hands''; ``brought the body of [his wife] to the 
west wall of [a nearby building]''; ``used gasoline to burn the 
body'').
    \74\See, e.g., ``Tibetan Monk Dies In Self-Immolation on Sensitive 
Date for Amdo Ngaba,'' Voice of America, 16 March 13; ``Breaking: Kirti 
Monk Marks March 16 With Self-Immolation, Toll Rises to 108,'' Phayul, 
16 March 13; Tibetan Centre for Human Rights and Democracy, ``Monk Dies 
of Self-Immolation on Protest Anniversary,'' 18 March 13; International 
Campaign for Tibet, ``Two Self-Immolations in Tibet: Kirti Monk on 
Crackdown Anniversary and Woman in Dzoge,'' 18 March 13.
    \75\See, e.g., ``Tibetan Mother of Four Dies in Self-Immolation 
Protest,'' Voice of America, 24 March 13; ``Breaking: 110th Tibetan 
Self-Immolation,'' Phayul, 24 March 13; International Campaign for 
Tibet, ``Self-Immolations of a Tibetan Forest Guard and Mother of Four 
in Eastern Tibet,'' 26 March 13.
    \76\See, e.g., ``Tibetan Man Self-Immolates in Labrang Area 
Village,'' Voice of America, 25 March 13; ``Breaking: Second Self-
Immolation in 24 Hours, Toll Rises to 111 (Updated),'' Phayul, 25 March 
13; International Campaign for Tibet, ``Self-Immolations of a Tibetan 
Forest Guard and Mother of Four in Eastern Tibet,'' 26 March 13.
    \77\See, e.g., ``Breaking: A Monk Sets Self Ablaze in Tibet,'' 
Phayul, 29 March 13; ``A Buddhist Monk Dies in Latest Self-Immolation 
Protest in Tibet,'' Tibet Post International, 29 March 13; Tibetan 
Centre for Human Rights and Democracy, ``Burning Protests Continue 
Against Chinese Repression in Tibet,'' 30 March 13.
    \78\See, e.g., ``Tibetan Mother Self-Immolates in Zamthang,'' Voice 
of America, 16 April 13; ``Thousands Gather After Young Tibetan Mother 
Self-Immolates,'' Radio Free Asia, 16 April 13; Tibetan Centre for 
Human Rights and Democracy, ``Tibetan Mother Dies of Self-Immolation, 
Denied Proper Cremation by Chinese Authorities,'' 17 April 13.
    \79\See, e.g., ``Two Tibetan Monks Set Themselves on Fire,'' Voice 
of America, 24 April 13; ``Three Tibetans Die in Burning Protests,'' 
Radio Free Asia, 24 April 13; Tibetan Centre for Human Rights and 
Democracy, ``Two Tibetan Monks Die of Self-Immolation Protest,'' 25 
April 13.
    \80\See, e.g., ``New Tibetan Self-Immolation After One-Month 
Hiatus,'' Radio Free Asia, 29 May 13; ``Tibetan Man Self-Immolates in 
Protest Against China,'' Voice of America, 29 May 13; International 
Campaign for Tibet, ``Tibetan Nomad Self-Immolates and Dies in Yushu,'' 
29 May 13.
    \81\See, e.g., ``Latest Tibetan Nun Self-Immolator's Identity 
Confirmed,'' Tibet Express, 14 June 13; ``New Information on June 11 
Self-Immolation in Kham Tawo,'' Voice of America, 14 June 13; 
``Clampdown Imposed as Nun Secretly Cremated After Burning Protest,'' 
Radio Free Asia, 17 June 13.
    \82\See, e.g., ``Monk, 17, Sets Himself on Fire in Sichuan,'' 
Global Times, 30 July 13; International Campaign for Tibet, ``Teenage 
Tibetan Monk Dies After Self-Immolation in Dzoege,'' 22 July 13; 
Tibetan Centre for Human Rights and Democracy, ``Teenage Monk Dies of 
Burning Protest; Fate of Body Unknown,'' 22 July 13.
    \83\CECC, 2012 Annual Report, 10 October 12, 157-60.
    \84\For information on the shifting profile of Tibetan self-
immolations, see CECC, ``Special Report: Tibetan Self-Immolation--
Rising Frequency, Wider Spread, Greater Diversity,'' 22 August 12.
    \85\The Commission has posted on its Web site (www.cecc.gov) a 
series of summaries of information on Tibetan self-immolations. The 
summaries include a breakdown by gender, location, and occupation type.
    \86\See the table in this section titled ``Tibetan Self-Immolation 
Believed To Focus On Political or Religious Issues (September 2012-July 
2013).'' The 38 self-immolations numbered 52-89 took place in October-
November 2012.
    \87\``Those Who Incite Self-Immolations Must Be Severely Punished 
Under the Law'' [Shandong zifen zhe bijiang shoudao falu yancheng], 
Gansu Daily, 3 December 12 (translated in Dui Hua Human Rights Journal, 
5 December 12); Dui Hua Foundation, ``China Outlines Criminal 
Punishments for Tibetan Self-Immolations,'' Dui Hua Human Rights 
Journal, 5 December 12; ``Official Opinion Urges Criminal Prosecution 
of Persons Linked to Self-Immolations,'' Congressional-Executive 
Commission on China, 18 January 13.
    \88\``Those Who Incite Self-Immolations Must Be Severely Punished 
Under the Law'' [Shandong zifen zhe bijiang shoudao falu yancheng], 
Gansu Daily, 3 December 12 (translated in Dui Hua Human Rights Journal, 
5 December 12); Dui Hua Foundation, ``China Outlines Criminal 
Punishments for Tibetan Self-Immolations,'' Dui Hua Human Rights 
Journal, 5 December 12; ``Official Opinion Urges Criminal Prosecution 
of Persons Linked to Self-Immolations,'' Congressional-Executive 
Commission on China, 18 January 13. According to the Dui Hua 
translation, the specific language in the Opinion warns that, ``Anyone 
who summons a group to mourn or collect funds for a self-immolator 
shall be prevented from doing so in accordance with the law.'' Based on 
Commission monitoring, since self-immolators generally are deceased, 
the collected donations are for self-immolators' survivors. For an 
example of such a case, see the Commission's Political Prisoner 
Database record 2013-00076 on Gyadehor. For more information on the 
case, see Cao Kai and Wang Daqian, ``Sentence Announced at First Trial 
of Gyadehor of Huangnan in Qinghai Over Inciting Secession'' [Qinghai 
huangnan jiadehe shandong fenlie guojia an--shen xuanpan], Qinghai 
Daily, 8 February 13 (translated in Open Source Center, 11 February 
13).
    \89\``Zhu Weiqun Talks About Dalai and Other Issues With EU 
Officials, Scholars, and Reporters'' [Zhu weiqun yu oumeng guanyuan, 
xuezhe, jizhe tan dalai deng wenti], China Tibet Online, 29 December 11 
(translated in Open Source Center, 12 January 12). According to the 
report, then United Front Work Department Executive Deputy Head Zhu 
Weiqun told a gathering in Brussels that included European Union 
officials, ``The self-immolation incidents occurred at four 
monasteries; Tibet and other Tibetan-inhabited areas have a total of 
3,542 temples and monasteries, with 140,000 clergy; therefore the Dalai 
clique's claim that the entire Tibetan-inhabited areas `were on fire' 
was entirely groundless . . . .''
    \90\National Bureau of Statistics, Department of Population and 
Employment Statistics, Population Census Office Under the State 
Council, Tabulation on the 2010 Population Census of the People's 
Republic of China, 23 April 13, Table 2-1, ``Population by Age, Sex, 
and Nationality.'' The table listed the total Tibetan population as 
6,282,187.
    \91\``Gansu's Gannan Official: 18 Self-Immolation Cases Cracked'' 
[Gansu gannan guanyuan: pohuo 18 qi zifen anjian], China News Service, 
23 January 13 (translated in Open Source Center, 26 January 13) (``Of . 
. . 21 cases, 18 have been cracked, five cases . . . transferred to the 
court . . ., 16 people . . . arrested.''); ``70 Arrested in Qinghai 
Over Self-Immolations,'' Xinhua, 8 February 13, reprinted in China 
Daily (``Seventy suspects . . . arrested in Huangnan . . . in 
connection with . . . self-immolations . . . since November).
    \92\``Tibetan Villager Self-Immolates in NW China,'' Xinhua, 
reprinted in China Daily, 23 October 12; ``China Sentences Another 6 
Tibetans Over Self-Immolation,'' Xinhua, 31 January 13. For more 
information, see the Commission's Political Prisoner Database records 
2013-00068 on Pema Dondrub, 2013-00069 on Kalsang Gyatso, 2013-00070 on 
Pema Tso, 2013-00071 on Lhamo Dondrub, 2013-00072 on Digkar Gyal, and 
2013-00073 on Yangmo Kyi. See also ``Official Opinion Urges Criminal 
Prosecution of Persons Linked to Self-Immolations,'' Congressional-
Executive Commission on China, 18 January 13.
    \93\``China Sentences Another 6 Tibetans Over Self-Immolation,'' 
Xinhua, 31 January 13; International Campaign for Tibet, ``Six Tibetans 
in Gansu Sentenced After Protecting Body of Self-Immolator in 
Aggressive Drive To Criminalize Self-Immolations,'' 4 February 13. For 
more information, see the Commission's Political Prisoner Database 
records 2013-00068 on Pema Dondrub, 2013-00069 on Kalsang Gyatso, 2013-
00070 on Pema Tso, 2013-00071 on Lhamo Dondrub, 2013-00072 on Digkar 
Gyal, and 2013-00073 on Yangmo Kyi. See also ``Official Opinion Urges 
Criminal Prosecution of Persons Linked to Self-Immolations,'' 
Congressional-Executive Commission on China, 18 January 13.
    \94\The case is unusual because the person convicted of intentional 
homicide, Phagpa, allegedly discussed the subject of self-immolation 
twice (June and July 2012) with a person who, on November 19, 2012, 
decided not to self-immolate. ``First Instance Verdict in Qinghai 
Combined Case of Intentional Homicide and Incitement to Separatism'' 
[Qinghai yiqi guyi sharen, shandong fenlie guojia an yishen xuanpan], 
Xinhua, 8 February 13; Wang Huazhong, ``Man Gets 13 Years Over Inciting 
Self-Immolation,'' China Daily, 8 February 13; Cao Kai and Wang Daqian, 
``Xinhua Insight: Tibetan Self-Immolation Instigator Contrite,'' 
Xinhua, 8 February 13; ``China Focus: Police Reveal Fraud Behind Self-
Immolations in NW China,'' Xinhua, 7 February 13; ``China Begins Self-
Immolation Trial, Makes More Arrests,'' Phayul, 29 January 13; ``China 
Arrests Tibetan in New Tactic Against Self-Immolation,'' Reuters, 24 
January 13, reprinted in Voice of America. For more information, see 
the Commission's Political Prisoner Database record 2013-00064 on 
Phagpa. See also ``Official Opinion Urges Criminal Prosecution of 
Persons Linked to Self-Immolations,'' Congressional-Executive 
Commission on China, 18 January 13.
    \95\``Nine Tibetans Go on Trial Over Burning Protests,'' Radio Free 
Asia, 28 February 13.
    \96\``China Sentences Three Tibetans for Inciting Self-
Immolations,'' Tibet Express, 1 March 13; ``Three Tibetans Sentenced to 
Long Jail Terms Over Self-Immolation,'' Tibet Post International, 2 
March 13; ``China Sentences Three Tibetans Up to 15 Years for Self-
Immolation `Crimes,''' Phayul, 2 March 13. For more information, see 
the Commission's Political Prisoner Database records 2013-00098 on 
Lhamo Dorje, 2013-00099 on Kalsang Sonam, and 2013-00100 on Tsezung 
Kyab. See also ``Official Opinion Urges Criminal Prosecution of Persons 
Linked to Self-Immolations,'' Congressional-Executive Commission on 
China, 18 January 13.
    \97\Tibetan Centre for Human Rights and Democracy, ``Three Tibetans 
Sentenced to Prison for `Inciting Separatism,''' 20 March 13.
    \98\``Haidong Prefecture Intermediate People's Court Issues 
Sentences in First-Instance Trial for Inciting Splittism'' [Haidong 
diqu zhongji renmin fayuan yishen xuanpan yiqi shandong fenlie guojia 
an], People's Daily, 18 March 13; Dui Hua Foundation, ``Tibetans 
Imprisoned for Text, Images as Immolations Continue,'' Dui Hua Human 
Rights Journal, 21 March 13; Tibetan Centre for Human Rights and 
Democracy, ``Three Tibetans Sentenced to Prison for `Inciting 
Separatism,''' 20 March 13. For more information, see the Commission's 
Political Prisoner Database records 2013-00119 on Jigme Thabkhe, 2013-
00121 on Kalsang Dondrub, and 2013-00122 on Lobsang. See also 
``Official Opinion Urges Criminal Prosecution of Persons Linked to 
Self-Immolations,'' Congressional-Executive Commission on China, 18 
January 13.
    \99\Tibetan Centre for Human Rights and Democracy, ``Five monks 
From Bora Monastery `Missing' After Detention,'' 18 December 12; 
``Monks' Whereabouts Unknown,'' Radio Free Asia, 18 December 12. For 
more information, see the Commission's Political Prisoner Database 
records 2013-00012 on Gedun Gyatso, 2013-00013 on Lobsang Phagpa, 2013-
00015 on Jamyang Zoepa, 2013-00016 on Jamyang Lodroe, and 2013-00017 on 
Jamyang Gyatso. See also ``Official Opinion Urges Criminal Prosecution 
of Persons Linked to Self-Immolations,'' Congressional-Executive 
Commission on China, 18 January 13.
    \100\``More Tibetans Detained,'' Radio Free Asia, 12 December 12; 
``China Arrests Relatives, Friends of Tibetan Self-Immolators,'' 
Phayul, 14 December 12. For more information, see the Commission's 
Political Prisoner Database records 2013-00030 on Tsondru, 2013-00031 
on Chagthab, 2013-00032 on Shawo, 2013-00033 on Choedron, and 2013-
00034 on Rigshe. See also ``Official Opinion Urges Criminal Prosecution 
of Persons Linked to Self-Immolations,'' Congressional-Executive 
Commission on China, 18 January 13.
    \101\``Chinese Authorities Arrest Eight Tibetans for Sharing 
Information of Self-Immolation Protest,'' Phayul, 14 January 13. For 
more information, see the Commission's Political Prisoner Database 
records 2013-00056 on Nyima, 2013-00057 on Lhamo Dondrub, 2013-00058 on 
Dorje Dondrub, 2013-00059 on Kalsang Kyab, 2013-00060 on Kalsang Sonam, 
2013-00061 on Kalsang Namdren, and 2013-00062 on Sonam Kyi. See also 
``Official Opinion Urges Criminal Prosecution of Persons Linked to 
Self-Immolations,'' Congressional-Executive Commission on China, 18 
January 13.
    \102\``Huangnan Prefecture Intermediate People's Court Pronounced 
Sentences in Series of Inciting Secession Cases'' [Huangnan zhou 
zhongji renmin fayuan xuanpan xilie shandong fenlie guojia an], Qinghai 
Daily, 12 April 13; Tibetan Centre for Human Rights and Democracy, 
``China Confirms Sentencing Four Tibetans for `Inciting Separatism,''' 
15 April 13. For more information, see the Commission's Political 
Prisoner Database records 2013-00139 on Choepa Gyal, 2013-00141 on 
Namkha Jam, 2013-00142 on Chagthar, and 2013-00143 on Gonpo. See also 
``Official Opinion Urges Criminal Prosecution of Persons Linked to 
Self-Immolations,'' Congressional-Executive Commission on China, 18 
January 13.
    \103\``Gansu Police Crack Homicide Case of Self-Immolation 
Organized and Masterminded by Members of the `Tibetan Youth Congress' 
of the Dalai Clique'' [Gansu jingfang zhenpo dalai jituan ``zangqing 
hui'' chengyuan zuzhi cehua zifen sharen'an], Xinhua, 15 January 13 
(translated in Open Source Center, 15 January 13; reprinted in Chinese 
on China News Service); ``1st LD Writethru--China Exclusive: Police 
Apprehend 7 Suspected of Inciting Self-Immolation,'' Xinhua, 15 January 
13, reprinted in China Internet Information Center; ``Seven Held After 
Man Set Himself Ablaze,'' Xinhua, 16 January 13, reprinted in China 
Daily. For more information, see the Commission's Political Prisoner 
Database records 2012-00301 on Kalsang Gyatso, 2012-00303 on Tashi 
Gyatso, and 2013-00075 on Gonpo Gyal. See also ``Official Opinion Urges 
Criminal Prosecution of Persons Linked to Self-Immolations,'' 
Congressional-Executive Commission on China, 18 January 13.
    \104\Ibid.
    \105\In addition to the six named Tibetans who officials retained 
in detention, the reports mentioned that three of Konchog Sonam's 
relatives were detained briefly then released, and two unidentified 
persons had been detained. ``Monk, 17, Sets Himself on Fire in 
Sichuan,'' Global Times, 30 July 13 (reports two unnamed monks detained 
and under police investigation); ``Five Tibetans Detained in Connection 
With Self-Immolation,'' Radio Free Asia, 26 July 13 (names five persons 
detained after the self-immolation; three were monks); ``Three Tibetan 
Monks Sentenced to Two and Half Years' Prison in Chamdo, One Arrested 
in Zoege,'' Phayul, 2 August 13 (names one additional monk detained); 
``8 Tibetans Disappeared in Connection With Latest Tibetan Self-
Immolation,'' Tibet Express, 29 July 13 (names eight detained persons 
but does not state that three of them were detained prior to the self-
immolation). For more information on the detention of three monks that 
reportedly may have ``triggered'' monk Konchog Sonam's self-immolation, 
see ``Arbitrary Detention of Tibetans Triggered Latest Tibetan Self-
Immolation,'' Tibet Express, 23 July 13.
    \106\As of September 1, 2013, the Commission's Political Prisoner 
Database (PPD) contained the following 112 records of detention or 
imprisonment linked to self-immolation or the issue of self-immolation 
since August 2012 (arranged in descending chronological order: records 
2013-00142 on Chagthar, 2013-00139 on Choepa Gyal, 2013-00143 on Gonpo, 
2013-00141 on Namkha Jam, 2013-00268 on Palden Yignyen, 2013-00264 on 
Sherab, 2013-00267 on Yonten Gyatso, 2013-00266 on Sanggye Palden, 
2013-00265 on Palden Gyatso, 2013-00263 on Tenzin Gyatso, 2013-00129 on 
Drolma Kyab, 2013-00126 on Tritsan, 2013-00180 on Yijia, 2013-00181 on 
Ruoba, 2013-00077 on Yarphel, 2013-00163 on Samten, 2013-00164 on Tashi 
Gyatso, 2013-00165 on Tenphel Gyalpo, 2013-00166 on Tensang, 2013-00162 
on Tsering Tagchen, 2013-00178 on Jigme, 2013-00119 on Jigme Thabkhe, 
2013-00121 on Kalsang Dondrub, 2013-00171 on Kalsang Dorje, 2013-00099 
on Kalsang Sonam, 2013-00098 on Lhamo Dorje, 2013-00122 on Lobsang, 
2013-00100 on Tsezung Kyab, 2013-00230 on Urgyen Dorje, 2013-00058 on 
Dorje Dondrub, 2013-00059 on Kalsang Kyab, 2013-00061 on Kalsang 
Namdren, 2013-00060 on Kalsang Sonam, 2013-00057 on Lhamo Dondrub, 
2013-00056 on Nyima, 2013-00062 on Sonam Kyi, 2013-00055 on Kalsang 
Samdrub, 2013-00031 on Chagthab, 2013-00033 on Choedron, 2013-00034 on 
Rigshe, 2013-00032 on Shawo, 2013-00030 on Tsondru, 2013-00023 on Tashi 
Sonam, 2012-00344 on Choekyab, 2013-00012 on Gedun Gyatso, 2013-00017 
on Jamyang Gyatso, 2013-00016 on Jamyang Lodroe, 2013-00015 on Jamyang 
Zoepa, 2013-00013 on Lobsang Phagpa, 2008-00580 on Washul Dortrug, 
2013-00101 on Donnu, 2013-00170 on Gobe, 2013-00076 on Gyadehor, 2013-
00064 on Phagpa, 2013-00291 on Shawo Tashi, 2013-00292 on Sobum, 2013-
00004 on Choekyong Kyab, 2013-00006 on Dola Tsering, 2013-00003 on 
Jampa Tsering, 2013-00008 on Kunsang Bum, 2013-00001 on Lhaten, 2013-
00005 on Sanggye Bum, 2013-00007 on Tsering Tashi, 2013-00002 on 
Wanggyal Tsering, 2013-00145 on Gedun Tsultrim, 2013-00144 on Tsondru, 
2012-00346 on Konchog Sonam, 2013-00285 on Tsondru Choeden, 2013-00075 
on Gonpo Gyal, 2013-00097 on Ngawang Tobden, 2012-00303 on Tashi 
Gyatso, 2012-00343 on Phurbu, 2012-00341 on Thubten Nyandrag, 2012-
00342 on Tsewang, 2013-00072 on Digkar Gyal, 2013-00069 on Kalsang 
Gyatso, 2013-00071 on Lhamo Dondrub, 2013-00068 on Pema Dondrub, 2013-
00070 on Pema Tso, 2013-00073 on Yangmo Kyi, 2013-00211 on Pema 
Tsewang, 2012-00300 on Jigme Gyatso, 2012-00301 on Kalsang Gyatso, 
2012-00302 on Konchog Gyatso, 2012-00333 on Losal, 2012-00332 on 
Tobden, 2012-00331 on Tsondru, 2013-00288 on Dorje, 2013-00290 on 
Sonam, 2013-00289 on Tashi Choewang, 2013-00081 on Lobsang Sanggye, 
2012-00275 on Lobsang Jinpa, 2012-00277 on Ngawang Monlam, 2012-00279 
on Sonam Sherab, 2012-00278 on Sonam Yignyen, 2012-00276 on Tsultrim 
Kalsang, 2012-00330 on Lobsang Choephel, 2012-00349 on Lobsang Tsering, 
2012-00282 on Jamyang Khyenko, 2012-00281 on Lobsang Sanggye, 2012-
00280 on Lobsang Palden, 2012-00284 on Lobsang Rabten, 2012-00266 on 
Lobsang Konchog, 2012-00246 on Asong, 2012-00245 on Thubwang Tenzin, 
2012-00261 on Bonkho Kyi, 2012-00262 on Chechog, 2012-00242 on Lobsang 
Sengge, 2012-00244 on Namse, 2012-00243 on Yarphel, 2012-00231 on 
Choephel, and 2012-00232 on Sherab.
    \107\The Political Prisoner Database cases include a range of 
circumstances involving official suspicion or prosecution related to 
activities including: engaging in discussions that officials regard as 
sympathetic toward or supportive of the act of self-immolation; 
association with persons who committed self-immolation or contemplated 
self-immolation; gathering at a self-immolation site; attempting to 
maintain control over a self-immolator's body so that Tibetan Buddhist 
monastics can conduct customary religious rites; participating in a 
memorial gathering or offering condolences to a self-immolator's 
survivors; seeking to intercede with authorities on behalf of someone 
officials regard as associated with a self-immolator or self-
immolation; refusing to support an official account describing a self-
immolator or self-immolation; gathering information on self-
immolations; possessing information on self-immolations; providing 
information on self-immolations to individuals or groups, especially 
those outside of China; and composing or circulating articles, essays, 
poetry, lyrics, etc., that officials regard as supportive or 
sympathetic toward self-immolators or self-immolation.
    \108\See, e.g., Human Rights Watch, ``China: `Benefit the Masses' 
Campaign Surveilling Tibetans,'' 19 June 13. The report cites a 
February 28, 2013, Tibetan-language report in China Tibet News that 
quotes Hao Peng instructing People's Armed Police to ``thoroughly 
ensure no shadows, no gaps, no cracks, not giving hostile forces even 
the slightest opportunity'' [to endanger social stability]. ``Hao Peng 
Attends Meeting Calling on the TAR People's Armed Police To Carry Out 
Their Social Stability Maintenance Duties During the Two National 
Meetings'' [Drag-chas nyen-rtog bod-ljongs dpung-sde rgyal-yongs skyi 
tshogs-`du gnyis ring gi brtan-lhing srung-skyong las-`gan-sgrub rgyu'i 
skul-slong tshogs-chen `tshogs-pa], China Tibet News, 28 February 13.
    \109\For official statements on handling issues and individuals 
linked to self-immolation in two Tibetan autonomous prefectures where 
numerous self-immolations took place, and on rewards offered to 
citizens who provided information to authorities, see, e.g., Human 
Rights Watch, ``Tibetan Immolations, Security Measures Escalate,'' 29 
November 12 (on Huangnan (Malho) Tibetan Autonomous Prefecture (TAP), 
Qinghai province); International Campaign for Tibet, ``Chinese 
Authorities Offer Large Rewards for Information on `Black Hand' Behind 
Tibetan Self-Immolations,'' 24 October 12 (on Gannan (Kanlho) TAP, 
Gansu province).
    \110\See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Monastery Under Siege as Monks Face Expulsion While Another Detained 
for Writing Book on Immolations,'' 19 March 13 (Monk Tritsun went 
``missing'' after the distribution of his book on self-immolations); 
``Tibetan Writer Gartse Jigme Arrested,'' Tibet Express, 10 January 13 
(``in the second volume of his book [The King's Valor] he has written 
on the self immolations, . . .'').
    \111\``Those Who Incite Self-Immolations Must Be Severely Punished 
Under the Law'' [Shandong zifen zhe bijiang shoudao falu yancheng], 
Gannan Daily, 3 December 12, reprinted in Gansu Daily (translated in 
Dui Hua Human Rights Journal, 5 December 12). E.g., the following 
statement in the Gannan Daily article is vague, broad, and threatens 
``severe punishment'': ``In particular, those black hands behind the 
scenes who plan, direct, and incite others to commit self-immolation, 
[have committed] serious, illegal crimes that are extremely inhuman and 
they have violated human society's most basic standards of conscience 
and morality. They must be subject to the law's severe punishment and 
moral condemnation.'' See also Dui Hua Foundation, ``China Outlines 
Criminal Punishments for Tibetan Self-Immolations,'' Dui Hua Human 
Rights Journal, 5 December 12; Human Rights Watch, ``Tibetan 
Immolations, Security Measures Escalate,'' 29 November 12; ``Official 
Opinion Urges Criminal Prosecution of Persons Linked to Self-
Immolations,'' Congressional-Executive Commission on China, 18 January 
13.
    \112\Human Rights Watch, ``China: Alarming New Surveillance, 
Security in Tibet--Restrictions Tightened on Tibetans Despite Lack of 
Threat,'' 20 March 13. ``676 new police-posts established throughout 
Tibet in 2012 as part of the stability maintenance drive . . . 
facilitate coordination of information and operations between the 
security services and the semi-official grid units.'' ``[By] July 2012, 
[the] 676 permanent, street-side `convenience police-posts' (Ch.: bian 
minjing wu zhan) had been set up in towns across the region. These are 
equipped with computers and video technology for computerized checks of 
people passing through on a `case-by-case' basis. Police officers who 
staff the posts are required to be on duty around-the-clock.''
    \113\Ibid. ``Stability maintenance teams and the new street-side 
police-posts are maintaining records of all vehicles entering the city 
or area. In some areas, official media reports said, the new police-
posts are required to keep records of `those going outside the 
locality' and to register each of them individually, . . .''
    \114\Gillian Wong, ``Denied Passport, Tibet Poet Can't Receive US 
Award,'' Associated Press, 8 March 13 (officials prevented Tibetan 
writer Tsering Oezer (Woeser) from traveling to the United States to 
receive an award); International Campaign for Tibet, ``ICT's Bhuchung 
Tsering Highlights Chinese Misguided Policies on Tibet at Capitol Hill 
Event,'' 1 February 13. ICT's then-Vice President of Special Programs 
and subsequent Interim President Bhuchung Tsering said in a prepared 
statement: ``Tibetans are virtually being denied new passports 
currently. Tibetan applicants for passports are subjected to a new 
procedure that is not implemented for Chinese. Worse still, the 
authorities in the Tibet Autonomous Region have in fact been 
confiscating the passports of the few fortunate Tibetans who have them, 
thus denying them their right to travel abroad.''
    \115\Human Rights Watch, ``China: Alarming New Surveillance, 
Security in Tibet--Restrictions Tightened on Tibetans Despite Lack of 
Threat,'' 20 March 13. According to the HRW report: ``The new grid 
system grows out of the nationwide `social stability maintenance' (Ch.: 
weiwen) policy drive, and establishes a new sub-local layer to the 
administrative system in urban and rural areas across China. According 
to one Chinese scholar, the grid system is designed to ensure that 
``information is proactively gathered about people, events, and things 
so as to build up a database of urban components and events . . . 
through which relevant departments and work units can proactively 
uncover problems in a timely manner.''
    \116\Human Rights Watch, ``China: `Benefit the Masses' Campaign 
Surveilling Tibetans,'' 19 June 13. According to the report, teams of 
officials were ``categorizing Tibetans according to their religious and 
political thinking, and establishing institutions to monitor their 
behavior and opinions.''
    \117\See, e.g., Tibetan Centre for Human Rights and Democracy, 
``China Launches Crackdown on Personal Cellphones in Lhasa,'' 11 March 
13. According to the TCHRD report, ``Chinese authorities in the Tibetan 
capital, Lhasa, have now begun implementing a campaign to search 
personal cellphones owned by Tibetans, particularly those in monastic 
institutions.'' See also International Campaign for Tibet, ``Young 
Tibetan Father Self-Immolates in Tsekhog; Officials Warn Tibetans Not 
To Gather at Cremations,'' 19 November 12 (referring to an autonomous 
Tibetan area in Qinghai province: ``a military build-up and 
communications cut-off has been put in place''); Tibetan Centre for 
Human Rights and Democracy, ``China Impose Near-Total Information 
Blockade After Series of Burning Protests,'' 5 November 12 (``near-
total information blockade has been imposed in Kanlho . . . where seven 
Tibetans burned themselves in protest in the past month'').
    \118\Human Rights Watch, ``China: Tibetan Immolations, Security 
Measures Escalate,'' 29 November 12; Human Rights Watch, ``China: 
Alarming New Surveillance, Security in Tibet--Restrictions Tightened on 
Tibetans Despite Lack of Threat,'' 20 March 13. According to the HRW 
report: ``In 2012 Tibetan authorities set up a `TAR Social Stability 
Maintenance Command' in Lhasa, and established `Stability Maintenance 
Work Groups' at every level of the administration, responsible for 
exercising control over online and phone communications.''
    \119\See, e.g., ``Chinese Authorities Destroy Television Viewing 
Equipments in Malho,'' Voice of America, 10 January 13; ``China 
Authorities Seize Satellite Dishes in Labrang, Eastern Tibet,'' Voice 
of America, 25 March 13; Tibetan Centre for Human Rights and Democracy, 
``Crackdown on Satellite Dishes, Broadcast Equipment Deepens in 
Tibet,'' 29 January 13. According to the TCHRD report, ``Chinese 
authorities have now heightened the campaign to eradicate all avenues 
of receiving Tibet-related radio and TV news available on foreign 
channels by issuing a public notice, which announced monetary fines and 
actions for those who fail to surrender banned satellite dishes and 
other broadcast equipment by 27 January 2013.''
    \120\For reports on self-immolations during the Commission's 2013 
year that included a self-immolator's reference to the Dalai Lama 
during the act of self-immolation (in chronological order), see, e.g., 
International Campaign for Tibet, ``Second Tibetan Dies in Less Than a 
Week as Self-Immolations Continue in Tibet,'' 5 October 12 (Yungdrung 
``shouted slogans calling for . . . the return of the Dalai Lama and 
the Karmapa''); ``Tibetan Man Self-Immolates in Nagchu,'' Voice of 
America, 4 October 12 (Gudrub ``shouted slogans calling for . . . 
return of the Tibetan spiritual leader''); ``Third Tibet Self-
Immolation In One Week,'' Voice of America, 6 October 12 (Sanggye 
Gyatso ``shouted for the swift return of the Dalai Lama to Tibet''); 
``Breaking: Tibet Continues To Burn With Another Self-Immolation,'' 
Phayul, 13 October 12 (Tamdrin Dorje ``raised slogans for the return of 
His Holiness the Dalai Lama''); Tibetan Centre for Human Rights and 
Democracy, ```These Chinese Are Not Letting Us Live in Peace. It's 
Better To Die, Better To Die,''' 29 October 12 (Lhamo Kyab ``shouted 
slogans calling for . . . the `return of His Holiness the Dalai 
Lama'''); ``Mass Protest After Fatal Burning,'' Radio Free Asia, 4 
November 12 (Dorje Lhundrub ``called for the return of . . . the Dalai 
Lama''); ``Five Tibetans Self-Immolate,'' Radio Free Asia, 7 November 
12 (Dorje, Samdrub, and Dorje Kyab ``set themselves ablaze in front of 
a police station in Ngaba town, calling for a free Tibet and the return 
of . . . the Dalai Lama''); ``Five Tibetans Self-Immolate,'' Radio Free 
Asia, 7 November 12 (Tamdrin Tso ``died shouting slogans calling for 
the return of the Dalai Lama''); ``6 Tibetans Self-Immolate in Two 
Days,'' Voice of America, 8 November 12 (Kalsang Jinpa ``was reported 
to have raised a white banner with slogans that called for Dalai Lama's 
return''); ``Tibetan Burnings Rise to 70,'' Radio Free Asia, 10 
November 12 (Gonpo Tsering called for ``the return of the Dalai Lama to 
Tibet''); ``Self-Immolations Continue in Rebkong, Two Die in Protest,'' 
Voice of America, 15 November 12 (Tenzin Drolma ``shouted slogans 
calling for return of the Dalai Lama''); ``Two Tibetan Self-Immolaters 
Left Letters Behind,'' Voice of America, 20 November 12 (Chagmo Kyi's 
letter ``called on the new Chinese leader Xi Jinping to meet with the 
Dalai Lama''); International Campaign for Tibet, ``Young Tibetan Father 
Self-Immolates in Tsekhog; Officials Warn Tibetans Not To Gather at 
Cremations,'' 19 November 12 (Sangdrag Tsering ``frequently spoke about 
the Dalai Lama not being allowed to be in Tibet, . . . and that the 
Panchen Lama is still in prison''); ``Tibetan Self-Immolations 
Continue, 25-Year-Old Dies in Protest,'' Voice of America, 19 November 
12 (Wangchen Norbu ``shouted slogans calling for the return of the 
Dalai Lama to Tibet, [and] release of the Panchen Lama''); 
International Campaign for Tibet, ``Three Self-Immolations in Two Days 
as Total in Tibet Reaches 81,'' 24 November 12 (Tamdrin Kyab reportedly 
had said previously there was ``no reason to live without the Dalai 
Lama's return to Tibet''); ``Tibetan Burns, Hails Dalai Lama,'' Radio 
Free Asia, 24 November 12 (Tamdrin Dorje ``could be seen putting his 
hands together in prayer, shouting long life to the Dalai Lama''); 
``17-Year-Old Self-Immolator's Last Note Calls for the Dalai Lama's 
Return and Tibet's Independence,'' Phayul, 28 November 12 (Sanggye 
Drolma left ``a will, written in the form of a poem'' expressing ``her 
belief in the swift return of . . . the Dalai Lama''); ``Father of 
Three Dies After Self-Immolation,'' Voice of America, 26 November 12 
(Gonpo Tsering ``shouted slogans calling for . . . return of the Dalai 
Lama to Tibet''); ``Tibetan Teenager Burns Himself to Death,'' Voice of 
America, 28 November 12 (Sanggye Tashi ``shouted slogans calling for 
return of the Dalai Lama and release of the Panchen Lama''); ``Two 
Tibetans Self-Immolate, Total Reaches 89,'' Voice of America, 29 
November 12 (Bande Khar called for ``the return of the Dalai Lama to 
Tibet''); International Campaign for Tibet, ``Three Tibetans Self-
Immolate in Two Days During Important Buddhist Anniversary: Images of 
Troops in Lhasa as Tibetans Pray,'' 10 December 12 (Pema Dorje shouted 
that the Dalai Lama should be allowed to return to Tibet); Tibetan 
Centre for Human Rights and Democracy, ``Tibetan Religious Festival 
Marked by Two Self-Immolation Death,'' 9 December 12 (Konchog Phelgye 
folded his hands in prayer position and ``shouted slogans for the long 
life of . . . the Dalai Lama and return . . . to Tibet''); ``Tibetan 
Girl Self-Immolates,'' Radio Free Asia, 10 December 12 (Wangchen Kyi, 
or Rinchen Kyi, called ``for the long life of . . . the Dalai Lama''); 
International Campaign for Tibet, ``Authorities Bar Customary Religious 
Rituals To Enforce Quick Cremation of Tibetan Who Self-Immolated in 
Amchok,'' 15 January 13 (video of Tsering Tashi ``depicts him lying on 
the street in flames, lifting his hands into a prayer position and 
saying the name of the Dalai Lama''); ``Breaking: Monk in Ngaba Becomes 
100th To Self-Immolate Under China's Rule,'' Phayul, 13 February 13 
(Lobsang Namgyal, while burning, ``shouted slogans for the long life of 
. . . the Dalai Lama as he ran towards the local police building'').
    \121\For information on two unprecedented developments during the 
Commission's 2012 reporting year, the opening of a new Tibetan Buddhism 
Theological Institute intended to establish an updated ``normal order'' 
for the religion, and on teams of Chinese Communist Party cadres 
dispatched to every monastery and nunnery in the Tibet Autonomous 
Region to take over monastic management, see, e.g., CECC, 2012 Annual 
Report, 10 October 12, 161-62; Chang Chuan, ``Tibet Buddhist 
Theological Institute Is Completed and Open--Pagbalha Geleg Namgyai, 
Qin Yizhi Attend Ceremony, Zhu Weiqun, Hao Peng Speak, Luosang Jiangcun 
Unveils Signboard, Qizhala Presides Over Ceremony, 11th Panchen Erdini 
Qoigyi Gyibo Sends Congratulatory Message'' [Xizang foxue yuan luocheng 
kai yuan pabala gelie langjie qin yizhi chuxi dianli zhu weiqun hao 
peng jianghua luosang jiangcun jiepai--qizhala zhuchi shiyi shi banchan 
e'erdeni--queji jiebu zhi hexin], Tibet Daily, 21 October 11, reprinted 
in China Tibet Information Center (translated in Open Source Center, 26 
October 11) (on the opening of the new Tibetan Buddhism Theological 
Institute intended to establish an updated ``normal order'' for the 
religion); Zou Le, ``Committees To Ensure Stability in Tibet's 
Monasteries,'' Global Times, 15 February 12 (``A [Monastery Management 
Committee] has been established in every monastery in the Tibet 
Autonomous Region''); Li Chengye, ``Regionwide Video-Teleconference on 
Stability Maintenance and Comprehensive Public Order Management by 
Public Security, Procuratorial, and Judicial Departments Emphasizes 
Need To Create New Situation in Regional Harmony and Stability and To 
Usher in Triumphant Opening of 18th CPC National Congress With 
Outstanding Achievements; Chen Quanguo, Hao Peng Deliver Speeches; 
Baima Chilin, Wu Yingjie, Gongbao Zhaxi, Qizhala, Deng Xiaogang Attend 
Meeting; Luosang Jiangcun Presides Over Meeting; Luobu Dunzhu Attends 
Meeting at Chamdo Branch Conference Hall'' [Quan qu zhengfa wei wen 
zong zhi gongzuo dianshi dianhua huiyi qiangdiao--nuli kaichuang quan 
qu hexie wending de xin jumian--yi youyi chengji yingjie dang de 18 
dasheng shengli zhaokai--chen quanguo hao peng jianghua baima chilin wu 
yingjie gongbao zhaxi qizhala deng xiaogang chuxi luosang jiangcun 
zhuchi luobu dunzhu chuxi changdu fenhuichang huiyi], Tibet Daily, 5 
January 12, reprinted in China Tibet Information Center (translated in 
Open Source Center, 16 January 12) (Chen Quanguo instructed government 
officials and Party cadres to ``strengthen and innovate management of 
temples and monasteries by making it a key feature to routinely station 
cadres in temples and monasteries''); Li Chengye, ``Chen Quanguo Gives 
Important Instructions on Further Improving the Work of Cadre Presence 
in Monasteries: Let Monks and Nuns Who Love Their Country and Their 
Religion Experience the Solicitude and Loving Care of Party and 
Government and Consciously Make Greater Contributions to the Building 
of Harmonious Tibet and Peaceful Tibet,'' Tibet Daily, 2 February 12, 
reprinted in China Tibet Online (translated in Open Source Center, 10 
February 12) (Chen said, ``The numerous comrades of the task forces for 
cadre presence in monasteries and the monastery management committees 
should build on their achievements and keep up their good work; . . 
.''). For background on self-immolations and measures repressing 
Tibetans' freedom of religion, see CECC, ``Special Report: Tibetan 
Monastic Self-Immolations Appear To Correlate With Increasing 
Repression of Freedom of Religion,'' 24 January 12.
    \122\See, e.g., State Administration for Religious Affairs, 
Measures for Evaluating the Credentials of and Appointing Monastic 
Teachers in Tibetan Buddhism [Zangchuan fojiao simiao jing shi zige 
pingding he pinren banfa], passed 25 November 12, effective 3 December 
12.
    \123\For recent CECC reporting and analysis on established 
repressive policies toward the Tibetan Buddhist religion and 
institution, see, e.g., CECC, 2012 Annual Report, 10 October 12, 161-
63; CECC, 2011 Annual Report, 10 October 11, 208-12; CECC, 2010 Annual 
Report, 10 October 10, 220-22; CECC, ``Special Report: Tibetan Monastic 
Self-Immolations Appear To Correlate With Increasing Repression of 
Freedom of Religion,'' 24 January 12; ``Tibetan Buddhist Affairs 
Regulations Taking Effect in Tibetan Autonomous Prefectures,'' 
Congressional-Executive Commission on China, 10 March 11.
    \124\See, e.g., State Administration for Religious Affairs, 
Measures for Evaluating the Credentials of and Appointing Monastic 
Teachers in Tibetan Buddhism [Zangchuan fojiao simiao jing shi zige 
pingding he pinren banfa], passed 25 November 12, effective 3 December 
12, art. 11(3) (``educate and guide monks and nuns on . . . upholding 
the monastery's normal order''); Chen Feiyu, ```Five Continued 
Focuses,' Realize Greater Development (Under Guidance of Scientific 
Development Concept)--Interview With Tibet CPC Secretary Chen Quanguo'' 
[``Wu ge jixu zhuoli'' shixian geng da fazhan (zai kexue fazhan guan 
zhiyin xia)--fang xizang zizhiqu dangwei shuji chen quanguo], People's 
Daily, 4 September 12 (translated in Open Source Center, 21 September 
12) (``[W]ith safeguarding the normal order of Tibetan Buddhism as the 
basic goal, we have administered religious affairs in accordance with 
laws and regulations.'').
    \125\International Campaign for Tibet, ``New Challenges to Tibet 
Policy From Inside China,'' 27 June 13. According to the report, 
unofficial sources described meetings that reportedly took place in 
June at three locations, at least of one of which was a monastery, in 
Hainan (Tsolho) Tibetan Autonomous Prefecture and in Xining city, the 
Qinghai province capital, as advising: ``In terms of religion, the 14th 
Dalai Lama can be revered, respected and followed. However, in terms of 
politics, he cannot be followed; religion and politics need to be 
separated.''
    \126\Ibid. ICT provided a translation of the Asia Weekly article 
and provided citation information: Shuo Jiming, ``Beijing Expert: 
Resume Negotiations To Resolve the Tibet Issue,'' Asia Weekly, Vol. 27, 
No. 22 (June 2013).
    \127\``Chinese Official Says No Softening in Communist Party 
Struggle Against Dalai Lama Supporters,'' Associated Press, 9 July 13, 
reprinted in Star Tribune; ``New Crackdown by China on Dalai Lama 
Photos,'' Radio Free Asia, 22 July 13; International Campaign for 
Tibet, ``Discussions on Anti-Dalai Lama Policy Shut Down in Qinghai; 
Kalachakra in Tsolho Cancelled,'' 24 July 13 (includes a translation of 
an official notice titled, ``Notice Regarding Not Listening to 
Rumors''); ``China Denies Lifting Ban on Dalai Lama Worship,'' BBC, 28 
June 13. See also ``Top Political Advisor Stresses Stability in Tibetan 
Region,'' Xinhua, 9 July 13.
    \128\International Campaign for Tibet, ``Discussions on Anti-Dalai 
Lama Policy Shut Down in Qinghai; Kalachakra in Tsolho Cancelled,'' 24 
July 13.
    \129\``List of Members of Standing Committee of Political Bureau of 
18th CPC Central Committee,'' Xinhua, 15 November 12.
    \130\Zhong Yongyong, ``Chinese Communist Party 18th Central 
Committee,'' Chinese Communist Party 18th Central Committee, reprinted 
in Sina (blog), 18 April 13. In addition to the posts of member of the 
Standing Committee of the Political Bureau of the Chinese Communist 
Party and Head of the Central Committee Coordinating Group for Tibet 
Affairs, Yu Zhengsheng is a Deputy Head of the Central Committee 
Coordinating Group for Taiwan Affairs. ``Yu Zhengsheng--Chairman of 
National Committee of Chinese People's Political Consultative 
Conference,'' Xinhua, 11 March 13. Yu also holds the post of Chairman 
of the Chinese People's Political Consultative Committee.
    \131\International Campaign for Tibet, ``Discussions on Anti-Dalai 
Lama Policy Shut Down in Qinghai; Kalachakra in Tsolho Cancelled,'' 24 
July 13; ``Top Political Advisor Stresses Stability in Tibetan 
Region,'' Xinhua, 9 July 13. According to the Xinhua article, Yu 
Zhengsheng visited Gannan (Kanlho) Tibetan Autonomous Prefecture, Gansu 
province, on or shortly before July 9, 2013; apparently on the same 
trip, Yu stated, ``Only when the Dalai Lama publicly announces that 
Tibet is an inalienable part of China since ancient time, gives up the 
stance of `Tibet independence' and stops his secessionist activities, 
can his relations with the CPC Central Committee possibly be 
improved.''
    \132\International Campaign for Tibet, ``Discussions on Anti-Dalai 
Lama Policy Shut Down in Qinghai; Kalachakra in Tsolho Cancelled,'' 24 
July 13.
    \133\The following reports include images: International Campaign 
for Tibet, ``Shooting in Tawu on Dalai Lama's Birthday: Update,'' 26 
July 13; Tibetan Centre for Human Rights and Democracy, ``More Injured 
by Gunshots Than Earlier Reported in Tawu,'' 17 July 13.
    \134\International Campaign for Tibet, ``Shooting in Tawu on Dalai 
Lama's Birthday: Update,'' 26 July 13 (``opened fire . . . injuring at 
least ten people''; ``wounds apparently caused by shooting or using 
some form of riot control devices''; ``[a]t least 16 Tibetans were 
tortured and beaten''); Tibetan Centre for Human Rights and Democracy, 
``More Injured by Gunshots Than Earlier Reported in Tawu,'' 17 July 13 
(``14 have sustained gunshot wounds'').
    \135\Teachers over the age of 50 are exempt from periodic 
reassessment and reappointment if authorities deem them to satisfy 
requirements under Article 4 on, among other things, patriotism toward 
China, upholding Party leadership and the socialist system, obeying 
monastic management groups, and accepting supervision by Buddhist 
associations and government departments. State Administration for 
Religious Affairs, Measures for Evaluating the Credentials of and 
Appointing Monastic Teachers in Tibetan Buddhism [Zangchuan fojiao 
simiao jing shi zige pingding he pinren banfa], passed 25 November 12, 
effective 3 December 12, arts. 4, 5(3), 10.
    \136\State Administration for Religious Affairs, Measures for 
Evaluating the Credentials of and Appointing Monastic Teachers in 
Tibetan Buddhism [Zangchuan fojiao simiao jing shi zige pingding he 
pinren banfa], passed 25 November 12, effective 3 December 12, art. 10.
    \137\Older legal measures acknowledge the role of the Party in 
Buddhist associations. See, e.g., Tibet Autonomous Region People's 
Government, Tibet Autonomous Region Temporary Measures on the 
Management of Religious Affairs [Xizang zizhiqu zongjiao shiwu guanli 
zanxing banfa], passed 9 December 91, effective 20 December 91, art. 
15. The measures state, ``The Buddhist Association is a . . . bridge 
for the Party and government to unite and educate personages from 
religious circles and the believing masses. Its effectiveness shall be 
vigorously brought into play under the administrative leadership of the 
government's religious affairs department.''
    \138\State Administration for Religious Affairs, Measures for 
Evaluating the Credentials of and Appointing Monastic Teachers in 
Tibetan Buddhism [Zangchuan fojiao simiao jing shi zige pingding he 
pinren banfa], passed 25 November 12, effective 3 December 12, art. 
5(3).
    \139\Ibid., art. 4(2) (``love the nation and love religion'').
    \140\Ibid., art. 4(2) (``Uphold the leadership of the Chinese 
Communist Party and the socialist system, . . .'').
    \141\Ibid., art. 4(3) (``accept the guidance and supervision of the 
religious affairs departments and Buddhist Associations under the 
People's Government in the monastery's locale'').
    \142\Ibid., art. 10.
    \143\Ibid., art. 14.
    \144\``List of Autonomous Region's Harmonious Model Monasteries and 
Patriotic Law-Abiding Advanced Monks and Nuns,'' Tibet Daily, 3 May 12, 
reprinted in China Tibet News; Liu Xiangrui and Daqiong, ``Tibetan 
Monasteries Cited for Contributions to Harmony,'' China Daily, 20 April 
12.
    \145\Li Hualing, ``Tibetan Monks and Nuns Say That Patriotism Is 
the Precondition for the Development of Tibetan Buddhism'' [Xizang 
sengni: aiguo shi zangchuan fojiao fazhan de xianjue tiaojian], Xinhua, 
28 December 12 (translated in Open Source Center, 5 January 13).
    \146\Ibid.
    \147\See, e.g., Wu Bin, ``Qiang Wei Conducts Fact-Finding on 
Safeguarding Stability in Hualong County, Emphasizes Need To 
Consolidate Achievements in Ad Hoc Struggle Against Self-Immolation--
Create a Good Social Environment for Promoting Construction and 
Development'' [Qiang wei zai hualong xian diaoyan weihu wending gongzuo 
shi qiangdiao gonggu fan zifen zhuanxiang douzheng chengguo--wei zhua 
jianshe cu fazhan yingzao lianghao de shehui huanjing], Qinghai Daily, 
2 March 13 (translated in Open Source Center, 7 March 13). According to 
the report, while on an inspection visit to Hualong county, Haidong 
prefecture, Qinghai province, Party Secretary Qiang Wei expressed 
``hope'' to Jakhyung Monastery monks that they would ``strengthen 
monastery management and legal system education for the monks, actively 
cooperate with the Party and the government in all work, and safeguard 
social harmony and stability.''
    \148\As of September 1, 2013, the Commission had not observed any 
followup report on when or whether the senior monastic officials were 
able to return to their Lhasa monastic institutions. Media and advocacy 
groups sometimes use the term ``political education'' or ``patriotic 
education'' to describe compulsory classes that Chinese state-run media 
and officials refer to using the more recent term, ``legal education.'' 
See ``Fears of New Crackdown on Monks,'' Radio Free Asia, 30 January 13 
(reports total of 14; names 14); ``Senior Monks of Sera, Drepung, 
Ganden Disappeared,'' Phayul, 30 January 13 (reports total of 16; names 
14). For more information, see the Commission's Political Prisoner 
Database records 2013-00147 on Jampal Lhagsam, 2013-00148 on Ngawang, 
2013-00149 on Ngawang Donden, 2013-00150 on Ngawang Palsang, 2013-00151 
on Ngawang Samten, 2013-00152 on Migmar, 2013-00153 on Samten, 2013-
00154 on Ngawang Lodroe, 2013-00155 on Tashi Gyaltsen, 2013-00156 on 
Kalden, 2013-00157 on Lobsang Ngodrub, 2013-00158 on Tseten Dorje, 
2013-00159 on Lhundrub Yarphel, and 2013-00160 on Ngawang Lophel.
    \149\For reports providing specific detail on self-immolators' 
reference to Tibetan language or culture (in chronological order), see, 
e.g., ``Third Tibet Self-Immolation in One Week,'' Voice of America, 6 
October 12 (Sanggye Gyatso ``shouted for the swift return of the Dalai 
Lama to Tibet and called for religious and language rights''); 
``Tibetan Burnings Rise to 70,'' Radio Free Asia, 10 November 12 (Gonpo 
Tsering called for ``freedom for Tibetans, the return of the Dalai Lama 
to Tibet and freedom of languages''); ``Two Tibetan Self-Immolaters 
Left Letters Behind,'' Voice of America, 20 November 12 (Nyingkar Tashi 
left a letter that ``urged unification of all Tibetans and urged 
Tibetans to learn and speak Tibetan, and called for freedom for 
Tibet''); ``Two Tibetans Self-Immolate, Total Reaches 89,'' Voice of 
America, 29 November 12 (Bande Khar called for ``the return of the 
Dalai Lama to Tibet, the release of all Tibetan political prisoners, 
freedom of religion and language and protection of Tibet's fragile 
environment''); ```Without Independence Tibet Will Be Annihilated,' a 
Self-Immolator's Last Words,'' Phayul, 9 May 13 (Phagmo Dondrub 
allegedly told friends shortly before he self-immolated that 
``authorities have restricted studying Tibetan language . . . and all 
teachers have been expelled . . . I am really sad now'').
    \150\China Directory 2011, ed. Radiopress (Kawasaki: RP Printing 
Co., 2010), 17, 27. Zhu Weiqun, who retired from the Communist Party 
Central Committee at the October 2012 18th National Congress of the 
Chinese Communist Party, held positions as Executive Deputy Head of the 
Party's United Front Work Department and Director of the Party's 
General Office of the Central Coordinating Group for Tibet Affairs. 
``Official: Dalai Lama `Stubborn in Talks, Not True to His Word,''' 
Xinhua, 26 March 09, reprinted in People's Daily. According to the 
article, ``Zhu has been dealing with Tibet-related issues since 1998 
and has been personally involved in all the contacts and talks with the 
Dalai Lama side since 2003.''
    \151\Zhu Weiqun, ``Some Thoughts on Existing Problems in the Field 
of Nationalities'' [Dui dangqian minzu lingyu wenti de jidian sikao], 
Study Times, 13 February 12 (translated in Open Source Center, 20 
February 12). Zhu stated: ``If assimilation is the natural amalgamation 
of all nationalities to move toward prosperity, that would be 
progressive. . . . In China's history, some nationalities have been 
constantly amalgamated and some new nationalities have constantly 
emerged; this is a universal and regular phenomenon.''
    \152\Ibid., (``promoting desegregated education for students of 
different nationalities''). Zhu states in the article: ``Now some of 
our educational and administrative measures have, by accident or 
design, weakened the education on the sense of nationhood and 
identification with the Chinese Nation.''
    \153\Ibid. Zhu stated: ``Whether from the perspective of benefiting 
the development and progress of minority nationalities, or from the 
perspective of benefiting the Chinese Nation's unanimity, it is 
imperative to popularize the state's common spoken and written 
languages without fail.''
    \154\Office of the Spokesperson, U.S. Department of State, 
``Statement by Special Coordinator for Tibetan Issues Maria Otero,'' 5 
December 12. As of the statement date, Maria Otero also served as Under 
Secretary of State for Civilian Security, Democracy, and Human Rights.
    \155\For information on previous large-scale Tibetan student 
protests in Qinghai in March 2012 and October 2010 against policy 
changes that students reportedly believed would reduce the status and 
use of Tibetan language, see CECC, 2012 Annual Report, 10 October 12, 
164; CECC, 2011 Annual Report, 10 October 11, 214-16.
    \156\The following reports refer to a November 26, 2012, tertiary 
student protest in Gonghe (Chabcha) county, the capital of Hainan 
(Tsolho) Tibetan Autonomous Prefecture, Qinghai province. ``More Than 
1000 Chabcha Students Protest Chinese Authorities,'' Voice of America, 
26 November 12. According to VOA, ``[m]ore than 1000 Chabcha Tibetan 
Medical School students'' chanted ``slogans for equality of 
nationalities, freedom of language, respect for truth and establishment 
of new governance.'' ``Tibetan Student Protesters Held,'' Radio Free 
Asia, 27 November 12. According to RFA, citing local residents, the 
students protested ``over the release of an official Chinese booklet 
which ridiculed the Tibetan language as irrelevant and condemned the 
series of self-immolation protests against Beijing's rule as acts of 
`stupidity.'''
    \157\The following report refers to a November 28, 2012, tertiary 
student protest in Gonghe county, Hainan TAP. ``Tibetan Student 
Protests Spread,'' Radio Free Asia, 28 November 12. According to the 
report, citing a source, ``Students from the Tsolho Technical School in 
Chabcha (in Chinese, Gonghe) . . . stormed out of their campus and 
shouted for `freedom' and `Tibetan language rights' in front of the 
prefecture government center.''
    \158\``More Than 1000 Chabcha Students Protest Chinese 
Authorities,'' Voice of America, 26 November 12. Referring to the 
November 26 protest, VOA stated, ``The protest appears to be a direct 
response to a 10-point leaflet distributed to students by the local 
authorities. The leaflet was perceived to be derogatory towards the 
individuals who have carried out self-immolation protests and against 
use of Tibetan language.'' Tibetan Centre for Human Rights and 
Democracy, ``China Alienates, Angers Tibetan Students With Political 
Education,'' 29 November 12. According to TCHRD, the booklet, on page 
48, apparently set aside the notion that ``bilingual education caused 
the decline of minority language,'' and stated that promoting and 
implementing bilingual education policy in ethnic minority areas is of 
``long-term significance for the Chinese Communist Party and the 
Chinese nation.''
    \159\For information on China's ``bilingual education'' policy for 
ethnic minority groups such as Tibetans and Uyghurs, see, e.g., CECC, 
2012 Annual Report, 10 October 12, 152-53, 164; CECC, 2011 Annual 
Report, 10 October 11, 48, 201-2, 214-15; CECC, 2010 Annual Report, 10 
October 10, 208-9; CECC, 2009 Annual Report, 10 October 09, 244, 258-
61. See also International Campaign for Tibet, ``Thousands of Tibetan 
Pilgrims Face Troops at Religious Ceremonies in Eastern Tibet,'' 8 
March 13; Tibetan Centre for Human Rights and Democracy, ``China Calls 
for Bilingual Policy, Crackdown on Immolations,'' 15 March 13.
    \160\Tibetan Centre for Human Rights and Democracy, ``China 
Alienates, Angers Tibetan Students With Political Education,'' 29 
November 12. TCHRD attributes the remark to Chapter Four on bilingual 
education.
    \161\International Campaign for Tibet, ``Young Tibetans Sentenced 
to Five-Year Prison Terms After Chabcha Student Protests,'' 12 December 
12; ``Mass Tibetan Student Protest,'' Radio Free Asia, 9 November 12. 
According to the ICT report, middle and high school students in Tongren 
(Rebgong), Huangnan (Malho) TAP, reportedly called for, among other 
things, ``equality of nationalities and freedom of languages.''
    \162\Reports referred to the school by different names; it was not 
clear whether students from more than one institution participated in 
the protest. ``Gonghe County People's Court Pronounces Sentences for 
`11.26' Illegal Assembly Case'' [Gonghe xian renmin fayuan xuanpan 
``11-26'' feifa youxing shiwei an], Xining Evening News, 17 April 13, 
reprinted in Qinghai News Agency (Hainan Vocational and Technical 
School); Tibetan Centre for Human Rights and Democracy, ``Chabcha 
Student Protesters Sentenced Up to Four Years,'' 17 April 13 (Hainan 
[Tsolho] Vocational School); International Campaign for Tibet, 
``Tibetan Student Detentions After Protests in Chabcha, Rebkong,'' 19 
December 12 (Hainan [Tsolho] Professional Training School); ``More Than 
1000 Chabcha Students Protest Chinese Authorities,'' Voice of America, 
26 November 12 (Gonghe [Chabcha] Medical School); ``More Tibetans 
Detained,'' Radio Free Asia, 12 December 12 (Hainan [Tsolho] Medical 
Institute).
    \163\For more information on the eight students and their 
sentences, see the following in the Commission's Political Prisoner 
Database: Records 2013-00001 on Lhaten (3 years and 6 months); 2013-
00002 on Wanggyal Tsering (3 years and 3 months); 2013-00003 on Jampa 
Tsering (3 years and 6 months); 2013-00004 on Choekyong Kyab (3 years 
and 3 months); 2013-00005 on Sanggye Bum (4 years); 2013-00006 on Dola 
Tsering (3 years); 2013-00007 on Tsering Tashi (3 years); and 2013-
00008 on Kunsang Bum (3 years and 6 months).
    \164\PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 296 (``an 
assembly, a procession or a demonstration is held with no application 
made in accordance with the provisions of law . . . .'').
    \165\Tibetan Centre for Human Rights and Democracy, ``Chabcha 
Student Protesters Sentenced Up to Four Years,'' 17 April 13 (students 
reportedly also resented the booklet's ``propaganda attacks against 
self-immolation protests''); ``Gonghe County People's Court Holds Trial 
for `11.26' Illegal Assembly'' [Gung-ho rdzong mi-dmang khrims-gang gos 
``11-26'' krims-'gal-gyi khrom-skor-byed pa'i gyod-don `dri-gcod byas-
pa], China Tibet Network, 17 April 13; ``Gonghe County People's Court 
Pronounces Sentences for `11.26' Illegal Assembly Case'' [Gonghe xian 
renmin fayuan xuanpan ``11-26'' feifa youxing shiwei an], Xining 
Evening News, 17 April 13, reprinted in Qinghai News Agency.
    \166\``More Tibetans Detained,'' Radio Free Asia, 12 December 12.
    \167\International Campaign for Tibet, ``Tibetan Student Detentions 
After Protests in Chabcha, Rebkong,'' 19 December 12 (``the pamphlet 
includes an incoherent diatribe on the Tibetan self-immolation 
protests, which are equated to `terrorist acts'''); Tibetan Centre for 
Human Rights and Democracy, ``China Alienates, Angers Tibetan Students 
With Political Education,'' 29 November 12 (the booklet stated that 
self-immolations ``are [the] same as other violent and terrorist 
acts'').
    \168\``Tibetan Student Leader Jailed, Nuns Released,'' Radio Free 
Asia, 12 June 13. For more information, see the Commission's Political 
Prisoner Database record 2013-00207 on Wangchug Dorje.
    \169\``Push To Preserve the Tibetan Language in China,'' Radio Free 
Asia, 25 February 13. According to the RFA report, Tibetans in Guoluo 
(Golog) Tibetan Autonomous Prefecture, Qinghai province, gathered on 
February 21 in front of a portrait of the Dalai Lama and read poems on 
the importance of protecting the Tibetan language. See United Nations, 
``International Mother Language Day: 21 February,'' last visited 9 May 
13. According to the UN Web site, the United Nations Educational, 
Scientific, and Cultural Organization (UNESCO) established 
International Mother Language Day in November 1999 in order ``to 
promote the preservation and protection of all languages used by 
peoples of the world.'' International Mother Language Day has been 
observed on February 21 since 2000.
    \170\``Push To Preserve the Tibetan Language in China,'' Radio Free 
Asia, 25 February 13. According to the report, the posters appeared in 
Luqu (Luchu) county, Gannan (Kanlho) Tibetan Autonomous Prefecture, 
Gansu province.
    \171\``Tibetan Language Classes Closed,'' Radio Free Asia, 10 
January 13. According to the report, authorities in a township in 
Songpan (Zungchu) county, Aba (Ngaba) Tibetan and Qiang Autonomous 
Prefecture, Sichuan province, banned the classes, which were underway 
during the winter school break.
    \172\``No Local Residents, Monks, Nuns Self-Immolate in Tibet: 
Official,'' Xinhua, 3 March 13 (Pema Choling, Chairman of the Standing 
Committee of the Tibet Autonomous Region People's Congress, said, 
``Developing economy, improving people's well-being, and building a 
sound education is key to overall development of Tibet.''); Chen 
Quanguo, ``Firmly and Unswervingly Take the Road of Development With 
Chinese and Tibetan Characteristics, and Struggle in Unity To Achieve 
Development by Leaps and Bounds and Long-Term Stability and Security'' 
[Jianding buyi zou you zhongguo tese xizang tedian fazhan luzi--wei 
shixian kuayueshi fazhan he changzhijiuan er tuanjie dou], Tibet Daily, 
18 November 11, reprinted in China Tibet Information Center (translated 
in Open Source Center, 4 December 11) (TAR Party Secretary Chen Quanguo 
described development as ``the foundation on which to resolve all of 
Tibet's problems.'').
    \173\See, e.g., ``Tibetans Detained for Protesting Destruction of 
Their Homes,'' Radio Free Asia, 11 April 13. For more information on 
earthquake-related property protests in Kyegudo (``Jiegu''), see CECC, 
2011 Annual Report, 10 October 11, 218-19. For information on self-
immolations carried out as property protests in Kyegudo (``Jiegu''), 
see, e.g., ``Tibetan Evictee Self-Immolates,'' Radio Free Asia, 4 April 
13 (on the non-fatal, late-March 2013 self-immolation of an 
unidentified female); ``A Tibetan Woman's Self Immolation Known,'' 
Tibet Express, 4 January 13 (on the September 13, 2012, non-fatal 
property protest by Pasang Lhamo); ``Land Seizure Protests in Keygudo 
Prompts Self-Immolation,'' Phayul, 4 July 12 (on the June 27, 2012, 
non-fatal property protest of female Dekyi Choezom).
    \174\See, e.g., ``Threat To Destroy Chinese Abattoir,'' Radio Free 
Asia, 1 February 13 (Tibetans in Mangkang (Markham) county, Changdu 
(Chamdo) prefecture, TAR, ``threatened to destroy a Chinese-operated 
slaughterhouse polluting local sources of drinking water after 
authorities ignored their petitions to shut it down''); ``Mine Ruins 
River, Destroys Farms,'' Radio Free Asia, 18 January 13 (``Chinese 
mining operations'' in Linzhou (Lhundrub) county, Lhasa municipality, 
TAR, were ``destroying farmers' fields and forcing herders to move away 
from traditional grazing areas'').
    \175\``Two Tibetans Self-Immolate, Total Reaches 89,'' Voice of 
America, 29 November 12 (Bande Khar called for ``the return of the 
Dalai Lama to Tibet, the release of all Tibetan political prisoners, 
freedom of religion and language and protection of Tibet's fragile 
environment'').
    \176\``Political Bureau Done Mapping Out New General Strategy for 
Governing Tibet'' [Zhengzhiju mouding zhizang xin fanglue], China News 
Service, 10 January 10 (translated in Open Source Center, 10 January 
10); ``The CPC Central Committee and the State Council Hold the Fifth 
Tibet Work Forum; Hu Jintao and Wen Jiabao Deliver Important 
Speeches,'' Xinhua, 22 January 10 (translated in Open Source Center, 24 
January 10). See also CECC, 2010 Annual Report, 10 October 10, 215-19; 
``Communist Party Leadership Outlines 2010-2020 `Tibet Work' Priorities 
at `Fifth Forum,''' CECC China Human Rights and Rule of Law Update, No. 
3, 16 March 10, 2.
    \177\``Political Bureau Done Mapping Out New General Strategy for 
Governing Tibet'' [Zhengzhiju mouding zhizang xin fanglue], China News 
Service, 10 January 10 (translated in Open Source Center, 10 January 
10) (``adherence to a development path with Chinese characteristics 
[tese] and Tibetan traits [tedian]'').
    \178\See, e.g., Liu Sha, ``Investment in Western China Tripled in 
2012,'' Global Times, 21 December 12 (``western development strategy, a 
policy adopted in 2000 by the State Council''); Li Dezhu, ``Large-Scale 
Development of Western China and China's Nationality Problem,'' Seeking 
Truth, 1 June 00 (Open Source Center, 15 June 00) (Li Dezhu [Li Dek Su] 
addresses the social and ethnic implications of the program that Jiang 
Zemin launched in 1999); ``Premier Wen Says China Will Continue 
Developing Western Region,'' Xinhua, 16 October 09 (Premier Wen Jiabao 
stated China ``would unswervingly stick to the West Development 
Strategy adopted in 2000''); ``Chinese Leaders Call for More Efforts To 
Develop West,'' Xinhua, 6 July 10; ``China's Western Region Development 
Plan a Dual Strategy,'' Xinhua, 8 July 10 (Deputy Director Du Ying of 
the National Development and Reform Commission said the initiative 
would continue ``in the western region during the next ten years'').
    \179\Liu Sha, ``Investment in Western China Tripled in 2012,'' 
Global Times, 21 December 12.
    \180\Zhu Zhe, ``Lhasa-Xigaze Railway To Open by the End of 2014,'' 
China Daily, 8 November 12. According to the China Daily report, Jampa 
Phuntsog, Chairman of the Standing Committee of the TAR People's 
Congress, provided the date that operation would start. Budget for the 
railway reportedly is 13.3 billion yuan.
    \181\``Tibet Starts Building 5th Civil Airport,'' Xinhua, 30 April 
09. According to the report, ``Construction on the 11-billion-yuan 
[US$1.61 billion] Qinghai-Tibet railway's extension line started in 
2008 and was expected to be completed in 2010.'' The article provided 
the estimated cost as 11 billion yuan.
    \182\``Full Speed Ahead for Tibet Railway Extension,'' Xinhua, 17 
January 12. According to the report, ``The extension of a landmark 
railway from Tibet's capital, Lhasa, to its second-largest city, 
Xigaze, is in full swing and will be completed by 2015, officials said 
Tuesday.''
    \183\Fu Shuangqi et al., ``China Unveils Plan To Streamline 
Gov't,'' Xinhua, 10 March 13; Cheng Yunjie and Chen Siwu, ``Xinhua 
Insight: Parliament Endorses Cabinet Reshuffle, Unleashing China's 
Reform Vitality,'' Xinhua, 14 March 13.
    \184\Cui Jia and Wang Huazhong, ``Doubts Surface Over Reorganizing 
Railways,'' China Daily, 13 March 13. According to the report, Jampa 
Phuntsog (Xiangba Pingcuo) said ``there would be uncertainty if the 
Ministry of Railways ceased to exist because under the current system 
it's easier for the ministry to approve construction plans in the 
region.'' Chairman of the TAR People's Government Lobsang Gyaltsen 
(Luosang Jianzan) reportedly said, ``The cost of building railways in 
high plateau areas is extremely high and it is not something a company 
would like to do if it doesn't make money.'' China Directory 2012, ed. 
Radiopress (Tokyo: JPM Corporation, Ltd., 2011), 432-33. Under the name 
``Qiangba Puncog,'' China Directory provides the positions of Executive 
Deputy Secretary of the TAR Party Committee and Chairman of the 
Standing Committee of the TAR People's Congress; under the name 
``Lobsang Gyaincain,'' it provides the position of member of the 
Standing Committee of the TAR Party Committee.
    \185\For information on the compulsory nature and extent of the 
program, see Human Rights Watch, ```They Say We Should Be Grateful'--
Mass Rehousing and Relocation Programs in Tibetan Areas of China,'' 27 
June 13. Also see Human Rights Watch, ```No One Has the Liberty To 
Refuse'--Tibetan Herders Forcibly Relocated in Gansu, Qinghai, Sichuan, 
and the Tibet Autonomous Region,'' 11 June 07; CECC, ``Special Topic 
Paper: Tibet 2008-2009,'' 22 October 09, 53-54.
    \186\``Tibet To Accelerate Housing Project in Rural Area,'' China 
Tibet Online, 11 January 13, reprinted in China Tibet News.
    \187\Chen Feiyu, ```Five Continued Focuses,' Realize Greater 
Development (Under Guidance of Scientific Development Concept)--
Interview With Tibet CPC Secretary Chen Quanguo'' [``Wu ge ji xu 
zhuoli'' shixian geng da fazhan (zai kexue fazhan guan zhiyin xia)--
fang xizang zizhiqu dangwei shuji chen quanguo], People's Daily, 4 
September 12 (translated in Open Source Center, 21 September 12) (``We 
will ensure that all farmers and herdsmen can live in safe and 
comfortable houses by the end of 2013.'').
    \188\State Council Opinion on Promoting and Speeding Up Sound 
Development in Grazing Areas [Guowuyuan fabu guanyu cujin muqu you hao 
you kuai fazhan de ruogan yijian], PRC People's Central Government, 9 
August 11.
    \189\For information on the March 29, 2013, landslide at a gold 
mine that killed at least 83 workers in Mozhugongka (Maldro Gongkar) 
county, Lhasa municipality, TAR, see, e.g., ``Memorial Service Held for 
Tibet Landslide Victims,'' Xinhua, 4 April 13; International Campaign 
for Tibet, ``Disaster in Gyama Draws Attention to Impact of Mining in 
Tibet,'' 5 April 13; ``More Than 80 Trapped in Tibet Gold Mine 
Landslide,'' Radio Free Asia, 29 March 13. For a 2011 commentary and 
images of mining in the area where the landslide occurred, see ``Using 
Google Earth To Monitor Mining in Tibet 3: Example of Gyama,'' Tibetan 
Plateau (blog), 9 January 11.
    \190\``Mine Ruins River, Destroys Farms,'' Radio Free Asia, 18 
January 13 (``mining operations are damaging the environment in a 
county outside Tibet's regional capital Lhasa, destroying farmers' 
fields and forcing herders to move away from traditional grazing 
areas''); ``Chinese Mine Killing Livestock, Destroying Farm in Tibet,'' 
Phayul, 21 January 13 (``mining project in [Linzhou (Lhundrub) county, 
Lhasa municipality] has forced the eviction of hundreds of Tibetans . . 
. and caused severe damage to the environment, leading to livestock 
deaths and decline in farm yield''); ``Threat To Destroy Chinese 
Abattoir,'' Radio Free Asia, 1 February 13 (residents in Mangkang 
[Markham] county, Changdu [Chamdo] prefecture, TAR, ``threatened to 
destroy a Chinese-operated slaughterhouse polluting local sources of 
drinking water after authorities ignored their petitions to shut it 
down''). For an overview of mining operations and pollution, see 
Richard Finney, ``Chinese Mines Pollute Tibet's Rivers, Streams,'' 
Radio Free Asia, 6 May 13.
    \191\``Thousands of Tibetans Protest Against Mine,'' Radio Free 
Asia, 28 May 13.
    \192\``Tibet To Step Up Exploitation of Mineral Resources, Vowing 
To Be `Rational,''' Xinhua, 12 March 10. According to the report, an 
official described the TAR mining industry as ``fledgling'' and 
``contributing about 3 percent to the local economy.'' ``By 2020, the 
mineral industry would contribute to 30 to 50 percent of Tibet's GDP,'' 
he said.
    \193\Richard Finney, ``Concerns Arise Over China's Dam Building 
Drive in Tibet,'' Radio Free Asia, 17 April 13; Simon Denyer, ``Chinese 
Dams in Tibet Raise Hackles in India,'' Washington Post, 7 February 13; 
``China Announces a Slew of Dams on Brahmaputra and Salween,'' Phayul, 
31 January 13.
    \194\For details on hydropower projects that are currently 
operational, under construction, or proposed, including maps, name 
information in English, Chinese, and Tibetan, and details on capacity 
and height, see ``2013 Update: Dams on the Drichu (Yangtze), Zachu 
(Mekong) and Gyalmo Ngulchu (Salween) Rivers on the Tibetan Plateau,'' 
Tibetan Plateau (blog), 26 March 13.
    \195\In addition to the 328 Tibetans detained on or after March 10, 
2008, whom courts sentenced to imprisonment, are 8 Tibetans believed 
charged with a crime (and who may face trial); 7 Tibetans believed 
charged and tried (and who may have been sentenced); 1 Tibetan who was 
charged, tried, and released; and 1 Tibetan who was charged, tried, and 
then died.
    \196\In addition to the 622 Tibetan political prisoners believed or 
presumed to be currently detained or imprisoned and who were detained 
on or after March 10, 2008, the Commission's Political Prisoner 
Database recorded, as of September 1, 2013, 909 Tibetan political 
prisoners detained or imprisoned on or after March 10, 2008, who are 
believed or presumed to have been released, or who reportedly escaped 
or died.
    \197\Tibetan Buddhists believe that a trulku is a teacher who is a 
part of a lineage of teachers that are reincarnations.
    \198\Of the 176 fixed terms of imprisonment, 171 were judicial 
sentences ranging from 1 year and 6 months to 20 years, and 5 were 
periods of reeducation through labor of 2 years.
    \199\PRC Criminal Law [Zhonghua renmin gongheguo xingfa], issued 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 50. A sentence of 
death with a two-year reprieve may be commuted to life imprisonment 
upon expiration of the two-year suspension if a prisoner ``commits no 
intentional crime'' during the suspension. If a prisoner ``has truly 
performed major meritorious service,'' then the sentence may be 
commuted to a fixed-term sentence of not less than 15 years and not 
more than 20 years. If the prisoner ``has committed an intentional 
crime'' during the period of suspension, the death penalty ``shall be 
executed upon verification and approval of the Supreme People's 
Court.''
    Notes to Section VI--Developments in Hong Kong and Macau

    \1\Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
art. 2 (``high degree of autonomy''), art. 27 (freedoms of speech and 
assembly), art. 32 (freedom of religion), art. 39 (applicability of 
ICCPR).
    \2\Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97,art. 
45 (selection of Chief Executive by universal suffrage), art. 68 
(selection of Legislative Council by universal suffrage).
    \3\UN Human Rights Committee, Concluding Observations on the Third 
Periodic Report of Hong Kong, China, Adopted by the Committee at its 
107th session (11-28 March 2013), CCPR/C/CHN-HKG/CO/3, 29 April 13, 
para. 6.
    \4\Ibid.
    \5\Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China, passed 4 April 90, effective 1 July 97, 
art. 45.
    \6\Decision of the National People's Congress Standing Committee on 
Issues Relating to the Methods for Selecting the Chief Executive of the 
Hong Kong Special Administrative Region and for Forming the Legislative 
Council of the Hong Kong Special Administrative Region in the Year 2012 
and on Issues Relating to Universal Suffrage [Quanguo ren da 
changweihui guanyu xianggang tebie xingzheng qu 2012 nian xingzheng 
zhangguan he lifahui chansheng banfa ji youguan puxuan wenti de 
jueding], passed 29 December 07.
    \7\UN Human Rights Committee, Consideration of Reports Submitted by 
States Parties Under Article 40 of the Covenant, Third Periodic Report 
of States Parties, Hong Kong, China, CCPR/C/CHN-HKG/3, 19 July 11. The 
document is a report by the Hong Kong Special Administrative Region 
government to the UN Human Rights Council.
    \8\Legislative Counsel of the Hong Kong Special Administrative 
Region of the People's Republic of China, ``LegCo Today,'' last visited 
2 October 13; Bill K. P. Chou, ``Elections in Hong Kong: International 
Perspectives and Implications for China,'' in China and East Asia: 
After the Wall Street Crisis, eds. Peng Er Lam et al. (Singapore: World 
Scientific Publishing Co. Pte. Ltd., 2013), 82 (Chief Executive 
election), 88-89 (Legislative Council's corporate electors, electors 
with multiple votes), 89 (electorate size for functional 
constituencies).
    \9\``Occupy Central Movement Gaining Support Among Young,'' South 
China Morning Post, 2 July 13; Joshua But and Emily Tsang, ``Occupy 
Central Poised To Top July 1 Donation Chart,'' South China Morning 
Post, 3 July 13.
    \10\Joshua But and Gary Cheung, ``Occupy Central Pioneer Outlines 
Its Four-Stage Plan To Achieve Democracy,'' South China Morning Post, 
28 March 13.
    \11\Hong Kong Special Administrative Region Information Services 
Department, ``Curriculum Guide of Moral and National Education Subject 
Formally Shelved (Press Release),'' 8 October 12.
    \12\Keith Bradsher, ``Hong Kong Retreats on `National Education' 
Plan,'' New York Times, 8 September 13.
    \13\Stuart Lau and Joshua But, ``CY Leung Won't Be Drawn on PLA 
Help for Occupy Central,'' South China Morning Post, 12 July 13; 
Chester Yung and Te-Ping Chen, ``Thousands in Hong Kong Mark Handover 
With Rally for Democracy,'' Wall Street Journal, 1 July 13; Tony 
Cheung, ``Leung Chun-Ying Says Beijing's Consent To Start Reform Talks 
Not Needed,'' South China Morning Post, 4 May 13.
    \14\Phila Siu et al., ``Call To Put Off Suffrage Debate Is Panned 
as `Stalling Tactic,''' South China Morning Post, 24 June 13.
    \15\CECC, 2012 Annual Report, 10 October 12, 169.
    \16\Zhang Xiaoming, ``Director Zhang Xiaoming Replies to Civic 
Party Leader Alan Leong's Letter'' [Zhang xiaoming zhuren huifu 
gongmindang dangkui liang jiajie de xin], Liaison Office of the Central 
People's Government in the Hong Kong S.A.R., 30 August 13; Tanna Chong, 
``Civil Nomination Proposal Violates Basic Law, Says Zhang Xiaoming,'' 
South China Morning Post, 13 September 13.
    \17\Te-Ping Chen, ``Communist Party Douses Hong Kong Hopes for Full 
Democracy,'' Wall Street Journal, 13 September 13.
    \18\Liaison Office of the Central People's Government in the Hong 
Kong Special Administrative Region, ``Qiao Xiaoyang's Remarks at a Hong 
Kong Conference With Select Legislative Council Members'' [Qiao 
xiaoyang zai xianggang lifahui bufen yiyuan zuotanhui shang de 
jianghua], 27 March 13.
    \19\Ibid.
    \20\Keith Bradsher, ``Hong Kong Court Denies Residency to 
Domestics,'' New York Times, 25 March 13.
    \21\Ibid.
    \22\``US Got NSA Leaker Edward Snowden's Middle Name Wrong, Says 
Hong Kong,'' Associated Press, reprinted in Guardian, 26 June 13.
    \23\Jane Perlez and Keith Bradsher, ``China Said To Have Made Call 
To Let Leaker Depart,'' New York Times, 23 June 13.
    \24\Ibid.
    \25\Hong Kong Journalists Association, ``Dark Clouds on the 
Horizon--Hong Kong's Freedom of Expression Faces New Threats, 2013 
Annual Report,'' July 2013, 8-9.
    \26\Ng Kang-chung, ``Next Media Dangles HK$1M Carrot To Hunt Down 
Attackers,'' South China Morning Post, 1 July 13.
    \27\Hong Kong Journalists Association, ``Dark Clouds on the 
Horizon--Hong Kong's Freedom of Expression Faces New Threats, 2013 
Annual Report,'' July 2013, 8-9; Johnny Tam, ``Leung Chun-Ying 
`Failing' on Press Freedom, Says Journalist Group,'' South China 
Morning Post, 8 July 13.
    \28\Hong Kong Journalists Association, ``Survey on Press Freedom 
Under the Tsang Administration (2005-12),'' 24 June 12.
    \29\Freedom House, ``Freedom of the Press 2013, Hong Kong,'' 2013.
    \30\Hong Kong Journalists Association, ``Dark Clouds on the 
Horizon--Hong Kong's Freedom of Expression Faces New Threats, 2013 
Annual Report,'' July 2013, 15.
    \31\Ibid.
    \32\Nicholas Frisch, ``Hong Kong's Blind Spot,'' Wall Street 
Journal, 25 November 11; ``Memory Hole,'' Economist, 12 April 13; Te-
Ping Chen, ``Hong Kong's Skyscraper-Sized `Memory Hole,''' Wall Street 
Journal, 25 January 13.
    \33\Te-Ping Chen, ``Hong Kong's Skyscraper-Sized `Memory Hole,''' 
25 January 13.
    \34\The Law Reform Commission of Hong Kong, ``Archives Law,'' last 
visited 11 September 13.
    \35\Office of the Ombudsman, ``Press Release--Ombudsman Probes 
Access to Information and Records Management in Hong Kong,'' 20 January 
13.
    \36\Financial Services and the Treasury Bureau, ``New Arrangement 
for the Inspection of Personal Information on the Companies Register 
Under the New Companies Ordinance,'' Legislative Council Panel on 
Financial Affairs, CB(1)788/12-13(01), 28 March 13; Nick Frisch, ``Hong 
Kong's Tainted Transparency,'' Wall Street Journal, 19 February 13; 
``Hong Kong Company Director Privacy Plan Raises Transparency 
Concerns,'' Associated Press, reprinted in Guardian, 10 January 13; 
``Of Privacy and Opacity,'' Economist, 2 March 13.
    \37\Nick Frisch, ``Hong Kong's Tainted Transparency,'' Wall Street 
Journal, 19 February 13. See also ``Hong Kong Company Director Privacy 
Plan Raises Transparency Concerns,'' Associated Press, reprinted in 
Guardian, 10 January 13; ``Of Privacy and Opacity,'' Economist, 2 March 
13.
    \38\Basic Law of the Macao Special Administrative Region of the 
People's Republic of China, passed 31 March 93, effective 20 December 
99, art. 40 (``The provisions of International Covenant on Civil and 
Political Rights, International Covenant on Economic, Social and 
Cultural Rights . . . as applied to Macao shall remain in force and 
shall be implemented through the laws of the Macao Special 
Administrative Region'').
    \39\UN Human Rights Committee, International Covenant on Civil and 
Political Rights, Concluding Observations on the Initial Report of 
Macao, China, Adopted by the Committee at its 107th session (11-28 
March 2013), CCPR/C/CHN-MAC/CO/1, 29 April 13, para. 7.
    \40\Fox Yi Hu, ``Macau Told Not To Tag Along With Hong Kong on 
Universal Suffrage,'' South China Morning Post, 14 August 12.
    \41\``Yu Zhengsheng: Ensuring the Strength of Loving the Nation and 
Loving Hong Kong in the Long-Term Government of Hong Kong and Macau [Yu 
zhengsheng: aiguo aigang liliang zai gangao changqi zhizheng], Wen Wei 
Po, 7 March 13.
    \42\UN Office of the High Commissioner for Human Rights, ``Human 
Rights Committee Considers Report of Macao Special Administrative 
Region of China,'' 19 March 13.
    \43\International Federation of Journalists, ``Media at Risk: Press 
Freedom in China 2012-13,'' January 2013, 49-50; Neil Gough, ``A Loss 
for Words in `Boring' Macau,'' South China Morning Post, 8 August 12.
    \44\Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2012, China 
(Includes Tibet, Hong Kong, and Macau),'' 24 May 12, 146.
    \45\Sum Choi, ``AL Plenary Session: Lawmakers and PJ Head Debate on 
Journalists Values,'' Macau Daily Times, 17 April 13; Sum Choi, ``Jason 
Chao Turns the Tables on the Gov't,'' Macau Daily Times, 26 February 
13.
    \46\``Macau's Gambling Industry,'' Economist, 10 December 11; ``The 
House Is Still Winning,'' Week in China, 10 May 13.
    \47\``The House Is Still Winning,'' Week in China, 10 May 13; Matt 
Isaacs, ``Special Report: The Macau Connection,'' Reuters, 11 March 11. 
For more information on Macau's junket system, see Farah Master, 
``Factbox: How Macau's Casino Junket System Works,'' Reuters, 21 
October 11.
    \48\Farah Master, ``Gamblers Not So Anonymous: Beijing Keeps Closer 
Eye on Macau,'' Reuters, 29 April 13. According to this article, casino 
and junket operators ``helped bring in over two-thirds of Macau's $38 
billion in revenues last year.'' See also ``The House Is Still 
Winning,'' Week in China, 10 May 13; CECC, 2011 Annual Report, 10 
October 11, 224.
    \49\``The House Is Still Winning,'' Week in China, 10 May 13.
    \50\Farah Master, ``Gamblers Not So Anonymous: Beijing Keeps a 
Closer Eye on Macau,'' Reuters, 29 April 13; Farah Master, ``China 
Takes Anti-Corruption Drive to Macau's Casino Halls,'' Reuters, 4 
December 12.
    \51\Farah Master, ``Gamblers Not So Anonymous: Beijing Keeps a 
Closer Eye on Macau,'' Reuters, 29 April 13.
    \52\Macau and Hong Kong, Hearing of the U.S.-China Economic and 
Security Review Commission, 27 July 13, Testimony of Daniel L. Glaser, 
Assistant Secretary for Terrorist Financing, U.S. Department of the 
Treasury, 3-4.
    \53\Ibid.
    \54\``Cross-Border Cash Flow Controls Mooted: Report,'' Macau 
Business, 5 July 13.

                                 <all>
</pre></body></html>
